<html>
<title> - SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                       SUBCOMMITTEE ON NUTRITION

                                AND THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            FEBRUARY 25, 26;
                            APRIL 15, 2015;
                           MAY 20, 2015; AND
                             JUNE 10, 2015

                               ----------                              

                            Serial No. 114-3

                               ----------                              

                                 Part 1

                               ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov














               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                       SUBCOMMITTEE ON NUTRITION

                                AND THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 25, 26;
                            APRIL 15, 2015;
                           MAY 20, 2015; AND
                             JUNE 10, 2015

                               __________

                            Serial No. 114-3

                               __________

                                 Part 1

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-961 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
TOM EMMER, Minnesota 
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi 

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

                       Subcommittee on Nutrition

                  JACKIE WALORSKI, Indiana, Chairwoman

RANDY NEUGEBAUER, Texas              JAMES P. McGOVERN, Massachusetts,  
GLENN THOMPSON, Pennsylvania         Ranking Minority Member
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALMA S. ADAMS, North Carolina
VICKY HARTZLER, Missouri             MICHELLE LUJAN GRISHAM, New Mexico
DAN BENISHEK, Michigan               PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 BRAD ASHFORD, Nebraska
DAVID ROUZER, North Carolina         SUZAN K. DelBENE, Washington
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan

                                  (ii)


---------------------------------------------------------------------------
     Editor's note: Hon. Tom Emmer, a Representative in Congress from 
Minnesota resigned from the House Committee on Agriculture on May 19, 
2015.
     Editor's note: Hon. Trent Kelly, a Representative in Congress 
from Mississippi was appointed to the House Committee on Agriculture on 
June 10, 2015.
---------------------------------------------------------------------------












                                     
                             C O N T E N T S

                              ----------                              
                                                                   Page

              Full Committee--Wednesday, February 25, 2015

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     3

                               Witnesses

Besharov, Douglas J., Norman & Florence Brody Professor, 
  University of Maryland School of Public Policy; Senior Fellow, 
  The Atlantic Council, College Park, MD.........................     4
    Prepared statement...........................................     6
Greenstein, Robert, Founder and President, Center on Budget and 
  Policy Priorities, Washington, D.C.............................    22
    Prepared statement...........................................    24

         Subcommittee on Nutrition--Thursday, February 26, 2015

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................    86
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................    86
    Supplementary material.......................................   149
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................    83
    Prepared statement...........................................    85
    Submitted reports............................................   141
    Submitted letter.............................................   146

                               Witnesses

Cunnyngham, Karen, Senior Researcher, Mathematica Policy 
  Research, Washington, D.C......................................    87
    Prepared statement...........................................    89
    Supplementary material.......................................   149
Mills, Ph.D., Gregory B., Senior Fellow, Urban Institute, 
  Washington, D.C................................................    95
    Prepared statement...........................................    97
Ziliak, Ph.D., James P., Founding Director, Center for Poverty 
  Research; Professor and Carol Martin Gatton Endowed Chair in 
  Microeconomics, Department of Economics, University of 
  Kentucky, Lexington, KY........................................   103
    Prepared statement...........................................   104
Tordella, Stephen J., President, Decision Demographics, 
  Arlington, VA..................................................   114
    Prepared statement...........................................   115

               Full Committee--Wednesday, April 15, 2015

Adams, Hon. Alma S., a Representative in Congress from North 
  Carolina, prepared statement...................................   159
    Submitted statement on behalf of Clyde W. Fitzgerald, Jr., 
      Executive Director, Second Harvest Food Bank of Northwest 
      North Carolina.............................................   222
Bustos, Hon. Cheri, a Representative in Congress from Illinois, 
  prepared statement.............................................   159
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   155
    Prepared statement...........................................   156
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  prepared statement.............................................   158
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   157

                               Witnesses

Maehr, Kate, Executive Director and Chief Executive Officer, 
  Greater Chicago Food Depository, Chicago, IL...................   160
    Prepared statement...........................................   161
    Supplementary material.......................................   219
    Submitted questions..........................................   224
Green-Patton, Keleigh, Chicago's Community Kitchens, Chicago, IL.   163
    Prepared statement...........................................   165
Kunz, Dustin, Research Manager; Salesforce Administrator and 
  Developer, Texas Hunger Initiative, Baylor University, Waco, TX   166
    Prepared statement...........................................   168
    Supplementary material.......................................   220
    Submitted questions..........................................   227
Ender, Lynda Taylor, AGE (Advocacy Group for Elders) Director, 
  The Senior Source, Dallas, TX..................................   171
    Prepared statement...........................................   172
Webb, Jonathan, Director, Foundations and Community Engagement, 
  Feed the Children, Edmond, OK..................................   179
    Prepared statement...........................................   180

                           Submitted Material

MAZON: A Jewish Response to Hunger...............................   223

           Subcommittee on Nutrition--Wednesday, May 20, 2015

McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   233
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................   231
    Prepared statement...........................................   232

                               Witnesses

Brown, Kay E., Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office, Washington, 
  D.C............................................................   234
    Prepared statement...........................................   236
    Supplementary material.......................................   281
Rachidi, Ph.D., Angela K., Research Fellow in Poverty Studies, 
  American Enterprise Institute, Washington, D.C.................   246
    Prepared statement...........................................   248
    Supplementary material.......................................   281
    Submitted question...........................................   296
Nader, Joseph, Executive Chef, Levy Restaurants and Detroit 
  Lions; Volunteer Chef, Share Our Strength's Cooking Matters, 
  Detroit, MI....................................................   251
    Prepared statement...........................................   253
    Supplementary material.......................................   281
Tussler, Sherrie, Executive Director, Hunger Task Force, 
  Milwaukee, WI..................................................   254
    Prepared statement...........................................   256
    Supplementary material.......................................   283

                           Submitted Material

Packett, Barb, Chair, Education/Public Policy Committee, National 
  CSFP Association, submitted letter.............................   284

                Full Committee--Wednesday, June 10, 2015

Adams, Hon. Alma S., a Representative in Congress from North 
  Carolina, submitted letter; on behalf of Clyde W. Fitzgerald, 
  Jr., Executive Director, Second Harvest Food Bank of Northwest 
  NC.............................................................   355
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   299
    Prepared statement...........................................   300
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   301
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   301

                               Witnesses

Raglow, Patrick J., Executive Director, Catholic Charities of the 
  Archdiocese of Oklahoma City, Oklahoma City, OK................   302
    Prepared statement...........................................   304
Submitted question...............................................   356
Samuels, Jr., Leon A., Executive Director, STRIVE DC, Washington, 
  D.C............................................................   308
    Prepared statement...........................................   309
Babcock, MCRP, Ph.D., Elisabeth D., President and Chief Executive 
  Officer, Crittenton Women's Union, Boston, MA..................   311
    Prepared statement...........................................   313
Collins II, Grant E., Senior Vice President, Workforce 
  Development and Executive Director, Fedcap Rehabilitation 
  Services, Inc., New York, NY...................................   320
    Prepared statement...........................................   322



 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

(THE PAST, PRESENT, AND FUTURE OF THE SUPPLEMENTAL NUTRITION ASSISTANCE 
                                PROGRAM)

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:59 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Rogers, Thompson, 
Gibbs, Crawford, Gibson, Benishek, LaMalfa, Davis, Yoho, 
Walorski, Allen, Rouzer, Abraham, Newhouse, Peterson, David 
Scott of Georgia, Walz, Fudge, McGovern, DelBene, Vela, Lujan 
Grisham, Kuster, Bustos, Maloney, Kirkpatrick, Aguilar, 
Plaskett, Adams, Graham, and Ashford.
    Staff present: Anne DeCesaro, Carly Reedholm, Haley Graves, 
Jackie Barber, Leah Christensen, Mary Nowak, Matt Schertz, Paul 
Balzano, Scott Graves, Ted Monoson, Faisal Siddiqui, John 
Konya, Andy Baker, Anne Simmons, Lisa Shelton, Liz Friedlander, 
and Nicole Scott

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. This hearing of the Committee on Agriculture 
to review the past, present, and future of the Supplemental 
Nutrition Assistance Program, will come to order. Please join 
me in a brief prayer. Heavenly Father, we ask you to be with us 
this morning, to grant us wisdom, discernment and knowledge. 
Help us have an openness to all points of view as we consider 
this very important program, its impact on the lives of 
Americans. Dear Lord, please be with those men and women who 
protect our rights and freedoms around this world, and their 
families. We ask these things in Jesus' name. Amen.
    The hearing comes to order, and I want to welcome 
everybody. I would like to welcome our witnesses to today's 
hearing, and thank them for taking the time to share their 
thoughts and answer our questions about the Supplemental 
Nutrition Assistance Program. It is the largest program under 
the Committee's jurisdiction, and today's hearing marks the 
beginning of a top-to-bottom review of the program. We will 
conduct this review without preconceived notions and with a 
commitment to strengthening the program so it can serve as a 
tool to help individuals move up the economic ladder.
    SNAP has grown from a pilot program that served just 
500,000 people in 1964, to a program that at its peak during 
the recession served more than 47 million Americans. Being 
post-recession and post-farm bill reauthorization, we are in a 
unique position of being able to conduct a proactive review of 
the SNAP program, ensuring the program is prepared to address 
current and future challenges. There are also a number of 
bipartisan reforms enacted in the Agricultural Act of 2014, 
including new work pilots, which have not been fully 
implemented. Evaluating those important reforms will be a part 
of our review.
    Another key aspect to be included in this review is the 
private social services sector. From churches to not-for-
profits and local food banks, they serve as important partners 
in the delivery of critical food assistance in communities 
across this country.
    While the economy has changed and other welfare programs 
have adjusted to meet changing needs, it does not appear that 
SNAP has. We have seen the overall unemployment rate fall, yet 
the number of long-term unemployed remains high. The lengthy 
recovery following the 2009 recession has brought in a new 
group of healthy, working-age recipients, who in the past had 
not used SNAP. This is a new dynamic not previously experienced 
following other recessions when periods of unemployment spells 
were much shorter.
    Some programs have responded to the changing needs of its 
target population. We have watched as TANF, Temporary 
Assistance for Needy Families, program has moved increasingly 
toward more services, such as transportation and child care, as 
compared to cash assistance, in order to better support the 
needs of working parents.
    We can all agree that no one ought to go hungry in America, 
and SNAP is essential in protecting the most vulnerable 
citizens during tough times. For many it is a vital lifeline to 
keeping food on the table. What we don't want is for this 
program to hold people back from achieving their potential. I 
believe there is a role for SNAP, but we need to have a 
complete, clear understanding of its mission and purpose.
    I look forward to hearing from our witnesses today as we 
explore where this program has been, were it is now, and what 
it could be for participants and taxpayers in the future.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to share their thoughts and answer our questions 
about the Supplemental Nutrition Assistance Program. It is the largest 
program under the Committee's jurisdiction, and today's hearing marks 
the beginning of a top-to-bottom review of the program. We will conduct 
this review without preconceived notions and with a commitment to 
strengthening the program so it can serve as a tool to help individuals 
move up the economic ladder.
    SNAP has grown from a pilot program that served just 500,000 people 
in 1964 to a program that at its peak during the recession served more 
than 47 million Americans. Being post-recession and post-farm bill 
reauthorization, we are in the unique position of being able to conduct 
a proactive review of SNAP, ensuring the program is prepared to address 
current and future challenges. There are also a number of bipartisan 
reforms enacted in the Agricultural Act of 2014, including new work 
pilots, which have not been fully implemented. Evaluating those 
important reforms will be a key part of our review.
    Another key aspect to be included in this review is the private 
social services sector. From churches to nonprofits and local food 
banks, they serve as important partners in the delivery of critical 
food assistance in communities across the country.
    While the economy has changed and other welfare programs have 
adjusted to meet changing needs, it does not appear that SNAP has. We 
have seen the overall unemployment rate fall, yet the number of long-
term unemployed remains high. The lengthy ``recovery'' following the 
2009 recession has brought in a new group of healthy, working age 
recipients, who in the past had not used SNAP. This is a new dynamic 
not previously experienced following other recessions when periods of 
unemployment were much shorter.
    Some programs have responded to the changing needs of its target 
population. We've watched as the Temporary Assistance for Needy 
Families, or TANF, program has moved increasingly toward more services, 
such as transportation and child care, compared to cash assistance, in 
order to better support the needs of working parents.
    We can all agree that no one ought to go hungry in America, and 
SNAP is essential in protecting the most vulnerable citizens during 
tough times. For many it is a vital lifeline to keeping food on the 
table. What we don't want is for this program to hold people back from 
achieving their potential. I believe there is a role for SNAP, but we 
need to have a complete and clear understanding of its mission and 
purpose.
    I look forward to hearing from our witnesses today as we explore 
where this program has been, were it is now, and what it could be for 
recipients and taxpayers in the future.

    The Chairman. I now yield to the Ranking Member for his 
statement.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. And I am pleased to 
be here today with the Committee as we begin the review of the 
SNAP program. I think it is important that the Committee learn 
as much as we can about programs under our jurisdiction, and 
that is why I am supportive of the reviews the Chairman plans 
to undertake in this Congress.
    I hope this will be an opportunity to get past the rhetoric 
on both sides and get a better understanding of how SNAP works, 
who the program serves, and what, if anything, can be done to 
make it better. And while I support this review, I hope the 
Committee will focus on some of the things that are 
problematic, and not some of the rhetoric that we have seen in 
the past. Some people in your leadership overplayed their 
hands, and you lost the opportunity to reform that we could 
have done back in 2013, and it still is a problem for me that 
we have a system where some states, where they're using this 
categorical eligibility, they are using the TANF guidelines to 
determine who gets benefits. The Federal rule is 130 percent, 
but if your TANF is above that, that is what you may use. So in 
my area, in Moorhead, Minnesota, Minnesota is at 165 percent of 
poverty. That is what you have to meet to qualify. But in North 
Dakota, across the river, they use 200 percent. So you have 
people in the same community basically being treated completely 
differently. In Texas, it is 165 percent. In Arizona, it is 185 
percent. What sense does this make?
    Now, this was put in place to make it easier for the people 
to administer the program, supposedly. And I guess that is 
fine, but I just think one of the big problems of the system is 
that we treat people differently in different parts of the 
country, and I don't think it is right.
    And the other thing everybody fixates on: work 
requirements. I was here when we did the work requirements and 
I supported it back in TANF, but when we have looked at this in 
SNAP, and when we have administered it, we have always put in 
waivers. And so you have all parts of the country where there 
are no work requirements because they have waivers. And to be 
honest, those areas are going to have waivers forever, no 
matter what we do. What sense does that make?
    Now, in my area, we have a company--the biggest problem I 
have in my area is I hear from everybody we can't find enough 
people to fill the jobs that we have. Every place. We have two, 
three percent unemployment. We have a company that is paying 
$16.50 an hour to start. They pay your full healthcare: 100 
percent. They are advertising on television every day and they 
still can't get enough workers to fill the jobs. They have 
3,000 people working. And then we are going to jerry rig the 
whole system because of work requirements?
    So I hope that whatever we end up doing with SNAP--first of 
all, I don't think we should do anything because we did the 
farm bill, and it is a 5 year bill and they had their chance 
and it didn't get done. But if we are going to look at 
anything, we have to look at how we treat people differently in 
different parts of the country. I just don't think it is right, 
and in the review, I hope we take a look at that.
    So I look forward to hearing the testimony, and we will see 
how all this goes. I yield back.
    The Chairman. I thank the gentleman. The gentleman yields 
back.
    The chair requests that other Members submit their opening 
statements for the record so that the witnesses may begin their 
testimony to ensure there is ample time for questions.
    I would like to welcome to our witness table today Mr. Doug 
Besharov, Professor at the School of Public Policy, University 
of Maryland, College Park, Maryland; and Mr. Robert Greenstein, 
Director, Center on Budget and Policy Priorities in Washington, 
D.C.
    Mr. Besharov, the microphone is yours, and begin when you 
are ready.

           STATEMENT OF DOUGLAS J. BESHAROV, NORMAN &
  FLORENCE BRODY PROFESSOR, UNIVERSITY OF MARYLAND SCHOOL OF 
               PUBLIC POLICY; SENIOR FELLOW, THE
               ATLANTIC COUNCIL, COLLEGE PARK, MD

    Mr. Besharov. Chairman Conaway, Ranking Member Peterson, 
and Members of the Committee, thank you for inviting me to 
testify about this very important topic.
    I am a Professor, as Chairman Conaway mentioned, at the 
University of Maryland, where I teach courses on poverty 
alleviation and program evaluation, and I am also a Senior 
Fellow at the Atlantic Council, where I conduct research on 
international competitiveness and comparative domestic policy.
    SNAP is a large and complicated program. Together with 
other safety net programs, civil rights advances and economic 
growth, SNAP has eradicated income-related severe hunger and 
malnutrition among the poor that motivated its original 
creation.
    I was in Mississippi in 1967, and I saw starvation and 
malnutrition up close. As a civil rights worker in the 
Mississippi Delta, I literally carried young African-American 
children who were ill and malnourished into hospitals that 
otherwise would not treat them. We would walk in and we would 
say, if you don't accept this child, Marian Wright--her name 
was Marian Wright in those days, not Marian Wright Edelman, 
will be here tomorrow morning with a subpoena.
    So I saw hunger and starvation up close. And the parties 
have switched. Those were the days when the Democratic Party 
held great sway in the South, and it was the southern 
leadership of the Congress that made it extremely difficult to 
get African-Americans on welfare, and there was starvation. The 
role of the food stamp program was a way around that exclusion, 
and the major expansions, for example, occurred under President 
Nixon as well as Democratic Presidents.
    But that was then and this is now. SNAP's basic framework 
is anchored in the past. As my testimony describes, and as Bob 
Greenstein's describes, SNAP is now America's major social 
welfare program, it is an income supplementation program. His 
graphs and mine tell about the same story. It played an 
important role in the last recession. This is a worthy role. I 
will show you a few graphs in a minute, but what the story 
today is, the role of the program has to change. We are not in 
1967 Mississippi, we are in a program with a $75 billion price 
tag that is income support, and should be treated as an income 
support program.
    Based on my research, there is a great need to modernize 
the program and to coordinate it with TANF, with unemployment 
insurance, with SSI, with SSDI, and as well, the earned income 
tax credit. There are also small wrinkles that create, as Mr. 
Peterson said, oddities like eligibility at 200 percent of the 
poverty line in some states. We also have a major issue, in my 
opinion. The rule about household income essentially encourages 
cohabiters to not report that they are sharing a household, and 
it definitely discourages them from getting married. The moment 
they get married, if he has income or if she has sufficient 
income, the food stamp benefit goes to 0. So we have a 
possibility of a marriage disincentive, we have a possibility 
of a work disincentive.
    My bottom line I will get to in a minute, but let me draw 
your attention to Figure 1, which is on page 3 of my 
testimony--I am embarrassed, I don't have overheads like Bob, 
but we have--I only have two graphs. Figure 1, Bob has these 
data as well, shows the growth and enrollment of TANF, or not 
growth in TANF, UI, disability and SNAP, and I would draw your 
attention to a few things there. First, TANF caseloads have 
hardly grown since 2005, even in the face of massive economic 
disruption, and you can see the disruption in the figures for 
UI and unemployment. Unemployment, of course, went way up in 
the Great Recession.
    What filled in for the needs of people who were unemployed, 
and the answer is, as you can see from the graph, are SNAP, and 
to a much lesser extent but also a real extent, disability. It 
was in the states' interest to put people on SNAP and 
disability, as opposed to TANF. With TANF, every additional 
person on TANF is a 100 percent state cost. I will say that 
again, a 100 percent state cost. And every additional person 
put on SNAP is 100 percent Federal cost. The temptation is too 
great. The need to fix these problems, in my opinion, is great.
    Let me draw your attention to Figure 2. Again, Mr. Peterson 
talked about the apparent great need for entry-level employees. 
There is an argument in the field about how much programs like 
SNAP and UI, discourage people from looking for work, for being 
in work. We could spend weeks on this conversation. Let me say 
that in the U.S., this is a long-term trend. I picked out some 
numbers from my testimony. In 1970, 96 percent of low-education 
whites and blacks, 96 percent were working. In 2012 it was 79 
percent. For those whites and blacks without a high school 
diploma, the figure went from 89 percent to 70 percent. This is 
important not just because we worry about the well-being of 
people who are not working, but as President Obama's chairman 
of economic advisors has said, to get this economy moving at 
full speed, we need a much higher percentage of the working-age 
population working. In this graph, you can see even as 
unemployment has gone down, even as GDP has gone up, both labor 
force participation, the top line, and the more telling 
employment-to-population ratio, have gone down, which is to say 
historically, we have a much smaller percentage of our 
population working. That is sort of like fighting the vestiges 
of the past recession with one hand behind our backs.
    Everyone from the President to The Washington Post to The 
New York Times identifies low labor force participation as a 
serious problem. Janet Yellen calls it hidden or shadow 
unemployment.
    I believe these issues are connected. It doesn't mean we 
should throw everyone off SNAP, but it does mean that SNAP and 
other income or means-tested programs have to adjust to this 
new reality.
    Thank you very much, and I think, if I am looking at this 
time, I went over. My apologies.
    [The prepared statement of Mr. Besharov follows:]

   Prepared Statement of Douglas J. Besharov, Norman & Florence Brody
   Professor, University of Maryland School of Public Policy; Senior
             Fellow, The Atlantic Council, College Park, MD
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, thank you for inviting me to testify on this important 
topic.
    My name is Douglas Besharov, and I am a Professor at the University 
of Maryland School of Public Policy, where I teach courses on poverty 
alleviation and program evaluation. I also direct our Welfare Reform 
Academy (WRA) and our Center for International Policy Exchanges (CIPE). 
I am also a Senior Fellow at the Atlantic Council, where I conduct 
research on international competitiveness and comparative domestic 
policy.
    The Supplemental Nutrition Assistance Program (SNAP) is a large and 
complicated program. Together with other safety-net programs, civil 
rights advances, and economic growth, SNAP eradicated income-related, 
severe hunger and malnutrition among the poor that motivated the 
program's creation.
    In the summer of 1967, I saw American starvation and malnutrition 
up close. As a civil rights worker in the Mississippi Delta, I 
(literally) carried ill and malnourished black children into hospitals. 
(The hospitals--without this then-law student from the North standing 
in the admitting room and threatening a lawsuit--ordinarily refused to 
treat poor African Americans.) The children were starving because their 
families had no money to buy food. Making things worse, many black 
families were denied welfare, simply because of their race. (I saw 
mothers with young children who applied for welfare being offered bus 
tickets to Chicago.)
    SNAP's basic shape, however, is anchored in the past--even as the 
needs of recipients and the U.S. economy have changed. As a result, 
major issues before the Congress are the recent growth of the SNAP 
caseload and its behavioral and budgetary implications for the 
country.\1\
---------------------------------------------------------------------------
    \1\ See generally, Randy A. Aussenberg, Reauthorization of SNAP and 
Other Nutrition Programs in the Next Farm Bill: Issues for the 113th 
Congress (Washington, D.C.: Congressional Research Service, December 
2013), https://www.fas.org/sgp/crs/misc/R43332.pdf (accessed February 
23, 2015).
---------------------------------------------------------------------------
    A main reason SNAP (formally the Food Stamp Program) enjoys wide 
political support is that the public continues to view it as an anti-
hunger program when, for many recipients, it is really an income-
supplementation program. This is also a worthy purpose, but because the 
program was not designed for that purpose, the result is a program that 
has many unintended and, many believe, negative effects.
    Therefore, I applaud this Committee's multi-faceted re-examination 
of the program, its past, present, and future. Based on my research and 
analysis, I think the key challenge is to modernize a massive program 
that started as a small program of food assistance to become the 
primary U.S. program of income support. As I describe below, that would 
mean coordinating the SNAP program with Temporary Assistance for Needy 
Families (TANF), Unemployment Insurance, Supplemental Security Income 
(SSI) and Social Security Disability Insurance (SSDI), and the Earned 
Income Tax Credit (EITC) and other tax credits. In doing so, there 
should be an effort to rationalize the current patchwork of programs 
that make up the U.S. safety-net in a way that balances what looks to 
be long-term weak demand for labor economic with the need to minimize 
the work and marriage disincentives in current law. (See Figure 1.)
Figure 1
Unemployment and Enrollment in Select Cash and Noncash Government 
        Programs
2005-2013

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: All data are from most recent year available.
Program Origins
    In 1939, the Congress authorized the United States Department of 
Agriculture (USDA) to implement a Food Stamp Program for individuals 
receiving direct relief payments. Individuals who bought orange ``food 
stamps'' at face value (accepted by store owners for any product) were 
given free blue stamps worth 50 percent of the value of the orange 
stamps. (This amounted to a \1/3\ subsidy up to $0.75 worth of food. 
That would be $12.77 in 2014 dollars.) The blue stamps could only be 
used to ``purchase'' ``surplus food,'' that is, food that the Federal 
Government had purchased from farmers (to place a floor on its price). 
This food stamp program was ended in 1943, after general economic 
conditions had improved as a result of the World War II 
mobilization.\2\
---------------------------------------------------------------------------
    \2\ Dennis Roth, Food Stamps, 1932-1977: From Provisional and Pilot 
Programs to Permanent Policy (Washington, D.C.: U.S. Department of 
Agriculture, July 2013),  http://www.nal.usda.gov/ric/ricpubs/
foodstamps.htm (accessed February 16, 2015).
---------------------------------------------------------------------------
    Through the 1950s and early 1960s, the Federal Government continued 
to distribute surplus food, essentially by providing the food to local 
social welfare organizations such as food banks. Over time, support 
grew for a revived, food stamp-type program on the grounds that it 
would be more effective than direct distribution of surplus food. In 
1961, President John Kennedy, who, as a senator, had introduced a bill 
to create a food stamp program, issued an executive order that created 
a pilot Food Stamp Program and also proposed legislation to create a 
permanent program. The Food Stamp Act passed in 1964, making the 
program permanent, but for the first few years, it remained relatively 
small. Localities were not required to implement the program, and some 
decided against doing so.\3\
---------------------------------------------------------------------------
    \3\ Dennis Roth, Food Stamps, 1932-1977: From Provisional and Pilot 
Programs to Permanent Policy (Washington, D.C.: U.S. Department of 
Agriculture, July 2013), http://www.nal.usda.gov/ric/ricpubs/
foodstamps.htm (accessed February 16, 2015); and U.S. Department of 
Agriculture, ``A Short History of SNAP,'' http://www.fns.usda.gov/snap/
short-history-snap (accessed February 16, 2015).
---------------------------------------------------------------------------
    In 1967, Senator Robert F. Kennedy famously visited rural 
Mississippi (with the national media accompanying him) to document that 
hunger was a serious problem for poor, even with the new food stamp 
program. In his words, they saw black children with ``bellies . . . 
swollen with hunger.'' \4\
---------------------------------------------------------------------------
    \4\ John F. Kennedy Presidential Library and Museum, ``Robert F. 
Kennedy,'' http://www.jfklibrary.org/JFK/The-Kennedy-Family/Robert-F-
Kennedy.aspx (accessed February 25, 2015).
---------------------------------------------------------------------------
    One of the reasons that the problem was greatest in the rural South 
is that many local welfare agencies systematically excluded African 
Americans families from AFDC and other cash benefits. In the ensuing 
years, various steps were taken to alleviate malnutrition, particularly 
by increasing access to food stamps. An important step was 1970 
legislation (proposed by President Richard Nixon) that removed the 
provision that food stamp recipients pay a defined amount of their 
income in order to receive food stamps (the ``purchase requirement'') 
for families with incomes below $30 a month (about $185 a month in 2014 
dollars), reduced the purchase requirement for families that did not 
qualify for free food stamps, and increased the value of monthly food 
stamps by about 40 percent.\5\
---------------------------------------------------------------------------
    \5\ Dennis Roth, Food Stamps, 1932-1977: From Provisional and Pilot 
Programs to Permanent Policy (Washington, D.C.: U.S. Department of 
Agriculture, July 2013), http://www.nal.usda.gov/ric/ricpubs/
foodstamps.htm (accessed February 16, 2015); and U.S. Department of 
Agriculture, ``A Short History of SNAP,'' http://www.fns.usda.gov/snap/
short-history-snap (accessed February 16, 2015).
---------------------------------------------------------------------------
    Rather than directly take on the Democrats in control of these 
southern states--as well as powerful Southern Democrats in Congress--
expanded food assistance served as an end run around their opposition. 
Today's program is still shaped by this politically expedient shortcut.
The End of Malnutrition
    As I mentioned, as late as the 1960s, symptoms of malnutrition (and 
especially child malnutrition)--including emaciation, kwashiorkor, 
marasmus, stunting, wasting, and even death--were a reality in America. 
However, the liberalization of AFDC and food stamps in the late 1960s 
and early 1979s, and their consequent large expansions (plus increased 
opportunities for African Americans), all but eradicated these 
conditions. Besides the $75+ billion SNAP program, for example, annual 
Federal expenditures for school breakfasts and lunches have grown to 
$16 billion and for WIC (the Special Supplemental Nutrition Program for 
Women, Infants, and Children) to $6 billion.
    In 1997, Rebecca Blank, who recently served as Acting and Deputy 
Secretary of Commerce in the Obama Administration, reported, ``Evidence 
of severe malnutrition-related health problems has almost disappeared 
in this country.'' \6\ In fact, since the 1970s, the physical 
manifestations of real malnutrition have all but disappeared from the 
nation's health data. Between 1973 and 2011,\7\ the percent of children 
who were underweight declined from 7.3 percent to 3.5 percent and the 
percent of children who were short in stature declined from nine 
percent to 6.3 percent.\8\ (Many of these children suffered from other 
illnesses or diseases that caused their being underweight.) 
Furthermore, over the past thirty-five years, there have been almost 
zero cases of children suffering from protein-energy malnutrition (PEM) 
and, where cases of PEM have been diagnosed in adults, the vast 
majority are the result of chronic diseases or drug addictions, and not 
insufficient food.\9\
---------------------------------------------------------------------------
    \6\ Rebecca Blank, It Takes a Nation (New York: Russell Sage 
Foundation, 1997).
    \7\ The survey cited here, the Pediatric Nutrition Surveillance 
Survey, was discontinued after 2011.
    \8\ Centers for Disease Control, ``2011 Pediatric Nutrition 
Surveillance: National Summary of Trends in Growth and Anemia 
Indicators Children Aged Less Than 5 years,'' http://www.cdc.gov/
pednss/pednss_tables/html/pednss_national_table12.htm (accessed July 
29, 2013).
    \9\ Author's calculations from U.S. Department of Health and Human 
Services, Centers for Disease Control, ``National Hospital Discharge 
Survey,'' http://www.cdc.gov/nchs/nhds/nhds_questionnaires.htm 
(accessed July 29, 2013).
---------------------------------------------------------------------------
    In the face of this progress, advocates turned to estimates of 
``food insecurity'' as a rallying point for continuing and expanding 
SNAP. (So does the Obama Administration.) Every year since 1995, the 
Federal Government has conducted a survey called ``The Food Security 
Survey.'' In 2013, it found that 14.3 percent of American households 
were ``food insecure,'' but many think that this is an artificial 
construct, as it is based on answers to eighteen different questions 
that express some uncertainty about having sufficient financial 
resources to obtain enough food to meet the needs of all household 
members even once in the past year. In the same survey, only 5.6 
percent of all households actually reported that one or more households 
members were hungry--even once in the past year--because they could not 
afford food.\10\ Only 0.9 percent of households with children reported 
that one or more children were hungry at least once during the year. A 
far cry from the 1960s, the formative years for most Federal feeding 
programs. (See Table 1.)
---------------------------------------------------------------------------
    \10\ Alisha Coleman-Jensen, Christian Gregory, and Anita Singh, 
Household Food Security in the United States in 2013 (Alexandria, VA: 
U.S. Department of Agriculture, September 2014), http://
www.ers.usda.gov/media/1565415/err173.pdf (accessed February 23, 2015).

                                 Table 1
                         Food Insecurity/Hunger
                      (even once in the past year)
------------------------------------------------------------------------
                                         Percent Food Insecure (FI)
                                  --------------------------------------
Household Type and Poverty Status                              FI with
                                      All FI      FI with     Hunger of
                                                   Hunger      Children
------------------------------------------------------------------------
All households:
  With and without children              14.3%         5.6%           --
  With children under age 18             19.5%         5.9%         0.9%
Poor households:
  With and without children              42.1%        18.5%           --
  With children under age 18             45.6%           --         2.7%
Households <130% poverty:
  With and without children              38.9%        16.7%           --
  With children under age 18             44.2%           --         2.4%
Households %185% poverty:
  With and without children               6.7%         2.3%           --
  With children under age 18              7.7%           --           --
------------------------------------------------------------------------
Source: Alisha Coleman-Jensen, Christian Gregory, and Anita Singh,
  Household Food Security in the United States in 2013 (Alexandria, VA:
  U.S. Department of Agriculture, September 2014), http://
  www.ers.usda.gov/media/1565415/err173.pdf (accessed February 23,
  2015).

    However one feels about this controversial and, much criticized 
concept, it is a very different problem than malnutrition and should 
not be the basis for making policy for a $75+ billion program.
Obesity
    Today, instead of hunger, the central nutritional problem facing 
the poor, indeed all Americans, is not too little food but, rather too 
much--or at least too many calories. Although there are still some 
pockets of real hunger in America, they are predominantly among 
populations with behavioral or emotional problems. In 1998, for 
example, then-Agriculture Secretary Dan Glickman, when discussing the 
problem of childhood obesity, said that ``The simple fact is that more 
people die in the United States of too much food than of too little, 
and the habits that lead to this epidemic become ingrained at an early 
age.'' \11\
---------------------------------------------------------------------------
    \11\ Douglas J. Besharov, We're Feeding the Poor as If They're 
Starving (Washington, D.C.: American Enterprise Institute, December 
2002), http://www.aei.org/publication/were-feeding-the-poor-as-if-
theyre-starving/ (accessed February 23, 2015).
---------------------------------------------------------------------------
    Today, as many as 70 percent of low-income adults are overweight, 
about ten percent more than the non-poor. Adolescents from low-income 
families are twice as likely to be overweight (16 percent vs. 8 
percent). Racial disparities are even greater. Almost 82 percent of 
African-American women, for example, are overweight--almost 30 percent 
more than white women. Even more serious, about 57 percent of African-
American women are obese--\2/3\ more than white women.\12\ (See Table 
2.)
---------------------------------------------------------------------------
    \12\ Cynthia L. Ogden, Margaret D. Carroll, Brian K. Kit, and 
Katherine M. Flegal, ``Prevalence of Childhood and Adult Obesity in the 
United States, 2011-2012,'' Journal of the American Medical Association 
311, no. 8 (February 26, 2014): 806-814.

                                 Table 2
                           Overweight/Obesity
------------------------------------------------------------------------
                                                Percent Overweight/Obese
                                               -------------------------
         Age, Sex, and Race/Ethnicity             1961-62
                                                 1963-65 *    2011-2012
------------------------------------------------------------------------
Men                                                   50/11        72/34
Women                                                 40/16        67/37
Children                                               4/--        15/--
------------------------------------------------------------------------
Men:
  White                                               50/11        73/33
  Black                                               44/14        69/37
  Hispanic                                               --        78/41
------------------------------------------------------------------------
Women:
  White                                               38/14        65/34
  Black                                               59/27        82/57
  Hispanic                                               --        76/43
------------------------------------------------------------------------
Children ages 6-11:
  Boys:
    White                                              4/--         27/9
    Black                                              2/--        39/26
    Hispanic                                             --        49/29
  Girls:
    White                                              5/--        33/18
    Black                                              5/--        37/22
    Hispanic                                             --        44/23
------------------------------------------------------------------------
* 1961-62: for adults; and 1963-65: for children.
Source: Cynthia L. Ogden, Margaret D. Carroll, Brian K. Kit, and
  Katherine M. Flegal, ``Prevalence of Childhood and Adult Obesity in
  the United States, 2011-2012,'' Journal of the American Medical
  Association 311, no. 8 (February 26, 2014): 806-814.

    Overweight and obesity refer to excess amounts of body fat. The 
commonly used standards to determine whether a person is overweight or 
obese are based on medical data indicating weight levels (for a given 
height) that are associated with increased mortality and various health 
risks.\13\ For example, a man 510" would be considered overweight at 
175 pounds and obese at 210 pounds. A woman 54" would be considered 
overweight at 145 pounds and obese at 175 pounds.
---------------------------------------------------------------------------
    \13\ The standard measure used to measure overweight and obesity is 
the body mass index (BMI). The BMI is calculated as weight in kilograms 
divided by the square of height in meters (or weight in pounds divided 
by the square of height in inches multiplied by 703). A BMI of 25.0 or 
more is used to define overweight. In children, overweight is defined 
as sex- and age-specific BMI above the 95th percentile, based on growth 
charts from the Centers for Disease Control (CDC). Obesity is defined 
as a BMI of 30.0 or more. Other methods used to measure overweight and 
obesity in epidemiologic studies include waist circumference, skin-fold 
thickness, and waist-to-hip ratio.
---------------------------------------------------------------------------
    Being overweight is not simply a matter of aesthetics. The growing 
girth of Americans is a major health concern. The Harvard School of 
Public Health has summarized a number of studies of the effects of 
obesity. Among the findings are that women with a BMI of 35 or higher 
have a risk of developing type 2 diabetes that is 93 times higher than 
women with BMI lower than 22, individuals who are overweight have a 32 
percent higher risk of coronary artery disease compared to individuals 
with normal weight; and those who are obese have an 81 percent higher 
risk; and that being overweight and obese increases the risk of stroke 
by 22 percent and 64 percent, respectively.\14\ Obesity, of course, is 
more serious, causing an estimated 50 to 100 percent increase in 
premature deaths (estimated to be 300,000 deaths per year).\15\
---------------------------------------------------------------------------
    \14\ Harvard School of Public Health, ``Weight Problems Take a 
Hefty Toll on Body and Mind,'' http://www.hsph.harvard.edu/obesity-
prevention-source/obesity-consequences/health-effects/#references 
(accessed February 23, 2015).
    \15\ David B. Allison, Kevin R. Fontaine, JoAnn E. Manson, June 
Stevens, and Theodore B. VanItallie, ``Annual Deaths Attributable to 
Obesity in the United States,'' Journal of the American Medical 
Association, vol. 282, no. 16, October 27, 1999, pp.1530-1538.
---------------------------------------------------------------------------
    Despite this massive increase in overweight and obesity among the 
poor, Federal feeding programs still operate under their nearly half-
century-old objective of increasing food consumption. Few experts are 
willing to say that Federal feeding programs are making the poor fat, 
although the evidence points in that direction. But no expert thinks 
they do very much to fight this growing public health problem.
    SNAP benefits work as intended, raising caloric consumption by as 
much as ten percent more than if recipients were given cash. It's like 
when you buy tickets for a set number of rides before entering an 
amusement park. The tendency is to buy more than one needs and, rather 
than return the unused ones for a refund, it is easier to take that one 
or two more rides before leaving. That's of course why the parks sell 
them that way. The only difference is that unused food stamps can't be 
turned in for cash. (The fact that people do not want to use all their 
food stamps for food helps explain why a black market has developed 
with them.)
    A 2008 research synthesis by USDA economists found that some 
evidence that long-term receipt of SNAP benefits increased obesity in 
non-elderly adult women by between four and ten percentage points, but 
they did not find any effects on obesity for other subgroups.\16\ 
However, these were econometric studies that, by their nature, have 
difficulty in controlling for selection effects or other factors that 
might affect obesity rates. On the other hand, we do know from more 
rigorous methods that SNAP benefits can leads to increased consumption.
---------------------------------------------------------------------------
    \16\ Michele Ver Ploeg and Katherine Ralson, Food Stamps and 
Obesity: What Do We Know? (Alexandria, VA: Economic Research Service, 
U.S. Department of Agriculture, March 2008), http://www.ers.usda.gov/
media/210655/eib34_reportsummary_1_.pdf (accessed February 17, 2015).
---------------------------------------------------------------------------
    In the early 1990s, the USDA commissioned two random assignment 
studies of the Food Stamp Program where some recipients were provided 
cash instead of Food Stamps. Peter Rossi summarized the findings of 
these studies: ``The reductions in food expenditures were $0.18-$0.28 
for each dollar provided in the form of cash, compared with 
conventional food stamps. . . . These studies show that providing 
income in the form of food stamps leads to more food consumption than 
an equivalent dollar amount given in unearmarked form.'' \17\ This 
``cashing out'' of food stamps did not result in unhealthy diets nor 
the mismanagement of family finances. Recipients, continued to get well 
above the recommended dietary allowances for most nutrients.\18\
---------------------------------------------------------------------------
    \17\ Peter H. Rossi, Feeding the Poor: Assessing Federal Food Aid 
(Washington, D.C.: American Enterprise Institute, 1998): 36-37.
    \18\ See Steven Carlson, ``An Overview of Food Stamp Cashout 
Research in the Food and Nutrition Service,'' in Nancy Fasciano, Daryl 
Hall, and Harold Beebout (eds.), New Directions in Food Stamp Policy 
Research (U.S. Department of Agriculture, June 25, 1993), 23-24.
---------------------------------------------------------------------------
    It is unclear, however, what effect, if any, the 2002 adoption of 
the Electronic Benefit Transfer system has had on this behavior.\19\
---------------------------------------------------------------------------
    \19\ Since the implementation of Electronic Benefit Transfer cards 
to all SNAP recipients in 2002, SNAP recipients have been allowed to 
rollover unspent benefits at the end of the month to the next month 
which may have a dampening effect on over-consumption in a given month. 
Such savings, however, cannot be used for purchases of other goods, so 
it is likely that recipients spend the excess in future months.
---------------------------------------------------------------------------
    The failure to be clear about SNAP as a form of income support has 
removed the possibility of using this important tool to address 
America's dietary and obesity problems.
SNAP as the Primary U.S. Social Assistance Program
    How should we think about the current SNAP program's role in 
maintaining this progress? It is most accurate to think of SNAP as a 
form of income assistance that allows recipients to purchase food. 
Thus, in its Budget and Economic Outlook reports, the Congressional 
Budget Office treats SNAP as an ``income support'' program along with 
TANF, the Earned Income Tax Credit, the Additional Child Tax Credit, 
Supplemental Security Income (SSI), and unemployment compensation.\20\ 
In fact, the Organisation of Economic Co-operation and Development 
(OECD) classifies SNAP as the primary U.S. ``social assistance'' 
program and as the equivalent of other countries' cash welfare 
programs. (It does not include TANF because of its narrow scope.) \21\
---------------------------------------------------------------------------
    \20\ Congressional Budget Office, The Budget and Economic Outlook: 
2015-2025 (Washington, D.C.: Congressional Budget Office, January 
2015), https://www.cbo.gov/sites/default/files/cbofiles/attachments/
49892-Outlook2015.pdf (accessed February 18, 2015).
    \21\ Herwig Immervoll, Minimum Income Benefits in OECD Countries: 
Policy Design, Effectiveness, and Challenges (Bonn: IZA, December 
2009), http://ftp.iza.org/dp4627.pdf (accessed February 17, 2015).
---------------------------------------------------------------------------
    SNAP acts indirectly to improve the nutrition and health of low-
income Americans by enabling them to purchase and consume more food. 
Moreover, eligibility for SNAP now reaches to those with incomes high 
enough to afford an adequate diet--but often not the other necessities 
of contemporary American life. This does not make the program less 
socially valuable. As I will describe below, especially since the 
passage of TANF, SNAP is the major safety-net program for those who 
have exhausted their UI benefits and have insufficient other income or 
assets.
    Many program advocates, however, have chosen to leave this reality 
ambiguous--because they believe that it is only the prospect of hunger 
that is the reason for the program's strong support among the public. 
They could be correct, but the result is to stifle efforts to update 
the program to reflect developments in other means-tested government 
programs, as well as economic and social conditions generally.
    SNAP benefits now far outstrip TANF benefits (in average size and 
number of recipients), making SNAP (and its predecessor Food Stamp 
Program) the primary element of the U.S. income support system.\22\ 
This developed by historical happenstance--and the fact that 100 
percent of SNAP benefits are paid for by the Federal Government (while 
they were shared under AFDC and are, essentially, a 100 percent state 
cost under TANF).
---------------------------------------------------------------------------
    \22\ See generally Center on Budget and Policy Priorities, Food and 
Nutrition Programs: Reducing Hunger, Bolstering Nutrition (Washington, 
D.C.: Center on Budget and Policy Priorities, August 2005), http://
www.cbpp.org/cms/?fa=view&id=510 (accessed February 16, 2015).
---------------------------------------------------------------------------
    First, what started as a small Federal nutrition program was 
expanded in the 1960s and 1970s because of apparent hunger in states 
that had inadequate welfare systems. (That is, they had low benefits 
and often discriminated against African Americans and other 
minorities.) The Federal food stamp program essentially worked around 
this problem by ignoring state welfare agencies--a disconnect that 
continues fifty years later even as the initial reason disappeared.
    Second, because SNAP would fill in between 30 and 45 percent of the 
difference, in the 1970s through 1990s, many states kept AFDC payments 
lower than they might otherwise have set them. For example, in 1991, 
California cut its cash assistance (AFDC) to reduce state spending on 
the poor by $10.8 billion between 1991 and 1996. However, the state's 
budget analysts calculated that this reduction would trigger a $4 
billion rise in food stamp payments, so the net loss to the poor 
dropped to $6.8 billion.\23\
---------------------------------------------------------------------------
    \23\ Douglas J. Besharov and Karen Baehler, ``The Perverse Federal 
Incentives for Welfare Cuts,'' Governing (February 1993), http://
www.welfareacademy.org/pubs/welfare/welfare-0293.shtml (accessed 
February 23, 2015).
---------------------------------------------------------------------------
    Third, again because the Federal Government paid program costs, 
there was a tendency to encourage low-income families to leave their 
time-limited TANF programs while continuing on the Federal SNAP program 
(and, when applicable, being transferred to Federal disability 
programs). Pamela Loprest and Sheila Zedlewski of the Urban Institute 
used the National Survey of American Families to examine former 
recipients of cash welfare benefits who left the program but not for 
employment. They found that between 1997 and 2002, the percentage of 
these ``welfare leavers'' receiving food stamps increased from about 46 
percent to about 55 percent.\24\
---------------------------------------------------------------------------
    \24\ Pamela Loprest and Sheila Zedlewski, The Changing Role of 
Welfare in the Lives of Low-Income Families with Children (Washington, 
D.C.: Urban Institute, August 2006), http://www.urban.org/uploadedpdf/
311357_occa73.pdf (accessed February 18, 2015).
---------------------------------------------------------------------------
    Fourth, in the wake of the Great Recession, long-term unemployment 
was at an all-time high. (Even now, 31.5 percent of the unemployed have 
been jobless for 6 months or more.) \25\ After their Unemployment 
Insurance benefits expire, many unemployed turn to SNAP, especially 
given recent liberalizations. In 2012, Theresa Anderson, John A. 
Kirlin, and Michael Wiseman examined longitudinal UI and SNAP data in 
seven states and found evidence of this phenomenon.\26\
---------------------------------------------------------------------------
    \25\ Bureau of Labor Statistics, ``Table A-12. Unemployed Persons 
by Duration of Unemployment, Seasonally Adjusted,'' http://www.bls.gov/
web/empsit/cpseea12.htm (accessed February 23, 2015).
    \26\ ``Concurrent SNAP-UI receipt is substantially more common than 
sequenced receipt, though this ratio shifts over time. [B]y the end of 
2008 most new SNAP recipients in every state receive a UI payment in 
the same month that they begin SNAP. On average, in the five states 
over this timeframe, 68.4 percent of the SNAP-UI connection among all 
SNAP recipients is concurrent (while the other 31.6 percent is 
sequenced) and 79.2 percent of the SNAP-UI connection among new SNAP 
recipients is concurrent (with the other 20.8 percent sequenced).'' 
Theresa Anderson, John A. Kirlin, and Michael Wiseman, Pulling 
Together: Linking Unemployment Insurance and Supplemental Nutrition 
Assistance Program Administrative Data to Study Effects of the Great 
Recession (Alexandria, VA: U.S. Department of Agriculture, 2012), 
http://digitalcommons.unl.edu/cgi/
viewcontent.cgi?article=1948&context=usdaarsfacpub (accessed February 
23, 2015).
---------------------------------------------------------------------------
Explaining Recent Increases in SNAP Caseloads
    The recent sharp growth of the SNAP caseload began long before the 
Great Recession. It began under Republican President George W. Bush at 
a time when employment was in reasonably strong shape, although 
employment had not recovered from its pre-recession levels. Between 
2000 and 2013, SNAP spending grew from about $20.6 billion to about 
$79.9 billion (in 2014 dollars) and the SNAP caseload increased from 
17.2 million individuals to about 47.6 million individuals.\27\ (In 
2014, as the economy improved, those numbers dropped to $74.1 billion 
and 46.5 million individuals.) In comparison, during this same period, 
the number of individuals in poverty increased from 31.5 million to 
45.3 million. Since the start of the Great Recession in 2008, the 
number of SNAP recipients has increased by 68.7 percent between 2008 
and 2013, even as the number of individuals in poverty increased by 
only 16.5 percent.\28\
---------------------------------------------------------------------------
    \27\ U.S. Department of Agriculture, Food and Nutrition Service, 
``Supplemental Nutrition Assistance Program Participation and Costs,'' 
http://www.fns.usda.gov/pd/SNAPsummary.htm (accessed August 11, 2014).
    \28\ U.S. Census Bureau, ``Table 2. Poverty Status, by Family 
Relationship, Race, and Hispanic Origin,'' http://www.census.gov/hhes/
www/poverty/data/historical/hstpov2.xls (accessed August 8, 2014); and 
U.S. Department of Agriculture, Food and Nutrition Service, 
``Supplemental Nutrition Assistance Program Participation and Costs,'' 
http://www.fns.usda.gov/sites/default/files/pd/SNAPsummary.pdf 
(accessed August 8, 2014).
---------------------------------------------------------------------------
    Why have the caseloads and expenditures increased so much? Although 
a struggling economy and an increase in poverty certainly contribute to 
the increase in the enrollment of SNAP, statutory changes and local 
discretion that result in expanded eligibility and loosened criteria 
for determining eligibility have also been contributors. Here are some 
of the key changes in SNAP: \29\
---------------------------------------------------------------------------
    \29\ The figures below for number of households involved have not 
been corrected for likely duplication.

  <bullet> Nullified assets tests. To meet SNAP asset requirements, a 
        household must have less than $2,000 in assets ($3,000 for 
        households with a disabled individual) and no more than one 
        vehicle that must be worth less than $4,650. (Houses, 
        retirement accounts, and personal property are not counted as 
        assets.) There are two exceptions to these rules. For vehicles, 
        the Agricultural Appropriations Act of 2000 allows states to 
        use the vehicle asset test of their TANF programs instead of 
        the SNAP vehicle asset test.\30\ As of November 2012, thirty-
        four states and D.C. exclude the value of all vehicles and 
        another fifteen states exclude the value of one vehicle.\31\ 
        For the more general asset test, under the categorical 
        eligibility provisions issued by USDA regulations in 2000 
        (described below), states may use the asset tests in their TANF 
        programs in place of the SNAP asset test. Thirty-six states 
        exercise this option and do not have an asset test for SNAP 
        recipients.\32\
---------------------------------------------------------------------------
    \30\ David Super and Stacy Dean, New State Options to Improve the 
Food Stamp Vehicle Rule (Washington, D.C.: Center on Budget and Policy 
Priorities, January 2001), http://www.cbpp.org/cms/?fa=view&id=870 
(accessed July 13, 2012).
    \31\ U.S. Department of Agriculture, Supplemental Nutrition 
Assistance Program: State Options Report (Alexandria, VA: U.S. 
Department of Agriculture, November 2012), http://www.fns.usda.gov/
sites/default/files/10-State_Options.pdf (accessed February 22, 2015).
    \32\ Gene Falk and Randy A. Aussenberg, The Supplemental Nutrition 
Assistance Program: Categorical Eligibility (Washington, D.C.: 
Congressional Research Service, March 2012), http://
www.nationalaglawcenter.org/assets/crs/R42054.pdf (accessed July 13, 
2012).

  <bullet> Categorical eligibility to incomes of 200 percent of 
        poverty. Categorical eligibility for SNAP was first introduced 
        in the Food Security Act of 1985. Recipients of AFDC, SSI, and 
        state general assistance programs were made eligible to receive 
        food stamps by virtue of their being recipients of these other 
        government programs. In 1996, when TANF replaced AFDC as the 
        U.S. cash welfare program, TANF recipients were also given 
        categorical eligibility. However, because TANF money could be 
        used for more than just cash assistance, it was unclear who 
        constituted a ``TANF recipient.'' In 2000, the USDA issued 
        regulations regarding TANF categorical eligibility for SNAP 
        that allows states the option of conferring categorical 
        eligibility for SNAP on a TANF family if at least one member of 
        the family receives or is authorized to receive TANF-funded 
        cash assistance or ``non-assistance.'' \33\ As of January 2012, 
        only five states restrict categorical eligibility to the 
        receipt of cash assistance and five states restrict categorical 
        eligibility to the receipt of cash assistance or specified non-
        assistance such as child care. The remaining forty states and 
        D.C. confer categorical eligibility through the receipt of 
        either cash assistance or any non-assistance that is provided 
        using TANF funds, including such minimal elements as pamphlets 
        describing benefit programs.
---------------------------------------------------------------------------
    \33\ TANF ``non-assistance' is a category of benefits that was 
created to allow states to help low-income families without starting 
the clock on TANF's lifetime, 5 year limit on benefits. TANF non-
assistance can go to families with incomes in excess of 185 percent of 
poverty or with assets greater than TANF's general limit. non-
assistance can include non-recurrent, lump sum benefits, child care, 
transportation and work subsidies, state earned income tax credits, and 
counseling.

     The SNAP regulations also impose a cap on income eligibility (200 
        percent of poverty) for SNAP categorical eligibility 
        established by the receipt of TANF non-assistance under 
        purposes three and four of TANF (to prevent and reduce the 
        incidence of out-of-wedlock pregnancies or to encourage the 
        formation and maintenance of two-parent families). The SNAP 
        regulations do not impose an income eligibility cap for TANF 
        purposes one and two (provide assistance to needy families and 
        end dependence of needy families by promoting job preparation, 
        work and marriage), but all states that confer TANF through 
        non-assistance have instituted one. As of July 2014, twenty-
        seven states had gross income caps higher than 130 percent but 
        not higher than 200 percent of poverty.\34\
---------------------------------------------------------------------------
    \34\ Gene Falk and Randy A. Aussenberg, The Supplemental Nutrition 
Assistance Program: Categorical Eligibility (Washington, D.C.: 
Congressional Research Service, July 2014), https://www.fas.org/sgp/
crs/misc/R42054.pdf (accessed February 18, 2015).
---------------------------------------------------------------------------
     The Congressional Research Service estimated that, in 2011, about 
        five percent of all SNAP households had income above 130 
        percent of poverty.\35\ That is about 1.1 million households.
---------------------------------------------------------------------------
    \35\ Gene Falk and Randy A. Aussenberg, The Supplemental Nutrition 
Assistance Program: Categorical Eligibility (Washington, D.C.: 
Congressional Research Service, July 2014), https://www.fas.org/sgp/
crs/misc/R42054.pdf (accessed February 18, 2015).

  <bullet> Verifying income eligibility only once a year. Prior to 
        2002, after eligibility was verified, all households were 
        required to have their earnings recertified every 3 months. For 
        households with earnings, states had the option of using 
        ``simplified reporting.'' This meant that states could increase 
        certification periods up to 1 year and households were only 
        required to report an increase in earnings if it made them no 
        longer eligible for food stamps. (Income was required to be re-
        verified every 6 months.) The Farm Security and Rural 
        Investment Act of 2002 (``2002 Farm Bill'') gave states the 
        option to use simplified reporting for all SNAP households, not 
        just those with earnings. As of November 2012 (the latest data 
        available), all states except for California used simplified 
        reporting.\36\
---------------------------------------------------------------------------
    \36\ U.S. Department of Agriculture, Supplemental Nutrition 
Assistance Program: State Options Report (Alexandria, VA: U.S. 
Department of Agriculture, November 2012), http://www.fns.usda.gov/
sites/default/files/10-State_Options.pdf (accessed February 18, 2015).

     What impact do lengthening certification periods have on 
        enrollment and program costs? Maria Hanratty of the University 
        of Minnesota found that extending certification periods to 6 
        months and requiring food stamp recipients to report a change 
        in income during the certification period only if it results in 
        their income exceeding 130 percent of poverty led to a 9.2 
        percent increase in food stamp participation between 2001 and 
        2003 (using the 2001 panel of the SIPP).\37\
---------------------------------------------------------------------------
    \37\ Maria Hanratty, ``Has the Food State Program Become More 
Accessible? Impacts of Recent Changes in Reporting Requirements and 
Asset Eligibility Limits,'' Journal of Policy Analysis and Management 
vol. 25, no. 3 (2006): 603-621, http://www3.interscience.wiley.com/cgi-
bin/fulltext/112651064/PDFSTART (accessed November 14, 2008).

  <bullet> Eligibility for noncitizens. The Personal Responsibility and 
        Work Opportunity Reconciliation Act (PRWORA) of 1996 made 
        noncitizens ineligible to receive SNAP benefits. The 2002 Farm 
        Bill restored eligibility to legal noncitizens who (1) have 
        been in the United States for 5 years, (2) are under age 
        eighteen, or (3) receive disability benefits.\38\
---------------------------------------------------------------------------
    \38\ U.S. Department of Agriculture, Supplemental Nutrition 
Assistance Program: Guidance on Non-Citizen Eligibility (Alexandria, 
VA: U.S. Department of Agriculture, June 2011), http://
www.fns.usda.gov/snap/government/pdf/Non-Citizen_Guidance_063011.pdf 
(accessed July 13, 2012).

     In 2012, the USDA reported that about 1.2 million SNAP households 
        (about five percent of all SNAP households) had a noncitizen 
        that received benefits and another 1.3 million SNAP households 
        (about six percent of all SNAP households) had citizen children 
        receiving benefits living with a noncitizen, nonrecipient 
        adult.\39\
---------------------------------------------------------------------------
    \39\ Kelsey F. Gray and Esa Eslami, Characteristics of Supplemental 
Nutrition Assistance Program Households: Fiscal Year 2012 (Alexandria, 
VA: U.S. Department of Agriculture, February 2014), http://
www.fns.usda.gov/sites/default/files/2012Characteristics.pdf (accessed 
February 18, 2015).

  <bullet> Counting less income and allowing more deductions in 
        calculating net income. To be eligible for SNAP, recipients 
        must have gross income below 130 percent of the poverty line 
        and net income below 100 percent of the poverty line. The gross 
        income requirements are waived for recipients who are 
        categorically eligible for SNAP benefits. Net income is 
        calculated by taking gross income and subtracting a number of 
        deductions: a standard deduction (for ``basic unavoidable 
        costs''), a 20 percent earnings deduction, a dependent care 
        deduction, a child support deduction for recipients paying 
        child support, a shelter deduction, and a medical expenses 
        deduction for the elderly or disabled. The 2002 and 2008 Farm 
        Bills (officially the ``Food, Conservation, and Energy Act of 
        2008'') increased the amount of the standard deduction, removed 
        the cap of the dependent care deduction, and allowed states to 
        not require recipients to report changes in their deductions 
        until their next re-certification.\40\ In 2012, the USDA 
        reported that SNAP recipients with earned income had an average 
        monthly gross income of $1,203, but net incomes of only $556, a 
        difference of $694 dollars.\41\ This has the effect of 
        increasing the number of eligible households and incentivizing 
        eligible non-recipient households to enroll to take advantage 
        of higher benefits.
---------------------------------------------------------------------------
    \40\ U.S. Department of Agriculture, Food and Nutrition Service, 
``2002 Farm Bill: Section-by-Section Summary of Provisions Affecting 
Food Stamp Provisions,'' http://www.fns.usda.gov/cga/2002_farm_bill/
food_stamps.html (accessed July 13, 2012); and Dottie Rosenbaum, Food 
Stamp Provisions of the Final 2008 Farm Bill (Washington, D.C.: Center 
on Budget and Policy Priorities, July 2008), http://www.cbpp.org/cms/
index.cfm?fa=view&id=310 (accessed July 13, 2012).
    \41\ Kelsey F. Gray and Esa Eslami, Characteristics of Supplemental 
Nutrition Assistance Program Households: Fiscal Year 2012 (Alexandria, 
VA: U.S. Department of Agriculture, February 2014), http://
www.fns.usda.gov/sites/default/files/2012Characteristics.pdf (accessed 
February 18, 2015).

  <bullet> Increasing the amount of benefits. The 2008 Farm Bill 
        increased the minimum monthly SNAP benefits from $10 a month to 
        ``8 percent of the thrifty food plan for a household of one'' 
        for one- and two-person households (about $16 a month in 
        2012).\42\ The 2009 American Recovery and Reinvestment Act 
        (ARRA) increased the maximum benefit amount for each size of 
        SNAP household by another 13.6 percent.\43\ These increases may 
        have contributed to the increase in the take-up rate of SNAP 
        benefit because it substantially increased the amount of SNAP 
        benefits for eligible households with earnings for whom the 
        initial benefit otherwise would have represented a negligible 
        increase in their income. According to a USDA report, the 
        percentage of eligible individuals receiving SNAP increased 
        from 54.1 percent in 2002 to 70.8 percent in 2012.\44\
---------------------------------------------------------------------------
    \42\ Dottie Rosenbaum, Food Stamp Provisions of the Final 2008 Farm 
Bill (Washington, D.C.: Center on Budget and Policy Priorities, July 
2008), http://www.cbpp.org/cms/index.cfm?fa=view&id=310 (accessed July 
13, 2012); and Community Resources Information, ``SNAP Food Stamps: 
What Benefits Will I Get?'' http://www.massresources.org/snap-
benefits.html (accessed July 13, 2012).
    \43\ Mark Nord and Mark Prell, Food Security Improved Following the 
2009 ARRA Increase in SNAP Benefits (Alexandria, VA: U.S. Department of 
Agriculture, April 2011), http://www.ers.usda.gov/media/127913/
err116.pdf (accessed July 13, 2012).
    \44\ Kelsey F. Gray and Esa Eslami, Characteristics of Supplemental 
Nutrition Assistance Program Households: Fiscal Year 2012 (Alexandria, 
VA: U.S. Department of Agriculture, February 2014), http://
www.fns.usda.gov/sites/default/files/2012Characteristics.pdf (accessed 
February 18, 2015).

     The maximum benefit increase, however, was designed to be 
        temporary. The maximum SNAP benefit is based on the Thrifty 
        Food Plan which is increased annually to account for inflation 
        in food prices. The ARRA legislation, however, held the new 
        maximum benefit constant between 2009 and 2013, when it was 
        projected that inflation would have increased the value of the 
        Thrifty Food Plan to the maximum benefit level. However, 
        inflation was less than expected during this period and when 
        the temporary maximum benefit expired, the maximum benefit 
        declined by about five percent.\45\
---------------------------------------------------------------------------
    \45\ Stacy Dean and Dottie Rosenbaum, SNAP Benefits Will Be Cut for 
Nearly All Participants In November 2013 (Washington, D.C.: Center on 
Budget and Policy Priorities, August 2013), http://www.cbpp.org/cms/
?fa=view&id=3899 (accessed February 23, 2015).

  <bullet> Waived work requirements for able-bodied adults without 
        dependents (ABAWDs). ARRA also waived the work requirement for 
        SNAP recipients who are able-bodied adults without dependents 
        (ABAWDs) who are required to work at least twenty hours per 
        week, be enrolled in a job training program for twenty hours a 
        week, or participate in workfare. States were able to extend 
        this waiver after the initial waiver expired in 2010. Currently 
        twenty-eight states plus D.C. have waived work requirements for 
        ABAWDs in 2015.\46\
---------------------------------------------------------------------------
    \46\ Randy A. Aussenberg, Supplemental Nutrition Assistance Program 
(SNAP): A Primer on Eligibility and Benefits (Washington, D.C.: 
Congressional Research Service, December 2014), http://www.fas.org/sgp/
crs/misc/R42505.pdf (accessed February 23, 2015).

     In 2012, the Congressional Research Service estimated that between 
        2007 and 2010, the number of ABAWDs increased from 1.7 million 
        to 3.9 million.\47\
---------------------------------------------------------------------------
    \47\ Congressional Research Service, FY2007-FY2012: Able-bodied 
Adults Without Dependents (ABAWD) Requirements, Statistics, and Waivers 
(Washington, D.C.: Congressional Research Service, September 2012), 
http://www.scribd.com/doc/106346145/CRS-Memo-ABAWD (accessed February 
23, 2015).

  <bullet> Five months of transitional benefits regardless of income. 
        TANF recipients who are leaving welfare for work are eligible 
        to receive ``transitional SNAP benefits'' even if they no 
        longer meet the income requirements. The amount of their 
        benefits is based on the amount they received (or would have 
        received) in their final month of TANF, adjusted for the loss 
        in TANF income.\48\ The 2002 Farm Bill extended the number of 
        months of transitional SNAP benefits from three to five.
---------------------------------------------------------------------------
    \48\ U.S. House of Representatives, Committee on Ways and Means, 
Background Material and Data on the Programs within the Jurisdiction of 
the Committee on Ways and Means (Washington, D.C.: U.S. House of 
Representatives, 2008), http://democrats.waysandmeans.house.gov/media/
pdf/110/food.pdf (accessed July 13, 2012).

  <bullet> Ignoring the income of others in the household. A SNAP 
        household is defined as ``a group of individuals who live 
        together and customarily purchase food and prepare meals 
        together for home consumption.'' \49\ At least some states (and 
        perhaps most), however, have implemented the definition in a 
        way that allows for broader eligibility. In Massachusetts, for 
        example, SNAP applicants self-report their household 
        composition and state agency verification of household 
        composition is only required if there is something 
        ``questionable'' about the reported household composition. 
        Massachusetts also does not require that the households store 
        food separately from others who live in the house or that they 
        use separate cooking facilities.\50\
---------------------------------------------------------------------------
    \49\ Food Stamp Act of 1977, as amended through Public Law 108-269, 
108th Cong., 2d sess. (July 2, 2004), sec. 3(i)(1)(B), http://
agriculture.senate.gov/Legislation/Compilations/FNS/FSA77.pdf (accessed 
July 16, 2012).
    \50\ Patricia Baker, Deborah Harris, Laura Gallant, Rochelle Hahn, 
and Helene Newberg, An Advocate's Guide to the SNAP/Food Stamps/
Supplemental Nutrition Assistance Program in Massachusetts (Boston, 
Massachusetts Law Reform Institute, January 2012), http://
www.masslegalhelp.org/income-benefits/food-stamps-advocacy-guide/ 
(accessed July 16, 2012).

     The WIC program has a similar problem and, in a 2009 report on 
        this program, I estimated that the failure to count all of the 
        household's income could, by itself, have expanded the WIC 
        caseload by about 20 percent.\51\
---------------------------------------------------------------------------
    \51\ Douglas J. Besharov and Douglas M. Call, The Expansion of WIC 
Eligibility and Enrollment: Good Intentions, Uncontrolled Local 
Discretion, and Compliant Federal Officials (College Park, MD: Welfare 
Reform Academy, March 2009).
---------------------------------------------------------------------------
Work Disincentives
    One of the most distressing trends of recent years has been the 
decline in labor force participation.
    Less job seeking. As of January 2015, the U.S. labor force 
participation rate was only about 72.7 percent (compared to its high of 
77.4 percent in 1997).\52\ About six million working age Americans (2.5 
percent) did not have a job and were not looking for one (even as they 
said they wanted one). That takes them out of the ``labor force,'' and, 
hence, not officially ``unemployed.'' \53\ Federal Reserve Chairman 
Janet Yellen has called this ``shadow unemployment.'' \54\ (See Figure 
2, showing participation in the labor force of working-age adults.)
---------------------------------------------------------------------------
    \52\ Organisation for Economic Co-operation and Development, ``OECD 
Stats Database,'' http://stats.oecd.org/# (accessed August 6, 2014).
    \53\ ``Unemployment'' is defined by the Federal Government as being 
without a job and also looking for one.
    \54\ Rob Garver, ``Yellen Shines a Light on Shadow Unemployment,'' 
Fiscal Times, June 18, 2014, http://www.thefiscaltimes.com/Articles/
2014/06/18/Yellen-Shines-Light-Shadow-Unemployment (accessed July 31, 
2014).
---------------------------------------------------------------------------
Figure 2
U.S. Employment Indicators
2000-2013

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Douglas J. Besharov's calculations from Organisation 
        of Economic Co-operation and Development ``OECD Stat 
        Extracts,'' http://stats.oecd.org/Index.aspx (accessed February 
        25, 2015).

    Another 49.2 million Americans of working age were not actively 
looking for a job and, when surveyed, said they did not want a job. 
(They answered ``no'' to ``Have you looked for a job in the past 4 
weeks?'' and ``Do you currently want a job?''). They explained that 
they were disabled or ill, enrolled in school, retired, or taking care 
of the house or others.
    Some of the declines in employment among working-age Americans 
reflect underlying demographic trends. At one end of the working age 
spectrum, higher percentages of young people are choosing post-
secondary education (colleges, community colleges, and specialized job 
training programs) instead of immediate employment, and, at the other 
end, an aging Baby Boom generation is predictably accelerating its exit 
from the labor market. (At the same time, there are more elderly who 
are working full-time than in the past, presumably because of the asset 
losses they experienced during the Great Recession. In fact, between 
2000 and 2013, the entire increase in the number of individuals in 
full-time employment has been because of the increase among elderly, 
those age sixty-five and older, who are working full-time.) \55\
---------------------------------------------------------------------------
    \55\ Organisation for Economic Co-operation and Development, ``OECD 
Stats Database,'' http://stats.oecd.org/# (accessed August 6, 2014).
---------------------------------------------------------------------------
    A Council of Economic Advisors report estimates the impact of these 
demographic factors to be only about 51 percent of the decline in the 
labor force participation among all workers (not just working age),\56\ 
but, given data limitations, the true number is probably lower.
---------------------------------------------------------------------------
    \56\ Council of Economic Advisors, The Labor Force Participation 
Rate Since 2007: Causes and Policy Implications (Washington, D.C.: 
Council of Economic Advisors, July 2014), http://www.whitehouse.gov/
sites/default/files/docs/labor_force_participation_report.pdf (accessed 
August 6, 2014).
---------------------------------------------------------------------------
    No one knows how many of the 49.2 million Americans not in the 
labor force thought they could not get a job, or were well-enough off 
from other sources income (perhaps supplemented with safety-net 
benefits). But given the dearth of good-enough-paying jobs, a sense of 
palpable discouragement pervades the nation. Many of the long-term 
jobless feel left behind by what appear to be permanent changes in the 
economy, and have all but given up. It is difficult to exaggerate the 
impact of repeated failed job searches. In a 2014 nationwide poll by 
Express Employment Professionals, an employment staffing company, 47 
percent of the unemployed agreed with the statement: ``I've completely 
given up looking for a job.'' \57\
---------------------------------------------------------------------------
    \57\ Express Employment Professionals, Survey Of The Unemployed 
Shows 47% Say They Have ``Completely Given Up'' Looking For A Job 
(Oklahoma City, OK: Express Employment Professionals, May 2014), http:/
/www.expresspros.com/subsites/AmericaEmployed/Unemployed-Have-Given-Up-
Finding-Job.aspx (accessed June 2014).
---------------------------------------------------------------------------
    Worse, the problem seems to be feeding on itself. Many employers 
have apparently decided that the long-term jobless would not make good 
employees--because of their attitude, skills, or just plain age.\58\ 
Barring a major increase in demand for American workers--or some change 
in their willingness to accept lower-wage employment, many of the long-
term jobless may never get back to work.
---------------------------------------------------------------------------
    \58\ Rang Ghayad, The Jobless Trap (Boston: Northeastern 
University, 2014), http://media.wix.com/ugd/
576e9a_f7ade4b6632949349fd75921699294fa.pdf (accessed August 7, 2014).
---------------------------------------------------------------------------
    Those directly affected by this weak labor market have paid a high 
price in lost earnings and emotional stress, and continue to do so. But 
this high level of nonwork is also an obstacle to the economy's long-
term recovery. On June 6, 2014, a Washington Post lead editorial 
worried:

          Declining labor-force participation may be a new 
        characteristic of the post-recession U.S. economy, and it bodes 
        ill for two reasons: The economy's capacity for growth depends 
        on robust use of all available factors of production, the minds 
        and hands of U.S. workers very much included; indeed, the surge 
        of women into the workforce was one of the key drivers of 
        economic expansion in the 1980s and 1990s. Declining labor-
        force participation implies a rising ``dependency ratio'' of 
        workers to recipients of social assistance.\59\
---------------------------------------------------------------------------
    \59\ ``The Number of Jobs Grows, but Not Labor Force 
Participation,'' Washington Post, June 6, 2014, http://
www.washingtonpost.com/opinions/the-number-of-jobs-grows-but-not-labor-
force-participation/2014/06/06/aa0ee18a-ed9e-11e3-b84b-
3393a45b80f1_story.html (accessed June 15, 2014).

According to economic theory, a larger supply of potential workers 
ordinarily leads to more hiring. The additional job seekers increase 
competition for jobs, thus lowering starting wages, which encourages 
employers to expand their workforce, which, in turn, raises economic 
activity.\60\
---------------------------------------------------------------------------
    \60\ An OECD report explains: ``In the long term, labour demand 
responds to increases in effective labour supply. Experiencing higher 
effective labour supply, employers may reduce the wages they offer or 
they may pay the same wages but enjoy increased productivity--either 
way the profitability of new hires is increased and this motivates 
employers to create more vacancies.'' Organisation for Economic Co-
operation and Development, OECD Employment Outlook: 2005 (Paris: OECD, 
2006), 178, http://www.oecd.org/els/emp/36780874.pdf (accessed June 12, 
2014).
---------------------------------------------------------------------------
    Moreover, as the same Washington Post editorial suggests, the 
billions more now being spent on means-tested, safety-net benefits are 
not available for other pressing societal needs. Consider this very 
rudimentarily calculated example: If the percent of U.S. households 
receiving SNAP had remained the same between 2008 and 2013 (about 10.7 
percent), spending on SNAP benefits would have been about $122 billion 
lower than the actual amount spent during this 5 year period; adjusting 
the base to reflect the increase in poverty still leaves a big $93 
billion.\61\ (Of course, some of this money might be spent on less 
worthy causes or not at all because other programs might not enjoy the 
same level of political support.)
---------------------------------------------------------------------------
    \61\ Author's calculations from U.S. Department of Agriculture, 
Characteristics of Food Stamp Households (Alexandria, VA: U.S. 
Department of Agriculture, 2002-2014).
---------------------------------------------------------------------------
    Long-term trends. There is a tendency to blame the labor market's 
weaknesses on the economic shocks surrounding the recent Financial 
Crisis and subsequent recession. Many experts, however, think that our 
current problems have much deeper roots--reflecting long-term, if less 
noticed, trends. Major elements of the labor market never recovered 
from the 2001 recession (that is why it was called the ``jobless 
recovery''), and, actually, some underlying conditions have been 
festering for decades. As President Obama, in his 2009 State of the 
Union address, pointed out: ``The fact is, our economy did not fall 
into decline overnight. Nor did all of our problems begin when the 
housing market collapsed or the stock market sank.'' \62\
---------------------------------------------------------------------------
    \62\ Barack H. Obama, ``Address to Joint Session of Congress,'' 
(speech, U.S. Congress, Washington, D.C., February 24, 2009), http://
www.whitehouse.gov/the_press_office/Remarks-of-President-Barack-Obama-
Address-to-Joint-Session-of-Congress (accessed August 6, 2014).
---------------------------------------------------------------------------
    For example, the labor force participation of less-educated men 
(both white and black), has been steadily declining since at least the 
1970s. Between 1970 and 2000, for example, the labor force 
participation of men with a high school diploma declined from 96.3 
percent to 86.2 percent (and fell to 79.2 percent in 2012). In the same 
period, for men without a high school diploma, their labor force 
participation rate declined from 89.3 percent to 74.9 percent (and 
declined to 69.7 percent in 2012). Many went onto disability programs 
after they left the labor force.\63\ (The enormity of this decline was 
obscured because total labor force participation rose as a result of 
the massive entry of women into the labor force.)
---------------------------------------------------------------------------
    \63\ Chinhui Juhn and Simon Potter, ``Changes in Labor Force 
Participation in the United States,'' Journal of Economic Perspectives 
20, no. 3 (Summer 2006): 27-46, http://www.class.uh.edu/faculty/cjuhn/
Papers/docs/30033665.pdf (accessed August 8, 2014).
---------------------------------------------------------------------------
    The main reasons for the labor market's long-term weakness are well 
accepted: global competition from lower-wage and better-managed workers 
in the developing world (especially as U.S. workers seem to be losing 
their skills advantage) aggravated by automation (which for the first 
time may actually reduce total jobs in the economy, at least good 
ones). Most experts also agree that the main remedies are related: a 
stronger economy and, to a lesser extent, a better trained U.S. 
workforce and a more competitive position in world trade (for example, 
by lowering formal and informal trade barriers).
    Research on work disincentives. At least since the Income 
Maintenance Experiments of the 1960s and 1970s, when a guaranteed 
income appeared to decrease work and increase divorce (at least among 
some groups),\64\ the role of safety-net benefits as work disincentives 
has been heavily researched. Almost all serious scholars have concluded 
that they can reduce labor force participation, but with sharp 
disagreement about how much they do so. For example, in a 1991 study 
for the University of Wisconsin Institute on Poverty, Robert Moffitt 
estimated that every dollar transferred to female-headed households 
under the old AFDC program reduced the mother's work effort by 37.\65\ 
Researchers have attributed at least part of the falling labor force 
participation rates for all men, and especially those with less 
education, to their declining employment prospects combined with the 
relative availability of disability benefits.\66\
---------------------------------------------------------------------------
    \64\ Alicia H. Munnell, Lessons from the Income Maintenance 
Experiments: An Overview (Washington, D.C.: Brookings Institution, 
1986), https://www.bostonfed.org/economic/conf/conf30/conf30a.pdf 
(accessed July 31, 2014).
    \65\ Robert Moffitt, Incentive Effects of the U.S. Welfare System: 
A Review (Madison, WI: Institute for Research on Poverty, 1991), http:/
/www.irp.wisc.edu/publications/sr/pdfs/sr48.pdf (accessed July 22, 
2014).
    \66\ Chinhui Juhn and Simon Potter, ``Changes in Labor Force 
Participation in the United States,'' Journal of Economic Perspectives 
20, no. 3 (Summer 2006): 27-46, http://www.class.uh.edu/faculty/cjuhn/
Papers/docs/30033665.pdf (accessed July 16, 2014); and Jane R. Wilkie, 
``The Decline in Men's Labor Force Participation and Income and the 
Changing of Family Economic Support,'' Journal of Marriage and the 
Family 53 (February 1991): 111-122.
---------------------------------------------------------------------------
    The work discouraging effect of safety-net programs should be 
neither surprising or controversial. Their very purpose is to make 
getting a new job less urgent. They are supposed to soften the 
financial hardships of unemployment, and, thus, to give the unemployed 
time to find a good job. This is unquestionably a valid societal goal, 
but, at some point, safety-net benefits can become large enough to make 
working seem not worthwhile to large numbers of people, at least not 
right away. The question is usually not whether the unemployed will 
earn as much as their benefits, but, rather, whether they will earn 
enough more than their benefits to justify working (taking into 
account, on the one hand, the possibility of advancement and, on the 
other, of working off the books.)
    There is sharp disagreement, however, about the size of these 
effects and whether corrective action is needed or even possible--
partly because so much depends on the specifics of the study. To 
generalize from a large and conflicting literature, the actual impact 
of safety-net benefits on labor force participation depends on a host 
of factors, including the size and nature of the benefit, the 
participation requirements attached to its receipt, the household's 
other sources of income, the recipient's real or perceived job 
prospects (and other characteristics), the degree to which it is phased 
out or ends suddenly at a specific income (a ``cliff''), and a host of 
social and economic contextual factors. (For many low-income 
recipients, however, the existence of even minimal income support may 
be as important as the implicit tax rate on higher earnings.)
    At one extreme, Casey Mulligan, an economist at University of 
Chicago, has written:

          I found that, among the 23 million layoffs experienced by 
        non-elderly American household heads and spouses during 2009 
        and the second half of 2008, at least four million of them 
        resulted in job acceptance penalty rates near or above 100 
        percent. . . . meaning that they could be (and perhaps were) 
        laid off with little or no short-term reduction in their 
        disposable income even if they had to compensate their employer 
        for the UI payroll tax liabilities associated with the layoff 
        as a consequence of ``experience-rated'' UI financing. The 
        large majority of these workers were in that situation because 
        of the safety net rule changes implemented by the ARRA.\67\
---------------------------------------------------------------------------
    \67\ Casey B. Mulligan, ``Work Incentives, the Recovery Act, and 
the Economy,'' (testimony, U.S. House of Representatives, Committee in 
Oversight and Government Reform, Washington, D.C., February 14, 2013), 
http://www.policyuncertainty.com/app/Mulligan-Testimony.pdf (accessed 
February 23, 2015).
---------------------------------------------------------------------------
The Absence of SNAP Work Requirements
    As I have described, states are financially and politically 
rewarded when they move people off UI and TANF (programs with at least 
some activation requirements) and on to SNAP. This incentive was not 
created deliberately, but, rather, is a historic accident of how and 
when the programs were established.
    Although the SNAP program does have some work requirements,\68\ as 
Ron Haskins of the Brookings Institution and others have noted, ``These 
requirements do not seem to be rigorously enforced.'' \69\ The absence 
of meaningful job search or work-related activity requirements in SNAP 
can undermine UI and TANF work requirements--because SNAP benefits rise 
if UI or TANF are terminated or reduced. If the average UI recipient 
(in a three-person household) loses benefits, monthly SNAP benefits 
rise from about $180 to about $530. If the average TANF recipient (in a 
three-person household) loses benefits (about $430 a month), then 
monthly SNAP benefits rise from about $400 to about $530 a month.
---------------------------------------------------------------------------
    \68\ ``With some exceptions, able-bodied adults between 16 and 60 
must register for work, accept suitable employment, and take part in an 
employment and training program to which they are referred by the SNAP 
office. Failure to comply with these requirements can result in 
disqualification from the Program.'' U.S. Department of Agriculture, 
Food and Nutrition Service, ``Supplemental Nutrition Assistance 
Program: Employment Requirements,'' http://www.fns.usda.gov/snap/
applicant_recipients/employ_require.htm (accessed December 12, 2012).
    \69\ Ron Haskins, ``Reflecting on SNAP: Purposes, Spending, and 
Potential Savings,'' (testimony, House Subcommittee on Nutrition and 
Horticulture, Washington, D.C., May 8, 2012), http://www.brookings.edu/
research/testimony/2012/05/08-snap-haskins (accessed December 12, 
2012).
---------------------------------------------------------------------------
    It is possible to correct this problem. In April 2014, the 
University of Maryland and the Secretary's Innovation Group (SIG), with 
the assistance of the American Public Human Services Association 
(APHSA), cosponsored a 1 day meeting on how to implement the SNAP 
pilots authorized in the 2014 Farm Bill in a way that will reduce 
dependency and increase work levels. Seven state human services 
secretaries attended the meeting as well as about six senior 
professional Congressional staff, and about five senior Administration 
officials. Through the associated webinar, senior state officials from 
thirteen other states participated.\70\
---------------------------------------------------------------------------
    \70\ University of Maryland School of Public Policy, ``Implementing 
the SNAP Pilot Projects to Reduce Dependency and Increase Work 
Levels,'' http://www.welfareacademy.org/pubs/foodassist/
SNAP_Webinar.shtml (accessed February 24, 2015).
---------------------------------------------------------------------------
    These pilots, the product of an awkward political compromise, may 
well point the way to meaningful reform. However, I think the problem 
goes deeper. Although the states administer the SNAP program, pay \1/2\ 
of its administrative costs, and essentially decide who will receive 
benefits, they do not pay for any of the benefit costs. Those are 
covered entirely by the Federal Government. Hence, they have no 
incentive to reduce SNAP caseloads, and, in fact, as we have seen, have 
an incentive to shift recipients from their state-funded TANF programs 
to the federally-funded SNAP, while keeping the resulting savings and 
enjoying the political benefit of a reduced cash welfare caseload. In 
contrast, because states can keep the money that they save in TANF, 
they are more cautious with spending and focus on limiting the growth 
of the caseload.
    Real reform probably requires that the states be made financial 
partners of the Federal Government. States should have a more direct 
financial stake in the proper governance of SNAP programs, including of 
eligibility determinations. Given that all program funds come from the 
Federal Government, a substantial liberalization of eligibility 
determinations was predictable. State officials have little reason to 
be cost conscious--as long as program funds seem available. And they 
have even less reason to take on ``street-level bureaucrats'' and the 
vast discretion they enjoy.\71\ As in the case of many of other 
Federal, means-tested programs, states should be required to pay a 
portion of SNAP's program costs so that they would have a stake in 
enforcing eligibility rules. (Properly structured, this would make it 
possible to give states the flexibility to shift how they spend funds--
to spend less on expanding enrollment and more on enhancing services 
for current recipients, such as spending more time on job training, job 
seeking, and, yes, nutritional counseling.)
---------------------------------------------------------------------------
    \71\ Michael Lipsky, Street-Level Bureaucracy: Dilemmas of the 
Individual in Public Services (New York: Russell Sage, 1980).
---------------------------------------------------------------------------
International Comparisons
    Starting in the 1970s, many European countries experienced 
similarly worrisome declines in employment and labor force 
participation. Across the original fifteen members of the European 
Union (EU-15),\72\ between 1970 and 1982, the percentage of the 
population employed fell from 61 percent to 57.8 percent (before 
beginning a slow increase). For men, the decline was much longer and 
steeper, from 83.7 percent in 1970 to 70.5 percent in 1994.\73\ Overall 
labor force participation increased during this period, but only 
because more women were entering the labor force. At the same time, in 
most countries, new highs were reached in the percent of the population 
receiving government benefits from unemployment, disability, and social 
assistance programs.
---------------------------------------------------------------------------
    \72\ Austria, Belgium, Denmark, Finland, France, Germany, Greece, 
Ireland, Italy, Luxembourg, Netherlands, Portugal, Spain, Sweden, and 
the United Kingdom.
    \73\ Organisation for Economic Co-operation and Development, ``OECD 
Stats Database,'' http://stats.oecd.org/# (accessed August 6, 2014).
---------------------------------------------------------------------------
    In response, a growing number of developed countries introduced 
policy reforms aimed at ``activating'' the recipients of safety net 
benefits who might be able to work, that is, requiring them to perform 
work-related activities while receiving benefits. (The U.S. welfare 
reforms of the 1990s were an early part of this movement, but since 
then, some other developed countries have made more fundamental reforms 
to their labor activation policies.) Since the 1990s, one country after 
another has modified its safety net programs, as described in this 
policy brief. The countries that made the most extensive changes are 
Australia, Denmark, Germany, the Netherlands, the United Kingdom, and, 
to a lesser extent, Finland, France, Italy, Japan, Norway, Spain, and 
Sweden. These countries made both substantive changes (tightening 
eligibility, limiting the duration of benefit receipt, and mandating 
job search and other work-first activities) and administrative changes 
(consolidating programs, decentralizing authority, outsourcing 
services, and incentivizing systems of financing and 
reimbursement).\74\ The key aspects of the changes can be summarized 
under three overarching themes:
---------------------------------------------------------------------------
    \74\ Many, but not all, of these changes were discussed at a joint 
University of Maryland/OECD conference titled ``Labour Activation in a 
Time of High Unemployment'' held at the OECD headquarters in Paris, 
France on November 14-15, 2011.

  <bullet> Synchronizing benefits across safety-net programs to 
        facilitate seamless benefit receipt over time as well as 
        activation efforts, so that, as individuals were time-limited 
        off UI and disability programs, they were transitioned to cash 
---------------------------------------------------------------------------
        welfare or subsistence programs;

  <bullet> Encouraging work by embedding coordinated activation 
        requirements, phase outs and time limits on benefits (before 
        transfers to other programs), and workforce development 
        services in most major safety-net programs and, when possible, 
        by reducing high marginal tax rates and other disincentives to 
        work; and

  <bullet> Decentralizing authority while strengthening accountability 
        in order to facilitate programmatic innovation and 
        experimentation within ongoing performance measurement systems, 
        often operated using performance-based funding mechanisms.

    Few of these changes have been rigorously evaluated. Although no 
one can say that they have successfully lowered long-term recipiency 
and increased labor force participation, the evidence from similar 
policies adopted in the past indicates that if, implemented well, they 
have the potential to do so.\75\ According to a World Bank report on 
labor activation programs: ``One conclusion from a review of existing 
evidence is that well-designed policies can have a positive impact on 
employment outcomes for participants, but that many existing policies 
have in fact failed to prove effective or cost efficient.'' \76\ 
Moreover, the changes seem to enjoy reasonable political acceptance 
from the left and right. If not initially, over time. And they seem to 
have maintained the essentials of that nation's safety-net.
---------------------------------------------------------------------------
    \75\ See, for example, David Grubb, ``Unemployment Benefits and 
Activation as Influences on Labor Market Outcomes,'' (presentation, 
Labour Activation in a Time of High Unemployment conference, Paris, 
France, November 13, 2011), http://umdcipe.org/conferences/
LaborActivationParis/Papers/David%20Grubb-2011-UBactivation_11_1108.pdf 
(accessed June 11, 2012); and Konstantinos Tatsiramos and Jan C. Van 
Ours, ``Unemployment Insurance and Unemployment Dynamics in Europe,'' 
(paper, Labour Activation in a Time of High Unemployment conference, 
Paris, France, November 13, 2011), http://umdcipe.org/conferences/
LaborActivationParis/Papers/Tatsiramos%20and%20Van%20Ours.pdf (accessed 
June 11, 2012).
    \76\ Herwig Immervoll, Activation Policies in OECD Countries: An 
Overview of Current Approaches (Washington, D.C.: World Bank, 2012), 8, 
http://siteresources.worldbank.org/SOCIALPROTECTION/Resources/280558-
1334441996287/SPL_Policy_Note_14.pdf (accessed August 8, 2014).
---------------------------------------------------------------------------
    Hence, it is worthwhile to review what these countries have done to 
adjust their safety nets to encourage labor force participation at a 
time of high joblessness. It is not that their programs should be 
simply transplanted here; there are surely too many economic, social, 
and political differences for that to be possible, let along make 
sense. But just as certainly, the general approaches they adopted are 
worthy of consideration.
    Our focus in the U.S. should be on rationalizing interactions among 
our patchwork of safety-net programs--TANF, SNAP, UI, and disability--
which too often create a work disincentive for low-skilled or difficult 
to employ citizens. A possible solution is to combine--or at least 
align--the administration of these programs and to add what the 
Europeans call ``labor activation'' (akin to job search requirements) 
to all recipients of government assistance.
          * * * * *
    Thank you for this opportunity to share my research and views with 
you.

    The Chairman. Thank you.
    Mr. Greenstein?

          STATEMENT OF ROBERT GREENSTEIN, FOUNDER AND
PRESIDENT, CENTER ON BUDGET AND POLICY PRIORITIES, WASHINGTON, 
                              D.C.

    Mr. Greenstein. Thank you very much, Mr. Chairman, for 
inviting me and for the opportunity to be here today. I have 
been working on this program for over 40 years, and had the 
privilege at one point in the late 1970s of serving as 
Administrator of the Food and Nutrition Service.
    Doug and I agree that SNAP has played the central role in 
eliminating severe hunger and malnutrition in this country. 
This led former senator, Bob Dole, to call SNAP the nation's 
most important social program advance since social security. 
And over the years, SNAP has taken advantage of modern 
technology and business practice to become more efficient and 
accurate.
    I don't know if my slides are up. Can I pause for a second? 
I thought the slides had been arranged.
    The Chairman. Yes, stop his clock.
    Mr. Greenstein. What do I need to do? I am sorry. No?
    The Chairman. There we go.
    Mr. Greenstein. There we go. My apologies. I am sorry. I am 
not too gifted technologically.
    SNAP's error rate is now at an all-time low. Fewer than one 
percent of benefits are issued to ineligible households. The 
benefits are relatively modest. They average about $1.40 per 
person per meal, and they are highly targeted; 92 percent of 
SNAP benefits go to families with monthly income below the 
poverty line, 57 percent go to families with income below \1/2\ 
the poverty line. SNAP can help families bridge periods of 
temporary hardship until they get back on their feet.
    Between 2008 and 2012, \1/2\ of all new entrants to SNAP 
left the program within 1 year, participated for no more than a 
year and then left the program. SNAP also appears to have 
important long-term effects on children. A recent study found 
that children who had received SNAP had much higher high school 
graduation rates, and better health, including less obesity in 
adulthood, than comparable low-income kids who didn't have 
SNAP. And women who had access to SNAP in childhood had higher 
earnings and lower rate of welfare receipt in adulthood.
    Now, SNAP participation and costs have grown in recent 
years. CBO and other analysts have found the biggest reason by 
far is the economy, but the next most important reason has been 
an increase in the share of eligible families, especially low-
income working families who participate. In 2002, only 43 
percent of eligible low-income working families participated. 
In 2012, 72 percent did.
    Congress in the Bush and Clinton Administrations concluded 
that some aspects of SNAP were making it unnecessarily hard for 
working-poor families to enroll. They concluded that if 
families leaving welfare for low-paid work lost their SNAP 
benefits at the same time, and had difficulty feeding their 
families, that would be contrary to welfare reform goals. Most 
of the policy changes, for example, that Doug listed in his 
testimony, that have been made since 2000 were made to better 
serve low-income working families. And as this chart indicates, 
SNAP has made big progress here. Look at this chart. The share 
of families who are on welfare has plummeted. The share who 
work has increased pretty dramatically.
    Now, this brings me to the biggest cause of SNAP's recent 
growth; the deep problems in the economy from which we are only 
starting now to make substantial progress. Some people look at 
the growth in SNAP caseloads and wonder if they will ever come 
down, but the best assessment is that as the economic recovery 
finally reaches ordinary families, caseloads and cost will drop 
significantly. That is CBO's assessment. Caseloads have dropped 
by about 1.5 million people over the last 18 months or so, and 
now stand at 46 million. CBO projects they will drop to below 
33 million by the end of the decade. And when budget analysts, 
whether they are conservative or liberal, ask if Federal 
programs are growing in ways that worsen the nation's fiscal 
challenges, they ask if program costs are rising as the share 
of the economy, growing as the share of GDP.
    CBO's projection for SNAP is that its costs will decline as 
the share of the economy as the recovery continues, and by 
2020, be all of the way back to their 1995 cost level as the 
share of GDP.
    Finally, does SNAP discourage people from working? The 
conclusion of a team of leading researchers who examined all of 
the research in the field is that SNAP does not pose 
significant work disincentives, and its effect on the amount 
that people work is small. And indeed, Census data show that 
people--of people who worked before enrolling in SNAP, 96 
percent then worked in the year after beginning to get SNAP 
benefits, which suggests that turning to SNAP does not lead 
people to cease working.
    SNAP's work requirements are stronger than is often 
realized. SNAP has the toughest work requirement of any Federal 
program. People aged 18 to 50 who are not raising children are 
limited to 3 months on SNAP out of every 3 years, unless they 
are working at least part-time. Job search does not count. If 
you can't find a job, you are out after 3 months.
    Now, as Mr. Peterson alluded to, this requirement was 
suspended in much of the country while the economy was weak, 
but it is now coming back. At least one million such people 
will be removed from the program between now and the end of 
2016. Now, that doesn't mean SNAP can't do better in helping 
people gain jobs, and the recent farm bill establishes 
demonstration projects from which we should learn to learn how 
to do that more effectively.
    In conclusion, SNAP is a lifeline for millions of people. 
The program can be improved, but it is worth noting that when 
the Simpson-Bowles Commission, under the Domenici-Rivlin 
deficit reduction taskforce, called for substantial budget 
cuts, they both excluded cuts in SNAP, given its strong track 
record in improving access to food, and reducing poverty and 
hardship for millions of our less fortunate fellow Americans.
    Thank you.
    [The prepared statement of Mr. Greenstein follows:]

Prepared Statement of Robert Greenstein, Founder and President, Center 
           on Budget and Policy Priorities, Washington, D.C.
    Thank you for the invitation to testify today. I am Robert 
Greenstein, President of the Center on Budget and Policy Priorities, a 
policy institute in Washington, D.C. that conducts research and 
analysis on budget, tax, and economic policy, policies related to 
poverty, and a number of social programs. The Center has no government 
contracts and accepts no government funds.
    I've had a long history of involvement with the nation's food 
assistance programs and the Supplemental Nutrition Assistance Program 
(SNAP) in particular. I had the privilege of serving as special 
assistant for food assistance policy to the Secretary of Agriculture in 
1977 and 1978 and as Administrator of the Food and Nutrition Service at 
USDA, which oversees SNAP and other food assistance programs, in 1979 
and 1980.
    My first invitation to testify before Congress came from this 
Committee, for a hearing on food stamps some 40 years ago, in early 
1975. It has been a great privilege to work closely with Members of 
both parties over the years on food stamps.
    My testimony today is divided into three sections: (1) SNAP's track 
record; (2) a discussion of program growth; and (3) an assessment of 
issues related to SNAP and employment.
I. The Program's Track Record
    SNAP has played a central role in largely eliminating severe hunger 
and malnutrition in the United States. We often forget how serious 
those problems used to be. In the late 1960s, the Field Foundation 
sponsored a team of doctors and medical researchers who examined hunger 
and malnutrition, especially among poor children, in Appalachia, areas 
of the South, and other very poor areas. This research was conducted 
before the Food Stamp Program had started in much of the country. The 
doctors then returned to the same areas in the late 1970s for another 
examination. Their findings from the late 1970s, issued in what became 
a famous report, speak for themselves:

          In the Mississippi Delta, in the coal fields of Appalachia 
        and in coastal South Carolina--where visitors 10 years ago 
        could quickly see large numbers of stunted, apathetic children 
        with swollen stomachs and the dull eyes and poorly healing 
        wounds characteristic of malnutrition--such children are not to 
        be seen in such numbers. Even in areas which did not command 
        national attention 10 years ago, many poor people now have 
        food. . . .\1\
---------------------------------------------------------------------------
    \1\ ``Hunger in America: The Federal Response,'' Field Foundation, 
1979.

    The medical researchers credited food stamps as being the single 
largest factor responsible for this progress, concluding that ``no 
program does more to lengthen and strengthen the lives of our people 
than the Food Stamp Program.'' Findings such as this led then-Senator 
Robert Dole to describe the Food Stamp Program as the most important 
advance in the nation's social programs since the creation of Social 
Security.
    Consistent with its original purpose, SNAP continues to provide a 
basic nutrition benefit to low-income families and people who are 
elderly or have disabilities and can't afford an adequate diet. Recent 
studies show that SNAP has a marked effect in reducing what analysts 
call ``food insecurity,'' particularly among high-risk children. In 
addition, a recent demonstration project in which SNAP benefits were 
raised in summer months for families with school children who don't 
receive school meals during that time found that the added SNAP 
benefits cut by \1/3\ the percentage of children who skipped meals or 
otherwise ate less because their families lacked adequate resources.
    In important respects, today's program is stronger than at any 
previous point. By taking advantage of modern technology and business 
practices, SNAP has become substantially more efficient and accurate 
(its error rate is at its lowest level on record), while keeping 
administrative costs modest. (Some 92 percent of Federal SNAP 
expenditures go for benefits to enable households to purchase food.) 
While many low-income Americans continue to struggle, this would be a 
very different country without SNAP.
An Overview of SNAP
    As of the end of 2014, SNAP was helping more than 46 million low-
income Americans to afford a nutritionally adequate diet by providing 
them with benefits via a debit card that can be used only to purchase 
food. The benefits are relatively modest. SNAP participants receive an 
average benefit of $1.42 per person per meal.
    Eligible people who apply can receive benefits, and when poverty 
and need increase, the program expands. Then when the economy grows 
robustly again, the program contracts. This enables SNAP to respond 
quickly and effectively during times of economic downturn and increased 
need.
Figure 1
SNAP Caseloads Closely Track Changes in Number of Poor and Near-Poor
In millions, through September 2014

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          * Poverty numbers are annual estimates and not yet available 
        after 2013. Spikes in SNAP participants are from disaster 
        benefits (i.e., after hurricanes).
          Sources: Department of Agriculture (SNAP program 
        participants); Census Bureau (annual estimates of individuals 
        below 130% of poverty).

    SNAP can respond immediately to help families bridge temporary 
periods of unemployment or a family crisis. If a parent loses her job, 
SNAP can help her feed her children until she is able to improve her 
circumstances. A USDA study of SNAP participation from 2008 to 2012 
found that \1/2\ of all new entrants to SNAP participated for 1 year 
and then left the program when their need passed.
    SNAP's ability to respond quickly to changes in need is also 
important when natural disasters strike. States can provide emergency 
SNAP within a matter of days to help disaster victims purchase food. 
After the devastating 2005 hurricanes Katrina, Rita, and Wilma, SNAP 
provided several million people with temporary food assistance.\2\
---------------------------------------------------------------------------
    \2\ Kenneth Hanson and Victor Oliveira, ``The 2005 Gulf Coast 
Hurricanes' Effect on Food Stamp Program Caseloads and Benefits 
Issued,'' Economic Research Service, U.S. Department of Agriculture, 
ERS Report Number 37, February 2007, http://www.ers.usda.gov/media/
200715/err37_reportsummary_1_.pdf.
---------------------------------------------------------------------------
    SNAP's caseloads grew in recent years primarily because more 
households qualified for SNAP due to the recession and very sluggish 
recovery that followed until recently, and also because more of the 
households that were eligible applied for assistance. The Congressional 
Budget Office (CBO) has found that ``the primary reason for the 
increase in the number of participants was the deep recession . . . and 
subsequent slow recovery; there were no significant legislative 
expansions of eligibility.'' \3\
---------------------------------------------------------------------------
    \3\ Congressional Budget Office, ``The Supplemental Nutrition 
Assistance Program,'' April 2012, http://www.cbo.gov/sites/default/
files/cbofiles/attachments/04-19-SNAP.pdf.
---------------------------------------------------------------------------
    This responsiveness in recessions also benefits the economy, by 
helping to maintain overall demand for food when the economy falters. 
CBO and Moody's Analytics rate SNAP expenditures as one of the most 
effective supports for the economy during economic downturns. CBO has 
observed that increases in SNAP expenditures during economic slumps 
have one of the biggest ``bangs for the buck'' of any of a broad range 
of possible fiscal policies for shoring up a weak economy; in other 
words, SNAP's expansion in recessions produces some of the largest 
increases in economic activity and employment per budgetary dollar 
expended.
    Also of note is the program's progress in reducing error rates. 
Despite the caseload growth of recent years, the program's error rate 
has come down steadily and is now at its lowest level on record. Fewer 
than one percent of benefits are provided to households that should 
have been found ineligible. The overall net loss to the Treasury due to 
SNAP errors (which reflects overpayments to households that should have 
been found ineligible or that received too large a benefit, minus 
underpayments to households given too small a benefit) equaled two 
percent in 2013, a very low percentage for a program of its size. (See 
the box on page 7 of this testimony for a further discussion of this 
issue.)
    The National Journal has rated SNAP one of the government's most 
successful programs, citing both its responsiveness to people in need 
and its low error and fraud rates. The program is a ``case study in 
effective government aid,'' National Journal concluded.
    SNAP participation and spending have now begun to decline as the 
economic recovery has finally begun to reach some low-income SNAP 
participants. Fewer people participated in SNAP in each of the last 15 
months for which data are available (September 2013 through November 
2014) than in the same month 1 year earlier. Some 1.5 million fewer 
people participated in SNAP in November 2014 than when participation 
peaked in December 2012. I will discuss program growth and cost trends 
in more detail later in this testimony.
Targeting Benefits by Need
    SNAP targets benefits on those most in need and least able to 
afford an adequate diet. Its benefit formula considers a household's 
income level, along with its essential expenses such as rent, medicine, 
and child care needed to work. Although a family's income is the most 
important factor affecting its ability to purchase food, it is not the 
only factor; a family whose rent and utility costs consume \2/3\ of its 
income will have less money to buy food than a family that has the same 
income but receives a rental voucher to cover a portion of its rental 
costs.
Figure 2
Two-Fifths of SNAP Households Are Below \1/2\ the Poverty Line


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: USDA household characteristics data, FY 2013.

    The program's targeting of benefits adds some complexity. However, 
it helps to ensure that SNAP provides the largest levels of assistance 
to the poorest families with the greatest needs, and lesser assistance 
to those whose level of need is less severe.
    Due to this targeting, approximately 92 percent of SNAP benefits go 
to households with monthly incomes below the poverty line, and 57 
percent go to households with incomes below \1/2\ of the poverty line 
(below about $9,895 for a family of three in 2014).
Figure 3
SNAP Cuts Extreme Poverty Almost in \1/2\
Number of households with children, in 2011, living on $2 or less per 
        person per day
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Shaefer and Edin, ``Rising Extreme Poverty in the 
        United States and the Response of Federal Means-Tested Transfer 
        Programs,'' National Poverty Center, University of Michigan, 
        May 2013.

    This targeting of assistance also means that benefits tend to be 
higher in areas of the country where wages and public assistance 
benefits are lower. This makes SNAP especially important in southern 
states and rural areas, where wage rates generally are lower. Federal 
expenditures for SNAP benefits generally are higher in southern and 
rural states, relative to the size of the state population, than in 
other states.
    These features help account for SNAP's large impact in reducing 
poverty. Census data, using the Supplemental Poverty Measure (which 
counts SNAP and other government non-cash benefits as income, as most 
analysts believe should be done in measuring poverty), show that SNAP 
kept 4.8 million people out of poverty in 2013, including 2.1 million 
children, and made millions more less poor. SNAP is also one of the two 
most effective programs at lifting children out of deep poverty 
(defined as living below \1/2\ of the poverty line).
    Also of note is a study conducted by the National Poverty Center at 
the University of Michigan, which looked at the number of U.S. 
households living on less than $2 per person per day, a standard that 
the World Bank uses to measure destitution in third-world countries. 
The study found that without SNAP, 1.65 million American families with 
children lived on less than $2 per person per day in 2011, but that 
SNAP cut this number nearly in \1/2\.\4\
---------------------------------------------------------------------------
    \4\ H. Luke Shaefer and Kathryn Edin, ``Rising Extreme Poverty in 
the United States and the Response of Federal Means-Tested Transfer 
Programs,'' http://npe.umich.edu/publication/u/2013-06-npe-working-
paper.pdf.
---------------------------------------------------------------------------
Impact on Health and Self-Sufficiency
    Reducing hunger and food insecurity, and lifting people out of 
poverty, are important. But the question also arises: what are the 
program's longer-term effects?
    A recent landmark study, issued by the National Bureau of Economic 
Research, sheds light on this question. In this study, several leading 
poverty researchers examined what happened when the Federal Government 
introduced food stamps in the late 1960s and early 1970s. The 
researchers were able to make use of the uneven roll-out of the program 
in that period to match poor children who had access to food stamps in 
the early 1970s to comparable poor children from counties that hadn't 
yet implemented the program. The researchers examined educational, 
health, and employment-related records for these children in subsequent 
decades in order to assess the long-term effects of food stamps. They 
found that adults who had access to food stamps as young children had 
an 18 percentage point higher high school graduation rate than the 
children who hadn't had access to food stamps. The children with access 
to food stamps also had significantly lower rates of ``metabolic 
syndrome'' (obesity, high blood pressure, heart disease, and diabetes) 
and better health in adulthood. In addition, women who had access to 
food stamps as young children had higher earnings and lower rates of 
welfare receipt in adulthood.\5\
---------------------------------------------------------------------------
    \5\ Hilary W. Hoynes, Diane Whitmore Schanzenbach, and Douglas 
Almond, ``Long Run Impacts of Childhood Access to the Safety Net,'' 
National Bureau of Economic Research Working Paper 18535, 2012, 
www.nber.org/papers/w18535.
---------------------------------------------------------------------------
Figure 4
Children With Access to SNAP Fare Better Years Later
Percentage-point change in outcomes for adults who received SNAP as 
        children, compared to adults who did not receive SNAP as 
        children
        
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Hoynes, Schanzenbach, and Almond, ``Long Run Impacts 
        of Childhood Access to the Safety Net,'' National Bureau of 
        Economic Research, November 2012.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                           Error Rates in SNAP
 
    SNAP has one of the most rigorous error measurement systems of any
 public benefit program. Each year, states take a statistically
 representative sample of SNAP cases (totaling about 50,000 cases
 nationally) and investigate the accuracy of their eligibility and
 benefit decisions. Federal officials then re-review a subsample of
 these cases to ensure the accuracy of the state determinations. States
 are subject to fiscal penalties if their error rates are persistently
 higher than the national average.
    SNAP error rates now stand at record lows. Fewer than one percent of
 SNAP benefits are issued to households that do not meet all of the
 program's eligibility requirements.
    In addition, the program's combined overpayment rate--i.e., the
 percentage of SNAP benefit dollars issued to ineligible households plus
 the percentage issued to eligible households in excessive amounts--fell
 for the seventh consecutive year in 2013 to 2.61 percent. The
 underpayment error rate fell to 0.6 percent, with the result that the
 net loss to the government from errors was about two percent of
 benefits.
    In comparison, the Internal Revenue Service estimates a tax
 noncompliance rate of 16.9 percent in 2006, the most recent year
 studied, representing a $450 billion loss to the Federal Government.
 Underreporting of business income alone cost the Federal Government
 $122 billion in 2006.
    The large majority of SNAP errors result from mistakes by
 recipients, eligibility workers, data entry clerks, or computer
 programmers (rather than fraud). States have reported that almost 60
 percent of the dollar value of overpayments (and almost 90 percent of
 the dollar value of underpayments) were the result of state agency
 error, rather than due to actions by recipients.
------------------------------------------------------------------------

  Figure 5
  SNAP Error Rates at All-Time Low
  Fiscal Years 1990-2013

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Source: Quality Control Branch, U.S. Food and Nutrition 
        Service.
SNAP and the Budget: Simpson-Bowles, Domenici-Rivlin, and the Gang of 
        Six
    The SNAP program has accomplished a great deal. It also can be 
further improved. But it warrants noting that various distinguished 
non-partisan or bipartisan groups have all recommended that it not be a 
target for budget cuts.
    The deficit-reduction commission chaired by former Senator Alan 
Simpson and former White House chief of staff Erskine Bowles, as well 
as the Bipartisan Policy Center panel chaired by former Senator Pete 
Domenici and former CBO and OMB director Alice Rivlin, called for 
substantial budget cuts, as well as tax reforms to promote growth and 
raise revenue. Both commissions excluded cuts in SNAP, given its 
importance and its track record in improving access to food and 
nutrition and reducing poverty and hardship.
    When the Senate's bipartisan Gang of Six developed its framework 
for deficit reduction in 2011, it, too, protected SNAP from cuts. In 
addition, a diverse group of Christian leaders representing the 
Catholic Bishops' Conference, the Episcopal Church, the Salvation Army, 
the National Association of Evangelicals, and others has issued a call 
for policymakers to safeguard the poor in deficit reduction and to draw 
a ``circle of protection'' around programs targeted on them--including 
SNAP.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                      Where Federal SNAP Dollars Go
 
    Some 92 percent of Federal SNAP expenditures goes for benefits to
 low-income households for the purchase of food. Of the remaining eight
 percent, about five percent is used for the Federal share of state
 administrative costs, including conducting eligibility determinations,
 operating SNAP employment and training programs, providing nutrition
 education to SNAP households, and conducting anti-fraud activities.
 About three percent goes for other food assistance programs such as the
 block grant for food assistance in Puerto Rico and American Samoa,
 commodity purchases for The Emergency Food Assistance Program (which
 helps food pantries and soup kitchens), and commodities for the Food
 Distribution Program on Indian Reservations.
------------------------------------------------------------------------

  Figure 6
  92 Percent of Federal SNAP Spending Is for Benefits


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Source: Department of Agriculture, Fiscal Year 2014.
II. Program Growth
    SNAP participation and costs have grown in recent years. It's 
important to understand the causes of these developments and their 
implications.
    Some have looked at SNAP caseload growth since 2000, along with the 
lack of a more dramatic reduction in SNAP caseloads in the past few 
years as the unemployment rate has receded, as signifying that 
something has fundamentally changed in SNAP--either that the program 
has experienced big eligibility expansions or that it no longer becomes 
smaller as the economy recovers.
    As I'll explain, one needs to scrutinize SNAP data going farther 
back than 2000, as well as a broader set of economic measures than just 
the unemployment rate, to assess these issues. When one does, one sees 
that SNAP has not seen fundamental change that is permanently elevating 
its costs.
    That is the conclusion of the institution most skilled in analyzing 
these issues, the Congressional Budget Office. CBO projects that as the 
labor market improves, the number of SNAP participants will steadily 
decline, from 46.5 million in Fiscal Year 2014 to 32.8 million by 2025 
(the end of CBO's 10 year budget window), when the share of the 
population receiving SNAP assistance will be close to its pre-recession 
level of about nine percent.
    CBO also projects what SNAP and other Federal programs will cost. 
People concerned about the nation's long-term fiscal problems--
irrespective of where they sit on the political spectrum--generally 
focus on spending, taxes, and deficits measured as a share of the 
economy, or GDP. For example, a proposal that many conservatives 
favor--to amend the Constitution to require a balanced budget each year 
and to place a cap on total Federal spending--would set the spending 
cap as a percentage of GDP. The core of the nation's fiscal challenge 
for future decades is that as the population ages and health care costs 
rise, increased spending for Social Security and health care will cause 
total Federal spending to rise as a share of GDP while revenues remain 
relatively flat as a share of GDP.
Figure 7
SNAP Costs Starting To Fall, Projected To Fall Further
Spending as a share of gross domestic product


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Sources: Office of Management and Budget, Bureau of Economic 
        Analysis, and Congressional Budget Office January 2015 
        baseline.

    Accordingly, when analysts ask whether or not a program will 
contribute to our long-term fiscal problems, they generally ask whether 
it will rise in cost as a share of GDP. And in this regard, CBO's 
assessment of SNAP costs is instructive.
    SNAP costs began to fall in 2014, and CBO projects that by 2020 
SNAP costs will be all of the way back to their mid-1990s level as a 
share of GDP. Further, CBO projects no increase in SNAP costs as a 
share of GDP after that. By this standard, SNAP is not one of the 
causes of our long-term fiscal challenges. This may seem surprising at 
first blush, given the increases in SNAP costs and participation. So, 
let's review the recent history.
Cost Increases Since 2000
    Some have used 2000 as a starting point for looking at SNAP 
participation and cost trends and noted the large increases since then. 
As in most areas of budgetary analysis, however, the year selected as a 
``starting point'' can skew the results, and that is the case here. 
SNAP participation and costs were atypically low in 2000 for several 
reasons. In the first years after implementation of the 1996 welfare 
law, SNAP participation and costs plummeted, in significant part due to 
a large decrease in the share of eligible families receiving SNAP. The 
1996 welfare law was intended to encourage work. But due to problems in 
state administrative systems in the first years of the welfare law, 
many families moving from welfare to work and joining the ranks of the 
working poor were cut off SNAP when they left welfare, even though they 
remained eligible for SNAP.
    This was contrary to what Congress intended. Aggravating this 
problem, some states instituted administrative practices in those years 
that had the unintended effect of making it harder for many working-
poor parents to participate, largely by requiring them to take too much 
time off from work for repeated visits to SNAP offices at frequent 
intervals, such as every 90 days to reapply for benefits. This prompted 
many analysts and state policy officials from across the political 
spectrum to call for reforms that would improve access to SNAP for low-
income working families, and led both the Clinton and the Bush 
Administrations to act to address this problem. There was bipartisan 
consensus that having a policy under which a family needed to be on 
welfare to receive food stamps, and faced significant difficulty 
receiving food stamp assistance if it left welfare for work at low 
wages, would reduce work incentives and was contrary to welfare reform 
goals. Congress enacted significant, although relatively modest, 
changes in 2002 and 2008 to lessen barriers to SNAP participation among 
the working poor.
    USDA data show that the percentage of eligible households actually 
receiving SNAP benefits fell sharply from 75 percent in 1994 to 54 
percent in 2002. Since then, it has rebounded and now stands at 83 
percent, the highest participation rate on record. A large share of 
this increase in the participation rate is due to the program's 
significant improvement in serving the working poor. The percentage of 
eligible individuals in low-income working families that receive SNAP 
rose by more than \2/3\--from 43 percent in 2002 to about 72 percent in 
2012.\6\
---------------------------------------------------------------------------
    \6\ The most recent year for which USDA publishes estimates is 
2012.
---------------------------------------------------------------------------
    Several other factors may also have contributed to the increase in 
the participation rate. The widespread and prolonged effects of the 
recession--particularly record long-term unemployment--may have made it 
more difficult for family members and communities to help people 
struggling to make ends meet. Many households that already were poor 
became poorer and may have been in greater need of assistance.
    In addition, research has found that take-up of SNAP among eligible 
households is higher when benefits are larger. The Recovery Act's 
temporary SNAP benefit increase, which was in effect through October 
2013, may have contributed to higher participation rates.
    In essence, two factors have been responsible for the lion's share 
of the increase in SNAP participation and costs since 2000: the poor 
performance of the economy, to which I'll turn shortly, and the 
substantial rebound in the share of eligible households that actually 
receive SNAP, following the large drop in the program's participation 
rate in the late 1990s.\7\
---------------------------------------------------------------------------
    \7\ From 2009 through 2013, the temporary SNAP benefit increase 
enacted as part of the 2009 Recovery Act also contributed to the 
increase in costs. The temporary benefit increase ended on October 31, 
2013.
---------------------------------------------------------------------------
    Other factors are small by comparison. On the program eligibility 
side, more states adopted ``categorical eligibility'' over the past 
decade in order to simplify the program, reduce administrative costs, 
and reach low-income working families that incur substantial costs for 
items such as child care. But CBO has found that categorical 
eligibility accounts for only two percent of program costs. In 
addition, while as a result of the weakened economy, most states 
qualified for statewide waivers from the provision of SNAP law that 
limits unemployed individuals aged 18-50 who aren't raising children to 
3 months of SNAP benefits out of every 3 years, those waivers are now 
ending in most places. At least one million such individuals will be 
removed from the program in 2016.
    Finally, the increase in caseloads cannot be explained by increases 
in error and fraud. As noted, the program's error rate has declined. 
The percentage of benefits provided to households that should have been 
found ineligible is now below one percent.
The Role of the Economy
    As noted, SNAP participation and costs have begun to decline. Some 
1.5 million fewer people received SNAP in November 2014 than in 
December 2012.
    While SNAP enrollment has begun to recede, however, it hasn't 
declined as rapidly as the unemployment rate over the past couple of 
years. This has led some to assume there is something unusual or 
disturbing going on with the SNAP program. Close examination indicates, 
however, that this isn't the case (as CBO's analysis also indicates).
    When the economy begins to emerge from downturns, reductions in 
poverty--and in SNAP participation--virtually always follow only with a 
significant lag. As CBO explained in 2012:

          ``Even as the unemployment rate began to decline from its 
        1992, 2003, and 2010 peaks, decreases in [SNAP] participation 
        typically lagged improvement in the economy by several years. 
        For example, the number of SNAP participants rose steadily from 
        about 20 million in the fall of 1989 to more than 27 million in 
        April 1994--nearly 2 years after the unemployment rate began to 
        fall and a full 3 years after the official end of the recession 
        in March 1991.'' \8\
---------------------------------------------------------------------------
    \8\ Congressional Budget Office, ``The Supplemental Nutrition 
Assistance Program,'' April 2012. Two other studies of SNAP rolls 
during the Great Recession also found that their patterns have been 
consistent with previous economic cycles. Marianne Bitler and Hilary 
Hoynes, ``The More Things Change, the More They Stay the Same? The 
Safety Net and Poverty in the Great Recession,'' National Bureau of 
Economic Research, Working Paper 19449, September 2013, http://
www.nber.org/papers/w19449.pdf and Peter Ganong and Jeffrey B. Liebman, 
``The Decline, Rebound, and Further Rise in SNAP Enrollment: 
Disentangling Business Cycle Fluctuations and Policy Changes,'' 
National Bureau of Economic Research, Working Paper 19363, August 2013, 
http://www.nber.org/papers/w19363.pdf?new_window=1.

    When CBO made this observation, it was predicting that the number 
of individuals receiving SNAP benefits in Fiscal Year 2015 would be 
46.2 million. This is virtually identical to CBO's current estimate of 
46.0 million participants for the current fiscal year.
    Why should the decline in SNAP participation lag the decline in the 
unemployment rate to this extent? The key point here is that the 
unemployment rate is an incomplete--and inadequate--measure for 
assessing changes in the labor market. As former Federal Reserve chair 
Ben Bernanke explained in July 2013, the unemployment rate ``overstates 
the health of our labor markets given [labor-force] participation rates 
and many other indicators of underemployment and long-term 
unemployment.'' An array of other key economic measures that are 
relevant to SNAP participation and costs have shown much less 
improvement.

  <bullet> While the unemployment rate has fallen considerably, part of 
        that decline reflects people giving up looking for work and 
        dropping out of the labor market because they've concluded they 
        can't find a job. To measure what is actually happening to jobs 
        and employment, analysts often look directly at the employment 
        rate (rather than the unemployment rate)--i.e., the share of 
        people age 16 and over who have a job. After falling from 63 
        percent in 2007 to 58.4 percent in 2011, the share of people 16 
        and over with a job has improved only modestly. It stood at 
        only 59 percent in 2014. To be sure, part of the erosion 
        reflects the aging of the population. But this figure 
        highlights the fact that the labor market has not recovered 
        nearly as much as the decline in the unemployment rate would 
        suggest. This is the point that Bernanke was making.

  <bullet> In addition, long-term unemployment remains exceptionally 
        high. In no recession from the end of World War II to 2007 did 
        the percentage of unemployed workers who were long-term 
        unemployed workers--people who had been out of work more than 6 
        months and were still looking for a job--ever exceed 26 percent 
        of the unemployed. Yet in January 2015, some 31.5 percent of 
        the nation's nine million unemployed workers were long-term 
        unemployed. This is especially relevant because the long-term 
        unemployed are much more likely to have exhausted their assets 
        and other support--and to qualify for and seek help from SNAP--
        than workers unemployed for shorter stretches.

  <bullet> On a related front, the number of unemployed workers not 
        receiving unemployment benefits--the group of the unemployed 
        that is most likely to qualify for SNAP because they have 
        neither wages nor unemployment insurance (UI) benefits--has 
        continued to grow and was actually higher in 2014 than at the 
        bottom of the recession. There were an average of 14.3 million 
        unemployed workers in 2009, of whom 5.1 million didn't receive 
        UI benefits. By 2014, the number of unemployed had fallen to 
        9.6 million--but 6.9 million were without UI benefits--35 
        percent more than in 2009, when the economy was at its lowest 
        point.

     This reflects the end of Federal unemployment benefits for the 
        long-term unemployed as well as cuts in state unemployment 
        benefits in a number of states. Today, fewer than three in ten 
        (27 percent) of unemployed workers receive unemployment 
        benefits. This is the lowest level on record (with data back to 
        1971).\9\
---------------------------------------------------------------------------
    \9\ Claire McKenna, ``The Job Ahead: Advancing Opportunity for 
Unemployed Workers,'' National Employment Law Project, February 2015, 
http://www.nelp.org/page/-/UI/Report-The-Job-Ahead-Advancing-
Opportunity-Unemployed-Workers.pdf?nocdn=1.

  <bullet> Another important factor is that the share of workers who 
        want to work full time but can only find part-time work neared 
        historic highs during the recession and remains elevated today. 
        The Bureau of Labor Statistics' most comprehensive alternative 
        unemployment rate measure, which includes people who are 
        working part time because they cannot find full-time jobs and 
        people who want to work but aren't actually looking, stood at 
        11.3 percent in January--2.5 percentage points higher than at 
        the start of the recession. By this measure, about 18 million 
        people are unemployed or underemployed, twice the 9.0 million 
---------------------------------------------------------------------------
        people in the official unemployment measure.

    These disappointing labor-market realities also are reflected in 
data on poverty. In 2013, the most recent year for which official 
poverty data are available, 45 million people were poor. This was eight 
million more than in 2007 (before the recession) and 1.7 million more 
than in 2009 (when the economy hit bottom).
    A final important economic factor is the erosion of wages at the 
low end of the wage scale. Between 1973 and 2013, the share of male 
workers who earn below-poverty hourly wages (i.e., wages too low to 
lift a family of four to the poverty line with full-time, year-round 
work), rose from 17 percent to 24 percent. Looking just at a more 
recent period, the wages that workers at the 10th percentile of the 
wage distribution received in the last quarter of 2014 were three 
percent below the 2009 levels, after adjusting for inflation; wages at 
the 25th percentile of the wage distribution were five percent below 
the 2009 level.
    The erosion of the minimum wage has played a role here. The current 
wage floor of $7.25 an hour is 24 percent below the peak value in the 
late 1960s, after adjusting for inflation. While the minimum wage 
equaled about \1/2\ the average hourly wage of private non-supervisory 
workers in the 1950s and 1960s, it now equals 35 percent of this 
average wage. The Council of Economic Advisers estimates that 
increasing the value of the minimum wage in 2014 to its real average 
value in 1979 would have directly increased wages for the lowest eight 
percent of wage earners.
    The point here is that a substantial share of formerly unemployed 
workers continue to qualify for SNAP when they find jobs because their 
wages are low. (And as noted, SNAP does a much better job than it used 
to of serving eligible working-poor families; a larger share of such 
families now participate in the program.)
    The erosion of wages for low-paid work is one of the reasons that 
the proportion of SNAP recipients who are working while receiving SNAP 
has substantially increased. More than \1/2\ of families with children 
that receive SNAP have earnings while they are receiving SNAP benefits. 
This percentage continued to grow even during the recession.
    This leads to a larger observation. Developments in the economy--
and policy decisions made in other policy areas outside SNAP and the 
purview of this Committee--have a significant bearing on SNAP 
participation and costs. When real wages erode at the bottom of the 
wage scale, the minimum wage is frozen for an extended period of time 
while prices rise, or state governments reduce the number of weeks or 
the amount of unemployment benefits, SNAP participation and costs 
increase.
    A similar dynamic operates on the housing front. When the number of 
poor households that pay more than \1/2\ of their income for rent and 
utilities rises (due to rents rising faster than incomes, reductions in 
Federal housing assistance, or the like), more poor households qualify 
for the SNAP program's excess shelter deduction. This raises their SNAP 
benefit so they can afford both to feed their families and pay the 
rent. Between 2003 and 2013, the number of low-income households paying 
more than \1/2\ of their income for rent and utilities soared from 4.7 
million to 7.5 million--an increase of nearly 60 percent.
    As noted, the number of SNAP recipients is expected to continue 
declining as the economic recovery more fully takes hold for lower-
income workers. In addition, while the SNAP ``participation rate''--the 
percentage of eligible households that receive benefits--is now at its 
highest level on record, it may decline somewhat in the years ahead. 
Research shows that SNAP participation rates are higher for households 
that qualify for larger benefits. Researchers believe that the 
temporary increase in the SNAP benefit level enacted as part of the 
Recovery Act led to an increase in the SNAP participation rate--and 
that with the end of the benefit increase, the participation rate will 
likely decline somewhat over time.
III. SNAP and Employment
    One of the most significant changes in SNAP in recent decades has 
been its transformation from principally a welfare supplement program 
to principally a work support program. As Figure 8 shows, in 1990, 60 
percent of SNAP households with children received cash welfare 
assistance and had no earnings, while about 25 percent had earnings 
from employment. By 2013 (the latest year for which these data are 
available), only 11 percent received welfare and lacked earnings, while 
52 percent worked and had earnings.
Figure 8
Working Households on the Rise
Share of SNAP households with children by type of income

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: CBPP Tabulations of SNAP Quality Control Data.

    This is a dramatic change. Among SNAP families with children, there 
used to be about 2\1/2\ times more families receiving welfare and not 
having earnings than there were working families. Now, there are nearly 
five times as many working families as non-working families receiving 
welfare cash assistance.
    To be sure, a substantial share of SNAP households still lack 
earnings while on SNAP, though this percentage is lower than it used to 
be. But this needs to be understood in context. Research has shown that 
losing a job is the most common event that leads new participants to 
enroll in SNAP. Households that experienced a job loss were 63 percent 
more likely to seek SNAP than low-income families that didn't 
experience a job loss.
Figure 9
SNAP Households With Working-Age Non-Disabled Adults Have High Work 
        Rates
Work participation for households that received SNAP in a typical month

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: CBPP calculations based on 2004 SIPP Panel data.

    If a household loses its job and enrolls in SNAP, and then leaves 
the program when it lands a new job, the program data will show the 
household as being jobless while on SNAP. But the household will have 
maintained a strong attachment to the labor force, and SNAP will have 
done its job in helping the family put food on the table until it could 
get back on its feet.
    Accordingly, to understand the program's connection to work, we 
need to understand the degree to which SNAP participants work before 
and after going on SNAP, not just their work status while they are 
receiving benefits. Among SNAP households with a working-age adult who 
isn't disabled, more than \1/2\ work while receiving SNAP, and more 
than 80 percent work in the year before or after a typical month 
receiving SNAP. The rates are higher for families with children--more 
than 60 percent work while receiving SNAP, and 87 percent work in the 
prior or subsequent year.\10\
---------------------------------------------------------------------------
    \10\ The figures are based on data from the Survey of Income and 
Program Participation (SIPP) for the mid-2000s, but preliminary 
analysis finds that they declined only modestly during the recession. 
Preliminary analysis of SIPP data for 2008-2010 finds that among non-
disabled working-wage SNAP households, the percentage that worked in 
the year before or after a typical month of SNAP receipt edged down by 
only three percentage points, from 82 percent to 79 percent, despite 
the sharp rise in unemployment.
---------------------------------------------------------------------------
    Of particular note, among households that worked before enrolling 
in SNAP, 96 percent worked in the year after starting to receive SNAP; 
only four percent did not. This suggests that turning to SNAP does not 
lead people to cease working or trying to work.
    Indeed, the number of SNAP households that have earnings while 
participating in SNAP more than tripled between 2000 and 2013, from 
about two million to about 7.1 million. The increase continued even 
during the recession, which suggests that more people have been turning 
to SNAP because of low wages or underemployment (for example, when one 
wage-earner in a two-parent family loses a job, when a worker's work 
hours are cut, or when a worker turns to a lower-paying job after being 
laid off). During the recession, the number and share of SNAP 
households with earnings increased even as the overall number of 
Americans who are employed declined and the number of long-term 
unemployed swelled.
    These data are consistent with the leading academic research in the 
field, which finds that SNAP does not have significant work 
disincentive effects. A comprehensive review and synthesis of the 
research literature that examined the behavioral effects of an array of 
safety-net programs, including SNAP, and was conducted by some of the 
field's leading scholars and published by the National Bureau of 
Economic Research, found SNAP's overall impact on work to be small. 
This doesn't mean, however, that SNAP couldn't do better in helping 
participants that lack jobs to secure them--a topic to which I will 
return shortly.
Figure 10
Nearly All Households That Worked Before Receiving SNAP Continued 
        Working
Work participation in year after starting to receive SNAP among 
        households that worked in prior year
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: CBPP calculations based on 2004 SIPP Panel data.
How Long Do People Stay on SNAP?
    One set of data that can help illuminate these issues, but can also 
engender confusion, concern how long participants remain on SNAP. The 
implications that's often drawn is that if people stay on a program for 
very long periods of time, the program may not be appropriately 
connecting them to the labor market.
    As analysts know, the issue of how long participants remain on SNAP 
(or any other program) is complicated and often misunderstood. An 
analogy to a hospital room helps to explain why--and is crucial to 
understanding SNAP caseload dynamics.
    Consider a hospital room with two beds. Over a 30 day period, one 
bed is occupied by the same person throughout. The other bed is 
occupied by five different people who have short hospital stays and 
then leave. If you ask what share of those who are patients in the 
hospital room on any given day are ``long stayers,'' the answer is 50 
percent (one of the two people then in the room). But if you ask what 
share of all patients over the course of the month were long stayers, 
the answer is 16 percent--one in six.
    That is precisely what the SNAP rolls are like. The most recent 
study of SNAP caseload dynamics found that of all people who entered 
the program between 2008 and 2012, some 26 percent left the program 
within 4 months, 52 percent left within 12 months, and 67 percent left 
within 24 months. For families with children, the typical (or median) 
spell on SNAP was 12 months. For elderly people living alone, by 
contrast, the median length of time on the program was more than 51 
months.
    These data show that most people going on SNAP who are not elderly 
or disabled do not remain on the program continuously for extended 
periods of time. (Some do return when they encounter subsequent 
financial hard times and then leave the program again.)
    But at the same time, if you take the SNAP caseload in a given 
month and ask what is the typical length of stay on the program of 
those participating in that particular month, the answer is more than 5 
years. This is the equivalent of asking what share of the hospital beds 
in our hypothetical hospital room were occupied by a long stayer on a 
given day.
    Finally, data on the length of stay on the program cannot, by 
themselves, yield sufficient information on the relationship of SNAP to 
employment. As noted earlier, with the erosion of wages on the low end 
of the pay scale, especially for male workers with no more than a high 
school education, people can work at low wage jobs for a number of 
years and remain eligible for SNAP throughout that time.
The SNAP Employment and Training Program
    People sometimes ask if SNAP has work requirements. It does, and 
they are stronger than people often realize. In fact, for childless 
adults, they are the most stringent of any Federal program. People aged 
18 to 50 who are not raising minor children may receive SNAP benefits 
for only 3 months (while they are not employed at least \1/2\ time) out 
of every 3 years, even if they have looked diligently for work but 
cannot find it.
    When the amendment establishing this requirement was offered on the 
House floor in 1996, its sponsors said that if a SNAP recipient 
couldn't find a job on his or her own, the individual would be provided 
a workfare slot and only those refusing to do workfare would be cut off 
after 3 months. In most places, however, the workfare (or other 
qualifying work) slots were never created. Currently only five states 
operate the requirement this way. In the rest, people who do not find a 
job on their own in 3 months are cut off, regardless of how hard they 
may be looking for work.
    I have also heard this requirement mistakenly described as one that 
cuts off benefits after 3 months for people who won't search for a job, 
but that isn't accurate. Job search does not count under the 
requirement.
    In my view, job search ought to count. I also believe that people 
who cannot find a job should be offered a work or training slot--and 
cut off SNAP if they refuse to take it--rather than being cut off 
because no slot has been offered to them. The people who are subject to 
this 3 month benefit limit have average income of only 19 percent of 
the poverty line (about $2,200 a year) and typically don't receive any 
other income or nutrition support.
    In recent years, this requirement has largely been suspended in 
many states; the provision enacted in 1996 authorized states to obtain 
temporary waivers of this requirement during periods when the economy 
is weak and unemployment is elevated, and most have done so statewide 
in recent years. As noted earlier, most states will no longer qualify 
for those statewide waivers as their local unemployment rates improve. 
At least one million individuals will lose food assistance in 2016 as a 
result of this requirement.
    Turning to SNAP participants who have children, SNAP work rules and 
requirements essentially complement those in the Temporary Assistance 
for Needy Families block grant, the program established under the 1996 
welfare law. The 1996 law gave states options to impose tough SNAP 
sanctions on TANF households who fail to comply with TANF work or other 
behavioral requirements. This includes the termination of SNAP benefits 
for the entire family for up to 6 months (unless the family has a child 
under age 6).
    States use this flexibility to design and augment the force of 
their TANF work and behavioral requirements. States also operate SNAP 
employment and training (E&T) programs for SNAP participants who are 
not subject to work requirements in TANF or other programs, and states 
can and do impose SNAP benefit sanctions on participants who fail to 
comply with SNAP employment and training program rules.
    USDA data show that between 70,000 and 100,000 people live in a 
household where an individual's SNAP benefits have been terminated for 
failure to meet a work requirement. This number is an understatement; 
these data do not include households where the entire household has 
been removed from the program for not meeting a work requirement.
    The SNAP program does, however, have a weakness in this area: due 
to limited funding, the SNAP employment and training program is able to 
provide work or training slots for only a relatively modest portion of 
SNAP recipients who lack employment and aren't enrolled in, or subject 
to, another work program or another set of work requirements such as 
those under TANF.
    Another weakness is that SNAP employment and training programs have 
not been especially effective at placing participants in private-sector 
jobs or helping them gain skills that would enhance their ability to 
find and retain jobs. The SNAP E&T program isn't unique here. A number 
of employment and training programs have mixed or disappointing track 
records.
    Fortunately, there is now hope for improvement here. The 2014 Farm 
Bill created a major demonstration project under which up to ten states 
will test innovative employment and training strategies, with a 
rigorous, independent evaluation being conducted of the effects on 
employment, earnings, and other factors. We currently have limited 
knowledge about what strategies are successful in increasing employment 
among SNAP participants, and these pilots should provide valuable 
information on how the SNAP employment and training program can better 
serve SNAP participants to achieve desired results.
    USDA will shortly announce the states selected for the 
demonstration, and I hope and expect that a broad range of approaches 
will be tested. I would urge policymakers on both side of the aisle to 
let the demonstration run its course and not rush to make big changes 
in SNAP employment and training rules before we have the results. The 
last several decades have seen a number of Congressional efforts to 
improve other Federal employment and training programs without the type 
of knowledge that these demonstrations should yield. Despite good 
intentions, such earlier efforts to improve employment and training 
programs have often yielded disappointing results. We need this time to 
be different, and that entails being patient until the demonstration 
results are in, and then applying them.
    There is, however, another hopeful opportunity in which I urge the 
Committee to become involved. Historically, the job training programs 
funded and operated under the Workforce Investment Act have largely 
bypassed SNAP participants, focusing instead on people who already 
possess job experience and skills. (A GAO study found that SNAP E&T 
participants generally have limited education--they often aren't high 
school graduates--and limited job skills.) Fortunately, the bipartisan 
Workforce Investment Act reauthorization Congress that enacted last 
year calls for these training programs to orient more to disadvantaged 
individuals. The new law also encourages state workforce agencies to 
collaborate more closely with state SNAP E&T programs, and it includes 
an option for states to submit a combined workforce plan that includes 
programs like SNAP E&T. Connecting SNAP participants to a broader range 
of employment and training services should allow more of these 
individuals to gain the skills needed to find employment, with positive 
effects both for these individuals and for SNAP costs (which will be 
lower if more participants secure jobs). I would recommend that the 
Committee work to make sure that this promising aspect of the new job 
training law is realized in practice. To this end, a review of how the 
Department of Labor and local workforce boards are expanding job 
training options for SNAP participants under the new law would be 
worthwhile.
    Finally, in thinking about SNAP and employment, I would urge the 
Committee to weigh the effects of various policies not only on 
employment among adults currently on SNAP, but also on the future 
employment prospects of children in families that receive SNAP. As 
noted earlier, research suggests that when poor families with children 
receive SNAP while the children are young, the children (especially 
girls) are more likely to be employed and not on welfare as adults. 
This suggests that care should be taken to protect children's access to 
the important nutritional assistance that SNAP provides.
IV. A Final Thought on Strengthening Program Integrity
    I understand the Committee will be undertaking a comprehensive 
review of SNAP over the next year. I would recommend that as part of 
this oversight, the Committee consider ways to facilitate greater use 
of data matching to further strengthen program integrity and improve 
client service through improved efficiencies. There may be 
opportunities to enhance this aspect of program operations across the 
country.One issue to explore is how to provide more SNAP caseworkers 
with strong capacity to access data in real time when working with 
clients and determining and renewing eligibility or processing reported 
changes in household income. Several states--such as Utah, Washington, 
and Idaho--have developed special tools that help their eligibility 
workers conduct data matches across a wide range of state and Federal 
databases, such as Motor Vehicles, State Vital Statistics, the Social 
Security Administration, Child Support, Unemployment Insurance, state 
tax records, consumer credit checks, and other commercial databases. 
These databases help states verify the income and other eligibility 
factors a household reports, and can do so without asking clients to 
take time off from work for repeated visits to food stamp offices to 
provide documents. And with ready access to information to verify 
clients' statements, caseworkers can take immediate action as needed 
(without waiting for clients to turn in paper verification to the local 
office and for that paperwork to make its way to the caseworkers days 
or even weeks later). In addition, ready access to third-party data can 
help to detect instances where households may not have reported 
information accurately. The matches occur nearly instantaneously and 
help detect both inadvertent mistakes and fraud. But not all states 
currently use tools such as these.
    Similarly, some states pay (with the support of Federal matching 
funds) a private company, Equifax, for access to employment and wage 
records. Employers with large numbers of low-wage workers often prefer 
to have a third party handle government inquiries regarding their 
employees' wages and hours. State SNAP agencies report that when their 
case workers are able to easily access income information for 
applicants and participants, that increases accuracy and reduces 
paperwork burdens on both participants and employers. The Committee may 
wish to explore whether access to these private third-party data is 
something the program can and should provide to all states. The Federal 
Government, for example, now provides such data to state Medicaid 
programs through the Federal data hub.
    Another interesting data matching option that could increase 
program accuracy while reducing paperwork is using state wage records 
to verify the income of SNAP participants and applicants. Currently, a 
few states, including Texas, are testing this approach via a waiver. 
This mode of verifying income is not typically used because SNAP 
requires that applicants verify their income using current records, and 
state wage data often are a number of months old. As result, state wage 
records can't be used to definitively determine a child's current 
income (although states can use it to retroactively test the veracity 
of client information). Under the waiver, Texas is testing the 
targeting of this verification method for participants with steady 
employment and earnings. If it proves accurate, it may represent a way 
to reduce paperwork burdens for both applicants and state SNAP staff.
    Helping states share these tools and innovations with other 
states--including exploring ways that the Federal Government might 
establish or procure IT solutions that all states can use to strengthen 
program integrity, increase efficiencies and improve customer service, 
instead of requiring each of the 50 states to individually research the 
terrain--could be considered, given the Federal dollars at stake. The 
Committee could look into whether there are opportunities to remove 
barriers to states' adoption of such systems or to incentivize more 
states to implement them.
V. Conclusion
    The Agriculture Committee is undertaking a close look at SNAP. I 
hope the results of this work lead the program to become still more 
effective.
    In so doing, I hope the Committee will keep in mind the 
accomplishments the program has made and proceed with appropriate 
caution. The well-being of millions of vulnerable Americans is at 
stake. I would urge that the Committee adopt the Bowles-Simpson 
principle of protecting the disadvantaged and avoiding measures that 
would increase hunger, poverty and hardship in a nation as abundant as 
ours. Thank you.
                        PowerPoint Presentation
SNAP Error Rates at All-Time Low
Fiscal Years 1990-2013


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Quality Control Branch, Food and Nutrition Service.
Children With Access To SNAP Fare Better Years Later
Percentage-point change in outcomes for adults who received SNAP as 
        children, compared to adults who did not receive SNAP as 
        children
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Hoynes, Schanzenbach, and Almond, ``Long Run Impacts 
        of Childhood Access to the Safety Net,'' National Bureau of 
        Economic Research, November 2012.
Working Households on the Rise
Share of SNAP households with children by type of income

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: CBPP Tabulations of SNAP Quality Control Data.
SNAP Costs Starting To Fall, Projected To Fall Further
Spending as a share of gross domestic product

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Sources: Office of Management and Budget, Bureau of Economic 
        Analysis, and Congressional Budget Office January 2015 
        baseline.
Nearly All Households That Worked Before Receiving SNAP Continued 
        Working
Work participation in year after starting to receive SNAP among 
        households that worked in prior year

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: CBPP calculations based on 2004 SIPP Panel data.
SNAP Caseloads Closely Track Changes in Number of Poor and Near-Poor
In millions, through September 2014

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          * Poverty numbers are annual estimates and not yet available 
        after 2013. Spikes in SNAP participants are from disaster 
        benefits (i.e., after hurricanes).
          Sources: Department of Agriculture (SNAP program 
        participants); Census Bureau (annual estimates of individuals 
        below 130% of poverty).
    The Chairman. Well, thank you, gentlemen. I appreciate you 
being here again.
    The chair would remind Members that they will be recognized 
for questioning in order of seniority for Members who were at 
the start of the hearing. After that, Members will be 
recognized in order of arrival. And I appreciate everybody's 
understanding for that.
    I now recognize myself for 5 minutes.
    Mr. Besharov, can you help me better understand how an 
anti-hunger program from the 1960's became the primary income 
support program in the United States today? From your 
description of the past, it appears that SNAP has undergone 
incremental changes in order to get to this current position.
    Mr. Besharov. Yes, sir, I can, and part of it is laid out 
in my----
    The Chairman. Your microphone is not on, I don't think.
    Mr. Besharov. Excuse me. Yes, I can, and part of it is laid 
out in my testimony, and part of it was reflected in what Bob 
said as well.
    In the 1940s to the 1970s, African-Americans were 
systematically excluded from welfare in large parts of the 
country. Partly, this was through the unfit home rule, the man-
in-the-household rules, and so forth. The result was, as we 
became a less agrarian society, the result was people left the 
land and hunger and starvation grew. The response from the 
Federal Government was to step in and to provide a feeding 
program, and it built on the original food stamp program which 
we had created and then abandoned in the 1930's. That original 
program, designed as it was to get around the rules in the 
southern states, did a number of things that now come back to 
haunt us. One was, it had a separate measure of income from 
welfare, AFDC in those days. The result was every dollar less 
in welfare generated between 30 and 40 more in food stamps.
    I was in New York State at the time. We had Nelson 
Rockefeller as our governor, a relatively liberal Republican. 
His response to the passage of the universal food stamp program 
was to recommend a reduction in AFDC payments because the state 
had to pay 50 percent for them, whereas food stamps would be a 
100 percent Federal. So states like New York and California cut 
back their AFDC programs to rely more on their SNAP or food 
stamps programs. It was pure arithmetic.
    Then came welfare reform, and under welfare reform, the 
states had a very large incentive to reduce their caseloads. 
Every dollar they saved, they kept.
    I have read it in Bob's testimony, this is a problem in the 
way TANF was implemented, but totally expected. If you push 
someone off TANF because of a work requirement, and they can 
still get food stamps--in those days food stamps--and still get 
Medicaid, maybe still get housing, you have blunted the work 
requirement, but you have also created an alternate path to 
public assistance. And that is why some on the right call the 
new SNAP program Welfare 2.0, because it has grown to be a very 
large welfare-like program.
    I know this is a lengthy answer. My last part of this is, 
come the Great Recession, and states were extremely hesitant to 
put people on TANF, plus a substantial amount of unemployment 
in the recession was male-dominated. For the first 18 months, 
the majority of the people who lost jobs were men. Married men. 
Those families, often with two earners in their households, 
wouldn't qualify for TANF anyway, but when a husband's earnings 
went down, whether or not his wife was also working, if they 
had two children, there was a tendency for them to be eligible 
for SNAP. So SNAP went up when the UI benefits ran out. It--
this is the interaction that on the left you say, hey, this is 
terrific, this is exactly what we want. And in Bob's testimony 
he talks about it as a countercyclical program. It surely is, 
but we haven't fixed the wrinkles, and the wrinkles are that 
the result is no real work requirement, serious questions about 
the fairness of eligibility determinations, and serious 
questions about what to do in the future.
    This is a lengthy answer to say we now have a new welfare 
program. It is called SNAP. It still fills an important 
nutritional need for people at the very bottom of the income 
level, but at higher levels, it is income support and we ought 
to treat it that way.
    The Chairman. Thank you, gentleman.
    The Ranking Member is recognized for 5 minutes.
    Mr. Peterson. Well, thank you, Mr. Chairman.
    I think I know the answer to this but I want to get it on 
the record. I don't know of anybody that designs a system where 
one entity decides who qualifies and the other entity pays for 
it; that is a recipe for disaster.
    Over the course of the debate on the farm bill, we made the 
change in LIHEAP, and at the time I had said that I thought 
when it came down to it, the states would decide to go from 
paying $1 a year to $20 a year so they could still qualify 
people. And some of them did but some of them actually didn't.
    The question is, if we made a change in SNAP, or if a 
change was made in SNAP, so that costs above 130 percent of 
poverty, the state would pay 50 percent, and the Federal would 
pay 50 percent,'' what do you think would happen?
    Mr. Greenstein. I think there are a couple of parts to the 
answer. You raised the issue of LIHEAP and there is a remedy, 
but I don't think the remedy is having states pay 50 percent 
above 130 percent of poverty.
    Mr. Peterson. I am just wondering what do you think would 
happen if that----
    Mr. Greenstein. Well, different states would make different 
decisions, and part of the whole essence of this program, going 
back to President Nixon, was that prior to President Nixon, 
each state set its own eligibility standards. We had some 
states eliminating working families when their incomes reached 
only 50 percent of the poverty line. Other states did it very 
differently. And there is real importance in having national 
eligibility standards. For example, it lessens the disparity 
between low wage areas and high wage areas. That is why SNAP 
benefits actually are disproportionately greater in rural areas 
and in southern states.
    On the LIHEAP issue, the issue there, in my view, is that 
LIHEAP is supposed to help families that have significant--low 
income families that have significant heating bills they 
otherwise have difficulty affording. And the remedy is within 
the LIHEAP program, which certainly is under the purview of 
Congress, not particularly this Committee but your fellow 
Members, and LIHEAP could be modified to make clear that it is 
not to provide benefits to people who don't incur heating 
costs.
    There are a relatively small number of states that are 
doing what you suggested, but there still are a few, but that 
could be handled through appropriate targeting of the LIHEAP 
program. But I would caution on the other side. You know, you 
have----
    Mr. Peterson. I was just wondering----
    Mr. Greenstein. Well, let me--I want to give you a key 
example.
    Yes. Only one in six low income families that is eligible 
for childcare assistance gets it because we have limited 
funding in the programs for childcare. So we have two families; 
one of them has income at 110 percent of the poverty line and 
they get a childcare subsidy. The other has income at 138 
percent of the poverty line and doesn't get a childcare 
subsidy, they pay out-of-pocket so it can work. The second 
family may actually end up with less money for food than the 
first family. So the reason that some states have used 
categorical eligibility, when you look at who they have helped 
through categorical eligibility, 90 percent of the families are 
working families. The typical focus of those families is they 
pay more than \1/2\ their income for either childcare or rent, 
and do not get a childcare subsidy and do not get housing 
assistance. So we need to be careful in how we calibrate those 
eligibility standards.
    Mr. Peterson. Professor?
    Mr. Besharov. If you believe that that business firm, if it 
could find people to hire, would strengthen the local economy, 
and I do, then you can understand why governors, conservative, 
liberal, Republicans, Democrats, when they look at their 
political imperative, it is to get their state economy 
``growing again.''
    I think the answer to your question, sir, is that, subject 
to the lessons from TANF implementation, the states would jump 
at the opportunity to try to raise the labor force 
participation of people on SNAP assistance, and they would do 
it not just by having a different amount, they would do it 
through job training, they would do it through a job search, 
and as I say, subject to the lessons of TANF, which we should 
take to heart.
    Mr. Peterson. So you believe they would reduce the----
    Mr. Besharov. I was at a meeting of 20 state secretaries, 
and I said why do you want to reform food stamps? You don't pay 
for it. And they said we worry about the well-being of our 
states. They would jump at the chance. They would take the 
offer--many states would take the offer and experiment with it. 
Yes, sir.
    Mr. Peterson. Thank you. Thank you Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Thompson from Pennsylvania, 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony, it is very helpful, very 
insightful on this important topic.
    I certainly like the concept of taking programs like SNAP 
and taking them from what we have traditionally called, and 
some have categorized them different ways, taking the programs 
but making them into workforce development programs, which come 
with more hope and opportunity.
    And so my question for both of you, do we even know what 
works in terms of solid evidence-based research to help folks 
who are--find themselves, families in low income situations, 
low income work, and help them work and earn more and leave 
poverty. And more specifically, does the current SNAP program 
do that?
    Mr. Besharov. Let me start, but I will try to be brief so 
that Bob has some time.
    The history of job training in this country is very 
disappointing. In match-up after match-up under TANF and before 
that, AFDC, job training versus job search never did better. 
That is to say, people who were asked to look for a job 
immediately tended to get a job much sooner, although there is 
an argument about whether they got better jobs or not than 
people who received job training.
    I think partly that is because the job training programs 
weren't given a full opportunity to do what they needed to do. 
The last Congress reauthorized the Workforce Investment Act, 
now called Workforce Investment and Opportunity Act, and many 
people have a great deal of hope in that. There are also now 
very promising programs that try to direct unemployed or 
underemployed people into jobs that exist. The left and right 
seem to think that those kinds of programs hold great promise, 
and the answer is that if we took the job training and 
education more seriously in SNAP, we would see some progress.
    Mr. Greenstein. I think there are several aspects to this. 
First, when we talk about helping people work, we want to think 
not only about current adults who are unemployed, but what is 
the trajectory for poor children. Are they going to grow up as 
part of the workforce or not.
    Now, here there is growing evidence that in families that 
are very poor, children's brains are already behind by age 2, 
farther by age 5, before they start school, and that benefits 
such as SNAP help reduce that. So the evidence is pretty strong 
now that particularly for young children, having access to SNAP 
benefits increases the likelihood that they will have earnings 
in adulthood.
    In terms of the current adults, Doug mentioned that there 
isn't really a work requirement in SNAP. I would really have to 
disagree with that. As we noted, 3 months out of 3 years for 
single individuals. For families with kids, if they are 
sanctioned for not meeting a work requirement in TANF, the food 
stamp law, the 1996 Welfare Law, explicitly says that states 
can then cut their SNAP benefits as well, and most states do. 
The data show we have 70,000 to 100,000 households on the 
program, where one or more members of the household have had 
their benefits taken away for not meeting a work requirement in 
another program. And that doesn't count the additional tens of 
thousands of households who have been removed from SNAP 
altogether for not meeting a requirement in another program.
    But the real issue, as you have said, is what do we do to 
help these people work. As Doug indicated, old research 
suggested that for those people who were the most employable, 
pushing them to search for a job can help. The difficulty is 
that many people on SNAP aren't that employable right now. They 
lack even a high school diploma in some cases. Generally, they 
lack more than a high school education. And old-style job 
training programs often weren't as effective. What we are now 
learning is that if we can do more vocational training, more 
training that is really tied to what the employers in the local 
area really need, we can get some more success. A problem, and 
this is a recommendation I would like to make for this 
Committee, a problem is that up until now, our main job 
training system, the Workforce Investment Act System, didn't 
serve SNAP recipients much at all. It served people who already 
were more skilled. Then it could show higher rates of 
placement. And local workforce boards didn't like serving most 
SNAP participants because they had too few skills to begin 
with.
    On a bipartisan basis, Congress reauthorized the Workforce 
Investment Act last year, and said it should orient towards 
more disadvantaged workers with fewer skills, and it gave local 
boards the option to coordinate more with SNAP.
    So I would really urge this Committee to work with the 
Committee, I guess it is Education and the Workforce, and to 
really do oversight. We really need this to become a reality. 
We have some billions of dollars in the workforce training 
system, and it was largely bypassing SNAP recipients. We have 
an opportunity with these reforms to have it start serving SNAP 
recipients and give them more job training, but we really need 
to make sure that gets implemented that way on the ground.
    The Chairman. The gentleman's time has expired.
    Mr. Scott for 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    I would like to first of all paint a picture of SNAP so 
that we all are operating with a clear and jaundiced eye. First 
of all, these are the facts. Thirty-seven percent of all food 
stamp recipients are white people. Twenty-three percent are 
African-American. Ten percent are Hispanic. And this is 
according to the U.S. Department of Agriculture. The Census 
data indicate that 900,000 veterans receive food stamps each 
month, and this figure is understated because the Census data 
do not consider homeless veterans receiving SNAP benefits.
    I want to paint the picture as clearly as we can. Feed Our 
Vets, a nonprofit group that establishes food pantries for 
veterans, has estimated that nearly three million veterans and 
their families don't get enough food to eat each month. And 
finally, 45.3 percent of all of those who are on SNAP are 
children. That is 17 million children in the United States; one 
out of every five lived in households in this country that are 
food-insecure.
    And so I want to ask you all a simple question. First of 
all, in view of the realistic image of the food problem, in the 
wealthiest, most powerful country in the world, why is this? 
And as we talk about the problems, we need to put a direct line 
on how we get to some solutions to address the need, the need. 
So if each of you might just tell me what you feel is the 
number one abuse, because in a hearing, we have to get to that 
as well. I want your feelings on that. Where do you feel there 
is any abuse? Where would that be? What is the number one abuse 
to the food stamp program? Mr. Greenstein.
    Mr. Greenstein. I think you are suggesting I go first, 
which I am happy to do.
    Mr. Besharov. We are just taking turns.
    Mr. Greenstein. I would note, Mr. Scott, your figure of 
900,000 veterans getting assistance is the figure for any given 
month?
    Mr. David Scott of Georgia. Yes.
    Mr. Greenstein. And over the course of a year, 1.7 million 
veterans get SNAP assistance at some point over the course of 
the year.
    Mr. David Scott of Georgia. And that is understated because 
the Census data does not identify the homeless vets that are 
growing.
    Mr. Greenstein. Yes. Yes, the homeless are not fully picked 
up, you are absolutely right, in the Census data.
    In terms of abuse, this is not atypical of other programs. 
We have some people in great need who, due to various issues in 
the program, complexities, whatever, still don't get served. 
And on the other side, even though the error rate is very, very 
low, it could be brought lower. In section 4 of my testimony, I 
won't go into the technical issues here, we have some proposals 
for how the Federal Government could help states make greater 
use of wage matching as information technology advances. And 
this could have a double benefit. It could actually help both 
of the things I just mentioned. It could lower errors by 
enabling case workers in real time, as they are doing 
eligibility determination, to match into more income data and 
find if there is something questionable in what the recipient 
reported. By the same token, it would relieve recipients of 
having to go back and forth, and back and forth, and keep 
bringing more documents, and keep coming back to the office, 
sometimes taking time off from work where they lose wages to do 
it, because the greater wage matching would provide income 
information that they wouldn't need to ask people to bring the 
documents for. So it could help both ease a barrier to 
participation, particularly for some of the working poor, we 
still have a lot of eligible working poor families that don't 
get SNAP, and it could reduce the error rate at the same time.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbs for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Professor Besharov, I have been studying your Figure 1 
chart and looking at that, and you had made the point about 
SNAP has become an income support, and lack of coordination 
between different agencies. I see in the Senate Budget 
Committee they released a CRS memo that there are 80 welfare 
programs run by numerous different agencies. So I look at your 
Figure 1 chart, and you talk about cost shifting, obviously, 
there is probably a lack of coordination. I think you said 
that. And then I am also thinking, I see that UI and the 
unemployed persons dropped. TANF was dropped a little bit but 
it was kind of flat. And SNAP, in your chart, the numbers 
increased significantly.
    How much--because of low income jobs, people got work but 
this economy has a lot of hard-working people out there 
haven't, they have been forced to part-time jobs and have low 
income jobs, how much of that would be a factor do you think in 
this. And then my follow-up question on that, because I don't 
really know, when a person does get a job and they go off 
unemployment stuff, can food stamps be prorated then, do they 
get different amounts, how much of an adjustment would there 
be?
    Mr. Besharov. As Bob said, one of the problems about 
understanding the food stamp program is the rules get pretty 
complicated. One thing about when people have more income, what 
becomes implicated is the certification rule, which is when a 
person has to report an increase in earnings and so forth. And 
if we had more time, I would go into why I think it is a 
mistake to let people stay on without reporting increases in 
income. That is the rule. It was established to save state 
efforts and expenses, while the Feds paid for benefits. But to 
go right to your question, no one really knows what leads a 50 
year old person, male or female, not to go back to work, not to 
look for work. And people who try to parse that out and say, 
``Well, it is because there aren't enough jobs or maybe it is 
because he or she wants to take care of a relative.'' I don't 
know what the percentages are. To answer the question about 
what is the biggest abuse, and it is related to your question, 
it is we don't have a system in place for SNAP that takes into 
account the human vicissitudes of what happens when you give me 
money, and in return, all I have to do is tell you I am low 
income. That is a mistake. I think that is a mistake whether it 
is SNAP, TANF, disability or whatever.
    Mr. Gibbs. So you are saying the certification process is 
very flawed.
    Mr. Besharov. It is flawed because we saved state 
governments money by doing it less frequently. Part of Bob's 
presentation, the reason why I think the--and Bob may disagree, 
one reason why we have more accurate determinations is we have 
made compliance easier. We have lowered the bar. I think that 
is part of it.
    But I do think the largest problem here is engaging this 
program in the life course needs of the recipients, and not 
just treating it as a program that deals with hunger. That is 
important, but that is in the past.
    Mr. Greenstein. Well, excuse me. As Doug said, I do 
disagree with his last comment. So what happened around 2000? 
On a bipartisan basis, Congress and a number of analysts looked 
at the program and found that the share of eligible working 
poor families who were participating was very low. And when 
they looked further, what they found was that states were so 
concerned about being charged with an error, if somebody worked 
a couple of hours of overtime and they didn't have it 
immediately in the data, that states were requiring working 
poor families, not welfare families but working poor families, 
to come back into the office every 90 days to provide all of 
their documents. That usually took two visits, an average of 5 
hours. Most people in low wage jobs, your employer doesn't pay 
you while you take 5 hours off from work. There was really a 
sense that if we were serious about work, and if people get 
paid low wages that still leave them in poverty, then we need 
to have a system that enables them to use the program. And the 
solution, which was a bipartisan solution every bit of the way, 
was that we would require people, when their earnings went up 
and put them over the income limit, to immediately report, but 
that we wouldn't bring them back every 90 days to go through 
every day that was lost to sick leave, or every hour of 
overtime. And that was really the purpose of the change in the 
program, and it was a positive change.
    Mr. Gibbs. Okay. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Ms. Fudge for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank you 
both for your testimony today.
    Mr. Greenstein, one of the things that I must agree with 
you on is, I sit on the Education and the Workforce Committee, 
as well, and you are absolutely correct that the WIOA Bill was 
written to discourage boards from actually trying to place 
those who are hard to place, whether they are low skilled or 
low income, or live in high poverty areas or have limited 
education. That is the way the bill was written, because the 
way that the rating process goes, they rate them by how many 
people they place. So clearly, they try to place those people 
who are easy to place. So I just wanted to----
    Mr. Greenstein. Right.
    Ms. Fudge.--reaffirm that.
    My first question is, I hear a lot that, since the 
unemployment rate has gone down significantly, why has SNAP not 
gone down in a similar rate, and why is there a lag between 
those two things?
    Mr. Greenstein. So CBO has noted for a number of years that 
when you come out of a recession, there normally is a 
significant lag of several years between when unemployment 
comes down and when poverty comes down, and accordingly, when 
SNAP comes down. But in this recovery, this is particularly 
true for several reasons. The group of the unemployed who are 
most likely to be eligible and participate in SNAP are the 
long-term unemployed; people who have been out of work more 
than 6 months, still looking for a job, exhaust their assets.
    There are a couple of really stunning statistics here. In 
every recession from World War II through 2007, there never 
were more than 26 percent of the unemployed who were long-term 
unemployed. Today, 31 percent of the unemployed are long-term 
unemployed. They are more likely to be eligible. Here is an 
even more amazing statistic. You will think this can't be right 
when I first say it. The number of unemployed who are not 
receiving unemployment benefits is larger today than at the 
bottom of the recession when the unemployment rate was ten 
percent. At that point in time, we had about 14 million 
unemployed; nine million received unemployment benefits, five 
million didn't. Today we have about nine million unemployed, 
down from 14, but unemployment benefits have shrunk and we have 
6.9 million people, nearly two million more than at the bottom 
of the recession, not getting unemployment benefits. They have 
a higher rate of receipt.
    We also have the fact that wages have eroded, particularly 
for male workers in the bottom of the wage scale. And so a 
number of people who have left unemployment for low wage jobs, 
maybe lower than they had before the recession, they are no 
longer unemployed, but they are still eligible for SNAP because 
their wages are low. So all of these are factors, and it is 
part of the reason that Ben Bernanke has said that the 
unemployment rate right now is not a very good measure by 
itself of the economy. It makes it look like we have recovered 
more than we really have.
    Mr. Besharov. If I could just add 10 seconds to that. And 
that is----
    Ms. Fudge. All right, 10 seconds.
    Mr. Besharov. Yes. That is why this program is just like 
unemployment. We ought to treat it that way.
    Ms. Fudge. Thank you. Mr. Greenstein, another question. I 
think that people say they are discouraged from working because 
they receive SNAP. Can you tell us how much people get on SNAP? 
The amount is so small, it could not discourage anybody from 
wanting to work. What are those numbers?
    Mr. Greenstein. Well, the average benefit is $1.42 per 
person, per meal. An Institute of Medicine study has raised 
questions actually about whether it is adequate. Many people 
run out of food stamp benefits, SNAP benefits, before the end 
of the month. But I also want to note that there has been 
academic research on this question of whether SNAP discourages 
people from working. I had mentioned in my oral testimony that 
the leading academic research in the field finds there isn't a 
strong effect there. There also was testimony before the Senate 
Finance Committee a year or 2 ago--year or so ago from one of 
the nation's leading conservative economists, Robert Hall, who 
is at Stanford and at the Hoover Institution, and he said the 
data do not seem to support the view that the social safety net 
is discouraging labor force participation. Participation by 
those in low income families has generally risen, not fallen. 
The group for whom we have the biggest concern about the 
decline in labor force participation are low income, low 
skilled, single men, and they are the very people for whom we 
have the 3 month out of 3 rule--3 month out of 3 year rule in 
the SNAP program.
    Ms. Fudge. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back her time.
    Mr. Benishek for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    I have two different answers for the--and I am listening to 
these questions, and Mr. Besharov and Mr. Greenstein seem to 
contradict each other about the requirement to work. So could 
you explain to me, is there a wavier--I thought there was a 
waiver for the requirement to work in place now. Mr. Besharov, 
can you give me a short answer to that, and going back to Mr.--
--
    Mr. Besharov. I think it is 30 states that have a waiver 
for the work requirement, 3-0. Bob? And that is for ABAWDs, and 
the requirement or----
    Mr. Benishek. So those 30 states have no requirement to 
work?
    Mr. Besharov. That is correct.
    Mr. Benishek. So then, Mr. Greenstein, you are telling us 
that is not the case; that there is very strict requirements to 
work. That is what your testimony was, it seems to me.
    Mr. Greenstein. Let me explain. I think this is one of the 
most misunderstood parts of SNAP. In 1996, this requirement----
    Mr. Benishek. So what I want to know, is Mr. Besharov not 
telling me the truth? There is not a waiver in place, that 
states do not require the work benefit?
    Mr. Greenstein. Well, as I explained in my testimony, there 
are waivers that have resulted from the high unemployment, and 
they are gradually expiring.
    Mr. Benishek. But are there 30 states that require waivers 
then for the----
    Mr. Greenstein. I don't recall. It is about 30. It might 
be----
    Mr. Benishek. So then 30 states have no work requirement, 
is that accurate?
    Mr. Greenstein. Not--no, that is not correct.
    Mr. Benishek. Well, then how is it--what is it--tell me 
exactly what the waiver means then if it is not a work 
requirement.
    Mr. Greenstein. Well----
    Mr. Benishek. I am just trying to figure this out myself.
    Mr. Greenstein. First off, the key point is the waiver is 
only with relationship to these single adults----
    Mr. Benishek. Right.
    Mr. Greenstein.--not raising children. Number 2----
    Mr. Benishek. Right.
    Mr. Greenstein.--these are not permanent waivers. They are 
time-limited waivers and they are expiring. And by 2016, very 
few states, single digits, 1, 2, 3, will have any potential to 
have statewide waivers, let----
    Mr. Benishek. All right, I appreciate it.
    Mr. Greenstein. That is why one million people are going to 
be removed from the program as the waivers expire and the work 
requirement is----
    Mr. Benishek. Okay.
    Mr. Greenstein.--reinstated.
    Mr. Benishek. All right, thank you. I appreciate that 
clarification. You agree with that clarification, Mr. Besharov?
    Mr. Besharov. Yes, except I am not sure whether the waivers 
won't be extended under whatever conditions.
    Mr. Benishek. I see. Okay. Well, then I want to go on----
    Mr. Greenstein. They can't be----
    Mr. Benishek. I want to go on though to another question, 
and that was the duplication--and I am just trying to figure 
this out, 80 separate programs run by a dozen agencies, 
according to the CRS, from the Senate Budget Committee, how do 
we better coordinate the aid to people that need aid? Mr. 
Besharov, can you----
    Mr. Besharov. Well----
    Mr. Benishek.--give me more of your time?
    Mr. Besharov.--there--I am your guest here. Let me say that 
part of the problem is on this Hill.
    Mr. Benishek. Well, how do we do it?
    Mr. Besharov. Yes. There are a number of committees that 
jealously guard their jurisdiction. I sat in on a Housing 
hearing once where they wanted to increase the size of a Head 
Start Program, but instead of putting the money in the Head 
Start budget, they created a separate program under housing for 
Head Start.
    Part of this happens through the committee process. There 
have been attempts since Elliot Richardson was Secretary of 
HHS, to integrate these programs. Those on the left fear, based 
on experience, that if you combine them into a block grant that 
total spending will go down. Those on the right perhaps want 
the total spending to go down, but they argue that putting all 
that money in one program creates efficiencies that more than 
make up for whatever potential loss all those separate programs 
have. The fact is there is a tremendous amount of waste in 
these programs. They often work at counter purposes.
    Mr. Benishek. Mr. Greenstein, do you have any comment? How 
do we make it----
    Mr. Greenstein. Well----
    Mr. Benishek. How do we make it more efficient? How do we 
eliminate 80 different programs and try to achieve a better 
result?
    Mr. Greenstein. Well, a lot of the 80 programs are very 
small programs that only serve very, very small percentages of 
low income families. When you talk about----
    Mr. Benishek. Do you think we should eliminate those 
programs then?
    Mr. Greenstein. Well, they may be very important for 
certain very particular groups; children with certain kinds of 
very serious service problems that need a particular service. 
There are a much smaller number of large programs. I think 
states are making progress using information technology and 
coordinating them better, but we can do more than that. For 
example, in the field of Medicaid and so forth, HHS has set up 
this Federal data hub that bring together lots of databases for 
wage matching purposes to improve accuracy, but a lot of states 
don't have ready access to it for SNAP. They should. That was 
one of the recommendations in my testimony is to better 
integrate things like access to databases for----
    Mr. Benishek. All right.
    Mr. Greenstein.--wage matching of----
    Mr. Benishek. I am out of time, Mr. Greenstein. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Benishek. Thank you.
    The Chairman. Mr. McGovern, 5 minutes.
    Mr. McGovern. Thank you, Mr. Chairman. Thank you, Mr. 
Besharov and Mr. Greenstein, for testifying today.
    Today's hearing is described as the start of a top-to-
bottom review of SNAP, and I am certainly a proponent of 
rigorous oversight of all programs, but I have to say at the 
beginning, I find it a little bit curious that we seem to be 
singling out SNAP for review, especially at a time when the 
most recent CBO projections show that SNAP caseloads and 
spending is moving in a downward direction, and CBO also says 
that payments to farmers could be nearly $5 billion more than 
was originally expected in the farm bill. I don't know why we 
are not beginning with the top-to-bottom review of that. But, I 
appreciate you being here, and I hope, if we are going to do a 
top-to-bottom review, that we also at some point have a panel 
of beneficiaries, people who are on the program, who can 
testify firsthand what works and what doesn't work, and maybe 
we should also have someone from the FNS here as well because 
they administer the program. I hope that this is not going to 
be an exercise in another attack against poor people because I 
fear I have seen this movie before, and I didn't like it the 
first time.
    Mr. Besharov, in your written testimony, you spent a good 
deal of time questioning the idea whether food insecurity is a 
real problem in this country. Let me assure you it is. I have 
been to public schools in my district where kids fear snow days 
because they won't be fed if they go home. I have been to 
hospitals and talked to doctors who have treated senior 
citizens who don't have enough money for their prescriptions 
and their food, and take their prescriptions on an empty 
stomach and end up in the emergency room. I have been to 
hospitals when I have been told by doctors or pediatricians 
that kids end up being admitted for what we would call a common 
cold because their nutritional intake is so poor that their 
immune system is compromised. So I view this program as 
essential to making sure that people don't go hungry, and good 
nutrition is also essential for people to have a healthy life.
    Two-thirds of SNAP recipients are not expected to work. 
They are children, they are senior citizens, and they are the 
disabled. I don't know how tougher work requirements help them. 
That is the majority of people on the program.
    And I would like to ask you both about eligibility 
determinations. It is tough to qualify for this program. This 
is not a slam-dunk. If I want it, it is pretty tough. And the 
other issue is the fact--it was raised by Mr. Gibbs. The 
discussion really needs to be on this cliff that people hit 
when people go back into the workforce and all of a sudden they 
lose their daycare benefits, and their food stamp allocation 
gets reduced, and then they find themselves in the same 
predicament that they were before; empty shelves. And so, yes, 
the economy is improving, but we are leaving behind a lot of 
low and middle income workers.
    And let me just say this about the waivers: Republican 
governors as well as Democratic governors did that, and they 
did it not because they were trying to cheat the system, but 
they did it because they actually realize that without the 
waiver, that there would be many people who they represent who 
would be worse off, who would go hungry.
    And finally, Mr. Greenstein, you mentioned this in your 
testimony. We have had commissions in recent years, the Bowles-
Simpson Commission, it was a bipartisan commission, and then we 
had a Bipartisan Policy Center taskforce chaired by Pete 
Domenici and Alice Rivlin. When I think of Alan Simpson and 
Pete Domenici, I don't necessarily think of bleeding hearts, 
but in their recommendations they recommend we don't touch this 
program.
    So I have said a few things here, but I am happy to have 
your comment.
    Mr. Besharov. Well, let me just make it quick because I 
know Bob wants to answer about that.
    Mr. McGovern. All right.
    Mr. Besharov. If this is a feeding program, and if we are 
worried about food insecurity, instead of letting the 
eligibility and the income of the average recipient creep up, 
we would do something to reduce the upward creep and increase 
the benefits at the bottom. If it is $1.20 a meal, and that is 
not enough, there are two ways to fix that. One is raise the 
cost for everyone in the program. The second is----
    Mr. McGovern. I am happy to work with you to increase the 
benefit because it is inadequate.
    Mr. Besharov. I will see you any time you want.
    Mr. Greenstein. Something like only one percent of benefits 
go to households with gross incomes over about 130 percent of 
poverty.
    Mr. McGovern. Right.
    Mr. Greenstein. But I want to get back to the work 
requirement issue because there has been a lot of discussion of 
it. It should be understood that the 3 month provision we are 
all talking about as a work requirement really is not a work 
requirement. It is a time limit, 3 months out of 3 years.
    Mr. McGovern. Right.
    Mr. Greenstein. If it were a work requirement, we would say 
you have to search for a job. If you don't, you are out. Here 
is a workfare slot. If you don't take it, you are out.
    The Chairman. The gentleman's time has expired.
    Rodney Davis for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. And thank you to my 
colleagues for beginning to review and address this very 
important issue, and it is good to point out that 80 percent of 
the farm bill that we just reauthorized is the SNAP program. So 
I want to commend Chairman Conaway for starting with a review 
of programs in the farm bill that make up 80 percent of it. I 
think it is a great start, and I am glad this Committee is 
working in a bipartisan way to do this today.
    I know there has been a lot of discussion about the waiver 
process, and Mr. Benishek, my colleague from Michigan, 
clarified some of these issues, and I would like to actually 
begin by expanding on some of those questions.
    Mr. Greenstein, are all the waivers you are talking about, 
do they expire at the same time?
    Mr. Greenstein. No, but I think a lot of them--I think the 
lion's share of them, if I remember correctly, and if this is 
incorrect, I'll get back to your office with more information. 
I think the lion's share of them expire at the end of 2015. 
Some expire earlier. But I do want to be very clear that the 
waiver is a waiver of the 3 months and you are out rule. When 
the rule was established on the House floor in 1996, the author 
of it said here is what we are saying. If you can't find a job 
in 3 months, we give you a workfare slot, and if you take it 
your benefits continue. But 45 of the 50 states never created 
the workfare slot. So what it has turned into is if you can't 
find a job on your own in 3 months, you are out. I think that 
people should be offered a job slot. I think they should be 
allowed to search for a job, and if they show they have been 
diligently searching, they shouldn't be out after 3 months. So 
what some of the states with waivers have done is they have 
waived the 3 month limit, but they have required these people 
to search for jobs anyway.
    So if one is looking at this whole area, it may be worth 
looking at how the entire provision works, and I would 
recommend converting it from a time limit into a true work 
requirement.
    Mr. Davis. Okay, thank you very much.
    And, Mr. Besharov, Mr. Greenstein mentioned that he 
expected maybe three states to possibly still reapply, and you 
mentioned in your comments to Mr. Benishek that you would 
expect some of these states whose waivers may be expiring, at 
whatever time they may expire, may ask the Federal Government 
and the Administration once again to approve another waiver. 
What metrics need to be met for the Administration to actually 
approve these waivers?
    Mr. Besharov. That is trick question, sir.
    Mr. Davis. Well, thank you. I didn't know that.
    Mr. Besharov. Because many people think that the 
Administration doesn't need a metric to issue a waiver, so I 
don't think I want to go there. I just want to make one point 
in relation to this work requirement, and what happened in 
1996. The job slots would have been 50 percent state 
expenditure, right? The job slots would be--and it is an 
administrative cost. So the offer was: is after 3 months, if 
you put a SNAP recipient into a job, we will provide 50 percent 
of the cost, but if you leave that recipient either on SNAP or 
he or she goes off assistance entirely, it is not a cost to 
you. So to me, the issue here to implement this is not the 
details of these provisions, but to get the incentives for the 
states right. If we want the states to provide nutritional 
education, if we want them to provide job training, then the 
formula has to incentivize them to do that in a situation 
where, right now, 100 percent of program costs are not state 
costs, they are Federal costs, and that is a giant incentive to 
look for any reason to either keep people on SNAP, or get them 
off and provide no services to them.
    Mr. Greenstein. Let me clarify. There are very detailed 
Federal rules and metrics on what does and doesn't qualify for 
a waiver. They were not set by the Obama Administration, they 
have been the same rules that were in place under the George W. 
Bush Administration.
    Mr. Davis. So it wasn't a trick question.
    Mr. Greenstein. And I also want to clarify that when I said 
only maybe three states would meet them, that is on a statewide 
basis. There will continue to be individual areas, there could 
be Indian reservations or others where unemployment rates might 
still be 10 or 15 percent, isolated areas, even after the 
economy is better. So some individual localities, states could 
still get a waiver for, but in terms of the statewide waivers 
that they have had in recent years, except for few, if any, 
states, those will end.
    Mr. Davis. Well, I see that my time has expired, and my 
next question I am not going to be able to ask until the next 
round----
    The Chairman. The gentleman's----
    Mr. Davis.--so thank you.
    The Chairman.--time has expired.
    Ms. DelBene for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman. And thanks to both of 
our witnesses for being with us today so we can talk about this 
very, very important issue and program.
    Mr. Greenstein, you mentioned in your testimony that we had 
in the farm bill an employment and training pilot program 
combined with our Supplemental Nutrition Assistance Program, 
that we call SNAP Employment and Training. This is a pilot that 
I introduced based on some work that we have done in Washington 
State on basic food employment and training that has been a 
very successful program in our state. In one study, less than 
\1/2\ of the participants remained on government assistance 2 
years after starting the program. We have 60 percent of those 
enrolled in the program were able to find employment 
afterwards, and if we are talking about helping people get back 
on their feet, this is a key goal.
    I wondered if you can talk a little bit more about how 
programs like this might be able to help save money in the long 
run by helping people get back to self-sufficiency, and also 
make sure that those enrolled in nutrition programs are given 
opportunities as well to get back into the workforce, or to 
seek other job opportunities that help them to take care of 
themselves and their families.
    Mr. Greenstein. Yes, I think these demonstration projects 
are quite important. We have had mixed records over the years 
in terms of other kinds of employment-related programs. I think 
as one of your colleagues noted, I think Congresswoman Fudge, 
that too often training programs out across the country, not 
SNAP ones but others, have focused on the people who already 
had the most job experience and the most skills, and were the 
easiest to place. Often they were people who would have found 
jobs on their own anyway, even without a training program, but 
the training program then got to check the box that someone 
went through their program and got into a slot. And what we 
really need to do better about is providing the skills for the 
people who have the least skills and the least education to 
enable them to get in and stay in the labor market, and a lot 
of the people who are on SNAP who are unemployed fall into that 
category.
    It is not as though we know here are the two or three 
cookie cutter things to do. So the purpose of these 
demonstration projects is to test a wide variety of proposals, 
and my understanding is states have submitted----
    Ms. DelBene. Yes, in fact, we had the Secretary of 
Agriculture here and he said that the beginning of March, we 
would be hearing on some of the--on what their decision was----
    Mr. Greenstein.--a wide variety of proposals.
    Ms. DelBene.--on the proposal.
    Mr. Greenstein. Yes. My understanding is they are about to 
announce very shortly the pilots, and I had one conversation 
with Secretary Vilsack a month or 2 ago in which I said that my 
recommendation was pick an array of projects.
    Ms. DelBene. Yes.
    Mr. Greenstein. Pick some from very conservative states, 
not as conservative, do a range so we can learn, test a variety 
of things, and he said back to me that that was exactly what he 
planned to do.
    Ms. DelBene. That is great. I want to get back to an issue 
we have been talking about, a few folks have brought up, and I 
know that you wrote a recent paper highlighting that one 
million people will be coming off of SNAP by the end of 2016 
due to fewer states being eligible for waivers, and more 
individuals being subject to the time limit. As you know, 
Congress passed a provision that requires those who can work to 
find a job, or enroll in a state training program or workforce 
program, in order to receive more than 3 months of SNAP 
benefits. Unfortunately, Congress didn't require the states to 
offer an opportunity, as we have talked about, to participate 
in a job training or workfare or workfare program. Washington 
State is eligible for, and is currently using, the statewide 
waiver for Fiscal Year 2015. I am an original cosponsor of a 
piece of legislation called the SNAP Work Opportunity Act, and 
it was introduced this week. This bill would help prevent those 
one million Americans from losing eligibility by only letting 
the work requirement apply to those actually offered a job 
training or workfare opportunity. And I wanted to know what you 
think of a piece of legislation like that in terms of helping 
us address this issue, and making sure that we really focus on 
our goal, which is helping people get back in the workforce.
    Mr. Besharov. I think legislation like that or of its ilk 
is extremely important because it does reflect the nature of 
the caseload now, but I want to emphasize what I said before 
because the states were ready before the SNAP pilots. They were 
ready to accept the requirement to do things if they got 
financial benefit.
    Ms. DelBene. Yes, I want to let Mr. Greenstein also 
respond.
    The Chairman. Well, the gentlelady's time has expired, and 
to be respectful for the other Members, there will be a second 
round if you want to----
    Ms. DelBene. Thank you.
    The Chairman.--do that. Mr. Crawford for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Gentlemen, I 
appreciate you being here this morning.
    And, Mr. Besharov, if you would, I want to talk about what 
success looks like. What does it mean for a program to work? 
Are we talking about what is the proper definition of a program 
working? Are we talking about short run financial improvement 
of a situation for a recipient, or are we taking a longer view, 
are we looking at the ability of an individual to help 
themselves over the long-term, or is it something else?
    Mr. Besharov. I think mostly the latter. My answer would be 
as follows, and I want to try to be brief so that Bob can say 
something as well if he wants. My answer would have been 
different 10 years ago than it is today. Ten years ago, the 
American economy was a situation in which unemployment spells 
tended to be short, people tended to, if they lost their job, 
go out and find a job. As Bob mentioned, as my testimony 
mentions, we have something like 30 percent of the unemployed 
now have been unemployed for more than 6 months. We are facing 
international competition where our low skilled workers, except 
for the ones in jobs that can't be moved abroad, are losing 
income. So suddenly, our safety net programs are being asked to 
do much more than they used to do.
    So I would say that a successful safety net program, or a 
successful SNAP program balances the need to provide long-term 
support for those who are going to be left behind, with a 
friendly, helpful, tougher nudge into the labor force. So the 
two have to go together. Please don't hear me saying benefits 
should stop, that nothing should happen. But the other side of 
that is, as benefits continue, we have to nudge people, we have 
to prepare them for the labor force.
    A successful program, to me, does both of those things.
    Mr. Greenstein. If I could add, as my testimony indicated, 
SNAP has become much, much, much less than it was, say, 20 
years ago of a wealth supplement program. Doesn't really do 
much of that anymore. And much more of a work and wage 
supplement program. As Doug just mentioned, international 
competition, other factors, wages have eroded for low skill 
jobs. If you look at the data, something like 17 percent of 
male workers 20 years ago or so received an hourly wage that, 
if you worked full-time year-round, would not be enough to lift 
a family of four to the poverty line. Today, 24 percent of male 
workers get a wage that low. The minimum wage is much lower in 
purchasing power than it used to be. All of these things make 
SNAP more important for working poor families, for people 
working for low wages. It also means it used to be that if you 
left unemployment and you got a job, you wouldn't be on SNAP, 
but with lower wages, a number of people get a job and they 
still don't earn enough to make ends meet, and they qualify for 
SNAP.
    I think we also have to think about the program in the 
context of an economy that has changed due to international 
competition, all kinds of factors, globalization, whatever. We 
have a significantly larger share of people making lower wages, 
and needing SNAP to help with their wages, be able to feed 
their family and still pay the rent and so forth.
    Mr. Crawford. In general, would you think, Mr. Besharov, as 
a professor of public policy, that policymakers tend to be 
reactive versus proactive, and if you agree with that 
statement, what would you advise to take a more proactive 
posture, and bring that into the context of SNAP?
    Mr. Besharov. Well, this hearing is a good example of a 
proactive step. As a number of people have mentioned, 
reauthorization is far away, and thinking about this problem, 
this program now is very important in my opinion. It is 
important both because of its current situation. I am not sure 
I buy the CBO estimates. What I am very worried about is the 
future bumps in our economy. When you look at what is keeping 
us afloat, it is the Fed and cheap money from abroad. It is not 
as if we are out of these woods at all. So proactive is being 
ready for the next bump. And getting this program ready for the 
next bump in the economy, it seems to me, is extremely 
important. And that is not being reactive, it is being ready 
for the next tragedy that hits us.
    Mr. Crawford. Thank you. I yield back.
    The Chairman. The gentleman's time has--yields back.
    Ms. Plaskett for 5 minutes.
    Ms. Plaskett. Yes, thank you, Mr. Chairman, Mr. Ranking 
Member.
    I first wanted to take a moment to talk about how important 
SNAP is, and other services in the food and social services 
safety net for the people where I live in the Virgin Islands. 
We all know that poverty in the twenty-first century is a 
shameful reality for our nation, and in the Virgin Islands, 
child poverty is heartbreaking. According to a report from 
Community Foundation of the Virgin Islands and Kids Count, 31 
percent of children in the Virgin Islands live in poverty. And 
to further underscore this troubling statistic, Virgin Islands 
families are struggling with the very high cost of living 
driven by many factors, including that much of our food is 
imported, and we have the highest price for electricity in the 
nation. And while, thankfully, the American economy is on the 
rebound, and reports of job growth in this country are very 
good news, unemployment in the territories is over 13 percent.
    Mr. Chairman, Virgin Islanders are proud people, and for 
them, they are willing and able and very much want to work, but 
good-paying jobs, or any jobs, in that territory are scarce. So 
for many Virgin Islanders, SNAP is the lifeline that helps them 
put food on the table and ensures their children, as has been 
underscored here, who are the main recipients, children in 
school are not hungry and ready to learn. For too many of those 
children, that school meal is their only hope. My constituents 
and, indeed, friends and family that insist that their children 
go to school to eat that meal, and the mothers and fathers who 
have jobs but are such low-paying jobs, go to homeless shelters 
for their lunch because when those families come home, they are 
going to have a cup of tea and a piece of bread for dinner 
before they get back to school.
    So one of the things that I am concerned about is we talk 
in this Committee about the waivers, and it appears that people 
are hopeful that the waivers are ending, but my question is 
what happens to those communities and those areas should the 
ending of that waiver occur, where there is persistent poverty 
and unemployment that is very high? If you would both answer 
that question please.
    Mr. Greenstein. Well, this connects to Congresswoman 
DelBene's question, and is one of the reasons I would very much 
support the proposal that she mentioned. Under that proposal, 
people hitting that 3 month limit would be offered a work slot.
    Ms. Plaskett. Yes.
    Mr. Greenstein. Now, if they took it, the benefits would 
continue, but in the absence of that, we will have people 
hitting the 3 month work slot who are searching for work, they 
are looking but they can't find a slot, particularly if they 
are--don't have good work skills or they are in an area where 
the economy is weak, and they could then end up with no 
assistance at all.
    I should have mentioned this earlier. If you look at the 
population that is subject to the 3 month limit, their average 
income is 19 percent of the poverty line, $2,200 a year. These 
are some of the poorest people in the country. Many of them 
have problems. A number of them are on the verge of 
homelessness. They are not exactly the best organized, most 
skilled, most abled group. So I really do think we ought to be 
allowing them to search diligently for a job. In most other 
areas that is part of a work requirement. And if they can't 
find a job, we ought to be offering them a work slot. I do 
worry about the hardship that will entail for people who are 
willing to work, and are willing to look, but who can't find 
the job and are not offered a work slot, and then have their 
food assistance cut off. And some share of the million people 
who will be cut off will be in that condition.
    Ms. Plaskett. Thank you. Mr. Besharov, I know you mentioned 
that we are no longer in the poverty of Mississippi. The great 
State of Mississippi has a much lower poverty rate than the 
Virgin Islands. Could you speak to the waiver being removed and 
what happens to these families?
    Mr. Besharov. Well, the problem goes deeper than the 
waiver. About 5 years ago, I wrote a book about WIC, and I said 
we live in a world in which, at the time, if I remember 
correctly, 55 percent of all newborns received WIC benefits. 
And I went through an argument that that was too high. We can 
quibble about what the number should be. But we said don't just 
reduce the eligibility rules so that fewer children receive WIC 
benefits; don't cut the program, but use that money to bolster 
the spending at the bottom. Who you described are the people at 
the bottom who need extra help, and my view is that too many 
people at higher incomes are getting benefits. We need to look 
at that issue and have a political argument. One side will win 
and one side will lose, but it is something we ought to do. 
Keep in mind that at the bottom, people may need higher 
benefits.
    Ms. Plaskett. Thank you.
    The Chairman. The gentlelady's----
    Ms. Plaskett. Thank you.
    The Chairman.--time has expired. I would like for the 
record to reflect that the waiver relates to able-bodied adults 
with no dependents under 50. So families aren't caught up in 
the waiver issue, and just to clarify that.
    Five minutes to Jackie Walorski, the Subcommittee 
Chairwoman for Nutrition. Jackie.
    Mrs. Walorski. Thank you, Mr. Chairman. And, gentlemen, I 
appreciate you both being here, and I appreciate your expertise 
and your lifelong endeavor to figure this program out, and how 
to take care of our--it is on. The microphone is on. I 
appreciate your expertise in looking at this process.
    I think the validity of this conversation has already 
actually happened today because of the fact that we are hearing 
issues that are real and things that have to be looked at, and 
I appreciate the opportunity to look at this over the next 
couple of years as this Congress continues to roll out on how 
do we make sure that we don't have hungry--our fellow Americans 
are not hungry.
    How do we ensure that, and what does this program do? I 
have been involved in international feeding programs. My 
husband and I lived in eastern Europe for 4 years, and we 
worked in the sewers with kids belowground that were trying--
escaped from dictators and communism. And we found hunger 
there, so I actively did something about it. Found hunger in my 
district, in the second district of Indiana, devastating 
populations of people that are trying to make this work. And I 
guess as we have talked about today, we have talked about the 
issue of how do families, how do single moms, and how do 
underemployed families pay for food and healthcare and lodging 
and daycare, how does all this happen?
    And my question is, when they finally get to a point where 
they have figured all this out, what then does the government 
do to really help these families? Has the SNAP program 
historically been just a band-aid to pass them on to the next--
somebody else to deal with them, or is there a sense that there 
is an opportunity to actually look at what this government can 
do, should do, in actually getting real help to the financial 
challenges and how this happened to begin with. So I guess just 
historically, where do you see this? Has this always been a 
band-aid to try to get people along, or is there a long-term 
solution that has been talked about?
    Mr. Besharov. Well, the world has changed. Before 1996, we 
would have had this conversation about TANF. And what happened 
was, when the Congress reformed TANF and the caseloads went way 
down, the SNAP caseloads, over time, over a 20 year period, 
went up. And as I said in my testimony, some people, on the 
right especially, call SNAP Welfare 2.0, the new version of 
welfare. The difference is that within the SNAP program, the 
states don't have an incentive to really reform, to provide 
those kinds of uplifting services because of the formula. The 
formula is, if a state wants to provide services to people in 
your district in Indiana, it has to pay 50 percent of the 
costs, but if it wants to just give out SNAP benefits, it only 
pays the administrative costs, and those are very low.
    So my recommendation is that whatever the incentive is, 
whether it is giving the states a bounty every time they get 
somebody from SNAP a good job, or an advanced degree or 
whatever, give them a financial incentive to help the people on 
SNAP. It is not there now.
    Mrs. Walorski. Is there any sense of stewardship on the 
government's--from the government's perspective once somebody 
is on SNAP, this issue of trying to figure out what keeps them 
from recurring, what keeps them from getting back on, in the 
government sense, is there anything that actually looks to ever 
really help these families stay out of--do states check on 
them, do social workers check on these people, is there a 
validity that somebody really cares about what happens to these 
people, or is this just simply we have declared the program 
worked if they just are no longer a beneficiary?
    Mr. Besharov. That is a tough question to answer. I think 
it depends on the state, it depends on the governor, and it 
depends on the timing. Many governors, Republicans and 
Democrats, want to address these long-term problems----
    Mrs. Walorski. Do we mandate----
    Mr. Besharov.--and----
    Mrs. Walorski. Does the Federal Government mandate--have we 
ever mandated that somebody seriously track these families and 
see what is working, what is not working?
    Mr. Besharov. In myriad ways. The problem, when we as a 
collective impose those rules on the states, suddenly all we 
have done to the governor and the secretary of health or 
whatever, or of food stamps or welfare, is his or her job then 
to ask, ``Have I met the Federal mandates, have I met the 
Federal mandates?''
    Mrs. Walorski. I want to go quick to Mr. Greenstein.
    Mr. Besharov. Go ahead.
    Mr. Greenstein. Could I quickly note----
    Mrs. Walorski. Yes.
    Mr. Greenstein.--there are very different kinds of people 
on SNAP. If you look at the people who got on between 2008 and 
2012, \1/4\ were off within 4 months; 52 percent off within a 
year; 67 percent off within 24 months. A lot of people don't 
need other help. They are on for a temporary period.
    Other people are--their problem is just their wages are low 
and they need a supplement.
    Mrs. Walorski. I----
    Mr. Greenstein. So there is a----
    Mrs. Walorski. I appreciate it.
    Mr. Greenstein. There is a smaller group that needs more 
substantial help.
    Mrs. Walorski. Right. I hear you. I appreciate it. I look 
forward to the continued dialogue.
    Mr. Greenstein. Right.
    Mrs. Walorski. I think it is very, very good to have that 
conversation.
    Thank you, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    Mr. Aguilar, from California, 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Mr. Greenstein, expanding the discussion to food 
insecurity, which is related to this topic: I was interested to 
note that University of Minnesota School of Public Health had a 
study last year that said 27 percent of veterans who came back 
from Iran and Afghanistan were subject to food insecurity. How 
will possible cuts in benefits affect these men and women who 
have already helped out this country tremendously?
    Mr. Greenstein. Well, in general, cutting benefits would 
tend to increase food insecurity, not on a one-to-one basis, 
but in general.
    Our situation, both Doug and I alluded to this in our 
testimony, you compare where we are today in terms of hunger, 
serious hunger, serious malnutrition, the most serious aspects 
of food insecurity, to where we were in the late 1960's before 
we had a nationwide SNAP program, and it is really like night 
and day. We still have significant food insecurity, not of the 
most severe kind we used to have, but still of some concern, 
and if we reduce benefits, we will go backwards in that regard, 
in my assessment.
    Mr. Aguilar. Thank you, sir.
    Mr. Besharov, Mr. Greenstein's testimony pointed out 
something to me, and it reminded me that three bipartisan 
groups; Simpson-Bowles, the Bipartisan Policy Council, and the 
more informal Senate Gang of Six, they all shielded SNAP from 
reductions. If there are additional savings to be achieved 
within tightening work requirements and or changing 
eligibility, why didn't these groups make a point to highlight 
that by their proposals?
    Mr. Besharov. Well, I can't speak for the groups. I can 
tell you that there is something quite insidious about the CBO 
scoring rules that affect some of this. Many analysts, not all, 
but many analysts believe that work requirements, job search 
and so forth, will reduce the roles. CBO scores them as a net 
cost, which is to say, there was a bill proposed by some 
Republicans 2 years ago and the result was CBO said this is 
going to cost money, not less. Now, I don't know about what the 
commissions did. They were taking on so many big ticket items. 
They may have decided this one shouldn't be taken on. They may 
have decided that this program did so many good things that it 
shouldn't be touched at all.
    My view is that SNAP has grown tremendously in the last few 
years, and now it should be treated as an income support 
program, and all the issues that we have seen should be applied 
because we would find that many of the changes would benefit 
recipients. Not all, but many would benefit recipients.
    Mr. Aguilar. Mr. Greenstein, would you care to comment?
    Mr. Greenstein. Well, I was able to talk to a number of 
people involved----
    Voice. Microphone.
    Mr. Greenstein.--including--I am sorry. I talked on a 
number of occasions to Erskine Bowles, to Alan Simpson, to 
people involved in Domenici-Rivlin, and to the Senators of both 
parties of the Gang of Six, and they made a specific 
determination that deficit reduction should not increase 
poverty or hardship. And they weren't saying that there were no 
improvements that could be made in these programs, but they 
were saying that they did not think reducing benefits in these 
programs was an appropriate source of deficit reduction.
    Mr. Aguilar. Thank you, sir.
    I will yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Allen for 5 minutes--I am sorry--yes, Rick Allen, 5 
minutes.
    Mr. Allen. Thank you, Mr. Chairman. Thank you both for 
being here today.
    And I have been in Congress now for--this is my seventh 
week, and I ran on the basis that Washington was too big and it 
really did too much, and it really impeded the private sector 
from growing, which creates jobs and makes folks independent. I 
do think the SNAP program is essential to feed families, but I 
also know that, somehow, it needs to prime the pump and not be 
the pump. And so I was interested in some of the comments about 
families moving in and out of this program.
    Mr. Besharov, as far as the states are concerned, do states 
fund what works, and what have the states been doing to focus 
programs and spending on what works?
    Mr. Besharov. Well, the Obama Administration has led an 
effort to talk about what works and evidence-based programs. 
Many states have made a commitment to try to implement and fund 
programs that have shown some sign of success. In this program, 
they have been somewhat stymied, as I have mentioned, because 
of the funding rules, but I was quite impressed, when I did 
meet with these 20 state commissioners, outside of the SNAP 
process, using the WIOA authorities that they did have, using 
other programmatic authorities, there is a great deal of 
experimentation already in terms of job training for SNAP 
participants and so forth. The problem is these are all small 
demonstration programs. Not one of them is statewide, not one 
of them is funded at the level that the state officials might 
like to see. And that is because, as you point out, they are 
constrained by the Federal rules. Their first priority is to 
fulfill the Federal requirements.
    Mr. Allen. Okay. So what you are saying here is that, for 
the programs to be properly evaluated, to see what works, the 
states are restricted actually by the Federal Government to 
make sure that happens?
    Mr. Besharov. Well, they are partly restricted, but it is 
much more a fact that the incentive structure just doesn't 
encourage them. You go to the governor and you say, ``Look, I 
have this terrific program, I think it might work, but it is 
going to cost us $5 million.''
    Mr. Allen. I see.
    Mr. Besharov. And then the governor asks what happens if it 
works? Do we gain? Do we gain because SNAP caseloads go down? 
No, sir. And we have to incentivize the states in a responsible 
way to benefit when they provide services to SNAP recipients.
    Mr. Allen. As far as the evaluation process goes, why 
aren't all programs in SNAP vigorously evaluated? I mean folks 
that move in and out of the process, how do they get off of 
SNAP, what works, what doesn't work, and--because, right now, I 
mean we are at an all-time high as far as folks receiving SNAP 
benefits, and the objective is to get these folks good jobs 
where they are not using this, and can actually fund their own 
nutrition. But how do we vigorously come up with something that 
will work to get folks off the program?
    Mr. Greenstein. Can I----
    Mr. Allen. Sure.
    Mr. Greenstein.--real quick----
    Mr. Allen. Sure.
    Mr. Greenstein. At the present time, we actually don't have 
good information, good data, good evaluation on here are a 
series of employment-related programs that work for SNAP 
participants. That is the purpose of the $200 million, I think 
it is, that has been provided in the 2014 Farm Bill for 
demonstration projects in up to ten states with rigorous 
evaluation. And if, as a result of that, we really learn some 
things that really work, then we ought to think about how we 
fund them. We may want to look at some of the incentive issues, 
as Doug has referred to. It is not as though we know right now 
here are the five things to do, just do them, but that is the 
purpose of that demo, and that demonstration project could 
prove important.
    Mr. Allen. Are we spending that money to get to the source 
of the problem though? In other words, we are spending a lot of 
money, as you said, some money has been appropriated to 
evaluate the programs. Are we getting out--I mean are we 
getting a bang for our buck out of that evaluation process, or 
is it----
    Mr. Greenstein. Well, it hasn't----
    Mr. Allen.--just----
    Mr. Greenstein. It hasn't started yet. It is just about to 
start.
    Mr. Allen. Okay, all right. Well, I am--I apologize for 
that.
    Mr. Besharov. Well, I would also add that recordkeeping, 
data systems, whether it is the Department of Agriculture, HHS, 
are very weak, and those of us who know about them worry about 
the quality of the data.
    The Chairman. Yes. The gentleman's time has expired.
    Mrs. Kirkpatrick for 5 minutes.
    Mrs. Kirkpatrick. Gentlemen, thank you so much for being 
here, and the problems you describe are descriptive of many 
people in my large, sprawling, rural Arizona district. And I 
want to point out, for example, a recent study from Johns 
Hopkins regarding food insecurity on the Navajo Nation, and 
some of the statistics are just staggering. For instance, 
unemployment is over 50 percent, 76.7 percent of the households 
suffer food insecurity, and 82 percent of the population is 
overweight or obese. So SNAP is essential to these folks.
    And my question really is twofold, and I would like both of 
you to address it. The first is, how does the fact that one 
million people are going to be leaving SNAP affect tribal and 
rural communities? And it is interesting that the USDA does not 
release numbers on hunger among American Indians. My first 
question is how is that fact of one million people leaving 
going to affect tribal communities? And second, this is a 
difficult problem, we have been dealing with it for years, so I 
like to look to innovation as a possible way to move this so 
that it will be more effective and more efficient. And I would 
like to know your top three innovative ideas if you were going 
to make the SNAP program more effective and more efficient.
    Mr. Besharov. I worked for the New York State Legislature, 
and the Speaker got this briefing about how we should run the 
State Assembly, and all the steps in the legislative process. 
And the first step was this light bulb that lit up; the idea 
was that someone needed to have had a bright idea. I would take 
the view that there are loads of bright ideas, a couple of them 
are in this town, but most of them are out there, not in 
Washington; people trying to deal with the problems. And 
probably, I don't want to go too far, the problems in the 
Virgin Islands are a little different from the problems on a 
Navajo reservation. There are some similarities, some not.
    When we constrain decision-making as much as we do, we 
remove the ability of local people to come up with bright 
ideas. At the other end of this, when we give too much 
discretion, they go running in whatever way they go. So I don't 
want to leave it as the answer is give everybody a free rein 
here, but the more we constrain in Washington, the less ability 
there is on an Indian reservation. And I don't know why USDA 
does or doesn't count whatever it does, but ask me if I am 
surprised and the answer is, of course, no. So my bright idea 
is let a lot of people have bright ideas, give them the 
wherewithal to persuade local communities, and then provide the 
sort of supervision that we really didn't provide in TANF to 
make sure that it is done responsibly.
    Mr. Greenstein. I would have a couple of thoughts with 
regard to the first part of your question about people coming 
off the program. To me, the reservation you cited is an example 
of why the right policy should be to have a work program slot 
or a job training slot for these people. If we don't, because 
whether it is the reservation, the Federal Government, the 
resources are not provided for that, then in an area as 
overwhelmingly poor as you have described, that is the kind of 
place that ought to be allowed to continue to have a waiver, 
otherwise ending the waiver isn't going to give people a job, 
it is going to create a lot of hardship.
    Having said that, we ought to be doing better on the job 
training front. We ought to look at how, with the Workforce 
Investment Act improvements, can that lead to better service in 
a reservation. The job training demos could be important there 
as well.
    I would also note that we are making some progress in 
improving coordination across programs using, for example, SNAP 
data to make sure that poor children don't fall through the 
cracks in terms of school lunches and breakfasts. I think there 
is a potential for further progress there.
    And finally, this area is the kind of place I worry about 
when--we asked the question coming off of the recent--maybe a 
year or 2 ago, Institute of Medicine study, there is a question 
as to whether the underlying level of SNAP benefits is adequate 
for people at the very bottom.
    Mrs. Kirkpatrick. Yes.
    Mr. Greenstein. We do have evidence that about 80 percent 
of the benefits are used in the first \1/2\ of the month. A lot 
of reports of people running out before the end of the month. 
In an area where there are no other jobs and no other income, 
that is a concern.
    Mrs. Kirkpatrick. Gentlemen, thank you so much.
    I yield back.
    The Chairman. The gentlelady's time has expired.
    Mr. Rouzer, 5 minutes.
    Mr. Rouzer. Thank you, Mr. Chairman. Thank you, gentlemen, 
for coming before the Committee today.
    I am going to ask you a question that, if I have gotten it 
once, I have gotten it a million times back home. I represent 
southeastern North Carolina. I have a lot of families that work 
two and three jobs to make ends meet. During the course of the 
Great Recession, a number of them lost a couple of those jobs, 
were working one, doing whatever they could. And so they go to 
try to get help and they can't get any. And then they get in 
the grocery store line and they see other folks who have food 
stamp benefits and everything else, and they know for a fact 
that they have not paid near the amount of taxes or anything 
that these gentlemen, these families have over a long period of 
time. And so the question is: how do we get our incentives 
right, how do we--and I go back to this basic principle. You 
get more of what you subsidize and less of what you tax. In 
fact, on the tax side of things, that principle is riddled all 
throughout the Tax Code. You have tax credits for this and 
that, and deductions, et cetera, for all those things that 
Congress wants to encourage people to do. While on this side, 
on the benefits side of things, it just strikes me that 
perhaps--and this is the difficulty I recognize, and we all 
want to take care of those who need the help, but when I have 
folks back home who are telling me they are in dire straits, 
they paid their taxes, done everything right all these years, 
and they are not eligible for anything, and then they contrast 
that with those who have not contributed quite as much to 
society, let us say, and they are getting everything, that is a 
real problem. That issue surfaces all the time, particularly in 
the past, 4 to 5 years in particular.
    So how do we get out incentives right? We have been kind of 
all around this, and I am asking more of a broader question, 
perhaps maybe a little bit more of a philosophical question, 
but we have to start thinking about this from a different 
angle. Do we need to have a program, in essence, where we come 
in and say, all right, if you have a job, here is a payment 
because you are doing the right thing? I just throw that out as 
an idea. You know, there are abuses with everything that you 
propose, obviously, but I am just curious, how can we think 
about this from a very different angle because, clearly, what 
we have in place, at least from my constituents' standpoint, is 
not working?
    Mr. Besharov. You ask a greatly important question, and I 
am trying to punt. The first way is that we recognize that 
these incentives exist; that they are real. The year after I 
was in Mississippi, I was a trial lawyer, and we were in court 
and taking a child away from a mother because she had been 
abusive, and giving the child to the grandmother. The 
grandmother sat there on the witness stand, and I watched her 
recalculate her AFDC benefit in her head. So these benefit 
structures, they may be difficult for us to understand, but for 
a lot of the people, they are their livelihood; they 
understand.
    So the first step is to understand that these incentives 
exist. Second, some of these incentives are embedded in the way 
we live. I mentioned briefly about cohabiting couples. This is 
a giant problem. At UMD, we have a research program on this. It 
is wonderful for a professor because there is no good answer. 
If you say that people who cohabit should be treated as an 
economic unit, and that is the formal law--but I don't think 
that the data suggests that is not how it works because they 
have to technically share--but if you say that they have to 
share, they are going to lie to us. And to enforce it, we are 
going to have to return to the old man-in-the-house rule; we 
are going to have to go to the house and see who is living 
there. If we say, ``Well, until you marry, it doesn't count,'' 
which is the informal rule now, then we have really created a 
big disincentive to marry.
    Without knowing a great deal about the situations you 
describe, I am willing to bet that one of the reasons for what 
they are seeing there is family structure, which is to say: if 
there are two parents in the house and one of them is working, 
depending on the situation, they are unlikely to be eligible 
for food stamps. So maybe your advice is tell him he should 
leave the house, pick up the food stamps, and then ask him to 
come back. There are no easy answers, but unless we look to see 
how to handle these questions, we will never find answers. And 
I think that is important. I think it is greatly important 
because we want to protect the people at the bottom, but as 
this program has reached more and more people with somewhat 
higher earnings, we have to fix these incentives and pronto.
    The Chairman. The gentleman's time has expired.
    Ms. Adams for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And thank you, 
gentlemen.
    My district in North Carolina includes both Charlotte and 
Greensboro, two of the larger cities, and so my being on this 
Committee, I want to make sure both the adults and children in 
my district will continue to have access to SNAP if they need 
it, because both Mecklenburg County and Guilford County, are 
two of the top counties for SNAP recipients in North Carolina. 
No studies have shown a causal link between SNAP benefits and 
obesity. Any oversight of SNAP must recognize, I believe that 
it is already helping families eat more healthy foods.
    So my question, Mr. Greenstein, one of your organization's 
publications is a report on trends on SNAP participation rates. 
It is estimated that 1.4 million eligible children were missing 
out on benefits. So as we implement this 2014 Farm Bill, what 
are the largest barriers to ensuring that children eligible for 
SNAP are actually receiving the benefits? Mr. Greenstein.
    Mr. Greenstein. Well, we have some issues, particularly in 
families that are disconnected in various ways. The parents may 
have health issues, mental health issues, other issues, and the 
family may be eligible but doesn't get signed up. I think there 
are a few issues here; one is the bulk of eligible children who 
aren't enrolled are actually children in working poor families. 
That is still where the largest share of eligible poor families 
with children who aren't enrolled fall. Information can help. I 
also think this is an area where we can both improve 
participation and reduce administrative costs by better 
coordinating the eligibility and intake and verification 
systems across different programs. We have made progress, but 
we still have situations where families go to one office and 
apply for SNAP, a month or 2 later they go to another office to 
apply for Medicaid. They are asked for the same information, 
and to the degree that we can use information technology to 
coordinate this, we will get more accuracy and fewer errors. We 
will reduce barriers to participation. Working families will 
have to spend less time off of work, and more will be 
participating, and we will have more accuracy and lower 
administrative costs at the same time. I think that is an 
important area to try to do more of.
    Last point is, some of these situations, this is very 
common in all of these programs where people go off the program 
when their certification ends, for whatever reason, they didn't 
understand they had to reapply, or they got caught in the red 
tape, and then a few months go by until they get back through 
the red tape and they get back on the program.
    So again, using information technology, information from 
other programs to try to coordinate better can also reduce this 
churning on and off of the program. If a family is eligible 
because the parent makes very low wages, we would want the 
children to be able to not experience these multiple months of 
breaks of assistance.
    Ms. Adams. Okay. The Thrifty Food Plan is what USDA uses to 
calculate the cost of a nutritious yet low-cost diet. The 
overall formula is adjusted for inflation, but the price of 
foods in the Thrifty Food Plan have not been updated since 
2006, so how much of a gap still exists between a household 
receiving the maximum level of benefits, and the average 
monthly cost of purchasing healthy foods?
    Mr. Greenstein. Well, there are a couple of issues here. So 
the SNAP benefits for any fiscal year, October through the next 
September, are based on the cost of the Thrifty Food Plan, the 
lowest cost, bare-bones diet, the Agriculture Department has 
developed. It is based on the cost of that plan the previous 
June. So it is actually 3 months out-of-date when the benefit 
starts, the fiscal year starts, and 15 months out-of-date when 
it ends. For that reason, there was a significant period of 
time where the law, as passed by this Committee and the 
counterpart in the Senate, was that the benefits would be tied 
to 103 percent of the cost of the Thrifty Food Plan, the idea 
being 103 percent of the previous June from the previous fiscal 
year would equal about 100 percent on average in the current 
year. But that was ended as a budget savings----
    Mr. Adams. I am out of time.
    Mr. Greenstein.--in the 1990s.
    Mr. Adams. I appreciate it.
    The Chairman. The gentlelady's time has expired.
    Mr. Yoho, 5 minutes.
    Mr. Yoho. Mr. Chairman, I appreciate you having this timely 
meeting, and bringing this up. You know, with the nutritional 
program accounting for 80 percent of the farm bill, and the 
farm bill roughly $800 billion over the next 5 years, it is 
timely and this is the first--the best one to bring up, since 
it is the most money spent. And I appreciate you guys being 
here.
    And the fact that I see a little bit on different sides, 
which is good because we get a--we get that feedback, and that 
is what we are going to need to fix this problem. And this is 
something we want everybody off of this program, even if it 
is--I mean in an idealistic world, but we know that is not 
going to happen. You know, and I am sure with a lot of the 
government programs, you see \1/3\ of the people just are 
taking advantage of it or a percentage, I won't say \1/3\, and 
then there is another percentage that are working the system, 
and then there is that group that it was intended for, the very 
people--the elderly, the children, the people with 
disabilities--that is what we really need to reform this 
program. And I don't know anybody on either side that doesn't 
want to do that, but yet when you get these big government 
programs, and you have roughly 12 different agencies working to 
solve this problem, it gets kind of muddled. And being a 
veterinarian for the last 30 years in my training, we looked at 
the whole system. What I see here is we are dealing with 
nutritionally deprived or underutilized individuals. That is a 
symptom. The underlying problem, and Mr. Scott brought this up, 
is poverty. You know, why is there poverty in the United States 
of America? You know, the freest country in the world with the 
most opportunity, and we are talking about poverty. And we have 
had a war we waged for the last 50 years, spent over $20 
trillion, and we are getting more people on that.
    And, Mr. Besharov, you brought up the point that until we 
deal with our underlying problems, we are going to continue 
this. You know, our money is being devalued. We are $18 
trillion in debt. We have Social Security, Medicare and 
Medicaid that are just consuming us, along with our interest 
and retirement programs, and until we turn the tide and bring 
value back to our dollar, this is going to go up because people 
are going down as far as quality of life. And so saying that, I 
wanted to ask you, and I assume you guys are going to be 
available for input from here until we get this resolved, and 
success should be measured by retiring a program. You know, I 
don't know if the Federal Government never does that, but 
wouldn't it be--I know it is ideological, to be able to retire 
it to a point where it is 30 percent of the farm bill because 
we got people out of poverty.
    And so you were talking about the Federal Government 
providing so many different levels of support, and we create a 
disconnect between the local governments, maybe the faith-based 
organizations, and state government, and I would like to hear 
your opinion, do we get to a point where the Federal Government 
steps in and says we are going to handle this, and so it takes 
the onus or the pressure off the states and say, ``Hey, it is 
the Federal Government's problem?'' What is your thought on 
that, Mr. Besharov?
    Mr. Besharov. I think that is the big challenge. We are a 
continental country, 340 million people, and to think that you 
can run these programs from Washington is to inhale, frankly.
    Mr. Yoho. To inhale.
    Mr. Besharov. And yet the other \1/2\ of this is, it is 
Federal tax money and so there has to be a balance that is 
drawn. I don't think the Congress nor the Administrations, the 
last four or five of them, have thought through this problem 
hard enough. They haven't given us a way to think in the modern 
world about the distribution of authority.
    I study what other countries do. And many countries are 
smaller, Europe all together is larger than us, but every 
country is smaller. But what they are doing in Europe, what 
they are experimenting with in China, is devolving more and 
more authority to the local level, and attaching it to 
accountability. We haven't done that modernization of Federal 
programming nearly as much as we could.
    Mr. Yoho. I look forward to having you come in at some 
point, we can talk. And I would like to get Mr. Greenstein's 
comments on that.
    Mr. Greenstein. Well, if the core of your question is what 
do we do to dramatically reduce poverty in the country so there 
isn't the need that we have today for the SNAP program, and 
that is a really big question. If you compare the United States 
to Western Europe, when you look at levels of poverty just 
based on market income, employment and wages, we are about in 
the middle. When you look at levels of poverty after taxes and 
government benefits, we have one of the highest poverty rates 
because we actually do less than those other countries do. The 
answer is how do we get to full employment? If we got the 
unemployment rate back to----
    Mr. Yoho. I would love to talk to you more----
    Mr. Greenstein. Yes.
    Mr. Yoho.--but I am out of time, and I appreciate it.
    The Chairman. The gentleman's time has expired.
    Mr. Ashford for 5 minutes.
    Mr. Ashford. Thank you, Mr. Chairman. I want to thank you 
for this hearing. I spent a number of years as chair of a 
committee in the Nebraska Unicameral Legislature, and I always 
got to talk first and for long periods of time, so this is 
really good for me to be able to learn patience at this ripe 
old age of 65, or whatever I am. But in any event, this is 
incredibly important to me and I thank the chair for having the 
hearing. I also appreciate Mr. McGovern's comments about the 
need for these programs, and the fact that we are talking about 
them is not a reason to cut them unnecessarily or make them go 
away without good reason. And I also appreciate the comments 
regarding Simpson-Bowles, and it is absolutely right. I mean it 
was a very thoughtful study of our deficits, and how we get to 
a balanced budget and how we proceed forward, and that we 
should not be putting people into poverty as a part of that 
process, and that is very important.
    In the early 1990s I was a sponsor the first Welfare Reform 
Bill in Nebraska, 1994. We had a waiver, we did welfare reform 
in Nebraska in 1994, 2 years before the Federal law. And then I 
served a number of years as chair, actually, Executive Director 
of our Housing Authority in Omaha, so I have had the 
opportunity to deal with this. And couple of things. One is, 
every case is different. Every single person in poverty is 
different from the other person in poverty, and it is so 
difficult to categorize these matters. A young woman with a 
child or two children is in a different place than somebody 
that has slipped into poverty because of the recession. And, 
going back to the 1960's when many of these programs started, 
we had only a few programs. They were larger, in a sense, but 
they had not been broken down into smaller component parts. It 
may be a little easier to see where we were and what the 
spending was. We have sort of evolved from that into lots of 
little programs, so that we have 80 programs or whatever it is.
    I know from my experience at the Housing Authority the 
cliff effect is a huge issue, a massive issue. The thousands of 
people that I tried to help in the Housing Authority who lose 
their housing subsidy when they receive a job, as opposed to at 
least maybe getting 90 days extra time so they could actually 
solidify their job employment status. And then all the other 
programs that are related to these individuals. One of the 
biggest tragedies my years in the Housing Authority is the loss 
of the Self-Sufficiency Program. On the housing side, when 
Self-Sufficiency funds were cut off, that was a massive 
disincentive, and caused more people to remain in public 
housing when they should be out working.
    So every decision has a reaction, and every act has an act 
on the other side. So my view, from those experiences, is that; 
number one, the comments made about data collection and data--
well, data collection, and then also being able to rely on data 
to make decisions in a coordinated way is the most important 
thing we can do. So let me ask this question: As you see all 
these various programs, we have talked about some of them, and 
this is an incredibly important Committee meeting and subject 
for me because I spent a lot of my life working on this, and 
the biggest frustration was lack of data. The biggest 
frustration was not being able to take a look at the history of 
a particular recipient, someone in the juvenile justice system, 
for example, and going back and trying to figure out why they 
got there. So I guess I have only given you a minute, but if 
you would just very briefly discuss where we are with data 
coordination and collaboration. These demonstration projects 
are important, where do we go in that regard?
    Mr. Greenstein. Well, I think there are a couple of issues. 
For the demonstration projects, one certainly hopes and expects 
that a very good evaluation firm will be hired, and that they 
will work with the states doing the demos, and that the 
condition of the demos will be real collection of good data. 
You have to have the data to evaluate.
    For SNAP as a whole, actually, the data collection is much 
better than for a number of other Federal programs. You compare 
Medicaid, for example, to SNAP, Medicaid caseload data is 
always a couple of years old, it is questionable. I will say 
SNAP, in terms of being current on expenditures, caseloads, 
annual breakouts of the characteristics of participants, is 
actually one of the best of the large programs on that front.
    Mr. Ashford. And my time is up. I just wish there was one 
place we could go. So we had somebody in public housing to find 
out what can we do to help them, get them a job and get them 
what they need.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Abraham for 5 minutes.
    Mr. Abraham. Thank you, gentlemen, for being here.
    Knowing that a child can't learn if he is hungry, he or 
she, Mr. Aguilar's question that some veterans were having 
issues or problems getting some benefits, of all the Federal 
safety net programs that are out there, are there one or two 
that we need better coordination with the SNAP program to make 
it more efficient? This is a wonderful Committee meeting, and 
we certainly want to serve those that need serving, but we also 
want to be efficient with our tax dollars as much as we can. So 
answer that please. Thank you.
    Mr. Besharov. Yes, thank you for that question. I have 
thought about it a lot. You have heard us put together the 
issues of unemployment insurance and SNAP. We could do the same 
about disability and TANF, but let me stay with unemployment 
insurance because that is the problem facing so much of America 
today. European countries were famous for having almost 
infinite unemployment benefits, well, 5 years, 10 years, and so 
forth. You didn't have to look for a job, and so forth. They 
have now--and I wish Mr. Ashford was here because what they 
have done is they have gotten away from the cliffs of benefits, 
and they have these step-downs so that after 1 year, your 
unemployment benefit goes down a certain amount. You are not 
thrown off. Then after another 6 months, your benefit goes down 
a little bit more. And this is a signal, and the research is 
pretty clear. When people see a deadline coming, it focuses 
their mind.
    Right now, it would be difficult to implement something 
like that because SNAP would have to be phased out the same 
way, or phased in the same way. So my suggestion is, as you 
think about SNAP for higher income people, people who are 
working or can work, you connect it to the unemployment rules, 
and you make sure the two work in sync because if SNAP is a 
countercyclical program, we ought to take that into 
consideration.
    Mr. Abraham. Okay. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Ms. Lujan Grisham for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Professor, in your testimony, of course, you have indicated 
that you believe there is evidence to show that SNAP may, in 
fact, increase obesity in certain groups. And as a former 
health secretary, I certainly understand the importance of 
combating obesity. And, in fact, some startling statistics that 
are national, and as important are the startling statistics 
that are from my own home state, I am going to start with 
those. We have the hungriest children in the country and we 
have some of the highest poverty rates in the country. 
Childhood obesity has more than doubled in children, and 
quadrupled in adolescents in the past 30 years. Obesity rates 
are significantly higher in low income communities, which means 
states like New Mexico are hit even harder. Costs associated 
with obesity alone are about $147 billion. That is 2008 
dollars. There are many estimates that get that closer to $300 
billion, depending upon what other chronic issues you are 
identifying with obesity, which I would argue is relevant to 
the total cost.
    But I want to point out some good news on that front. Now, 
the CDC recently showed that there is a 43 percent decrease in 
obesity in 2 to 5 year olds. And let me tell you where that 
came from. It came from reducing the consumption of sweet 
beverages, improving nutritional standards and programs inside 
early childhood education, and providing physical activities, 
which are not requirements of the SNAP program, which are not 
being done by our school nutrition programs, which are not 
being done by states, particularly states that are poor. And so 
while I agree with you that we need to get our arms around, as 
policymakers, obesity and the challenges, I disagree that SNAP 
is that contributing force. And I want to tell you that I did 
the SNAP challenge, and I consider myself a Mom, I raised two 
daughters, and have always been a public servant, and have to 
be careful about what I can do and not do. I can tell you that 
on $4.50 a day, I was pushed towards the kinds of simple 
carbohydrates that give you a full belly, but aren't 
nutritionally sound and completely inappropriate; rice, pasta, 
ramen. I could afford a couple of fresh fruits; I think it was 
an apple and maybe two bananas. I could not afford for a week's 
worth to buy fresh vegetables. So it is clear to me that with 
these food budgets, that we are pushing families to purchase 
cheap, energy-dense foods that are filling as a way to maximize 
their calories per dollar, and to, quite frankly, stave off 
hunger.
    Now, I have spoken to pediatricians and dieticians who 
agree that SNAP itself and having a food benefit isn't the 
issue. It is about making sure that we are funding nutrition 
education, and making sure that we are dealing with food 
deserts, and making sure that we have access to fresh fruits 
and vegetables, and quite frankly, making sure that the benefit 
matches that reality for families. We need to give them more 
options for food purchasing, we need to encourage marketers of 
fresh vegetables and fruit to open farmers' markets in these 
communities that are only served by either a large grocery 
chain or a convenience market in rural and frontier 
communities.
    Given that, should the Committee, Professor, look at 
increasing SNAP benefit levels so that families can, to our 
point, better afford adequate diets that include healthier 
foods?
    Mr. Besharov. Well, I made the point that I worry about 
people at the bottom. As incomes go up, the SNAP benefit is 
really a supplement to other monies available, and I would 
worry about people at the bottom. But I want to add something 
else because there is only a minute here. The other point you 
made, which is crucially important, you mentioned the food 
counseling in pre-K programs, and I don't remember if you said 
WIC.
    Ms. Lujan Grisham. I didn't say WIC, but I----
    Mr. Besharov. Should have.
    Mr. Lujan Grisham.--am likely to maybe, I don't know, it is 
too early to tell if I agree with your next statement. Let us 
see.
    Mr. Besharov. But, as you know, WIC is largely, although 
there is a program for 3 to 5 year olds, WIC is largely for the 
infants.
    Ms. Lujan Grisham. And their mothers.
    Mr. Besharov. And their mothers. So what you have just 
described are programs that do not continue for the lifetime of 
the recipients. So we could create a new program, we could----
    Ms. Lujan Grisham. I am going to reclaim my time. Are you 
maybe leaning towards increasing all of these programs because, 
in fact, I would absolutely agree with you, and that is a bit 
unfair----
    Mr. Besharov. I would----
    Ms. Lujan Grisham.--you to answer
    Mr. Besharov.--stick more counseling into a SNAP program.
    Ms. Lujan Grisham. But all the studies indicate, in my last 
16 seconds, sir, and I would love for you to come back to this 
Committee, Mr. Chairman, and talk to us more about that, but in 
fact, it is the counseling and nutrition education along with 
sufficient resources to purchase those foods at home. It can't 
be a one-stop effort for families to be in a position to 
actually have those healthy lifestyles.
    Mr. Chairman, I yield back. Thank you so very much.
    Mr. Abraham [presiding]. Mr. Scott?
    Mr. David Scott of Georgia. Yes. Thank you very much, Mr. 
Chairman.
    First of all, the situation regarding employment and jobs, 
poverty, all of that, all of that has been structured into 
economic social policy over the last quarter century, and we 
have not been able to replace it. For example, millions of 
jobs, millions of jobs that we once had 25 years ago have 
disappeared because of our terrible policy of shipping so many 
manufacturing jobs, the middle-income, blue collar jobs have 
been shipped overseas: we have lost them. There has to be a 
struggle to get those manufacturing jobs back, opening up 
manufacturing plants and start making it in America. We have 
become a service economy, and not a making one. That is one 
area.
    The other one then is our policy of sending so many of our 
young, eligible fathers to prison. Millions. Our prison 
population went from 300,000 in 1975 to over two million today. 
These are providers that are not there, and this is why we have 
so many single, female head of households. I mean so when you 
look at everything that we have done, we have to collect some 
of these things first. However, when we look at the situation 
of hunger, we have to be careful not to throw the baby out with 
the bath water.
    Now, one of the issues that seem to be permeating 
everybody's mind is waste, fraud and abuse, but the facts tell 
us that SNAP abuse is lower than it has ever been. The most 
recent data show that the SNAP accuracy rate is 97 percent, and 
part of the remaining three percent was actually underpayments, 
which saved the government money.
    So my question here is that sometimes it is not getting the 
right answer that matters if we don't set up the right question 
to get to that right answer. I asked this question before, 
where are examples of the fraud, where are the examples of the 
abuse, where are the areas in which we look inward to see where 
we cut or will we do this, and I can't find any answers on 
that. I want somebody to tell me where is the waste, where is 
the abuse, and where is the fraud in a program where the 
accuracy rate is said to be 97 percent, and the other three 
percent is largely due to underpayments.
    Mr. Greenstein. It is interesting, Congressman, a few years 
ago, the National Journal, one of the wonkier news magazines in 
town, evaluated, looked at a whole range of Federal programs 
and they rated SNAP as one of the government's most successful 
programs.
    Mr. David Scott of Georgia. Correct.
    Mr. Greenstein. They noted two things; that, for a program 
of its size and complexity, its error and fraud rates were very 
low, and that it is especially effective in responding promptly 
to increases in needs, such as during recessions. But, we look 
at a lot of the issues, we are trying to improve the program 
and make it better, but this actually is one of the best-run 
programs we have. As I said at the beginning of my testimony, 
it has used business practice and information technology to 
come a long way. When I started working on the program, the 
error rate was 17 percent. The net loss is now two percent. It 
does much better in serving the working poor. Again, not that 
we can't make it better, but we should take account of the 
improvements that have been made, and the degree of 
effectiveness that the program has. We live in a cynical time 
and we tend to downgrade everything, but this program has 
really done enormous----
    Mr. David Scott of Georgia. Absolutely.
    Mr. Greenstein.--good for tens of millions of people over 
the last several decades.
    Mr. David Scott of Georgia. Right.
    Mr. Besharov. I would just add one thing, if you don't 
mind.
    Mr. David Scott of Georgia. Yes.
    Mr. Besharov. I would return to your comment about the 
African-Americans and other men who are in prison, and about to 
come out, the number is close to two million.
    Mr. David Scott of Georgia. Yes.
    Mr. Besharov. My reading of the literature is that these 
are some of the most employable men----
    Mr. David Scott of Georgia. Absolutely.
    Mr. Besharov.--and that the programs that work with them 
are much more successful than a lot of the other programs we 
talked about. Wherever you get a billion dollars, whether you 
shave it off SNAP or find it someplace else, one of the things 
we ought to do is fund some more of these prisoner re-entry 
programs, and we are not doing a good job there, sir. We really 
aren't.
    Mr. David Scott of Georgia. That is the direction we have 
to look at. So many people look at the program and they want to 
just chop this thing up here while it is doing a great job, and 
the best way to bring down the cost of the SNAP program is to 
put people to work. Get the jobs back from overseas, do the 
other things like the re-entry program.
    Thank you, Mr. Chairman.
    Mr. Abraham. Mr. McGovern.
    Mr. McGovern. Yes, thank you very much.
    First of all, I just want to say for the record so it is 
clear, SNAP works. And, Mr. Greenstein, you just made that 
point that it is a well-run, efficiently-run, effective 
program, and we should be proud of this program. And the 
narrative that we oftentimes hear does not reflect the reality, 
but it is important to state for the record that this program 
works.
    Second, I wish Mr. Rouzer was still here because I had an 
answer that he could have given his constituent who went in the 
shopping line, didn't like the fact that the person in front of 
him was buying his groceries with food stamps, and wanted to 
know how to respond to that. My response to that constituent 
would be, you should be very happy and thank God that you are 
not so poor that you qualify for this benefit. This notion that 
people want to be poor, or like to be poor, or prefer to be 
poor, I don't think reflects reality. I could assure you that 
someone who works and earns so little that they still are 
eligible for SNAP would prefer a job that pays a better wage so 
they could afford whatever food that they want.
    Let me also make the point, because listening to some of 
the comments in the Committee here, I hope that we in this 
Committee resist making this a debate about passing the buck to 
the states. States are cash-strapped too, I guess in a perfect 
world it would be nice if they could, for our own bottom line 
up here, pick up everything that we do, but they are not going 
to do that.
    And on the issue of food, which we ought to consider as a 
right in this country, it is a Federal obligation to lead the 
effort to make sure that nobody in this country is hungry, and 
that in terms of our safety net, people have access to food.
    The other thing I will point out is that SNAP is not a jobs 
program; it is a food program, and if we are going to demand 
that people be enrolled in worker training programs, and these 
programs and those programs, we ought to make sure those 
programs exist. The rationale behind some of the governors who 
ask for these waivers were that they didn't have enough 
programs to be able to accommodate all those who needed worker 
training. I am under no illusion that we in this Congress, by 
the way, all of a sudden will get religion and start funding 
new programs or expanding programs, because all we seem to do 
is cut programs.
    But let me just ask for the record, do you believe that if 
the United States Congress passed, and the President signed, an 
increase in the Federal minimum wage, that that would reduce 
the number of people currently on SNAP in any way, shape or 
form?
    Mr. Greenstein. I don't think there is too much question 
that it would reduce the number of people, it would also reduce 
the average benefit because benefits relate to earnings.
    Mr. McGovern. Right.
    Mr. Greenstein. The major issues affecting the size of the 
program are actually largely outside the control of this 
Committee. If we had a five percent or a four percent 
unemployment rate, like we did in the late 1990s, many fewer 
people would qualify for SNAP. If we had real wage growth at 
the bottom of the wage scale, which is an issue a lot broader 
than just the minimum wage, fewer people who work would need 
SNAP, and people who work and have SNAP would, on average, get 
lower benefits than they get today because their wage level 
would be higher. But there is a direct relationship, and part 
of what has happened is, for the last number of years, we have 
had--we have been far from full employment, and we have had 
very substantial erosion of wages on the bottom ends of the 
wage scale, and those factors are among the significant reasons 
that the SNAP program has gotten larger. If we could get back 
to the kind of economy we had with fuller employment, and 
stronger wages at the bottom where, when the economy grew, 
wages grew all across the income scale, you would have fewer 
people on SNAP, the average benefit of those on would be lower, 
and the costs would be lower.
    Mr. McGovern. Do you agree, Mr. Besharov?
    Mr. Besharov. I think I would worry about the number of 
jobs that existed. There is an argument, but the evidence is 
pretty clear, that you raise the minimum wage too much and you 
lose jobs. I just parked at the University of Maryland 
yesterday. We fired 150, I think it is, could be more, could be 
less, parking lot attendants and we put in machines.
    Mr. McGovern. Yes.
    Mr. Besharov. Not because the jobs went abroad, but because 
the machine was cheaper than paying someone to stand there and 
collect the money.
    Mr. McGovern. I am not sure that is directly due to the 
minimum wage, but let me say I do think there is a problem when 
people work and they earn so little that they still qualify for 
these benefits. We can't have it both ways here. We can't be 
asking people to get off of SNAP, and at the same time not 
providing them an alternative.
    But I just have one final thing. I guess I can't, but----
    Mr. Abraham. The gentleman's time has expired.
    Mr. McGovern. All right, thank you.
    The Chairman [presiding]. This is not the Rules Committee, 
this is the Agriculture Committee.
    Mr. Ashford for 5 minutes.
    Mr. Ashford. I am actually talking twice here, and I 
apologize, Mr. Chairman, we are very fortunate in Nebraska, we 
did pass the minimum wage at a voter approval of 61 percent of 
Nebraskans, it is not exactly a liberal state, but we voted 
this time for a minimum wage increase, and it was not 
substantial. Your point about making sure that it not be a 
significant wage increase or too much of a wage increase--I 
mean ours will go up to $9 in 2 years, or whatever it is. But 
it will have a significant impact on our food stamp population.
    I just want to ask one last question, because it is 
intriguing to me, the database or the oversight or whatever in 
SNAP is, as you suggest, Mr. Greenstein, it is one of the 
better programs. I am very interested in this. Can you then 
utilize the data that is collected in regards to SNAP, and I 
agree with Mr. McGovern that this is not an employment program, 
this is a food program. There are agencies in localities that, 
if we had the ability to understand what these people are going 
through, that data could be very helpful in increasing their 
ability to work or finding work, if it is that part of the 
population. I realize SNAP is not just people that are just off 
work and need to find a job right away. Is that data robust 
enough to do that kind of interface?
    Mr. Greenstein. We have a lot of good data on who goes on 
SNAP, how long they stay, what are their characteristics, what 
are the precipitating factors; the most common is loss of a 
job, that leads them to go on. What we don't have at the 
present time are really good data on here is the way to design 
an employment and training program for SNAP recipients to get 
the maximum bang for the buck in helping people move to 
employment. That is what we are hoping to learn from the 
demonstration project.
    Mr. Ashford. I just think that is tremendous. And that is 
pretty new, isn't it, I mean this demonstration project?
    Mr. Greenstein. It hasn't even started yet.
    Mr. Ashford. I know. This is new. I understand it hasn't 
started. We have gone through that. It hasn't started, but it 
hasn't been tried that much either. This is something 
relatively new in the food stamp area. So this is a very good 
idea. The information from that the Washington State program, 
for example, and other states that have similar kinds of 
projects that can pick up on this, is pretty exciting. If we 
can utilize a program like SNAP, not necessarily to design a 
program to get people off of food stamps, but to design a 
program that interfaces well with other programs and local 
agencies, whether it be housing or whatever it is, healthcare. 
One of the ironies in Nebraska, we did not pass Medicaid 
expansion, which was unfortunate. Some of my colleagues most 
likely would disagree with me. But, basically, as you try to 
find enough work to get on an exchange so that you qualify for 
the exchange and get out of the donut hole, then you don't get 
food stamps, and then you don't get childcare. Every time there 
is an action, there is a reaction going on in government. It is 
not so much that we reduce the size of government, it is that 
we make government work better for our citizens, and it seems 
to me that that partially could result in a reduction in the 
size of government. They obviously can do that. So I don't 
know, Mr. Besharov----
    Mr. Besharov. Well, I just wanted to add a note of caution 
about these pilots. The Congress has been disappointed many 
times about the results of research, not because they didn't 
dislike the results--the answer. Some of the job training 
programs have taken 6, 7 and 8 years, right----
    Mr. Ashford. Right.
    Mr. Besharov.--to get our results. I don't think this 
Committee would be very happy to look at the timeline of when 
these data are going to come out. And when they come out, there 
is going to be major questions about the quality of the 
research and this and that. There will be an important addition 
to our knowledge, but too often I have seen us be too 
disappointed about the results of demonstrations, no matter how 
promising they look.
    Mr. Ashford. Maybe this one will be a better one, and we 
can put it on steroids and get it done faster. Sorry.
    Mr. Greenstein. I am also told that some states actually 
have built longitudinal databases that supplement the Federal 
data----
    Mr. Ashford. Right.
    Mr. Greenstein.--with regard to SNAP participants. So in 
some individual states, we can get even richer data.
    Mr. Ashford. I yield back.
    The Chairman. The gentleman yields back his time.
    Well, gentlemen, it looks like you have worn us out 
completely. I appreciate both of you being here this morning, 
and the cordial way in which you addressed each other, and the 
reaction to the questions. This is just the start of a long 
process. Mrs. Walorski will have a hearing tomorrow at 1 
o'clock, the first Subcommittee hearing on this issue, and we 
intend to continue to flesh these thoughts out and look forward 
to your continued participation in our conversations. So thank 
you very much.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 days to receive additional 
material and supplementary written responses from the witnesses 
to any questions posed by a Member.
    This hearing on the Committee on Agriculture is adjourned. 
Thank you.
    [Whereupon, at 12:31 p.m., the Committee was adjourned.]


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

             (SNAP RECIPIENT CHARACTERISTICS AND DYNAMICS)

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                  House of Representatives,
                                 Subcommittee on Nutrition,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:12 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Walorski, Neugebauer, 
Gibbs, Crawford, Hartzler, Benishek, Davis, Yoho, Rouzer, 
Abraham, Moolenaar, Conaway (ex officio), McGovern, Adams, 
Lujan Grisham, Aguilar, Plaskett, Ashford, and DelBene.
    Staff present: Anne DeCesaro, Jackie Barber, Ted Monoson, 
Haley Graves, Jessica Carter, Lisa Shelton, Robert Larew, Andy 
Baker, Liz Friedlander, John Konya, and Nicole Scott.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. This hearing of the Committee on 
Agriculture, Subcommittee on Nutrition, to review SNAP 
characteristics and dynamics, will come to order.
    Good afternoon, and welcome to this year's first meeting of 
the Nutrition Subcommittee. I appreciate all of you being here. 
I appreciate our other Members coming as they finish voting.
    Today, I would like to give you a glimpse of what lies 
ahead for this Subcommittee over the next 2 years as we review 
SNAP.
    Before we begin, I want to take just a quick opportunity 
for everyone here to understand my background and why this 
issue and this Subcommittee is important to me personally. 
First and foremost, I am a lifelong Hoosier. I have dedicated 
my career to helping Hoosier families. After I married my 
husband, we made the decision to move to Romania, in Eastern 
Europe, where we created and ran a local foundation and spent 4 
years providing resources to impoverished children across that 
country. I know what poverty looks like, both internationally, 
and what it looks like in my own district, Indiana's Second 
District, and how it affects families and communities. And when 
I read that one in six Americans are hungry, it reaffirmed my 
commitment to ensure that no child or adult endures what I have 
seen others go through.
    In order for us to be successful, it is imperative that we 
first review the SNAP program to better understand what works 
and what doesn't work.
    The full Committee yesterday examined why a review of SNAP 
is important. It is the largest feeding program in both the 
number of recipients and the amount of spending, yet the 
program lacks a clear mission and the data seems to show us 
that it is doesn't necessarily support families coming out 
poverty, and it is not necessarily helping lift people into 
better circumstances. It is my hope and expectation that this 
Subcommittee, along with the work done at the full Committee, 
will explore and gain a better understanding of the entire 
program; specifically, its recipients, to find unmet needs and 
areas of overlap.
    The SNAP program does not function by itself and many other 
factors contribute to its ultimate success. That is why it is 
so important that this Subcommittee focus our efforts on 
understanding how SNAP can best serve families and children 
across the United States. What is very clear to me, and what I 
hope becomes clear to you in the coming months, are the many 
layers of bureaucracy that does exist inside of SNAP. Currently 
18 different programs provide food assistance, and while many 
of them do not fall within this Committee's jurisdiction, they 
do serve SNAP recipients. In addition, a range of low-income 
benefit programs are offered at the local, state and Federal 
levels. On top of that, a web of nonprofits and community 
service providers do exist to provide assistance.
    While I recognize the government's role in this process, 
there are incredible local organizations in my district, like 
St. Margaret's House and the Food Bank of Northern Indiana, 
that help to feed Hoosiers in my district and provide support 
to families and children in need. This is why understanding the 
overlap between the myriad of programs will help us decide how 
to best provide support and services to families in need. In 
the coming months we will be able to tackle these issues and 
more, but today is about understanding those families in need; 
who they are, what has brought them to the program, how long 
they have remained in the program so that we better understand 
how to serve them.
    Today is not about policy recommendations; it is about 
understanding the diverse characteristics and dynamics of the 
more than 46 million Americans who receive benefits from this 
program each month. Over the coming months, our review will 
include a range of stakeholder perspectives, including current 
and former recipients, not-for-profits, states, localities, the 
food industry, and nutrition experts, to name a few.
    Today we will hear from a panel of distinguished 
researchers who have all conducted well-documented studies 
using trusted government data sources. In most cases, the 
research has been funded by the Department of Agriculture's 
Food and Nutrition Service, which oversees the administration 
of SNAP.
    I want all the Members to know that I am always available 
if you want to offer any input as we move forward with this 
process. I thank all of our witnesses for being here with us 
today. I look forward to their testimony.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Good afternoon and welcome to this year's first meeting of the 
Nutrition Subcommittee. Thank you all for making time in your schedules 
to be here and thank you to today's witnesses for your participation.
    Today, I would like to give you a glimpse of what lies ahead for 
this Subcommittee over the next 2 years as we review the Supplemental 
Nutrition Assistance Program, or SNAP.
    Before we begin, I want to take an opportunity for everyone here to 
understand my background and why this issue and this Subcommittee is 
important to me.
    First and foremost, I am a lifelong Hoosier and I have dedicated my 
career to helping Hoosier families.
    After I married my husband, we made the decision to move to Romania 
where we created and ran a local foundation and spent 4 years providing 
resources to impoverished children across the country.
    I know what starvation looks like and how it affects families and 
communities.
    And when I read that one in six Americans is hungry, it reaffirmed 
my commitment to ensure no child or adult endures what I've seen others 
go through.
    In order for us to be successful, it's imperative that we first 
understand what works and doesn't within SNAP.
    The full Committee yesterday examined why a review of SNAP is so 
important--it's the largest welfare program in both the number of 
recipients and the amount of spending, yet the program lacks a clear 
mission and the data reveals that it is not helping lift people out of 
poverty.
    It is my hope and expectation that this Subcommittee, along with 
work done at the full Committee, will explore and gain a better 
understanding of the entire program and specifically its recipients to 
find unmet needs and areas of overlap.
    The SNAP program does not function by itself and many other factors 
contribute to its ultimate success.
    That's why it's so important that this Committee focus our efforts 
on understanding how SNAP can best serve families and children across 
the United States.
    What's very clear to me, and what I hope becomes clear to you in 
the coming months, are the many aspects to SNAP.
    Currently 18 different programs provide food assistance, and while 
many of them do not fall within this Committee's jurisdiction, they do 
serve SNAP recipients.
    In addition, a range of low-income benefit programs are offered at 
the local, state and Federal levels. On top of that, a web of 
nonprofits and community service providers exist to provide assistance.
    While I recognize the government's role in this process, there are 
wonderful local organizations, like St. Margaret's House and the Food 
Bank of Northern Indiana that help to feed Hoosiers in my district and 
provide support to families and children in need.
    This is why understanding the overlap between the myriad of 
programs will help us decide how to best provide support and services 
to families in need.
    In the coming months we'll be able to tackle these issues and more.
    But today is about understanding those families in need. Who they 
are, what has brought them to the program, and how long they have 
remained in the program so we better understand how to serve them.
    Today is not about policy recommendations; it's about understanding 
the diverse characteristics and dynamics of the more than 46 million 
Americans who receive benefits from this program each month.
    Over the coming months, our review will include a range of 
stakeholder perspectives, including current and former recipients; 
nonprofits, states and localities, the food industry, and nutrition 
experts to name a few.
    Today we will hear from a panel of distinguished researchers who 
have all conducted well-documented studies using trusted government 
data sources.
    In most cases, the research has been funded by the Department of 
Agriculture's Food and Nutrition Service, which oversees the 
administration of SNAP.
    I thank all of our witnesses for being here with us today and look 
forward to their testimony.

    The Chairwoman.I would now like to recognize Ranking Member 
McGovern for his opening statement.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Thank you very much, Chairwoman Walorski, and 
congratulations on chairing your first hearing of this 
Subcommittee.
    I want to start by thanking you in particular for reaching 
out to me beforehand, and setting up a time for us to get 
together to know each other and to chat. I really appreciated 
the gesture. And I look forward to working with you on hunger 
and nutrition issues. All too often around here, Members talk 
at each other rather than with each other, and I am glad to say 
that we are off to a much more productive start.
    I also want to thank the witnesses for being here today 
with us. As I said at yesterday's hearing, I am a little 
surprised that we are starting the first top-to-bottom review 
of programs within the Committee's jurisdiction with SNAP, a 
program whose caseloads and spending are going down, according 
to CBO. I hope we exercise the same rigorous oversight on farm 
subsidies to big agribusiness, payments that CBO projections 
indicate could end up costing us nearly $5 billion more than 
expected in the farm bill.
    I want to ask my colleagues to remember just how poor you 
must be to qualify for SNAP. Approximately 92 percent of SNAP's 
benefits go to households with monthly incomes below the 
poverty line, and 57 percent go to households with incomes 
below \1/2\ the poverty line. For a family of three, the 
poverty line is about $1,650 per month. So that is not a lot of 
money. SNAP eligibility requirements are tough, even if you are 
poor, and the program has one of the lowest error rates of any 
Federal program. The bottom line is that SNAP works.
    I hope today's hearing builds upon some of the overarching 
themes that came up yesterday. In particular, we need to 
address one of the biggest flaws in our social safety net, the 
so-called cliff. This happens when someone gets a job, but 
earns so little but they still lose their benefits and end up 
worse off. And if we really want to move people out of poverty 
for good, we ought to begin by raising the Federal minimum 
wage. Many of these issues are outside the purview of this 
Committee, which is why I am asking the White House to hold a 
White House conference on food, nutrition and hunger. We should 
bring people together from different Federal agencies, 
businesses, nonprofits, faith-based organizations, 
beneficiaries, and so on, to come up with a holistic plan to 
end hunger, a roadmap that we can follow with real benchmarks.
    I look forward to hearing from the witnesses, and I thank 
the Chairwoman for holding this hearing.
    The Chairwoman. Thank you, Mr. McGovern.
    The chair would now like to recognize Chairman Conaway for 
his opening statement.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thank you, Madam Chair. I appreciate 
that.
    I don't have a lot to say other than to quote that wise 
sage, Pete Sessions. He said, ``Always make a big deal of 
making the big deal the big deal.'' And nutrition, this review 
and the efforts that we are going to put in on getting these 
policies correct is the big deal. You can look at the makeup of 
the Committee with the Vice Chairman and the other Subcommittee 
Chairman that are on this Committee, and to me, this is the big 
deal, and I have the right person in the chair to lead this 
effort, and I look forward to her work.
    We did have some interesting comments yesterday. The idea 
that this program has morphed over time into an income support 
program, more than it is a calorie provision program, and the 
other side issues that America faces with child obesity and 
adult obesity and other things, I am looking forward to seeing 
how we can find the right policies to address the issues that 
are under our jurisdiction. And I have great confidence in this 
Subcommittee's work, and look forward to seeing that happen.
    And I yield back.
    The Chairwoman. Thank you, Chairman Conaway.
    The chair will request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony to ensure there is ample time for questions.
    The chair would like to notify Members that they will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival. I appreciate Members' 
understanding.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All the written statements will be included in the 
record.
    And with that, I would like to welcome the witnesses to our 
table today--to our hearing table. Ms. Karen Cunnyngham, Senior 
Researcher, Mathematica Policy Research; Dr. Gregory Mills, 
Senior Fellow, Urban Institute; Dr. James Ziliak, Founding 
Director, Center for Poverty Research, University of Kentucky; 
Mr. Stephen Tordella, President, Decision Demographics.
    Ms. Cunnyngham, please begin when you are ready.

 STATEMENT OF KAREN CUNNYNGHAM, SENIOR RESEARCHER, MATHEMATICA 
               POLICY RESEARCH, WASHINGTON, D.C.

    Ms. Cunnyngham. Thank you, Chairwoman Walorski, Ranking 
Member McGovern, and Members of the Subcommittee for the 
opportunity to testify today.
    As you know, SNAP is the central component of the nation's 
nutrition safety net. In Fiscal Year 2014, it provided benefits 
to 46.5 million people in an average month, slightly down from 
Fiscal Year 2013.
    Today, I will describe the set of resources you can use to 
gain a deeper understanding of the SNAP population. These 
include Mathematica's new SNAP data visualization, reports we 
produce for FNS on the characteristics of SNAP households, and 
the data and computer models used by FNS to examine proposed 
changes to SNAP. I will use these tools to highlight 
information about SNAP and the characteristics of the SNAP 
population.
    The SNAP data visualization tool presents complex data in 
an easy to understand interactive format. Could we have the 
visual on that? Thank you. Are we good?
    The Chairwoman. No, hang on one second. This is like a 
technical timeout.
    Voice. If you have binoculars I might need them.
    The Chairwoman. I have bifocals. Let us just go off the 
record.
    Ms. Cunnyngham. I think it is ready now. Thank you.*
---------------------------------------------------------------------------
    * During the witness's testimony a short video demonstration was 
played.
---------------------------------------------------------------------------
    The SNAP data visualization tool presents complex data in 
an easy to understand interactive format. In the SNAP overview 
module, we can compare SNAP participation since 1969 with 
participation in other government programs like the School 
Lunch Program, WIC, and Unemployment Compensation. We can also 
compare expenditures on SNAP with expenditures for the other 
programs. In the SNAP participation module, we can compare 
poverty, SNAP eligibility, and SNAP participation across 
states. Here we see a comparison of states by the percentage of 
people with income under 200 percent of poverty. We can 
contrast that with state estimates of the percentage of people 
who are eligible for SNAP. Clicking on a particular state 
provides an easy way to compare poverty, eligibility and 
participation within the state.
    I encourage you to explore this tool, and hope you find it 
helpful in your examination of SNAP.
    Another important resource is FNS's series of annual 
reports on the characteristics of SNAP households, the latest 
of which is for Fiscal Year 2013. The reports include a wealth 
of information about SNAP and SNAP participants at both the 
national and state levels. For instance, the report provides 
detailed information about SNAP eligibility rules. This 
includes income and asset standards, allowable deductions, and 
non-financial eligibility restrictions. The report also 
describes how states have some leeway to establish their own 
income and asset eligibility criteria. For example, many states 
use a TANF-funded, noncash benefit to confer categorical 
eligibility on a large number of low income households. States 
who do this have established income limits, and in some cases, 
asset limits for households to receive the TANF-funded benefit. 
Benefits for these households are determined using household 
income, and the same rules that apply to other eligible 
households.
    In addition to describing eligibility criteria, the report 
contains data on the varied characteristics of SNAP 
participants. For instance, readers can see how average monthly 
SNAP benefits vary by household composition. This is also 
graphically shown on page 5 of my written testimony. In Fiscal 
Year 2013, the average benefit for households with an elderly 
person was $134, compared to an average $410 for households 
with a child. The report on SNAP household characteristics also 
illustrates how SNAP targets benefits to the neediest 
households. As shown on page 7 of my testimony, 43 percent of 
SNAP households have monthly incomes at or below 50 percent of 
the poverty guideline. These households receive 57 percent of 
all SNAP benefits. In contrast, five percent of SNAP households 
have monthly income over 130 percent of the poverty guideline. 
They received only one percent of SNAP benefits.
    The report further shows that 75 percent of SNAP households 
included a child, an elderly person, or a person with a 
disability. These households received 82 percent of SNAP 
benefits.
    The numerous appendix tables show how the characteristics 
of SNAP households vary across states. For example, state 
percentages of SNAP households with monthly incomes at or below 
50 percent of the poverty guidelines ranged from a low of 24 
percent in Vermont to a high of 67 percent in California.
    This is just a small sample of the information available 
from the report, which I hope you find a valuable resource. 
Even more information can be gleaned from the SNAP QC data upon 
which the report is based. This edited database is publicly 
available via the Department of Agriculture's website. The data 
also form the basis for one of the sophisticated SNAP 
microsimulation models FNS and Mathematica have worked together 
to develop. These models are designed to simulate the effected 
proposed policy changes on household eligibility and predicted 
participation and on SNAP benefit costs. These tools and the 
data they present can contribute to an understanding of how 
SNAP has been operating, and can provide a foundation for 
discussion and consideration of potential changes to the 
program.
    Thank you.
    [The prepared statement of Ms. Cunnyngham follows:]

Prepared Statement of Karen Cunnyngham, Senior Researcher, Mathematica 
                   Policy Research, Washington, D.C.
    Thank you, Chairwoman Jackie Walorski, Ranking Member Jim McGovern, 
and Members of the Subcommittee on Nutrition for the opportunity to 
testify on the characteristics of the population served by the 
Supplemental Nutrition Assistance Program--also known as SNAP.
    I am a senior researcher at Mathematica Policy Research and the 
director of a project that measures SNAP program access, trends, and 
impacts. As part of this project--which is conducted for the Food and 
Nutrition Service (FNS) at the United States Department of 
Agriculture--Mathematica develops and maintains SNAP microsimulation 
models; prepares the edited SNAP quality control (QC), data files; and 
produces reports on the characteristics of SNAP households.\1\
---------------------------------------------------------------------------
    \1\ Joshua Leftin is deputy director of the project and Kelsey 
Farson Gray authored the most recent report on SNAP household 
characteristics.
---------------------------------------------------------------------------
    SNAP is a central component of the nation's nutrition safety net 
that serves a broad spectrum of the needy population. According to SNAP 
program operations data, SNAP provided benefits to 46.5 million people 
in an average month in Fiscal Year 2014, slightly down from 47.6 
million people in an average month in Fiscal Year 2013. The average 
monthly benefit in Fiscal Year 2014 was also down to $125 per person 
from $133 per person in Fiscal Year 2013.
    In this testimony, I describe a set of resources that Congress can 
use to gain a deeper understanding of the SNAP population. These 
include (1) Mathematica's new SNAP participation data visualization; 
(2) a series of reports we have produced for FNS on the characteristics 
of SNAP households; and, briefly, (3) the FNS data and computer models 
we use to simulate proposed changes to SNAP. I also use these tools to 
highlight information about SNAP eligibility standards and the 
characteristics of the SNAP population, both nationally and across 
states.
A Digital Exploration of SNAP
    The characteristics of SNAP participants and households and their 
levels of participation in SNAP change over time in response to 
economic and demographic trends, as well as to legislative adjustments 
to program rules. Mathematica has developed a data visualization tool 
that presents complex data about the SNAP population in an intuitive, 
interactive format. Using this dynamic tool, researchers, policymakers, 
and other stakeholders can examine SNAP participation over time and 
across populations. They can also compare SNAP participation with other 
programs and economic trends. The tool aggregates SNAP data into three 
modules, two of which are particularly relevant to our testimony today:

  <bullet> Users can compare SNAP participation and expenditures since 
        1969 with those for other government programs such as the 
        National School Lunch Program, the Special Supplemental Program 
        for Women, Infants, and Children, and Unemployment 
        Compensation. Expenditures for both SNAP and Unemployment 
        Compensation rose steeply from 2008 to 2009. Expenditures for 
        SNAP continued to rise steeply for several years after 2009, 
        while expenditures for Unemployment Compensation dropped 
        sharply.
A Digital Exploration of the Supplemental Nutrition Assistance Program 
        (SNAP)
          Since it began more than 50 years ago, the Supplemental 
        Nutrition Assistance Program (SNAP) has provided nutrition 
        assistance to millions of low-income individuals and families 
        nationwide. Mathematica Policy Research has studied nutrition 
        policies and programs for more than 2 decades and, with funding 
        from the Food and Nutrition Service, recently completed the 
        largest-ever survey of SNAP participants on the topic of food 
        security (defined as reliable access to enough food to lead an 
        active, and healthy life). We put these findings into context 
        in our new interactive tool, which provides an overview of 
        SNAP, the results of our study, and SNAP participation and 
        eligibility rates by state. Navigate through each module by 
        clicking on a circle below. (This tool is best viewed in IE10+, 
        Chrome, Mozilla.)
Participants and Expenditures of Government Programs Over Time

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  <bullet> In the SNAP participation module, users can compare poverty, 
        SNAP eligibility, and SNAP participation across states. For 
        instance, a comparison of states by the percentage of people 
        with income under 200 percent of poverty can be contrasted with 
        state estimates of the percentage of people who are eligible 
        for SNAP. Clicking on a particular state provides an easy way 
        to compare poverty, eligibility, and participation within the 
        state.

    Although not covered in my testimony today, a third module depicts 
findings from a recent Mathematica study that examined the relationship 
between SNAP participation and food security.\2\ I encourage you to 
explore this tool and hope you find it useful in your examination of 
the SNAP population.
---------------------------------------------------------------------------
    \2\ Mabli, James, Jim Ohls, Lisa Dragoset, Laura Castner, and Betsy 
Santos. ``Measuring the Effect of Supplemental Nutrition Assistance 
Program (SNAP) Participation on Food Security.'' Prepared by 
Mathematica Policy Research for the U.S. Department of Agriculture, 
Food and Nutrition Service, August 2013.
---------------------------------------------------------------------------
Reports on the Characteristics of SNAP Households
    Another important resource is FNS' series of annual reports titled 
Characteristics of Supplemental Nutrition Assistance Program 
Households, which date back to 1976. These reports include a wealth of 
information about the program and current participants at both the 
national and state levels. I highlight some details about SNAP 
eligibility standards and the SNAP population from the most recent 
report for Fiscal Year 2013 (Farson Gray 2014) in the narrative that 
follows.\3\
---------------------------------------------------------------------------
    \3\ Farson Gray, Kelsey. ``Characteristics of Supplemental 
Nutrition Assistance Program Households: Fiscal Year 2013''. Report 
submitted to the U.S. Department of Agriculture, Food and Nutrition 
Service. Washington, D.C.: Mathematica Policy Research, December 2014.
---------------------------------------------------------------------------
    Federal SNAP Eligibility Standards. To be eligible for SNAP under 
the standard Federal rules, households without an elderly or disabled 
member must have a monthly gross income at or below 130 percent of the 
Federal poverty guideline and countable assets of no more than $2,250. 
Households with elderly or disabled members are exempt from the gross 
income limit and may have up to $3,250 in countable assets. All SNAP 
households must have a monthly net income at or below the Federal 
poverty guideline. Net income is calculated by subtracting from gross 
income a standard deduction as well as deductions for, among others, 
earned income, excess shelter expenses, and medical expenses--the 
latter of which is available only to households with elderly or 
disabled members.
    Monthly income limits and the standard deduction vary by household 
size and location. Currently the gross income limit for a family of 
four in the contiguous United States is $2,584, the net income limit is 
$1,988, and the standard deduction is $165. The maximum deduction for 
excess shelter expenses in the contiguous United States for households 
without elderly or disabled members is $490.
    Countable assets include most liquid resources and some non-liquid 
resources. Family homes and retirement and educational savings accounts 
are not counted toward the resource limit. Vehicles with very low 
equity and those meeting certain other specific criteria are also 
excluded from the resource test. For one vehicle per adult and per 
teenager driving to work or school, any fair market value in excess of 
$4,650 is counted toward the resource limit. Of the household's 
remaining vehicles, the higher of either any fair market value in 
excess of $4,650 or any equity is counted.
    SNAP households in which all members receive SSI, Temporary 
Assistance for Needy Families (TANF), or General Assistance benefits 
are categorically eligible for SNAP and, therefore, not subject to the 
Federal income and resource limits. Benefits for these households are 
determined under the same rules that apply to other eligible SNAP 
households and are based on household income.
    State SNAP Eligibility Options. In some instances, states are 
permitted to establish eligibility criteria that work best for their 
jurisdictions. For example, they may use vehicle rules for a TANF-
funded program in place of SNAP rules, if they are less restrictive. 
For SNAP households that face an asset test, all but four states 
(Delaware, Minnesota, North Dakota, and Washington) and one territory 
(the Virgin Islands) have aligned their vehicle rules with those for 
another state program. Twenty-nine states and the District of Columbia 
have aligned their vehicle rules with programs that exclude all 
vehicles from the resource test.
    States also have the option to confer categorical eligibility on 
additional households receiving benefits that are at least in part 
funded by TANF or Maintenance of Effort funds. States have flexibility 
in setting the criteria for receiving the TANF-funded noncash benefit, 
including establishing a gross income limit and either eliminating the 
resource test or establishing a higher resource limit. Forty states, 
the District of Columbia, Guam, and the Virgin Islands provide a 
noncash benefit to confer categorical eligibility on a large number of 
households. Of these, five states (Idaho, Michigan, Nebraska, 
Pennsylvania, and Texas) impose resource limits between $5,000 and 
$25,000, while the rest have eliminated the resource test. Fourteen 
states retained the Federal gross income limit for most households 
without an elderly or disabled member, 28 states or territories raised 
the gross income limit to between 160 percent and 200 percent of the 
Federal poverty limit for those households, and one state, New 
Hampshire, raised the gross income limit for households with a child 
age 21 or younger.
    In some states, households participating in narrowly targeted, 
noncash TANF-funded programs, such as work support, child care, and 
other short-term assistance, may also be categorically eligible for 
SNAP.
    Benefit determination. After a household is certified for SNAP, its 
monthly benefit is computed by subtracting 30 percent of the 
household's net income from the maximum benefit amount to which it is 
entitled. Currently, the maximum monthly SNAP benefit for a family of 
four in the contiguous United States is $649. All eligible one-person 
and two-person households are guaranteed a minimum benefit, which is 
currently $16.
    In Fiscal Year 2013, 41 percent of SNAP households received the 
maximum benefit and five percent received the minimum benefit. The 
average monthly SNAP benefit was $271. SNAP households with children 
received a relatively high average benefit of $410, while households 
with elderly individuals received a relatively low one of $134. One 
reason for the difference in average benefits is the difference in 
average household size: 3.2 people for SNAP households with children, 
compared with 1.3 people for households with elderly individuals. SNAP 
households that include a nonelderly adult with a disability had an 
average monthly SNAP benefit of $204 and households with no elderly 
individuals, individuals with disabilities, or children had an average 
benefit of $195.
Average SNAP Benefit
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Note: These groups are not mutually exclusive.
          Source: Characteristics of Supplemental Nutrition Assistance 
        Program Households: Fiscal Year 2013 (Farson Gray 2014).

    Nonfinancial Eligibility Standards. To be eligible for SNAP, 
individuals must also meet non-financial eligibility standards. For 
example, unauthorized immigrants, nonimmigrant visitors to the United 
States, and some lawful permanent resident noncitizens, are 
categorically ineligible for SNAP. However, lawful permanent resident 
noncitizens are potentially eligible for SNAP benefits if they (1) have 
lived legally in the United States for 5 years or more; (2) are 
children; (3) receive a government benefit because they are blind or 
have a disability; or (4) are members of the U.S. armed forces, are 
veterans, or are dependents of a service member or veteran. Noncitizens 
admitted as refugees are also potentially eligible for SNAP benefits 
for up to 7 years. The income and resources of ineligible noncitizens 
are considered in the eligibility determination of other SNAP household 
members. In Fiscal Year 2013, six percent of SNAP households contained 
a noncitizen and six percent contained a citizen child living with a 
nonparticipating noncitizen adult. (These groups are not mutually 
exclusive.)
    In addition, nondisabled adults age 18 to 49 who are living in 
households without children can receive benefits only if they work or 
participate in qualifying work-related activities. These individuals 
can be exempt from the work requirements if they live in a waiver area 
or have been granted a discretionary exemption by the state. With 
certain exceptions, those not meeting work requirements are restricted 
to 3 months of SNAP benefits during any 36 month period. Approximately 
ten percent of all SNAP participants in Fiscal Year 2013 were 
nondisabled adults aged 18 to 49 who were living in households without 
children.
    Poverty Status of SNAP Households. SNAP effectively targets 
benefits to the neediest households. In Fiscal Year 2013, 83 percent of 
SNAP households had gross monthly incomes at or below the Federal 
poverty guideline. Almost \1/2\ (43 percent) of all SNAP households had 
gross monthly incomes at or below 50 percent of the poverty guideline. 
These households received 57 percent of all SNAP benefits. In contrast, 
only one percent of all benefits went to the five percent of SNAP 
households that had gross monthly income over 130 percent of the 
poverty guideline. More than \1/2\ of these households contained an 
elderly person or a person with a disability and, thus, were not 
subject to gross income limits.
Gross Income as a Percentage of Poverty Guidelines
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Characteristics of Supplemental Nutrition Assistance 
        Program Households: Fiscal Year 2013 (Farson Gray 2014).

    SNAP Household Income. SNAP household income comes from a variety 
of sources, both earned and unearned. In Fiscal Year 2013, the average 
monthly gross income among all SNAP households was $758. Twenty-two 
percent of SNAP households had no gross income when they were certified 
or recertified for SNAP. Thirty-one percent had earned income and 57 
percent had unearned income. Sources of unearned income included Social 
Security (received by 24 percent of SNAP households), SSI (20 percent), 
child support (9 percent), TANF (7 percent), and unemployment 
compensation (4 percent). After deductions, 39 percent of SNAP 
households had no net income and the vast majority of the remainder had 
net income under the Federal poverty guideline. After the standard 
deduction, the most prevalent deduction was for excess shelter costs, 
which was received by 72 percent of SNAP households.
    SNAP Household Composition. Individuals who share a residential 
dwelling and customarily purchase and prepare food together are 
required to apply for SNAP together. Generally, individuals who live 
together but do not purchase and prepare food together may apply as 
separate SNAP households. However, spouses living together must apply 
together and parents must apply with their children (under age 22) who 
reside with them.
    The average SNAP household size in Fiscal Year 2013 was just over 
two people. Fifty-one percent of SNAP households contained just one 
person. In over \1/2\ of these households, the single person either had 
a disability or was elderly. At the other end of the spectrum, seven 
percent of SNAP households had five or more members.
    In Fiscal Year 2013, 87 percent of SNAP participants lived in 
households with a child, an elderly person, or a person with a 
disability--representing 75 percent of all SNAP households. Other key 
facts about SNAP household demographics include the following:

  <bullet> Forty-five percent of SNAP households contained children. 
        These households received 68 percent of all SNAP benefits. The 
        majority of households with children (57 percent) were single-
        adult households. This group accounted for 26 percent of all 
        SNAP households.

  <bullet> Seventeen percent of SNAP households contained elderly 
        individuals. Eighty percent of these were single-person 
        households. Seventy percent received Social Security income, 36 
        percent received SSI, and 86 percent received income from at 
        least one of those two sources.

  <bullet> Twenty percent of SNAP households contained nonelderly 
        individuals with disabilities. Sixty percent of these 
        households were single-person households. A majority (69 
        percent) received SSI and \1/2\ (51 percent) received Social 
        Security income.

  <bullet> Twenty-five percent of SNAP households contained no elderly 
        individuals, individuals with disabilities, or children. These 
        households tended to be single-person households (91 percent), 
        with 59 percent of them having no gross income.

  <bullet> Over 80 percent of SNAP households were in metropolitan 
        areas. Seven percent of SNAP households were in rural areas.
Household Composition and Benefits Received
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Note: These groups are not mutually exclusive.
          Source: Characteristics of Supplemental Nutrition Assistance 
        Program Households: Fiscal Year 2013 (Farson Gray 2014).
State Comparisons of SNAP Households in FY 2013
    The characteristics of SNAP households vary across states.\4\ For 
example, at the national level, 17 percent of all SNAP households had 
incomes that were above the Federal poverty guideline. Across states, 
this percentage ranged from a low of nine percent in California and 
Mississippi to a high of 40 percent in Vermont. Similarly, while 43 
percent of all SNAP households nationwide had monthly gross incomes 
that were less than or equal to 50 percent of the Federal poverty 
guideline, state-level percentages ranged from a low of 11 percent in 
Maine to a high of 46 percent in the Virgin Islands.
---------------------------------------------------------------------------
    \4\ In this section, ``states'' refers to the District of Columbia, 
Guam, and the Virgin Islands as well as the 50 states.
---------------------------------------------------------------------------
    Average SNAP benefits reflect the average state net income and 
household size as well as the higher benefits issued in certain high-
cost states and territories. Accordingly, the average SNAP benefit in 
Guam in Fiscal Year 2013 of $644 was substantially higher than in any 
other state or jurisdiction. Hawaii, Alaska, and the Virgin Islands 
also had higher average benefits of $423, $411, and $392, respectively, 
than any of the 48 contiguous states. Oregon had the lowest average 
SNAP benefit with $223, followed by Massachusetts, Maine, and Vermont, 
which each averaged $230.
    The demographic characteristics of SNAP households also varied by 
state and territory. The percentage of SNAP households with children 
ranged from a low of 34 percent in Oregon and Connecticut to a high of 
68 percent in Guam. The percentage of SNAP households with elderly 
members ranged from seven percent in California, where SSI participants 
do not receive regular SNAP benefits, to 28 percent in New York. Texas 
had the lowest percentage of nondisabled adults aged 18 to 49 living in 
childless households with seven percent, while Oregon had the highest 
percentage at 30 percent.
SNAP QC Database and SNAP Microsimulation Models
    Mathematica's data visualization tool and the SNAP characteristics 
report are just two of the resources available to policymakers who 
strive to understand more about the program and its participants. For 
instance, while the FNS report includes a vast amount of additional 
information on the characteristics of SNAP households, even more 
information can be gleaned from the database on which the report is 
based--the SNAP QC database. It is an edited version of the data 
generated by SNAP's Quality Control System, and the database contains 
detailed demographic, economic, and SNAP eligibility information for a 
nationally representative sample of approximately 50,000 SNAP 
households. The data are edited to ensure consistent measures of SNAP 
household size, income, deductions, and benefit level. The file is 
weighted to match adjusted SNAP program operations data for SNAP 
households, participants, and benefits issued by month and state. The 
program operations data are adjusted to remove benefits issued in error 
or in response to a disaster because these cases are not included in 
the SNAP QC database. The adjusted total number of SNAP households and 
benefits is lower than program operations data by about one percent and 
two percent, respectively. The edited SNAP QC database is publicly 
available via the Department of Agriculture's website,\5\ along with 
documentation describing the data editing process and containing a 
codebook.\6\
---------------------------------------------------------------------------
    \5\ http://www.ers.usda.gov/topics/food-nutrition-assistance/food-
nutrition-assistance-research/extramural-research/national-data-
sets.aspx
    \6\ Filion, Kai, Esa Eslami, Katherine Bencio, and Bruce Schechter. 
``Technical Documentation for the Fiscal Year 2013 Supplemental 
Nutrition Assistance Program Quality Control Database and QC 
Minimodel''. Final report submitted to the U.S. Department of 
Agriculture, Food and Nutrition Service. Washington, D.C.: Mathematica 
Policy Research, October 2014.
---------------------------------------------------------------------------
    Another resource is the set of sophisticated SNAP microsimulation 
models FNS and Mathematica have worked together to develop. These 
models are designed to simulate the effect of various proposed policy 
changes to the program on SNAP household eligibility status, benefit 
amount, and predicted participation decision. Specifically, SNAP 
microsimulation models are used to answer key policy questions, 
including the following:

  <bullet> How many households and individuals are eligible for SNAP 
        benefits under current rules?

  <bullet> How would the number of eligible households and individuals 
        change if program design parameters--such as income eligibility 
        limits, asset limits, maximum benefits, or allowable 
        deductions--were changed?

  <bullet> How would such changes affect estimated participation levels 
        and program costs?

  <bullet> What effect would such changes have on different subgroups 
        of participants, such as elderly individuals or workers?

    One of FNS' microsimulation models is based on the SNAP QC 
database. Another model uses data from the Survey of Income and Program 
Participation and incorporates data from the Current Population Survey 
Annual Survey of Economic Characteristics. Because microsimulation 
models measure differences in eligible households, participating 
households, and benefit amounts between the current program and the 
program under the simulated policy change, they can provide 
policymakers with valuable insights about the potential impacts of 
program changes.
    Taken together, these resources support evidence-based policy 
making through rigorous research, high-quality data, and objective 
analysis to help inform decision making for the future of the SNAP 
program.

    The Chairwoman. Thank you, Ms. Cunnyngham.
    Dr. Mills, please proceed with your testimony.

  STATEMENT OF GREGORY B. MILLS, Ph.D., SENIOR FELLOW, URBAN 
                  INSTITUTE, WASHINGTON, D.C.

    Dr. Mills. Good afternoon, Madam Chair, and Members of the 
Subcommittee. My name is Greg Mills and I am a Senior Fellow at 
the Urban Institute, a nonprofit research organization focused 
on social and economic policy. I thank you for this opportunity 
to describe our recent study on participant churning in SNAP. 
We conducted this research for the Food and Nutrition Service. 
Any views I express are my own as project director, and should 
not be attributed to the Urban Institute, its trustees or its 
funders.
    Churn occurs when a household receiving SNAP exits the 
program, and then reenters within 4 months or less, as defined 
by FNS for this research. Some churn is expected, as when a 
family briefly becomes ineligible through a temporary increase 
in earnings. Churn is a serious concern, however, when the cut-
off in benefits occurs for households that remain eligible, and 
especially for households with children or elderly or disabled 
members, which includes about \2/3\ of churners.
    I will first highlight our major findings, and then turn to 
policy implications. The six states that participated in this 
study; Florida, Idaho, Illinois, Maryland, Texas and Virginia, 
all provided detailed program data. The rates of SNAP churn for 
these states in Fiscal Year 2011 ranged from 17 to 28 percent. 
These estimates indicate the percentage of households receiving 
SNAP benefits at any time during that year, who experienced at 
least one churn spell, that is, a break in participation of 4 
months or less. The causes of churn are complex. Fluctuations 
in the earnings of SNAP recipients appear to play only a 
limited role. In these scenarios of exit and reentry related to 
job gains and losses, the program is functioning as it should.
    The much larger story, however, relates to the process. 
Recipients experience difficulties with required procedures in 
periodic recertifications of their eligibility, or when they 
are to submit an interim report on household changes. Based on 
our focus groups with churners, the difficulties appear to stem 
from three types of factors. First, changes in household 
circumstances such as a move, a car breakdown, or some other 
disruption that caused a recipient to miss a deadline. Second, 
challenging personal characteristics relating to physical or 
mental health, literacy or language proficiency. Third, a lack 
of clarity in agency notices sent to clients, or the failure of 
those notices to reach the client.
    Churn has financial consequences for both agencies and 
households. Agencies incur additional administrative cost to 
the extent that the case requires a new application involving 
two to three times as much case worker effort as a 
recertification. Households lose benefits to the extent that 
they remained eligible during their churn spell. The foregone 
benefits, although a small percentage of a state's annual 
benefit payments can cause significant hardship for the 
affected clients. The added agency costs, about two percent of 
annual administrative costs in the program, represent potential 
budgetary savings.
    So what are some of the key underlying patterns of churn in 
the states we studied? Two-thirds or more of churners are off 
the program for 1 month or less. For a similarly high 
proportion of churning households, the exit occurs at a 
schedule recertification or interim report. About \1/2\ of all 
households that churn appear eligible for SNAP while off the 
program, and thus, experienced a loss of benefits. Churners are 
much more likely than other recipients to have moved within 
state to a new ZIP Code. Households with elderly or disabled 
members are more likely than others to churn, when one focuses 
specifically on households coming due for recertification.
    In closing, I will now turn to some policy implications. 
Our evidence suggests that SNAP churn had adverse consequences 
to both agencies and households that are sufficient to warrant 
policy action. A lower rate of churn is clearly a desirable 
goal. It represents an improvement in benefit access and 
service quality for recipients. Any program changes, however, 
will need to balance improved benefit access with maintaining 
program integrity and containing budgetary cost.
    In each of the six states, we asked local SNAP 
administrators and caseworkers to indicate what aspects of the 
program can reduce churn based on their experience. Here are 
four of their ideas. First, align a household's recertification 
dates for SNAP, TANF and Medicaid. Second, eliminate the 
requirement for a face-to-face interview at recertification. 
Third, use agency call centers to handle routine client 
communications. And fourth, for clients unable to provide 
requested documentation, allow a 30 day grace period during 
which their benefits could be renewed without a complete 
reapplication. These are relatively straightforward procedural 
improvements that many states have implemented, and that others 
could be encouraged to adopt. Unlike more basic changes in 
program eligibility rules, these actions would not require 
difficult tradeoffs between access, integrity and cost. This 
study provides the systematic evidence needed to consider such 
steps.
    Thank you very much.
    [The prepared statement of Dr. Mills follows:]

  Prepared Statement of Gregory B. Mills, Ph.D., Senior Fellow, Urban 
                      Institute, Washington, D.C.*
---------------------------------------------------------------------------
    * The views expressed are those of the author and should not be 
attributed to the Urban Institute, its trustees, or its funders.
---------------------------------------------------------------------------
Understanding the Rates, Causes, and Costs of Churning in the 
        Supplemental Nutrition Assistance Program (SNAP)
    Good afternoon, Madam Chair and Members of the Subcommittee. My 
name is Greg Mills, and I am a Senior Fellow at the Urban Institute, a 
nonprofit research organization focused on social and economic policy. 
It is an honor to appear before you to testify about research we have 
recently completed on participant churning in the Supplemental 
Nutrition Assistance Program, or SNAP. This research was conducted 
under contract to the Food and Nutrition Service (FNS) of the U.S. 
Department of Agriculture. The Urban Institute has a long history of 
policy research for FNS and other Federal agencies on the effectiveness 
of program benefits and services to low-income households. This work 
includes extensive research relating to food and nutrition policy, with 
many studies focusing on SNAP (formerly Food Stamps). I have been the 
project director of the 3 year study I will describe for you today.
    This study examines the rates, causes, and costs of participant 
churn in SNAP. Churn occurs when a household receiving SNAP exits the 
program and then re-enters within 4 months or less, as defined by FNS 
for this research. Some churn is to be expected--as when a temporary 
increase in earnings makes a family briefly ineligible for assistance. 
Churn presents a policy concern, however, when benefits are disrupted 
for households who were continuously eligible. In these situations 
families lose benefits while off the program, with added time and 
expense involved in re-entering. Budgetarily, the pattern of case 
closings and reopenings brings higher state and Federal administrative 
costs. Importantly, about half of the households who churn are families 
with children whose food security is placed at risk.
    Six states participated in the study: Florida, Idaho, Illinois, 
Maryland, Texas, and Virginia. To enable a systematic analysis of churn 
rates and patterns and the associated forgone benefits among churners, 
each state provided administrative datasets with detailed information 
on households participating in SNAP over the period December 2009 
through December 2012. Additionally, data from employer-reported wage 
records in Florida were used to examine the role of earnings 
fluctuations among SNAP participants as a factor leading to churn. To 
explore in greater detail the process of churn and its possible causes, 
our research team conducted site visits to one local office in each 
state. Team members interviewed SNAP administrators and caseworkers and 
representatives of community-based organizations (CBOs); members also 
conducted focus groups with SNAP clients who had recently churned. To 
support an analysis of the costs associated with churn, the team 
obtained from FNS the quarterly financial forms that the six states had 
submitted, as with all other states, in reporting their program 
administrative costs.
    Before providing any further details on the research, I first want 
to highlight our major findings, as follows:

          Estimated rates of churn across the six participating states 
        range from 17 to 28 percent for FY 2011. This represents the 
        percentage of SNAP cases active at any time during that year 
        that experienced at least one churn spell--that is, a break in 
        participation of 4 months or less.
          The causes of churn are complex. Fluctuations in the earnings 
        of SNAP recipients appear to play only a limited role. In those 
        situations, a new job or increased hours at work may properly 
        lead to a cutoff in benefits, as the household becomes 
        ineligible (or may believe they're ineligible or that they can 
        get by without the program). But if this former recipient then 
        loses the new job, or comes to realize that they're unable to 
        make ends meet off the program, they may reapply within several 
        months.
          The much larger story, however, is that procedural 
        difficulties experienced by participants cause churn. These 
        problems typically occur at the point of a periodic agency 
        recertification of the household's eligibility or when the 
        recipient is to submit a required interim report on household 
        changes that might affect their monthly benefit. Procedural 
        difficulties appear to stem from a combination of interrelated 
        factors:

    <bullet> Changes in household circumstances other than earnings, 
            such as a move or a change in the number of individuals 
            living and eating together in the household.

    <bullet> Challenging personal characteristics and stressors, 
            relating to physical or mental health, literacy, or 
            language proficiency.

    <bullet> Lack of clarity in agency notices sent to clients or the 
            failure of those notices to reach the client.

          Churn has financial consequences to both agencies and 
        clients. Agencies incur additional administrative costs, as re-
        openings require a new application, involving two to three 
        times as much caseworker effort as a recertification. Clients 
        lose benefits to the extent that churners have remained 
        benefit-eligible during their churn spell. These estimated 
        effects are small in proportional terms, in the range of one to 
        five percent of annual administrative costs or annual benefit 
        payments. The forgone benefits do, however, cause significant 
        hardship for the affected clients.
          The added agency costs represent a potential saving of both 
        Federal and state administrative costs, if churn can be 
        reduced.

    I'll now provide additional detail on the research, focusing on the 
following four areas: first, on the rates and patterns of churn; 
second, on staff, client, and community perspectives on churn; third, 
on specific household characteristics and circumstances associated with 
churn; and fourth, on the financial consequences of churn, in costs to 
agencies and in benefits lost to clients. I will then turn to the 
implications of this research for program policy.

    How do the rates and patterns of churn differ by state?

  <bullet> As shown in Figure 1, the estimated rates of churn for 
        Fiscal Year (FY) 2011, ranging from 17 to 28 percent across the 
        six states, are based on analysis of state-provided case-level 
        SNAP participation data. The annual rate of churn is the number 
        of households experiencing a churn spell that occurred wholly 
        or partly within the year as a percentage of all households 
        receiving SNAP benefits at any time during the year.

  <bullet> Most churners (from 62 to 79 percent by state) are off the 
        program for 1 month or less. See Table 1. More detailed 
        analysis in three of these states indicates that \1/3\ or more 
        of all churners are off the program for less than 1 month.

  <bullet> For a very high proportion of churning households (ranging 
        by state from 66 to 90 percent), the precipitating exit occurs 
        at the time of a scheduled recertification or a required 
        interim report. See Figure 2.

  <bullet> Approximately \1/3\ to \1/2\ of all households that churn 
        (from 33 to 53 percent among the states) were likely benefit-
        eligible while off the program, and thus experienced a loss of 
        benefits they were entitled to receive. See Table 2. This is 
        based on their case not having been closed for a specific 
        reason of ineligibility, with no change in their household 
        composition and little or no change in their income between 
        exit and re-entry. Those off the program for 1 month or less 
        are somewhat more likely than other churners to have been 
        benefit-eligible.

    What are the perspectives on SNAP churn among clients, agencies, 
and community-based organizations?

  <bullet> SNAP clients who have recently churned indicated in focus 
        groups that they experienced a great deal of anxiety when they 
        lost their SNAP benefits, even if for a short period, as the 
        benefit loss was unexpected. Some clients first became aware 
        that their benefits had been stopped when they were attempting 
        to purchase groceries.

  <bullet> In addition to experiencing food insecurity, the loss of 
        benefits led to broader financial insecurity for SNAP churners. 
        In having to commit more of their scarce income for food, 
        churners were less able to pay important bills such as their 
        utilities or rent.

  <bullet> Churn sometimes occurred when SNAP clients got a new job 
        that was lost quickly owing to illness or lack of child care. 
        In related instances, churn occurred when the household's 
        income went up for short period because of seasonal employment 
        or overtime pay.

  <bullet> Procedural issues often led to churn. The most frequently 
        cited example was nonresponse to a recertification notice. 
        Sometimes a SNAP client simply did not receive the notice 
        because it was sent to the wrong address or the client never 
        informed the agency of an address change. Other times, clients 
        never responded because they were experiencing personal 
        difficulties, they did not understand the notice, they were 
        unable to use the online resources, or they were unable to 
        respond in person because of transportation issues.

  <bullet> SNAP workers and CBO representatives described changes in 
        policy or procedure that they believed could reduce churn. 
        These steps were generally aimed at either reducing the client 
        burden at recertification or providing more responsive customer 
        service.

    What specific household characteristics and circumstances are 
associated with churning?

  <bullet> The types of SNAP households more likely to churn within a 
        given year are those with household heads who are younger or 
        black, with more members, and with neither elderly, disabled, 
        nor child members, all other things equal.

  <bullet> Regarding the presence of income, the households at greatest 
        risk of churn are those with gross income above 100 percent of 
        the poverty level and those with no earned or unearned income 
        at all. These two distinct high-risk groups suggest very 
        different storylines for churners: one that involves gaining 
        more income and leaving SNAP because of benefit ineligibility 
        (or perceived ineligibility) and one that involves leaving SNAP 
        as a result of procedural noncompliance, stemming from 
        challenging individual and household circumstances and 
        complicating aspects of the recertification process or required 
        interim reports.

  <bullet> Pre- and post-churn earnings patterns as shown in SNAP case 
        records and as reported by employers in quarterly wage data 
        (available for this study only in Florida) provide little 
        indication that changes in earnings are a significant cause of 
        churn, particularly among those who churn for 1 month or less.

  <bullet> Although local-area characteristics appear to have small 
        effects on churn, households are more likely to churn if their 
        area has more per-capita community food providers (such as food 
        pantries). These may be high-poverty areas where both clients 
        and agencies are challenged to keep pace with required 
        reporting, notices, and casework.

  <bullet> Compared to non-churners, households that churn tend to have 
        experienced changes in circumstances that could affect their 
        ability to recertify. For instance, churners are much more 
        likely than non-churners to have moved within state to a new 
        ZIP Code before a recertification. (Out-of-state moves were not 
        observable in the data.) The disruption of moving may make it 
        more difficult to comply with recertification procedures. Or, 
        participants who move may be less likely to receive notice of 
        an upcoming recertification, as they may not have reported 
        their address change to the SNAP office (or did so, but the 
        agency did not act on the change).

  <bullet> Other changes associated with churn at recertification 
        include changes in household composition, employment, and 
        earnings. All these factors could affect benefit eligibility, 
        but the low gross earnings amounts indicated in the SNAP case 
        records suggest that household instability (versus 
        ineligibility) plays a key role in churn. With respect to 
        household composition, any change (upward or downward) in 
        household size (number of adults or children) increases the 
        likelihood of churn.

  <bullet> Households with elderly or disabled members are less likely 
        than others to churn within the ensuing year, as their longer 
        certification periods make them less likely than others to face 
        a recertification or required interim report in the upcoming 12 
        months. When one focuses specifically on households coming due 
        for recertification, households with elderly or disabled 
        members are more likely than others to churn. This pattern 
        suggests that improvements to the recertification process 
        itself (rather than any further lengthening of their 
        certification periods) are needed for such cases.

    What costs are associated with churn, for both agencies and 
clients?

  <bullet> Churn imposes costs both to program clients and to agencies 
        administering the program. For agencies, churn increases costs 
        by requiring agencies to process additional applications from 
        households reentering the program. For clients, costs include 
        the loss of benefits that they otherwise would have received, 
        the administrative burdens involved in the steps taken to 
        reenter the program, and other burdens related to coping during 
        the period without benefits.

  <bullet> Churn imposes added certification costs because 
        reapplications for households returning to the program take 
        more staff time than recertifications. Staff interview 
        responses suggest that the reapplication procedures for 
        churners at reentry are essentially the same as for an initial 
        application for benefits. The time required to process the 
        reapplication is typically two to three times as much as a 
        recertification or interim report. One thus expects that churn 
        would lead to a net increase in the staff time spent on 
        certification-related activities.

  <bullet> On average among the six states, the certification costs 
        associated with churn are approximately $80 for each instance 
        of churn requiring a full reapplication. This amount varies 
        widely among states, from less than $30 to more than $130. 
        These estimates are based on analysis of statewide 
        administrative cost data and churn spells identified using 
        administrative datasets, and they reflect the assumption that a 
        full reapplication is twice as costly as a recertification. 
        Higher estimates of the added costs of churn result if one 
        assumes that a reapplication is three times the cost of a 
        recertification.

  <bullet> The added annual certification costs associated with churn 
        range from $0.1 million in Idaho to $6.0 million in Illinois, 
        equaling an estimated one to four percent of total 
        certification costs in the states studied. To derive these 
        estimates, we applied the certification cost per instance of 
        churn to the number of instances of churn in each state for 
        households considered likely benefit-eligible and where churn 
        appears to have led to a full reapplication.

  <bullet> Churn also leads to a partial cost offset through a 
        reduction in case maintenance costs. This is associated with 
        the time spent off the program by churning households that are 
        classified as likely benefit-eligible. When combined with the 
        added certification costs, the estimated net administrative 
        costs of churn for states range annually from $0.1 million in 
        Idaho to $3.9 million in Illinois.

  <bullet> The annual amount of SNAP benefits forgone by households 
        that churn ranges from $2.2 million in Idaho to $108.2 million 
        in Florida. These estimates assign a benefit loss only to those 
        households considered likely benefit-eligible during their 
        churn spell.

  <bullet> Other notable costs to churning households are not included 
        in the above estimate of forgone benefits. Households who churn 
        must devote time and effort to reapply for SNAP benefits or 
        otherwise rectify the situation that led to their case closure. 
        They also face material hardship when they do not receive SNAP 
        benefits, relating not only to shortages of food but also to 
        housing insecurity (which can occur when rent money must be 
        used for food), an inability to meet other basic expenses, and 
        a general increase in anxiety and stress. In addition, some of 
        the steps that they take to cope with the loss of benefits 
        involve out-of-pocket costs, such as the travel cost to food 
        pantries.
Policy Implications
    The quantitative and qualitative evidence examined in this research 
suggests that SNAP churn has adverse consequences to agencies and 
clients that are sufficient to warrant consideration of actions to 
reduce churn. One should recognize that some amount of churn is 
unavoidable in light of fluctuating circumstances among low-income 
households. Decisions on whether to adopt changes in program policy or 
administrative procedure to reduce churn will involve trade-offs among 
multiple objectives: program integrity, benefit access, and budgetary 
cost. A lower rate of churn is clearly a desirable goal; it represents 
an improvement in benefit access and service quality for program 
clients. A lower churn rate may be very difficult to achieve, however, 
without some risk of compromising other objectives, such as maintaining 
low error rates and keeping total program costs within budget 
constraints. The information in this study is a first step in providing 
the systematic evidence needed to inform such choices.
    The perspectives of local SNAP administrators and caseworkers are 
noteworthy, as they were asked to comment on aspects of program and 
policy that can reduce churn, based on their experience. Here were some 
of the factors they cited as enabling them to prevent churn:

  <bullet> Align the recertification dates for SNAP, TANF, and 
        Medicaid. A SNAP client receiving multiple benefits then faces 
        fewer recertification deadlines over the course of a year.

  <bullet> Eliminate the requirement for a face-to-face interview at 
        recertification. As permitted under state option, clients can 
        be interviewed by telephone or by designated community-based 
        organizations (such as food banks) rather than having to visit 
        the SNAP office.

  <bullet> Use call centers to handle routine client communications 
        with the agency. This enables clients to notify the agency of 
        an address change, to clarify information provided in a written 
        notice from the agency, and to inquire about the status of a 
        pending recertification, including whether the agency is 
        awaiting documentation from the client.

  <bullet> Allow clients a ``30 day grace period'' for failing to 
        provide required documentation at recertification or an interim 
        report (as allowed at state option under a ``break-in-service'' 
        or ``re-instatement of eligibility'' waiver from FNS). If 
        clients miss a deadline, they are allowed 30 additional days to 
        submit documentation without having to go through a complete 
        reapplication to renew their benefits. At a minimum, this would 
        reduce the agency administrative costs and client burden 
        associated with restoring benefits.

    We were unable to assess the impact of such program changes on 
rates of churn, as the study states did not provide opportunities for 
before-and-after measurement. However, these are relatively 
straightforward procedural improvements that many states have 
implemented and that, unlike more basic changes in program eligibility 
rules, would not require difficult tradeoffs on matters of integrity, 
access, and cost.
Figure 1. Rate of Churn by State, FY 2011 (%)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Urban Institute tabulations of state administrative 
        data for FY 2011.
          Note: The rate of churn is the percentage of households 
        receiving SNAP benefits at any time during the year who 
        experienced at least one break in participation of 4 months or 
        less that started and/or ended during the year.

      Table 1. Distribution of Churners by Months off SNAP, FY 2011
------------------------------------------------------------------------
                                Churners by months off SNAP (%)
                     ---------------------------------------------------
        State          One month                   Three
                        or less     Two months     months    Four months
------------------------------------------------------------------------
Florida                        74           11            8            7
Idaho                          62           15           12           11
Illinois                       67           19            8            6
Maryland                       68           15            9            8
Texas                          79           10            7            5
Virginia                       77            9            7            6
------------------------------------------------------------------------
Source: Urban Institute tabulations of state administrative data for FY
  2011.

Figure 2. Among Cases that Churn, Percentage that Churn at 
        Recertification or Required Interim Report
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Urban Institute tabulations of state administrative 
        data for FY 2011.

   Table 2. Distribution of Churners by Likely SNAP Benefit Eligibility During Time Off SNAP: All Churners and
                                Churners with One Month or Less off SNAP, FY 2011
----------------------------------------------------------------------------------------------------------------
                              All churners (%)                         Churn spell of 1 month or less (%)
            ----------------------------------------------------------------------------------------------------
   State       Likely       Likely                                Likely       Likely
              benefit-     benefit-    Indeterminate    Total    benefit-     benefit-    Indeterminate   Total
              eligible    ineligible    eligibility              eligible    ineligible    eligibility
----------------------------------------------------------------------------------------------------------------
   Florida           50           5             45        100           56           4             41        100
     Idaho           34          17             49        100           43          10             47        100
  Illinois           48           0             51        100           52           1             48        100
  Maryland           46           4             50        100           51           4             45        100
     Texas           33           7             60        100           36           5             59        100
  Virginia           53           7             40        100           60           3             38        100
----------------------------------------------------------------------------------------------------------------
Source: Urban Institute tabulations of state administrative data for FY 2011.
Notes: Likely benefit-ineligible individuals are rarely identified in Illinois due to missing information for
  most cases on the reason for closure.

    The Chairwoman. Thank you, Dr. Mills.
    Dr. Ziliak, please proceed with your testimony.

STATEMENT OF JAMES P. ZILIAK, Ph.D., FOUNDING DIRECTOR, CENTER 
FOR POVERTY RESEARCH; PROFESSOR AND CAROL MARTIN GATTON ENDOWED 
                            CHAIR IN
            MICROECONOMICS, DEPARTMENT OF ECONOMICS,
             UNIVERSITY OF KENTUCKY, LEXINGTON, KY

    Dr. Ziliak. Madam Chair, Ranking Member McGovern, and 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today.
    My name is James Ziliak, I hold the Carol Martin Gatton 
Endowed Chair in Microeconomics at the University of Kentucky, 
where I am also Founding Director of the Center for Poverty 
Research. For the past 2 decades, I have conducted and 
published peer-reviewed research on the U.S. safety net, 
including SNAP and its predecessor, the Food Stamp Program. My 
testimony today draws from my research on changes in SNAP 
participation that can be found in a forthcoming book I am co-
editing at Stanford University Press entitled, SNAP Matters: 
How Food Stamps Affect Health and Well Being.
    SNAP has become a central component of the social safety 
net in the U.S. Today, one in seven Americans receive 
assistance from SNAP at a cost of $75 billion, making it the 
second largest means-tested transfer program in terms of cost, 
after Medicaid. From Fiscal Year 2000 to Fiscal Year 2012, the 
number of participants increased 171 percent and inflation-
adjusted spending by 286 percent. What accounts for this 
growth? As I demonstrate in my research, the weak U.S. economy 
reflected by higher unemployment, lower incomes, and higher 
income inequality was the main reason the number of Americans 
on SNAP grew since 2000.
    That SNAP is highly responsive to changes in the 
macroeconomy shows that it functions effectively and 
efficiently as a key anti-recessionary policy tool. That is, as 
incomes fall during a recession, participation in SNAP rises to 
bolster food consumption for children and adults. This past 
decade of near-uninterrupted growth in participation is 
unprecedented in the program's history. By most measures, the 
recession of 2001 was mild, and past experience would have 
dictated a decline of participation in the mid-2000s. This did 
not happen.
    The increase in SNAP in the middle of the decade stemmed in 
part from stagnant household incomes, and a continued widening 
of the distribution of income, making it increasingly difficult 
for low income workers to make ends meet. Participation then 
accelerated with the onset of the Great Recession as millions 
of Americans lost work. But another important factor that led 
to the growth in participation since 2000 was changes in 
Federal and state SNAP policy that improved program access and 
delivery to needy Americans. In the aftermath of the 1996 
welfare reform and concurrent expansions of the Earned Income 
Tax Credit, scores of former welfare recipients entered the 
labor force, and even though many remained eligible for food 
stamps, they left that program as well, potentially exposing 
them and their children to heightened food insecurity. The 
policy reforms, including the 2002 Farm Bill, were designed to 
counteract the declining participation among eligibles, in 
part, to foster the transition from welfare to work for former 
AFDC recipients. The reforms conferred greater flexibility to 
states to improve program take-up and administration, and they 
worked.
    During the same period, there were countervailing 
demographic forces on the SNAP caseload. America is aging, and 
given that seniors are much less likely to participate in SNAP, 
this puts downward pressure on growth. Moreover, in recent 
decades, increasing numbers of Americans matriculated from high 
school and college, and since higher education leads to higher 
incomes, more educated population also leads to lower SNAP use. 
On the other hand, more children are raised in single or 
multigenerational households, who tend to be more poor and more 
likely to need assistance. Additionally, there has been a rise 
in disability which also puts upward pressure on SNAP. 
Combined, however, my research shows that the changing 
demographics of the American household have actually helped to 
keep the growth of SNAP in check.
    At the same time, these changing demographic forces have 
led to a changing composition in SNAP households. While the 
majority of recipients continue to be children, seniors and the 
disabled, that is, those persons not expected to work, SNAP has 
increasingly evolved into a work support for households whose 
head works full-year, has at least some college education, and 
lives in a household with annual incomes in near poverty.
    In conclusion, SNAP is operating to combat hunger and 
poverty during periods of economic hardship as Congress 
intended. It is the second most effective antipoverty program 
in our safety net for the nonelderly, behind EITC, and is more 
effective than the EITC at lifting families out of deep 
poverty. Even though the program is at record highs in terms of 
participation and cost, it is also functioning more efficiently 
than ever with record low error rates and benefit 
determination, having fallen by over 45 percent in the last 
decade alone. SNAP matters more than ever in the safety net.
    Thank you very much.
    [The prepared statement of Dr. Ziliak follows:]

Prepared Statement of James P. Ziliak, Ph.D., Founding Director, Center 
 for Poverty Research; Professor and Carol Martin Gatton Endowed Chair 
  in Microeconomics, Department of Economics, University of Kentucky,
                             Lexington, KY
Understanding the Growth of SNAP
    Chairwoman Walorski, Ranking Member McGovern, and Members of the 
Subcommittee on Nutrition, I thank you for the opportunity to appear 
before you today to discuss the Supplemental Nutrition Assistance 
Program (SNAP). My name is James Ziliak. I hold the Carol Martin Gatton 
Endowed Chair in Microeconomics at the University of Kentucky, where I 
am also the Founding Director of the Center for Poverty Research. The 
Center is a nonpartisan, nonprofit research organization housed within 
the Gatton College of Business and Economics at the University of 
Kentucky. For the past 2 decades I have conducted and published peer-
reviewed research on the U.S. safety net, including SNAP and its 
predecessor, the Food Stamp Program. I recently served as a member of 
the Institute of Medicine's Committee on Examination of the Adequacy of 
Food Resources and SNAP Allotments, and as Chair of the National 
Academies of Science, Committee on National Statistics Workshop on 
Research Gaps and Opportunities on the Causes and Consequences of Child 
Hunger. I edited the books Welfare Reform and its Long Term 
Consequences for America's Poor (Cambridge University Press, 2009) and 
Appalachian Legacy: Economic Opportunity after the War on Poverty 
(Brookings Institution Press, 2012). I am also co-editor of Income 
Volatility and Food Assistance in the United States (W.E. Upjohn 
Institute, 2008) and the forthcoming book SNAP Matters: How Food Stamps 
Affect Health and Well Being (Stanford University Press, 2015).
    My testimony today draws primarily from my research on changes in 
SNAP participation, but also touches upon some of the results from the 
other contributors in the forthcoming book SNAP Matters.\1\ 
Collectively, the book explores how and why the program has grown over 
time; how it impacts the well-being of participants; and its 
interconnections with the broader safety net. Key findings of the book 
include:
---------------------------------------------------------------------------
    \1\ Ziliak, James P. 2015. ``Why Are So Many Americans on Food 
Stamps? The Role of the Economy, Policy, and Demographics,'' In SNAP 
Matters: How Food Stamps Affect Health and Well Being, J. Bartfeld, C. 
Gundersen, T. Smeeding, and J. Ziliak, editors, Redwood City, CA: 
Stanford University Press.

  <bullet> SNAP is highly responsive to macroeconomic pressures as well 
        as to state policy choices intended to enhance access among 
        low-income households, helping families to provide food in 
---------------------------------------------------------------------------
        times of economic need.

  <bullet> SNAP has become one of the most effective antipoverty 
        programs overall, especially at lifting non-elderly households 
        with children out of deep poverty.

  <bullet> SNAP is well integrated with the broader safety net, 
        including children's access to school meals, and filling in 
        residual gaps remaining after other forms of assistance.

  <bullet> Higher SNAP benefits reduce the risk of food insecurity.

  <bullet> SNAP does not appear to contribute to obesity.

  <bullet> SNAP has long-term benefits on health.

  <bullet> Most SNAP recipients spend more on food than their benefit 
        amount over the course of a year, suggesting that benefits are 
        not distorting food choices, including toward purchases of 
        items like sugar-sweetened beverages.

Below I elaborate on these findings, and consistent with the theme of 
this hearing, I place a particular emphasis on understanding changes in 
SNAP participation over time, where I argue that the weak U.S. 
economy--as reflected by higher unemployment, lower incomes, and higher 
income inequality--was the main reason the number of Americans on SNAP 
grew since 2000.
Why are so many Americans on SNAP?
    SNAP has become a central component of the social safety net in the 
United States. Today, one in seven Americans receive assistance from 
SNAP at a cost approaching $80 billion, making it the second largest 
means-tested transfer program in terms of cost after Medicaid. From FY 
2000-FY 2012 the number of participants increased 171 percent and 
inflation-adjusted spending by 286 percent. What accounts for this 
growth? In my research I use data from the Annual Social and Economic 
Supplement of the Current Population Survey spanning 1980-2011 to 
examine the influence of the economy, both cyclical forces from the 
labor market and secular trends in income inequality; changes in 
Federal and state policies, both directly affecting SNAP and those 
indirectly affecting SNAP such as welfare reform and the Earned Income 
Tax Credit; and the changing demographics of the American household.

    Nearly 50 percent of the growth in SNAP after the onset of the 
Great Recession in 2007 was due to the weak economy and widening 
inequality. The economy explained an equally robust 45 percent of the 
growth in SNAP after 2000.

    That SNAP is highly responsive to changes in the macroeconomy shows 
that SNAP functions effectively and efficiently as a key anti-
recessionary policy tool. That is, as incomes fall during a recession, 
participation in SNAP rises to bolster food consumption of children and 
adults. This is made transparent in Figure 1, which depicts changes in 
the fraction of persons on SNAP since 1980 along with changes in the 
unemployment rate. The gray shaded regions identify years that contain 
an economic recession as determined by the independent National Bureau 
of Economic Research. Figure 1 shows the buoyancy of the caseload with 
the business cycle, especially from 1980 to 1999, with participation 
rising during recessions and declining during expansions. However, the 
past decade of near uninterrupted growth in participation is 
unprecedented in the program's history. By most measures the recession 
of 2001 was mild, and with declining unemployment in the aftermath of 
the recession, past experience would have dictated a decline in 
participation in the mid 2000s. This did not happen. Participation then 
accelerated with the onset of the Great Recession as millions of 
Americans lost work.
Figure 1: Trends in SNAP Participation and Unemployment Rate
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Author's calculations using CPS ASEC and BLS data.

    Part of the reason that SNAP participation continued to increase in 
the mid 2000s stemmed from stagnant household incomes and a widening 
distribution of income, which made it increasingly difficult for low-
income workers to make ends meet. These trends are seen in Figure 2, 
which depicts inflation-adjusted median household income is used to 
signify how a ``typical'' household is faring, and the ratio of persons 
in the 90th percentile of incomes to persons in the 10th percentile, 
which is a standard measure of inequality. That is, households above 
the 90th percentile are in the ``Top 10 percent'' and households below 
the 10th percentile are in the ``Bottom 10 percent.'' The figure shows 
real incomes fell for much of period since 2000, and there was a sharp 
uptick in inequality.
Figure 2: Trends in the Level and Inequality of Household Income
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Author's calculations using CPS ASEC data.

    However, given the overwhelming historical evidence on SNAP, we do 
expect that as the economy continues to improve in the coming years, 
participation and subsequently the cost of SNAP will ``automatically'' 
decline as families are no longer in need of assistance.\2\ Glimmers of 
this are seen in Figure 1 where growth in participation tapers off at 
the end of the period, as well as in recent tallies of administrative 
data from USDA that shows there are 1.5 million fewer persons on SNAP 
in November 2014 (the most recent data) than the peak in December 
2012.\3\
---------------------------------------------------------------------------
    \2\ This prediction is corroborated by independent analyses of data 
from the Survey of Income and Program Participation by Ganong and 
Liebman (2013). Indeed, they find that the local macroeconomy accounted 
for closer to \2/3\ of the growth in SNAP after 200. See Ganong, P., 
and J. Liebman. 2013. ``The Decline, Rebound, and Further Rise in SNAP 
Enrollment: Disentangling Business Cycle Fluctuations and Policy 
Changes.'' National Bureau of Economic Research Working Paper 19363.
    \3\ http://www.fns.usda.gov/sites/default/files/pd/
34SNAPmonthly.pdf. See also Rosenbaum, D., and B. Keith-Jennings. 2015. 
``SNAP Costs Declining, Expected to Fall Much Further: Trend Reflects 
Recent Benefit Reduction and Lower Caseloads.'' Center on Budget and 
Policy Priorities, Washington D.C., February 9.

    Almost 30 percent of the growth in SNAP since 2007 was due to 
changes in Federal and state SNAP policy, and this fraction rises to 35 
---------------------------------------------------------------------------
percent going back to 2000.

    Another important factor that led to the post-2000 growth of SNAP 
was changes in policy affecting program eligibility and access. Basic 
eligibility for SNAP benefits is determined by having monthly gross 
income below 130 percent of the poverty guideline for a given household 
size and monthly net income (gross income less deductions) that does 
not exceed 100 percent of that guideline. Households with an elderly or 
disabled person are exempt from the gross income test. In addition to 
the two income tests, there is a liquid asset test of $2,000 ($3,250 
for households with a disabled person or someone age 60 or older), and 
a vehicle value test of $4,650. There is also ``categorical'' 
eligibility for SNAP conferred upon recipients of cash assistance from 
the welfare program Temporary Assistance for Needy Families (TANF) or 
the disability program Supplemental Security Income (SSI).
    In 1996, Congress passed and President Clinton signed into law, the 
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 
(PRWORA, also known as welfare reform), which eliminated the welfare 
program Aid to Families with Dependent Children (AFDC) and created 
TANF. PRWORA directly affected SNAP as it eliminated eligibility for 
most legal permanent aliens and for convicted drug felons; it limited 
benefits to 3 months out of any 36 month period for able-bodied adults 
without dependents (ABAWDs) between the ages of 18 and 50 working less 
than 20 hours per week or not meeting other work requirements; it 
reduced the maximum benefit and froze many deductions used in 
calculating net income; it allowed states to sanction households for 
noncompliance with TANF requirements or child support payments; and it 
mandated that states adopt the Electronic Benefit Transfer (EBT) 
replacing paper coupons with debit cards.\4\
---------------------------------------------------------------------------
    \4\ Gabor, V., and C. Botsko. 1998. ``State Food Stamp Policy 
Choices under Welfare Reform: Findings of 1997 50-State Survey.'' 
Health Systems Research, Washington, D.C. Report submitted to U.S. 
Department of Agriculture, Food and Nutrition Service.
---------------------------------------------------------------------------
    Participation in food stamps plummeted over 40 percent in the last 
half of the 1990s, most of which was due to the growing economy at the 
time.\5\ At the same time, however, there was a dramatic 25 percent 
decline in participation among eligible families and individuals in the 
wake of the 1996 welfare reform.\6\ That is, as families left the AFDC 
program in the late 1990s, they also left the Food Stamp Program, even 
though they remained eligible for food assistance.
---------------------------------------------------------------------------
    \5\ Figlio, D., C. Gundersen, and J. P. Ziliak. 2000. ``The Effects 
of the Macroeconomy and Welfare Reform on Food Stamp Caseloads.'' 
American Journal of Agricultural Economics 82(3): 635-641.
    \6\ Leftin, J., E. Eslami, and M. Strayer. 2011. Trends in 
Supplemental Nutrition Assistance Program Participation Rates: Fiscal 
Year 2002 to Fiscal Year 2009. Mathematica Policy Research, Washington, 
D.C. Report submitted to U.S. Department of Agriculture, Food and 
Nutrition Service.
---------------------------------------------------------------------------
    The policy reforms, starting around 2000 and continuing with the 
2002 Farm Bill, were designed to counteract the declining participation 
among eligibles, in part to foster the transition from welfare to work 
for former AFDC recipients. The reforms conferred greater flexibility 
to states to improve program take-up and administration, including 
expanded vehicle asset tests; expanded broad-based categorical 
eligibility, which allowed states to utilize more generous TANF asset 
and gross-income tests to determine eligibility (though recipients 
still had to pass the net income test and other program requirements); 
restored eligibility for legal aliens previously excluded by the 1996 
welfare reform; and expanded the option for simplified reporting, which 
allowed states to relax the frequency and form (i.e., phone or online) 
of benefit recertification. Not all of the early 2000s reforms made 
access easier; notably, most states increased the frequency of benefit 
recertification in order to reduce error rates, and a few states 
adopted policies such as fingerprinting.
    As part of the American Recovery and Reinvestment Act of 2009, 
Congress increased average benefits by 13.6 percent, and both before 
and after the onset of the Great Recession, many states received 
statewide waivers from the ABAWD provision allowed under the 1996 
welfare law because of excessively high unemployment rates. The 
expanded benefits expired at the end of 2013, and because of the 
improving economy, the statewide ABAWD waiver option will expire for 
most states by the end of this year.\7\ Both reduced benefits and 
reduced eligibility among ABAWDs are predicted to lead to declines in 
SNAP participation.
---------------------------------------------------------------------------
    \7\ Bolen, E. 2015. ``Approximately 1 Million Unemployed Childless 
Adults will Lose SNAP Benefits in 2016 as State Waivers Expire: 
Affected Individuals are Very Poor; Few Qualify for Other Help.'' 
Center on Budget and Policy Priorities, Washington, D.C., February 26.

    Other policies affecting low-income families such as the 1996 
welfare reform, expanded EITC, and higher state and Federal minimum 
wages had only a minimal effect on SNAP use since 2000, accounting for 
---------------------------------------------------------------------------
less than five percent of the growth.

    There are a host of other policies that could potentially affect 
whether or not an individual or household decides to participate in 
SNAP. As mentioned, recipients of AFDC were categorically eligible for 
food stamps, and in the early 1990s many states applied to the U.S. 
Department of Health and Human Services for waivers from Federal 
welfare rules under Section 1150 in order to experiment with their AFDC 
programs. These waivers included time limits, work requirements, and 
sanctions, which were expected to make AFDC less accessible, as well as 
expanded earnings disregards and asset limits, each of which were 
expected to complement welfare and work. At the same time, as part of 
the tax reforms of 1986, 1990, and 1993, and in the 2009 ARRA, the 
generosity of the EITC was expanded. There is strong evidence that the 
EITC stimulated employment,\8\ especially among single mothers, and 
because eligibility and benefits for SNAP are means-tested, SNAP was 
expected to fall in response to the higher EITC benefits. Likewise, 
since 1981, Congress has raised the minimum wage three times (1989, 
1996, 2007), and many states have acted independently to raise their 
respective minimum wages. Again, like the EITC, a higher minimum wage 
makes work more attractive, and reduces SNAP benefits, and these 
periodic changes were expected to lead to reductions in SNAP 
participation. My research shows that while all these predictions are 
borne out in the data, their influence on overall SNAP participation 
was small in comparison to the business cycle and SNAP policy.
---------------------------------------------------------------------------
    \8\ Meyer, B. and D. Rosenbaum. 2001. ``Welfare, the Earned Income 
Tax Credit, and the Labor Supply of Single Mothers.'' Quarterly Journal 
of Economics 116(3): 1063-1114.

    The changing demographic landscape, including the aging of the 
population, is putting downward pressure on SNAP participation. SNAP 
would have been five percent higher in 2011 than in 2000 in the absence 
---------------------------------------------------------------------------
of changing demographics.

    The past several decades have witnessed significant demographic 
changes affecting the American family, ranging from the aging of the 
population to the rise of out-of-wedlock childbearing, and these forces 
have differential effects on SNAP participation, some leading to 
increases and some to decreases.
    The U.S. population is aging; however, eligible seniors are much 
less likely to participate in the program than younger persons--roughly 
35 percent of eligible seniors receive SNAP, compared to the overall 
take-up rate of 75 percent.\9\ This implies that population aging is 
likely to put downward pressure on participation going forward. 
Likewise, since the 1970s there have been significant increases in the 
fraction of adults completing high school and some college. Because 
higher incomes are associated with higher education attainment, we 
expect the secular growth of education to put downward pressure on SNAP 
growth.
---------------------------------------------------------------------------
    \9\ Leftin, et al. (2011).
---------------------------------------------------------------------------
    Weighed against this demographic down-shift are countervailing 
forces from growth in the fraction of births to unwed mothers, which 
increased from 15 percent in 1980 to 40 percent by the mid-2000s.\10\ 
Because single-mother families are on average more likely to be poor 
than married or cohabiting families, the rise in lone-parent families 
should put upward pressure on SNAP growth. Concurrent with the rise of 
out-of-wedlock childbearing has been growth in the fraction of multi-
generational households. A multi-generation household is one that 
contains two or more adult generations, with or without a grandchild, 
or a grandparent and grandchild household (``skipped generations''). 
These families tend to be poorer, more likely to be food insecure, and 
thus more likely to participate in SNAP.\11\ Likewise, the significant 
growth in disability, both in the Supplemental Security Income and 
Social Security Disability Income programs, is another secular trend 
causing the increase in SNAP caseloads.\12\ SSI recipients are 
automatically eligible for SNAP, and while households receiving DI must 
still meet income and asset tests, those limits are higher than those 
for households with no disabled persons.
---------------------------------------------------------------------------
    \10\ Cancian, M., and D. Reed. 2009. ``Changes in Family Structure, 
Childbearing, and Employment: Implications for the Level and Trend in 
Poverty.'' In M. Cancian and S. Danziger, Eds, Changing Poverty, 
Changing Policies. New York: Russell Sage Foundation, 92-121.
    \11\ Ziliak, J. P., and C. Gundersen. Forthcoming. 
``Multigenerational Families and Food Insecurity,'' Southern Economic 
Journal.
    \12\ Autor, D. 2011. ``The Unsustainable Rise of the Disability 
Rolls in the United States: Causes, Consequences, and Policy Options.'' 
NBER Working Paper 17697.
---------------------------------------------------------------------------
    My research suggests that demographic trends--population aging, 
increased education attainment, smaller households with fewer children, 
and migration from rural to metro areas--have dampened SNAP 
participation and kept its growth in check.

    SNAP has evolved increasingly into a work support for household's 
whose head works full-year, has at least some college education, and is 
near poor.

    The composition of households receiving SNAP is changing. Figure 3 
presents trends in the age composition of households receiving SNAP in 
three age groups--children under age 18, adults age 18-59, and seniors 
age 60 and older. The figure reveals that in the last decade there has 
been a shift in the age composition of households receiving SNAP away 
from children and elderly and toward adults. Prior to the Great 
Recession about 55 percent of SNAP households consisted of children and 
the elderly, but by 2009, a slim majority were non-elderly adults. It 
is important to note that in the CPS data I use a household may consist 
of both persons on SNAP and those not on SNAP, which is not the same 
definition as used in SNAP Quality Control Data, which focuses on the 
SNAP recipient unit alone. However, this same shift in composition 
toward assistance for adults is also found in the QC data.\13\
---------------------------------------------------------------------------
    \13\ Hoynes, H. and D. Schanzenbach. Forthcoming. ``U.S. Food and 
Nutrition Programs.'' In Means-Tested Transfer Programs in the United 
States, Volume II, R. Moffitt, Editor, Chicago, IL: University of 
Chicago Press.
---------------------------------------------------------------------------
Figure 3: Trends in the Age Composition of SNAP Households
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Author's calculations using CPS ASEC data.

    Coincident with the shift in age composition of SNAP households, 
Figure 4 shows that the share of those households headed by a person 
working full-year, whether full-time or part-time, has been fastest 
over this period. That is, an increasing share of heads of SNAP 
households has a very strong attachment to the labor force. Indeed, 
SNAP QC data indicate that the fraction of actual SNAP recipiency units 
with earnings increased by over \1/3\ after welfare reform.\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
Figure 4: Trends in Distribution of SNAP Households by Employment 
        Status of Head
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Author's calculations using CPS ASEC data.

Furthermore, Figure 5 shows that the fraction of SNAP households headed 
by a high school dropout has plummeted by more than \1/2\ since 1980, 
and by 2011, more than \1/3\ of SNAP households were headed by someone 
with some college or more. Figure 6, which depicts the distribution of 
SNAP households by household income in relation to the Federal poverty 
guideline, shows that since the mid-1980s the composition of SNAP 
households has trended toward those with annual incomes above the 
poverty line. This suggests that SNAP has evolved into a work 
supplement for educated, near-poor households. The growing prevalence 
of full-year working recipients implies that concerns that SNAP is 
operating as a work disincentive are likely less relevant than in the 
past, in part because the expanded EITC mitigates the potential 
disincentive for the majority of working recipients.\15\
---------------------------------------------------------------------------
    \15\ Moffitt, R. 2015. ``Multiple Program Participation and the 
SNAP Program.'' In SNAP Matters.
---------------------------------------------------------------------------
Figure 5: Trends in Distribution of SNAP Households by Education 
        Attainment of Head
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Author's calculations using CPS ASEC data.
Implications for Family Well Being
    The expansion of SNAP over the past decade, both from rising need 
from the deepest recession since the Great Depression and changing 
policy improving program access and delivery, has wider implications 
for family well being.
    Behind the EITC, SNAP is the most effective anti-poverty program 
for the non-elderly, and is even more effective than the EITC in 
mitigating deep poverty among families with children.\16\ The reason 
for the greater anti-poverty effects among the very poor is that many 
of these disadvantaged households do not have earnings, or only limited 
earnings, and because of its uniqueness in the U.S. safety net as a 
near universal program regardless of age, employment status, or family 
structure, SNAP is able to assist the very poor where other programs do 
not.
---------------------------------------------------------------------------
    \16\ Tiehen, L., D. Jolliffe, and T. Smeeding. ``The Effect of SNAP 
on Poverty.'' In SNAP Matters.
---------------------------------------------------------------------------
Figure 6: Trends in the Distribution of SNAP Households by Income 
        Status
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Author's calculations using CPS ASEC data.

    SNAP has also been shown to lead to increases in total food 
spending, implying that most SNAP recipients spend more on food each 
month than their SNAP allotment; and in the face of income shocks to 
families such as in the Great Recession, SNAP reduces the short-run 
volatility of food consumption by just under 15 percent, and long-term 
income shocks on food are lower by \1/3\.\17\
---------------------------------------------------------------------------
    \17\ Hoynes H, L. McGranahan, and D. Schanzenbach. 2015. ``SNAP and 
Food Consumption.'' In SNAP Matters; Gundersen, C. and J. Ziliak. 2003. 
``The Role of Food Stamps in Consumption Stabilization.'' Journal of 
Human Resources 38 (Supplement): 1051-1079; Blundell, R. and L. 
Pistaferri. 2003. ``Income Volatility and Household Consumption: The 
Impact of Food Assistance Programs.'' Journal of Human Resources 38 
(Supplement): 1032-1050.
---------------------------------------------------------------------------
    That food consumption is stabilized by SNAP in times of economic 
need has positive spillovers on the health of the family. Namely, the 
best evidence suggests that food insecurity, i.e., a situation that 
``exists whenever the availability of nutritionally adequate and safe 
foods or the ability to acquire acceptable foods in socially acceptable 
ways is limited or uncertain,'' is reduced by increases in SNAP 
benefits.\18\ The timing of receipt of benefits over the life course 
also matters. Specifically, compelling evidence, albeit limited in the 
number of studies, indicates that exposure to the program in utero and 
in early childhood has positive effects on birth outcomes as well as in 
better health in adulthood such as lower risk of obesity, heart 
disease, and diabetes.\19\ And this early exposure to SNAP in childhood 
facilitates access to school feeding programs such as school breakfast 
and lunch, which have an additional, independent effect of lowering 
food insecurity.\20\
---------------------------------------------------------------------------
    \18\ Schmidt, L., L. Shore-Sheppard, and T. Watson. Forthcoming. 
``The Effect of Safety Net Programs on Food Insecurity.'' Journal of 
Human Resources; Mabli, J. and J. Worthington. 2014. ``Supplemental 
Nutrition Assistance Program Participation and Child Food Security.'' 
Pediatrics 133(4): 1-10; Gregory, C., M. Rabbitt, and D. Ribar. 2015. 
``The Supplemental Nutrition Assistance Program and Food Insecurity.'' 
In SNAP Matters.
    \19\ Almond, D., H. Hoynes, and D. Schanzenbach. 2011. ``Inside the 
War on Poverty: The Impact of Food Stamps on Birth Outcomes.'' Review 
of Economics and Statistics 93(2): 387-403; Hoynes, H., D. 
Schanzenbach, and D. Almond. 2012. ``Long Run Impacts of Childhood 
Access to the Safety Net.'' National Bureau of Economic Research 
Working Paper 18535; Gundersen, C. 2015. ``SNAP and Obesity.'' In SNAP 
Matters.
    \20\ Bartfeld, J. 2015. ``SNAP and the School Meal Programs.'' In 
SNAP Matters.
---------------------------------------------------------------------------
Conclusion
    SNAP is operating to combat hunger and poverty during periods of 
economic hardship asCongress intended when it initially passed the Food 
Stamp Act in 1964, and with each subsequent reauthorization. Although 
the majority of recipients are children, elderly, or the disabled, the 
program in recent years has increasingly evolved into a work support 
for households with a full-year worker with some college education. 
Even though the program is at record highs in terms of participation 
and cost, it is also functioning more efficiently than ever with record 
low error rates in benefit determination, having fallen by over 45 
percent in the last decade alone.\21\ With its Federal funding that 
rises and falls with the state of the economy, it offers a first line 
of defense against poverty and food insecurity for the widest array of 
American families of any program in the safety net--young, old, 
working, not working, healthy, disabled--that is not possible in other 
programs, such as in the block-granted TANF program that did not 
respond to rising need this last decade. SNAP matters more than ever in 
the safety net.
---------------------------------------------------------------------------
    \21\ Based on a comparison of FY 2004 and FY 2013 benefit error 
rates http://www.fns.usda.gov/pd/snap-reports#qc-error.
---------------------------------------------------------------------------
    I again thank the Committee for the opportunity to share the 
results of our research.

    The Chairwoman. Thank you, Dr. Ziliak.
    Mr. Tordella, please proceed.

     STATEMENT OF STEPHEN J. TORDELLA, PRESIDENT, DECISION 
                  DEMOGRAPHICS, ARLINGTON, VA

    Mr. Tordella. Thank you, Chairwoman Walorski, Ranking 
Member McGovern, and Committee Members.
    Today I will talk to you about flows onto and off of SNAP, 
tracking who goes onto SNAP and at what rates, what events are 
associated with entering or exiting the program. Once on the 
program, how long do participants stay? When people leave the 
program, do they come back? Also, I will compare recent results 
with our studies from the early and mid-2000s.
    We used the Survey of Income and Program Participation, or 
SIPP, to follow 25,000 U.S. households from mid-2008 through 
the end of 2012, with data on every person, every month. We 
focused on people who might be at risk of joining SNAP; those 
below three times the poverty. Our study includes the peak of 
the recession and continues for 3 years afterwards. SNAP 
participation grew from 29 to 48 million people during this 
study period.
    So let us start at the beginning with entry rates. During 
our study period, .7 percent of lower income people joined SNAP 
each month. In the early 2000s, the entry rate was .4 percent 
monthly. So the entry rate almost doubled in about 10 years. 
SNAP entry patterns differed by family situation and income. 
People who had received SNAP before were three times more 
likely than average to enter SNAP. Entry rates were also higher 
than average for families with children or disabled members, 
and those without income. Elderly adults and ABAWDs, the 
nondisabled 18 to 49 year olds without dependents, had lower 
than average SNAP entry rates.
    So what events are associated with entering SNAP? The most 
common events were decreases in family earnings, unemployment 
and family changes. Thirty percent of SNAP entrants had a 
recent decrease in earnings, 15 percent were in families where 
someone became unemployed, and over ten percent had a family 
change like pregnancy, a new child, or divorce.
    So once on SNAP, how long do people stay? We call peoples' 
time on SNAP a spell. At any given point, there are both short 
and long spells in progress. So let us look at shorter spells 
in our sample by measuring the length of every new spell that 
started during 2008 to 2012. The average new spell length that 
was 12 months, that is, \1/2\ of participants had left SNAP 
within 12 months. This compares to 8 months just after 2000, 
and 10 months at mid-decade. People in single-parent families, 
below poverty, and disabled adults had longer spell lengths. 
Elderly living alone have the longest spells of any group, an 
average of over 4 years. ABAWDs had the shortest spells, along 
with those whose income was more than twice poverty. In all, 
\2/3\ of new spells were over within 2 years.
    What about the people who were already receiving SNAP when 
the study period started? Many of them were in the middle of 
longer term spells. Think of older people on fixed incomes, 
whose living situations may stay the same for years at a time. 
If they qualify for SNAP, they could need the program for a 
while. So to study these longer spells, we took everyone on the 
program as of December 2008, looked back to when they started 
the program, and forward month-by-month for another 4 years. 
These continuing spells on SNAP average 8 years. During the 
mid-2000s, it was 7 years. Older population groups, again, had 
the longest spells; over 8 years, while for ABAWDs, the average 
was only 3 years.
    Next, let us consider the events associating with exiting 
SNAP. Just like entry, earnings and family situations are the 
main exit events. People who start to earn more money are 
likely to leave SNAP. Also, one in five people who had a family 
member exit the household exited SNAP within 4 months.
    Finally, when people leave SNAP, do they come back? Well, 
in 2008 to 2012, nearly \1/2\ of those who left the program 
reentered within a year. That was faster than during the mid-
2000s. Some groups reentered more quickly, including children 
and those below poverty. Other groups took more time, including 
elderly and families without children.
    In sum, our study of SNAP dynamics showed that the program 
responded to changes in the economy during the recession and 
its aftermath in the expected ways. Entry rates were higher 
than before, spell durations were longer, reentry was faster. 
These factors combined to cause program growth, but SNAP 
participation was still driven by individual circumstances. 
Entry rates and spell lengths were highest among the poor, and 
decreased with income. Changes in employment and earnings were 
the most common entry as well as exit events. These findings 
underscored that the program is responding to changing economic 
conditions as well as individuals' changing needs.
    Thank you.
    [The prepared statement of Mr. Tordella follows:]

      Prepared Statement Stephen J. Tordella, President, Decision 
                      Demographics, Arlington, VA
Dynamics of SNAP Participation from 2008 to 2012.
    Thank you, Chairwoman Jackie Walorski, Ranking Member Jim McGovern, 
and Members of the Nutrition Subcommittee for this opportunity to 
testify on the Supplemental Nutrition Assistance Program (SNAP). I was 
asked to testify before this Committee as part of an evidence-based 
approach to understanding the SNAP population. Critical to developing 
effective SNAP policy, this review of SNAP dynamics will help Congress 
to understand changes in SNAP participation patterns and the national 
caseload under different economic conditions and policy environments.
    My testimony is based on a recent study of SNAP participation 
dynamics conducted by my organization, Decision Demographics, and our 
partners at Mathematica Policy Research, for the U.S. Department of 
Agriculture's Food and Nutrition Service, Office of Policy Support. I 
will present findings from one of our study reports, ``Dynamics of SNAP 
Participation from 2008 to 2012,'' a link to which can be found on our 
website.\1\ My colleagues, Principal Investigator James Mabli, who 
coauthored this testimony, as well as authors Joshua Leftin, Thomas 
Godfrey, and Nancy Wemmerus contributed to this report. The study used 
data from the 2008 panel of the Survey of Income and Program 
Participation (SIPP), a nationally representative longitudinal sample 
survey that collected detailed information for 5 years, beginning in 
2008, on monthly labor force activity, income, family circumstances, 
and program participation.
---------------------------------------------------------------------------
    \1\ Leftin, Joshua, Nancy Wemmerus, James Mabli, Thomas Godfrey, 
and Stephen Tordella, (2014). Dynamics of SNAP Participation from 2008 
to 2012. Prepared by Decision Demographics for the U.S. Department of 
Agriculture, Food and Nutrition Service: Alexandria, VA. Available 
online at http://www.fns.usda.gov/sites/default/files/ops/Dynamics2008-
2012.pdf.
---------------------------------------------------------------------------
    This afternoon I will describe patterns of SNAP caseload dynamics 
over the past decade. By ``dynamics,'' we mean the flow of participants 
into and out of the program. I will specifically address:

  <bullet> Who goes onto SNAP and at what rates do they enter the 
        program?

  <bullet> Once participants are on the program, how long do they stay?

  <bullet> When they leave the program, how long is it before they come 
        back?

  <bullet> What events are associated with people entering or exiting 
        SNAP?

  <bullet> How do different groups of people participate in the 
        program?

  <bullet> How do SNAP dynamics drive changes in participation patterns 
        and the national caseload over time?

    First, for context, I will highlight SNAP participation trends over 
the last decade. Next, I will review our findings on SNAP caseload 
dynamics. I will discuss observed differences in these dynamics over 
the past 10 years; describe distinctions by demographic, economic and 
family characteristics; and present factors associated with SNAP entry 
and exit. I will close by discussing how changing patterns in dynamics 
have shaped overall caseload changes, comparing findings from our two 
most recent studies, which looked at the periods 2004-2006 and 2008-
2012.
SNAP Today
    SNAP is the largest of the 15 domestic nutrition assistance 
programs administered by FNS. The number of SNAP participants has 
increased dramatically over the past decade, from an average monthly 
caseload of 24 million in Fiscal Year 2004 to its peak of 47.6 million 
in Fiscal Year 2013. It declined modestly to 46.5 million in Fiscal 
Year 2014. Understanding SNAP participation dynamics over time is 
critical to understanding these participation changes. Figure 1 
provides a snapshot of changes in SNAP participation and concurrent 
rates of unemployment and poverty, since 1990.
Figure 1
Trends in Poverty, the SNAP Caseload, and the Number of Unemployed 
        Individuals, 1990-2013
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Examining SNAP Entry Rates
    Between mid-2008 and the end of 2012--the period for which SIPP 
followed the respondents on which we based this study--an average of 
seven out of every 1,000 people in low-income families who were not 
receiving SNAP entered SNAP in the next month.\2\ This is a 40 percent 
increase over the 2004 to 2006 study period (referred to as the mid-
2000s), when five out of every 1,000 people in low-income families 
joined the program each month, and substantially higher than the period 
from 2001 to 2003, when four out of every 1,000 people in low-income 
families joined SNAP each month on average.
---------------------------------------------------------------------------
    \2\ We considered individuals to be in a low-income family if they 
had family income less than 300 percent of poverty.
---------------------------------------------------------------------------
    SNAP entry patterns differ by family situation and income. For 
example, individuals who received benefits in the past were much more 
likely to enter than those who had not received benefits. Three of 
every 1,000 low-income nonparticipants who had never received SNAP 
benefits during their adult lives entered the program in a given month, 
compared with 23 out of 1,000 people who had participated previously 
(see Figure 2). Entry rates were also higher than average for 
individuals in families with children or disabled members, and those in 
families without income. Nondisabled adults age 18-49 in households 
without dependents (commonly referred to as ``ABAWDs''), and elderly 
adults, had lower than average SNAP entry rates.
Figure 2
Monthly Entrants per 1,000 by Demographic Characteristics for 
        Individuals with Income at or below 300% of Poverty
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Factors Associated with Entering SNAP
    The detailed SIPP monthly data allow us to observe life events or 
changes that may be associated with entering (or exiting) SNAP. 
Although we cannot definitively ascertain that these events caused SNAP 
entry, we can show to what degree certain events or changes in 
circumstances, which we call ``triggers,'' immediately precede SNAP 
entry.
    The most common events associated with entry into SNAP were related 
to decreases in family earnings, loss of employment, and changes to the 
family situation. Among those who entered SNAP in the study period, 30 
percent experienced a substantial decrease in family earnings in the 
previous 4 months, while 23 percent experienced a substantial loss in 
other family income-income aside from earnings and Temporary Assistance 
for Needy Families (TANF). Nearly 16 percent of those who entered SNAP 
were in families where a member became unemployed within the previous 4 
months, and 12 percent experienced a change in their family situation 
within the previous 4 months, such as a pregnancy, a new dependent in 
the family, or a separation or divorce.
Once Participants Are On SNAP, How Long Do They Stay?
    Because time on the program contributes to overall caseload and 
program costs, there is great interest in understanding how long SNAP 
participants typically receive assistance. Dynamics research refers to 
each participation period as a ``spell'' and the number of months a 
participant receives SNAP benefits in one session as a ``spell 
length.''
    SNAP spells have gotten longer over the past decade: half of those 
who entered the program between 2008 to 2012 (``new entrants'') exited 
within 12 months, compared to 10 months during the mid-2000s and 8 
months in the early 2000s. SNAP spell lengths were shorter for 
individuals in families without children and for ABAWDs (see Figure 3). 
Spell lengths were longer for new entrants living in poverty, those in 
single-parent families, nonelderly disabled adults, and children. 
Overall, however, most entrants left the program within 2 years.
Figure 3
Median SNAP Spell lengths for New Entrants by Demographic 
        Characteristics and Income
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    In the findings presented above, we observed individuals who 
entered SNAP any time during the 2008 to 2012 survey period, and 
followed them to determine how long they remained on the program. 
However, looking only at these new entrants does not allow us to 
understand the behavior of longer-term SNAP participants; many long-
term participants were already receiving SNAP when this round of the 
SIPP survey began, so by following only new entrants during the survey 
period, we necessarily miss many of those whose stay began before the 
survey period. To more completely understand caseload dynamics, we also 
took a slice of the population at an early point in the survey (called 
a cross-section) and looked at who was receiving SNAP and how they long 
they had already been on the program. We then followed these cases 
forward, determining whether they exited the program during the survey 
period. As expected, this cross-section of SNAP participants has longer 
spells than the new entrants: a median length of 8 years, up from 7 
years in the mid-2000s (in other words, \1/2\ of those who were 
participating early in the 2008 panel period exited within 8 years, but 
\1/2\ remained on the program longer than 8 years). Elderly individuals 
had higher than average median spell length while ABAWDs had a median 
spell length of 3 years.
What Factors are Associated with Exiting SNAP?
    The SNAP exit rate is the percentage of participants that exit the 
program over a fixed period of time. As with entry rates, changes in 
average exit rates over time can help explain changes in overall 
caseload size. Examining individuals' circumstances around the time of 
exit can provide clues as to why individuals may leave the program. We 
found that factors contributing to exit from SNAP differ for people in 
different demographic or economic circumstances.
    In about 30 percent of households that exit SNAP, the data do not 
show an event related to improved financial circumstances or reduced 
need in the previous 4 months that we would readily associate with exit 
from the program. About 70 percent experienced a substantial increase 
in income or a decrease in the number of family members. Thirty-seven 
percent experienced more than one of these events in the 4 months 
before exiting. Increases in earnings were the most common of the 
events we examined that preceded exits. These events, however, are 
common and do not always lead to exiting SNAP.
At What Rates do Individuals Re-Enter the Program?
    SNAP re-entry patterns measure the extent to which individuals 
transition on and off the program. Forty-seven percent of SNAP 
participants who exited the program in the panel period re-entered 
within 12 months. Another 12 percent re-entered within 2 years, for a 
total of 59 percent re-entering within 24 months. Participants returned 
to the program more quickly during 2008 to 2012 than prior study 
periods. In the mid-2000s, 53 percent of participants re-entered within 
2 years.
    Some subgroups re-entered SNAP more quickly than others. In 
particular, individuals in families whose income was below the poverty 
level when they exited returned to SNAP more quickly than those who had 
higher incomes. Similarly, individuals in families with children 
returned to SNAP more quickly than those in families without children.
How Entry Rates and Duration Explain Increases in SNAP Participation
    As noted at the beginning of this testimony, the SNAP caseload grew 
substantially from the 2004 to 2006 period to the 2008 to 2012 period, 
and in each year over the course of the 2008 to 2012 period. For a 
caseload to grow, people must be entering the program at higher rates, 
staying in the program longer, or both--which is what occurred during 
2008 to 2012. This continues a trend in SNAP dynamics observed from the 
early 2000s to the mid-2000s; yet while the economy was improving 
during the mid-2000s, this was not the case during much of the 2008 to 
2012 period. As a result, the increases in entry and duration from the 
mid-2000s to the 2008 to 2012 time period were greater than those from 
the early to mid-2000s. Finally, although the caseload grew each year 
from 2008 to 2012, there was a slowdown in growth over this period due 
to a year-to-year decline in the number of SNAP entrants relative to 
the total caseload.
Policy Implications from Examining SNAP Dynamics
    We hope that this objective analysis will contribute to the 
research base on SNAP program dynamics, especially as Congress conducts 
an evidence-based investigation of the program. Through this research, 
we investigated SNAP caseload dynamics to better understand what drives 
changes in SNAP participation over time.
    This study of SNAP dynamics provides two key insights into the rise 
in the SNAP caseload over the past 10 years. First, SNAP participation 
in 2008 to 2012 increased, relative to the mid-2000s, due to both an 
increase in entry rates and the length of time spent on SNAP. The 
proportion of low-income individuals not already on the program who 
entered in an average month increased by 40 percent and the median 
spell of SNAP participation among new entrants lasted 20 percent longer 
than during the mid-2000s.
    Second, SNAP dynamics closely reflect individual circumstances. 
SNAP entry rates were highest among the poorest individuals, and 
decreased with income. Similarly, the length of time spent on SNAP was 
longest for poorest individuals, and decreased with income. Changes in 
employment and earnings were the most common factor associated with 
entering and exiting the program. Job losses and decreases in earnings 
were strongly associated with entering SNAP, and job gains and 
increases in earnings were strongly associated with leaving the 
program. These findings suggest that the program is responding to 
changing economic conditions and individuals' increased needs in the 
way in which it was originally designed.
    Thank you again for giving us the opportunity to testify before the 
House Committee on Agriculture about this important topic.

    The Chairwoman. Thank you, Mr. Tordella. And thank you to 
all of you for your testimony.
    We are going to move into the question period now.
    Dr. Mills, I have a question for you. In your churn study, 
talking about the cycling of families on and off of benefits, 
you mentioned one of the reasons was that recipients were 
experiencing personal difficulties, and kind of in a follow-up 
to a question I had yesterday on the full Committee on SNAP 
about families getting real help, what is the engagement level 
of states going into these recertifications?
    Dr. Mills. It is rather extensive. That is to say, the 
effort that is put into the recertification is a full review of 
the eligibility factors of the case. So it is immigration, 
citizenship, it is their household income, expenses and 
resources. So it is, in terms of case worker effort, it is 
probably something like 2 to 3 hours of a case worker's time.
    The Chairwoman. So there is a case worker from SNAP that 
potentially knows there is a situation with a family?
    Dr. Mills. A schedule--well, I am talking actually about a 
scheduled----
    The Chairwoman. Okay.
    Dr. Mills.--recertification.
    The Chairwoman. Yes.
    Dr. Mills. So those would occur typically at intervals of 
12 or 24 months. And the point I was trying to make in my 
testimony was that the, say, 2 to 3 hours that might be spent 
by a case worker at recertification is far less than what is 
required at an initial application. And the phenomenon of churn 
causes individuals, once they go off the program, many of them 
have to come back by going through a full initial application, 
which may require, say, 6 or 7 hours of the case worker's time. 
So it is more----
    The Chairwoman. And what did you learn from your interviews 
with SNAP staff and those with--in the community-based 
organizations?
    Dr. Mills. I indicated some of the recommendations that we 
heard from the staff of these offices. We interviewed staff in 
one local office in each of the six states. We also interviewed 
representatives of community-based organizations.
    The Chairwoman. Yes.
    Dr. Mills. And I believe that the Chairman actually made 
reference in his opening statement the other day to the kind of 
expansion of the food assistance network to include food banks 
and other nonprofit organizations. Some states do make use of 
such community-based organizations to assist clients in the 
outreach and in applying for benefits. That is a strategy that 
some states also use at recertification, allowing the client to 
be interviewed by a worker at a food bank if, for instance, 
they might find it difficult to get to a local office, and if 
they are already going to that food bank, and would represent 
less burden for them.
    The Chairwoman. I appreciate it. Maybe this is the 
disadvantage of longer certification periods, fewer 
interactions and opportunities to help families. I appreciate 
your testimony.
    Dr. Mills. Yes.
    The Chairwoman. I now recognize Mr. McGovern, for 5 
minutes.
    Mr. McGovern. Thank you very much.
    On this issue of churning and recertification, we had a 
witness here yesterday who said that there should be more 
certification processes. My question to you is, how would 
requirements for more frequent recertification likely affect 
the churn rate?
    Dr. Mills. I think of this as a trade-off that is a 
difficult one to make. As I pointed out in my testimony, there 
are multiple objectives here. You want to provide access to the 
program for those who are eligible for benefits, and at the 
same time you want to maintain the integrity of the program by 
not allowing those who are ineligible to access the program. So 
the procedural barriers exist for multiple reasons. You want to 
make sure that people, in fact, meet the eligibility 
requirements, but you don't want to place those barriers, those 
hurdles so high that it might prevent those who are, in fact, 
entitled to receive benefits from entering the program.
    In general, as I think you have heard from Mr. Greenstein 
the other day, the error rates in the program are very low. 
Only about one percent of recipients in the food stamp--in the 
SNAP program are, in fact, ineligible and should not be 
receiving benefits. All others are eligible and perhaps not 
receiving the correct amount. But the program, by those 
measures, is very well administered, reflecting the amount of 
attention that goes into initial certification and 
recertification.
    More barriers, I think that this is getting to your 
question----
    Mr. McGovern. Right.
    Dr. Mills.--more barriers, more procedural requirements 
almost certainly would increase the rate of churn because there 
would be some individuals eligible for assistance who would not 
be able to meet those requirements. They would go off, but they 
would be unable to make ends meet without those benefits. They 
would reapply.
    Mr. McGovern. Right, and I would like to think that we all 
can agree that everybody who is eligible for this benefit 
should be able to get it, that we shouldn't be going out of our 
way to make it more difficult for eligible people to get a food 
benefit.
    Mr. Tordella, I am concerned about the different ways of 
looking at the length of SNAP spells that you cite, and that 
some people get the mistaken impression that too many people 
receive SNAP for too long. Doesn't the program have an 
extremely low share of ineligible people participating, so if 
people receive benefits, aren't we pretty sure that they need 
help feeding themselves and their families?
    Mr. Tordella. Sorry. None of our data actually reflect 
directly on whether they are--the people are ineligible, and we 
didn't choose to--so we didn't try to judge that or infer that. 
The differences--there are--in order to though get a complete 
picture of what is happening on SNAP, you have to look at both 
the short-term spells, that is, spells----
    Mr. McGovern. Right.
    Mr. Tordella.--that have just started during the period 
that we observed, and be able to look at the longer-term spells 
as well, because those may be in progress when you start the 
study and they still can be going on afterwards. But with 
regard to the short-term spells and \2/3\ are over within 2 
years.
    Mr. McGovern. Right. Well, let me just ask anybody on the 
panel because this is a question that constantly gets raised 
that somehow that we have lots and lots and lots of ineligible 
people taking advantage of the system who are enrolled in this 
program. Does anybody want to dispute that? Dr. Ziliak?
    Dr. Ziliak. Yes, there is no evidence to back up that 
claim. I mean it is a very efficiently run program. The overall 
error rate today is around 3.2 percent. That is the benefit 
determination error rate. The number of individuals on the 
program who are ineligible is a very small fraction of the 
total caseload. The--these long spells that you pick up in the 
data are frequently people who are elderly or disabled, 
individuals who aren't in any physical capacity to exit to work 
and improve their economic situation.
    So there are these long spells; it is a different 
population than the typical spell that we see on the caseload, 
which is a more dynamic population.
    Mr. McGovern. Anyone have a different opinion? Dr. Mills?
    Dr. Mills. If I could just expand on that response. The 
error rates in the program are now at all-time lows. If you 
look at the trend, it is dramatically down over the last 10 
years. Some of the errors that actually occur and are detected 
through the quality control system are errors of underpayment. 
There are some individuals who actually are not receiving----
    Mr. McGovern. Right.
    Dr. Mills.--fully the benefit they are entitled to. 
Moreover, there are quality control reviews that indicate 
improper denials and terminations in the program, the 
phenomenon I mentioned about excessive procedural requirements. 
The other thing I will note is that other measures of integrity 
such as trafficking of SNAP benefits also show very low rates. 
Retailer trafficking is only about 1.3 percent, by the most 
recent estimates, of total benefits redeemed.
    Mr. McGovern. Sounds like a good, well-run program. Thank 
you.
    The Chairwoman. I now recognize Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Madam Chair, and congratulations on 
chairing this Subcommittee. I am proud to be a part of it and 
proud to have you here on the House Agriculture Committee. Yes, 
and, Mr. Ranking Member, always great to spar with you, not 
only at the Committee level, but also at the Subcommittee 
level. And congratulations to you too, sir, but more 
congratulations to Jackie. That is just part of being in the 
majority. I apologize.
    The Chairwoman. I can't give you any more time. Your time 
is ticking.
    Mr. Davis. That is okay. I hopefully won't talk the entire 
time. I actually want to hear some information out of the 
panel.
    Thank you for being here. Hopefully, what you have seen in 
the last 30 seconds is we actually do like to have fun up here.
    I am a big supporter of children who are hungry getting 
access to the food and nutrition that they need, through the 
SNAP program or other programs. In the opening testimony, Ms. 
Cunnyngham, that you had mentioned some of the other programs 
that feed children and those who are in need of hunger 
assistance, besides SNAP. Can--and this goes to the whole 
panel. Is there any way, can you elaborate on some of the other 
programs that are available? Like I know I visited some 
schools, some summer lunch sites, during the summertime to feed 
kids who were part of the School Nutrition Program. And just 
one observation on the program that you decide to talk about 
that you think we can do as a Congress to make them more 
effective and more better. So we will start with you, ma'am.
    Ms. Cunnyngham. Sure. Well, there is the National School 
Lunch Program. There is the School Breakfast Program which is 
expanding in recent years. It serves breakfast to hungry 
children. There is the Summer Feeding Program that you 
discussed. In terms of recommendations, I know that there is a 
wealth of research out on those programs, and I can provide you 
some of those studies. I don't have recommendations myself, but 
I do hope that you will look at the information that is out 
there.
    [The information referred to is located on p. 149.]
    Mr. Davis. I would be glad to get the information, but if 
you have recommendations, and that is what we are here for too 
is to--you are the experts, and I know for my purposes, I want 
to know what you think is going to make us be able to put 
better policy and to achieve the goals that we all have. Dr. 
Mills?
    Dr. Mills. Yes. I know this is the Nutrition Subcommittee 
after all, and one of my interests, and reflecting on other 
research I have done, is what could be done to enable these 
programs, the ones that have been mentioned, to promote better 
informed and more healthful choices on what individuals and 
families, and families with children in particular, consume.
    I think there have been efforts, not only in the SNAP 
program and in other programs including WIC and school lunch 
and school breakfast, to encourage more consumption of fresh 
fruits and vegetables. You may be familiar with a--an 
experiment that is now ongoing in Massachusetts, and largely 
completed, called the Healthy Incentives Pilot in SNAP, and 
that is through price discounting of healthier foods, 
encouraging families to purchase those items and not others.
    So, my own feeling, and based on my own research, is that 
the programs should try to strike a better balance between 
improving the income capacity and income supplementation, but 
at the same time, improving nutritional intake.
    Mr. Davis. All right, well, thank you for--I am reclaiming 
my time real quick. Thank you for your comments on the School 
Nutrition Program. I agree, kids need to eat healthier, but we 
also have to provide the flexibility, that there is not a calm-
down approach that we sometimes see, that forces school 
districts out of the School Nutrition Program. So I would love 
to work with you on that issue too.
    Dr. Ziliak?
    Dr. Ziliak. Yes, thank you. So with the school feeding 
programs, it turns out that the SNAP program is oftentimes a 
gateway for children onto the school breakfast or lunch 
programs through the eligibility standards used for the school 
feeding programs, but it also works the other way around, that 
some of the school breakfast and lunch programs, children enter 
on SNAP after they go onto the school programs. And so there is 
a real important coordination between overall SNAP program with 
the school feeding programs that assist children.
    Dr. Mills also mentioned the WIC program which, of course, 
is a very important nutrition assistance program for low income 
families, and also works in conjunction with the SNAP program. 
With children, what we are able to capture is kind of this more 
wraparound food provision. There is a demographic of children 
who don't receive as much assistance in the school feeding 
programs, and that is teenagers, okay, the kids in high school. 
And so that is still a group that kind of falls through the 
cracks through some of these programs.
    Mr. Davis. Thank you.
    I think I am out of time, Mr. Tordella. Thank you.
    The Chairwoman. The chair recognizes Ms. Adams for 5 
minutes.
    Ms. Adams. Thank you. Thank you, Madam Chair. And thank you 
to all who have testified today. I appreciate you being here. 
And I appreciate the hearings on SNAP that are driven by data 
and research. I am an educator by training, so I certainly 
appreciate that. And I hope that we are able to use the 
oversight hearings as an opportunity to learn how the program 
works, before we pass judgment on the people who receive the 
benefits.
    Dr. Mills, your testimony included the recommendation for 
states to align the recertification dates for SNAP, TANF and 
Medicaid. How many states in the Southeast have implemented 
your recommendation?
    Dr. Mills. There are about 40 states nationwide, and I can 
provide for you information for the record as to who those 
states are, that do integrate the application process between 
SNAP and Medicaid, and some of those also extend that 
integration to other programs, including TANF.
    I think the recommendation that I have is to ensure that 
that integration extends also to the recertification process, 
and that, for instance, the recertification dates that clients 
face be aligned so that they don't, within, let us say, a year-
long period, face multiple deadlines. For many recipients, that 
is confusing and it is what leads, in part, to these procedural 
difficulties. But I certainly can provide to you information, 
especially about states in the South.
    Ms. Adams. Yes, I would appreciate that.
    Dr. Mills. Yes.*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    Ms. Adams. If you could tell me in terms of the churn 
program how many children are exposed to that program within 
the SNAP program, and how does it impact their access to free 
school meals through direct certification?
    Dr. Mills. Well, churning is the movement of cases 
receiving SNAP off the program and then back on within a period 
of 4 months. So it is the--some of what you have heard from the 
witnesses here is about length of time on the program. This 
really is more about brief periods off the program that we are 
talking about SNAP receipt, SNAP benefits.
    Now, children, of course, are an important part of this 
program in general, and so not surprisingly a very substantial 
percentage of those who churn are families with children, 
approximately \1/2\, and if you include also elderly and 
disabled--households with elderly or disabled members, it is 
approaching \2/3\ of churners that have vulnerable individuals 
within the household. Individuals whose food security then is 
almost certainly adversely affected by the disruption of 
benefits.
    Ms. Adams. Dr. Ziliak, besides the work requirement for 
able-bodied adults without children, how have other major 
policy changes, such as the expansion of the Earned Income Tax 
Credit, contributed to most SNAP recipients working while 
receiving benefits?
    Dr. Ziliak. So it turns out that the number one program 
that SNAP recipients receive after SNAP is the Earned Income 
Tax Credit, and the program after that is the Child Tax Credit, 
and this comes from the same dataset that Mr. Tordella was 
using for his analysis. And so the program combines with SNAP, 
right, the Earned Income Tax Credit, is a work supplement, and 
for these households, SNAP is functioning akin to the EITC in 
providing some assistance to the family who are working in low 
wage occupations.
    So in terms of other policies besides the EITC, the SNAP 
policy at the state level that have been implemented, for 
example, a number of states receive waivers to increase their 
vehicle asset limits, which facilitates the transition from 
welfare to work. There were increases in simplified reporting, 
so that made some of the recertification processes a little bit 
easier. Dr. Mills has talked about some of the challenges with 
recertification, but in the absence of this simplified 
reporting, undoubtedly, the churn would have been a lot worse 
over the last decade.
    So things like expanded asset limits, expanded vehicle 
limits, simplified reporting, have all facilitated families' 
access to the program over the last decade.
    Ms. Adams. Thank you.
    Thank you, Madam Chair. I yield back.
    The Chairwoman. The chair recognizes Mr. Abraham, for 5 
minutes.
    Mr. Abraham. Good evening. Ms. Cunnyngham, I will reference 
your map. You don't have to put it back up there, so that any 
of you gentlemen and ladies can answer the question that you 
want to.
    Just looking at the map, it looked like there were probably 
some demographic differences between rural and urban places, 
and if that is indeed the case, what is SNAP doing to address 
them on the Federal level, and what are the states doing to 
tailor their programs more to meet the differences in the need 
in the demographics between a rural and an urban population?
    Ms. Cunnyngham. That is a great question. States do have 
more flexibility now to tailor the program in their state to 
meet their population's needs. They do this through the 
expanded categorical eligibility rules. They can set income 
limits and, if they want, an asset limit for a household to 
receive a TANF-funded noncash benefit and become categorically 
eligible for SNAP. They still need to qualify for a benefit, 
and that benefit depends on their income, but if a state thinks 
that they ought to have a higher asset limit or no asset limit, 
or if a state wants to set the gross income limit for 
households with children slightly higher, or for households 
that only have elderly or disabled people, they are able to do 
that now through their categorical eligibility policies.
    I am not aware of states specifically changing a program 
for rural versus urban, but they can definitely meet the needs 
of their population through----
    Mr. Abraham. All right, and I will just follow, Mr. 
Tordella, on your study of 25,000 people, what are the 
demographics of the study? Was it urban, was it rural, was it 
one particular state, was it several states across the nation, 
where did your population of data come from?
    Mr. Tordella. The study of 25,000 people is the Census 
Bureau's Survey of Income and Program Participation, and it is 
designed specifically to measure trends in social programs like 
TANF, or----
    Mr. Abraham. I understand that, but do we know the 
demographics of the data? Was it mostly urban or mostly rural, 
or a combination?
    Mr. Tordella. It was a nationally representative sample. 
And it started off with 52,000 households in 2008, and 25,000 
households made it out the other end after having answered the 
questions. Every 3 months, or every 4 months, about all the 
people in their households. So they stuck it out with us.
    Mr. Abraham. Okay.
    Mr. Tordella. But in order to compensate for those losses, 
if we had disproportionate losses in urban or rural places, we 
weighted the data to compensate.
    Mr. Abraham. Okay. And this is mainly just for the whole 
panel, whoever wants to join in can answer the question. It is 
my understanding that in the farm bill there is a pilot program 
for employment and training that is available, and I guess the 
question is, other Federal agencies also have these same types 
of programs. Just your opinion as to how that will work in the 
SNAP program as far as trying to get some of these folks a good 
job.
    Dr. Mills. I can just respond briefly. Of the households we 
were looking at, and I am trying to tie your question to this 
phenomenon of churn, about 40 percent of the households that 
churn are households with earnings, and even higher in some of 
these states. I think your question is really to the point of 
how can we increase the percentage of households receiving SNAP 
who have earnings. The evidence, and others can speak to this, 
is mixed on the effect of such policy changes. Principally the 
strength of the economy that increases the prospects for 
employment that would enable households to mix benefits along 
with earnings.
    Mr. Abraham. I guess my question, and looking in your 
crystal ball, do you think a program such as this would be 
beneficial?
    Dr. Ziliak. The issue is whether or not it is funded at the 
appropriate level to provide the adequate level of training for 
states to do it in an effective way in conjunction with the 
SNAP program. I think the view of SNAP as a safety net, a food 
assistance program and not a training program, is really kind 
of the crux of the matter. And the issue is, historically, 
there hasn't been the level of funding provided to the states 
to support the training initiative. These new pilot programs 
will certainly shed some light on the different types of 
training opportunities available to this population.
    Mr. Abraham. I am out of time, Madam Chair.
    The Chairwoman. The chair recognizes Mr. Aguilar, for 5 
minutes.
    Mr. Aguilar. Thank you, and congratulations, Madam Chair 
and Ranking Member. I look forward to these discussions.
    Dr. Mills, if you could just continue to expand on that. I 
was interested to know the high rate of churn among the 
employed, which is kind of where you were going, I think. To 
what do you attribute that to?
    Dr. Mills. Well, in part, it is this natural phenomenon of 
individuals whose attachment to the labor force is a bit 
episodic, and we all know this, at the low income population, 
individuals with lower skill levels often hold jobs for short 
periods of time. They may take a job but then lose it soon 
thereafter. So it really is a proper functioning of the program 
in these situations, then when someone takes a job they go off 
the program because they are ineligible, but then they lose 
that job or maybe something else happens, maybe just hours are 
reduced, they are once again eligible and they reapply, come 
back on. However, in addition to that is the fact that there 
are more procedural requirements for individuals with earnings, 
to the extent that they have to provide verification of the 
amount of their income and deductible expenses to determine 
their net income on the program. So those requirements, whether 
it be forms or paystubs or other forms of documentation, are 
additional hurdles that one has to meet to stay on as an 
earner.
    The objective should be to try to encourage employment, 
enable individuals to combine benefits from the program with 
their earnings so that they can achieve some upward mobility. 
To some degree, those procedural requirements, for income 
documentation, for instance, are difficult ones for earners to 
meet, and that is what causes some amount of churn.
    Mr. Aguilar. Oftentimes, there can be barriers and they can 
lead to additional churn, correct? So in the case where 
somebody picks up an extra overtime shift and works a little 
bit more, they could be deemed ineligible and contribute to the 
churn rate as well?
    Dr. Mills. That is true. I think what you are describing 
though is this phenomenon of the program operating as it 
should. So if you take more overtime hours and increase your 
earnings so that your income exceeds the eligibility threshold 
for the program, then properly, your benefits should be cut 
off. And if the program is operating as it should----
    Mr. Aguilar. In my opinion, unless it is seasonal work and 
someone went over by $60--which is something that I did hear--
it isn't sustainable in that sense from their income 
standpoint.
    Dr. Mills. Yes. Well, that is a good point, and what you 
are raising are what I consider the basic eligibility 
requirements and rules for the program, those are clearly ones 
that should be considered----
    Mr. Aguilar. Sure.
    Dr. Mills.--as options before you in trying to address the 
problem of churn.
    Mr. Aguilar. Thank you. Thank you very much.
    If I could switch gears a little bit. Dr. Ziliak, the 2014 
Farm Bill established a new authority by the name of the 
Healthy Food Financing Initiative, and the goal was, ``to 
support efforts to provide access to healthy food by 
establishing an initiative to improve access in underserved 
areas, and to create and preserve quality jobs.'' Can you 
explain how this program could affect SNAP participants as well 
as those who live in food deserts?
    Dr. Ziliak. That is a great question. The SNAP program, of 
course, can be redeemed for a whole host of food stuffs at the 
grocery store. Many of our low income families, especially in 
urban areas, don't have ready access to the whole spectrum of 
foods that make up the Thrifty Food Plan that underlies USDA's 
plan for the SNAP benefit. Part of the goal, of course, with 
this change in legislation is to improve access to a wider 
array of healthy foods to some of these populations that we are 
still in the field with some of these demonstration projects: 
do people respond to these incentives to buy additional fruits 
and vegetables, and there is some limited evidence so far that 
they are showing some effect. There is a hopeful sign that if 
you provide access to the food, that people will buy it. 
Anything that we can do to improve access to nutritive food is 
a positive step for the program.
    Mr. Aguilar. Thank you very much. I appreciate it.
    I will yield back, Madam Chair.
    The Chairwoman. The chair recognizes Mr. Neugebauer, for 5 
minutes.
    Mr. Neugebauer. Well, I thank the chair, and 
congratulations to her and the Ranking Member.
    Voice. Microphone.
    Mr. Neugebauer. Thank you for holding this hearing. I think 
this is a very positive thing for us to be looking at. It is a 
program that has been growing exponentially over the years, and 
what the statistics now indicate that one in seven Americans 
are on food stamps. For us to analyze what is going on within 
these folks, and more importantly hopefully, down the road, is 
trying to figure out a way to make sure that folks have an 
opportunity to move off of food stamps and to be self-
sufficient.
    Mr. Tordella, in your testimony, you stated that 
approximately 70 percent of the SNAP participants who exit the 
program do so because of substantial increases in income, or 
decreases in the number of family members. While these changes 
make sense from why participants leave the program, I am 
curious what your team was able to find out about the 30 
percent of the participants that left SNAP. In other words, you 
said 70 percent left for either more--made more money, or the 
family size decreased, but those other 30 percent that left the 
SNAP program, what did you learn about them?
    Mr. Tordella. Unfortunately, we couldn't really learn 
anything about them. The way that we analyzed the movements 
onto and off of SNAP was to take a 4 month window before 
somebody would go on, or a 4 month window after they went off, 
in order to see if certain events occurred so that we could 
associate those events. But we couldn't pin it down and say, 
``Well, that event actually caused one thing, or caused them to 
go onto or off of the program.''
    Mr. Neugebauer. So how did you survey all of the people, in 
other words, did you make a contact with that individual, did 
you interview them or----
    Mr. Tordella. This is a generic survey that covers a large 
section of the American population, and it tracks them for a 
period of 5 years, and actually tracked them from mid-2008 
through the end of 2013. So it is trying to achieve many things 
at once, which is why we don't have a specific set of 
motivations for moving onto and off of SNAP, as you would like 
to have.
    Mr. Neugebauer. So how do you gather that data on a generic 
basis?
    Mr. Tordella. It is gathered by the Census Bureau on a 
randomly selected sample, and they go out to these households 
once every 4 months and ask a set of very detailed questions 
about their income, occupation, education. This is for every 
single individual, age, sex, race, program participation, and 
their labor force participation, all those things all at once, 
and different types of income. So it is kind of the 
reprocessing of those data that allows us to infer what 
happened.
    Mr. Neugebauer. So what would your speculation be that if 
my income didn't increase and my family size didn't decrease, 
then--I mean I am trying to kind of get a feeling here where 
those 30 percent of people went.
    Mr. Tordella. Where did that other 30 percent go? 
Unfortunately, I just don't have any empirical data that would 
tell me----
    Mr. Neugebauer. I think Dr. Mills has got his hand up.
    Dr. Mills. Yes, thank you. If I could just add. Some of 
those individuals are of the type that I was describing who 
have procedural difficulties. So there has been no change in 
their circumstances, their household composition and income has 
remained unchanged, but at the time of the recertification, 
they were unable to meet the procedural requirement to renew 
their benefits. And so they do go off, many of them for only a 
short period of time, and then they come back. So that is a 
form of exit from the program that certainly is, in part, 
explaining the 30 percent you referred to.
    Mr. Neugebauer. And, Dr. Mills, you mentioned in your 
testimony that overall, elderly or disabled members are less 
likely than others to churn in and out of SNAP, and this is due 
to them being able to wait longer to recertify. However, when 
specifically focusing on households that churn due to 
recertification, the opposite is true that these subpopulations 
are more likely than others to churn. Can you elaborate on that 
switch, and perhaps why you think this is how you see the 
recertification process negatively?
    Dr. Mills. Yes. It is a great question, and it is a 
somewhat complex story and it is important to understand 
because we are all concerned about food security for the 
elderly and disabled population. These are individuals who are 
typically assigned a longer recertification period in the 
program; typically, 24 months rather than the normal 12. So in 
that sense, they should be less vulnerable to these procedural 
problems that I described because they are--within any given 
year, it is less likely that they will have to renew their 
benefits. However, if one looks at those who are subject to 
recertification are reaching that moment in time where they do 
have to meet the procedural requirements, individuals with 
elderly or--households with elderly or disabled members are 
more likely to churn, they are more likely than other 
households to be unable to meet those requirements. It may be 
issues of cognitive decline----
    The Chairwoman. I am sorry, I have to stop you, Dr. Mills. 
The gentleman's time has expired.
    Dr. Mills. Yes.
    The Chairwoman. The chair recognizes Ms. Lujan Grisham for 
5 minutes.
    Ms. Lujan Grisham. Thank you, Madam Chair, and I share my 
congratulations with the Chairwoman and the Ranking Member, as 
my colleagues have, and am delighted to be here. The SNAP 
program and nutrition programs are very important to me. I 
spent 17 years in state government as a cabinet secretary for 
both the Department of Health and Aging, and worked diligently 
to work on more coordinated benefits between general funded or 
state funded programs for home-delivered meals, Federal dollars 
for that, and the SNAP program so that it is not just one meal 
a day, and 5 days a week, because we know it is untenable, it 
is immoral, and it also creates significant health issues that 
we pay for, all of us, later. Sometimes not that much later.
    And so, Dr. Ziliak, I know many Members have touched on 
this, but I want to go back to maybe the specifics related to 
the composition of SNAP beneficiaries and what happens to them. 
And in your testimony, you said that 47 percent of SNAP 
participants who exited the program reenter within a year, and 
that families return to SNAP more quickly than individuals 
without children. And I wanted to hit on one of those.
    One of those families that you described lives in the 
district that I represent. LaNae Havens is a single mom, she 
works full-time, doesn't make very much money, and she relies 
on that small amount of benefit that she receives through SNAP 
to provide for her son, Connor. Now, she described to me that 
when she picks up extra hours or gets a promotion, then the 
benefit is taken away. And we talked about that as the cliff 
effect, and I wanted to really put that in perspective for 
folks in the hearing. So here is the example. If a parent with 
one child, working 40 hours per week, is earning the Federal 
minimum wage of $7.25 an hour, they get a raise, say, in my 
district, in Albuquerque, to the Albuquerque minimum wage at 
$8.50, then she would receive $208 more per month in salary, 
but she loses $683 in benefits. She sees a reduction in her 
housing assistance, her SNAP benefits, and loses childcare 
entirely. These parents are trying to do the right thing. They 
are accepting these promotions, they are trying to get out of 
poverty, they are going back to school, they are enrolling in 
the required training and work program, they are doing it on 
their own even when they are not required, they are seeking 
better opportunities, and we pull them right back into poverty 
because they lose the benefits, have to pay far more, or worse 
yet, they don't have anything and now we have an unstable 
household. So I want to support those parents that are making 
some progress, and I don't think we ought to be taking these 
benefits away.
    Based on your studies, do you have recommendations for us 
about how we can help these families transition into better 
financial circumstances, without them having to lose everything 
that we have put together to create that stability?
    Dr. Ziliak. Perhaps when thinking about this single mother, 
when she gets the raise, one of the things that was part of the 
1996 welfare reform bill when moms were leaving AFTC and then 
the TANF program, they would, at some point in time, lose 
Medicaid, but it was usually offered for a year, okay, 
transition. So if you want to think about some innovation on 
SNAP, perhaps when there is an increase that makes them 
ultimately perhaps ineligible, that there could be a transition 
period, right, where they can maintain that support for some 
period, 6 months, 12 months, into the future so that they don't 
feel that cliff immediately, and so they can gradually--because 
we do want people to move up the wage scale, right? There is no 
question about that. And----
    Ms. Lujan Grisham. And I am going to reclaim my time for a 
moment. If that would be consistent with other benefit 
programs, as you have identified, because the current system 
does not incentivize. And I want to be careful that I am not 
picturing or creating an environment in my discussion that my 
constituents and others, purposely back off being promoted. It 
is a hard life being at poverty or just above, and I can't 
believe that anyone wants to be there, and yet we 
disincentivize them because there is fear. And it may be that 
we need flexibility in that protection for a year, and give 
folks the sense that we really are trying to help them get that 
leg up, because I don't think that they really believe that. It 
is a very punitive environment. Once circumstance changes, if 
you don't tell us, we will recoup and sue you and you won't be 
able to do it ever again, you are barred, or we take everything 
away from you and you fail.
    Dr. Ziliak. So it turns out the research suggest that in 
terms of, is SNAP a kind of a disincentive to work, and there 
is--the program overall--is not a disincentive for people to 
work, but there are people who reach a little higher up in that 
income distribution, right, just before the SNAP benefit is to 
be eliminated, and the size of their Earned Income Tax Credit 
is being taxed away. Those are some of those individuals, 
right, who are just about ready to make it, right, where those 
benefits are being taken away at a relatively fast rate. So the 
programs, we do see, certainly, some evidence of disincentive 
for some of that population. Other of the population that they 
combine where their Earned Income Tax Credit----
    The Chairwoman. Excuse me. The gentlelady's time has 
expired.
    Dr. Ziliak. Sure.
    The Chairwoman. The chair recognizes Mr. Benishek, for 5 
minutes.
    Mr. Benishek. Thank you, Madam Chairman.
    I, frankly, while I associate myself a bit with Ms. Lujan 
Grisham in that there is a transition problem that we need to 
address. I know there is a transition program that exists now 
for a period of months, I believe, when this happens, but I am 
not as familiar with that as I would like, but this is a common 
problem. But I do want to address a question that I have 
about--and I am not exactly sure how to handle it, but to me, 
it seems like many of you are talking about fewer interactions 
with the people that were receiving benefits, and the length 
of--I don't know--I can't remember who it was that was talking 
about the 3 hours that it took to--a caseworker to do benefits 
with someone. Well, frankly, if we are going to have a program 
that helps people get food, then we should be interacting with 
them on a regular basis, and not just give them their benefit 
for a year and then have them check in once a year to see if 
there is a benefit. I think there should be like some 
counseling going along with this, and that we should have a 
regular interaction and not just, here are your benefits, see 
you in a year or see you in 6 months. I think that there has to 
be more to it than that. And, frankly, I didn't hear any of you 
talk about anything like that, and so I--those are my comments. 
But I want to hear a little bit more about the reporting 
requirements in the--what exactly happens if somebody has a--
with the simplified monitoring and that--if somebody has an 
increase in their income, are they supposed to call you, or 
does the agency call them, or how does that work? Dr. Mills, 
you seem to be----
    Dr. Mills. If I could respond.
    Mr. Benishek.--eager to answer that.
    Dr. Mills. Yes. Typically, what occurs is an individual is 
assigned a certification period, let us say 12 months. At the 
end of that 12 months, there is a complete review of all 
eligibility requirements that one needs to meet to remain on 
the program. At 6 months, however, there is an interim report 
that households would typically have to provide if they have a 
change in their household composition, or a change in their 
income that would alter their eligibility. So it is their 
requirement, their obligation to provide that information to 
the----
    Mr. Benishek. What happens if they don't do that then? What 
happens then?
    Dr. Mills. Well, if they don't provide the report at all, 
then they have failed to meet a procedural requirement and 
would be removed from the program. If they provide the report 
but it is inaccurate, they would receive an incorrect benefit. 
They would continue to be on the program receiving a benefit 
that could be too high or could be too low for them, and that 
is what is picked up in these error rates that we were----
    Mr. Benishek. Well, I guess I had a little bit of a 
problem, and you referred to like filling out a form as a 
hurdle. I have a--really, I have a problem with that attitude, 
to tell you the truth, because I have to fill out a form to do 
my taxes, and I just don't think of it as a hurdle, I think of 
it as a requirement in order for me to be obeying the law.
    Dr. Mills. Absolutely.
    Mr. Benishek. And I just think that the attitude that there 
is a hurdle is the wrong attitude because I don't like filling 
out forms either, but the law requires me to do it. And to, I 
don't know, change the way we do things so that it minimizes 
the hurdles is contrary to having good oversight to the program 
too.
    Dr. Mills. Yes. No, you are really getting into a very 
important point. I think the point I was trying to make is that 
it is the information that we want from the client, in order to 
accurately provide a benefit to them, and are there ways to 
obtain that information with less burden upon the client. So 
for instance, I mentioned call centers, using centralized 
agency call centers so individuals don't have to----
    Mr. Benishek. I don't understand what you mean by burden on 
the client.
    Dr. Mills. Well, I mean time and maybe out-of-pocket 
expense in their having to travel to a local office, rather 
than being able to provide information by phone. Some agencies 
require a face-to-face interview with a caseworker, others 
allow that interview to take place by phone.
    Mr. Benishek. How often do you think that we should be 
interacting with these people that need our help?
    Dr. Mills. Yes. Well, the intervals of time are 
appropriate. I think it is really more the form of the 
interaction.
    Mr. Benishek. So 6 months or a year then?
    Dr. Mills. Yes. I think----
    Mr. Benishek. Six months? Ms. Cunnyngham, what do you 
think?
    Ms. Cunnyngham. I think I would agree that that seems an 
appropriate amount of time, given that households need to 
report changes in their circumstances. If something happens, if 
they have an increase in their income, if they get a different 
benefit from another----
    Mr. Benishek. I am sorry, when the Chairwoman starts 
tapping, that means we have to stop.
    The Chairwoman. The chair recognizes Mr. Moolenaar, for 5 
minutes.
    Mr. Moolenaar. Thank you, Madam Chair. Thank you for your 
testimony today.
    And I wanted to share with you a situation that I 
experienced when I served in state government in Michigan, and 
it has to do with a lottery winner who won in excess of $1 
million, and was continuing to use food stamps, was encouraged 
to do that by our Department of Human Services, saying that it 
was part of the law. I ended up introducing a bill that 
required notification to our Human Services Division, as well 
as unemployment insurance agency of lottery award winners, and 
I believe we have closed some kind of a loophole there because 
it was considered more of an asset than an income. I know there 
was some language in the farm bill that referenced lottery 
winners and--ending Supplemental Nutrition Assistance Program 
benefits. If a member receives substantial gambling or lottery 
winnings, and that is determined by USDA to what is 
substantial, and then states shall establish agreements in the 
situation, but they can actually continue to receive SNAP 
benefits once they meet normal income and resource standards.
    I guess my question is, are all the states different with 
that regard, if there is a categorical eligibility and a state 
determines that they don't have an asset test, how is that 
handled state-to-state? Yes, sir.
    Dr. Ziliak. Most states do have a limit, and it is not 
unlimited in the SNAP program. And so there is some state 
discretion. It is Federal law, right, for resource limits, and 
then states apply for the waiver for those resource limits 
until----
    Mr. Moolenaar. What is the resource limit?
    Dr. Ziliak. Federally for the nonelderly, nondisabled, it 
is $2,000, and it is $3,000 for elderly and disabled: $3,250 I 
believe today. And----
    Mr. Moolenaar. Okay.
    Dr. Ziliak.--it has been $2,000 since the early 1980s, so 
that hasn't changed for a long time.
    Mr. Moolenaar. I guess my question is, so in that case when 
that person had won in excess of $1 million, the department was 
saying that was acceptable to stay on----
    Dr. Ziliak. At the time----
    Mr. Moolenaar. That was in the last 5 years.
    Dr. Ziliak. Right. At the time, the State of Michigan had 
waived the asset limit. And so there are roughly \1/2\ dozen or 
so states that had waived completely that--the asset test.
    Mr. Moolenaar. Okay, are there states that have waived that 
at this time?
    Dr. Ziliak. Yes, I think that is--yes.
    Mr. Moolenaar. How many states?
    Ms. Cunnyngham. I could speak to that. There are about 39 
states, the District of Columbia, Guam, and the U.S. Virgin 
Islands, that have broad-based categorical eligibility 
programs, and only five of them currently have some kind of an 
asset requirement to that.
    Mr. Moolenaar. So the----
    Ms. Cunnyngham. Now, that doesn't apply to everybody in the 
state. There are some income limits there too, so it is 
specific groups that the state has chosen to exempt from the 
asset limit.
    Mr. Moolenaar. So I guess what you are telling me is there 
are a significant number of states that have waived the asset 
limit? And so this could be happening in various states.
    Ms. Cunnyngham. It could be. States have the option, and 
Michigan is one of the states that did implement an asset----
    Mr. Moolenaar. We changed it. Yes.
    Ms. Cunnyngham. Yes. And several other states recently have 
decided to implement an asset limit.
    Mr. Moolenaar. So I guess my question is, you have done a 
lot of studies on this, on the program, and you are talking 
about the efficiencies, and some of the wording was, there 
weren't many error rates and--would you have picked this up in 
an error rate, or would that just be considered normal policy 
implementation?
    Dr. Mills. The household would have been considered 
correctly paid because, by the rules that were in place at that 
time, they were regarded as eligible.
    Mr. Moolenaar. So when you say the program is being run 
well, that is according to the criteria that would allow $1 
million lottery winner to continue on food stamps?
    Dr. Mills. That is how the quality control reviews are 
conducted. They take the law, the regulation, and then say what 
is the correct benefit, given those rules, to----
    Mr. Moolenaar. Seems like that would need to change. Thank 
you.
    The Chairwoman. The chair recognizes Mrs. Hartzler, for 5 
minutes.
    Mrs. Hartzler. Sure. And I want to also congratulate you 
and the Ranking Member. I am looking forward to working with 
you on this very important issue, and thank you for being here 
today.
    As I start off with Dr. Mills, I worked with senior 
citizens for quite a while over my life in different ways, and 
I just wondered, can you explain further the pattern of SNAP 
churn for households with the elderly? One would expect that 
these households have a low rate of churn given their longer 
certification periods and stable financial circumstances, but 
if I understood right, your study finds that they are more 
likely to churn compared to others facing recertification. So 
can you expand on that please?
    Dr. Mills. Yes. My comment in the testimony was with 
respect to those who reached the point where required 
certification must be made in order to renew their benefits. If 
you look at individuals at that moment in time, and you ask 
which are the ones who are more likely to churn, that is to 
say, more likely to go off the program than come back, 
households with elderly or disabled members are more likely to 
lose benefits at that moment, but then come back onto the 
program, suggesting that they were eligible throughout, but 
simply were unable to meet the procedural requirement. So that 
is the sense in which elderly or disabled individuals are more 
vulnerable to churn than other types of SNAP recipients. It is 
that--and the reasons are not altogether clear. We did conduct 
focus groups with recipients. And here is where we get to the 
issue of forms and documents and visits to the local office 
that may be required, those may be difficult for older or 
disabled individuals to meet those requirements, whether it is 
their inability to drive, or other cognitive decline issues 
that they are facing, the requirements are difficult for them 
to meet.
    Mrs. Hartzler. What is the percentage of elderly households 
that are on SNAP? The general population.
    Dr. Mills. I think I would defer to----
    Mrs. Hartzler. Okay.
    Dr. Mills.--others on that.
    Mrs. Hartzler. Right.
    Ms. Cunnyngham. I could give you the percentage of elderly 
people who are eligible. I will need to get back to you with 
that.
    [The information referred to is located on p. 152.]
    Mrs. Hartzler. Okay, that is certainly fine.
    Dr. Ziliak. May I?
    Mrs. Hartzler. Yes.
    Dr. Ziliak. It is 35 percent of eligible seniors are on the 
program today. So given that they meet the income and asset 
limits, all right, only 35 percent of those who are currently 
eligible participate.
    Mrs. Hartzler. So you are saying----
    Dr. Ziliak. So it is very low.
    Mrs. Hartzler.--there are 65 percent of elderly out there 
who qualify, but they are--they don't receive the benefits.
    Dr. Ziliak. That is correct.
    Mrs. Hartzler. And what would you attribute that to? Just 
the barriers of the paperwork?
    Dr. Ziliak. A lot of it is barriers. Some of it could be 
mobility issues for them as seniors. Some of it could be that 
the benefit, the minimum benefit is $16, and so----
    Mrs. Hartzler. Yes.
    Dr. Ziliak.--at the end of the day, the benefit might be 
too low for them, given the costs associated with applying.
    Mrs. Hartzler. Yes. Or just pride.
    Dr. Ziliak. Or pride.
    Mrs. Hartzler. But----
    Dr. Ziliak. Yes.
    Mrs. Hartzler.--and how did you get that number?
    Dr. Ziliak. It is from the quality control data. From the 
SNAP administrative quality control data.
    Mrs. Hartzler. Okay. Switching gears a little bit, and to 
open up to any of you who would like to answer, how has the 
income structure for SNAP households evolved? So has there been 
a change in the household structure over the years, and is that 
related? Maybe start with Mr. Tordella. You have done your 
longitudinal study.
    Mr. Tordella. Well, over time, the--I am sorry. There has 
been a drop for individuals and families with income. They 
have--during our study period--they actually had a drop in 
their average monthly entry rate, which decreased the growth in 
that size. So the people who have earnings, who do have some 
earnings, are leaving the program, or accounting for fewer.
    Mrs. Hartzler. Anybody else want to weigh in on that?
    Ms. Cunnyngham. Sure. Looking at the percentage of 
households who have earnings, that has increased slightly in 
the last decade or so. In 2004, about 29 percent of SNAP 
households had someone in the household with a job, and that 
has gone up to 31 percent now. So that is a change. We also see 
that the percentage of the caseload that has income under 50 
percent of the poverty guideline is slightly increasing, as is 
the percentage of the caseload that has income over 100 percent 
of the poverty guideline.
    Mrs. Hartzler. Thank you very much.
    The Chairwoman. The chair recognizes Mr. Yoho, for 5 
minutes.
    Mr. Yoho. Thank you, Madam Chair. Congratulations. Since we 
came in together, I am impressed with you. And I look forward 
to listening to you because I know the concern in this 
Committee is, like we talked about yesterday, there is a 
certain percentage of people on the nutritional programs that 
we have seen are working the system, some are taking advantage 
of it, and we need to reform it for those people that truly 
need it. I mean that is, I think what everybody on here is for. 
We want the best program we can so that people get the best 
nutrition they can while they need that.
    And, Ms. Cunnyngham, I was reading my notes, and I need 
some help with the math here, since you are from the 
mathematics part of this. In 2013, I have 44 percent of the 
people who were less than 18 that were on SNAP, 18 years of 
age, nine percent were over 60 years of age, and ten percent 
were disabled. What accounts for the other 37 percent because 
that wasn't mentioned? Who are those?
    Ms. Cunnyngham. The numbers that I gave in my testimony 
were for households with children, elderly people, or people 
with disabilities. If I could just talk about participants 
here, the percentage of participants who are children is now 44 
percent. The percentage that are elderly, that is nine percent. 
And the percentage that are nonelderly adults, that are 18 to 
59, is 46 percent. The percentage that are disabled, that 
includes children and nonelderly adults, is 20 percent. So----
    Mr. Yoho. Does that add up to 100? I didn't write those 
down. I am sorry.
    Ms. Cunnyngham. Well, the percentage that is the disabled 
is an overlap between children and nonelderly, but----
    Mr. Yoho. All right. Is there a place that I can get the 
breakout of that so I can see 100 percent who is on this?
    Ms. Cunnyngham. Absolutely.
    [The information referred to is located on p. 153.]
    Mr. Yoho. Okay. We will get that later.
    Ms. Cunnyngham. Our characteristics report.
    Mr. Yoho. That is great. And then we were talking about the 
churn rate, and I had in my notes here also that there was a 
self-reporting, and I think it was Mr. Abraham was talking 
about this and Mr. Benishek, about the self-reporting. Do you 
feel that is something that is adequate, or does there need to 
be, as Mr. Benishek brought up somebody working with them? And 
I bring that up strictly for this. We had a Section 8 house 
that we rented out to a family, there were about eight kids in 
that family. Single mother, she was working, and as she was 
working, making more money, the benefits she was receiving 
dropped in relationship to the amount she had. It was a monthly 
thing that she was checking in on. And in order to wean people 
off of this, because my next question is, as I will come to in 
a minute, what happens is people start working, and then if we 
are taking money away from them, as they are trying to get out 
of that hole, they never get out of the hole because we have a 
thumb on them. And what I want to hear from you is what you 
guys think we should do, how to reform that program so we want 
people into the--we actually--we don't want them in there, we 
would rather have everybody off of it and self-sufficient, but 
we know that is not going to happen, but the people that get in 
there, we want them up and out so that they are on their own 
and they are living a better quality of life. How do we do that 
in a reform of a program like this? I will start with you, Ms. 
Cunnyngham. Sorry.
    Ms. Cunnyngham. Well, currently, there is an earned income 
deduction, so 20 percent of a household's earnings is deducted 
from their gross income and not considered in their benefit 
determination. So I suppose if you wanted to encourage work, 
and to----
    Mr. Yoho. Which I do.
    Ms. Cunnyngham. Yes. And ease that drop-off, one 
possibility would be to look at the percentage of earnings 
that----
    Mr. Yoho. Well, and one of the statements that I--or 
statistics I had, 70 percent of the SNAP households had no 
income in 2013.
    Dr. Mills, if you would, how do we change that program so 
that we can get people in, up and out?
    Dr. Mills. Yes. Well, part of getting up and out is 
combining, I would say, the value of benefits from the program 
with your earnings so that you can sufficiently make ends meet, 
save, educate yourself, take advantage of opportunities.
    Mr. Yoho. We say those things, but what are we doing to 
make sure that happens?
    Dr. Mills. Yes. Well, I think----
    Mr. Yoho. Is there a mandatory requirement that you better 
your lot in life with education or skills that you learn on 
these programs?
    Dr. Mills. Yes.
    Mr. Yoho. Because I saw the average person on them is on 
there, once they enter, it is 8 years.
    Dr. Mills. Well, that is of those who are measured at any 
single point in time, but as Mr. Tordella indicated, of those 
who come in at any given point in time, if you look then a year 
later, \1/2\ of those individuals have left.
    Mr. Yoho. And I know we are out of time, but I look forward 
to getting more information so that we can fix these programs. 
Thank you.
    The Chairwoman. Thank you to all the members of the panel. 
I definitely appreciate your expertise. Thank you to the 
Members that were here that had a chance to ask questions. And 
the chair wants to give just a brief closing statement, Mr. 
McGovern and myself 35 seconds.
    Mr. McGovern, 35 seconds.
    Mr. McGovern. Well, thank you very much. Thank you very 
much for being here. I have learned a lot.
    I want to clear up a few things for the record. 
Millionaires on SNAP. It is not a problem. We fixed it in the 
farm bill. It is right here. And to be honest with you, if I 
was a millionaire, I don't know why I would want to be on SNAP. 
It is a nonissue.
    We have learned a lot here today, one, that there are very 
few ineligible people on the program; two, that this is a very 
efficiently run program; and three, that many families lose 
benefits because of the procedural problems.
    And to Mr. Benishek's issue about burdens, it is a burden 
for somebody to go in person to an office that may not be near 
where they live, and sit there and wait for sometimes 3 to 4 
hours for this process to take place, and if they are working, 
getting permission to leave their job to be able to do that. So 
it is a burden.
    And then the final thing I would say is that Ms. Lujan 
Grisham raised the issue of the cliff. There are some things 
that we are doing to address that, but this is a wider 
discussion. The SNAP program is a food program. It is not a job 
training program. It is not a jobs program. And we need to make 
sure that everybody in this country has access to food. Food 
ought to be a right, and this is a program that works, and I 
thank the chair for the generous 35 seconds.
    The Chairwoman. I think you went to 40, but it is okay.
    And I just want to say this. I think what we saw here today 
is exactly why we need to have this discussion. I think back to 
my original question on: are we really meeting the needs of 
families, are we doing enough, are we in touch enough, are we 
really moving people from a program to being able to put them 
in a position of success, if they fall back, are we there, do 
we know that. And I think that that is the validity of exactly 
why we are here. I appreciate the discussion on both sides. I 
appreciate, again, your expertise. And the reason these 
hearings are so valuable is to be able to hear fact, be able 
for Members to ask questions, and then to have a dialogue at a 
level that there is a give-and-take of understanding that our 
goal is to remove the obstacles, and make sure that every child 
and adult in this country has the opportunity to have a 
nutritious meal.
    And with that, I would tell you that Members are voting. 
Under the rules of the Committee, the record of today's hearing 
will remain open for 10 calendar days to receive additional 
material and supplementary written responses from the witnesses 
to any questions posed by a Member.
    This hearing of the Subcommittee on Nutrition, is 
adjourned. Thank you.
    [Whereupon, at 2:47 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Reports by Hon. Jackie Walorski, a Representative in Congress 
                              from Indiana
Insert 1
Lottery Match Report 2014
Department of Human Services
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

October 2014

    Dear Members of the Michigan Legislature:

    We are pleased to highlight the Lottery Match accomplishments in 
the past year. This report builds on the first Lottery Match report DHS 
issued in the spring of 2013.
    The premise behind Lottery Match is simple: Be a good steward of 
taxpayer dollars and stop those gaming the system to help those most in 
need.
    Under Public Act 77 of 2012, a weekly cross-check allows DHS to 
accurately evaluate a recipient's eligibility since lottery winnings 
can be considered assets in some instances--like the Food Assistance 
Program and State Emergency Relief (SER). Asset tests are now conducted 
in these areas.
    Some 7,216 Michigan Lottery winners of $1,000 or more were matched 
and identified in 2013 as living in households that were receiving some 
sort of public assistance. This adds up to nearly $44 million in 
lottery proceeds with average lottery winnings of $6,056 per case. 
Federal and/or state law still prohibits closure of many assistance 
benefits to the majority of Michigan lottery winners who are matched. 
This means a multi-million dollar lottery winner can still qualify for 
certain assistance and benefits. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Clearly, there is potential for big savings should regulations be 
changed to allow for lottery winnings to be considered assets when 
determining eligibility for certain Federal assistance programs.
    Of these total cases, DHS closed 810 cases receiving 977 benefits 
among recipients who had lottery winnings of more than $1,000. Most of 
these benefits closures involved food assistance, followed by Medicaid. 
While modest when compared to the total number of lottery winners who 
also receive assistance, these closed cases represent nearly $2 million 
in savings.
    When state and Federal law allows a recipient's benefits to be 
closed due to lottery winnings, the benefits have been closed.
Big Lottery Winners = Benefits Closure
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In 2013, 18 lottery winners of jackpots valued at $100,000 or more 
were receiving public assistance benefits in Michigan at the time they 
won. Seven of those cases involved Food Assistance Program benefits, 
including one in which the lottery winnings were in the millions. 
Thanks to the Lottery Match law, DHS quickly closed that case.
    Recently, an even larger winner of more than $4 million was 
identified rapidly thanks to the match. That recipient's food 
assistance case was also shut down immediately.
    Where allowed by law through the Lottery Match, DHS continues to 
successfully identify and close assistance benefits.
Early Identification = Quicker Closure
    With the match, DHS has improved the rate and shortened the time 
frame it takes to identify winners.
    In addition, DHS frontline workers are often identifying winnings 
before the client has reported them to DHS, as they are all required to 
do.
    DHS Office of Inspector General (OIG) agents take a closer look at 
all cases involving winnings of $5,000 or more.
    OIG reports very few cases where the frontline lottery match failed 
to identify and close a case the first time through.
    By quickly identifying lottery jackpot winners, DHS has identified 
another area of potential savings--households containing both lottery 
jackpot winners and clients who claim to buy and prepare their meals 
separately. Eliminating duplicate food assistance groups in one 
household could result in significant savings.
Farm Bill of 2014
    The most recent farm bill merits a special mention for a current 
reform opportunity on the Federal level. The major item pertaining to 
the lottery is this directive from section 4009 (emphasis added below):

          ``Any household in which a member receives substantial 
        lottery or gambling winnings, as determined by the Secretary, 
        shall lose eligibility for benefits immediately upon receipt of 
        the winnings.''
    This would constitute a major change from the current stance 
related to food assistance. While Federal regulations that would 
implement this section have not yet been written, this change to 
Federal law is an important step in the right direction toward 
curtailing fraud/waste of public assistance dollars.
Strengthening State Law
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    DHS appreciates the continued partnership with the Michigan 
Legislature in the effort toward reform and change. After the release 
of the first Lottery Match report in 2013, Members in both the Michigan 
House and Senate expressed interest in doing more and the following 
legislation was introduced:
    SB 338 (Emmons)--Requires an asset test for the Child Development 
Care program, now housed in the Michigan Department of Education.
    SB 339 (Moolenaar)--Requires the payback of certain public 
assistance through means of a lottery intercept.
    SB 384 (Moolenaar)--Allows for the withholding of a lottery prize 
over $600 consistent with SB 339.
    HB 4855 (Kurtz)--Allows for the withholding and intercept of 
lottery prizes over $1,000 for debts owed to DHS.
    Each will help DHS ensure that taxpayer dollars are used 
efficiently and effectively, and targeted to those most in need. DHS 
looks forward to continuing to work with sponsors and supporters of 
these bills as they move through the legislative process.
Next Steps
    With many lottery winners either receiving assistance benefits or 
living in a household where others receive benefits, the integrity of 
state and Federal safety net programs is still at risk.
    Taxpayers do not like it when people game the system. They 
rightfully reject the premise that those who have won thousands of 
dollars should continue to benefit from programs aimed at providing a 
helping hand to the truly needy.
    The data available by cross-checking lottery winners with benefits 
recipients in this latest report indicates more than ten percent of the 
winners will be required to put their proceeds towards self-
sufficiency. While the lottery match works, Federal and state law often 
conflict, prohibiting an asset test in some instances and allowing 
recipients with thousands of dollars at their disposal to continue on 
assistance.
    DHS will continue to advocate for change, advocate for clients who 
strive toward self-sufficiency and advocate always for maintaining the 
integrity of these vitally important assistance programs.
            Sincerely,
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Maura D. Corrigan,
Director of the Michigan Department of Human Services.
Insert 2
Department of Human Services
Preserving Assistance for Our State's Truly Needy
Calendar Year 2012 Report
Lottery Winners and Welfare Programs: Verifying Assistance Program 
        Eligibility for Lottery Winners
    In April 2012, Public Act 77 of 2012 became effective, requiring 
the Michigan Department of Treasury and the Department of Human 
Services to automatically crosscheck lottery winners with people 
receiving welfare benefits. Lottery winnings are an asset. With asset 
tests in place for programs including food assistance and state 
emergency relief, this monthly cross-check allows DHS to more 
efficiently evaluate a recipient's eligibility.
    The data collected thus far is sobering:

  <bullet> Nearly 14 percent of all lottery winners are either welfare 
        recipients themselves or reside in a household with welfare 
        recipients.

  <bullet> Of the 3,544 lottery winners who were identified as welfare 
        recipients or living with welfare recipients between April 2012 
        and December 2012, DHS was able to close only 565 cases. In the 
        vast majority of these cases, Federal policy prohibited closure 
        despite sometimes large winnings.

  <bullet> Those recipients accounted for $24,101,074 in lottery 
        winnings during that time frame, an average of $6,800 per case.

    Welfare benefits should be preserved for those truly in need. The 
lottery cross-check legislation has provided DHS with a valuable tool. 
It has also highlighted policies Federal and state authorities should 
change to protect the integrity of welfare programs.
An Overview of Welfare Programs with Asset Limits
    Some welfare programs allow for--and have established--asset 
limits:

  <bullet> Food Assistance Program

  <bullet> Family Independence Program (cash assistance)

  <bullet> Most Medicaid programs

  <bullet> State Emergency Relief

  <bullet> State Disability Assistance

  <bullet> Refugee Assistance Program

    But other welfare programs do not have asset testing, including 
Child Development and Care (CDC), certain Medicaid programs like 
Healthy Kids, Group 2 Pregnant Women, Transitional Medical Assistance 
Plus (TMA-Plus) and the Refugee Assistance Program for Medical.
    The absence of any asset limits and other policies creates 
significant barriers to the preservation of welfare dollars for the 
truly needy.
    In reviewing the data surrounding our lottery crosscheck policy, 
DHS has identified three primary barriers.
Barrier One:
    Medical Assistance Programs That Lack Asset Tests

    The major hurdle with respect to these programs is that any changes 
that would require an asset test are impeded by Federal Medicaid law 
and the recent Affordable Care Act. These limit the states' abilities 
to change eligibility standards for Medicaid. To add an asset test to 
Healthy Kids' eligibility criteria would make it more restrictive than 
it now is. Similarly, the Affordable Care Act's maintenance of effort 
requirements prevent states from scaling back their coverage during the 
period in which the new health care program rolls out.
    The four primary medical programs without any asset test are:

  <bullet> Healthy Kids \1\
---------------------------------------------------------------------------
    \1\ http://www.mfia.state.mi.us/olmweb/ex/bem/125.pdf; http://
www.mfia.state.mi.us/olmweb/ex/bem/129.pdf; http://
www.mfia.state.mi.us/olmweb/ex/bem/131.pdf.

  <bullet> Healthy Kids for Pregnant Women \2\
---------------------------------------------------------------------------
    \2\ http://www.mfia.state.mi.us/olmweb/ex/bem/126.pdf.

  <bullet> Transitional Medicaid Plus \3\
---------------------------------------------------------------------------
    \3\ http://www.mfia.state.mi.us/olmweb/ex/bem/647.pdf.

  <bullet> Refugee Medical Assistance \4\
---------------------------------------------------------------------------
    \4\ http://www.mfia.state.mi.us/olmweb/ex/bem/630.pdf.

Scenario: <SUP>[1]</SUP>
    Medical Assistance Programs That Lack Asset Tests

    While pregnant and receiving Medicaid through the Healthy Kids and 
Pregnant Women Program, Sue Smith won $300,000 in the Michigan Lottery. 
Despite her significant winnings, Federal policy required that Ms. 
Smith continue to receive Medicaid. Ms. Smith's coverage continued for 
2 months past the birth of her son, as required by policy. Her son 
continued to receive Medicaid for 1 year past his birth. The Medicaid 
capitation rate is $268 monthly, which equates to a potential benefit 
cost of $6,164 for the two recipients regardless of the $300,000 
lottery winning.
    The Medicaid capitation rate is $268 monthly, which equates to a 
potential benefit cost of $6,164 for the two recipients regardless of 
the $300,000 lottery winning.
Barrier Two:
    Child Development and Care Does Not Allow for Asset Tests \5\
---------------------------------------------------------------------------
    \5\ http://www.mfia.state.mi.us/olmweb/ex/bem/400.pdf.

    Child Development and Care (CDC) is a program formerly housed 
within DHS and now administered by the Michigan Department of Education 
(MDE). While the state has the ability to require an asset test, 
Michigan currently has no asset test in place for the CDC program.
Scenario: <SUP>[1]</SUP>
    Child Development and Care Does Not Allow for Asset Tests

    John Smith currently receives CDC benefits for his three children. 
He recently won $33,000 in the Michigan Lottery, but continues to 
receive welfare in the form of child care benefits.
    Because CDC does not have an asset test, the Smith family will 
continue to receive $1,000 in child care assistance each month.
Barrier Three:
    The FNS Buy and Prepare Statute for Food Assistance

    USDA Food and Nutrition Services (FNS) under Federal law 
<SUP>[2]</SUP> requires states to consider a person who ``customarily 
purchases food and prepares meals for home consumption separate and 
apart from the others'' as a distinct household group, even though they 
may reside in the same house with others.
    This allows a lottery winner to have an individual case isolated 
from other household members, while other persons within the home 
continue receiving benefits.
    It also opens the door to fraud and abuse within the Food 
Assistance Program. By creating distinct groups within the home, 
recipients can drastically increase the amount of food assistance 
received. The difference can total hundreds of dollars per month.
    Eligibility specialists are now required to ask the ``buy and 
prepare'' question in a manner that leads the applicants to answer most 
often that, indeed, they do buy and prepare their food separately. 
While Office of Inspector General agents investigate these cases 
aggressively, it is obviously difficult to prove that the household 
does buy and prepare their food together.
Scenario: <SUP>[1]</SUP>
    The FNS Buy and Prepare Policy for Food Assistance

    Robert Jones lives in a home with his two adult children. Mr. Jones 
recently won $125,000 in the Michigan Lottery. While the asset test 
affected Mr. Jones' food assistance benefit, it did not affect his 
children's individual benefits.
    By declaring that he, his daughter and his son each purchase and 
prepare their food separately, the household will continue to receive 
$400 per month in Federal food assistance regardless of Mr. Jones 
$125,000 lottery winning.
    Households in which several individuals with children reside can 
potentially receive thousands of dollars of monthly benefits by 
claiming that each group purchases and prepares food separately.
Opportunities:
    Two current examples may show the path forward:

    New York Lottery Intercept Program

    New York uses a lottery intercept program for the repayment of 
public assistance under state law. This program is established 
specifically for the New York Department of Social Services. Under 
current New York law and code,<SUP>[3]</SUP> up to 50% of any lottery 
prize of $600 or more is intercepted from any individual who has 
received public assistance benefits within a period of up to 10 years 
prior to the issuance of the prize. This legislation was passed in 1995 
and took effect April 1996. The philosophy in New York focuses on the 
repayment of all assistance, not only on debts or overpayments from 
public assistance. The proceeds from the intercept are applied to a 
client's oldest eligible assistance payment first, and payments issued 
to a client under the age of 21 are excluded. The lottery winner is 
afforded certain protections, including notice. In the first year of 
operation, the intercept collected over $1.5 million; over $3.7 million 
was collected in Fiscal Year 2010-2011. Since 1996, the lottery 
intercept has collected more than $33 million.
Opportunities:
    Michigan: Unemployment Insurance Agency, amendment to the Lottery 
Act.

    Michigan also uses a lottery intercept system. At the end of the 
2011-2012 legislative session, the Unemployment Insurance Agency led 
efforts to successfully pass legislation <SUP>[4]</SUP> that amended 
the Lottery Act. This amendment requires payment of a lottery winner's 
unemployment compensation debt from a prize of $1,000 or more, after 
other priority distributions of the prize are made. The following 
priority of payments exists under the current Lottery Act: first, to 
any liability to the state, other than an assigned delinquent account 
owed to a court or an unemployment compensation debt; second, to any 
support arrearage; third, to any unemployment compensation debt; 
fourth, to any assigned delinquent account of money due to a court, 
and; fifth, to the lottery winner, if any balance remains. Michigan 
also provides protections to the individual, including notice 
provisions.
Opportunities:
    DHS suggests statutory changes similar to that taken with the UIA 
as a first step.
    DHS will continue to evaluate how best to implement New York's 
approach as well.
    DHS officials will seek Congressional action to revise the current 
definition, under Federal law,<SUP>[5]</SUP> of what constitutes a 
household group.
    Each of these steps will help us in our efforts to ensure that 
taxpayer dollars are used efficiently and effectively, and can be 
targeted to those most in need.
Conclusion
    With 14 percent of lottery winners receiving welfare benefits or 
living in a household where others receive welfare benefits, the 
integrity of both state and Federal safety net programs is threatened. 
Taxpayers rightfully reject the premise that those who have won 
thousands of dollars should still benefit from the programs aimed at 
providing a helping hand to the needy.
    The data available by cross-checking lottery winners with welfare 
recipients is telling. Only \1/3\ of those who have won the lottery 
while receiving welfare will be required to put those winnings toward 
self-sufficiency. Federal and state policies often prohibit the 
application of an asset test, allowing recipients with thousands of 
dollars at their disposal to continue on welfare.
    It is equally troubling that current Federal law encourages 
families to indicate they purchase and prepare their food separately in 
order to exponentially increase the food assistance received by the 
household.
    It is time to advocate for change, for self-sufficiency and for the 
integrity of these important programs.

    Nearly \2/3\ of Lottery Winners Continue to Receive Welfare Benefits Because of Federal and State Policy
----------------------------------------------------------------------------------------------------------------
                          Verifying Assistance Program Eligibility for Lottery Winners
-----------------------------------------------------------------------------------------------------------------
                                                                                                  Winner is a
                                                                               Case  Reviewed    member of the
     Winning Value          Number of      Number of Cases   Case Closed for   But Still Open    household, but
                             Clients           Closed         Other Reasons    Due to Policy   not active on the
                                                                                                      case
----------------------------------------------------------------------------------------------------------------
      $1,000-$2,000                791                41               105               602                 43
      $2,001-$4,000              1,775               214               262             1,181                118
      $4,001-$5,000                385               109                65               174                 37
      $5,001-$9,999                265                92                51               105                 17
    $10,000-$14,999                130                43                28                55                  4
    $15,000-$29,999                137                43                28                52                 14
   $30,000-$100,000                 37                16                 5                 7                  9
 More than $100,000                 24                 7                 5                 7                  5
                       -----------------------------------------------------------------------------------------
  Total...............           3,544               565               549             2,183                247
----------------------------------------------------------------------------------------------------------------

[Endnotes]
    <SUP>[1]</SUP> The scenario is based on an investigation by the 
Office of Inspector General. Identifying information has been changed 
for privacy protection.
    <SUP>[2]</SUP> 7 U.S.C. 2012(n)(1); 7 CFR 273.1(a).
    <SUP>[3]</SUP> NY CLS Soc. Serv. ( 131-r) NY CLS Tax Law ( 1613-
b) and NY code (18 NYCRR  396.1).
    <SUP>[4]</SUP> MCL  432.32.
    <SUP>[5]</SUP> 7 U.S.C.  2012(n)(1); 7 CFR 273.1(a).
                                 ______
                                 
Submitted Letter by Hon. Jackie Walorski, a Representative in Congress 
                              from Indiana
December 18, 2014

    Hon. Frank D. Lucas,
    Hon. K. Michael Conaway,
    House Committee on Agriculture,
    Washington, D.C.

    Dear Mr. Lucas and Mr. Conaway:

    I write to ask that the House Committee on Agriculture recommend a 
definition of the term ``substantial'' within the regulations to be 
promulgated by the Food and Nutrition Service (FNS) under Section 4009 
of the Agricultural Act of 2014 (the Act). The Act was signed into law 
on February 7, 2014. Under section 4009, the Secretary of the United 
States Department of Agriculture (USDA) was tasked with defining the 
term substantial. Ten months after the passage of the Act, the USDA has 
not outlined the steps for the implementation of this provision nor 
defined the term substantial. We remain troubled by substantial lottery 
winners who continue to receive public assistance benefits despite the 
new legislation.
    Michigan seeks your help to make sure the law is implemented as 
intended. In this letter, we address three subjects. First, we offer a 
definition of ``substantial'' as required by Section 4009 based on 
Michigan's experience. We then discuss the impact Section 4009 will 
have on traditional categorically eligible groups who win the lottery, 
and finally note our ongoing concerns with the ``purchase and prepare'' 
provision. We hope our thinking assists you!
I. Section 4009 of the Agricultural Act of 2014
    The newly passed law provides:

                  (a) In General.--Section 6 of the Food and Nutrition 
                Act of 2008 (7 U.S.C. 2015) (as amended by section 
                4008) is amended by adding at the end the following:

                          ``(s) Ineligibility for Benefits Due to 
                        Receipt of Substantial Lottery or Gambling 
                        Winnings.--

                          ``(1) In general.--Any household in which a 
                        member receives substantial lottery or gambling 
                        winnings, as determined by the Secretary, shall 
                        lose eligibility for benefits immediately upon 
                        receipt of the winnings.
                          ``(2) Duration of ineligibility.--A household 
                        described in paragraph (1) shall remain 
                        ineligible for participation until the 
                        household meets the allowable financial 
                        resources and income eligibility requirements 
                        under subsections (c), (d), (e), (f), (g), (i), 
                        (k), (l), (m), and (n) of section 5.
                          ``(3) Agreements.--As determined by the 
                        Secretary, each State agency, to the maximum 
                        extent practicable, shall establish agreements 
                        with entities responsible for the regulation or 
                        sponsorship of gaming in the State to determine 
                        whether individuals participating in the 
                        supplemental nutrition assistance program have 
                        received substantial lottery or gambling 
                        winnings.''.
A. Defining the Term ``Substantial''
    We believe that the term ``substantial'' lottery winnings should be 
defined as a household where gross lottery winnings are greater than 
$5,000. The maximum allowable amount of assets a household can have in 
Michigan is $5,000. Michigan chose this asset limit by adjusting the 
maximum allowable amount found at 7 CFR 273.8(b) for the rate of 
inflation. Further, in determining whether selling a jointly held asset 
would yield a ``significant return'' or ``any significant amount of 
funds'' for a household applying for food assistance, 7 CFR 
273.8(d)(18)(i) and (ii) define both a ``significant return'' and ``any 
significant amount of funds'' as any amount greater than $1,500. The 
terms ``significant'' and ``substantial'' are synonymous. Again, 
accounting for inflation, $5,000 is consistent with the amount 
considered ``significant'' for this FNS regulation as well. I note that 
Texas also has an asset limit of $5,000 for food assistance benefits. 
We used Texas as our model.
    The Michigan Legislature passed Public Act 77 of 2012, which 
requires the Michigan Lottery to disclose the names and other 
identifying information of lottery winners to the Michigan Department 
of Human Services (OHS) within 7 days of paying out lottery winnings of 
$1,000 or greater. This match program allows OHS to determine whether 
lottery winners are receiving public assistance. In Michigan, the 
supplemental nutrition assistance program is called the Food Assistance 
Program (FAP). In calendar year 2013, of the 5,383 FAP lottery winners, 
we closed 566 FAP lottery winners cases; based on the average food 
assistance benefit per household, we saved taxpayers $137,906 each 
month in food assistance benefits.
    On the basis of Michigan's success with the lottery match and the 
$5,000 asset limit, we suggest that FNS adopt $5,000 as the threshold 
definition of the term ``substantial.''
B. Traditional Categorically Eligible Groups
    Under 7 U.S.C. 2014(a), traditional categorically eligible groups 
are established when all members of a household receive one of the 
following: social security benefits; state disability benefits; or 
benefits under a general assistance program which is administered by 
the state or a local government. In Michigan, the state administers a 
general assistance program called Family Independence Program (FIP) 
that grants categorical eligibility for FAP. Traditional categorically 
eligible groups cannot contain any members who are disqualified because 
of: (1) an intentional program violation; (2) an employment-related 
activity; or (3) a drug-related felony.
    7 U.S.C. 2014(j) allows for ``resource exemption for otherwise 
exempt households'' as it provides that a household member who receives 
social security benefits under title XVI of the Social Security Act 
(SSA), aid to the aged, blind, or disabled under titles I, II, X, XIV, 
or XVI of the SSA, or who receives state benefits funded under part A 
of Title IV of the SSA is considered ``to have satisfied the resource 
limitations prescribed under subsection (g).'' 7 U.S.C. 2014(g) 
prevents us from applying an asset test to these traditional 
categorically eligible groups for purposes of FAP. Regrettably, we 
cannot close cases of many huge lottery winners because FAP has no 
asset test. (In 2014, five cases worth $1 million.) For example, a 
Michigan lottery winner on our rolls won more than $20 million. Because 
of subsection (j), that individual remains eligible until his SSI 
closes, even though Michigan has a $5,000 asset limit.
    However, 7 U.S.C. 2015(a) states that ``[i]n addition to meeting 
the standards of eligibility prescribed in section 5 of this Act [7 
U.S.C. 2014], households and individuals who are members of eligible 
households must also meet and comply with the specific requirements of 
this section to be eligible for participation in the supplemental 
nutrition assistance program.'' (Emphasis added.) The new lottery 
provision found in section 4009 of the Agricultural Act of 2014 was 
inserted into 7 U.S.C. 2015 as subsection 2015(s). Therefore, 
presumably, lottery and casino gambling winners with ``substantial'' 
lottery winnings will immediately lose their FAP benefits, whether or 
not the household is categorically eligible. This should help remedy 
the situation of the lottery winners who continue to receive FAP only 
because these winners also receive SSI benefits. We cannot take action 
in five cases because FNS has not defined the term ``substantial.''
II. Michigan's Ongoing Concerns
A. Purchase and Prepare
    Michigan remains concerned with the ``purchase and prepare'' 
provision, 7 U.S.C. 2012, which provides in part:

          [(n)(1)] ``Household'' means--

                  (A) an individual who lives alone or who, while 
                living with others, customarily purchases food and 
                prepares meals for home consumption separate and apart 
                from the others; or
                  (B) a group of individuals who live together and 
                customarily purchase food and prepare meals together 
                for home consumption. [Subsection 2012(n)(1).]

    The corresponding Federal regulation, 7 CFR 273.1, states as 
follows:

          [(a) General household definition.] A household is composed 
        of one of the following individuals or groups of individuals [, 
        unless otherwise specified in paragraph (b) of this section] 
        [:]

                  (1) An individual living alone;
                  (2) An individual living with others, but customarily 
                purchasing food and preparing meals for home 
                consumption separate and apart from others; or
                  (3) A group of individuals who live together and 
                customarily purchase food and prepare meals together 
                for home consumption.

    This language promotes significant opportunities for fraud and 
abuse because it creates distinct groups within a single home/
residence. Abuses arise when lottery winners live in the same household 
but are not considered part of the household for FAP purposes. The 
other members in the same household continue receiving benefits by 
claiming that the lottery winner purchases and prepares food 
separately. This past year substantial lottery winnings did not result 
in case closure in 2,551 cases because the winners claimed they were 
not ``active on the case,'' i.e., they ``purchased and prepared'' their 
food separately. For example, a FAP recipient/lottery winner lives with 
a parent. This recipient denies purchasing and preparing food with the 
parent. However, this parent won multiple lottery drawings with amounts 
totaling almost $200,000 in the first 6 months of 2014. The FAP 
recipient continues to receive benefits even though she lives with her 
parent and this parent has won multiple, substantial amounts of money 
in the lottery. Unfortunately, the current language of section 4009 
allows this abuse to occur.
    We believe that the definition of ``household,'' for purposes of 
determining FAP eligibility, should be revised, so that all persons 
living in the same household are considered one group. The current 
``purchase and prepare'' language creates unfortunate loopholes that 
allow abuse.
    If you have any questions or concerns about the information 
provided above, or if the Michigan OHS can assist in any other way, 
please do not hesitate to contact me at [Redacted] or Katie Zeiter at 
[Redacted].
            Sincerely,
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Maura D. Corrigan,

CC:

Matt Weidinger,
Honorable Dave Camp,
Honorable Paul Ryan,
Jason Turner,
Eloise Anderson,
SIG Secretaries,
Matt Schertz,
Anne DeCesaro.
                                 ______
                                 
     Supplementary Material Submitted by Hon. James P. McGovern, a 
             Representative in Congress from Massachusetts
Section 4009 of Public Law 113-79, The Agricultural Act of 2014
SEC. 4009. ENDING SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM BENEFITS 
    FOR LOTTERY OR GAMBLING WINNERS.

    (a) In General.--Section 6 of the Food and Nutrition Act of 2008 (7 
U.S.C. 2015) (as amended by section 4008) is amended by adding at the 
end the following:

          ``(s) Ineligibility for Benefits Due to Receipt of 
        Substantial Lottery or Gambling Winnings.--

                  ``(1) In general.--Any household in which a member 
                receives substantial lottery or gambling winnings, as 
                determined by the Secretary, shall lose eligibility for 
                benefits immediately upon receipt of the winnings.
                  ``(2) Duration of ineligibility.--A household 
                described in paragraph (1) shall remain ineligible for 
                participation until the household meets the allowable 
                financial resources and income eligibility requirements 
                under subsections (c), (d), (e), (f), (g), (i), (k), 
                (l), (m), and (n) of section 5.
                  ``(3) Agreements.--As determined by the Secretary, 
                each State agency, to the maximum extent practicable, 
                shall establish agreements with entities responsible 
                for the regulation or sponsorship of gaming in the 
                State to determine whether individuals participating in 
                the supplemental nutrition assistance program have 
                received substantial lottery or gambling winnings.''.
                                 ______
                                 
     Supplementary Material Submitted by Karen Cunnyngham, Senior 
                Researcher, Mathematica Policy Research
    On February 26, 2015 Karen Cunnyngham, Senior Researcher at 
Mathematica Policy Research, testified before the House Committee on 
Agriculture, Subcommittee on Nutrition at a hearing to review 
Supplemental Nutrition Assistance Program (SNAP) recipient 
characteristics and dynamics. As a supplement to her written testimony, 
Ms. Cunnyngham submits to the Committee the following data tables and 
annotated bibliography in response to three open-ended questions which 
arose during the hearing. Should any Committee Members or staff have 
additional questions, Ms. Cunnyngham can be reached at [Redacted].
Insert 1
          Mr. Davis. That is okay. I hopefully won't talk the entire 
        time. I actually want to hear some information out of the 
        panel.
          Thank you for being here. Hopefully, what you have seen in 
        the last 30 seconds is we actually do like to have fun up here.
          I am a big supporter of children who are hungry getting 
        access to the food and nutrition that they need, through the 
        SNAP program or other programs, and I know that in the opening 
        testimony, Ms. Cunnyngham, that you had mentioned some of the 
        other programs that feed children and those who are in need of 
        hunger assistance, besides SNAP. Can--and this goes to the 
        whole panel. Is there any way, can you elaborate on some of the 
        other programs that are available? Like I know I visited some 
        schools, some summer lunch sites, during the summertime to feed 
        kids who were part of the School Nutrition Program. And just 
        one observation on the program that you decide to talk about 
        that you think we can do as a Congress to make them more 
        effective and more better. So we will start with you, ma'am.
          Ms. Cunnyngham. Sure. Well, there is the National School 
        Lunch Program. There is the School Breakfast Program which is 
        expanding in recent years. It serves breakfast to hungry 
        children. There is the Summer Feeding Program that you 
        discussed. In terms of recommendations, I know that there is a 
        wealth of research out on those programs, and I can provide you 
        some of those studies. I don't have recommendations myself, but 
        I do hope that you will look at the information that is out 
        there.

    Mr. Davis asked panelists about additional research on hunger 
assistance programs for children. To address this question, Ms. 
Cunnyngham developed an annotated bibliography of our research on 
various nutrition programs.
Nutrition Programs for Children
Hulsey, Lara, Anne Gordon, Joshua Leftin, Claire Smither-Wulsin, Allen 
    Schirm, Nicholas Beyler, Anna Comerford, Jessica Galin, Brian 
    Estes, and Carole Trippe. ``Evaluation of Demonstrations of 
    National School Lunch Program and School Breakfast Program Direct 
    Certification of Children Receiving Medicaid Benefits: Year 1 
    Report.'' Final report submitted to the U.S. Department of 
    Agriculture, Food and Nutrition Service (FNS). Princeton, NJ: 
    Mathematica Policy Research, January 2015.

    The Healthy, Hunger-Free Kids Act of 2010 directed FNS to conduct a 
demonstration that directly certifies students for free school meals 
through the National School Lunch Program (NSLP) based on income 
eligibility identified through Medicaid data. This report presents 
findings on the impact of this direct certification on NSLP 
participation and costs in the 2012-2013 school year. The report also 
includes projected nationwide impacts and identifies challenges faced 
by states and districts in implementing the demonstration.

Collins, Ann M., Ronette Briefel, Jacob Alex Klerman, Anne Wolf, 
    Gretchen Rowe, Ayesha Enver, Christopher Logan, Syeda Fatima, 
    Marina Komarovsky, Julia Lyskawa, and Stephen Bell. ``Summer 
    Electronic Benefits Transfer for Children Demonstration: Evaluation 
    Findings for the Third Implementation Year.'' Final report 
    submitted to the U.S. Department of Agriculture, FNS. Cambridge, 
    MA: Abt Associates, November 2014.
Collins, Ann M., Ronette Briefel, Jacob Alex Klerman, Gretchen Rowe, 
    Anne Wolf, Christopher W. Logan, Anne Gordon, Carrie Wolfson, 
    Ayesha Enver, Cheryl Owens, Charlotte Cabili, and Stephen Bell. 
    ``Summer Electronic Benefits Transfer for Children (SEBTC) 
    Demonstration: Evaluation Findings for the Full Implementation 
    Year.'' Final report submitted to the U.S. Department of 
    Agriculture, FNS. Cambridge, MA: Abt Associates, July 2013.

    The Summer Electronic Benefits Transfer for Children (SEBTC) 
demonstration sought innovative strategies for reducing hunger during 
summer, when children in low-income families do not have access to 
school meals. Through a rigorous evaluation, SEBTC tested the impact of 
a monthly benefit during the summer on children's food security. States 
delivered this benefit via their EBT system for SNAP or the Special 
Supplemental Nutrition Program for Women, Infants, and Children (WIC). 
An evaluation of the second implementation year showed that a monthly 
benefit of $60 per eligible child reduced very-low food security among 
children by \1/3\. Children in households with SEBTC ate more fruits 
and vegetables, whole grains, and dairy foods, while consuming less 
sugar-sweetened beverages, compared to similar children with no SEBTC 
benefit. The SEBTC-WIC model yielded better nutrition impacts than did 
the SEBTC-SNAP model. The evaluation of the third implementation year 
focused on whether a $30 benefit could produce similar results as the 
$60 benefit. The $30 benefit did reduce very-low food security among 
children as well as the $60 benefit, but the $60 benefit produced 
greater reductions in food insecurity among adults and the full 
household. In addition, nutrition outcomes for the $30 benefit were 
half as great as the $60 benefit.

Moore, Quinn, Kevin Conway, Brandon Kyler, and Andrew Gothro. ``Direct 
    Certification in the National School Lunch Program: State 
    Implementation Progress, School Year 2012-2013.'' Report to 
    Congress. Alexandria, VA: U.S. Department of Agriculture, FNS, 
    Office of Policy Support, November 2013.

    This report responds to the legislative requirement of the Food, 
Conservation, and Energy Act of 2008 to assess the effectiveness of 
state and local efforts to directly certify children for free school 
meals under the NSLP. Direct certification is a process conducted by 
the states and by local educational agencies to certify certain 
children for free school meals without the need for household 
applications.
SNAP Eligibility and Participation Among Elderly Individuals
Sama-Miller, E., L. Makowsky, G. Rowe, L. Clary, E. Brown, L. Castner, 
    and M. Satake. ``Effectiveness of Pilot Projects to Increase 
    Supplemental Nutrition Assistance Program (SNAP) Participation 
    Among Medicare's Extra Help Population: Final Report.'' Final 
    report submitted to the U.S. Department of Agriculture, FNS, Office 
    of Research and Analysis. Washington, D.C.: Mathematica Policy 
    Research, December 2014.

    In 2010, FNS funded pilot projects in three states (New Mexico, 
Pennsylvania, and Washington) to expand access to SNAP for people in 
Medicare's Extra Help program. The states used Medicare data to 
identify potentially eligible people who were not enrolled in SNAP and 
then helped those clients access SNAP by (1) assisting them with SNAP 
applications and/or (2) simplifying enrollment procedures. The pilots 
focused mainly on reaching elderly clients, but some also served people 
with disabilities. This report discusses program implementation and 
lessons learned, the effects of the pilots on SNAP applications and 
approvals among the target population, and the costs.

Kauff, Jacqueline, Lisa Dragoset, Elizabeth Clary, Elizabeth Laird, 
    Libby Makowsky, and Emily Sama-Miller. ``Reaching the Underserved 
    Elderly and Working Poor in SNAP: Evaluation Findings from the 
    Fiscal Year 2009 Pilots.'' Final report submitted to the U.S. 
    Department of Agriculture, FNS. Washington, D.C.: Mathematica 
    Policy Research, April 2014.

    In the Omnibus Appropriations Act of 2009, Congress directed FNS to 
test various models for facilitating access to SNAP among elderly or 
working poor individuals. FNS awarded competitive grants to six states 
to support demonstration activities for up to 3 years, beginning in 
September 2009. Three states (Michigan, Ohio, and Pennsylvania) 
targeted elderly individuals, and three others (Massachusetts, 
Washington, and Wisconsin) targeted working poor individuals. This 
report describes the design, implementation, and operation of each 
demonstration; assesses the effects on SNAP applications and 
participation rates; and estimates demonstration costs.

Leftin, Joshua. ``Characteristics of Eligible Supplemental Nutrition 
    Assistance Program Households with Elderly Individuals.'' Final 
    report submitted to the U.S. Department of Agriculture, FNS. 
    Washington, D.C.: Mathematica Policy Research, October 2011.

    This report identifies distinguishing characteristics of eligible 
elderly individuals who participate in SNAP versus those who are 
eligible but do not participate.

Cunnyngham, Karen. ``State Trends in Supplemental Nutrition Assistance 
    Program Eligibility and Participation Among Elderly Individuals.'' 
    Final report submitted to the U.S. Department of Agriculture, 
    Economic Research Service. Washington, D.C.: Mathematica Policy 
    Research, September 2010.

    This report provides detailed information on the characteristics of 
elderly SNAP eligibles and participants. It also describes the rates of 
SNAP eligibility and participation among elderly people across states 
and over time. An updated report is expected to be completed in 2015.
Characteristics of SNAP Participants
Farson Gray, Kelsey. ``Characteristics of Supplemental Nutrition 
    Assistance Program Households: Fiscal Year 2013.'' Report submitted 
    to the U.S. Department of Agriculture, FNS. Washington, D.C.: 
    Mathematica Policy Research, December 2014.

    This report describes the demographic characteristics and economic 
circumstances of SNAP households in Fiscal Year 2013 based on SNAP 
Quality Control (QC) data. It also includes detailed information about 
the program, including SNAP eligibility rules. The report is part of a 
series of annual reports on the characteristics of SNAP households.
SNAP Participation Rates
Eslami, Esa. ``Trends in Supplemental Nutrition Assistance Program 
    Participation Rates: Fiscal Year 2010 to Fiscal Year 2012.'' Final 
    report submitted to the U.S. Department of Agriculture, FNS. 
    Washington, D.C.: Mathematica Policy Research, July 2014.

    This report presents estimated national SNAP participation rates 
for the total eligible population and for selected economic and 
demographic subgroups for Fiscal Years 2010 to 2012. Participation 
rates were calculated using SNAP QC data to measure participants and a 
microsimulation model based on data from the Current Population Survey 
(CPS) Annual Social and Economic Supplement (ASEC) to estimate the 
eligible population. The report is part of a series of annual reports 
on national SNAP participation rates.

Cunnyngham, Karen. ``Reaching Those in Need: Estimates of State 
    Supplemental Nutrition Assistance Program Participation Rates in 
    2012.'' Final report submitted to the U.S. Department of 
    Agriculture, FNS. Washington, D.C.: Mathematica Policy Research, 
    February 2015.

    This research brief provides state SNAP participation rates for all 
eligible people and for working poor individuals. The participation 
rates were derived using shrinkage estimation methods developed to 
improve precision. The shrinkage estimator averaged direct sample 
estimates of SNAP participation rates with predictions from a 
regression model. These estimates are consistent with those in Eslami 
(2014). The report is part of a series of annual reports on state SNAP 
participation rates.

Cunnyngham, Karen, Amang Sukasih, and Laura Castner. ``Empirical Bayes 
    Shrinkage Estimates of State Supplemental Nutrition Assistance 
    Program Participation Rates in Fiscal Year 2010 to Fiscal Year 2012 
    for All Eligible People and the Working Poor.'' Final report 
    submitted to the U.S. Department of Agriculture, FNS. Washington, 
    D.C.: Mathematica Policy Research, February 2015.

    This technical report shows how the state SNAP participation rates 
for all eligible people and for working poor individuals presented in 
Cunnyngham (2015) were derived. It includes broadly accessible 
explanations in the main text, with a detailed technical appendix. The 
report contains final participation rate estimates, 90 percent 
confidence intervals, and data from intermediate steps such as direct 
estimates of state SNAP participation rates, values for the predictors 
used in the regression equation, and preliminary shrinkage estimates.
Simulated Changes to SNAP
Leftin, Joshua, Allison Dodd, Kai Filion, Rebecca Wang, Andrew Gothro, 
    and Karen Cunnyngham. ``Analysis of Proposed Changes to SNAP 
    Eligibility and Benefit Determination in the 2013 Farm Bill and 
    Comparison of Cardiometabolic Health Status for SNAP Participants 
    and Low-Income Nonparticipants.'' Washington, D.C.: Mathematica 
    Policy Research, August 2013.

    Two of the changes to SNAP proposed in the 2014 U.S. Farm Bills 
were (1) eliminating the standard utility allowance for those receiving 
a nominal benefit from the Low-Income Home Energy Assistance Program 
and (2) eliminating broad-based categorical eligibility for SNAP. This 
report provides an assessment of the effects of the proposed changes on 
SNAP eligibles and participants based on results from two 
microsimulation models. Separately, the report also discusses the 
health profile of SNAP participants based on data from the National 
Health and Nutrition Examination Survey.

Leftin, Joshua, and Karen Cunnyngham. ``The Effects of Proposed Changes 
    to the Supplemental Nutrition Assistance Program on Eligibility, 
    Participation, and Benefits.'' Issue brief. Washington, DC: 
    Mathematica Policy Research, November 2013.

    This issue brief updates and summarizes some of the estimates 
presented in Leftin, et al. (2013).
Insert 2
          Mrs. Hartzler. What is the percentage of elderly households 
        that are on SNAP? The general population.
          Dr. Mills. I think I would defer to----
          Mrs. Hartzler. Okay.
          Dr. Mills.--others on that.
          Mrs. Hartzler. Right.
          Ms. Cunnyngham. I could give you the percentage of elderly 
        people who are eligible. I will need to get back to you with 
        that.

    Ms. Hartzler requested the percentage of elderly populations that 
participates in SNAP by state. In response to the question, Ms. 
Cunnyngham developed the table below.

                      SNAP Eligible and Participating Elderly Individuals, Fiscal Year 2010
----------------------------------------------------------------------------------------------------------------
                                                Elderly Eligible Individuals           Elderly Participants
                                          ----------------------------------------------------------------------
                                                          Percent of Population                  Participation
                                              Number   --------------------------    Number     Rate (Percent of
                                              (000s)       Total       Elderly       (000s)        Eligible)
----------------------------------------------------------------------------------------------------------------
Alabama                                            171            4           18           45                 26
Alaska                                              15            2           17            4                 27
Arizona                                            187            3           15           51                 27
Arkansas                                           111            4           19           27                 25
California                                         514            1            8           59                 11
Colorado                                            96            2           12           29                 30
Connecticut                                         95            3           13           34                 36
Delaware                                            24            3           13            5                 22
District of Columbia                                22            4           23            7                 32
Florida                                            676            4           15          302                 45
Georgia                                            304            3           20           94                 31
Hawaii                                              41            3           15           15                 37
Idaho                                               33            2           12           10                 30
Illinois                                           337            3           15          112                 33
Indiana                                            165            3           14           47                 29
Iowa                                                60            2           10           17                 29
Kansas                                              63            2           12           17                 27
Kentucky                                           151            3           18           63                 42
Louisiana                                          172            4           21           58                 34
Maine                                               42            3           14           21                 51
Maryland                                           150            3           14           35                 23
Massachusetts                                      200            3           16           98                 49
Michigan                                           265            3           14           96                 36
Minnesota                                           93            2           10           29                 32
Mississippi                                        130            4           24           39                 30
Missouri                                           177            3           15           61                 35
Montana                                             24            2           11            7                 27
Nebraska                                            34            2           10            9                 25
Nevada                                              67            2           14           19                 28
New Hampshire                                       23            2            9            7                 29
New Jersey                                         233            3           14           69                 30
New Mexico                                          76            4           19           21                 27
New York                                           712            4           19          412                 58
North Carolina                                     301            3           17           92                 31
North Dakota                                        15            2           11            5                 36
Ohio                                               323            3           14          101                 31
Oklahoma                                           120            3           17           37                 31
Oregon                                             109            3           14           52                 48
Pennsylvania                                       373            3           14          139                 37
Rhode Island                                        33            3           15           14                 42
South Carolina                                     175            4           19           54                 31
South Dakota                                        22            3           13            6                 29
Tennessee                                          223            4           18           93                 41
Texas                                              773            3           20          271                 35
Utah                                                33            1            9            8                 24
Vermont                                             18            3           14            9                 52
Virginia                                           204            3           14           62                 30
Washington                                         160            2           13           63                 39
West Virginia                                       66            4           16           26                 40
Wisconsin                                          118            2           11           33                 28
Wyoming                                             10            2           10            2                 19
----------------------------------------------------------------------------------------------------------------
Sources: SNAP QC, CPS ASEC, ACS, and administrative data and U.S. Census Bureau population estimates.

Insert 3
          Mr. Yoho. Thank you, Madam Chairman. Congratulations. Since 
        we came in together, I am impressed with you. And I look 
        forward to listening to you because I know the concern in this 
        Committee is, like we talked about yesterday, there is a 
        certain percentage of people on the nutritional programs that 
        we have seen are working the system, some are taking advantage 
        of it, and we need to reform it for those people that truly 
        need it. I mean that is, I think what everybody on here is for. 
        We want the best program we can so that people get the best 
        nutrition they can while they need that.
          And, Ms. Cunnyngham, I was reading my notes, and I need some 
        help with the math here, since you are from the mathematics 
        part of this. In 2013, I have 44 percent of the people who were 
        less than 18 that were on SNAP, 18 years of age, nine percent 
        were over 60 years of age, and ten percent were disabled. What 
        accounts for the other 37 percent because that wasn't 
        mentioned? Who are those?
          Ms. Cunnyngham. Sorry. The numbers that I gave in my 
        testimony were for households with children, elderly people, or 
        people with disabilities. If I could just talk about 
        participants here, the percentage of participants who are 
        children is now 44 percent. The percentage that are elderly, 
        that is nine percent. And the percentage that are nonelderly 
        adults, that is 18 to 59, is 46 percent. The percentage that 
        are disabled, that includes children and nonelderly adults, is 
        20 percent. So----
          Mr. Yoho. Does that add up to 100? I didn't write those down. 
        I am sorry.
          Ms. Cunnyngham. Well, the percentage that is an overlap 
        between children and nonelderly, but----
          Mr. Yoho. All right. Is there a place that I can get the 
        breakout of that so I can see 100 percent who is on this?
          Ms. Cunnyngham. Absolutely.

    Mr. Yoho asked questions about the basic demographics of SNAP 
participants. In response to this question, two informative tables are 
provided below:

      Table 1. Demographics of SNAP participants, Fiscal Year 2013
------------------------------------------------------------------------
                                                Participants
                                  --------------------------------------
                                      Number     Percent of   Percent of
                                      (000s)       Total        Panel
------------------------------------------------------------------------
Total                                   47,098        100.0        100.0
  Children                              20,889         44.4         44.4
  Nonelderly adults                     21,845         46.4         46.4
  Elderly individuals                    4,365          9.3          9.3
Nonelderly individuals by
 disability status: a
  Individuals age 0 to 59               42,734         90.7        100.0
  With a disability                      5,633         12.0         13.2
    Children                             1,105          2.3          2.6
    Adults                               4,528          9.6         10.6
  Without a disability                  37,101         78.8         86.8
Nondisabled adults age 18 to 49          4,943         10.5        100.0
 living in childless households
------------------------------------------------------------------------
Source: Fiscal Year 2013 SNAP QC data file.
a Because of data limitations, presence of a disability can be estimated
  only for nonelderly individuals.


                   Table 2. Characteristics of participating SNAP households, Fiscal Year 2013
----------------------------------------------------------------------------------------------------------------
                                     Households with Type of       Participants in       Benefits to  Households
                                           Participant         Households with Type of  with Type of Participant
                                   --------------------------        Participant       -------------------------
                                                             --------------------------
                                       Number      Percent       Number                   Dollars      Percent
                                       (000s)                    (000s)      Percent      ($000s)
----------------------------------------------------------------------------------------------------------------
Total                                    22,802        100.0       47,098        100.0    6,185,227        100.0
Age:
  Children                               10,224         44.8       32,863         69.8    4,195,432         67.8
  Nonelderly adults                      19,266         84.5       43,195         91.7    5,764,778         93.2
  Elderly individuals                     3,972         17.4        5,048         10.7      531,042          8.6
Disability: aa
  Nonelderly individuals with a           4,624         20.3        8,698         18.5      942,604         15.2
   disability
  No disabled nonelderly                 18,178         79.7       38,400         81.5    5,242,623         84.8
   individuals
Childless Households                     12,578         55.2       14,235         30.2    1,989,795         32.2
  Nondisabled adults age 18 to 49         4,538         19.9        5,424         11.5      917,265         14.8
  No elderly or disabled                  5,653         24.8        6,221         13.2    1,103,123         17.8
   individuals
----------------------------------------------------------------------------------------------------------------
Source: Fiscal Year 2013 SNAP QC data file.
a Because of data limitations, presence of a disability can be estimated only for nonelderly individuals.



               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

(THE PAST, PRESENT, AND FUTURE OF SNAP: THE WORLD OF NUTRITION AND THE 
                         ROLE OF THE CHARITABLE

                                SECTOR)

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Benishek, LaMalfa, Yoho, Walorski, Allen, Emmer, Newhouse, 
Peterson, David Scott of Georgia, Costa, McGovern, Lujan 
Grisham, Bustos, Aguilar, and Ashford.
    Staff present: Anne DeCesaro, Haley Graves, Jessica Carter, 
Mary Nowak, Mollie Wilken, Scott Graves, Ted Monoson, and 
Nicole Scott.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Well, good morning, and I call the hearing to 
order. Please join me in a prayer.
    Dear Heavenly Father, we ask for guidance this morning, for 
wisdom, as we consider programs that affect folks who are in 
need of assistance. We ask for the wisdom and understanding of 
those needs and have patience with each other as we consider 
our respective positions with this, but most of all, wisdom and 
discernment to know what is the right answer. Bless this 
hearing now and us to Your service. We ask these things in 
Jesus' name. Amen.
    The hearing today of the Committee on Agriculture regarding 
the past, present, and future of SNAP: focusing on the world of 
nutrition and the role of the charitable sector, will come to 
order.
    I want to welcome our witnesses to today's hearing and 
thank them for taking the time to travel here to share their 
perspectives and answers to our questions on how the charitable 
sector plays a vital role in providing food assistance to 
families in need. Today is about hearing from the folks on the 
ground, practitioners in the field. They will provide us with 
their first-person accounts of what is working and is not 
working as we continue to explore the past, present, and future 
of SNAP.
    We proceed today without any preconceived notions and with 
a commitment to strengthening the program so it can serve as a 
tool to help individuals and families move up the economic 
ladder.
    Today, we will also begin a new phase of the review, which 
is to explore the world of nutrition that surrounds SNAP, 
formally known as the Supplemental--and I want to emphasize the 
word Supplemental--Nutrition Assistance Program. Addressing the 
nutritional needs of Americans is not solely the responsibility 
of SNAP. The program does not operate in a vacuum. Instead, 
there is a web of government programs, charitable 
organizations, and others working toward a common goal. From 
churches to community organizations to corporate philanthropy, 
local food banks, these not-for-profits and others are deeply 
rooted in their communities and serve as important partners in 
the delivery of critical food assistance across the country.
    Understanding SNAP's interaction with these organizations 
will help to maximize the effectiveness of all organizations 
involved, government and non-government, and better target 
limited resources by identifying both unmet needs and areas of 
overlap.
    Contrary to the picture painted by many, SNAP benefits are 
designed to be supplemental, leaving household responsible for 
the remaining needs. Many do so with the help of local 
organizations, such as the West Texas Food Bank, which annually 
serves more than 75,000 individuals with 3.6 million meals 
through their various partner organizations.
    Individuals and organizations that highlight the SNAP 
benefit level in a manner that misrepresents the idea that it 
is supplemental is both confusing and disingenuous. While the 
issue of hunger deserves our thoughtful consideration, 
misleading the general public to draw attention to it should be 
considered unacceptable.
    A successful solution for nutrition assistance is the 
responsibility of government and the charitable sector, a 
combination of the two working together. Charitable 
organizations have greater flexibility to address the needs of 
their specific communities in ways that the Federal Government 
is often not able to do by being accountable to the family in 
need and not to the government program.
    Charitable organizations have strong community ties and 
often operate programs on the government's behalf. For many of 
these organizations, food assistance is only part of their 
mission and is seen as a means and not just an end.
    We all want to address hunger in America. To do that, we 
must focus on serving individuals and families in need and less 
on who or what is providing the assistance. The organizations 
we will hear from today are doing just that, and there is a 
great deal to learn.
    I look forward to hearing from our witnesses today as we 
explore how charitable organizations augment the Federal 
nutrition programs in the delivery of critical food assistance 
across the county.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to travel here to share their perspectives and 
answer our questions on how the charitable sector plays a vital role in 
providing food assistance to families in need. Today is about hearing 
from the folks on the ground, practitioners in the field. They will 
provide us with their first person accounts of what is working and is 
not working as we continue to explore the Past, Present, and Future of 
SNAP.
    We proceed today without preconceived notions and with a commitment 
to strengthening the program so it can serve as a tool to help 
individuals and families move up the economic ladder.
    Today, we also begin a new phase of the review, which is to explore 
the world of nutrition that surrounds SNAP, formally known as the 
Supplemental Nutrition Assistance Program. Addressing the nutritional 
needs of Americans is not the sole responsibility of SNAP. The program 
does not operate in a vacuum. Instead, there is a web of government 
programs and charitable organizations working toward a common goal. 
From churches to community organizations to corporate philanthropy and 
local food banks, these nonprofits are deeply rooted in their 
communities and serve as important partners in the delivery of critical 
food assistance across the country. Understanding SNAP's interaction 
with these organizations will help to maximize the effectiveness of all 
organizations involved, government and non-government, and better 
target limited resources by identifying both unmet needs and areas of 
overlap.
    Contrary to the picture painted by many, SNAP benefits are designed 
to be supplemental, leaving the household responsible for the remaining 
needs. Many do so with the help of local organizations, such as the 
West Texas Food Bank, which annually serves more than 75,000 
individuals more than 3.6 million meals through their various partner 
organizations. Individuals and organizations that highlight the SNAP 
benefit level in a manner that misrepresents the idea that it is 
supplemental is both confusing and disingenuous. While the issue of 
hunger deserves our thoughtful consideration, misleading the general 
public to draw attention to it is unacceptable.
    A successful solution for nutrition assistance is the 
responsibility of government and the charitable sector, a combination 
of the two working together. Charitable organizations have greater 
flexibility to address the needs of their communities in ways the 
Federal Government is often not able to do by being accountable to the 
family in need and not the government program. Charitable organizations 
have strong community ties and often operate programs on the 
government's behalf. For many of these organizations, food assistance 
is only part of their mission and is seen as a means, not just an end.
    We all want to address hunger in America. To do that, we must focus 
on serving individuals and families in need, and less on who or what is 
providing the assistance. The organizations we will hear from today are 
doing just that, and there is a great deal to learn.
    I look forward to hearing from our witnesses today as we explore 
how charitable organizations augment Federal nutrition programs in 
delivering critical food assistance across the county.

    The Chairman. With that I will now ask the Ranking Member 
if he has a statement.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    As I have said, I think it is beneficial for the Committee 
to learn as much as we can about SNAP while resisting attempts 
to open up the farm bill or separate SNAP from the farm bill. I 
am very supportive of the work done by local food banks and 
other charitable organizations across the country. They not 
only offer food but important outreach services to help those 
in need. However, they do not have the funding capacity or 
flexibility to fully replace SNAP as some might suggest.
    Hopefully today's hearing will help the Committee get a 
better understanding of how charities and nonprofits work with 
programs like SNAP, and I am looking forward to any suggestions 
our witnesses might have about improvements we could make to 
ensure those programs are operating as efficiently as possible.
    What I would be interested in exploring is making more 
produce available at food banks. Farmers seem to have a 
disincentive to donate surplus food due to high packing and 
transportation costs, agencies have a tough time getting time-
sensitive perishable products out before they go bad. Growing 
the partnership between food banks and farmers could help this.
    I hope this will be a productive hearing, and we can 
continue looking past the rhetoric and learning more about this 
important program. And I thank the chair for the hearing and 
the witnesses for appearing. I yield back.
    The Chairman. I thank the gentleman. The chair would 
request that other Members submit their opening statements for 
the record so the witnesses may begin their testimony and to 
ensure there is ample time for questions.
    [The prepared statements of Mr. Goodlatte, Mrs. Bustos, and 
Ms. Adams follow:]

Prepared Statement of Hon. Bob Goodlatte, a Representative in Congress 
                             from Virginia
    I appreciate the opportunity for the House Committee on Agriculture 
to review the critical role that charitable organizations play in the 
delivery of food assistance across the country. From local food banks, 
to churches to other nonprofits, these institutions are deeply rooted 
in our communities and serve as important partners in addressing hunger 
in our nation.
    As you know, the Supplemental Nutrition Assistance Program (SNAP) 
is designed primarily to increase the food purchasing power of eligible 
low-income households to help them buy a nutritionally adequate low-
cost diet. The 2014 Farm Bill made the first reforms to SNAP since the 
welfare reforms of 1996, taking steps to lift recipients out of poverty 
and maintaining critical food assistance to families in need.
    As we work to ensure the integrity of the program and accomplish 
its purpose to help meet the nutritional necessities of those most 
vulnerable, Congress must focus on how to deliver benefits as 
effectively and efficiently as possible. Direct spending projections 
authorized by the Nutrition Title represent approximately 79% of the 
2014 Farm Bill's funding, and as such it is vital that we take a 
collaborative approach in leveraging Federal resources. The successful 
solution for nutrition assistance is not just the government and not 
just the charitable sector, but instead a combination of the two.
    Recognizing the impact of increasing food security needs hitting 
hard-working people all across America, charitable organizations often 
have greater outreach on the ground to address the needs of its 
communities. As such, I am proud to work with organizations like 
Feeding America Southwest Virginia (FASWVA) whose mission is to feed 
the region's under-served through a network of private-public partners 
in my Congressional district. As the leader in hunger relief, FASWVA 
distributes more than 20 million pounds of food annually to nearly 400 
partner agency soup kitchens, rescue missions and food pantries. 
Through their strong partnerships, Feeding America Southwest Virginia 
has served the 26 counties and associated municipalities that make up 
the region for over 3 decades.
    This network of partner agencies helps ensure that we continue to 
move food to fight hunger and change lives in Southwest Virginia 
through critical charitable efforts, including: Food Pantries, a food 
distribution program that provides groceries on a regular schedule to 
people in need of emergency food; Harvest Home Kitchen, an agency that 
serves emergency meals to clients on site and on regularly scheduled 
days and hours; and Mobile Food Pantries, a distribution program that 
targets areas that are under-served or difficult to reach.
    As we implement the 2014 Farm Bill nutrition programs, I was glad 
to partner with my colleague Representative Marcia L. Fudge to send a 
strong message to the Secretary of Agriculture to distribute existing 
resources within the Emergency Food Assistance Program (TEFAP) so 
commodities can reach our food bank distribution systems to meet local 
nutritional needs. I also joined bipartisan efforts to support program 
levels within the 2014 Farm Bill for TEFAP, as well as storage and 
distribution to assist local food banks and emergency feeding.
    I thank the Chairman for his attention to this vital issue. As we 
learn the critical role our local charitable sectors play in 
partnership to most effectively address hunger in our nation, it may 
help guide future policy decisions on the most effective use of 
resources to lift Americans out of poverty while sustaining valuable 
Federal resources.
                                 ______
                                 
 Prepared Statement of Hon. Cheri Bustos, a Representative in Congress 
                             from Illinois
    Thank you to the Chairman and Ranking Member for holding today's 
hearing as we continue the Committee's review of the Supplemental 
Nutrition Assistance Program (SNAP) and to provide us insight into the 
supportive role that charitable organizations play in our communities.
    Because no one wants to see children go to bed hungry at night, I 
have fought hard against cuts to nutrition programs that help put food 
on the table for families. SNAP is one of the strongest tools our 
country has in combating hunger and poverty, especially for children.
    Additionally, I am very supportive of the work done by local food 
banks and other charitable organizations across my region, state, and 
our country. In fact, I have made it a point to visit many across my 
district to learn more about the important work they perform and the 
individuals they serve. Many of these organizations offer food as well 
as important outreach services to some of the most vulnerable in our 
communities. Food banks and charitable organizations are wonderful 
services, but they cannot be expected to replace SNAP.
    SNAP is a critical nutrition support for so many families in times 
of need; serving 63,832 households in Illinois alone, and it must be 
protected. I look forward to hearing from the witnesses today and 
learning more about how we are able to support the collaboration 
between charitable organizations and SNAP without diminishing either.
                                 ______
                                 
Prepared Statement of Hon. Alma S. Adams, a Representative in Congress 
                          from North Carolina
    Thank you, Mr. Chairman for convening this hearing on the role of 
charitable organizations in fighting hunger in our communities.
    I would like to submit the following statement for the record on 
behalf of Second Harvest Food Bank of Northwest North Carolina.* Their 
comments echo a recent Food Research Action Center report, which finds 
that the Greensboro-High Point area is the most food insecure 
metropolitan area in the nation.
---------------------------------------------------------------------------
    * Editor's note: the document referred to is located on p. 222.]
---------------------------------------------------------------------------
    I joined the House Agriculture Committee and the Subcommittee on 
Nutrition in order to advocate for the hungry in the 12th district and 
throughout North Carolina. In March, I joined my colleagues in asking 
the House Appropriations Committee to provide full funding for The 
Emergency Food Assistance Program. This program provides food and 
funding to help states and local food banks provide services to 
supplement the diets of low-income Americans, including the elderly, at 
no cost.
    The House Republican Budget proposes converting SNAP to a block 
grant program. This is strongly opposed by our nation's food banks 
because it will result in fewer families receiving help when they are 
hungry.

    The Chairman. I would like to welcome our witnesses to the 
table today. First off we have Kate Maehr, the CEO of Greater 
Chicago Food Depository from Chicago, Illinois; Ms. Keleigh 
Green-Patton, Chicago's Community Kitchens from Chicago, 
Illinois; Mr. Dustin Kunz, Salesforce Administrator and 
Research Project Manager for the Texas Hunger Initiative in 
Waco, Texas; Ms. Lynda Taylor Ender, AGE Director, The Senior 
Source, Dallas, Texas; and Mr. Jonathan Webb, Director of 
Foundations and Community Outreach with the Feed the Children 
Foundation, Edmond, Oklahoma.
    Ms. Maehr, the microphone is yours, and please begin your 
testimony when you are ready.

STATEMENT OF KATE MAEHR, EXECUTIVE DIRECTOR AND CHIEF EXECUTIVE 
                 OFFICER, GREATER CHICAGO FOOD
                    DEPOSITORY, CHICAGO, IL

    Ms. Maehr. Good morning, Mr. Chairman, and Members of the 
Committee. My name is Kate Maehr, and I am the Executive 
Director and CEO of the Greater Chicago Food Depository. I am 
honored to be here representing food banks and agencies that 
respond daily to hunger across our nation. Thank you so much 
for this opportunity.
    The Food Depository is one of 200 food banks in Feeding 
America's national network. Together, we serve more than 46 
million people through 58,000 food pantries, soup kitchens, 
shelters, and programs.
    Every day, food banks source and distribute millions of 
pounds of food. Last year, our collective output neared 4 
billion pounds. We do this with the generosity of supporters 
from all sectors, including leading food companies, retailers, 
farmers, corporate funders and generous individuals. USDA 
commodities from TEFAP and CSFP are also a critical source of 
food for our network, and we thank you for the TEFAP increase 
in the 2014 Farm Bill.
    In addition, we have special programs to reach food 
insecure children, seniors, and veterans. We engage in SNAP 
outreach to help connect eligible people, and because we know 
that a job is often the best solution to food insecurity, many 
of us, including the Food Depository, have workforce 
development programs.
    Still, millions of low-income households with working 
adults, and those who are unable to work, struggle to put food 
on their table. That is why we advocate for strong Federal 
nutrition programs. Our goal is to end hunger in our 
communities. Achieving that goal requires a coordinated public-
private response. We are proud of our daily impact, but frankly 
it pales in comparison to the job done by programs such as 
SNAP, WIC, CACFP, School Lunch and Breakfast, and Summer Meals.
    When the Great Recession hit, the demand for food 
assistance increased dramatically. In Cook County, Illinois, we 
experienced a 70 percent rise in food pantry visits over 5 
years. Each week, community food pantries and church basement 
soup kitchens saw new faces walk through their doors. And while 
the need has plateaued in many communities, it has not receded. 
Food banks are incredibly proud of how we have risen to meet 
this need. We are proud of the donors and volunteers who embody 
the American value of service and who have kept millions of 
people from going hungry. But charity did not do this alone.
    During this era of increased need, Federal nutrition 
programs, especially SNAP, did exactly what they were created 
to do. When our country experienced its most drastic economic 
crisis since the Great Depression, SNAP grew to meet the need. 
But as SNAP expanded, so have misconceptions about the program.
    In 2013, 43 percent of SNAP recipients lived in a household 
with an employed adult. At the same time, 82 percent of SNAP 
benefits went to households that include children, seniors, or 
people with disabilities.
    Every day, the SNAP program and food banks work in tandem. 
Among households that we serve, 55 percent receive SNAP, but 
with an average of less than $5 per person per day, benefits 
often run out before the month's end. For these families and 
for those who do not meet SNAP eligibility guidelines, food 
banks are there. If SNAP funding were cut further or if 
unnecessary restrictions were placed on the programs, food 
banks would not be able to fill the void.
    Together we have the ability to end hunger in America. 
Every day, food banks like the Food Depository strive to do 
more. We strive to offer more job training, expand programs for 
veterans, provide fresh produce to food deserts, and ensure 
that every child is fed during the summer. But we can only do 
this because the Federal nutrition programs are in place and 
our role is supplementary.
    We understand and appreciate the difficult task that our 
elected officials have to balance the budget, but the budget 
should not be balanced on the backs of our most vulnerable 
neighbors. On behalf of the Greater Chicago Food Depository, 
Feeding America, our partner agencies and the people we serve, 
thank you for your time and attention. I urge you, protect SNAP 
and other critical nutrition programs in ongoing budget 
negotiations. And I invite and encourage you to visit your 
local food bank and see firsthand the amazing work that they 
do. Thank you.
    [The prepared statement of Ms. Maehr follows:]

    Prepared Statement of Kate Maehr, Executive Director and Chief 
    Executive Officer, Greater Chicago Food Depository, Chicago, IL
April 15, 2015

  Kate Maehr, Executive Director and CEO,
  Greater Chicago Food Depository.

  U.S. House of Representatives,
  Committee on Agriculture,
  Washington, D.C.

    Dear Mr. Chairman and Members of the Committee:

    My name is Kate Maehr and I am the Executive Director and CEO of 
the Greater Chicago Food Depository. I am honored to represent food 
banks and agencies that respond daily to hunger across our nation. 
Thank you for this opportunity.
    The Food Depository is one of 200 food banks in Feeding America's 
network that covers every county in the United States. Together, we 
serve more than 46.5 million people in need through 58,000 food 
pantries, soup kitchens, shelters and other programs.
    Feeding America and the Food Depository have been in operation 
since 1979 and the food banking model in the United States has existed 
for nearly 50 years. Food banks were originally intended to be hubs 
where donated food could be collected and distributed to community 
hunger-relief programs. We were meant to be an emergency response and a 
supplement for Americans who struggled to access food. Over the 
decades, we have grown into something much greater.
    Every day, nonprofit food banks like the Greater Chicago Food 
Depository source and distribute millions of pounds of food. Last year, 
the collective output of all food banks neared 4 billion pounds. This 
has nearly doubled since 2009 when we distributed 2 billion pounds of 
food. We can do this with the generosity of food donors and financial 
supporters from all sectors, including our nation's largest food 
companies, retailers, farmers, corporate funders and millions of 
generous individuals. USDA commodities from TEFAP and CSFP are also a 
critical source of food for our network and we thank you for the TEFAP 
increase in the 2014 Farm Bill.
Greater Chicago Food Depository Food Sources and Distribution Fiscal 
        Year 2014

 
 
 
            Food Sources               Total Distribution By Food Type
 

                                     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
    Beyond distributing food through our networks of local agencies, 
food banks have developed special programs to reach food insecure 
children, seniors and veterans. We engage in SNAP outreach to help 
connect eligible households. And, because we know that a good job is 
often the best solution to food insecurity, many of us have workforce 
development programs.
    At the Greater Chicago Food Depository, we have Chicago's Community 
Kitchens. This program offers free 14 week job training to unemployed 
adults who are passionate about starting a new career in food service. 
Since this program was founded in 1998, more than 1,200 men and women 
have graduated and gone on to successful careers.
    Still, for millions of low-income households with working adults, 
and those who are unable to work--every day is a struggle to put food 
on the table. In 2014, Feeding America released its quadrennial Hunger 
in America study, which captures detailed information about who is in 
need of emergency food assistance throughout our communities. The 
report for the Food Depository's service area found that one in six of 
our neighbors receives food from our network. Of the households we 
serve, 36 percent include at least one child, 39 percent include a 
senior and 18 percent include someone who has served in the United 
States Armed Forces.
    Hunger in America also shed more light on the health consequences 
of food insecurity and the difficult choices our clients make every 
day. Sixty-two percent of clients have chosen between paying for food 
and paying for medical bills, 73 percent have chosen between paying for 
food or paying for home utilities, 59 percent have chosen between 
paying for food or paying their rent or mortgage. Sixty percent of 
client households include someone with high blood pressure and 35 
percent include someone with diabetes. The results of Hunger in America 
are a sobering reminder that an incredible need persists across our 
community.
    This is why food banks advocate for the future of strong nutrition 
programs and this is why we are here today. While we strive to be 
greater, our goal is not to be larger. Our goal is to end hunger in our 
communities. And we know that achieving that goal requires a strong and 
coordinated response from private charity and public programs. We are 
proud of our daily impact on hunger, but it pales in comparison to the 
tremendous job done by Federal nutrition programs including SNAP, WIC, 
CACFP, School Lunch and Breakfast and Summer Meals. This is why we 
strive to connect people in need with these critical programs.
    When the Great Recession hit, the demand for food assistance 
increased dramatically. In Cook County, Illinois, our network 
experienced a 70 percent increase in food pantry visits over 5 years. 
Each week, volunteers in community food pantries, church basement soup 
kitchens and meal programs saw more and more families walk through 
their doors for the first time, many of them saying, ``I never thought 
I would be here.''
    While the record need has leveled off in many communities, it has 
not receded. Food banks are incredibly proud that we have risen to meet 
this need. We are proud of the thousands of generous donors and 
selfless volunteers who embody the American value of service. We are 
proud of the men and women who operate our partner agencies--most of 
whom are also volunteers. Together, we have responded to a record 
demand for food assistance. Together, we have kept millions of our 
neighbors from going hungry. But charity didn't do this alone. We will 
never be able to do this alone.
    During this era of increased need, Federal nutrition programs--
especially SNAP--did exactly what they were created to do. SNAP is the 
front-line defense against hunger in the United States. When our 
country experienced its most drastic economic crisis since the Great 
Depression, SNAP grew to meet the need. SNAP continues to protect 
millions of children, seniors, veterans, people with disabilities and 
working families from hunger. But as SNAP expanded over the last 
decade, so have misconceptions about the program.
    In 2013, 43 percent of SNAP recipients lived in a household with a 
working adult. At the same time, 82 percent of SNAP benefits went to 
households that include children, seniors or people with disabilities. 
Approximately eight percent of military veterans receive SNAP benefits.
    The average monthly SNAP benefit for an individual last year was 
$125.37. That comes out to a little more than $31 per week or $1.40 per 
meal. Every September, during Hunger Action Month, we encourage food 
bank supporters, partners and elected officials to take the SNAP 
Challenge and eat for 1 week on a SNAP budget. Many Members of Congress 
have taken the challenge. While this experience cannot duplicate the 
real life struggle of a food insecure person, it opens your eyes of the 
sacrifices, trade-offs and difficult choices made by families on SNAP.
    Furthermore, SNAP gives people the opportunity to create a better 
future for themselves and their families. As many graduates of 
Chicago's Community Kitchens can attest, SNAP gives unemployed people 
the ability to provide for their family while they receive job 
training.
    Every day, the SNAP program and food banks work in tandem to 
prevent millions of Americans from going hungry. Among households 
served by food bank programs, 55 percent also receive SNAP, but their 
benefits often run out before the month ends. And for families 
struggling with food insecurity who don't meet SNAP eligibility 
guidelines, food banks are there. Together, we have done a fantastic 
job during historically challenging times. But the need is still there, 
and if SNAP funding was to be cut further, or if unnecessary 
restrictions were placed on the program, food banks and pantries could 
never cover the difference. To put this in perspective, the eight food 
banks that serve Illinois distribute enough food for approximately 100 
million meals each year, while SNAP benefits in Illinois can provide 
1.3 billion meals per year.
    Together we have the ability to end hunger in the United States. 
Every day, food banks like the Greater Chicago Food Depository strive 
to do more for our communities. We strive to offer more job training 
initiatives, expand our programs for veterans, provide fresh produce 
for food deserts and ensure that every child is fed during the summer. 
But we can only do this because Federal nutrition programs are the 
front line defense against hunger and our role is supplementary.
    We understand and appreciate the difficult task our elected 
officials have to balance the budget. But the budget should not be 
balanced on the backs of our most vulnerable neighbors. For many low-
income families, the recession isn't over. Unfortunately, a return to 
employment isn't always a return to food security. Both public and 
private programs that provide a helping hand in hard times are 
critical.
    On behalf of the Greater Chicago Food Depository, Feeding America, 
our partner agencies and the people we serve, I thank you for your time 
and attention. I encourage you to protect SNAP and other critical 
nutrition programs in ongoing budget negotiations. And if you haven't, 
I encourage you to visit your local food bank to see first-hand the 
terrific work they do. Thank you.
            Sincerely,
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Kate Maehr,
Executive Director and CEO,
Greater Chicago Food Depository.

    The Chairman. Thank you. Ms. Green-Patton?

    STATEMENT OF KELEIGH GREEN-PATTON, CHICAGO'S COMMUNITY 
                     KITCHENS, CHICAGO, IL

    Ms. Green-Patton. My name is Keleigh Green-Patton and I am 
a product of SNAP. Recently, I was promoted to a position that 
I believe represents a full-circle moment in my life. As I 
think about my humble beginnings I realize how far I have come.
    My sister and I grew up in a single-parent home. My mother 
worked full time as a secretary. It didn't pay much but she did 
the best that she could. She made sure that we were active in 
free programs like music classes and gymnastics. My sister and 
I didn't know that she could barely keep food in the house.
    My mom received Food Stamps, which is the equivalent of 
SNAP at the time, the kind that you tear out of the booklet. 
She was big on fruits and vegetables, and so we always had that 
stuff at home. She always insisted fresh was better, but we 
never knew how much she struggled to feed us. We never knew 
that it cost more to purchase an apple than to purchase a pack 
of noodles. But my mom knew, and so she did the best that she 
could with what she had.
    When the stamps ran out in the middle of the month, we 
visited our local church for food baskets. Now my sister and I 
were excited to get whatever was in the boxes. They always had 
something special for us. We would carry the items home proudly 
as if we had just come from the grocery store.
    But as a teenager, I became increasingly embarrassed about 
going to the church for food or paying for the groceries with 
the paper stamps. If I saw my friends that I knew at the store, 
I would wait until they left before I completed my purchase. 
And if they didn't leave, I would pretend that I left my money 
at home, thus leaving the purchase behind.
    Years later, I found myself as a single mother of two. At 
different times over 4 years, I needed stamps to feed my 
children. I was very diligent about finding work. As a matter 
of fact, I ended up with both full-time and a part-time job to 
make ends meet, and I was able to stop collecting SNAP 
benefits. I really needed my girls to see that hard work pays 
off, but I struggled as many others just to keep food on the 
table, even with two jobs.
    Later, I married and had two more children. We were doing 
well, in our two parent, two income family. We still lived 
paycheck to paycheck, but there was no need for assistance. We 
were happy and proud working Americans. But a little more than 
11 years ago, I lost my $12 an hour job when the candy factory 
I worked at closed. I searched hard for any job, but I only had 
a high school diploma, no college or special training.
    That's when I applied for Chicago's Community Kitchens 
which is a workforce development program at the Greater Chicago 
Food Depository, and my life has never been the same since. The 
program gave me culinary skills and the confidence I needed to 
start a new career. But while the program had no monetary cost 
for me, I was still without income while I trained full time 
for 3 months.
    To supplement the lack of income, the only thing I could do 
was to go back and apply for food stamps. We received about 
$400 a month for a family of six. When the stamps ran out, my 
local church was kind enough to give us food baskets. It was 
just enough to bridge the gap before the end of the month. I 
didn't understand it when I was a teenager, but I understand 
now how important these benefits were and are to families like 
mine. I never wanted to be on Food Stamps, but when I look back 
on it today, I am so blessed that it was there when I needed 
it.
    It is now 10 years later. I am still happily married with 
four children. After graduating from Chicago's Community 
Kitchens, I gained immediate employment and eventually 
purchased my first home within that year. My career continued 
to advance when I started working in school food service. As I 
settle into my new position of District Manager for the State 
of Illinois for Chartwell School Food Service, I am proud to 
say not only can I afford to feed my family, but we always have 
nutritious food in the house. I can even afford to send my 
babies to college. I work for a great company whose philosophy 
is eat, learn, live, and I have had the opportunity to pay it 
forward in several ways. I have been able to offer internships 
and jobs to many of the Chicago's Community Kitchens graduates. 
On a monthly basis, where I am the associate pastor at my 
church, I started a free hot meal to anyone in the community 
that needs it.
    I am so blessed and thankful to have the opportunity to 
testify before you today. As a child, Food Stamps kept me and 
my sister from going hungry. As an adult, Food Stamps allowed 
me to feed my children while I invested in my own future. Many 
people call SNAP a safety net, but for me it was like a 
trampoline, able to bounce my family back into work and a 
brighter future.
    I am so proud to represent the millions of families across 
the United States who have benefited from SNAP. And on behalf 
of households who need SNAP now and in the future, I ask you to 
protect this important program. Thank you for hearing my story.
    [The prepared statement of Ms. Green-Patton follows:]

    Prepared Statement of Keleigh Green-Patton, Chicago's Community 
                         Kitchens, Chicago, IL
April 15, 2015

  Keleigh Green-Patton.

  U.S. House of Representatives,
  Committee on Agriculture,
  Washington, D.C.

    Dear Mr. Chairman and Members of the Committee:

    My name is Keleigh Green-Patton and I am a product of SNAP.
    Recently, I was promoted to a position that I believe represents a 
full circle moment in my life. As I think about my humble beginnings I 
realize how far I have come.
    My sister and I grew up in a single parent home. My mother worked 
full-time as an administrative assistant, but it didn't pay much and 
she did the best she could to give us a good childhood. She made sure 
we were active by participating in free music classes, gymnastics and 
ice skating. My sister and I didn't know that, like thousands of other 
families, we could barely keep food in the house.
    My mom received Food Stamps--the equivalent of SNAP at the time--
the kind you tear out of the booklet. She was big on fruit, vegetables 
and beans so we always had that at home. She always insisted fresh was 
better. We never knew just how much she struggled to feed us. We never 
knew that it cost more to purchase an apple than to purchase noodles. 
But my mom knew we needed good food in order to grow and so she did the 
best she could with what she had. When the stamps ran out in the middle 
of the month, we visited our local church for food baskets. My sister 
and I were excited to receive whatever was in the box. We would carry 
the items so proudly as if we had just come from the store.
    As a teenager, I became increasingly embarrassed about going to the 
church for food or paying for groceries with the paper stamps. If I saw 
people I knew at the store, I would wait until they left before I 
completed my purchase. If they didn't leave, I would pretend that I 
left my money at home, leaving the food behind.
    Years later, I found myself as a single mother of two. At different 
times over 4 years, I needed Food Stamps to help feed my children. I 
was diligent about finding work. I worked both a full and part-time job 
later and was able to stop collecting SNAP benefits. I really needed my 
girls to see that hard work pays off, but I struggled to keep food on 
the table, even with two jobs.
    Later, I married and had two more children. We were doing well, in 
our two parent, two income family. But we didn't make enough to save up 
for the future, because we lived paycheck to paycheck. Yet there was no 
need for assistance. We were happy and proud working Americans. But a 
little more than 11 years ago, I lost my $12 per hour job when the 
candy factory I worked at closed. I searched hard for a new job, any 
job. I had a high school diploma but no college or advanced training. I 
needed skills that would last me a lifetime.
    That's when I applied for Chicago's Community Kitchens, a workforce 
development program at the Greater Chicago Food Depository. My life has 
never been the same. The program gave me the culinary skills and the 
confidence I needed for a new career. But while the program had no 
monetary cost, I was still without income while I trained for 3 months.
    To supplement the lack of income, I knew the only way to feed my 
family was to apply for food stamps. We received about $400 a month for 
six people. When the stamps ran out, my local church was kind enough to 
give us food baskets. It was just enough to help support our family 
until we could be in a better position to support ourselves. It was 
just enough to bridge the gap before the end of the month. I didn't 
understand it when I was a teenager, but I understand now how important 
these benefits were and are to families like mine. I never wanted to be 
on Food Stamps, when I look back on it today, I'm glad it was there 
when we needed it.
    It's now exactly 10 years later and I'm still happily married with 
children. After graduating from Chicago's Community Kitchens, I gained 
employment with a catering company and eventually purchased a home. My 
career continued to advance when I started working in school food 
service. As I settle into my new position of District Manager for 
Chartwells, I'm proud to say not only can I afford to feed my family, 
but we always have nutritious food in the house. I also can afford to 
send my children to college. I work for a great company whose 
philosophy is Eat Learn Live and I've had the opportunity to pay it 
forward in several ways. I've been able to offer internships and jobs 
to many Chicago's Community Kitchens graduates. On a monthly basis, I 
volunteer at my church and we provide a free hot meal to anyone who 
needs it in our community.
    I'm so thankful to have the opportunity to testify before you 
today. As a child, Food Stamps kept me and my sister from going hungry. 
As an adult, Food Stamps allowed me to feed my children while I 
invested in my own future. Without this program, I wouldn't have been 
able to start my new career. Many people call SNAP a safety net, but 
for me it was like a trampoline--bouncing my family back into work and 
a brighter future.
    I am proud to represent the millions of families across the United 
States who have benefited from SNAP. On behalf of households who need 
SNAP now and in the future, I ask you to protect this important 
program. Thank you.
            Sincerely,

Keleigh Green-Patton.

    The Chairman. Well, Keleigh, thank you for sharing that 
with us. You have made my day. Thank you very much.
    Ms. Green-Patton. I appreciate that.
    The Chairman. Thank you, Keleigh. Mr. Kunz, you may 
proceed.
    Ms. Green-Patton. Thank you.

    STATEMENT OF DUSTIN KUNZ, RESEARCH MANAGER; SALESFORCE 
 ADMINISTRATOR AND DEVELOPER, TEXAS HUNGER INITIATIVE, BAYLOR 
                      UNIVERSITY, WACO, TX

    Mr. Kunz. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee, for the invitation to 
share about how statewide public-private partnerships are 
assisting low-income Texans in obtaining needed benefits 
including SNAP.
    My name is Dustin Kunz, and I am a Research Manager for 
Baylor University's Texas Hunger Initiative, a collaborative 
and capacity-building project engaged in research and community 
development to create a food-secure Texas. I served as an 
AmeriCorps VISTA and United States Marine. I am an ordained 
minister and a veteran of Operation Iraqi Freedom.
    Complex problems require complex, creative, and 
collaborative solutions. Public challenges, such as food 
insecurity, require a response that exceeds the capabilities 
and resources of any one department, organization, or 
jurisdiction. Collaboration provides a way to stretch those 
resources and accomplish more with less, and the benefits of 
these partnerships include cost savings and enhanced quality 
and quantity of services, while also addressing community 
needs, enhancing trust, and increasing citizen support.
    In Texas, the Health and Human Services Commission 
administers SNAP. To reach the entire state, they would either 
need to spend an incredible amount of money to maintain offices 
and staff and technology or else sacrifice service to some of 
our most vulnerable residents. Instead, a forward-looking Texas 
Legislature has engaged the help of nearly 1,200 organizations 
to provide application assistance. Partners include faith-based 
organizations, childhood intervention programs, libraries, 
hospitals, schools and colleges, and domestic violence 
shelters. And now approximately 60 percent of SNAP-eligible 
Texans can reach out to a partner in their ZIP Code to apply, 
re-certify, and when things improve, withdraw from SNAP with 
the help of community members, all at an incredibly low cost to 
the state and Federal Government.
    There are two partnership levels. At self-service sites, a 
computer is made available to the public, and the online portal 
is readily accessible. For those that need additional support, 
we have application assistance sites where citizens can work 
with a staff member or volunteer called a navigator who has 
actually been trained to assist in the application process. 
This reduces errors in applications saving the government time 
and money while also promptly providing resources to the Texans 
who need them the most, and it utilizes existing charitable 
structures to decrease the need for so many physical government 
offices.
    The Texas Hunger Initiative performs three key roles here, 
implementation, translation, and evaluation. THI has helped to 
implement this program through our 12 regional offices where we 
recruit, train, and support these partners with whom we have 
relationships, making it possible for us to interact on a level 
unattainable by a government agency. We translate the language 
of government programs to the nonprofit world and conversely 
translate nonprofit to government agencies. And finally, using 
data from the state and the field, Baylor University evaluates 
the effectiveness of these public-private partnerships to 
develop evidence-informed best practices.
    Under the old system, when a Texan needed a hand they would 
usually take a shift off of work which cost them about \1/3\ of 
the monthly SNAP allotment to spend hours in a government 
office for an interview and a paper application that Texas 
would later have to pay someone to digitize. Under the 
partnership I have described today, a citizen can call a 
minister at a local church and express the need for help. They 
schedule a time that doesn't interfere with the applicant's 
job, and the minister can share the myriad ways the church 
helps folks. If the individual chooses to apply for public 
benefits, the minister is trained to assist.
    In the end, using either system, the individual is going to 
receive aid. But unlike the eligibility worker whose primary 
concerns are compliance and qualification calculations, the 
minister understands public benefits within the greater 
continuum of care in that congregation. Independently, the 
public and private sectors can do a great deal for economically 
vulnerable Americans. But when they are working together, like 
we are in Texas, there is a much greater impact. We see 
increased efficiency of service. We see enhanced community 
capacity to address these and other local issues, and most 
importantly, the citizens who most need benefits and services 
have access to them. Agencies can efficiently execute programs, 
but staff and volunteers working in communities can put those 
programs in perspective, seeing them as part of the whole and 
as a crucial but intermediate step along the path to self-
sufficiency, moving people from a place of vulnerability to a 
place of flourishing.
    Thank you. I look forward to any questions you will have.
    [The prepared statement of Mr. Kunz follows:]

    Prepared Statement of Dustin Kunz, Research Manager; Salesforce
     Administrator and Developer, Texas Hunger Initiative, Baylor 
                          University, Waco, TX
    On behalf of the Texas Hunger Initiative, Baylor University, and 
nonprofits and faith-based groups across Texas, I would like to thank 
you, Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, for the invitation to share with you about ways community 
organizations partner with government agencies to work towards a food-
secure Texas.
    My name is Dustin Kunz, and I am a research manager for the Texas 
Hunger Initiative (THI) at Baylor University. Prior to that I have 
served as an AmeriCorps VISTA and United States Marine. I hold a Master 
of Divinity degree from Baylor University; I am an ordained Baptist 
minister and a veteran of Operation Iraqi Freedom. I share this because 
my history demonstrates my purpose and my reason for testifying: in 
everything I seek the good of the world around me, whether that be for 
our country, my city, or my faith community. It is exactly that kind of 
love for the community that inspires every organization I will be 
sharing about today.
    The Texas Hunger Initiative is a collaborative, capacity-building 
project focused on ensuring that every Texan has access to three 
nutritious meals a day, 7 days a week. THI develops and implements 
strategies to end hunger through research, policy, education, community 
organizing, and community development. Headquartered at Baylor 
University with 12 regional offices across the state, THI convenes 
Federal, state and local government stakeholders with nonprofits, faith 
communities and business leaders to create an efficient system of 
accountability that increases food security in Texas. At the heart of 
THI is the belief that because public challenges (and food insecurity 
is a good example) are multi-jurisdictional in nature, ``they require a 
response that exceeds the capabilities and resources of any one 
department, organization, or jurisdiction, and collaboration, including 
multi-jurisdictional partnerships, provides a way to stretch resources, 
and accomplish more with less.'' \1\ Public-private partnerships are 
collaborations that involve a ``public agency and either a private firm 
or nonprofit organization,'' and each plays a role in service delivery. 
Benefits of public-private partnerships include ``cost savings [and] 
enhanced quantity and quality of services'' in addition to benefits for 
the local community, such as ``addressing community needs, enhancing 
trust between participating entities, and increasing citizen support.'' 
\2\
---------------------------------------------------------------------------
    \1\ O'Leary, R., and C. Gerard. 2013. Collaborative governance and 
leadership: A 2012 survey of local government collaboration. The 
Municipal Yearbook 2013. Washington, D.C.: ICMA, 57.
    \2\ Ibid, 251.
---------------------------------------------------------------------------
Coverage
    In Texas, the Texas Health and Human Services Commission (HHSC) 
administers SNAP and other important programs, including the Children's 
Health Insurance Program and hospice services. HHSC maintains several 
offices and local staff, but Texas is big--really big. We have 254 
counties, cover a span of almost 269,000 miles<SUP>2</SUP>, and have 
more than 27 million residents.\3\ To reach the entire state, the HHSC 
would ordinarily need to either expend an incredible amount of money to 
maintain physical offices, government personnel, and secure technology 
to cover an area more than 3,935 times the size of D.C., or else 
sacrifice access to some of our most vulnerable residents. But I said 
``ordinarily.'' Instead, Texas joined the ranks of a few other forward-
looking states and engaged the help of nonprofit organizations across 
Texas who already exist, relate, and thrive in communities that 
programs like SNAP seek to help.
---------------------------------------------------------------------------
    \3\ Texas Department of State Health Services.
---------------------------------------------------------------------------
Access
    Right now, over 1,100 community based organizations in Texas 
partner with the state to provide application assistance for SNAP and 
other public benefits programs. These organizations have the option to 
provide assistance to their existing clientele or the public at large. 
This means that, without divulging sensitive information to the general 
public, shelters can provide application assistance to victims of 
domestic violence, and at the same time a local church, synagogue, or 
mosque can help anyone in need. Organizations can be found via the 
government website, a phone call to a free health and human services 
information and referral system (in Texas, 2-1-1), or via other 
community organizations who refer persons in need.\4\
---------------------------------------------------------------------------
    \4\ Organizations can opt out of a public listing; this is in some 
cases crucial for the safety of their clients, as in the case of 
domestic violence shelters.
---------------------------------------------------------------------------
    There are two main partnership levels within this program: Self 
Service and Assistance. At Self Service sites, a computer is made 
available to the public and the online portal is immediately 
accessible. This is an excellent option for members of the community 
who are comfortable using computers and have a strong command of the 
technical language and processes used in the application process, but 
who do not have access to a reliable Internet connection and a computer 
with the latest authentication protocols installed.\5\ However, to be 
honest, while I grew up in the age of technology and computers do not 
generally present a challenge for me, as an AmeriCorps VISTA I found 
the application jargon difficult to understand in places, especially 
for a first time applicant looking for short-term benefits. This is why 
HHSC created the second level of partnership, what we call Application 
Assistance sites. At these sites, applicants can sit down with a staff 
member or volunteer called a Navigator. These Navigators receive free 
online training from the state that enables them to assist in and 
answer questions regarding the application process. This reduces errors 
in applications, saving the government both time and money while also 
more promptly and efficiently providing resources to the Texans who 
need them, and it utilizes extant charitable structures to 
significantly decrease the need for government offices in many places
---------------------------------------------------------------------------
    \5\ This became particularly important after the OpenSSL exploit 
became known last year, which left many websites vulnerable to nigh-
untraceable hacks. Fortunately, the HHSC computer systems were 
protected, and there was no interruption in access for Texans using 
this system.
---------------------------------------------------------------------------
Who?
    The more than 1,100 organizations who partner with the state 
comprise various constituencies and come from many different sectors, 
including faith communities and faith-based ministries, Head Start 
programs, libraries, hospitals and clinics, educational institutions 
from Pre-K all the way through higher education, colonia programs, 
land-grant universities, homelessness prevention and transitional 
housing, rehabilitation centers, and domestic violence shelters. Of 
those 1,100 distinct partners, we know that more than 375 work in 
health and disability; 300 in education, early childhood intervention, 
or afterschool programs; more than 60 offer protective or 
rehabilitative services; and more than 50 offer employment assistance 
and skill training (and we expect this number to increase significantly 
very soon). Of the partners, about 200 are faith-based, and many others 
obtain volunteers for nearby faith communities.

------------------------------------------------------------------------
                                 Category
              ---------------------------------------------
    Sector       Non-Faith                                      Total
                   Based      Faith-Based     Government
------------------------------------------------------------------------
Education                37             0                0            37
Health &                342            44                2           388
 Disability
Early                   264             0                0           264
 Childhood
 Intervention
 &
 Afterschool
 Enrichment
Faith                     0            69                0            69
 Community &
 related
 Ministries
Government                3             0                6             9
Community                11             1                6            18
 Center
Community                12             0                0            12
 Development
Protective &             55             4                2            61
 Rehabilitati
 ve
Employment &             44             3                0            47
 Skill
 Training
Family                   34             4                0            38
 Services
Other                   171            65                3           239
              ----------------------------------------------------------
  Total                 973           190               19         1,182
------------------------------------------------------------------------

    Reliable transportation is one of the most common barriers for 
economically vulnerable residents. Getting to an agency office for the 
application itself, to submit appropriate documentation, and in some 
cases to attend an in-person interview, is difficult when the applicant 
does not own a reliable car. This results in missed appointments, 
delayed processing times, and an additional burden not just on the 
applicant, but on the agency eligibility workers. Our partners exist in 
171 counties and 530 ZIP Codes. This means, when times get tough and 
they need a hand up, approximately 3.4 of the 5.26 million (c. 66%) of 
the presently SNAP eligible Texans could reach out to a partner in 
their area to apply to, re-certify with, or (when things improve) 
withdraw from the benefits program with the help of the community 
members who care about them most, all at an incredibly low cost to the 
state government.
Impact
    Since the inception of this program, the percentage of applications 
filed electronically has risen to 68.1 percent. This means that those 
who are applying for benefits are doing so in a more efficient, cost 
effective manner. Direct-service nonprofits have leveraged mutually 
beneficial partnerships with the state to both build relationships with 
and better serve their communities' needs. They see the whole person 
and the whole neighborhood, not just a computation of income 
percentages, asset limits, and benefit rates. To put this another way, 
they seek not to determine the applicants' benefits, but how everything 
might work together to be of benefit to the community.
What does this have to do with Baylor University?
    The Texas Hunger Initiative is contracted by the state to perform 
three key roles: implementation, translation, and evaluation. (I told 
you I was an ordained Baptist minister, so you should have seen the 
three points coming.)
    Since this program began, THI has played a role in its 
implementation. Staff in all 12 of our regional offices and members of 
Texas Impact (TI) and the Texas Association of Community Health Centers 
(TACHC) work to recruit, train, and support these organizations in 
their partnerships with the state. Our staff members have relationships 
with most of these organizations, and so are able to interact with them 
on a level that would be much more difficult for a state agency to do 
so.
    This, of course, leads into our second role. In these public-
private partnerships, there is often a need for translating the 
language of government programs to the nonprofit world and, conversely, 
we nonprofits have a language all our own, complete with dialects of 
social services, community centers, and religious groups. THI, TI, and 
TACHC speak both languages.
    Remember too that THI is part of Baylor University, and as such we 
are in a unique position to do research on public-private partnerships. 
Using information from the state, field data collected by staff, and 
the feedback from community organizations working in the trenches, 
Kathy Krey, Ph.D., THI Director of Research, and her team pool 
quantitative and qualitative data to evaluate the impact and 
effectiveness of the program, and to develop evidence--informed best 
practices for all of the public-private partnerships in which we are 
engaged.
Boots on the Ground
    I have given you a high level overview, but ultimately we are 
talking today about how public-private partnerships inform the ways 
that government agencies and private nonprofits might work together to 
help people, so I would like to finish by bringing this conversation 
much closer to home.
    When I returned from Iraq in 2008 I was released from active duty 
and returned to the United States Marine Corps Reserve. With my degree 
in theology and philosophy, I was perfectly poised for both seminary 
and working at a coffee shop, so I did both. Preparing for ministry can 
be arduous and time-consuming, but also expensive, so while earning my 
masters of divinity degree, money was tight; at one point I lived for 
12 days on cereal and peanut butter and jelly. Under the old benefits 
application system, my option was this: I could get someone to cover my 
8 hour shift (which, at $7.50/hr would cost me approximately \1/3\ of 
the monthly SNAP maximum allotment) and spend a few hours waiting in a 
government office for an interview while I fill out a paper application 
as best I can, attempting to decipher the terms on the page (the first 
potential source of errors). That application would then go to a 
government employee, who then has to punch that application into a 
computer system (the second potential source of simple error), before 
it is submitted to the state. Everyone I interact with has noble goals: 
to get me the benefits for which I legally qualify, and to ensure the 
state program complies fully with the Federal regulations.
    Under the partnership I have described in brief today, things are a 
bit different. Instead of going to a government office, I call Will, a 
minister at Calvary Baptist Church, a congregation a few blocks from my 
house. ``Will,'' I say, ``I'm in a tight spot and I could use some 
help.'' Will, with whom I have a personal relationship, schedules a 
time with me that does not interfere with my job or my education, and 
tells me about the various ways the church helps people in my 
situation. If I would like to apply for public benefits, Will sits with 
me to help me with the application online, as he has been trained to 
do. Now in the end, if everything goes well, eventually I will receive 
help using either system. But Will's goals are different: Will locates 
my application assistance within the greater continuum of care within 
this faith community, and he has a deep, personal interest in seeing my 
community prosper, and in seeing me move from a place of vulnerability 
to flourishing, so that instead of being a perpetual SNAP-recipient, I 
am volunteering at the church to help them care for the rest of my 
community.
    The public sector can do and has done a great deal for economically 
vulnerable Americans, and without the programs we are talking about, 
the private sector would have hopes and good intentions, but no way to 
realize them. But the government can never know me and my needs the way 
a community based organization in my city can. Agencies execute 
programs with precision and efficiency, but staff and volunteers at the 
nonprofit that serves my neighborhood can put those programs in 
perspective, seeing them as only part of the whole--a crucial but step 
along the path to self-sufficiency and more full participation in the 
systems and the life of the greater community.

    The Chairman. Thank you, Mr. Kunz. Ms. Ender?

   STATEMENT OF LYNDA TAYLOR ENDER, AGE (ADVOCACY GROUP FOR 
              ELDERS) DIRECTOR, THE SENIOR SOURCE,
                           DALLAS, TX

    Ms. Ender. Chairman Conaway and Members of the Committee on 
Agriculture, thank you for inviting me to speak on how one 
nonprofit agency in Dallas, Texas, is engaging in a public-
private partnership to provide SNAP benefits to older adults.
    My name is Lynda Taylor Ender, and I am the AGE Director at 
The Senior Source, a nonprofit agency that has served older 
adults in the greater Dallas area for over 50 years. Our 
mission is to improve the quality of life of older adults 
through protection, elder care, advocacy, volunteerism, and 
employment services. While the majority of our clients are of 
lesser means, many of our programs provide services to all 
economic levels.
    We are members of the Dallas Coalition for Hunger 
Solutions, which has a Senior Hunger Action Team that is 
working on increasing senior participation in SNAP and 
attendance at congregant meal sites.
    In 15 years, adults over 60 years of age will make up more 
than 20 percent of the population in Texas. That means one in 
five walking the mall will be over 60. The growth is a worry 
because currently nine percent of seniors in Dallas County live 
below the poverty line, and 57 percent of eligible seniors are 
not receiving SNAP. Why aren't eligible seniors applying for 
SNAP? Well, many do not realize the program exists or that they 
might be eligible. They may not see themselves as poor. For 
some there is a stigma attached to accepting government 
assistance. Some seniors believe it would be too difficult to 
apply or believe the myth that they would only get $7 so it is 
not worth applying.
    A lack of transportation and a complicated application 
process can be deterrents. As a community partner, The Senior 
Source is certified by the Texas Health and Human Services 
Commission to provide assistance to people interested in 
accessing benefits. The SNAP application is complicated and 
confusing, even for professionals. Our Elder Support Program 
staff have been specially trained to navigate the online 
application, and they have access to support help when they 
need it.
    When an older adult contacts our agency for any kind of 
assistance, we try to help them with any emergency need they 
have first, like food from our small pantry. Next we will ask 
them, if they would like to make an appointment to see if we 
can assist them further. Usually they will. When they come for 
the appointment, we evaluate if the person could qualify for 
SNAP or any other benefits. Our social workers allow 1\1/2\ 
hours to work with an individual on completing a SNAP 
application. We access emergency SNAP for many applicants. They 
can get help in less than a week. Most of our applicants are 
approved for a year because their income does not change. Most 
of our clients who apply for SNAP are awarded between $16 and 
$194 a month. The majority of our clients are women, and their 
age range is 60 to 90.
    An example of a client would be a 77 year old woman who 
contacted The Senior Source requesting assistance. Her husband 
had recently died, and her income had been reduced to $970 a 
month. She was having a difficult time paying her rent, 
utilities, purchasing food, and medications. Staff determined 
that she was eligible for SNAP. She was awarded $194 a month in 
SNAP benefits. This resulted in a yearly savings of $2,328. 
While this does not address the fact that her income is still 
less than $12,000 a year, this will help ensure that she has 
access to healthy food.
    Every day we see what occurs when an older adult does not 
have enough healthy food to eat. Without good nutrition, they 
are more prone to illnesses and falls, are more likely to show 
signs of mental confusion and be victims of financial or 
physical abuse. For these reasons, they may lose their ability 
to live independently. There is a very real need for Community 
Partners and navigators because the application is confusing to 
older adults, the notices are confusing, and they feel more 
comfortable going to a trusted organization in their community 
for assistance.
    Thank you again for the opportunity to talk to you about 
how The Senior Source assists older adults with the SNAP 
application process through a public-private partnership.
    [The prepared statement of Ms. Ender follows:]

   Prepared Statement of Lynda Taylor Ender, AGE (Advocacy Group for 
            Elders) Director, The Senior Source, Dallas, TX
A Community Partner's View of SNAP's Role in Combating Older Adult 
        Hunger
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee on Agriculture, thank you for inviting me to speak on this 
important topic. My name is Lynda Taylor Ender, and I am the AGE 
Director at The Senior Source, a nonprofit agency that serves older 
adults in the greater Dallas area. I educate members of our community 
on older adult issues and advocate on those issues with public 
policymakers utilizing my experience as a teacher in the public 
schools, a legislative aide to a state senator and most importantly as 
a caregiver for aging parents.
The Senior Source
Mission and Vision
    Senior Citizens of Greater Dallas, Inc., doing business as The 
Senior Source, has served the Dallas community for more than fifty 
years. Although the nature and scope of agency services has evolved 
over time, The Senior Source remains steadfast in its mission to 
improve the quality of life of older adults in the greater Dallas area 
through protection, eldercare, advocacy, volunteerism and employment 
services.
Specific Needs Addressed by The Senior Source
    The Senior Source provides services to the community through its 
ten programs. The programs serve those 50 years of age and over and 
family members of older adults. Services are offered in Dallas and 
Collin Counties, except for the Nursing Home Ombudsman Program and the 
Elder Financial Safety Center, which cover only Dallas County. More 
than 25,000 clients of all ethnicities and income levels are served 
annually by 63 staff members operating under a 55 member Board of 
Directors. While the majority of clients are at the poverty or low 
income level, many of the programs of the agency provide service to all 
economic levels. The programs address a wide spectrum of the needs of 
older adults. For those who still need to work and are able, we have an 
employment program. We assist older adults in accessing meaningful 
volunteer opportunities, provide supportive services to enable 
vulnerable elderly to remain living in their own homes, and for the 
frailest, provide guardianship or nursing home ombudsman services. We 
also provide services to caregivers of older adults. Through the new 
Elder Financial Safety Center, financial needs of older adults in the 
areas of prevention, protection, and prosecution are addressed.
Hunger Addressed by The Senior Source
    It is our long history of working in our community to protect and 
improve the quality of life for older adults that led to our joining 
the Dallas Coalition for Hunger Solutions. One of the Coalition's 
action teams is the Senior Hunger Action Team chaired by Katie 
Dickinson, Chief Administrative Officer of The Senior Source and 
established in May of 2014. Since that time, the Team has been working 
hard on a strategic planning process to create a set of goals to study 
senior hunger and to develop implementable strategies for reducing it. 
Representatives from many organizations brought their expertise to the 
table. The Team has studied the current landscape of senior hunger in 
Dallas, identified barriers that currently exist to solving the problem 
of senior hunger and pinpointed the resources available to overcome 
those barriers. The Team has identified short term goals and strategies 
to achieve those goals. They have issued a report to describe the 
challenges seniors face accessing food, share the Senior Hunger Action 
Teams plans and invite other community members to join them in 
addressing this critical community need.
    The Senior Hunger Action Team has decided to focus in the short-
term on two key strategies for reducing senior hunger:

  <bullet> Increasing senior participation in SNAP.

  <bullet> Increasing senior attendance at publicly funded daily 
        congregate meal sites.

    They will focus primarily on raising awareness by developing and 
distributing literature that describes the value of SNAP, ways to get 
the most out of using it and the variety of ways that seniors can 
apply, including by phone and in person at community organizations that 
serve as HHSC Community Partners. Distribution of literature will be 
through churches, Meals on Wheels delivery drivers, AARP, homeowners 
associations, caregivers and health care providers. They will provide 
information at community events and local markets. They will provide 
peer-to-peer SNAP counseling for seniors and reach out to apartment 
managers at properties with large senior populations.
Mapping the Landscape of Senior Hunger
    Seniors are a swiftly growing population in the United States, and 
especially in Texas. Seniors over the age of 60 are estimated to make 
up over 16% of the population in Texas and in the next fifteen years 
that number is expected to jump to 20%.
Projected Percentage of Age 60+ Population in Texas
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: HHSC Administration on Aging.
          Note: 2001-2003 based on interpolation between 2000 and 2004 
        data.
Projected Percentage of Age 60+ Population in Texas
    That means that by the year 2030 there will be over 6.5 million 
people who are older than 60 in Texas alone. In Dallas County, the 
second most populous county in Texas, the senior population is expected 
to rise by over 60,000 by the year 2020.
    Nearly 90 percent of people over age 65 want to stay in their home 
for as long as possible, and 80 percent believe their current residence 
is where they will always live. (AARP, December 2011)
Projected Number of Age 65+ Population in Dallas County
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Richard Amory, North Texas Food Bank.

    This is hardly surprising given the fact that the baby boomer 
generation has begun to age into this category, and it would not be 
cause for concern if not for the fact that currently 9% of seniors in 
Dallas County live below the poverty line. That means that over 20,000 
seniors in Dallas County may not know where their next meal is coming 
from and often have to choose between feeding themselves and paying 
their bills.
    On top of this, many seniors in Dallas County are homebound, as 
nearly 25,000 households in Dallas headed by seniors have no access to 
a vehicle. Transportation is a big factor in senior hunger; if a senior 
is unable to drive themselves to a grocery store, or if they must take 
a bus or rely on a family member for transportation, it is likely to 
influence how often they make the journey and how well they eat between 
trips. Fortunately, there are some programs in place to help seniors 
who are food insecure, including SNAP and senior meals programs.
    Many seniors are eligible to receive SNAP, meaning that their 
income is low enough that they qualify for this assistance. 
Unfortunately, 65% of those eligible nationally are not currently 
receiving this important benefit. In Dallas County, 57% of eligible 
seniors are not receiving SNAP. That amounts to over 19,000 seniors in 
Dallas County who are low-income and need assistance purchasing food, 
but are not receiving the help they are likely eligible for.
SNAP Data for Dallas County Seniors, age 65+
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Barriers to Seniors Accessing SNAP
    There are a myriad of reasons why eligible seniors may not be 
receiving SNAP. Many seniors simply do not realize that this program 
exists or that they might be eligible. Often there is a stigma attached 
to accepting government assistance; people feel that they should be 
able to get by on their own, even when it is increasingly difficult to 
do so. They may not see themselves as poor. Some seniors believe that 
it would be too difficult to apply or the myth that they would only get 
$7 so they don't believe applying to be worth it. A lack of 
transportation to get to an office to apply for assistance and the fact 
that the application process is complicated for them can be deterrents. 
Other significant barriers include financial issues and eligibility 
concerns. As a person ages, it can sometimes be more difficult for them 
to manage their finances and often the bills one is obligated to pay 
(medical bills, among others) can increase dramatically with age. 
Financial and eligibility issues are often intertwined. For example, a 
widow who had never handled finances before her husband passed away 
might have a difficult time making ends meet with her suddenly lower 
income and still may not be eligible for SNAP due to assets she has, 
such as a car or a small amount of savings.
    The Senior Source is working to educate seniors on SNAP in their 
daily interactions with clients. We are Community Partners, which means 
that we are certified by the Texas Health and Human Services Commission 
to provide assistance to people interested in accessing benefits 
through YourTexasBenefits.com. We focus primarily on assisting seniors 
to access benefits by having tech-savvy individuals on-site who are 
ready to answer questions and walk seniors through the application 
process step by step. There are also many other agencies serving as 
Community Partners that can provide assistance to seniors in applying 
for benefits. The Senior Source has a Money Management Program and an 
Elder Financial Safety Center that can help with insurance, financial 
planning and more.
Overview of a Community Partner
    When an older adult contacts The Senior Source for any kind of 
assistance, we try to help them with any emergency need and an example 
would be food from our small pantry. Next, we will ask them if they 
would like to make an appointment for us to see if we can assist them 
further. Usually, they will, and we mail them a reminder notice with a 
check list of documents they need to bring with them and a copy of the 
Intake Form. Copies of the Intake Form and meeting notice are attached. 
When they come for the appointment, we evaluate if the person could 
qualify for SNAP, Medicare savings, Medicaid, or any other benefits. 
Housing and medical bills are the high costs that help them qualify.
    If our clients' SNAP applications are denied, it is most often 
because of income and/or missing documents. The SNAP application is 
complicated and confusing even for professionals. Our Elder Support 
Program staff have been specially trained to navigate the online 
application.
    We have found that clients have a difficult time going to a food 
stamp office. They may be intimidated because they have to make an 
appointment, they may not feel comfortable having to wait, and we are 
told by them that the staff at SNAP offices are not as polite to them 
as we are. They may choose to go to a food pantry instead and call us 
for other assistance.
    Our social workers allow 1\1/2\ hours to work with an individual on 
completing a SNAP application. We access emergency SNAP for many 
applicants. They can get help in less than a week. It has to be renewed 
every month until their application is processed. After they are 
approved, most of our applicants are approved for a year because their 
income does not change. Even with SNAP, it is hard for recipients to 
afford fruits and vegetables.
    Most of our clients who are eligible for SNAP do apply for it and 
are awarded between $16-$194. The majority of our clients are women, 
two for every man and the age range is 60-90.
    A 77 year old woman contacted The Senior Source requesting 
assistance. Her husband had recently died, and her income had been 
reduced to $970 a month. She was having a difficult time paying her 
rent, utilities and purchasing food and medications. After meeting with 
the client, staff determined that she was eligible for SNAP. She made 
an appointment with a Benefits Specialist and was assisted in applying 
for this benefit. She was awarded $194 a month in SNAP benefits. 
Through our community resources, we were also able to pay her utility 
bill for 1 month saving her an additional $174. This resulted in yearly 
savings for the client of over $2,500. While this does not address the 
fact that her income is still less than $12,000 a year, this will help 
insure that she has access to healthy food.
    Being a Community Partner helps us to meet our mission of improving 
the quality of life of older adults. Without adequate nutrition, it is 
very difficult for an aging person to maintain his or her health. And 
without good health, the older adult is not able to remain independent, 
and often ends up in an assisted living or nursing facility. This is a 
great opportunity for our staff to be proactive to our clients' needs. 
Every day we see what occurs when an older adult does not have enough 
healthy food to eat. Without good nutrition, they are more prone to 
illnesses, are more likely to show signs of mental confusion, more 
prone to falls, and are more likely to be victims of financial and/or 
physical abuse, all reasons why they lose their ability to live 
independently in the community.
    Being a Community Partner has given our social workers training, 
and they have access to support help when they need it. Our RSVP 
Program is training more navigators to assist people in applying for 
SNAP at other nonprofits.
    There is a very real need for Community Partners and navigators 
because the application is confusing to older adults, the notices are 
confusing, and they feel more comfortable going to a trusted 
organization in their community for assistance.
    Thank you again for the opportunity to talk to you about how our 
nonprofit organization plays a role in the SNAP application process 
with older adults.
                              Attachments


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Ms. Ender. Mr. Webb?

             STATEMENT OF JONATHAN WEBB, DIRECTOR,
   FOUNDATIONS AND COMMUNITY ENGAGEMENT, FEED THE CHILDREN, 
                           EDMOND, OK

    Mr. Webb. Chairman Conaway, Ranking Member Peterson, 
Members of the Committee, it is truly an honor to be among my 
colleagues today to testify on SNAP and the role of nonprofits 
in addressing hunger in the United States. Thank you for the 
opportunity to share about our work and offer insight into how 
nonprofits and government can strengthen our vital 
collaboration. Also, thank you to my fellow witnesses from 
Texas Hunger Initiative, Texas Community Partner Program, the 
Greater Chicago Food Depository, and Ms. Green-Patton for 
coming to the table to share their experience and shed light on 
both the nexus of the Federal nutrition safety net and the 
necessary role and work of nonprofits.
    My name is Jonathan Webb. I am a Director of Foundation and 
Community Engagement with Feed the Children. Feed the Children 
is based in Oklahoma City. We are one of the largest anti-
hunger organizations in the United States. We are 99 percent 
privately funded with less than one percent of our funds coming 
from Federal Government resources. Half of our programming 
occurs in 18 countries internationally while the other \1/2\ 
occurs domestically in the United States.
    One of our strengths is our network of 1,200 partner 
agencies. The majority of the people that we serve are enrolled 
in SNAP or some other form of Federal nutrition assistance. We 
applaud the Congress for upholding SNAP in the 2014 Farm Bill 
and for investing in new, innovative demonstration projects on 
both childhood hunger and SNAP employment and training.
    SNAP is an invaluable resource and a strong safety net for 
the children and families we serve. Without it, hunger in 
America would be much, much worse. While we strongly support 
the value of SNAP as a tool, we believe it should not be the 
only tool. Having international and domestic operations 
provides Feed the Children with a unique vantage point. 
Globally, both child deaths and absolute poverty have decreased 
by 50 percent since 1990. We believe this to be due to 
collective impact. Hunger is a complex issue with many 
underlying causes which include poverty, education, 
unemployment, and health. This means that no one organization 
can address the issue alone.
    Internationally the collaborative approach is one that 
leverages existing community assets while collectively building 
the foundational elements to transform a community and move it 
from its current situation. Domestically, while the war on 
poverty has had great strides, poverty still exists. In the 
United States, our approach to anti-hunger lacks collaboration, 
and it does not always address the underlying causes of hunger. 
This is not due to groups not willing to work together or not 
understanding the issue. The issue is that sometimes often the 
available funding sources don't incentivize collaboration.
    The role of nonprofits in a domestic fight against hunger 
should be as a collaborator, an innovator, and an evaluator. 
Given the complexity of the hunger issue, we need an all-hands-
on-deck approach that allows nonprofits and a cross-section of 
players to serve as an incubator, giving us the freedom to test 
innovative solutions, the flexibility to fail, and in the 
process find transformative solutions that could be measured 
for impact and ultimately scaled up.
    We believe the government is in a position to encourage 
collaboration around these three roles. Therefore, we make the 
following three recommendations. One, we recommend that 
Congress use existing resources to create the Food and Security 
and Nutrition Social Innovation Fund. This would promote 
collaboration among nonprofits, community leaders, faith 
groups, and academics and would allow us to collectively 
create, identify, and scale up those programs and models and 
the policies that decrease the number of people who need the 
safety net, instead of just trying to improve the safety net. 
It also creates an opportunity for anti-hunger organizations to 
share best practices more efficiently.
    Second, we recommend that Congress focus on funding for 
nonprofits working collaboratively on demonstration projects 
that test innovative approaches to improving food insecurity 
and administering Federal Nutrition Programs.
    Last, we recommend that Congress require an impact 
measurement of programs using food security and nutrition 
indicators to determine progress towards a larger goal.
    Again, we thank you for the opportunity to be part of 
today's hearing. Feed the Children is committed to creating a 
world where no child goes to bed hungry. We welcome the 
dialogue and hope to be a part of this ongoing conversation. 
Thank you.
    [The prepared statement of Mr. Webb follows:]

    Prepared Statement of Jonathan Webb, Director, Foundations and 
          Community Engagement, Feed the Children, Edmond, OK
Fostering Innovation, Collaboration, and Improved Measurement
Introduction
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, it is an honor to be among my colleagues here today to 
testify on the role of the charitable sector in addressing hunger in 
the United States. Thank you for the opportunity to share about our 
work and offer insight into how the nonprofit community and government 
can strengthen our vital collaboration. Additionally, thank you to my 
fellow witnesses from Texas Hunger Initiative, Texas Community Partner 
Program, and the Greater Chicago Food Depository for coming to the 
table to share their experience and shed light on both the nexus of the 
Federal nutrition safety net and the necessary role and work of 
nonprofits.
    Feed the Children's mission is to ensure that no child goes to bed 
hungry. To this end, Feed the Children works alongside the government, 
serving individuals and communities struggling to overcome food 
insecurity. Based in Oklahoma City, Feed the Children is one of the 
largest charitable organizations in the U.S. Over the last 36 years, we 
have developed a national partnership network of over 1,200 agencies 
and established a legacy of meeting the immediate needs of Americans 
struggling with food insecurity and educational challenges in all 50 
states. We provide critical relief after natural disasters and support 
our community partners who serve populations in rural and urban 
communities. The majority of people we serve are enrolled in the 
Supplemental Nutrition Assistance Program (SNAP) or another form of 
Federal nutrition assistance. Collaborating with grassroots leaders, we 
have built a track record of combating childhood hunger through dynamic 
local partnerships and impactful programing. Today, we will present 
three concrete suggestions for how the Federal Government can leverage 
its infrastructure to better incentivize collaboration among 
nonprofits.
    As the Director of Foundations and Community Engagement, I work 
closely with private companies, charitable organizations, and 
individual donors that together provide 99% of our funding. 
Additionally, I assist in facilitating Feed the Children's pioneer 
efforts to root our programing in research-based, partnership 
initiatives.
    Five years ago, Feed the Children conducted a detailed assessment 
on how we--and our vast partner network--approach hunger here in the 
U.S. Our assessment revealed that our U.S.-based programing was simply 
not as effective as our global anti-hunger work. Despite the challenges 
of working in impoverished developing countries, we were winning the 
fight against hunger overseas. In the U.S., with its thriving economic 
and government infrastructure, this simply was not the case. The 
difference? Internationally, Feed the Children and many nonprofits work 
collaboratively on addressing the root causes of hunger. Domestically, 
far too often, our hunger initiatives operate independently from (or, 
worse, at odds with) other like-minded government and nonprofit 
entities. Both then and now, the social sector in the U.S. remains 
focused on the isolated interventions of individual organizations to 
solve complex problems.\1\ Armed with this understanding, Feed the 
Children launched a new phase of collaborative, partner-based 
programing in the U.S.
---------------------------------------------------------------------------
    \1\ Kania, John and Kramer, Mark. (2011) Collective Impact. 
Stanford Social Innovation Review. http://www.ssireview.org/articles/
entry/collective_impact.
---------------------------------------------------------------------------
    As an organization, Feed the Children recognizes that evidence 
points to the need for broad, cross-sectoral coordination to bring 
about systemic social change. We fight hunger through integrated, 
child-focused community development. We combine our resources with 
existing community assets to teach parents and family leaders new 
skills, improve livelihoods, encourage savings, improve environments 
and infrastructures, and promote behavior change. Recognizing the 
imperative of grassroots leadership, we strengthen the abilities for 
families and communities to stand on their own, fostering sustainable 
change.
    Globally, we are calling upon innovative and effective tools and 
methods that are constantly emerging through the collaborative work of 
a wide set of stakeholders: nonprofits, local communities, academic 
institutions, businesses, and governments. And the results are 
impressive. Globally, both child deaths and absolute poverty have 
decreased by \1/2\ since 1990, accompanied by many other improvements 
in food security and nutrition. A parallel innovation and progress can 
be unleashed in the United States if we can learn from these lessons. 
In the U.S., we can decrease childhood poverty and deaths, and 
simultaneously increase food security and nutrition through an active 
effort to promote collaboration and by focusing on innovation, 
measurement, and a continuous improvement in methods.
    The U.S. requires a strong safety net for poor children and their 
families. As an organization, we firmly uphold the value and role of 
SNAP and other Federal nutrition programs. However, as we reach the 
50th anniversary of America declaring a War on Poverty, we believe that 
our national strategy for fighting hunger must be broadened and made 
more inclusive so that fewer Americans will require that safety net. We 
are eager to work with you to support the independence and vitality of 
these communities and families.
    Feed the Children applauds the Congress for strengthening SNAP in 
the 2014 Farm Bill and for investing in new, innovative demonstration 
projects on both childhood hunger and SNAP employment and training. The 
topic of this hearing is timely and we recommend the U.S. government 
improve multi-sector collaboration as an avenue to move SNAP 
participants beyond the safety net. We support this sentiment and agree 
that, to effectively bolster SNAP, we must move beyond the question of 
simply adding funds or cutting dollars. As a part of this hearing, Feed 
the Children recommends strengthening programs and interventions that 
will sustainably support current SNAP participants and the overall 
program.
The Current Role of Nonprofits
    Learning from our successes and failures in the U.S. and around the 
world, Feed the Children is focused on championing partnership and 
innovation, working with and through trusted grassroots organizations. 
With our partners, we offer the Federal Government an opportunity to 
strengthen our collective response to food insecurity by further 
incentivizing anti-hunger stakeholders to collaboratively end hunger.
    Feed the Children's program staff in Oklahoma City, New York City, 
and New Orleans are deeply and thoughtfully engaged with local 
communities and are pioneering integrated approaches to ending child 
hunger. We use innovative and evidence-based ways to improve Americans' 
nutrition and food security. For example, as humans, many of our 
beliefs about what is good or acceptable to eat are patterned and fixed 
in the first years of our lives.\2\ Humans naturally form their diets 
based on what foods are more familiar to them.\3\ Consequently, 
identifying ways to improve what children's perceptions of healthy food 
are, and their approach to nutritious meals is critical to changing 
what Americans eat. For that reason, Feed the Children uses a peer 
educator model that has spread to 28 countries around the world--Care 
Groups--to reach parents of very young children in our New Orleans Food 
and Education Oasis Project. This innovative model has been shown to 
double the nutrition behavior change of other program models at very 
low cost.
---------------------------------------------------------------------------
    \2\ Smith, T. (2004) The McDonald's Equilibrium: Advertising, Empty 
Calories, and the Endogenous Determination of Dietary Preferences. 
Department of Economics, University of California, Santa Barbara. Smith 
T. and Tasnadi A. (2007) A Theory of Natural Addiction. Games and 
Economic Behavior. http://ssrn.com/abstract=979192.
    \3\ Smith, Trenton, and A. Tasnadi. (2007) ``A Theory of Natural 
Addiction.'' Games and Economic Behavior. Available at SSRN: http://
ssrn.com/abstract=979192.
---------------------------------------------------------------------------
    In our home State of Oklahoma, Feed the Children is pioneering an 
innovative way to increase access to healthier food options for 
families in rural areas. In partnership with the Chickasaw Nation and 
through a USDA demonstration project, we are leveraging our 
organization's strong logistical capabilities to better serve families 
in rural Oklahoma that struggle with healthy food access. A report from 
USDA's Economic Research Service \4\ found that giving SNAP 
beneficiaries the option to preorder groceries by telephone or online 
could improve their food choices. Using this evidence, our program will 
allow families to use their EBT cards to grocery shop online and have 
their meals delivered through the U.S. Postal Service. This partnership 
is the first of its kind for both the Chickasaw Nation and Feed the 
Children. It has fostered programmatic collaboration outside of our own 
respective organizations to improve how SNAP dollars are used to ensure 
healthier meals. This partnership would not be possible without the 
strong, bipartisan support of the Congress in authorizing the 
Demonstration Project to End Childhood Hunger. In addition to improving 
families' nutrition, by funding this demonstration project, the 
government has helped Feed the Children and the Chickasaw Nation deepen 
our collaboration outside of the grant. For example, using private 
funding, we are now collaborating with the Chickasaw Nation to improve 
their nutrition programs by conducting formative research on The 
Special Supplemental Nutrition Program for Women, Infants, and Children 
(WIC), SNAP education, Summer EBT, and farmers' markets.
---------------------------------------------------------------------------
    \4\ Just D., Mancino L. and Wansink B. (2007). Could Behavioral 
Economics Help Improve Diet Quality for Nutrition Assistance Program 
Participants? USDA, Economic Research Service, Economic Research Report 
No. 43.
---------------------------------------------------------------------------
    Feed the Children is also striving to foster stronger collaboration 
within the nonprofit, academic, and government sectors. We have learned 
the value of identifying ``bright spots'' and are committed to helping 
scale-up those best practices and program models. We launched the 
Center for Children and Social Engagement to help our own organization, 
other nonprofits, and academic institutions engage in more knowledge 
sharing and collaboration to laterally scale-up--organization to 
organization--cost-effective, innovative program models that improve 
child nutrition and food security.
    Additionally, Feed the Children is an active member of Mission 
Measurement, which brings the power of data science to social impact, 
enabling decision makers to maximize their return on investment. We are 
also part of the Clinton Global Initiative, which is formulating 
collective commitments to the U.S. Food Insecurity Call to Action for 
child, adolescent, and youth hunger, and healthy food access issues. We 
are working closely with a range of nonprofit and private sector 
partners to improve our collective strategy advancing efforts to 
increase participation in ``out of school time'' feeding programs and 
increase access to healthy and fresh food options in under-served 
communities. These represent prime examples of how nonprofits are 
striving to leverage their community resources to strengthen and 
support Federal nutrition programs, like SNAP and the Summer Food 
Service Program (SFSP). Despite these gains, we can only do so much to 
promote collaboration across sectors with our private resources, and we 
encourage the U.S. Government to do more to incentivize coordination 
among nonprofits, academic institutions, and government agencies.
    When addressing the issue of food insecurity, nonprofits often 
focus on providing short-term, palliative responses to hunger rather 
than dealing with the underlying causes. Many times, the nonprofit 
sector presents emotional appeals to the public around acute needs that 
generate funds. This approach can be successful, but makes it difficult 
for funding agencies to support innovative hunger-prevention work. The 
system tends to reward organizational individualism rather than 
collaboration. As a result, nonprofits working on hunger issues often 
view themselves as competitors rather than partners in the fight 
against child hunger. Viewing peer organizations as competitors hinders 
the broad, cross-sectoral collaboration needed for social change. 
Nonprofits, academic institutions, local communities, and government 
agencies need stronger government incentives to coordinate their 
efforts. We commend the House Agriculture Committee for pulling 
together a few of our partners to have a more intentional conversation 
on the role of nonprofits in addressing hunger. It is our hope that the 
following recommendations will present an opportunity to formalize our 
collaboration.
The Role of Feed the Children
    An estimated 49 million households struggle with the volatile 
nature of food insecurity. These individuals and their families need 
initiatives that simultaneously support and prevent them from needing a 
long-term safety net. What they need is a reliable, short-term, and 
cost-effective safety net, and ongoing programs that help them recover 
from situational adversity so they can move off the safety net as 
quickly as possible.
    In our 36 years of fighting hunger, Feed the Children has learned 
that nonprofits, government agencies, and other anti-hunger 
stakeholders cannot continue to address this problem in our respective 
silos. Deeper collaboration among anti-hunger stakeholders will yield 
innovative, more effective, and sustainable program models. The Federal 
Government has the unique ability to serve as the organizing 
infrastructure to incentivize a transformative, collective approach to 
end hunger. Feed the Children seeks to collaborate with others to 
identify what is working, foster stronger innovation and collaboration 
among anti-hunger stakeholders, and to collectively define what it 
means to have impact on food security and nutrition. This partnership 
needs to be formalized at the national level since no one organization 
can do it alone.
    Each of the following recommendations seeks to establish mechanisms 
that foster innovation, collaboration, and improved measurement of 
results and impact in order to ultimately decrease the number of 
individuals who need the Federal safety net; improve food security and 
nutrition; and make the safety net more cost-effective.
Recommendation 1: The Food Security and Nutrition Social Innovation 
        Fund
    Feed the Children recommends that Congress use existing resources 
to formalize its work with the nonprofit community and academic 
institutions to establish a Food Security and Nutrition Social 
Innovation Fund. The purpose of this Social Innovation Fund will be to 
promote collaboration among nonprofits, community leaders, faith 
groups, academics, and the government. Such collaboration would seek to 
create, identify, and scale-up program models and policies that 
decrease the number of people who need the safety net, not just improve 
it. Creation of an inclusive, national, implementer-driven network of 
anti-hunger practitioners--a ``community of practice''--would allow 
them to:

  <bullet> better understand what each organization (and agency) is 
        doing in a given geographical area and foster coordination of 
        efforts;

  <bullet> learn how to conduct formative research that can improve 
        program outcomes;

  <bullet> disseminate and integrate research findings and best 
        practices into program activities;

  <bullet> learn to accurately monitor and evaluate in order to 
        identify what is working best (and not working), and collect 
        and analyze evidence;

  <bullet> challenge old, ineffective, and wasteful program models;

  <bullet> create tools (e.g., training manuals, videos) that are 
        helpful in laterally scaling up the best program models and 
        approaches (across organizations and states); and

  <bullet> build consensus and skills in program planning, design, and 
        implementation.

    The Food Security and Nutrition Social Innovation Fund will be 
principally used for innovation grants that are administered to a 
consortia of nonprofits, academic institutions, community-based 
organizations, and other food security practitioners (e.g., social 
enterprises). Such grants would require organizations to apply and work 
together (rather than to single organizations) to document their 
innovative work, test ideas, and scale-up successful programs from 
organization to organization. Grants from the fund would enable 
organizations to:

  <bullet> create training manuals and conduct trainings for 
        practitioners on innovative food security and nutrition program 
        models (e.g., the Liberty's Kitchen \5\ social enterprise 
        model) and tools (e.g., Barrier Analysis \6\ for formative 
        research);
---------------------------------------------------------------------------
    \5\ See http://libertyskitchen.org.
    \6\ Kittle, Bonnie. (2013) A Practical Guide to Conducting a 
Barrier Analysis. New York, NY: Helen Keller International. http://
www.coregroup.org/storage/barrier/
Practical_Guide_to_Conducting_a_Barrier_Analysis_Oct_2013.pdf.

---------------------------------------------------------------------------
  <bullet> improve measurement of their work;

  <bullet> conduct demonstration projects to test scale-up of promising 
        ideas (see below), strengthen and improve SNAP and other 
        Federal nutrition programs for specific populations; and

  <bullet> foster project partnerships (e.g., through planning grants) 
        with universities, faith groups, and municipalities.

    Feed the Children estimates that the initial investment needed to 
establish the Food Security and Nutrition Social Innovation would be 
roughly $370 million of overall annual funding, which includes $333 
million for the innovation grants and $37 million to maintain a 
national community of practice (network), including development and 
maintenance of an online repository of anti-hunger tools and methods; 
listservs; working groups; face-to-face and online meetings; and 
practitioner training.
    Many nonprofits and academic institutions welcome the opportunity 
to further collaborate on programs and knowledge sharing, but lack the 
resources to bring together the group required to implement these 
plans. Because the Food Security and Nutrition Social Innovation Fund 
will be driven by a diverse group of stakeholders, it will allow 
practitioners to break down the silos that have historically prevented 
a review of the cross-sectoral issues that define hunger. Leveraging 
the various skill sets from community leaders, nonprofits, academics, 
churches, and governments will allow us to creatively collaborate on 
solutions that move beyond increasing access to direct services and 
emergency response to more integrated community development.
    This community of practice would be able to help identify best 
practices and scale up work in improving access to--and production of--
healthy foods in low-income areas (urban and rural); improving child 
nutrition; dealing with mental health and trauma issues that often 
underpin food insecurity; and getting people receiving government 
nutrition assistance back to work--into better paying, high quality 
jobs. It will also allow collaborators to strengthen interactions 
between government, nonprofits, and SNAP participants, while 
identifying innovative solutions to such challenges as employment 
training, retention, re-certification, and caseload turnover.
Where This Collaborative Model Has Worked
    Feed the Children has witnessed this collaborative model work in 
breaking down silos and generating life-saving solutions in the field 
of international food security and nutrition. The manner in which the 
U.S. government facilitated and incentivized collaboration and program 
improvement among organizations, academic institutions, and government 
agencies working on international food security and nutrition could be 
replicated to improve domestic food security and nutrition.
    For example, the Food Security and Nutrition Network \7\ was 
created through a USAID Food for Peace grant to Save the Children and 
four other organizations in the TOPS Project to improve food security 
and nutrition in developing countries. The network now has 210 member 
organizations that work closely to produce training manuals, create new 
tools (e.g., for assessment and formative research), test new program 
models, and improve members' knowledge and skillsets. The network holds 
regular online and face-to-face meetings of food security implementers, 
maintains a website and online repository of resources, organizes 
working groups, and makes innovation grants available to members of the 
network. As a result, the network has considerably improved the scale-
up of food security and nutrition models and tools through peer-to-peer 
adoption.
---------------------------------------------------------------------------
    \7\ See www.fsnnetwork.org.
---------------------------------------------------------------------------
    A second example is the CORE Group's Child Health Network.\8\ The 
Child Health Network was created with funding from USAID's Child 
Survival and Health Grants Program. This network now has 70+ member and 
associate nonprofit and academic organizations working together with 
government agencies to reduce child deaths. Many of the same strategies 
used in the FSN Network (e.g., working groups, innovation grants) are 
used in the Child Health Network.
---------------------------------------------------------------------------
    \8\ See www.coregroup.org.
---------------------------------------------------------------------------
    Additionally, to fund communities of practice (network groups), the 
Federal Government can also help foster better collaboration among 
domestic anti-hunger actors through the structure of grant funding 
(e.g., creating RFAs that encourage multi-organization consortia to 
respond rather than single organizations). Federal funds that support 
collaboration among multi-sector stakeholders allows nonprofits to play 
the role of social innovator or solution tester to identify those 
programs that can be reasonably scaled up and have a measurable impact 
in communities of need. Formation of a thriving community of practice 
and better structuring of grants (e.g., for demonstration projects) 
will lead to better, faster development, and scale-up of more cost-
effective program models that can help defeat hunger.
Recommendation 2: Demonstration Projects
    Feed the Children recommends that Congress focus funding for 
nonprofits working collaboratively on demonstration projects that test 
new, innovative approaches to improving food security and nutrition, 
and in administering Federal nutrition programs. To this end, Congress 
should continue to dedicate funding for nonprofits implementing 
targeted demonstration projects, and ensure USDA implements these and 
other Federal food security and nutrition programs with reasonable and 
effective program rules and requirements. Currently, a majority of 
promising Federal grants are primarily run through state agencies that 
can be ineffective and overly bureaucratic.
    Exemplifying the benefit of this type of funding, two significant 
demonstration projects by USDA were recently rolled out: The 
Demonstration Projects to End Childhood Hunger,\9\ and the SNAP 
Employment and Training Pilots,\10\ which were conducted in ten states 
to help SNAP participants to find jobs and work toward self-
sufficiency. These two opportunities help foster the sort of 
collaboration we recommend on a larger scale. Feed the Children 
applauds the Congress for making such investments and creating 
platforms to improve Federal nutrition programs like SNAP. While these 
opportunities represent laudable support for innovative approaches to 
improving nutrition and food security, there must be increased focus on 
fostering innovation. Additionally, without the presence of a community 
of practice, demonstration projects will not do enough to stimulate 
innovation. By encouraging lateral scale-up of program models and tools 
through a larger share of these government funds, more organizations 
will adopt ways of fighting hunger in their privately funded programs.
---------------------------------------------------------------------------
    \9\ See http://www.fns.usda.gov/demonstration-projects-end-
childhood-hunger.
    \10\ See http://www.fns.usda.gov/2014-snap-e-t-pilots.
---------------------------------------------------------------------------
    Currently, funds for these sorts of demonstration projects are 
typically channeled through state agencies. Implementation of these 
promising projects should directly focus on nonprofits, academic 
institutions, and community organizations. Working collaboratively with 
the government, nonprofits will be able to leverage significant private 
resources, and broad participation from community and academic 
organizations to make a real impact on food security and nutrition 
challenges. Demonstration projects and other Federal USDA grant 
opportunities should be designed in a way that creates pathways for 
resources to the groups serving local communities and have low barriers 
to entry for small- and medium-sized nonprofits. Such organizations are 
severely limited in how they can partner with the Federal Government. 
The nonprofit sector is a vital partner of the government, and yet 
there are several Federal USDA grants that are difficult, if not 
impossible, for nonprofits to access.
Recommendation 3: Measurement and Impact
    To sustainably relieve people of being ``beneficiaries'' of 
government and nonprofit assistance, Feed the Children recommends the 
Congress require results and impact measurement of programs using food 
security and nutrition indicators that assess which programs are having 
the most impact on food insecurity and nutrition.
    Ronald Reagan believed that every problem in America has been 
solved somewhere in America and that the job of the Federal Government 
is to replicate success. This is true in the category of food security. 
Functional, effective anti-hunger programs already exist. Feed the 
Children and our partners offer several examples of how we can fight 
hunger through grassroots initiatives. The Federal Government can 
support nonprofits to study success, measure success, and replicate 
success.
    Feed the Children recently launched its Center for Children and 
Social Engagement initiative based in New York City. The Center for 
Children is tasked with identifying domestic and international programs 
that foster and measure innovation around child nutrition and food 
security. For example, in New Orleans, Liberty's Kitchen is a social 
enterprise dedicated to transforming the lives of vulnerable youth. 
Liberty's Kitchen provides a path to bright and healthy futures through 
employability and life skills training and by providing freshly 
prepared, nutritious meals to schoolchildren. Though relatively small, 
Liberty's Kitchen staff is prioritizing strong investments in 
measurement and impact, while intentionally sharing their model, 
success, and failures with other groups around the U.S. The Center for 
Children will continue to work with Liberty's Kitchen to better 
understand this program's success and capture its best practices to be 
replicated around the country. This local, community model leverages 
existing community assets and the Federal safety net to deploy unique 
programs around job skills training and nutrition education to 
ultimately empower youth to flourish mentally, economically, and 
physically. Building on this success, we encourage the Federal 
Government to support this type of measurement and impact by 
incentivizing more nonprofits to better measure programs to improve 
food security and nutrition.
    More Federal grant applications should require measurement of a 
key, consistent set of food security and nutrition indicators to better 
assess which food security and nutrition program models are having the 
most impact. This requirement to measure key indicators has been one 
way that the U.S. Government has stimulated competition amongst 
international nonprofits and other agencies to continuously improve 
their methods for improving food security and nutrition, and to 
increase accountability, and to have a common understanding of what 
constitutes progress.
    Additionally, Feed the Children recommends the Congress make 
changes to how Federal programs are measured by taking into account 
food security and nutrition services enabled by Federal investments but 
paid for with private funds. This approach will further strengthen the 
role of nonprofits and encourage stronger and more effective public 
private partnerships. The USDA can develop a list of required 
indicators for measurement of programs receiving funds from the Food 
Security and Nutrition Social Innovation Fund that will be used in 
programs and reported to the Congress. This will focus innovation on 
interventions that move the needle around the focus areas. For example, 
depending on the type of funded program, demonstrative indicators that 
would be measured before and after projects would include the:

  <bullet> proportion of children and adolescents who consume fruits 
        and vegetables five or more times per day and who meet physical 
        activity guidelines;

  <bullet> proportion of children 6-13 years with a normal BMI; and

  <bullet> percentage reduction in people qualifying for SNAP in a 
        given low-income Census tract.
Conclusion
    Feed the Children stands ready to collaborate with the Federal 
Government in fostering innovation, collaboration, and improved 
measurement. The 50th anniversary of America declaring a War on Poverty 
has come and gone. Poverty still plagues our nation and will continue 
to do so unless nonprofits, academics, community leaders, faith groups, 
and governments collaborate to their full potential.
    As a nation, our success in combating hunger will hinge on the 
quality of our interventions, the strength of our relationships with 
grassroots organizations, our unique ability to bring together a nexus 
of public and private partners to fight hunger, and strategic policy 
decisions and investment from the U.S. government. Through 
collaboration and strategic policy reform, we can end hunger in 
America.

    The Chairman. Well, thank you. I thank all of our witnesses 
for sharing with us today. First off, you all finished within 
the 5 minute timeframe, each one of you. That is spectacular. 
But thank you for being here today and getting us off to a 
great start on a conversation about a tough topic.
    The chair will remind Members that they will be recognized 
for questioning in order of seniority for the Members who were 
here at the start of the hearing. After that Members will be 
recognized in order of arrival, and I appreciate Members' 
understanding that. And I recognize myself for 5 minutes.
    Ms. Green-Patton, thank you for being here today and coming 
to D.C. to share your very inspirational story. I loved your 
line about a trampoline rather than a safety net----
    Ms. Green-Patton. Yes.
    The Chairman.--and for sharing with us how the temporary 
program weaved its way in and out of your life and helped you 
get to where you are today. Can you talk to us a little bit 
more about why you continue to stay involved in the Community 
Kitchens and you mentioned a little bit about paying it 
forward, but can you flesh that out a little bit in a couple of 
minutes?
    Ms. Green-Patton. Yes. I received so much from the Greater 
Chicago Food Depository. It was more than just here is a fish. 
Eat it. It was let me show you how to fish. Let me show you how 
to cook it. Let me show you how to purchase it. Let me show you 
how to share it. And so I can't help but to give back to what 
they have given to me.
    The program, the Chicago's Community Kitchens, is a free 
program for us. They give us everything that we need to be 
successful in the culinary field and even outside the culinary 
field. And so I feel like I just owe, I owe them back. I am 
just so grateful for everything that they have done for me, the 
mentorship, the resources. They have never left me alone. And I 
came out of this program over 10 years ago.
    The Chairman. Well, thank you again for being here this 
morning and sharing that with us. Mr. Kunz, you used the word 
Navigator for your folks that you work as well. That term got a 
little tainted with the Obamacare navigators. Are they the same 
people? Are they different folks just using the same name or 
what is the link between those two?
    Mr. Kunz. Chairman Conaway, they are not necessarily the 
same people. While it is certainly possible that somebody could 
be doing both----
    The Chairman. Okay.
    Mr. Kunz.--our Navigator program is in no way associated 
with the healthcare plan.
    The Chairman. I got you. Mr. Kunz, can you talk to us about 
your comments about the state winning with fewer errors, less 
overhead, and an engagement of a group of folks who look not 
just at hunger in that narrow vision but they are looking at 
the needs of the entire person sitting in front of them as they 
go through that and how that may improve the process, first is 
with someone who is talking to them just about the nutrition 
needs.
    Mr. Kunz. Certainly. That is a great question. It is a 
complex question. I want to make sure I get to every part of 
it.
    First, on the state efficiency side, as I mentioned, Texas 
is big. I mean, it is really big. It is 269,000 
miles<SUP>2</SUP>, and we have about 5.3 million Texans that 
are eligible for SNAP. And so to have offices everywhere is 
incredibly difficult for HHSC. What the initial savings 
obviously is just that the partners are in so many locations. 
Having almost 1,200 partners means that we don't need HHSC 
locations all over the place.
    As far as the applications themselves, applications that 
are performed by individuals tend to have more errors. Member 
applications have a particular program jargon that navigators 
are able to assist and kind of explain. So we see fewer 
applications, and the process of kicking back applications to 
be corrected and then having them forwarded back and forth, 
that process is a lot quicker and saves a lot of time for the 
state and for the individual.
    As far as the way that churches and nonprofits in the area 
are able to see beyond just the benefits programs that are 
available, for instance, at the congregation that I am a part 
of, we have a whole set of resources and set of ways that we 
address hunger and poverty in our community. And so some of 
those things include things like food pantries and other food 
assistance, food recovery and soup kitchens, that kind of 
thing, but also access to other resources in the area. We have 
a great relationship with other nonprofits in the area that are 
able to address many of these needs. And so whereas for a state 
office, I think that benefits are kind of the goal of that 
office. When an individual goes to a nonprofit or a 
congregation, they are able to see a whole wealth of options, a 
whole wealth of needs and able to see a person, not an 
application. And that puts things into perspective of the 
entire continuum.
    The Chairman. All right. Thank you, Mr. Webb. I am curious 
on measuring things. Ms. Maehr a while ago mentioned millions 
of pounds of food. That doesn't translate into meaningful 
information other than it is just a lot. Can you talk to us a 
little bit about the matrix that you are using that you see 
that do work that is beyond just the pounds or the dollars that 
are spent?
    Mr. Webb. Thank you, Mr. Chairman. Domestically, we are 
working on a solution to that with the USDA trying to identify 
ways to better track how we are moving people out of their 
current situations. Internationally, the work that we are doing 
demonstrates an understanding that hunger as I mentioned in my 
testimony has several layers around poverty, employment, 
education, and health. So some of the things that we track 
overseas are things like stunting and livelihood developments, 
how many people are able to get jobs.
    Those type of things are ways to track and understand how 
people are moving out of their current situation. We realize 
that while providing food and millions of pounds of food is 
essential, it doesn't necessarily tell us the story about 
whether or not we are moving people from one place to the next. 
So that is what we are working on now.
    The Chairman. All right. Thank you very much. Again, I 
thank the panel. The Ranking Member, 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman. Colleen Moriarty 
with the Hunger Free Minnesota says that food banks need more 
food, especially high quality, fresh produce. One of their 
initiatives is to promote working with farmers directly on 
limiting waste through ag surplus initiatives. In addition, 
Feeding America is advocating an expansion of Federal tax 
credits for farmers who donate food. Some states, like Iowa, 
already do this, but there is no national tax credit.
    Ms. Maehr, in Minnesota, food banks have been able to stock 
their shelves with food from a variety of state-based 
manufacturers like Cargill and General Mills along with grocery 
chains. But there seems to be an obvious role for farmers to 
help stock food banks' shelves by donating their surplus. Have 
you had any experience working directly with farmers to 
encourage them to give otherwise wasted commodities to your 
food bank? And is there anything Congress can do to help 
simplify the relationship between farmers and food banks? Also, 
what can you tell me about the tax credits that are currently 
available to farmers who donate their products?
    Ms. Maehr. Thank you so much for the question. I will tell 
you first of all that my colleagues in the State of Minnesota 
are amazing, and we try every day to be more like them in 
Illinois and all across this country. We do have strong 
partnerships with farmers in the State of Illinois, but it is a 
challenge and it is one that all of the food banks in this 
country are really working towards. Frankly that is why the 
food donation tax credit is so important to food banks in this 
country because there are farmers that are our partners in this 
work. They see the face of hunger in their own communities. 
They want to be a part of the response, but when it costs them 
more to donate than it does to not harvest or take that food to 
a landfill, it doesn't make business sense for them.
    Food banks today appreciate and frankly all of us are 
striving to distribute more fresh produce. In the case of my 
own food bank, of the 67 million pounds of food that we 
distributed last year, 34 percent was fresh fruits and 
vegetables. Farmers, the agriculture community, they are our 
partners in this work, but we need a food donation tax credit 
that provides them with the same support that the food industry 
gets so that together we can make sure that there is fresh, 
quality food available for all of the people turning to food 
banks in this country.
    Mr. Peterson. I assume that you probably take a deduction 
for donation, in-kind donation, which you can do for a lot of 
different things. I assume you can probably do that now. But 
you are talking about a tax credit. Is there actually a bill or 
are there specific proposals?
    Ms. Maehr. The food donation tax credit currently is not 
positioned in a way that most farmers in this country can take 
advantage of.
    Mr. Peterson. They would have to do it on their personal 
return probably. But the tax credit, is there an actual 
proposal, a bill that has been introduced on this tax credit?
    Ms. Maehr. This is the deduction that was passed by the 
House, and we are hoping that your colleagues in the Senate 
will do the right thing.
    Mr. Peterson. So there is a tax credit bill that passed the 
House?
    Ms. Maehr. It was the America Gives More Act.
    Mr. Peterson. What is the tax credit? How is it structured?
    Ms. Maehr. It is the tax deduction, sorry.
    Mr. Peterson. It is a deduction?
    Ms. Maehr. Yes.
    Mr. Peterson. Off of their Schedule F?
    Ms. Maehr. One moment, please.
    Mr. Peterson. Us CPAs, we tend to get into those details.
    Ms. Maehr. No, I appreciate that. To be honest, I am 
fortunate to be a part of a great network of Feeding America, 
and I have my colleague here who can give me the details on 
that. But I can't answer that at the moment.
    Mr. Peterson. All right. Well, I will check into it. I just 
was curious about how it was structured. So thank you, Mr. 
Chairman. I yield back.
    The Chairman. The gentleman yields back. Mr. Neugebauer 
from Texas, 5 minutes.
    Mr. Neugebauer. Thank you. Mr. Chairman, thanks for holding 
this hearing, and I want to thank our panelists. It is nice to 
have some folks from organizations other than the Federal 
Government talking about how we address hunger in this country 
and also make sure we have an efficient delivery system.
    Mr. Kunz and Ms. Ender, the State of Texas being in a 
Community Partner Program, what have been some of the 
challenges of initiating that program?
    Mr. Kunz. Thank you. Some of the challenges with initiating 
the program with the start-up, we had a lot of advertising to 
do in some sense, letting nonprofits know what is out there, 
letting the nonprofits know how to participate and what 
participation means. And in many cases, nonprofits have very 
limited resources, and that has presented an initial challenge. 
That is one that we have been working with nonprofits and with 
the government to find ways to kind of overcome some of those 
things.
    I think one of the initial challenges that we faced is just 
technology. Many nonprofits are behind technologically. One of 
the benefits of Community Partner Program though we are able to 
leverage the collective technology, expertise, and resources of 
several nonprofits and congregations in many places against the 
lack of technology and experience in technology in many of the 
individual homes of applicants.
    Ms. Ender, would you like to speak to some of the 
specifics?
    Ms. Ender. For our agency, it was just being trained in the 
application and how to use the online application, to feel 
comfortable with that, to be able to work with clients. And 
frankly, our social workers, if they were here today, they 
would say that this has really been a wonderful experience for 
them because they want to help people. And before we became a 
Community Partner and they had the training and the support 
help to call on when they need it. They were having to refer 
people. They took a holistic approach, and they were looking at 
all the need, but they are having to send them elsewhere to do 
the application. So it has been wonderful in that respect but 
there was a ramping up that had to happen.
    Mr. Neugebauer. One of the issues that Mr. Kunz talked 
about Texas is a big state. I have a big district. Mike has a 
big district. And so when you leverage and use these 
partnerships, one of the concerns that I would have is what 
kind of oversight is the agency able to do to make sure that 
these agencies are all following the guidelines? Because one of 
the things that--it is not for a lack of people signing up for 
the food stamp program. I mean, one in seven Americans today 
are on the Food Stamp Program, and unfortunately, we think 
there are some people that are on the Food Stamp Program that 
maybe have not necessarily qualified to do that because of 
loopholes and so forth.
    So what are you doing to make sure that our partners are 
following the guidelines to make sure that people that are 
actually getting on food stamps are actually qualified to do 
that?
    Mr. Kunz. Right. Thank you. Thank you for re-framing the 
question. I tend to not see challenges. I tend to see possible 
solutions, and this is one of the great things about the 
Community Partner Program is that the Health and Human Services 
Commission actually has a fairly reasonably rigorous process to 
become a Community Partner. HHSC treats Community Partners 
essentially as subcontractors, and there is an MOU that is 
signed, despite the fact there is no financial relationship. 
And then these partners are--we track what is happening with 
the partners, applications they are filling out. Are there 
common errors and are there patterns? And if there are, HHSC 
follows up. The Health and Human Services Commission, along 
with Texas Hunger Imitative, has been doing site visits to each 
of these different partners. So we have at least offered and 
are in the process of making more site visits to all of them.
    And so as we go through that process we want to make sure 
that they are displaying proper information, and equal 
opportunity information and that all of the legal sides are 
covered and that we are sharing information with everyone 
involved. We provide statistical reports to the partners, and 
we also are able to analyze those on our end to make sure that 
there aren't errors.
    Regarding enforcement, the partner never has the 
opportunity or intention of determining eligibility or payment 
rates. That remains entirely with the Health and Human Services 
Commission and allows the government to do what the government 
does really well and the partner to do what it does well.
    [The information referred to is located on p. 220.]
    Mr. Neugebauer. I see my time has expired, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. Scott from 
Georgia, 5 minutes.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman. First of all, I would like to kind of set the stage 
here properly. First of all, the food banks, charitable food 
giving, are wonderful and needed organizations. But there is 
absolutely no way they can take the place of SNAP. We all need 
to clear the air and get a good understanding of that fact.
    The other fact is we cannot and we will not separate SNAP 
from the farm bill. We cannot do that anymore than we can 
separate wet from water. The food program is essential to the 
farm bill.
    Now, why do I say this? This is because of some very 
serious structural inequities and dynamics in our country. Our 
world, we are five percent of the world's population. Yet we 
incarcerate 26 percent of the entire prison population in the 
world. There are some very serious implications of that. We 
have 2.2 million people in our prisons. They are parents, and 
\1/2\ of those are forbidden to even get SNAP to take care of 
their children. Seventy percent of the children have a parent 
incarcerated. That is the number one structural dynamic.
    The other? There are 1.2 million veterans with very special 
needs that even charities and food banks cannot deal with.
    The reason I bring this up is so that we can be clear to 
know this fact. The food banks, food pantries, all of the 
organizations that you represent are wonderful supplements to 
this program, the SNAP program.
    So, the dynamics of what we have to deal with here; I 
wanted to make those two points very, very clear. There is a 
lot we have to do.
    August Wilson wrote a wonderful play on Broadway, and it 
was called Two Trains Running. We have to have two trains 
running here, the SNAP Program and each of your programs. They 
have to complement one another. And if we view this this way, 
we can make great progress. But if we only want one train 
running, we will have train collision here.
    So I wanted to ask a question, but it looks like my time is 
disappearing. I may have another shot coming around. But I did 
want to say that--this is serious, feeding the hungry people in 
this country but we have to understand the dynamics of what is 
really at the core of this problem. It can't be one or the 
other. It has to be two trains running.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back. Mrs. Walorski, the 
Chairwoman of the Subcommittee on Nutrition, is recognized for 
5 minutes.
    Mrs. Walorski. Thank you, Mr. Chairman. Keleigh, I am 
absolutely thrilled that you are here. This makes my entire 
week. We just came back on Monday from a 2 week break, and I am 
working just 2 hours from you, South Bend, Indiana, and we have 
the Northern Indiana Food Bank----
    Ms. Green-Patton. Yes.
    Mrs. Walorski.--and I have been involved with many 
different programs there. They do a fantastic job, and I am 
thrilled that you are here.
    Ms. Green-Patton. Thank you.
    Mrs. Walorski. I am thrilled that the rest of you are here, 
too, but we are all excited about Ms. Green-Patton. So I just 
wanted to ask you----
    Ms. Green-Patton. Yes.
    Mrs. Walorski.--when you talked about--and I just, I am a 
believer. You know, everybody needs help some time.
    Ms. Green-Patton. Yes.
    Mrs. Walorski. And you are such a strong testimony to that. 
So when you went back at that 10 year mark, what made the 
Community Kitchen, the Chicago Community Kitchen, different? 
Why were they able to help you in that 10 year mark as opposed 
to the other places you could look for help? What is it that 
made that whole thing work?
    Ms. Green-Patton. I believe what made it work is, again, 
the mentorship, the resources, and they never left me alone. A 
lot of places, they say here you go. There are the tools, but 
they don't follow through. And so I have kept a great 
relationship with them. They check in with me, see how I am 
doing, see how my family is doing. They provided resources such 
as job initiatives. Whenever employers like myself contact the 
Depository for applicants, they call and they reach out and 
they help you with your resume. It was just so much more. It 
was almost like--it is like being a family.
    Mrs. Walorski. Yes. And how large are the Community 
Kitchens? How many people go through?
    Ms. Green-Patton. Kate could answer that.
    Ms. Maehr. So since the program began in 1998, we have 
actually successfully graduated 1,200 people from the program, 
and we are very proud of the fact that in the last year alone 
90 percent of the graduates have jobs.
    Mrs. Walorski. That is awesome. That is so great. We will 
be in touch from the neighbor State of Indiana up there. But 
thank you so much for what you are talking about today.
    And Mr. Webb, I wanted to also thank you for being here. 
And we have worked with you really on both sides. When I was 
involved in feeding people in Eastern Europe and international 
food organizations, we obviously knew very much about Feed the 
Children and you are in my district as well----
    Mr. Webb. Yes, thank you.
    Mrs. Walorski.--in Elkhart, Indiana. I appreciate you being 
here as well. But you guys had visited my office not too long 
ago, some of your colleagues, talking about actually talking to 
the USDA and being contacted by the USDA to say, ``Hey. You are 
the professional food feeders. Can you come in here and just 
kind of talk about standards, efficiency, ways to streamline.'' 
And you mentioned how sometimes it is easier to do this in 
other countries than here. Can you talk about that and 
elaborate on what are some of the obstacles here? And you 
mentioned the one fund that, potentially, could be used for 
that. But how do you see this issue of being able to come in, 
even as just a third-party advisor to a gigantic organization 
like the USDA and say, ``Hey, here is what best practices we 
use here,'' and that kind of thing?
    Mr. Webb. Thank for the question, Congresswoman. So one of 
the approaches that we have is that, again, from the 
international perspective, we see that there are multiple 
layers to the issue. So we have developed this relationship 
with USDA where we bring to them programming from the 
international community that has yielded results there that we 
think can be best practices here. One example of that is a care 
group model that we have internally, and what that does is that 
it looks to promote health in communities by first taking the 
approach that there are existing assets in those communities 
already and rather than us coming from Oklahoma City to Malawi 
or to Tanzania or to any community in the United States, that 
we need to understand the dynamics of what is taking place in 
the community. So we conduct formative research. We understand 
what the health indicators are in those communities. We 
identify what the barriers might be to better health, to 
accessing programs, and we try to understand who is overcoming 
those barriers and how. Then we build out a curriculum with the 
community, and we enlist a team of volunteers to educate the 
community on what we are doing. So there has been a local buy-
in, and we have seen some improvement in those areas, and 
programs like that are very attractive to the USDA because of 
the community presence and because of the fact that we are 
leveraging those existing assets.
    Mrs. Walorski. Let me ask you just one--we are going to be 
out of time here, but if this Committee could do one thing, 
just one, if there was one thing we could do that would allow 
you to better connect with our program as it is right now, what 
would you suggest or what would one issue be that we could 
help?
    Mr. Webb. We really believe that innovation funding that 
would allow organizations to work more collaboratively together 
would be the solution. To address your question and Congressman 
Scott's question, in New Orleans and other food deserts, we are 
looking to build social enterprises that provide food access, 
like a grocery store, and parts of their social service 
elements around those grocery stores that address education--
the care group model I just described----
    Mrs. Walorski. Sure.
    Mr. Webb.--provide health. But the issue is trying to get 
things off the ground takes resources. I mean, private funding 
doesn't always get us to the point we can make that successful.
    Mrs. Walorski. Got you. I appreciate it. Thanks, Mr. 
Chairman.
    The Chairman. The gentlelady's time has expired. I 
recognize Mr. McGovern, from Massachusetts, the Ranking Member 
on the Nutrition Subcommittee.
    Mr. McGovern. Thank you, Mr. Chairman, and thank you all 
for being here, and thank you for your incredible work. And Ms. 
Green-Patton, I too was thrilled to have you here because you 
are a success story. But it also illustrates how a lot of our 
food banks and a lot of our charities have become very 
innovative. It is not just about giving food. It is about 
worker training. It is about getting people in the community 
back on their feet. We have a great example right here in 
Washington, D.C. D.C. Central Kitchen has a culinary training 
program as well that has placed people in great jobs and given 
people hope for the future. I think it is great to have you 
here.
    Everybody on the panel, I appreciate the work that you are 
doing, and that you have made it clear. And I want to build on 
what Mr. Scott was talking about and that is basically the 
message that is loud and clear is that churches and charities 
cannot do it on their own. To put it in perspective, I have a 
FAQ sheet here from Bread for the World, these are 2013 figures 
so it is probably a little bit different in 2015. But it says 
the Federal assistance for food and nutrition programs, it was 
at about $102 billion. Assistance from churches and charities 
was at $5.2 billion. There is a huge gap there. So when people 
say, ``Oh, we can afford to cut SNAP, and the charities and the 
churches and the synagogues will all pick it up,'' that is just 
not accurate.
    And I want to be clear. Nobody here is arguing that we 
should cut SNAP, am I correct? Mr. Webb, just to be clear, when 
you are talking about your innovation funding, you are not 
talking about taking that money from SNAP----
    Mr. Webb. We are not.
    Mr. McGovern.--and putting it into innovation funding 
programs, robbing Peter to pay Paul?
    Mr. Webb. We are not.
    Mr. McGovern. Everybody likes to get up and talk about how 
wonderful all you guys are, but then, what we have seen over 
the last few years, is Congress has shirked its responsibility. 
In the last few years we have cut the program by something like 
$19 billion. We didn't renew the ARRA monies, the Recovery Act 
monies, and then there was another cut in the farm bill. But 
every single person on the benefit received a cut.
    Can you explain to us, anybody here, those cuts that came 
in the last 3 years, how have they impacted your clients and 
the work that you do?
    Ms. Maehr. I can answer. We saw more people showing up at 
food pantries. The lines got longer, and the challenge is that 
the lines already were long. And to your point, what we do, the 
amazing food banks and food pantries and soup kitchens in this 
country, we are incredible. I am the biggest advocate of the 
work that we do. So it is hard for me to stand up here. I wish 
we could do it all, but we can't. And my job is to be honest 
about what I see in my community and what I see in this 
country. And what I see are amazing charities that make 
miracles happen in every neighborhood, in every county, in 
every state in this country. They do it with volunteers who are 
working or not working but who come every day and make magic 
happen in their communities. But we cannot replace programs 
like SNAP.
    Mr. McGovern. And Mr. Neugebauer was concerned about people 
getting on the benefit who don't deserve to be on the benefit. 
I am concerned because I hear this when I am back home in 
Massachusetts about the people who should be on the benefit 
that are not on the benefit. So between what the Federal 
Government provides and what charities provide, there is still 
a gap. There are people we are not reaching. Does anyone want 
to comment on that?
    Mr. Webb. I would like to comment on that, and going back 
to your original point, your first question also, Feed the 
Children does not have the capacity to be like the Chicago Food 
Depository and the food banks where we offer food on a daily 
basis. But we do have truck drops that we call them where we go 
into communities and we provide truckloads of food----
    Mr. McGovern. Right.
    Mr. Webb.--from time to time. When we have these events, 
there are lines of people, 300, 400 people each time, where we 
have to cut people off because of the resources that we have, 
that are available. And at those events, we have opportunities 
for people to sign up for SNAP because, again, some of the 
people standing in line for food----
    Mr. McGovern. Right.
    Mr. Webb.--don't realize that they are able to receive 
those resources.
    So part of our process is to have SNAP, the ability for 
people to sign up for SNAP when they come to these events. So 
there are people who receive food but don't know they can also 
get SNAP benefits.
    Mr. McGovern. We are the richest country in the history of 
the world, and we have tens of millions of people who are 
hungry. As a Member of Congress, I am ashamed of that fact. So 
I would say hunger is a political condition.
    But one thing that I hope you might want to support me on 
is I am trying to get the White House to do a White House 
Conference on Food, Nutrition, and Hunger because to do these 
kinds of collaborative efforts that you are talking about, it 
is not just between USDA and the food banks and the charities. 
We need agencies in the U.S. Government to better coordinate. 
We need the nonprofits and the food banks to communicate better 
with each other in the field.
    So it would seem to me that a White House Conference, 
bringing everybody in a room, locking the door and saying let's 
solve this problem, would be a good thing to do. So thank you 
very much for your work.
    The Chairman. The gentleman's time is yielded back. Mr. 
LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman, and thank you to our 
panelists today. Very uplifting, the work you do firsthand and 
the networks that you have in your communities as well as 
reflect up in mine there in the cities in my district, our 
Jesus Centers, our Rescue Missions, soup kitchens, annual 
events and ongoing events that are really uplifting for 
everybody to be able to take part in and remind us of the need 
to have that private and public partnership to be effective.
    Mr. Kunz, in your--earlier, forgive me. I was out of the 
room, multiple hearings, same time for a little while, but as I 
recall in your testimony you mentioned that the public 
challenges with food insecurity that are multi-jurisdictional, 
a lot of overlap in nature, and require a lot of collaboration 
between agencies as well as the volunteer organizations and 
others that are helping out. So with the Texas Hunger 
Initiative, you have been pretty successful there. That has 
been a good model. What made you pursue that model in Texas and 
what sort of results short term are you seeing with that the 
trending that you are seeing with that effort?
    Mr. Kunz. Thank you for the question. Texas Hunger 
Initiative, from our very inception, has seen that the local 
congregations and synagogues and mosques and nonprofits were 
able to see need that government agencies couldn't see. It is 
not the government agencies' role to see that need, but those 
local nonprofits didn't have the resources available to fund 
these types of programs. Maybe in some places they did, but in 
most places they did not.
    Director Everett and his team really sought to combine both 
of those strengths and really look at the way that we could 
partner with the government from the very beginning. The 
Community Partner Program is only the latest incarnation of 
that. We have seen work with our child nutrition programs and 
the various other public-private partnerships that we are a 
part of.
    Regarding the Community Partner Program, we have seen some 
preliminary results when we publish our annual evaluation on 
that. It is actually the property of the Health and Human 
Services Commission which, if they are open to sharing that 
with you, we can show you some of the short-term results. At 
the end of this year we will have our third semester. I am 
sorry, our third-year results, and long-term we tend to publish 
on that, to make those results as helpful to everyone else 
using or creating some version of this model.
    One of our favorite pieces of what we do are things like 
that Dallas Coalition for Hunger Solution where we have 
stakeholders and players from government agencies and from all 
over Texas, nonprofits, educational institutions, schools, 
coming together to figure out how to address hunger and food 
insecurity as well as a wealth of other issues within those 
communities.
    And so that is a really good example of a collaborative 
approach.
    Mr. LaMalfa. Certainly. Okay. So the local input from 
people on the ground right there in those neighborhoods, in 
those synagogues, in those churches is really valuable to have 
the more effective outreach and interaction?
    Mr. Kunz. Yes, not just outreach but also to come in and 
give a voice. They are reaching out, yes, to the community, but 
they are also able to take the information and advice and 
requests from community members, and we take those back to the 
Health and Human Services Commission.
    Mr. LaMalfa. And execute on the need then?
    Mr. Kunz. Yes. Every 2 weeks our field staff are on a call 
working with Health and Human Services Commission sharing 
information back and forth to create some really neat 
structures and new opportunities.
    Mr. LaMalfa. Interesting. Well, I find that is a pretty 
fairly common theme across the boundaries. Natural Resources 
Committee, local people that manage forests and try to fight 
forest fire are complaining they are not getting enough local 
input with Federal fire fighters or Federal Forest Service, 
outside entities that don't know how to do it locally. So it is 
interesting, that the local input is very important.
    If other states were looking for a model on this, looking 
to Texas, what would you recommend be done differently to 
streamline, maybe help other states to emulate what you are 
trying to do there? Is there some speed bumps that you would 
advise them to go around?
    Mr. Kunz. Sure. One of the speed bumps for a lot of 
organizations is funding. It does require some kind of funding 
in order to get these partnerships off the ground in order to 
really do----
    Mr. LaMalfa. Start-up funding? Not program but the start-up 
type funding?
    Mr. Kunz. Right. Instead of funding for the kind of thing 
that Texas Hunger Initiative does, we convene all these 
organizations, but that requires everything from staff to 
perform the function of a backbone organization, which is the 
specific collective impact term, to fund those backbone 
organizations to create these partnerships and honestly to pay 
for coffee at these meetings that keep people in the room and 
keep them working.
    [The information referred to is located on p. 221.]
    Mr. LaMalfa. Yes. All right. Well, my time is up. I yield 
back. Thank you.
    Mr. Kunz. Thank you.
    The Chairman. The gentleman's time has expired. Mr. Ashford 
from Nebraska, 5 minutes.
    Mr. Ashford. Thank you. I was on the Housing Authority, 
Omaha Housing Authority for quite a while.
    Mr. Ashford. All the comments are great, and thank you all 
for coming. Mr. Webb's comments really ring true with me, and 
Mr. Scott's, David Scott's comments as well, about this fact 
and that is my sense is that we do have an obligation as Mr. 
Scott indicates to provide sustainable food for the people that 
need it in our country. Where we are blowing it is beyond that.
    The same thing with housing. When I ran the Housing 
Authority, the challenge was yes, the Federal Government has a 
role, of course, in helping to provide affordable housing. It 
is a Federal program, 100 percent federally funded, and then 
from time to time we would have our programs for self-
sufficiency eliminated or cut. So your comments about the 
innovation grants really hits home.
    I know in Omaha and in the 2nd Congressional District of 
Nebraska, we are very innovative and doing what you are doing 
in Texas. I am not going to claim better than Texas because 
that gets into a thing, but basically, we are working on 
developing urban farms, very aggressively doing that. We have a 
culinary institute at the Metropolitan Community College in our 
area that is second to none. And all this is starting to 
evolve. But as was the case at the Housing Authority, when we 
tried to encourage people to get off of the need for public 
housing, we were always stuck with the fact that the Federal 
program either wasn't funded properly or to your point, and 
more importantly, is that the states or the localities were not 
given the ability through these sort of innovation grants 
concept to help do it. And to the point that was made earlier, 
you can't do it. You are not going to be able to do everything 
by yourself through raising money through nonprofits.
    So my questions is, and this has really struck a chord with 
me. Could you just comment a little further on how these 
innovation grants would work? I think you are spot on and it 
would make a huge difference.
    Mr. Webb. Yes. Thank you for the question. We believe the 
innovation grants would spur collaborating because the 
conversation needs to be expanded beyond just hunger because we 
need to understand that hunger is one of the issues, but there 
are underlying factors as well. So when we are looking at these 
solutions, it needs to be a broad-based approach to the 
solution that understands that poverty is a component, 
education is a component, employment is a component, and 
bringing these collaborative folks to the table to take their 
piece of the issue in a way that gives them flexibility to test 
new ideas is the approach that we are suggesting. And one of 
the things that we have seen in other agencies that have social 
innovation funding is it allows folks to contribute their own 
resources, whether that is financial, whether that is human 
capital, to come up with a solution. And as long as that 
barriers for entrance to participate in those invocation funds 
aren't cost prohibitive because a smaller organization that 
might have a fantastic idea might not have a million dollars to 
put to a one-to-one match, then we would see a lot more 
organizations that have the ability to get in there and----
    Mr. Ashford. So it is more efficient use of those dollars.
    Mr. Webb. Exactly.
    Mr. Ashford. And it seems to me it would be. At the Housing 
Authority we did urban farming. We did some of that, and this 
was a little bit ago. So it has come a long way in the last 10 
years. But I absolutely agree with you. If the Federal 
Government through direct support can provide some of the basic 
needs, housing and food--you wanted to say something?
    Ms. Maehr. Well, if I may, there are some successes that we 
should celebrate. I believe the food banks and the----
    Mr. Ashford. Oh, sure.
    Ms. Maehr.--agencies are the USDA's largest partner.
    Mr. Ashford. Sure.
    Ms. Maehr. And I will tell you that there is actually a 
fair amount of innovation and partnership that happens every 
day in my own community. We regularly meet with representatives 
from USDA, and with other organizations. We regularly talk 
about what works, and we see that replicated. And, if there are 
opportunities to invest more deeply in hunger relief, I am 
certainly supportive of that. But I will tell you that if we 
can keep the Federal nutrition programs strong, then the 
dollars that we get from private donations can actually help us 
support those innovative efforts. But right now so many of us 
are having to buy additional food to ensure that people have 
food to eat as food programs such as SNAP goes through cuts. 
And so I would just say innovation is happening. There is 
always more that can happen, but there is a lot of awesome 
stuff that is happening in communities.
    Mr. Ashford. I think there is--and my time is up--awesome 
stuff is happening. But I also agree with Mr. Webb that there 
is much more that should be done as well.
    The Chairman. The gentleman's time has expired. Mr. Yoho 
for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate it. I 
appreciate your family being here. And Ms. Maehr, I appreciate 
your passion. When you are describing how the communities come 
out and the different organizations come out, that is what I 
see in our area. I represent Florida's 3rd Congressional 
District, large, rural, agricultural area with hubs of 
innovation around there. If I were to ask, Mr. Chairman, I 
don't know if this is acceptable, but if I were to ask in here 
how many people have ever been on food assistance or SNAP in 
this room, show your hands if you are not embarrassed to. I 
have, too. And a lot of people say, ``Well, how could you have 
been on that? You are a U.S. Congressman.'' I was young once. I 
just turned 60. And I understand the importance of that, and I 
don't know anybody in the country, I don't care if they are the 
most conservative or the most liberal, that is not willing to 
help somebody in need. And so these programs, when we see the 
communities coming together, solving a problem locally, that is 
the best solution we can have, and we need to bolster that with 
the charitable contributions and things like that and allow 
people to do that. And the more government interferes and takes 
that away, it would be a lot worse.
    In our area we visited several food banks from the large 
one that feeds thousands and thousands of people to one that is 
out in the rural country. And I found it interesting because 
the one was run at a church. To be able to get food, you could 
come twice a month but you had to show an ID, you had to prove 
that you lived where you live with an electric bill or a water 
bill or something like that. It actually wasn't a water bill. 
But you had to prove residence before you could even get in 
there and leave with the food. And so I see a dichotomy in an 
urban area versus a rural area.
    In your experience, what do you see the management in a 
larger area, like in an urban area, how they distribute food 
and how they acquire their food versus in the smaller rural 
areas? Is there pretty much the same or what is your experience 
on that?
    Ms. Maehr. As I said, we have more than 200 food banks that 
make up the Feeding America network, and I always joke that if 
you have seen one food bank, you have seen one food bank. We 
all operate a little bit differently. But we do have some 
things that unite us. And one of the things is an adherence to 
quality, to food safety standards. We have rigorous guidelines 
that ensure that all of the food banks in our network are 
operating at the highest operational practice level possible, 
not just for charitable organizations but for the food 
industry. So that includes regularly having outside inspections 
from third-party auditors.
    And so making sure that we are adhering to the best 
practices for the food industry as a whole. Food banks are 
fortunate that we have such a strong partnership with the food 
industry, and that makes that possible.
    So number one, it is making sure that the food is safe. It 
is also making sure that we treat clients with dignity and with 
respect. That happens a thousand different ways. But it is 
always making sure that our partners have the tools that they 
need, that we are challenging ourselves to be the best 
organizations that we can possibly be so that when a family or 
an individual shows up at that food pantry, they are treated 
with respect. They get the food that they need, and that food 
is the highest quality food possible so that they can, as 
Keleigh said, get on that trampoline that takes them back into 
being successful.
    Mr. Yoho. I agree 100 percent with you, and I appreciate 
you and your compassion. I think that is something that shows 
very, very clearly.
    I am running out of time here. What I would like to 
concentrate on is to hear from you how we can make these 
programs better because in our area, they got into a situation 
where one of the larger contractors to the USDA that was 
getting the food to give out, there was a squabble because they 
contract with smaller companies, and we have one in our 
district that I said feeds thousands and thousands of people. 
They lost that contract because a new person came over and took 
over the USDA contract, and this new company that came out was 
promoting how much food they were giving out. But what they 
were doing is they were going into homeless shelters giving out 
frozen chickens, multiple frozen chickens to people that don't 
have refrigeration. And that is a waste of the taxpayers' 
money.
    And so I want to hear from you guys whether you submit it 
to this agency or I will submit questions to you, and I would 
love to hear back from you how we make the process more 
efficient, more streamlined so that the American people get the 
bang for their buck, giving money to programs like this, and we 
bolster the charitable but with what you do, we get the best 
results we can. And the other thing we want to focus on, 
getting people in, get them up, and get them out and self-
sufficient. Thank you for your time.
    Ms. Maehr. Thank you.
    The Chairman. The gentleman yields back. I am now pleased 
to recognize the gentlelady from New Mexico for 5 minutes of 
questioning.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I want to 
thank the panel for being here today, and I also want to 
particularly thank Ms. Ender. I started my career serving 
seniors. So I appreciate the work that you do and that of the 
whole panel very much. And in fact, I did consumer protection 
work, and that landed me a terrific job running the State Unit 
on Aging which then became--I was the first Secretary of Aging 
and Long-Term Care. And in the 1990s, I don't need the USDA 
information to tell me that SNAP's reach to senior households, 
even households for adults with disabilities, is lower than it 
should be and that you are reaching less than \1/3\. They say 
\1/3\. In states like New Mexico, I need to look at that data 
again, but I would bet it is even lower than that. And yet, 
with SNAP we are reaching more than 80 percent of other 
households that would be eligible. And for a state that is the 
hungriest state in terms of children in the nation, that is 
critically important, making sure that we reach everyone.
    I also really appreciate that we have made the case that 
nutrition is a key factor in so many issues that are not only 
about respect and dignity and independence and health, but they 
save this country incredible resources. And we talked about 
diabetes and mitigation and elimination and management, and we 
talk about other chronic diseases and osteoporosis. But we 
really don't even talk about dementia which can be reversed 
with appropriate nutrition, for some types that are related to 
a Vitamin B deficiency and related nutritional deficiencies. 
And given that we really worry about long-term care costs, and 
we should, this is a way that really can assist us to manage 
huge healthcare costs in the future, in addition to making sure 
that we are feeding this population.
    And my last point about the relevancy and the value and the 
importance of SNAP benefits for this population is in the 
context of cuts and limited resources, in the private sector 
and the public sector. We also should know that home delivered 
meals, both privately and through the Older Americans Act, have 
been reduced. And so your weekend meals and your evening meals 
and home-delivered meals are really gone. In my state, I am 
happy if I can get the agency to commit that they will do five 
meals, one a day, for individuals who aren't coming to a 
congregant center, and even for those, there are waiting lists. 
And we don't care about breakfast apparently or dinner, and we 
aren't caring about weekends. And the last point, back to 
health, is you can't take half your medications if you are not 
getting the right food and nutrition. So the whole thing, we 
have to think about it in that context.
    So what can we do specifically in SNAP to make sure two 
things: first, that this population is clearly aware and that 
all of our partners are helping folks with this eligibility 
process? And then second, that we really talk more candidly 
about the fact that seniors receive less than \1/2\ the typical 
benefit. And I can remember in the 1990s a poor senior citizen 
with one meal a day, through the Older Americans Act services, 
and that is not every senior in your community or state, got a 
$10 benefit. And I had to really make them go through the hoops 
to get that $10 benefit. But $10 was maybe a breakfast for the 
week. And so I was all about making sure that they did it.
    So I want to really think hard about making sure that we 
create an environment for our partners, including the states 
and USDA, to think better and harder about ways to reach this 
population.
    Ms. Ender. I think you have really hit on the big issue 
that we have. There are a lot of seniors that are isolated. 
They are in their homes. They are not plugged into networks. 
They are not going to the senior centers and getting congregate 
meals.
    Ms. Lujan Grisham. There may not even be a senior center in 
their community.
    Ms. Ender. Right. There might not be. But even if there are 
lots of services in the community, they are not accessing it 
for a myriad of reasons. They are isolated and in their home. 
And that is a huge challenge. If they are out and about and 
they are plugged into networks and all, then they may know 
about some of these.
    Ms. Lujan Grisham. Is there a public health model here that 
maybe would work so that for example as we are doing door to 
door vaccinations and WIC and those kinds of programs that we 
incentivize those programs to reach out and make sure they are 
connecting populations to a SNAP benefit because it is all 
related?
    Ms. Ender. I think we need to think more and more about: if 
something works with children, does it work with older adults, 
and vice versa?
    Ms. Lujan Grisham. Grandparents raising grandchildren.
    Ms. Ender. If it is working with older adults, could it 
work with children? Because, there are some similarities there 
with delivering services and all. I think we need to think that 
way a little more.
    The Chairman. The gentlelady's time has expired. We will 
have an opportunity for a second round or if Mr. Webb, you can 
submit your answer in writing. But to be respectful for the 
other Members, we will stick to the time limit.
    Mr. Newhouse, 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman. Thank you all for 
being here and joining the conversation. It is very important. 
I had the pleasure and the experience of when I was Director of 
Agriculture in our state, the State of Washington, we had the 
responsibility for the emergency food programs. So I know 
firsthand the value of everything that all of you have talked 
about, what you do. We should be very proud of the 
accomplishments, certainly aware of the challenges that we have 
and a lot of work to do. Being a farmer also, I worked very 
hard to try to bond that relationship between the people that 
produce the food and those that need the food, and so we have a 
lot of great things going. I know we do in the State of 
Washington, and I hear similar things going on around the 
country.
    So I have just got one simple question, and I would like 
each of you, if you have a response, to answer, and it has do 
with government. In working with government, how does it 
benefit what you are trying to accomplish in your mission, and 
what do you see are things that government is impeding--holding 
you back from accomplishing what you would like to accomplish?
    Mr. Webb. So if I can take that one, one of the issues--
Feed the Children has been 99 percent privately funded since 
our inception. That comes from a mindset where we were looking 
more singularly focused about our ability to solve the issues 
alone. We have come to a place where we realize that is not the 
case. So we see the value of supplemental resources, like 
government funding, to help us to move the needle and encourage 
and incentivize the collaboration we described.
    The other thing the government funding would allow us to 
do, we have talked about innovation, but the next step beyond 
innovation is finding that sustainable domestic programming 
that one of the models we are talking about setting up is a 
social enterprise so that with the government funding would be 
sort of up-front capital that would create this model that has 
a sustainable approach where after we have built this system 
that is a credible business that can stand on its own, the need 
for government assistance, the need for private resources 
doesn't need to be used in those type of situations.
    So having government funding to support that collaboration, 
to allow us some startup funding to create the innovative 
models and create these long-term sustainable solutions is 
where government funding could be most impactful.
    Ms. Maehr. I would actually say that, as I said in my 
remarks, it is a partnership. And it is not so much that I want 
the investment in my organization. Our organization is largely 
privately funded.
    Where I really need government to invest is in programs 
like SNAP, WIC, TEFAP, and CASFP and Summer Meals to make sure 
that those programs are strong for the people who need them 
when they turn to them.
    We love having that partnership, and together we can make 
sure that people in our community have the food that they need 
to eat.
    Mr. Newhouse. Thank you.
    Mr. Kunz. I am so thankful that I am physically in between 
the two of these presenters this morning because I also want to 
point out that we would absolutely affirm the value and 
efficacy of SNAP. We also believe the data shows that expanding 
these public-private partnerships reduces the burden on 
government, and it increases efficiencies in the program. So 
the long-term effects of these public-private partnerships of 
keeping these programs strong and enabling us to do these 
partnerships better is going to facilitate a trampoline effect 
and it both reduces the burden on the government and enables 
nonprofits to leverage the funds that we have and the funds 
that we are asking for to do this better.
    Mr. Newhouse. Absolutely.
    Ms. Ender. And I would say to not forget that you can have 
a lot of wonderful organizations out there in the community 
that are doing wonderful things. You can have a lot of 
wonderful volunteers out in the community doing wonderful 
things. But as Dustin said earlier, you do have to have some 
funds to have someone that helps coordinate and pull everything 
together. When you have coalitions in the community that are 
working together, and we are all in the trenches, and we are 
working hard and it is hard sometimes to step back and to meet. 
We said there are a lot of innovative things going on and there 
are. But it takes stepping back and building coalitions and 
taking a little time to put your heads together. And to do 
that, you need a little help and coordination sometimes. And I 
would say that sometimes maybe government forgets that 
coordination part.
    Mr. Newhouse. Okay.
    Ms. Ender. They are really good about thinking about the 
services needed but maybe forget about the needs for 
coordination.
    Mr. Newhouse. I see my time is just about to expire, but--
--
    The Chairman. The gentleman's time has expired. Mr. Costa, 
for 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Costa. Thank you very much, Mr. Chairman, and I have 
been in another committee and meeting concurrently. So I have 
had to go back and forth. But I have picked up snippets of the 
testimony of our witnesses here, and you, basically, have 
explained to Members of the Committee the importance of this 
public-private partnership and the relationship and the overall 
efforts, challenges and the demands. In many areas of the 
country, the need exceeds the available resources to provide 
the support for those people who are living in conditions of 
poverty and extreme poverty. I don't think I have to tell any 
of you about the horrific drought that we are facing in 
California. And I represent an area, along with some other 
colleagues, where it is ground zero. And this drought has 
resulted in hundreds of thousands of acres, estimated a million 
acres, of land out of 6 million acres in California that will 
be fallow this year as a result of the drought.
    Now, the impacts to the farmers are very, very devastating. 
The impacts to the farm workers are in some cases catastrophic, 
and to the farm communities, the school districts and the like.
    Let me give you a snapshot of the poverty that exists and 
the impacts of the food bank in my district, the 16th 
Congressional District in Fresno, Madera, and Merced. The 
community food bank continues to see high levels of families 
struggling to recover in the wake of the recession, but the 
drought obviously has compounded it: 280,000 individuals per 
month are being provided food from the Fresno Community Food 
Bank; 90,000 of those 280,000 monthly are children who are 
being reached. And only 60 percent of the efforts of the food 
bank are providing food for families in the five-county areas. 
SNAP therefore is an important part of keeping folks with 
necessary food.
    Over 522,000 families have benefited from the SNAP program 
in the area. So when you have that kind of level of 40 percent 
and 50 percent unemployment, and these are people who I have 
known all my life, some of the hardest-working people you will 
ever meet, who cannot work today because there is no water for 
them to work on the farms. It is really very, very devastating.
    And let's just be frank. A number of these people can't 
benefit from the SNAP programs because they are not here with 
legal documents. So the community food banks play a critical 
role for those individuals. And the churches and the other 
organizations are very critical, the volunteer organizations as 
some of you represent. I was just at an annual banquet for this 
food bank that I talked about 2 weeks ago run by Andy Souza. 
And they raised a lot of money. This was all private-sector 
money, big fundraiser, 600 people there, a lot of the ag 
organizations, big sponsors, to supplement the TEFAP program 
that provides funding for the community food banks because it 
is not enough. That is how big the problem is.
    So let me just close by making some observations. States 
have few options to achieve cuts outside the benefit cuts 
because 90 percent of program expenditures go for SNAP. If the 
cuts from SNAP come solely from the benefit cuts, states would 
have to cut an average of $55 per person, not a household, to 
each of these affected. For a family of four, this would mean 
over $200 a month. Seventy percent of the SNAP participants are 
of families with children. More than \1/4\ are in households 
that include senior citizens or people with disabilities.
    Finally, the SNAP program, supplemented with the community 
food banks and the private-sector involvement that you folks 
represent, are all needed. They are all needed. And the SNAP 
program works so that when you have greater times of economic 
uncertainty and recession, it expands and it contracts when 
things get better. And hopefully it will rain. We are praying 
for rain in California, and snow. I don't know if any of you 
have any observations you would like to make on my comments?
    Ms. Maehr. I would and just that we feel that beyond 
California the price of fresh produce, it is a burden for 
families who are struggling. It is also a burden for food banks 
like mine that now purchase 34 percent of our food. And so we 
pay more. The families we serve pay more. It also underscores 
why it is so important for us to have the dollars for the TEFAP 
programs, storage and distribution. It costs a lot of money to 
make sure that people have food in our community.
    Mr. Costa. Thank you.
    The Chairman. The gentleman's time has expired. Mr. Allen, 
for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and Ms. Green-Patton, I 
want to tell you that you are a hero of mine.
    Ms. Green-Patton. Thank you.
    Mr. Allen. And I will think that my time in Congress will 
be successful when everyone has the opportunity that you have 
had to succeed.
    Ms. Green-Patton. Thank you.
    Mr. Allen. And that is what we want in America. And thank 
you for your testimony. I hope that you will continue to give 
that testimony throughout this land to encourage others to seek 
the help and counsel and advice and to do the hard work it 
takes to do, which you have accomplished, because I know it was 
difficult.
    I have worked in many charitable organizations. I had the 
privilege to employ a lot of folks and help them, and that is 
one of the greatest privileges of my life. Growing up in 
Augusta, Georgia, we have had our share of issues as far as a 
community. But the food bank is something that everybody can 
support and do everything they can to help. Those folks do 
their work. And I have also had the privilege of serving others 
down at our Thanksgiving dinner, and that is always a privilege 
to talk with folks who need hope. And again, the thing I love 
about this testimony that you are all doing today is that I 
find that in this country that folks who serve are so full of 
joy. I mean the true joy is in serving. And again, that is a 
message that I would like for every American to hear.
    I want to make sure as far as this body, this Congress, is 
there anything that we are doing that is restricting what you 
are doing out there? And how could you help us fix it? And I 
will just open that up to the panel. Are we causing any 
problems for you? You better speak now or forever hold your 
peace. Anything you would like to share?
    Mr. Webb. I will share an experience. One of the issues 
that we were having was with demonstration grants that are 
available that often have to go through states, and it makes it 
difficult to apply for nonprofits. Depending on the political 
will in your state, even though you may have a very credible 
program that you think would demonstrate results, it really is 
dependent upon the will of the state to get those----
    Mr. Allen. Right.
    Mr. Webb.--to get that.
    Mr. Allen. So there needs to be a uniformity between the 
states?
    Mr. Webb. Or to be allowed to go to the nonprofits on the 
ground, one of those. But the programs are at the risk of the 
political will of the state.
    Mr. Allen. Okay. About what percent in this country are we 
providing as far as charitable versus government food? Are 
there any statistics as far as like SNAP program provides a 
certain percentage of food versus charitable contributions?
    Ms. Maehr. Of the country?
    Mr. Webb. That is something I can--we don't have the----
    Mr. Allen. Okay. You----
    Mr. Webb.--numbers for it. Can I----
    Mr. Allen. Yes, that would be good, useful information as 
far as providing for these private-public partnerships is, 
okay, what is expected of us and what is expected of others.
    Mr. Webb. What I can say, Congressman, one quick comment 
here----
    Mr. Allen. Yes, sir.
    Mr. Webb.--is that Feed the Children last summer offered 
the Summer Foods and Service Program with the USDA, and we were 
able to provide 200,000 meals in Oklahoma over the summer.
    Mr. Allen. Okay.
    Mr. Webb. And 9,000 of those meals were covered by Federal 
resources.
    Mr. Allen. Okay.
    Mr. Webb. The rest of the meals were covered through 
privately funded sources.
    Ms. Ender. I also would say that I don't know that you can 
ever get really good figures on that because certainly large 
efforts, large community efforts are going to have figures. But 
you have so many small groups, small churches and nonprofits 
that are doing a little something that I don't know that you 
could ever really get accurate figures?
    Mr. Allen. Right. Well, in other words on the SNAP program, 
in 2014, we fed about 46.5 million people which was about $418 
per person per day. Do you all keep any statistics like that?
    Mr. Kunz. We in Texas have a whole variety of statistics we 
would love to share with your office. I will say that Craig 
Gundersen is one of the leading experts in this field, and he 
estimates about three percent come from charitable----
    Mr. Allen. Food from----
    Mr. Kunz.--of the total come from charitable resources.
    [The information referred to is located on p. 221.]
    Mr. Allen. Okay. All right. Great. Well, again, thank you 
so much for what you do. It has been a privilege to be here 
with you today. I yield back the remainder of my time.
    The Chairman. The gentleman's time has expired. Mr. 
Aguilar, 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. I want to thank the 
panelists for the discussion. I think the overall theme that I 
am hearing is about partnerships and collaboration and how it 
really does take everybody at the table, including us, to play 
a role in that.
    Ms. Maehr, in your testimony you mention the gap between 
SNAP enrollment and SNAP eligibility. In your experience, can 
you dig a little bit deeper on what are some of the factors 
that lead to that low enrollment, especially in African-
American and Latino areas and communities? And as a follow-up, 
are there cultural barriers where you think we can work 
collaboratively together with some of our community groups in 
order to make it happen?
    Ms. Maehr. Thank you. I am so glad you asked that question, 
particularly building on the last question. The challenge that 
we see so much is at the state level. In the State of Illinois 
we have an 18 page long SNAP application. And I always joke 
with people, I know that sometimes it is popular for folks to 
talk about walking in the shoes of a SNAP recipient by trying 
to shop on the average benefit a day. I actually encourage all 
of you to fill out your state's SNAP application.
    In my case, in the State of Illinois, it is incredibly 
complex, and it is a daunting challenge particularly the type 
is very small. So if you have any sort of eyesight challenge, 
if English is not your first language, if you aren't well-
versed in a whole slate of bureaucratic terms, it is very 
complicated to understand. Also, as Ms. Green-Patton testified, 
if you have a job, it is very difficult to apply for SNAP 
benefits because you have to take a day off of your job. We 
have made it very complicated for people to get this benefit. 
Additionally, for people who are not native English speakers in 
the Latino community, there is an additional set of challenges. 
There is a lot of concern. It is why we see SNAP outreach with 
private partners to be an incredibly effective tool.
    There are people who very understandably don't have good 
feelings about interfacing with the Illinois Department of 
Human Services. It is often a bureaucratic nightmare.
    Mr. Aguilar. Thank you. I appreciate that. Are we doing 
enough? And I guess this could go for the entire panel. Are we 
doing enough SNAP outreach in those under-served communities? 
If we can start with you and kind of work our way back?
    Ms. Maehr. I think there is certainly more that we need to 
do. We do it through a network of volunteers as well as paid 
staff. We are stretched incredibly thin, and we know that there 
are still people who are eligible in our community that we are 
not reaching. And so there is a lot more that we can do to 
connect people to SNAP.
    Ms. Green-Patton. Just at my church alone where we offer 
free hot meals to people a couple times a month, I have people 
asking for food before they leave. And so it makes me wonder, 
how far are we able to reach? And so I don't know if it is a 
monetary thing. I don't know. I am just not sure. I know that 
we have volunteers, and they can only do so much. But it seems 
like we can do a little bit more to make sure everyone is 
touched.
    Mr. Kunz. I just want to first clarify, my organization, 
the partners we work with, we don't necessarily do SNAP 
outreach. We are not trying to increase SNAP rolls. We are 
really focused on access. That is part of the genius of the 
Community Partner Program is that in these areas, in these 
neighborhoods, when an organization sees the need, culturally 
and neighborhood-appropriate organizations do the application 
and do the assistance and are able to overcome a lot of those 
barriers and to provide, like I said, access which is our most 
crucial issue.
    Mr. Aguilar. Thank you.
    Ms. Ender. Well, we would like to see more seniors on SNAP 
because they are under-served by the program. And so we are a 
part of the Hunger Coalition, and we are actively out in the 
community trying to educate people that there is a program that 
can help them if they have that need.
    I will say that since we have been a Community Partner, 
when we first started out, we would assist three people a week, 
and now we are to three people a day. And so we are very 
excited about that and encouraged because we have a lot of 
hungry seniors out there in the community. And yes, we would 
very much like to enroll more of them.
    Mr. Aguilar. Thank you.
    Mr. Webb. And like Dustin said, my organization doesn't 
specifically do SNAP outreach, but when we have events where we 
provide food and essentials to individuals, we have opportunity 
for people to sign up for SNAP there. And we consistently see 
people still signing up. And one of the approaches that we are 
hoping to use internationally and want to bring domestically is 
a care group model I described earlier where we have volunteers 
who are going door to door and into individuals' homes and 
educating them with curriculum. The SNAP outreach and 
enrollment process could be something that those volunteers are 
trained to do in-home. But it can't solely rest on the 
volunteers, but it could be one option.
    Mr. Aguilar. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Thanks for being 
here today. I think you reinforce my own personal thought about 
the private sector and the public-private partnerships. It just 
seems to me that visiting those kind of folks in my district, 
which I just got back from, they do things so much more 
efficiently than the state bureaucracy which Ms. Maehr sort of 
explained to us how it is in Illinois. I got to meet, this past 
week, several people in jobs programs and young people getting 
skills programs. And so I really appreciate the fact that you 
guys are promoting these. That is really where the answer is, 
is to have some government funding for you guys because you 
don't have that much overhead. You know who the people are that 
need the help, and you get it to them. So I just want to say 
thank you for that.
    Ms. Green-Patton, I had a couple questions for you because 
you mentioned a couple things about how this communication 
helped you find a job. And I have a concern about people who 
are on the SNAP program and then they are concerned about 
getting a job and then they might not be eligible for the SNAP 
and they end up being worse off working than they were, can you 
talk about that a little bit? I know the Community Kitchens 
helped you out. Is that a real issue, that people have some 
barriers to getting a job because they don't have a way of 
working and getting the SNAP? Tell me more about that.
    Ms. Green-Patton. Well, I can only speak for my experience, 
but just like with any job, you start a job and some jobs, they 
don't allow you to take off for the first year or for the first 
90 days. And so when you are finally blessed to receive a job 
and you have to go and fill out, like Kate said, that 18 page 
application and then you have to go down to the office and stay 
there all day long until you are seen or until your 
appointment, and then you have to come back because there are 
some more forms needed that you didn't know about before, it is 
almost discouraging for people to apply for the benefits, I 
feel.
    Mr. Benishek. Yes. Mr. Kunz, it seems like it is working 
better in Texas than it is in Illinois. Would you say that from 
what you are seeing? From what I understood, it was easier in 
Texas. Is that right?
    Mr. Kunz. I certainly think so. I think one thing is we 
have a very short wait time for navigators to help with the 
application, and a Community Partner can be open at any time, 
can be open in the evenings and on weekends, can be at 
community events as well as a place that is open during the day 
for those that work evenings.
    Mr. Benishek. That process is not available in Illinois, is 
that right, Ms. Maehr?
    Ms. Maehr. That is right, and that is one of the challenges 
just in general is that there are 50 states, and SNAP is 
administered 50 different ways. And there are some states that 
do an amazing job, and there are some states frankly that 
don't.
    Ms. Ender. I think the application, there are some positive 
things happening in Texas, but we have issues with the 
application, too. Improvements have been made, by the way. So 
it is a lot better than it was but we do have problems with the 
application. It is very confusing.
    And yet, there is a certain amount of, ``Hey, there is a 
certain amount of information that has to be there.'' That is 
the reality.
    Mr. Webb. And if I could talk to the workforce development 
component you were mentioning earlier, one of the things that 
we are doing with Feed the Children is we have built a center 
to identify bright spots that are happening in communities, 
programs that are demonstrating measurable impact and just need 
some support to be scaled up. And one of the communities we 
worked in in New Orleans, we have seen a program similar to the 
model that you have described called Liberty's Kitchen where 
they work with at-risk or low-opportunity youth to provide them 
with job training and work development resources. And then they 
have a network of partners who try to place them in jobs 
because of the relationships they are building. So they are 
moving them through the pipeline and improving their situation 
beyond just the assistance----
    Mr. Benishek. Oh, no, you are right. I just met in Michigan 
with Experience Works. They work with the Michigan Employment 
Agency, and they get older folks into some nonprofit jobs. And 
then they transition to another job from there. And that was a 
program that was working well. I met several members of the 
program that found work and then transferred out. That is a key 
component of what we are doing here.
    I am trying to figure out how to make this SNAP and 
transition back into the workplace an easier thing. I am out of 
time, but thank you for answering my questions. I appreciate 
it, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mrs. Bustos 
for 5 minutes.
    Mrs. Bustos. Thank you, Mr. Chairman. I am from Illinois, 
so I want to say welcome to a couple of our panelists here from 
Illinois. I hope your trip to D.C. is going well.
    And Ms. Maehr, your invitation for those of us sitting 
around the table here to fill out an application is an 
intriguing one. The fact that I have 53 year old eyes and small 
print is a bother to me now. It was an interesting thing to 
point out. And the fact that it is 18 pages long, unbelievable. 
And so I would like to just get a feeling for that.
    You mentioned there are 50 different ways to apply for 
benefits. I am wondering, is Illinois looking at some of these 
best practices, and is there anything that we can do on a 
Federal level to, perhaps through a pilot program or anything 
else, to figure out what is working well. If it is Texas that 
is the role model or if it is some other state. I would like to 
make sure that we are doing it right at least in the State of 
Illinois and wonder how we can play a part in that.
    Ms. Maehr. Me, too. I think that one of the challenges that 
frankly all states face but in particular we face in the State 
of Illinois is that there is a hesitation and a reluctance to 
invest in some of the systems that make it possible for public, 
for government to be efficient. And so we have an antiquated 
system. We have a paper-based system in Illinois.
    And so everything is based on people filling out paper 
applications, and it takes time. Applications get lost. And 
yet, when you talk to most people about do they want to invest 
in buying computer and database systems for state government, 
you don't get a lot of enthusiasm for that idea, particularly 
in a state that has had some of the challenges that we have had 
in Illinois.
    And yet, at the same time, I look at what modern commerce 
can do, and we can move food and we can move products around 
the world in a matter of hours. And it is endlessly frustrating 
to me that we cannot figure out a way to deliver the same 
quality of service efficiently in the public sector. We strive 
to do that. We certainly in the State of Illinois look at other 
states that are models, but we know we have a long way to go.
    Mrs. Bustos. Who is doing it right, and what can we learn 
from who is doing it right? And anybody can answer that. There 
has to be a role model state or community or someplace where we 
can say this is what we should be doing and somehow systemize 
it so everybody can get this right. Eliminate waste or 
redundancy or whatever else is clogging up the efficiency of 
the system and making sure that hungry people don't go hungry.
    Mr. Kunz. Ms. Bustos, I don't want to say that Texas is 
doing it right. It is a bold statement. I want to say we are 
doing it well, and we are getting better at it. I think that we 
are creating a model for public-private partnership that is 
incredibly effective and creates a great exchange between the 
private sector and the public sector and creates a lot of 
information. I think that we are creating a great model, and I 
also know that we have an annual summit coming up, and you are 
invited to come in and learn about how this works, everybody on 
the ground, and with our legislators.
    [The information referred to is located on p. 222.]
    Mr. Webb. And then to go back to an earlier comment that we 
made around the innovation funding that would allow 
organizations to better share best practices, the fact that we 
have the conversation about not being able to identify what 
those are would be strengthened by the ability to come together 
in a forum like is being described to be able to share that 
among the community of practice.
    Ms. Maehr. And I will just say, in Illinois, I don't want 
us to be battered too much. We do have a new governor who has 
been very supportive of all of the food banks in the State of 
Illinois, and we are looking at Texas and we are talking to the 
governor and his team about what can we learn and what can we 
do in the State of Illinois to streamline and make our system 
entirely more efficient.
    Mrs. Bustos. All right. Thanks to all the panelists, and I 
yield back the remainder of my time.
    The Chairman. The gentlelady yields back. Thank you. Mr. 
Emmer, for 5 minutes.
    Mr. Emmer. Thank you, Mr. Chairman, and thanks again to the 
panel. Sorry I had to come in just a little bit late, but I 
haven't missed anything since. And I want to thank you not only 
for being here but for your candor. Sometimes we tend to think, 
at least in my experience starting at a state level, that just 
because we have been doing something a certain way means that 
we have to keep doing it that way. We might add to it, but we 
keep doing it. You and your experience, your testimony here 
today proves otherwise. I understand that everybody is taking a 
very clear approach that you want to be an addition to SNAP 
benefits. But I will tell you, my coming here today wasn't 
about that. I want to know more about what are successful 
programs that are community based from the ground up instead of 
from the top down.
    Personally, working with faith communities, working with 
interested individuals in my home state, frankly doing it 
myself, I find that the connection with the individual in need 
which is some of the personal experience we have heard today is 
better for both of the individuals involved. Somebody said 
years ago--it is probably already been stated here today--that 
a hand up is much better than a hand out. That being said, I 
also get a little nervous when I hear the testimony today 
because to be critical, there were questions that were asked 
earlier, please tell us what the government structure is doing 
to restrict your ability, and everybody sat at the table and 
was frozen. And I do appreciate you trying to be very 
statesmanlike in the answers. But, going forward, people get a 
little territorial, and people worry about you have to work 
with these folks every day and you need the partnerships. You 
don't want to create any unnecessary tension. But we need to 
know what those potential obstacles and difficulties are 
because frankly the future of the system is going to be more 
based on you and your experiences on the ground and the 
innovation that you are looking to create. That is what people 
up on this side of the dais need to hear about and understand 
in order to make those votes that are so important.
    So even though I hate the statements, I just made one, and 
I want you to understand that I am just learning as one of the 
new people here. Now the bad news about us new people is that 
we have a lot to learn. The good news is that we don't know 
everything yet. So we can still learn.
    Mr. Webb, if I could, you talked about your 
recommendations, and you gave a list of three. It struck me, 
and I just had a question about: can you tell us how much is 
provided from one source versus from another source? I want to 
talk about measurements and impacts. Can you tell me how you 
are measuring the impact, and if others want to add to this 
because I want to know how I can quantify it when I have to 
make policy decisions?
    Mr. Webb. So domestically?
    Mr. Emmer. Yes.
    Mr. Webb. At this point domestically our measurement is 
around number of meals served, amount of poundage of food, 
millions of pounds of food distributed, those type of pieces, 
and we are building research now to identify some of the health 
implications and moving people into different situations. But 
right now it is based on meals served and millions of pounds 
that is distributed. And in our opinion, there is a difference 
in what takes place internationally because we actually measure 
how we are moving people from one situation to the next. If I 
could use an analogy, it would be almost like someone trying to 
get healthier and measuring the amount of weight they can lift. 
Yes, it may be one component of it, but you need to maybe 
measure BMI, cholesterol, those sort of things to make an 
informed decision about how you are moving.
    Mr. Emmer. And I guess that is where I was coming from. One 
side is production, how much you are producing, how much you 
are providing. But the other one is results which is Ms. Green-
Patton when you talk about results.
    Ms. Maehr. You have raised an incredibly important point in 
that more of us--we need to think more about the health of the 
people that we are serving. And this idea, from our 
perspective, food is medicine, and it is not just about moving 
pounds. It is not just about the through-put, but it is also 
thinking about the health impact. And so food banks all across 
this country are engaged in partnerships with health systems, 
with hospitals, and we are measuring the health----
    Mr. Emmer. I am running out of time, so I just want to say 
if you could get us that information----
    Ms. Maehr. Absolutely.
    Mr. Emmer.--that would be very helpful for somebody like 
me. Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman's time has expired. 
Mr. Scott wanted one more round? David?
    Mr. David Scott of Georgia. Thank you. I just want to ask 
you. I was listening to Bill O'Reilly last night on Fox News, 
and he had a veteran on. One of the areas that I work very hard 
on is with our veterans. And as I mentioned earlier we have one 
million that we know about, veterans, that we can find that are 
on SNAP.
    In that conversation last night, Bill O'Reilly was talking 
about the suicide rate of our veterans. Ask him about that. And 
the point he said was the fact that out of desperation, this 
guy had tried suicide. And it was very profound to me when Bill 
asked him the question, why did you want to take your own life? 
And he said because after going and fighting for my country, I 
come back home. I can't keep a job. I can't have a job. I can't 
even put food on the table for my family.
    That is why, Mr. Chairman, I really appreciate you putting 
this hearing on. This is one of the most important hearings 
that we could have. We can survive without a lot of things, a 
car, you name it. The one thing we cannot survive without is 
food. And so when our soldiers are going without food, that 
bothers me as it does I am sure everybody sitting in this room. 
We are not doing enough.
    I want to ask you, each of you, in your food banks, do you 
have a special effort, do you concentrate, is there anything 
that you all are doing to get at this most-needed target? We on 
the Federal side are doing things but not enough when you hear 
the kind of conversation that was on Bill O'Reilly last night.
    Could you tell me, Ms. Maehr----
    Ms. Maehr. Absolutely.
    Mr. David Scott of Georgia.--what you all are doing to 
reach our veterans?
    Ms. Maehr. Absolutely. So 18 percent of the households that 
get food from the Greater Chicago Food Depository have either 
an active or a former member of the military services.
    Mr. David Scott of Georgia. Yes. Did you say 18 percent?
    Ms. Maehr. Eighteen percent. And for us, it was so 
troubling that it really spurred us into action on two fronts. 
First was targeting our SNAP outreach specifically to veterans 
and working in partnership with organizations that specifically 
address the needs of veterans, both those who are homeless as 
well as those who are not homeless. It also spurred us to open 
two food pantries operating inside of the two VA hospitals in 
our community. And tomorrow morning if you were to happen to go 
to the VA center just outside the City of Chicago, you would 
see close to 300 men and women who are veterans of the Armed 
Services lining up to get food.
    Mr. David Scott of Georgia. That is a very, very salient 
point. I don't think this country realizes how impactful the 
situation is with our veterans going hungry, and it is a shame 
and it is a disgrace. Are there any others of you that have 
similar efforts targeting our veterans?
    Mr. Kunz. Just to comment on that, Mr. Scott. As a veteran 
with a bum knee and who struggled with reintegrating into 
civilian society post-employment, this is an issue that is 
particularly close to my heart as well, obviously.
    We have worked to find and coordinate partnerships with 
veterans' services organizations, with VFW organizations, and 
some VFWs are Community Partners taking part in this 
partnership with the State of Texas.
    Mr. David Scott of Georgia. Okay.
    Mr. Webb. And we are not the experts in this area, but we 
have found that a veteran is more than twice as likely than the 
average American to be food insecure.
    Mr. David Scott of Georgia. That is right.
    Mr. Webb. And so we are actually trying to build some 
programs now that are not the final solution but similar to our 
food drop truck models providing food to those veterans in 
their time of need.
    Mr. David Scott of Georgia. Well, thank you very much. This 
is why I said earlier we need two trains running because we 
can't do it all. We need so much there, and nowhere is this 
20--20 is the number of each day that we have a veteran 
committing suicide. PTSD affects that. I work very closely with 
them as do my staff on that, and I commend you and hope that we 
do more. Did you want to make a closing statement now?
    The Chairman. This has been a terrific, really terrific 
panel. I want to give each one of you another minute to get 
into the record and tell Mr. Scott and I something that you may 
have thought, ``Gee, I wish I could have gotten it in the 
conversation.'' Mr. Webb, you had something earlier I cut you 
off on. So we will just go down the line, if there is one other 
thing. We will put a minute on the clock for each one of you, 
and anything else you wanted to get in the record.
    Ms. Maehr. Sure. Let me start with what I just say when 
people come to my food bank and ask me how is it going. We are 
doing a booming business, and we do not want to be doing a 
booming business. There are more than 800,000 people in our 
community who are turning to us for need, and the faces of the 
people we are serving might surprise you. Increasingly, the 
people that we serve in our community and the people who are 
hungry in America, they are people who do everything right. 
They are people with jobs. They are people who are sending 
their children to school. There are people who, despite all of 
their best efforts, they need that additional assistance. And 
that is what SNAP does.
    So the opportunity to protect SNAP, the opportunity to look 
at other critical nutrition programs. We haven't talked very 
much about CSFP, but it is a program that is on the front lines 
of making sure that the older adults in our community have food 
and also the importance of the TEFAP Program. We are so 
grateful for the increase that we received in the 2014 Farm 
Bill. But having the additional dollars for storage and 
distribution make it possible for great organizations to 
continue to do this work. Thank you.
    The Chairman. I thank you. Ms. Green-Patton?
    Ms. Green-Patton. Thank you. Again, I am a proud past 
product or benefactor of the SNAP program, and we need to make 
sure that people like myself and people that will receive the 
program or receive the benefits of it, they are not caught up 
in the bureaucracy of just trying to say I want to feed my 
family. It is a trampoline. I know some people don't feel like 
it is. I think people look at us and they say, ``Oh, you want 
to stay on there your whole life.'' And that is definitely not 
the case. We just want a moment to be able to feed our family 
and get back to doing what we do as Americans. Thank you.
    The Chairman. Thank you. Mr. Kunz?
    Mr. Kunz. To pick up Mr. Scott's metaphor about the two 
trains running, we have done some of the two trains running, 
and that is wonderful. But I also want to point out that what 
we are talking about today, these kind of partnerships, this is 
more like a team of horses. We are not competing, and we are 
not working independently. We are working together in tandem. 
And we have yet to see and evaluate what those partnerships 
with those teams can do.
    On this panel there are three doctors, I believe there are 
at least six veterans. If you were from the public sector, the 
private sector, all these different areas of expertise, that is 
what the Community Partner Program is, and that is what several 
of our partnerships are. We bring people with all different 
types of expertise to the table alongside the government, and 
funding for that through social innovation funds, through the 
Hunger Free Communities line item that has been previously 
zeroed out, and all kinds of other ways the Federal Government 
can continue to create and improve and evaluate these public-
private partnerships would aid us in our work.
    The Chairman. Thank you. Ms. Ender?
    Ms. Ender. In regards to seniors, I would just like to say 
that everyone ages very, very differently. You can have 
somebody that is in their 60s and physically they can't do 
things that somebody in their 80s could do. And then, mentally, 
there is the same sort of comparison.
    And we have an employment program at our agency, and we 
help those that want to get back into the workforce. But there 
are seniors that cannot do that for whatever reason. And 
seniors are a little bit different than the rest of the 
population oftentimes because they are on a fixed income. It 
doesn't grow that much, and they can't go get another, a second 
job or something like that. So they can be under tremendous 
stress when we see them. They can be crying. They can be angry. 
They can be very frustrated. They can be--and when you get 
under stress and you aren't eating well and maybe you haven't 
been able to purchase your meds, and you are not taking those 
on a regular basis, you need assistance, you need help. That is 
where the Community Partnerships are really, really important.
    The Chairman. Thank you. Mr. Webb?
    Mr. Webb. Thank you, Mr. Chairman. We strongly support the 
existence of SNAP because of the individuals we serve and the 
need, the safety net that has been described. We can't do our 
work without that baseline. But we do believe like Ms. Maehr 
said, that we should be working ourselves out of a job.
    And to Mr. Scott's point earlier, it should be a 
partnership that allows us to test ideas, test innovation that 
can be scaled up, has measurable impact, and ultimately moves 
individuals from the situation where they need the safety net 
so that we can be in a place where when they use that safety 
net and they bounce from the safety net to the trampoline, they 
have someplace to land. And the ways that we believe we have 
seen this done well is around social innovation, social 
enterprise that may require the team building and the 
collaboration up-front and the up-front investment but long 
term is a community-owned, community-led project that we can 
step away from and leave in the community for long term.
    The Chairman. Thank you, Mr. Webb. Mr. Scott, for a closing 
statement?
    Mr. David Scott of Georgia. Yes, Mr. Chairman. I just 
really want to commend you for putting this panel together and 
this hearing for several important reasons. One, our rich 
nation. We are the most powerful nation, and we should not rest 
with any soul in this country, any child, any person going 
hungry. And to you panelists, when I hear your testimony and 
what you are doing, I am reminded of what Jesus Christ Himself 
said. When the disciples asked Him, what is it you would have 
me to do? He said go and feed the hungry and love your neighbor 
as yourself. That you all are doing. God bless you.
    The Chairman. Thank you, Mr. Scott. I want to again thank 
our panelists. I have been around this place for a while, and 
this has been one of the better--best, quite frankly--group of 
five presenters that we have had. I want the world to know that 
you are the example of the spokesmen for hundreds and thousands 
of other agencies across this nation that are taking the bull 
by the horns themselves. They are not waiting on government. 
They are not waiting on anybody else. They just say we see a 
problem, and we need to fix it. And that can-do spirit across 
this panel is quite evident, and I want to thank you for being 
a part of that and the partners in this effort.
    This is a partnership. No one, despite some of the 
comments, no one has talked about doing away with SNAP. We want 
it to be better. We want it to work for the participants. We 
want it to work for the taxpayer, and that is the purpose of 
this multi-year review is to get it right, to try to figure out 
what the right policies are, how can we make these things work.
    I visited my own food bank in Odessa. It covers about 17 
counties. At the time I was there, the unemployment rate in 
Midland and Odessa, in that area, was three percent or less. 
Think about that, three percent. So I am thinking this food 
bank is not doing much. They just get to be hanging out because 
at that rate, everybody has a job, everybody who wants a job 
has a job, and the boom is on. It was stunning to me to find 
out that their deliveries had gone from 3 million pounds to 5 
million pounds during that timeframe. And it is like that is 
just counter-intuitive. I don't understand how that could 
happen.
    Well, what is happening is because the boom that came in 
and the thousands of people that came to community, housing 
costs soared well beyond the standard that you would think a 
family could be able to handle. And so both ends of the 
barbell, the working poor and the elderly, because of fixed 
incomes and the impact, they were having to pay so much more 
for their housing and rent that they had to reduce their food 
budgets. And so the deliveries to those two groups had 
skyrocketed. The group in the middle, the rod, they were doing 
great, three percent unemployment and they were taking good 
care of themselves.
    So it was eye-opening to me to visit, and I am going to 
encourage all of our Members to visit their food banks, to 
visit on the ground. Go see the folks that are trying to take 
care of business and make that happen.
    I was also disappointed and particularly resented that 
there wasn't a mention of the role of families, particularly 
with the elderly. I have an 86 year old mother. She just turned 
86, and she is stunningly proud of that. But she has begun to 
start that process where she is no longer fully capable for 
herself. But families have a role that I don't think was 
discussed this morning, maybe not on purpose, but I do see many 
instances where families have not taken up their 
responsibilities to care for the folks, their immediately 
family, and we need to continue to highlight that and help 
people understand that that is a vitally important part of this 
process.
    I am also disappointed to learn about another situation. I 
visited the Jane Long Elementary School in Midland 2 weeks ago 
to talk about the breakfast program and the lunch program. The 
coordinator there for the school district also coordinates the 
summer program where children who are in daycare programs and 
other activities get help for those who need it.
    Apparently the YMCA, the national Y, in cooperation with 
Ms. Obama and others, have developed standards for those 
programs that they cannot meet. And so this summer, the Midland 
Y which has always been a great partner in that summer partner 
program where you have a coordinator that goes to the various 
delivery agencies. They will be out of the program because they 
can't participate. And there will be 200 kids this summer who 
won't get the kind of nutrition help here in the summer between 
school that they would have otherwise gotten. So that is a 
problem where government has interfered with the delivery of 
the private sector.
    This has been a terrific experience for Mr. Scott and I and 
the rest of the panel. I want to thank each one of you again 
for coming and sharing with us some important information and 
is helping us move along in what is going to be a 2 year review 
of the SNAP program.
    So under the rules of the Committee, today's record will 
remain open for 10 calendar days to receive additional material 
and supplementary written responses from the witnesses to any 
question posed by a Member. This hearing of the Committee on 
Agriculture is now adjourned. Thank you.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Supplementary Material Submitted by Kate Maehr, Executive Director and 
 Chief Executive Officer, Greater Chicago Food Depository, Chicago, IL
Insert
    Mr. Emmer. . . . It struck me, and I just had a question about: can 
you tell us how much is provided from one source versus from another 
source? I want to talk about measurements and impacts. Can you tell me 
how you are measuring the impact, and if others want to add to this 
because I want to know how I can quantify it when I have to make policy 
decisions?
          * * * * *
    Mr. Emmer. And I guess that is where I was coming from. One side is 
production, how much you are producing, how much you are providing. But 
the other one is results which is Ms. Green-Patton when you talk about 
results.
    Ms. Maehr. You have raised an incredibly important point in that 
more of us--we need to think more about the health of the people that 
we are serving. And this idea, from our perspective, food is medicine, 
and it is not just about moving pounds. It is not just about the 
through-put, but it is also thinking about the health impact. And so 
food banks all across this country are engaged in partnerships with 
health systems, with hospitals, and we are measuring the health----
    Mr. Emmer. I am running out of time, so I just want to say if you 
could get us that information----
          Ms. Maehr. Absolutely.

    Thank you for your question, Congressman Emmer. The first part of 
my answer focuses more broadly on what Feeding America and our network 
of food banks are doing. The second part is focused more specifically 
on Greater Chicago Food Depository's programs in this area.
    Many low-income people face the dual burden of food insecurity and 
diet related disease. For example, Feeding America's research report, 
Hunger in America 2014, shows that 33 percent of food bank client 
households have at least one member with Diabetes, 58 percent include 
at least one member with Hypertension. Forty-seven percent of food bank 
clients report that they are in fair or poor health and 66 percent 
report choosing between paying for food and paying for medical care or 
medicine.
    Given the prevalence of diet related disease, the fact that 
accessing nutritious food can be a particular challenge for low-income 
families and the importance of ``food as medicine'' in promoting good 
health and helping treat chronic conditions like Diabetes and 
Hypertension, food banks have increasing been partnering with 
physicians and healthcare providers on a number of fronts. These 
efforts include:

  <bullet> Implementing food insecurity screening and referral 
        processes in clinics and hospitals.

  <bullet> Providing food pantries and SNAP application assistance on 
        site at clinics and hospitals. One model is for physicians to 
        write ``prescriptions'' for produce and other healthy foods and 
        the patients bring the <func.-of> to an on-site or mobile 
        pantry. Patients also receive information on where they can get 
        help- both food assistance and nutrition education on an 
        ongoing basis.

  <bullet> This summer, in partnership with Cornell University, Feeding 
        America will launch a 6 month study to evaluate how small 
        environmental changes at pantries can impact client food 
        choices and consumption. This work is modeled after work done 
        in school cafeterias and the retail environment.

    In 2011, Feeding America launched a groundbreaking 3 year Diabetes 
Pilot to evaluate the feasibility of food banks to provide diabetes 
self-management support to individuals struggling with hunger and type-
2 diabetes. The pilot also included blood sugar monitoring, diabetes-
appropriate food boxes, diabetes and nutrition education and connection 
to a medical home. The results are very promising. For the over 800 
participants completing the program, we saw statistically significant 
improvements in indicators including: reduced Diabetes distress, 
improved medication adherence, improved Diabetes self-efficacy, 
decreased depressive symptoms, increased fruit and vegetable intake and 
blood sugar control. This year, we launched a randomized control trial 
as part of phase two, which will further help to quantify the 
effectiveness of a food bank led diabetes intervention to improve 
health outcomes among our clients.
    Leveraging the Affordable Care Act's new standard of demonstrable 
community benefit for nonprofit hospitals, Feeding America is 
partnering with Ascension Health to pilot a community collaboration 
between Providence Hospital and the Bay Area Food Bank in Mobile, 
Alabama around the hospital's Community Needs Assessment and 
Implementation Plan. This pilot will allow us to build a case study and 
evaluation to develop models on how food banks can work with local 
hospitals to improve community health indicators.
    In Cook County, the Greater Chicago Food Depository has developed a 
partnership with ACCESS Community Health Network to link health and 
hunger. As part of this partnership, medical providers administer a 
two-question food insecurity screen and refer food insecure patients to 
nearby food pantries, the Food Depository's FRESH produce truck and our 
SNAP Outreach hotline.
    To better reach veterans in need, including those who are 
experiencing health challenges, the Food Depository opened weekly food 
pantries at Jesse Brown VA Medical Center in 2013 and Edward Hines, Jr. 
VA Hospital in 2014. These programs enable struggling veterans to 
receive nutritious food options in the same facilities where they might 
go for medical care.
                                 ______
                                 
  Supplementary Material Submitted by Dustin Kunz, Research Manager; 
Salesforce Administrator and Developer, Texas Hunger Initiative, Baylor 
                          University, Waco, TX
    Public-private partnerships play to the strengths of both sectors. 
Government agencies execute programs with precision and relative 
efficiency. They navigate the legal language related to participation, 
eligibility, compliance, and subsequently they are very good at 
enforcement--SNAP has a lower fraud rate than any other government 
benefits program. Government agencies have access to demographic and 
economic data that enables them to identify places and groups that 
would benefit most from outreach and education.
    Nonprofits, on the other hand, can actually do the outreach and 
education, and can transition from helping ZIP Codes and demographics 
to helping individuals and families--people, not Census tracts--and can 
aid the family well beyond the government benefits for which they 
qualify. SNAP does raise people just above poverty, and it can catch 
them before they are knee deep in it, but the continuum of care at a 
nonprofit is designed to act as a trampoline to launch them back into 
self-sufficiency.
Insert 1
          Mr. Neugebauer. One of the issues that Mr. Kunz talked about 
        Texas is a big state. I have a big district. Mike has a big 
        district. And so when you leverage and use these partnerships, 
        one of the concerns that I would have is what kind of oversight 
        is the agency able to do to make sure that these agencies are 
        all following the guidelines? Because one of the things that--
        it is not for a lack of people signing up for the food stamp 
        program. I mean, one in seven Americans today are on the Food 
        Stamp Program, and unfortunately, we think there are some 
        people that are on the Food Stamp Program that maybe have not 
        necessarily qualified to do that because of loopholes and so 
        forth.
          So what are you doing to make sure that our partners are 
        following the guidelines to make sure that people that are 
        actually getting on food stamps are actually qualified to do 
        that?
          Mr. Kunz. Right. Thank you. Thank you for re-framing the 
        question. I tend to not see challenges. I tend to see possible 
        solutions, and this is one of the great things about the 
        Community Partner Program is that the Health and Human Services 
        Commission actually has a fairly reasonably rigorous process to 
        become a Community Partner. HHSC treats Community Partners 
        essentially as subcontractors, and there is an MOU that is 
        signed, despite the fact there is no financial relationship. 
        And then these partners are--we track what is happening with 
        the partners, applications they are filling out. Are there 
        common errors and are there patterns? And if there are, HHSC 
        follows up. The Health and Human Services Commission, along 
        with Texas Hunger Imitative, has been doing site visits to each 
        of these different partners. So we have at least offered and 
        are in the process of making more site visits to all of them.
          And so as we go through that process we want to make sure 
        that they are displaying proper information, and equal 
        opportunity information and that all of the legal sides are 
        covered and that we are sharing information with everyone 
        involved. We provide statistical reports to the partners, and 
        we also are able to analyze those on our end to make sure that 
        there aren't errors.
          Regarding enforcement, the partner never has the opportunity 
        or intention of determining eligibility or payment rates. That 
        remains entirely with the Health and Human Services Commission 
        and allows the government to do what the government does really 
        well and the partner to do what it does well.

    What makes cross-sector collaboration successful are the differing 
strengths of each participating entity. However, these differences also 
present unique challenges that need to be navigated. In any cross-
sector collaboration, entities will need to move toward one another to 
work effectively. When bringing together multiple entities from varying 
sectors, communication barriers arise because of disparate vocabularies 
and varying organizational structures, internal processes and project 
timelines. Along with this, the different ways sectors measure success 
make establishing common metrics for each party crucial. Despite these 
differences, if both parties are committed to the success of the 
partnership, they can work to meet the needs of the other. Government 
agencies are designed to administer large-scale programs that 
necessitate structure and less flexibility but provide scalability. 
Fleet-footed nonprofits can pivot on a dime to react to changing 
circumstances, complementing the agencies' scope and capacity. In the 
case of large-scale public-private partnerships, like those in Texas, 
the convening entity that spans the gap between the various 
contributors facilitates collaboration through translation, evaluation, 
and other needs as they arise. This enables the partnerships to 
function fluidly without every department having to learn the language 
of the other sector and allows for the cross-sector collaboration to 
amplify the strengths of individual entities and maximize their impact.
Insert 2
          Mr. LaMalfa. Interesting. Well, I find that is a pretty 
        fairly common theme across the boundaries. Natural Resources 
        Committee, local people that manage forests and try to fight 
        forest fire are complaining they are not getting enough local 
        input with Federal fire fighters or Federal Forest Service, 
        outside entities that don't know how to do it locally. So it is 
        interesting, that the local input is very important.
    If other states were looking for a model on this, looking to Texas, 
what would you recommend be done differently to streamline, maybe help 
other states to emulate what you are trying to do there? Is there some 
speed bumps that you would advise them to go around?
          Mr. Kunz. Sure. One of the speed bumps for a lot of 
        organizations is funding. It does require some kind of funding 
        in order to get these partnerships off the ground in order to 
        really do----
          Mr. LaMalfa. Start-up funding? Not program but the start-up 
        type funding?
          Mr. Kunz. Right. Instead of funding for the kind of thing 
        that Texas Hunger Initiative does, we convene all these 
        organizations, but that requires everything from staff to 
        perform the function of a backbone organization, which is the 
        specific collective impact term, to fund those backbone 
        organizations to create these partnerships and honestly to pay 
        for coffee at these meetings that keep people in the room and 
        keep them working.

    In Texas, we are working to understand, evaluate, and implement the 
model(s) of public-private partnerships. This takes time, and it takes 
data. We encourage Congress to make the Hunger Free Communities a 
stand-alone component of the farm bill with mandatory funding to 
increase the capacity of states developing innovative partnerships. 
This will strengthen the ability for states to utilize the collective 
strengths of multi-sectoral partnerships which will translate into more 
families moving towards self-sufficiency.
Insert 3
          Mr. Allen. Right. Well, in other words on the SNAP program, 
        in 2014, we fed about 46.5 million people which was about $418 
        per person per day. Do you all keep any statistics like that?
          Mr. Kunz. We in Texas have a whole variety of statistics we 
        would love to share with your office. I will say that Craig 
        Gundersen is one of the leading experts in this field, and he 
        estimates about three percent come from charitable----
          Mr. Allen. Food from----
          Mr. Kunz.--of the total come from charitable resources.

    Of all the food resources and assistance intended to address hunger 
in Texas, 1% comes from charitable sources.
    Source: http://www.baylor.edu/texashunger/index.php?id=85447.
    Average monthly SNAP benefit per person in U.S.: $125.35 (divide 
that by 30, approx. $4 a day).
    Source: http://www.fns.usda.gov/sites/default/files/pd/
18SNAPavg$PP.pdf.
Insert 4
          Mrs. Bustos. Who is doing it right, and what can we learn 
        from who is doing it right? And anybody can answer that. There 
        has to be a role model state or community or someplace where we 
        can say this is what we should be doing and somehow systemize 
        it so everybody can get this right. Eliminate waste or 
        redundancy or whatever else is clogging up the efficiency of 
        the system and making sure that hungry people don't go hungry.
          Mr. Kunz. Ms. Bustos, I don't want to say that Texas is doing 
        it right. It is a bold statement. I want to say we are doing it 
        well, and we are getting better at it. I think that we are 
        creating a model for public-private partnership that is 
        incredibly effective and creates a great exchange between the 
        private sector and the public sector and creates a lot of 
        information. I think that we are creating a great model, and I 
        also know that we have an annual summit coming up, and you are 
        invited to come in and learn about how this works, everybody on 
        the ground, and with our legislators.

    Texas is implementing public-private partnerships well. We have a 
presence in the communities we are seeking to serve, we have strong, 
clear lines of communication between the state and the nonprofit, and 
both the public and private entities are largely responsive to the 
needs of the other. The public sector is able to equip the convening 
entity (in this case, a research university) with the necessary 
resources to engage 1,200 other nonprofits in benefits access--this 
maximizes the strengths of each sector.
                                 ______
                                 
Submitted Statement by Hon. Alma S. Adams, a Representative in Congress 
 from North Carolina; on Behalf of Clyde W. Fitzgerald, Jr., Executive
     Director, Second Harvest Food Bank of Northwest North Carolina
    Dear Congresswoman Adams,

    Thank you for the opportunity to provide input which may assist you 
in this week's hearing regarding SNAP (formerly Food Stamps) and the 
role of the charitable sector in fighting hunger.
    Nearly 50 million Americans suffer from food insecurity because 
they lack the financial resources to provide for their basic needs and, 
in my opinion, food is the most basic of human needs. While economic 
recovery is a daily focus of the news media, meaningful recovery has 
not yet reached those served by Second Harvest Food Bank of Northwest 
North Carolina and our sister food banks that are part of Feeding 
America's national network. A parent working one or more jobs trying to 
make ends meet and feed his or her family is not concerned with the Dow 
Jones Industrial Average or the Federal Discount Rate. Sadly, 18.3 % of 
North Carolina's population is currently food insecure.
    In the 18 counties served by our food bank, one in six people need 
food assistance and, sadly, food insecurity plagues more than one in 
four of our children. Hunger is pervasive, urgent, and unfortunately, 
still growing. Feeding America's widely-respected Hunger in America 
2014 Study reflects that 62% of our more than 400 partner programs 
still report significant increases in the numbers of people coming to 
them for food assistance. This same authoritative report shows that the 
majority of those we are serving have at least one job in the 
household; however, about 60% of those jobs are part-time, meaning 
fewer work hours, lower rates of pay and generally no health coverage. 
So, precious resources are stretched very thin in trying to cover basic 
needs. Although the official unemployment rates for the U.S. and North 
Carolina are now down to about 5.5% for March, unfortunately, those 
rates don't tell the whole story. The Bureau of Labor Statistics U6 
Report for this same timeframe reflects an unemployment rate for the 
U.S. of 11% and 12.1% for NC, at least twice the level of the official 
rates.
    Feeding America's Map the Meal Gap 2015 Study released just this 
week ranks North Carolina fifth worst in the country regarding the 
percentage of the population that is food insecure. Sadly, North 
Carolina's 12th Congressional District ranks the worst in our state for 
food insecurity and is among the ten worst Congressional districts in 
the U.S. Our food bank serves much of the district which you represent. 
We have been privileged to partner with you during your many years of 
service in the NC House and your leadership at the national level is 
crucial to our collective ability to serve those in need of food 
assistance.
    Solving the problem of hunger and food insecurity in America 
requires a strong and sustained partnership between the public and 
private sectors and the engagement of compassionate individuals to 
ensure that all of our citizens have the opportunity to meet their 
basic needs. Government can't and should not be expected to deal with 
this significant issue on its own. Similarly, the private sector, 
certainly including the charitable sector, can't possibly resolve this 
program without the assistance of government programs and policies that 
provide support and incentives essential for eliminating hunger and 
food insecurity in this great country.
    The SNAP Program works as it was intended to work: it responds 
quickly in times of disaster or recession, reducing hunger and food 
insecurity, improving nutrition and health which, in turn, improves 
individual well-being. History shows that SNAP participation increases 
during bad times and decreases when the economy improves. The program 
serves millions of children, seniors, veterans, people with 
disabilities, jobless adults seeking work and those working--often at 
multiple jobs trying to make ends meet. Cutting funding for SNAP, 
imposing overly restrictive work requirements or changing the program 
to a block grant to the states would not only harm millions of our 
neediest citizens but also would overwhelm states and charities that 
are already unable to meet the need. Such changes would cause more food 
insecurity and poverty, worsen individual health outcomes and create 
even higher health costs for our country. I urge you and your 
Congressional colleagues to continue the bipartisan support of the SNAP 
program which is absolutely vital to the health and well-being of 
nearly 50 million Americans!
    We need your support and the bipartisan support of the Congress to 
pass The America Gives More Act this year. This legislation expands 
food donation tax deductions to help small and large farmers, 
retailers, restaurants and food manufactures donate excess wholesome 
food to the nation's food banks. With over 70 billion pounds of food 
wasted each year, this legislation is critically needed to help food 
banks provide more donated fresh produce to those in need.
    Other major legislative matter vital to our ability to provide food 
to those in need include the Child Nutrition Reauthorization, ensuring 
full funding for the TEFAP and TEFAP Bonus Commodities Programs as 
authorized in the farm bill and, as the House and Senate Budget 
Resolutions are conferenced, opposing any reconciliation instructions 
to the Agriculture Committee that would result in reductions to vital 
Federal nutrition programs.
    I am grateful for the opportunity to provide input on these 
important matters. We are proud to partner with you and many others in 
the Congress in providing food and hope to the many, who unfortunately, 
have too little of both.
            Sincerely,

Clyde W. Fitzgerald, Jr. Executive Director.
                                 ______
                                 
       Submitted Statement by MAZON: A Jewish Response to Hunger
Charity Alone Is Not the Answer
    Among the myths about hunger in America frequently repeated is the 
notion that it is better for local charities to feed people, not the 
government. The massive scale of the issue of hunger, the complex 
factors contributing to this problem, and the response necessary to 
adequately address it reveal a far different truth: charity alone is 
not the answer to ending hunger.
    Charitable organizations--including MAZON's nationwide network of 
partners on the front lines--were not conceived to feed entire 
communities. Instead, these food banks, food pantries, and soup 
kitchens help to alleviate what were thought to be temporary or 
emergency situations. The charitable sector provides an important 
short-term fix but is inherently insufficient to solve the systemic 
problem of hunger. Many of these agencies are small operations open 
only a few days a week and for a few hours of each day. They are 
largely volunteer run, often out of basements or closets at their local 
houses of worship, and they primarily distribute food that has been 
donated from within their communities. They simply could never have the 
capacity to feed the significant and persistent number of people who 
need help.
    The U.S. Department of Agriculture plays a strong and vital role in 
ensuring that hungry Americans have access to food by administering 15 
distinct food and nutrition assistance programs. These Federal 
assistance programs serve as our nation's frontline defense against 
food insecurity. We cannot food bank our way to an end to hunger, nor 
do charities have the means to fill the gap left by declining 
government support. Only the government has the capacity to address an 
issue with the magnitude of hunger and work toward a solution to this 
problem.
    It is essential that the government nutrition safety net programs 
are operated with the utmost effectiveness, efficiency, and 
accountability, and the USDA works diligently to ensure this is the 
case. Such well-run government programs embody our national commitment 
to account for the needs and rights of all Americans and our collective 
responsibility to care for the most vulnerable among us. MAZON: A 
Jewish Response to Hunger is proud to stand as a partner in this shared 
effort to end hunger in the U.S.
                               attachment
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                          Submitted Questions
Response from Kate Maehr, Executive Director and Chief Executive 
        Officer, Greater Chicago Food Depository
Question Submitted by Hon. David Rouzer, a Representative in Congress 
        from North Carolina
    Question. North Carolina has a proud tradition of food banks. All 
of our 100 counties are served through seven different banks and a 
network of 2,500 pantries, shelters and soup kitchens across the state. 
Last year, over 450,000 volunteer hours were tallied and 150 million 
pounds of food were distributed. The seven food banks are part of an 
association which is a member of Feeding America, and 60% of the direct 
feeding is handled by our faith based organizations. If that network 
wasn't there, North Carolina would not have the success it does. Also, 
95 of every dollar goes to actual food on people's tables, meaning our 
state runs a very efficient program.
    Over the last decade, food banks have increasingly been able to 
offer more and more fresh fruits and vegetables. Ms. Maehr, can you 
comment on this movement? Are there any challenges to storing or 
delivering more fresh produce? It seems like this increase is a win-win 
for farmers and for consumers.
    Continuing on this, one issue that continues to frustrate the North 
Carolina food banks is the amount of unharvested or unsold fruits and 
vegetables that go unused in North Carolina. The food banks' goal is to 
find ways of getting the necessary equipment and manpower to areas 
where this food can be used by the food banks. The director of our 
state association representing the seven food banks has spoken to my 
office about tax reforms and accounting reforms that could be helpful 
in making it easier for farmers to donate this food. Ms. Maehr, have 
you seen this problem in your area? Are there things you are doing to 
help farmers get their unused commodities to food banks? Do you have 
suggestions of how Congress can help with this problem?
    Answer. Thank you for your question Representative Rouzer. Both the 
Feeding America network and the Greater Chicago Food Depository have 
made increasing the amount of fresh produce distributed to our clients 
a key part of our strategic plans over the last decade. Our food bank 
network currently moves about 1 billion lbs. of produce annually to all 
counties in the United States and Puerto Rico, about 600 million lbs. 
of which is donated from produce farmers, packers and/or shippers. 
Getting fresh fruits and vegetables to the hungry people that need it 
is a huge focus for us. As a food bank network, we have set an 
aggressive goal of closing the national meal gap (distributing enough 
meals so that every individual in the United States that is in need of 
a meal has access to one). With the current meal gap being 8.7 million 
meals, we will have to grow by almost 90%, about 40% of which will be 
fresh produce. In our most recent research study, 55% of the people we 
serve said that fresh fruits and vegetables were the most desired item 
not received. In the Food Depository's local network, more than \1/3\ 
of everything we distribute is fresh produce and the people we serve 
appreciate this nutritious food, but we know that more needs to be 
done.
    There are challenges involved in increasing our capacity to source 
and distribute more fresh produce. Distributing more food that is 
perishable means investing in the logistics need to do so safely and 
efficiently, meaning more refrigerated trucks and distribution through 
avenues like mobile pantries.
    There are also challenges in obtaining increasing amounts of fresh 
produce to distribute to the 46.5 million Americans we serve each year. 
As you know from your work with food banks in North Carolina, there is 
an enormous amount of food that is wasted in America each year, around 
70 billion pounds. A significant portion of the amount of nutritious 
food wasted, 48 million pounds, is pre-production and includes fresh 
produce that is not donated from farmers and producers. Some of these 
challenges are logistic in nature--if a farmer has an abundant crop, 
how can that food be harvested, donated and distributed during its 
shelf life? In many cases the decision to donate or not donate is made 
before a discussion of logistics even starts. There are thousands of 
farmers that donate each year to help those in need, but this is a 
small fraction of the available produce to donate. There is a real 
financial impact on donors to pack and prepare excess food for 
donation, and that is not a cost that all donors can bear. Many farmers 
are not eligible for the federal food donation tax deduction that lets 
qualified donors take an enhanced tax deduction when they donate 
nutritious food to nonprofits.
    Feeding America and GCFD have been working with supporters in 
Congress and throughout the food industry to enact the America Gives 
More Act (H.R. 644), which would improve and expand federal tax 
incentives so that all donors, large or small, retailer, farmer, 
restaurant, or food manufacturer, can take an enhanced tax deduction 
when they donate excess food to a nonprofit.
    Tax incentives that apply to all donors are one part of the 
solution. The other part is funding pilots to test the most efficient 
ways to capture and distribute fresh produce to clients. Our food banks 
have started to work with USDA on identifying grant programs that can 
serve several purposes: promote local food and rural development, 
promote fresh produce, and connect low income clients at food banks 
with more produce. We would love to work with Congress to identify how 
we could maximize the impact these grants could have on our ability to 
get more produce to our clients. Finally, in Illinois, we are also 
encouraging the development of an agricultural clearance program, 
similar to successful models in other states, including Ohio.
            Thank you, again, for your thoughtful question.

Kate Maehr,
Executive Director and CEO,
Greater Chicago Food Depository.
Questions Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question 1. How do your organizations partner with other nonprofits 
and agencies to provide support to the hungry as they struggle to make 
ends meet?

    Question 2. What percentage of the individuals and households that 
you serve include children?

    Question 3. Do you all work with agriculture co-ops to provide 
affordable, locally-grown food in to the hungry your communities?
    Answer. 1-3 Thank you for your questions Representative Adams. Both 
nationally and locally, partnerships throughout the nonprofit community 
and with local social service agencies play a key role in our 
distribution of 3.8 million meals to 46.5 million clients a year. The 
200 food banks in the Feeding America network provide food to 46,000 
agencies. The agencies that partner with our food banks are all 
independent nonprofits, and data from the Feeding America Hunger in 
America 2014 shows that 62% are faith based. Agency partnership and 
development is a key facet of our work to help clients. Our food banks 
work with agencies to help develop programs to address specific client 
needs, including after school and summer seals, senior meals, school 
pantries, and snap outreach. Our food banks also work with agencies to 
help with capacity improvements and other ideas to increase services to 
clients.
    In Cook County, the Greater Chicago Food Depository provides food 
through a network of 650 food pantries, soup kitchens, shelters and 
programs. Beyond providing food, we are committed to investing in the 
future of our member agencies with training and grant opportunities so 
they can grow stronger in their community-level response to hunger.
    According to Feeding America's Hunger in America 2014 study, our 
network is serving 46.5 million Americans, including 12 million 
children and seven million seniors. Of the households served by the 
Feeding America network, 32% of client households have at least one 
child. Additionally, 26% of the households we serve have at least one 
senior, and 6% of the households we serve have at least one child and 
senior.
    In Cook County, the Greater Chicago Food Depository's network 
serves 812,100 individuals each year, including 164,500 children and 
125,200 seniors. Of the households served by the Food Depository, 39% 
include at least one child and 36% include at least one senior.
    Both the Feeding America network and the Greater Chicago Food 
Depository have made increasing the amount of fresh produce distributed 
to our clients a key part of our strategic plans over the last decade. 
Our food bank network currently moves about 1 billion lbs. of produce 
annually to all counties in the United States and Puerto Rico, about 
600 million lbs. of which is donated from produce farmers, packers and/
or shippers. Getting fresh fruits and vegetables to the hungry people 
that need it is a huge focus for us. Of the 67 million pounds of food 
distributed by the Greater Chicago Food Depository last year, more than 
\1/3\ was fresh produce. As a food bank network, we have set an 
aggressive goal of closing the national meal gap (distributing enough 
meals so that every individual in the United States that is in need of 
a meal has access to one). With the current national meal gap being 8.7 
million meals, we will have to grow by almost 90%, about 40% of which 
will come from fresh produce. In our most recent research study, 55% of 
the people we serve said that fresh fruits and vegetables were the most 
desired item not received. This work to increase produce includes 
working with agriculture co-ops locally and regionally to identify 
opportunities to redirect excess produce to our food banks to help 
those in need. We know from Hunger in America 2014 that produce is an 
item that our clients want more of but are not able to afford in many 
cases. In Illinois, food banks have worked directly with farmers who 
grow food to donate, but these partnerships do not come close to the 
potential of our state to produce food for people in need. We are 
encouraging the development of an agriculture clearance program similar 
to successful models in other states including Ohio.
    However, there are challenges in obtaining increasing amounts of 
fresh produce to distribute to the 46.5 million Americans we serve each 
year. There is an enormous amount of food that is wasted in America 
each year, around 70 billion pounds. A significant portion of the 
amount of nutritious food wasted, 48 million pounds, is pre-production 
and includes fresh produce that is not donated from farmers and 
producers. Some of these challenges are logistic in nature--if a farmer 
has an abundant crop, how can that food be harvested, donated and 
distributed during its shelf life? In many cases the decision to donate 
or not donate is made before a discussion of logistics even starts. 
There are thousands of farmers that donate each year to help those in 
need, but this is a small fraction of the available produce to donate. 
There is a real financial impact on donors to pack and prepare excess 
food for donation, and that is not a cost that all donors can bear. 
Many farmers are not eligible for the Federal food donation tax 
deduction that lets qualified donors take an enhanced tax deduction 
when they donate nutritious food to nonprofits.
    Feeding America and GCFD have been working with supporters in 
Congress and throughout the food industry to enact the America Gives 
More Act (H.R. 644), which would improve and expand federal tax 
incentives so that all donors, large or small, retailer, farmer, 
restaurant, or food manufacturer, can take an enhanced tax deduction 
when they donate excess food to a nonprofit.
    Tax incentives that apply to all donors are one part of the 
solution. The other part is funding pilots to test the most efficient 
ways to capture and distribute fresh produce to clients. Our food banks 
have started to work with USDA on identifying grant programs that can 
serve several purposes: promote local food and rural development, 
promote fresh produce, and connect low income clients at food banks 
with more produce. We would love to work with Congress to identify how 
we could maximize the impact these grants could have on our ability to 
get more produce to our clients.
Response from Dustin Kunz, Research Manager; Salesforce Administrator 
        and Developer, Texas Hunger Initiative, Baylor University, 
        Waco, TX
Question Submitted by Hon. Austin Scott, a Representative in Congress 
        from Georgia
    Question. Thank you for appearing before the Committee today. I'd 
like to focus on the issue of fighting hunger in rural America, which 
is of particular interest to the Eighth district of Georgia.
    There are a lot of committed individuals and groups in the 
charitable sector in my district who are working to tackle this issue 
head on. One such group is Second Harvest of South Georgia. Second 
Harvest is the regional food bank that serves 30 counties in South 
Georgia, 12 of which are in my district. The area they serve has the 
highest rates of food insecurity in Georgia and among the highest rates 
of food insecurity in the nation. They also work collaboratively with a 
network of 450 partner charities in their service counties. I have made 
several trips to their facility and always enjoy the opportunity to see 
the good work they do. The challenges they face in confronting hunger 
in rural America differ in many ways from the challenges faced by their 
urban counterparts. This reality is another reminder that one size fits 
all solutions will ultimately not accomplish our goals of serving 
individuals and families in need and helping lift people out of 
poverty.
    Mr. Kunz and Mr. Webb, I'd like to hear some of your perspectives 
on the challenges of fighting hunger in rural America. How do these 
challenges differ from those in urban areas? Where might rural 
organizations be seeing gaps for the clients they're serving? What are 
some of the ways your organizations are working to meet the needs of 
rural Americans, such as lack of adequate transportation? What are some 
practical solutions to get the food directly to those in rural areas 
who need it?
    Answer. Recent Census Bureau data indicate the shifting of poverty 
concentration to suburban and rural areas: ``between 2000 and 2010, 
people living in areas outside of metropolitan areas saw the largest 
percentage point increase in the proportion of people living in poverty 
areas.'' \1\ Patterns of farm crisis, unemployment, seasonal 
employment, lack of jobs, low-paying jobs that do not provide benefits, 
systemic oppression and long-term connection between race and poverty 
all contribute to this reality.
---------------------------------------------------------------------------
    \1\ Changes in Areas with Concentrated Poverty: 2000 to 2010 http:/
/www.census.gov/content/dam/Census/library/publications/2014/acs/acs-
27.pdf.
---------------------------------------------------------------------------
    The Census defines Urban Areas as densely developed places with 
50,000 or more people. Urban clusters are developed regions with at 
least 2,500 people, but less than 50,000. Any other region is 
classified as rural.\2\ In Texas, there are 30 high poverty counties 
located in rural areas. In urban areas, children are often concentrated 
in certain neighborhoods, but food-insecure children in rural areas may 
be scattered throughout a large area; therefore, lack in coordinated 
services and issues of transportation and communication are 
exacerbated. The unique reality of rural poverty requires a 
collaborative, public-private infrastructure to increase the capacity 
of rural communities. Fortunately, for many rural communities, 
collaboration and interagency cooperation is normal and necessary due 
to a shortage of funds to support services and programs. Collaboration 
with congregations is also common because faith-based organizations 
sometimes provide services to fill in the gaps.\3\
---------------------------------------------------------------------------
    \2\ Urban and Rural Classification: http://www.census.gov/geo/
reference/urban-rural.html.
    \3\ The Handbook of Community Practice (2005) p. 402-417 entitled 
``Rural Community Practice: Organizing, Planning, and Development.''
---------------------------------------------------------------------------
    We convene community organizations in rural communities to increase 
access points for public benefits including SNAP and the summer meals 
program. Schools, nonprofits, and congregations play a crucial role in 
the implementation of summer meals programs. Through Census and state 
agency program data, we denote where summer meals sites are located and 
where the gaps in coverage are so that we can strategically maximize on 
the distribution and capacity of sites to serve meals to children in 
these rural communities. Similarly, in order to increase access points 
for public benefits across the state, we recruit and support community-
based organizations to equip them to assist Texans in applying for the 
benefits as part of a larger continuum of care. We target Census tracts 
in rural areas with high levels of poverty to maximize our reach in the 
areas that need it most.
Questions Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question 1. How do your organizations partner with other nonprofits 
and agencies to provide support to the hungry as they struggle to make 
ends meet?
    Answer. THI regional staff, along with subcontracted partners, work 
to increase the capacities of local communities and community-based 
organizations to provide application assistance to support the 
enrollment of eligible clients for benefits including SNAP, Temporary 
Assistance for Needy Families (TANF), Medicaid coverage, and the 
Children's Health Insurance Program (CHIP). THI staff and its partners 
leverage existing community linkages to recruit and support this state-
wide network of organizations that include health services, nutritional 
services, family services, and faith-based organizations. This state-
wide public-private partnership bridges local, state, and federal 
resources to maximize the efficiency and targeted reach of the program.
    THI regional staff also work throughout Texas to increase awareness 
of and participation in federal child nutrition assistance programs 
including School Breakfast, Summer and Afterschool Meals. The 
administration and coordination of child nutrition programs also 
present unique opportunities for public-private partnerships. They are 
building networks for regional and local collaboration with school 
districts, service agencies, nonprofits, faith-based communities, and 
local governments/municipalities, as well as active meal program 
sponsors and sites so that funding, volunteers, and space are pooled 
and maximized for the most eligible children. These partnerships 
encourage family and community involvement and empower local 
communities.
    Further, THI and its partners are developing local coalitions 
across the state that serve as a mechanism for local communities to 
operate strategically to assess the structure and procedures of food 
delivery systems, identify resources and gaps, and implement action 
plans in order to provide healthy and nutritious food to an increased 
number of people. These local coalitions are the foundation of THI's 
community engagement model.

    Question 2. What percentage of the individuals and households that 
you serve include children?
    Answer. In Texas, it is estimated that 27 percent of children live 
in households experiencing food insecurity, which is higher than the 
national average (21%) (Feeding America, 2014). Further, in order to 
estimate the scope of at-risk students, researchers utilize free and 
reduced-price meal (FRP) eligibility data, which serves as a rough 
proxy for the number of children living in poverty because census 
poverty data isn't broken down by school/school district level. Fifty-
one percent of U.S. public school children (Southern Education 
Foundation, 2015) and 61 percent of Texas public school children 
qualify for FRP meals (TDA, 2013-2014 NSLP Breakfast & Lunch Data). THI 
and its partners across the state have fostered innovative public-
private partnerships to maximize the reach and efficiency of nutrition 
programs so that children and families who need the programs have 
access to them.

    Question 3. Do you all work with agriculture co-ops to provide 
affordable, locally-grown food in to the hungry your communities?
    Answer. The Texas Hunger Initiative works with many different 
organizations from widely varied sectors to form local, indigenous 
coalitions committed to food security in their own communities. While 
THI does not exercise control over these coalitions, we partner with 
them to provide backbone support: logistics, organizing, training, 
expertise, and evaluation. Several of these coalitions have made access 
to locally-grown food a priority, both for the nutritional benefit and 
for the boon to the very-local economy. These coalitions work with 
farmers markets and CSA's to ensure that they are resourced to accept 
SNAP and are aware of other programs ensure access to these markets. In 
Austin, a private foundation underwrote a grant to offer a SNAP-
matching program for fresh fruits and vegetables at farmers markets, 
and several other coalitions are working with potential funders and 
innovative markets, and the Texas Hunger Initiative connects the dots 
between the USDA and other public entities with local coalitions, 
organizations, and markets.
    Sources:
    Feeding America. (2014). Map the meal gap.http://
www.feedingamerica.org/hunger-in-america/our-research/map-the-meal-gap/


    Texas Hunger Initiative analysis of 2013-2014 NSLP Lunch and 
Breakfast Data, requested from the Texas Department of Agriculture.
    Southern Education Foundation. (2015). A new majority research 
bulletin: Low income students now a majority in the nation's public 
schools. Retrieved from http://www.southerneducation.org/Our-
Strategies/Research-and-Publications/New-Majority-Diverse-Majority-
Report-Series/A-New-Majority-2015-Update-Low-Income-Students-Now.


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

    (THE PAST, PRESENT, AND FUTURE OF SNAP: THE WORLD OF NUTRITION, 
                GOVERNMENT DUPLICATION AND UNMET NEEDS)

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                  House of Representatives,
                                 Subcommittee on Nutrition,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 1300, Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Walorski, Gibbs, Hartzler, 
Benishek, Davis, Yoho, Abraham, Moolenaar, McGovern, Adams, 
Lujan Grisham, Aguilar, Ashford, and DelBene.
    Staff present: Anne DeCesaro, Carly Reedholm, Haley Graves, 
Jackie Barber, Jessica Carter, Mary Nowak, Mollie Wilken, Ted 
Monoson, Lisa Shelton, and Nicole Scott.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. Welcome to the next hearing in our review 
of the past, present, and future of SNAP. Today we will discuss 
and examine the government's duplication and inefficiencies of 
the Supplemental Nutrition Assistance Program. Taxpayers and 
recipients deserve a thoughtful and thorough review of SNAP. 
They also deserve to know its relationship with other nutrition 
programs and how that affects families around the country, as 
well as taxpayers.
    I want to stress the importance of today's hearing and the 
Committee's goal to ensure SNAP has a clear mission and 
operates accordingly. That goal should help Americans; both 
helping to recognize no one should go hungry, and highlighting 
the value of helping to get people out of poverty.
    As we heard in the last hearing, our government is not 
alone in supporting the nutritional needs of Americans. Today 
we will look inward at how government nutrition assistance 
programs operate. According to GAO, there are at least 18 
different nutrition assistance programs, and together they 
spend roughly over $100 billion annually of taxpayer funds.
    While SNAP accounts for $3 out of $4 of that today, it is 
not alone in providing nutrition assistance. Over the past 
several decades, numerous programs have been created to target 
various populations with little to no regard in coordinating 
with existing programs or concern for overlap. This has created 
a web of programs, causing confusion for recipients who are 
trying to feed their families and difficulty for states trying 
to administer these programs.
    The reality is that a majority of SNAP households are also 
eligible and receive benefits from at least one of the other 
major nutrition assistance programs. In some cases, multiple 
programs might be funding the same meals. For example, 
recipients may receive USDA commodity food packages through the 
Commodity Supplemental Food Program while also receiving SNAP 
benefits.
    What impact does that have on a family? Is there a 
duplication while there are still needs not being met? We want 
to ensure every person has access to food, and this overlap 
could be causing confusion in the system, in some cases 
overlooking individuals altogether who do not have access to 
any of these programs.
    Our job today is to figure out where the overlap, 
duplication, or inefficiency exists. Then we can expertly 
target our limited resources to places with potential unmet 
needs or weaknesses in the system. Let's continue this 
conversation and begin to understand how to best serve all 
families because we can always do better.
    I thank all of our witnesses for being here with us today 
and look forward to their testimony.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Welcome to the next hearing in our review of the Past, Present, and 
Future of SNAP. Today we'll discuss and examine the government's 
duplication and inefficiencies of the Supplemental Nutrition Assistance 
Program. Taxpayers and recipients deserve a thoughtful and thorough 
review of SNAP. They also deserve to know its relationship with other 
nutrition programs and how that affects families around the country, as 
well as taxpayers.
    I want to stress the importance of today's hearing and the 
Committee's goal to ensure SNAP has a clear mission and operates 
accordingly. That goal should help Americans; both helping to recognize 
no one should go hungry, and highlighting the value of helping people 
get out of poverty.
    As we heard in the last hearing, our government is not alone in 
supporting the nutritional needs of Americans. Today, we'll look inward 
at how government nutrition assistance programs operate. According to 
GAO, there are at least 18 different nutrition assistance programs--and 
together--they spend over $100 billion annually of taxpayer funds. 
While SNAP accounts for $3 out $4 of that today, it's not alone in 
providing nutrition assistance.
    Over the past several decades, numerous programs have been created 
to target various populations with little to no regard in coordinating 
with existing programs or concern for overlap. This has created a web 
of programs, causing confusion for recipients who are trying to feed 
their families and difficulties for states trying to administer these 
programs.
    The reality is that a majority of SNAP households are also eligible 
and receive benefits from one of the other major nutrition assistance 
programs. In some cases, multiple programs might be funding the same 
meals. For example, recipients may receive USDA commodity food packages 
through the Commodity Supplemental Food Program, while also receiving 
SNAP benefits. What impact does that have on a family? Is there 
duplication while there are still needs that are not being met? We want 
to ensure every person has access to food and this overlap could be 
causing confusion in the system, in some cases overlooking individuals 
altogether who don't have access to any programs.
    Our job today is to figure out where overlap, duplication, or 
inefficiency exists. Then, we can more expertly target our limited 
resources to places with potential unmet needs or weaknesses in the 
system. Let's continue this conversation and begin to understand how to 
best serve all families, because we can always do better.
    I thank all of our witnesses for being here with us today and look 
forward to their testimony.

    The Chairwoman. I would now like to recognize Ranking 
Member McGovern for his opening statement.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Thank you very much, Chairwoman Walorski, and 
I want to welcome all the witnesses who are here to testify.
    Today's hearing is supposed to focus on duplication and 
unmet needs, and let me just begin with duplication. 
Duplication implies that the same people are getting the same 
benefit twice, and my experience has been that this is not a 
problem. Our food and nutrition programs are designed to meet 
the unique needs of the diverse populations that they serve.
    Let's take senior citizens, for example. Meals on Wheels 
serves homebound senior citizens, while CSFP and SNAP provide 
food assistance to those who are more mobile. And so even 
within the senior population there are distinct needs, unique 
needs, that these various programs meet. So, even within the 
same population, there are different needs.
    I am sad to say that in this country today there are still 
too many people who are hungry, and there are a lot of unmet 
needs in our food and nutrition programs. During the school 
year, the School Lunch and Breakfast Program do a good job of 
providing nutritious meals to kids, but in summer, only a 
fraction of the kids who receive free and reduced-price meals 
have access to summer meals.
    Let me also just say something that I think should be 
crystal clear to all of my colleagues here. The SNAP benefit is 
too low. If you want to talk about an unmet need, there it is. 
When I talk to food banks and food pantries, they talk about an 
uptick in utilization by people who are in need. The benefit 
doesn't last the entire month. It is too small to meet the 
nutrition and food needs of the average family. So if we want 
to talk about a reform, we ought to be talking about a benefit 
that actually meets the need.
    I would like to have a discussion about how we could put 
food banks out of business. And one of the ways to do that is 
to make sure that those who need a benefit like SNAP actually 
have an adequate benefit.
    I want to make another point, and that is that one of my 
frustrations over the last few years is that Congress has been 
so focused on trying to demonize the program and finding some 
fault with the program, even when there is no fault. In fact, 
we have passed legislation that has actually made the situation 
worse. Last year's farm bill contained a lot of good things, 
but when it came to SNAP, it cut the program. And many of us, 
especially those of us in LIHEAP states, have seen the 
detrimental effect that it has had.
    It is important for us to talk about how we could do 
better, but I don't think we should fool ourselves into 
believing that charities could pick up the slack or that 
somehow there are too many nutrition programs out there, 
therefore that is why we are not meeting the need. The fact of 
the matter is we are not meeting the need because the 
government, in my opinion, is not adequately investing and 
responding to the real need that is out there.
    So I thank the Chairwoman for giving me the time, and I 
look forward to hearing our witnesses.
    The Chairwoman. Thank you, Mr. McGovern.
    The chair would request other Members submit their opening 
statements for the record so the witnesses may begin their 
testimony and to ensure there is ample time for questions.
    The chair would like to notify Members they will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival. I appreciate Members' 
understanding.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All of the written statements will be included in the 
record.
    At this time, finally, I would like to welcome our 
witnesses to the table. Kay Brown, Director, Education, 
Workforce, and Income Security, U.S. Government Accountability 
Office; Angela Rachidi, Research Fellow, American Enterprise 
Institute; Joe Nader, Executive Chef, Ford Field, and Volunteer 
Chef for Share Our Strength's Cooking Matters; Sherry Tussler, 
Executive Director, Hunger Task Force, Milwaukee, Wisconsin.
    Ms. Brown, please begin when you are ready.

STATEMENT OF KAY E. BROWN, DIRECTOR, EDUCATION, WORKFORCE, AND 
    INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                        WASHINGTON, D.C.

    Ms. Brown. Thank you, Chairwoman Walorski, Ranking Member 
McGovern, and Members of the Subcommittee. Thank you for 
inviting me here today to discuss federally funded nutrition 
assistance programs. I will provide an overview of the programs 
and an update on the status of our 2010 recommendations on 
program overlap.
    Starting with how much the programs cost, in Fiscal Year 
2014, the Federal Government spent more than $100 billion on 18 
Federal domestic food and nutrition assistance programs. 
Program spending ranged from approximately $5 million for a 
community grant program, to more than $74 billion on SNAP. The 
five largest food assistance programs--SNAP, School Lunch, WIC, 
School Breakfast, and the Child and Adult Food Care Program--
accounted for 96 percent of total spending of the 18 programs. 
SNAP is by far the largest at more than 70 percent of the 
overall total. Four of the five are entitlement programs. WIC 
is not.
    Since we issued our report in 2010, Federal spending on 
these programs has increased by about $40 billion, primarily 
due to increased spending on SNAP in response to the economic 
crisis.
    Now, next, do they work? In 2010 we found that 
participation in seven of the 18 programs, including four of 
the five largest, was associated with positive outcomes. These 
outcomes are consistent with program goals such as raising the 
level of nutrition among low-income households, safeguarding 
the health and well-being of the nation's children, and 
strengthening the agricultural economy.
    Regarding the remaining 11 programs, we found that little 
was known about their effectiveness because they had not been 
well studied.
    So why do we have multiple programs? These 18 programs 
provide assistance through a decentralized system that involves 
multiple providers. Three Federal agencies--USDA, HHS, and 
FEMA--numerous state government agencies, and many different 
types of local providers, including county governments and 
private nonprofit organizations, all play a role.
    This decentralized network emerged piecemeal over many 
decades to address a variety of targeted needs. For example, 
WIC dates back to the 1960s when a White House conference 
recommended focusing on the nutritional needs of low-income 
pregnant women and preschool children. The Emergency Food 
Assistance Program was created to utilize excess Federal food 
inventories and assist states with storage costs while helping 
the needy.
    The advantage of having multiple programs is that they can 
help increase access to food for vulnerable populations. This 
diversity allows individuals to participate in programs that 
best meet their needs, whether it be picking up a bag of 
groceries from a food bank or completing the application 
process to receive SNAP benefits.
    However, this structure shows signs of program overlap; 
that is, multiple programs provide comparable benefits to 
similar populations but are managed separately. For example, 
six programs provide food to eligible children in settings 
outside the home, multiple programs provide food targeted to 
older adults, and several programs provide groceries and 
prepared meals to needy individuals.
    This overlap can create unnecessary work, waste 
administrative resources, and result in a potentially 
inefficient use of Federal funds. Like other social programs, 
most food assistance programs have specific and often complex 
administrative procedures that Federal, state, and local 
organizations must follow, which require staff time and 
resources.
    Now, about our recommendations: In 2010 we recommended the 
Secretary of Agriculture identify and develop methods for 
addressing potential inefficiencies among food assistance 
programs and reducing unnecessary overlap, particularly among 
the smaller programs. Although USDA has taken some steps in 
response to our study and a related study by its Inspector 
General, we believe that further action is needed. For example, 
we previously suggested that USDA convene a group that includes 
program representatives, state officials, and local providers. 
This group could develop proposals for cost-effective 
approaches to address these inefficiencies.
    In conclusion, we believe it is possible to improve the 
efficiency of the nutrition assistance structure while still 
ensuring that those who are eligible can receive the assistance 
they need.
    This concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Ms. Brown follows:]

Prepared Statement of Kay E. Brown, Director, Education, Workforce, and 
  Income Security, U.S. Government Accountability Office, Washington, 
                                  D.C.
Domestic Food Assistance_Multiple Programs Benefit Millions of 
        Americans, but Additional Action Is Needed to Address Potential 
        Overlap and Inefficiencies
GAO Highlights
    Highlights of GAO-15-606T (http://www.gao.gov/products/GAO-15-
606T), a testimony before the Subcommittee on Nutrition, Committee on 
Agriculture, House of Representatives.
Why GAO Did This Study
    The Federal Government spends billions of dollars each year on food 
and nutrition programs. USDA administers most of these programs.
    This testimony provides: (1) an overview of domestic food 
assistance programs, and (2) an update on past GAO recommendations in 
this area. It is based largely on an April 2010 report (GAO-10-346 
(http://www.gao.gov/products/GAO-10-346)) and a 2015 update on actions 
USDA has taken to address that report's recommendation. To develop the 
findings for the 2010 report, GAO analyzed program spending data and 
studies on program effectiveness, reviewed relevant Federal laws and 
regulations, interviewed relevant experts and officials, and conducted 
site visits in five states, selected for diversity in geography and 
service delivery models. For the 2015 update, GAO analyzed Federal 
spending and program participation data.
What GAO Recommends
    In April 2010, GAO recommended that the Secretary of Agriculture 
take action to address potential inefficiency and overlap among food 
assistance programs while ensuring those who are eligible receive the 
assistance they need. USDA has taken some action but has not fully 
addressed this recommendation. GAO believes more can be done in 
response to this recommendation.
    View GAO-15-606T (http://www.gao.gov/products/GAO-15-606T). For 
more information, contact Kay E. Brown at (202) 512-7215 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781a0a170f16131d381f1917561f170e56">[email&#160;protected]</a>
What GAO Found
    The Federal Government spent over $100 billion on 18 domestic food 
assistance programs in Fiscal Year 2014. Federal spending on the five 
largest food assistance programs has increased over the last 20 years, 
driven largely by increases in the Supplemental Nutrition Assistance 
Program (SNAP) following the recession of 2007-2009.
Federal Spending on the Five Largest Programs from Fiscal Year 1995 to 
        2014, Adjusted to 2014 Dollars
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: GAO analysis of U.S. Department of Agriculture (USDA) 
        data on program costs. <rm-bond> GAO-15-606T.

    Federal food assistance is provided through a decentralized system 
that involves multiple Federal, state, and local organizations. The 
complex network of 18 food assistance programs, administered by three 
Federal agencies, emerged piecemeal over several decades to meet 
various needs. In 2010, research GAO reviewed suggested that 
participation in seven of these programs was associated with positive 
outcomes, such as improving nutrition among low-income households. 
Little was known about the effectiveness of the remaining 11.
    In 2010, GAO recommended that USDA identify and develop methods for 
addressing potential inefficiencies among food assistance programs and 
reducing overlap among the smaller programs. GAO found that some 
programs provide comparable benefits to a similar population, but are 
managed separately, which is a potentially inefficient use of Federal 
funds. In 2013, USDA commissioned a study on the feasibility and 
potential cost to assess the extent of overlap and duplication among 
these programs and, based on the results, decided to study the impact 
of participation in multiple food assistance programs on the 
nutritional status of participants. While such a study will provide 
important information, it does not address GAO's recommendation. GAO 
continues to believe that further action is needed. For example, USDA 
could convene a group of experts to discuss potential inefficiencies 
and overlap, such as administrative costs across multiple agencies, and 
develop proposals to address them.

    Chairwoman Walorski, Ranking Member McGovern, and Members of the 
Subcommittee:

    Thank you for inviting me to discuss federally funded domestic food 
assistance programs. The Federal Government spends billions of dollars 
every year on food and nutrition assistance programs, which benefit 
millions of Americans. The nation's largest food assistance program--
the Supplemental Nutrition Assistance Program (SNAP)--provided more 
than $74 billion in benefits in Fiscal Year 2014 to over 46 million 
people in an average month. The U.S. Department of Agriculture (USDA) 
administers most of these programs. This testimony provides: (1) an 
overview of domestic food assistance programs, and (2) an update on the 
recommendation we made in this area.
    My testimony today is largely based on a report we issued in April 
2010 that examined domestic food assistance programs.\1\ To develop the 
findings for our 2010 report, we analyzed food security and program 
spending data, reviewed studies on program effectiveness, reviewed 
relevant Federal laws and regulations, interviewed relevant experts, 
and interviewed government officials and local food assistance 
providers from five states (California, Illinois, Maryland, Oregon, and 
Texas).The states were selected to take into account geographic 
variation and diversity in the group of local agencies providing 
program services. To identify federally funded domestic food assistance 
programs for our 2010 report, we searched the Catalog of Federal 
Domestic Assistance to identify relevant programs, obtained 
supplementary information from Federal agencies, and reviewed related 
Federal legislation. The programs selected focused primarily on 
providing food and nutrition assistance to low-income individuals and 
households. This statement also provides updated information on Federal 
spending and program participation in the 18 food assistance programs 
that we identified in our 2010 report. More details on our scope and 
methodology can be found in the issued report.
---------------------------------------------------------------------------
    \1\ GAO, Domestic Food Assistance: Complex System Benefits 
Millions, but Additional Efforts Could Address Potential Inefficiency 
and Overlap among Smaller Programs, GAO-10-346 (http://www.gao.gov/
products/GAO-10-346) (Washington, D.C.: April 15, 2010).
---------------------------------------------------------------------------
    The work this statement is based on was conducted in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
The Federal Government Spent More Than $100 Billion on 18 Food 
        Assistance Programs in Fiscal Year 2014
    The Federal Government spent more than $100 billion in Fiscal Year 
2014 on 18 domestic food and nutrition assistance programs. Programs' 
spending amounts ranged from approximately $5 million on the Community 
Food Projects Competitive Grants Program to more than $74 billion on 
SNAP (see Table 1). In our 2010 report, we found that the Federal 
Government spent approximately $62.7 billion on these programs in 
Fiscal Year 2008.

 Table 1: Federal Spending on 18 Food and Nutrition Assistance Programs
                           in Fiscal Year 2014
------------------------------------------------------------------------
                                                            Fiscal Year
              Programs and funding streams                2014  spending
                                                           (in millions)
------------------------------------------------------------------------
SNAP                                                            74,596.9
National School Lunch Program                                   11,289.7
Special Supplemental Nutrition Program for Women,                7,144.8
 Infants, and Children (WIC)
School Breakfast Program                                         3,716.1
Child and Adult Care Food Program                                3,111.9
Nutrition Assistance for Puerto Rico a                           1,902.8
Elderly Nutrition Program: Home-Delivered and Congregate           811.2
 Nutrition Services b, c
The Emergency Food Assistance Program                              635.9
Summer Food Service Program                                        464.4
Commodity Supplemental Food Program                                180.9
Fresh Fruit and Vegetable Program                                  167.7
Emergency Food and Shelter National Board Program c                120.0
Food Distribution Program on Indian Reservations                   119.1
Grants to American Indian, Alaska Native, and Native                26.2
 Hawaiian Organizations for Nutrition and Supportive
 Services c
Senior Farmers' Market Nutrition Program                            20.6
WIC Farmers' Market Nutrition Program                               19.6
Special Milk Program                                                10.7
Community Food Projects Competitive Grants Program c                 5.0
                                                         ---------------
  Total                                                        104,343.5
------------------------------------------------------------------------
Source: GAO analysis of Fiscal Year 2016 Congressional budget
  justifications for USDA's Food and Nutrition Service, USDA's National
  Institute of Food and Agriculture, HHS' Administration on Aging, and
  DHS' Federal Emergency Management Agency. <rm-bond> GAO-15-606T.
Note: Unless otherwise noted, funding amounts represent Fiscal Year 2014
  obligations.
a Total includes funding provided by the American Recovery and
  Reinvestment Act of 2009.
b The Elderly Nutrition Program total also includes funding for the
  Nutrition Services Incentive Program.
c This figure is a Fiscal Year 2014 appropriation reported by the
  agency.

    In Fiscal Year 2014, the five largest food assistance programs--
SNAP, the National School Lunch Program, the Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC), the School 
Breakfast Program, and the Child and Adult Care Food Program--accounted 
for 96 percent of total spending on the 18 programs. SNAP, the largest 
program, accounted for more than 70 percent of the overall spending 
total (see Fig. 1). The largest five food assistance programs are all 
entitlement programs--except for WIC--meaning that, by law, they must 
provide benefits to all applicants that meet eligibility requirements. 
This means that participation and benefits for these programs are not 
capped, unlike programs that are appropriated specific spending 
amounts, such as the Commodity Supplemental Food Program or the Elderly 
Nutrition Program.
Figure 1: Percentage of Food Assistance Spending by Program in Fiscal 
        Year 2014
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: GAO analysis of Fiscal Year 2016 Congressional budget 
        justifications to the relevant agencies. <rm-bond> GAO-15-606T.

    Federal spending on the food assistance programs has increased by 
about $40 billion since we issued our 2010 report, primarily due to 
increased spending on SNAP. Figure 2 shows Federal spending on the five 
largest food assistance programs over the last 20 years. Spending on 
SNAP increased substantially following the recession of 2007-2009. 
Between Fiscal Year 2007 and Fiscal Year 2013, Federal spending on SNAP 
more than doubled, due primarily to increased program participation 
following the recession. Over this time period, the number of SNAP 
participants almost doubled from about 26 million to 48 million. In 
addition, part of the growth in spending can be attributed to 
temporarily higher benefit amounts established by the American Recovery 
and Reinvestment Act of 2009 (Recovery Act).\2\ Spending on SNAP 
recently declined by about nine percent from Fiscal Year 2013 to Fiscal 
Year 2014 as the number of participants decreased and the temporary 
increase in benefits expired.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 111-5, 123 Stat. 115. The Recovery Act provided 
more than $21 billion for food assistance programs. These funds 
included a USDA estimated $20.1 billion for SNAP, in the form of 
increased benefits and state administrative expenses; $500 million for 
WIC; $100 million for equipment assistance for child nutrition 
programs; $150 million for The Emergency Food Assistance Program; $100 
million for the Emergency Food and Shelter National Board Program; and 
$100 million for the Elderly Nutrition Program and Grants to American 
Indian, Alaska Native, and Native Hawaiian Organizations for Nutrition 
and Supportive Services.
---------------------------------------------------------------------------
Figure 2: Federal Spending on the Five Largest Food Assistance Programs 
        from Fiscal Year 1995 to 2014, Adjusted to 2014 Dollars
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: GAO analysis of U.S. Department of Agriculture (USDA) 
        data on program costs. <rm-bond> GAO-15-606T.

    Federal food assistance programs provide different types of food 
benefits to address a variety of needs through a decentralized service 
delivery structure of Federal, state, and local agencies and nonprofit 
organizations. In our 2010 report, we identified 18 food assistance 
programs administered by three Federal agencies. Fifteen of the 
programs are administered by USDA, one program is administered by the 
Department of Homeland Security's (DHS) Federal Emergency Management 
Agency, and two programs are administered by the Health and Human 
Services' (HHS) Administration on Aging (see Table 2).

                                       Table 2: Selected Federal Food and Nutrition Assistance Programs, by Agency
--------------------------------------------------------------------------------------------------------------------------------------------------------
         Program                      Target population                             Benefit type                        Participation (approx.) a
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                          USDA
========================================================================================================================================================
Child and Adult Care      Children in certain nonresidential child   Reimburse local providers (child care      An average of 3.6 million children and
 Food Program              care centers, family, or group day care;   centers, adult day care centers, etc.)     adults were served daily in Fiscal Year
                           children in after school programs in low-  for meals and snacks served.               2014.
                           income areas, or residing in emergency
                           shelters; and chronically impaired
                           disabled adults and persons 60 years or
                           older in adult day care centers.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Commodity Supplemental    Low-income persons 60 years or older.      Supplemental foods, in the form of USDA    An average of 573,703 people were served
 Food Program             Low-income pregnant, postpartum, and        commodities, are provided in food          monthly in Fiscal Year 2014, including
                           breastfeeding women, infants, children     packages to individuals.                   9,996 women, infants, and children, and
                           up to age 6 who were receiving benefits                                               563,707 elderly participants.
                           as of February 6, 2014 can continue to
                           receive assistance until they are no
                           longer eligible.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Community Food Projects   Low-income individuals in participating    Matching grants made to organizations to   26 projects were funded in Fiscal Year
 Competitive Grant         communities.                               plan and implement projects to improve     2013.
 Program                                                              access of low-income community members
                                                                      to food/nutrition, increase the self-
                                                                      reliance of communities in providing for
                                                                      their own needs, and promote
                                                                      comprehensive responses to local food,
                                                                      farm, and nutrition issues.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Food Distribution         American Indian and non-Indian households  Food is provided to qualifying             An average of 85,400 participants were
 Program on Indian         that reside on a reservation and Indian    households.                                served monthly in Fiscal Year 2014.
 Reservations              households living in an otherwise
                           designated area, and recognized as
                           having inadequate income and resources.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fresh Fruit and           Elementary school children in designated   Reimburse local providers (elementary      Students in more than 7,100 schools
 Vegetable Program         schools with a high percentage of          schools) for fresh fruit and vegetable     during the 2011-2012 school year.
                           students eligible for free or reduced      snacks served free to students outside
                           priced meals.                              of breakfast or lunch periods.
--------------------------------------------------------------------------------------------------------------------------------------------------------
National School Lunch     Students from families with incomes below  Cash grants and food donations are         An average of 30.3 million students were
 Program                   130 percent of the Federal poverty level   provided to reimburse local providers      served daily in Fiscal Year 2014.
                           (or from families receiving SNAP)          (schools) for meals and snacks served.
                           qualify for free meals, and students       Schools must agree to serve free and
                           from families with incomes below 185       reduced price meals to eligible
                           percent of the Federal poverty level       children.
                           qualify for reduced price meals.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nutrition Assistance for  Needy persons residing in the              Benefits provided to households or         An average 1.35 million individuals were
 Puerto Rico               Commonwealth of Puerto Rico.               individuals for food purchase through an   served monthly in Fiscal Year 2014.
                                                                      electronic benefit transfer.
--------------------------------------------------------------------------------------------------------------------------------------------------------
School Breakfast Program  Eligible children in schools and           Reimburse local providers (schools and     An average of 13.5 million students were
                           residential child care institutions.       residential child care institutions) for   served daily in Fiscal Year 2014.
                           Children whose families meet income        breakfasts served.
                           eligibility guidelines qualify for free
                           or reduced price breakfasts.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Senior Farmers' Market    Low-income seniors.                        Benefits can be used to purchase fresh     835,795 low-income seniors were served
 Nutrition Program                                                    fruits, vegetables, and herbs at           in Fiscal Year 2013.
                                                                      authorized farmers' markets, roadside
                                                                      stands, and community supported
                                                                      agriculture programs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Special Milk Program      Children in schools, high school grade or  Formula grant, reimbursing cost of milk    3,868 schools, non-residential child
                           under, childcare institutions, and         for children in schools, camps, and        care institutions, and summer camps
                           similar nonprofit institutions that do     other programs that do not participate     participated and 49.9 million \1/2\
                           not participate in other Federal meal      in other child nutrition programs.         pints were served in Fiscal Year 2014.
                           service programs, including the National
                           School Lunch or School Breakfast
                           Programs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Summer Food Service       Children from needy areas during summer    Reimburse local providers (schools,        During July 2014, 2.63 million children
 Program                   break or when schools are closed for       government agencies, and nonprofit         participated on an average day.
                           vacation.                                  organizations) for meals and snacks
                                                                      served in programs during breaks in
                                                                      school year.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Supplemental Nutrition    Low-income households with gross income    Benefits provided to households through    An average of 46.3 million people were
 Assistance Program        at or below 130 percent of Federal         electronic debit card for food purchase    served monthly in Fiscal Year 2014.
 (SNAP)                    poverty level or net income at or below    in participating retail stores.
                           100 percent of the poverty level and
                           with limited resources.
--------------------------------------------------------------------------------------------------------------------------------------------------------
The Emergency Food        Needy individuals, such as those who may   Commodity foods are distributed through    USDA entitlement and bonus commodity
 Assistance Program        be homeless or participate in welfare      state agencies to food banks and other     foods valued at over $566 million
                           programs.                                  agencies, which provide food to local      delivered to states for distribution in
                                                                      organizations, such as soup kitchens and   Fiscal Year 2014.
                                                                      food pantries, or directly provide the
                                                                      foods to needy households.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Special Supplemental      Low-income pregnant, breastfeeding, and    Check, voucher, or electronic benefit      An average of 8.3 million women,
 Nutrition Program for     postpartum women, infants, and children    transfer benefits provided to recipients   infants, and children were served
 Women, Infants, and       to age 5 determined to be at nutritional   pay for supplemental foods, and provide    monthly in Fiscal Year 2014.
 Children (WIC)            risk.                                      nutrition education and health care
                                                                      referrals for participants. Some state
                                                                      agencies distribute WIC foods directly
                                                                      to recipients through warehouses or home
                                                                      delivery.
--------------------------------------------------------------------------------------------------------------------------------------------------------
WIC Farmers' Market       WIC participants and those on a waiting    Coupons provided for purchase of fresh     An average of 1.6 million women,
 Nutrition Program         list to receive WIC benefits (lower-       fruits and vegetables at certified         infants, and children were served in
                           income pregnant, breastfeeding, and        farmers markets.                           Fiscal Year 2013.
                           postpartum women, infants, and children
                           to age 5, who are at nutritional risk).
========================================================================================================================================================
                                                         DHS Federal Emergency Management Agency
========================================================================================================================================================
Emergency Food and        Families and individuals in need of        Funds provided to private and independent  More than 52 million meals were provided
 Shelter National Board    assistance.                                nonprofit or public organizations (such    in Fiscal Year 2014.
 Program                                                              as community action agencies, food
                                                                      banks, and food pantries) to provide
                                                                      emergency food and shelter to families
                                                                      and individuals in need of assistance.
========================================================================================================================================================
                                                               HHS Administration on Aging
========================================================================================================================================================
Elderly Nutrition         Individuals 60 years of age and older and  Supports the provision of nutritious       More than 830,000 individuals received
 Program: Home-Delivered   their spouses, especially those with the   meals (with education and other            home-delivered meals and 1.6 million
 and Congregate            greatest social or economic need, and in   services) served in a congregate setting   seniors received congregate meals in
 Nutrition Services        certain cases, under age 60 if the         or delivered to the home, if individual    Fiscal Year 2013.
                           individual is disabled and accompanies     is homebound.
                           an older individual to meals. Special
                           focus is given to those with greatest
                           economic or social need, including low-
                           income minorities and those residing in
                           rural areas.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Grants to American        American Indians, Alaska Natives, and      Grants are provided to tribal              25,192 American Indian elders received
 Indian, Alaska Native,    Native Hawaiians who are at least 60       organizations to fund services including   home-delivered meals and 52,137
 and Native Hawaiian       years old and their spouses (or those      nutrition and supportive services,         received congregate meals in Fiscal
 organizations for         designated as ``older Indian'' by tribal   similar to those in the Elderly            Year 2013.
 nutrition and             authorities).                              Nutrition Program: Home-Delivered and
 supportive services                                                  Congregate Nutrition Services.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: GAO review of agency documents <rm-bond> GAO-15-606T.
a Participation information varies by program because some programs provide benefits to individuals while others provide a service or meal.

    In 2010, research that we reviewed suggested that participation in 
seven of the programs, including four of the five largest--WIC, the 
National School Lunch Program, the School Breakfast Program, and SNAP--
was associated with positive health and nutrition outcomes. These 
outcomes are consistent with most of these programs' goals, including 
raising the level of nutrition among low-income households, 
safeguarding the health and well-being of the nation's children, 
improving the health of Americans, and strengthening the agricultural 
economy. Table 3 summarizes selected goals of these seven programs. In 
our 2010 report, we found that little was known about the effectiveness 
of the remaining 11 programs because they had not been well-studied.

  Table 3: Summary of Selected Program Goals for Seven Food Assistance
                                Programs
------------------------------------------------------------------------
            Program                Summary of selected program goals a
------------------------------------------------------------------------
WIC                              <bullet> Improve the mental and
                                  physical health of low-income
                                  pregnant, postpartum, and
                                  breastfeeding women, infants, and
                                  young children.
 
 
------------------------------------------------------------------------
National School Lunch Program    <bullet> Safeguard the health and well-
                                  being of the nation's children.
 
------------------------------------------------------------------------
School Breakfast Program         <bullet> Safeguard the health and well-
                                  being of the nation's children.
 
 
------------------------------------------------------------------------
SNAP                             <bullet> Raise the level of nutrition
                                  among low-income households.
 
 
 
 
 
------------------------------------------------------------------------
Elderly Nutrition Program: Home- <bullet> Reduce hunger and food
 Delivered and Congregate         insecurity.
 Nutrition Services
 
 
------------------------------------------------------------------------
Nutrition Assistance for Puerto  <bullet> Fund nutrition assistance
 Rico                             programs for needy people in Puerto
                                  Rico.
------------------------------------------------------------------------
Special Milk Program             <bullet> Encourage consumption of fluid
                                  milk by U.S. children in nonprofit
                                  schools, high school grade and under,
                                  that don't participate in Federal meal
                                  service programs.
 
 
 
------------------------------------------------------------------------
Source: GAO review of relevant Federal laws and discussions with agency
  officials. <rm-bond> GAO-15-606T.
a Each Federal food and nutrition assistance program has its own set of
  program goals that were generally established in legislation. Program
  goals were compiled based on our review of Federal statutes or
  discussions with agency officials. Program goals were not always
  formally identified as program goals in the statutes, and in those
  cases we analyzed language from the statutes that we determined
  closely approximated program goals. While we determined that this list
  of program goals was sufficient for purposes of this report, we do not
  consider it a comprehensive list of all of the applicable goals for
  each program.

The System of Multiple Programs and Agencies That Provide Food 
        Assistance Can Result in Overlap and Inefficiency
    As we reported in 2010, Federal food assistance is provided through 
a decentralized system that involves multiple Federal, state, and local 
providers. Three Federal agencies, numerous state government agencies, 
as well as many different types of local providers--including county 
government agencies and private nonprofit organizations--play a role in 
providing Federal food assistance through the 18 programs we reviewed. 
This decentralized network of programs emerged piecemeal over many 
decades to address a variety of targeted needs. For example, WIC dates 
back to the 1960s when a White House Conference recommended that 
special attention be given to the nutritional needs of low-income 
pregnant women and preschool children. The Emergency Food Assistance 
Program was created to utilize excess Federal food inventories and 
assist states with storage costs while helping the needy, and the 
Emergency Food and Shelter National Board Program was established to 
provide assistance to the homeless.
    During our 2010 review, agency officials and local providers told 
us that the multiple food assistance programs help to increase access 
to food for vulnerable populations. Specifically, some officials and 
providers told us that the diversity of food assistance programs can 
help ensure that individuals in need of assistance have access to at 
least one program. For example, some individuals may prefer to pick up 
a bag of groceries from a food bank rather than complete the 
application process to receive SNAP benefits. Individuals in rural 
areas may find it easier to receive food assistance through commodities 
from the Commodity Supplemental Food Program or other programs, as a 
lack of local grocery stores can make it difficult to use SNAP 
benefits. In addition, the availability of multiple programs within a 
community can also increase the likelihood that eligible individuals 
seeking benefits from one program will be referred to other appropriate 
programs.
    However, the Federal food assistance structure--with its 18 
programs--shows signs of program overlap, which can create unnecessary 
work and waste administrative resources, resulting in inefficiency. We 
found that some food assistance programs provide comparable benefits to 
a similar population, but are managed separately, which could be a 
potentially inefficient use of Federal funds. Specifically, we found 
that:

  <bullet> Six programs--the National School Lunch Program, the School 
        Breakfast Program, the Fresh Fruit and Vegetable Program, the 
        Summer Food Service Program, the Special Milk Program, and the 
        Child and Adult Care Food Program--all provide food to eligible 
        children in settings outside the home, such as at school, day 
        care, or summer day camps.

  <bullet> The Commodity Supplemental Food Program and the Elderly 
        Nutrition Program target older Americans.

  <bullet> Individuals eligible for groceries through the Commodity 
        Supplemental Food Program are generally eligible for groceries 
        through the Emergency Food Assistance Program and for SNAP.

  <bullet> The Federal Emergency Management Agency's Emergency Food and 
        Shelter National Board Program and USDA's Emergency Food 
        Assistance Program both provide groceries and prepared meals to 
        needy individuals through local government and nonprofit 
        entities.

  <bullet> The Summer Food Service Program is similar to the Summer 
        Seamless Option of the National School Lunch Program.

    We have previously concluded that program overlap--having multiple 
programs provide comparable benefits to similar target populations--is 
an inefficient use of Federal funds.\3\ Like other social service 
programs, most food assistance programs have specific and often complex 
administrative procedures that Federal, state, and local organizations 
follow to help manage each program's resources and provide assistance. 
Government agencies and local organizations dedicate staff time and 
resources to separately manage the programs even when a number of the 
programs are providing comparable benefits to similar groups and could 
potentially be consolidated. Previous GAO work indicates that combining 
programs could reduce administrative expenses by eliminating 
duplicative efforts, such as eligibility determination and data 
reporting.\4\ Such actions could improve efficiency and save 
administrative dollars, but could also make it more difficult to 
achieve the goals of targeting service to specific populations.
---------------------------------------------------------------------------
    \3\ GAO/HEHS-95-139 (http://www.gao.gov/products/GAO/HEHS-95-139).
    \4\ See GAO, Food Assistance: USDA's Multiprogram Approach, GAO/
RCED-94-33 (http://www.gao.gov/products/GAO/RCED-94-33) (Washington, 
D.C.: Nov. 24, 1993).
---------------------------------------------------------------------------
    In 2010, we recommended the Secretary of Agriculture identify and 
develop methods for addressing potential inefficiencies among food 
assistance programs and reducing unnecessary overlap among the smaller 
programs while ensuring that those who are eligible receive the 
assistance they need. More recently, the USDA Office of Inspector 
General determined that USDA's Food and Nutrition Service (FNS), which 
administers USDA's domestic food assistance programs, could potentially 
achieve cost savings by taking actions to eliminate duplication and 
overlap in its nutrition assistance programs.\5\ The Office of 
Inspector General recommended that FNS document the requirements for 
conducting a study to determine the extent of overlap and duplication 
in its programs and determine whether additional funding is necessary 
to complete this work.
---------------------------------------------------------------------------
    \5\ For more information, see: USDA Office of Inspector General, 
Overlap and Duplication in Food and Nutrition Service's Nutrition 
Programs, Audit Report 27001-0001-10 (June 2013).
---------------------------------------------------------------------------
    USDA partially addressed our recommendation by commissioning a 
study in 2013 on the feasibility and potential cost to assess the 
extent of overlap and duplication among all nutrition assistance 
programs administered by USDA. This study concluded that collecting 
information specifically targeting overlaps with smaller programs would 
not be cost-effective. As a result, USDA decided to focus on the 
nutritional impacts of overlap among the six largest programs: the 
Supplemental Nutrition Assistance Program, the National School Lunch 
Program, the Special Supplemental Nutrition Program for Women, Infants, 
and Children, the School Breakfast Program, the Child and Adult Care 
Food Program, and the Summer Food Service Program. The research 
proposed in the feasibility study will examine the impact of 
participation in multiple food assistance programs on the nutritional 
status of participants. While we agree such a study will provide 
important information, it does not address our recommendation. We 
believe that further action is needed to identify cost-effective 
approaches to address potential inefficiencies and unnecessary overlap 
among domestic food assistance programs. For example, we continue to 
believe that it would be beneficial for USDA to convene a group of 
experts (consistent with the Federal Advisory Committee Act) that 
includes representatives of the food assistance programs, state 
representatives, and local providers to discuss potential 
inefficiencies and overlap among the programs and develop proposals to 
address them. We believe that over time, such an effort could achieve 
cost savings.
    In conclusion, the Federal Government spends billions of dollars 
every year to support a food assistance structure that benefits 
millions of Americans, but there are signs of potential overlap and 
inefficiency among its programs. While research indicates that the 
largest programs have positive outcomes consistent with their program 
goals, limited research on most of the smaller programs makes it 
difficult to determine whether these are filling an important gap or 
whether they are unnecessarily duplicating functions and services of 
other programs. To ensure the most efficient use of resources, it will 
be important for Federal agencies to explore cost-effective approaches 
for addressing potential inefficiencies and unnecessary overlap and 
duplication among all of the nation's food assistance programs.
    Chairwoman Walorski, Ranking Member McGovern, and Members of the 
Subcommittee, this concludes my statement. I would be happy to answer 
any questions you might have.
GAO Contact and Staff Acknowledgements
    If you or your staff have any questions about this testimony, 
please contact me at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9efcecf1e9f0f5fbdef9fff1b0f9f1e8b0">[email&#160;protected]</a> Contact points 
for our Offices of Congressional Relations and Public Affairs may be 
found on the last page of this statement. GAO staff who made key 
contributions to this testimony include Kathy Larin, Assistant 
Director; James Bennett, Julianne Hartman Cutts, Andrea Dawson, Alex 
Galuten, Kirsten Lauber, Rhiannon Patterson, Cathy Roark, and Kate van 
Gelder.

    The Chairwoman. Thank you, Ms. Brown.
    Dr. Rachidi, you may begin your testimony.

        STATEMENT OF ANGELA K. RACHIDI, Ph.D., RESEARCH
         FELLOW IN POVERTY STUDIES, AMERICAN ENTERPRISE
                  INSTITUTE, WASHINGTON, D.C.

    Dr. Rachidi. Thank you, Chairwoman Walorski, Ranking Member 
McGovern, and other Members of the Subcommittee. Thank you for 
the opportunity to testify this afternoon on government 
duplication and unmet needs in Federal food assistance 
programs.
    My name is Angela Rachidi, and I am currently a Research 
Fellow in poverty studies at the American Enterprise Institute, 
or AEI. I recently joined AEI after spending almost a decade 
working for the New York City Human Resources Administration, 
or HRA, the past 6 of which I served as the Deputy Commissioner 
for Policy Research and Evaluation.
    HRA is New York City's main social service agency and 
administers the Supplemental Nutrition Assistance Program, 
SNAP, and Emergency Food Program, along with other income 
support programs.
    My comments today draw from this experience and focus on 
concerns about duplication, inefficiencies, and burdens that 
are created by the complexity of our food assistance programs.
    The main points I will make are: first, duplication and 
inefficiencies do exist in these programs as they are currently 
administered. The decentralized nature of the current system 
means that knowledge about families is lost, and families are 
ultimately hurt because the system is not set up to treat them 
holistically and government dollars are wasted.
    Before I address these specific points, however, I want to 
emphasize that the Federal Government's food assistance 
programs are an important part of our nation's safety net, and 
research shows that they do improve the health and nutrition of 
low-income families and provide very important needed support. 
However, given the large investments in food assistance 
programs at the Federal level, finding ways to increase 
efficiencies is critical.
    As I said, first there are inefficiencies built into the 
current system. In New York City, food assistance programs are 
administered by different agencies, and the result is that each 
agency must determine eligibility and administer benefits 
separately. This means that the process can happen more than 
one time, depending on how many programs a family participates 
in.
    And not only is this duplication inefficient from a 
government perspective, but it also affects these families. A 
sizeable number of households with low food security 
participate in more than one food assistance program, which can 
be unnecessarily burdensome on them when programs are not 
coordinated.
    Some coordination across programs already exists, such as 
with categorical eligibility. However, I urge caution on some 
of these efforts as a recent GAO report on the School Meals 
Program found that errors are common. The interest in reducing 
the burden must be balanced with the need for quality control 
and program integrity.
    In addition to eligibility determination, there are three 
other areas where coordination or consolidation may be 
appropriate, including setting nutrition standards, approving 
and monitoring retailers, and nutrition education programming.
    At the Federal level, different nutrition guidelines and 
standards exist for different programs. Consolidating efforts 
around setting and monitoring nutrition guidelines should be 
explored. Approving and monitoring retailers in SNAP and the 
WIC Program also operate out of different levels of government. 
The extent to which this duplication creates inefficiency 
should also be explored more, and areas for consolidation 
should be identified.
    Nutrition education programming is another area that 
deserves attention. In New York City two agencies provide very 
similar nutrition education programs to very similar 
populations, one through HRA, and the other through the 
Department of Health. Consolidating these efforts could also 
reduce administrative inefficiencies.
    A fragmented system also means that information is lost, 
information about how the families are being served as well as 
the nutritional programs themselves. Government agencies tend 
to operate in a silo, and this was true in New York City, which 
means information is not shared with families about other 
programs. An uncoordinated system also makes it more difficult 
to share information on participating households, which 
increases the opportunity for error, fraud, and abuse.
    A better system would be to consolidate programs that share 
the same goals and coordinate programs across governing bodies 
with a focus on the person and the household. This will save 
the government money and reduce the burden on participating 
families. I provided three specific examples where coordination 
could be beneficial--setting nutrition guidelines, authorizing 
retailers, and administering nutrition education programs--as 
well as reducing the inefficiencies in eligibility 
determination that I described earlier.
    The extent to which we can limit the burden on staff and on 
families by better consolidating and coordinating food 
assistance programs, the better these families will be served 
and the better the government's money will be spent.
    Thank you, and I can respond to any questions that you may 
have.
    [The prepared statement of Dr. Rachidi follows:]

  Prepared Statement of Angela K. Rachidi, Ph.D., Research Fellow in 
   Poverty Studies, American Enterprise Institute, Washington, D.C.*
---------------------------------------------------------------------------
    * The views expressed in this testimony are those of the author 
alone and do not necessarily represent those of the American Enterprise 
Institute.
---------------------------------------------------------------------------
Federal Food Assistance Programs: Better Coordination Will Help 
        Households and Save Government Dollars
    Chairwoman Walorski, Ranking Member McGovern, and other Members of 
the Subcommittee, thank you for the opportunity to testify this 
afternoon on government duplication and unmet needs in Federal food 
assistance programs.
    My name is Angela Rachidi and I am currently a Research Fellow in 
poverty studies at the American Enterprise Institute (AEI). I recently 
joined AEI after spending almost a decade working for the New York City 
Human Resources Administration or HRA, the past 6 of which I served as 
the Deputy Commissioner for Policy Research and Evaluation. HRA is New 
York City's main social service agency and administers the Supplemental 
Nutrition Assistance Program (SNAP) and emergency food program, along 
with other income support programs.
    During my time at HRA, I conducted numerous studies of SNAP and how 
it affected New York City households. I have extensive knowledge of the 
broader context of food assistance programs and the interrelation with 
SNAP. My comments today draw from this experience and focus on concerns 
about duplication, inefficiencies, and burdens that are created by the 
complexity of our nation's food assistance programs.
    The main points I will make are: (1) duplication and inefficiency 
do exist in these programs as they are currently administered, (2) the 
decentralized nature of the current system means that knowledge about 
how to help families with their food needs is lost, and (3) families 
are ultimately hurt because the system is not set up to treat them 
holistically and likely requires more government dollars to administer 
than is necessary.
    Before I address these specific points, I want to emphasize that 
the Federal Government's food assistance programs are an important part 
of our nation's safety net. Research shows that these programs improve 
the health and nutrition of low-income families and provide needed 
resources to many households.\1\ Spending on food assistance programs 
has grown substantially over the past 3 decades, most dramatically in 
the past several years, in absolute terms as well as relative to other 
means-tested programs. The figure below shows that spending on food and 
nutrition assistance has grown 78 percent in the past 10 years, while 
the earned income tax credit increased 46 percent, and SSI increased 23 
percent. While this growth is projected to slow, spending is not 
expected to return to prior levels.
---------------------------------------------------------------------------
    \1\ See the GAO Domestic Food Assistance Report, April 2010, http:/
/www.gao.gov/assets/310/303151.pdf.
---------------------------------------------------------------------------
Federal Spending on Food and Nutrition Assistance Compared to Other 
        Means-Tested Programs: FY 1976-2020 (estimated)
In Constant Dollars (2009$)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Office of Management and Budget, Budget Historical 
        Tables, Table 8.6--Outlays for Mandatory and Related Programs 
        in Constant (FY 2009) Dollars: 1962-2020.

    The costs in this figure reflect benefit costs, but a report by the 
USDA's Economic Research Service in 2008 analyzed administrative costs 
for SNAP (then the Food Stamp Program), WIC, and the School Lunch 
program and compared them to other means-tested programs. It found that 
administrative costs for SNAP were 15.8 per each benefit dollar 
administered, close to 20 per dollar administered for WIC, and 2 to 
14 for the school lunch program.\2\ In addition, a study by Julian 
Alston with the University of California-Davis found that six percent 
of the USDA's SNAP budget was spent on administration in 2009, while 28 
percent of Federal spending on WIC was for administration (Alston, J., 
2011).\3\ With administrative costs shared by states, this spending did 
not include the state and local contribution. Alston also found that 
the Federal Government's share of administrative costs for child 
nutrition programs in 2009 was $173 million. This highlights the 
significant investment by the Federal Government in administering food 
assistance programs.
---------------------------------------------------------------------------
    \2\ See ERS Report, The Cost of Benefit Delivery in the Food Stamp 
Program, a Cross-program Analysis, http://www.brookings.edu//media/
research/files/reports/2008/3/food-stamp-isaacs/
03_food_stamp_isaacs.pdf.
    \3\ https://www.aei.org/wp-content/uploads/2012/04/-us-food-and-
nutrition-programs-costs-effectiveness-and-impact-on-
obesity_092514480719.pdf.
---------------------------------------------------------------------------
    Given the large investment in food assistance programs at the 
Federal level, finding ways to increase efficiencies is critical. 
Consolidating and better coordinating programs to save on 
administrative costs and serve households more effectively is an 
important area for examination. With that, I make the following key 
points.
    First, there are inefficiencies built into the current system for 
both the government and the families served by them. In New York City, 
SNAP, WIC, school food programs, and child and adult care programs are 
all administered by different agencies and the result is that each 
agency must determine eligibility and administer benefits separately. 
The GAO report on this topic from 2010 indicated that New York City was 
not unique in this way. For SNAP and many of the other programs, 
determining eligibility requires staff to accept and process 
information from applying households, enter this information into data 
systems, conduct interviews with clients, and make a determination 
about eligibility. The way the current system is structured, this 
process can happen more than one time depending on how many programs 
the household participates in.
    Not only is duplication inefficient from a government perspective, 
but it also affects families. According to the 2010 GAO report on this 
topic, almost 40 percent of households with low food security that 
participated in one of the three largest Federal food assistance 
programs, participated in more than one. Not only does duplication in 
determining eligibility mean more administrative staff, but the effort 
that is required of families can be unnecessarily burdensome.
    Because these programs are often operated by different agencies 
with different oversight, the data systems involved are also different. 
This creates complexities around data sharing for administrative 
purposes and makes reporting similar outcomes across programs more 
difficult. Better coordination would also mean better data and reduced 
burden on administrative agencies for reporting.
    Some coordination across programs already exists. For example, in 
New York City data sharing between administering agencies results in 
automatic enrollment of SNAP student recipients into the school lunch 
program. And a universal breakfast program (partially funded by the 
City) takes care of duplication between that program and others. 
Categorical eligibility efforts such as these, which is when 
participation in one food program satisfies income eligibility 
requirements for another program, reduces some of the administrative 
burden associated with a decentralized system. However, I would urge 
caution on some of these categorical eligibility efforts. A recent GAO 
report on the school meals program found that errors are common. In an 
unrepresentative sample of 25 approved applications for the school 
meals program, six indicated categorical eligibility but the GAO found 
that two were not eligible at all and one was not eligible for free 
lunch, but possibly reduced lunch.\4\ The interest in reducing burden 
must be balanced with the need for quality control and program 
integrity.
---------------------------------------------------------------------------
    \4\ http://www.gao.gov/assets/680/670078.pdf.
---------------------------------------------------------------------------
    In addition to eligibility determination, there are three other 
areas where coordination or consolidation may be appropriate, including 
setting nutrition standards, approving and monitoring retailers, and 
nutrition education programming.
    At the Federal level, different nutrition guidelines and standards 
exist for different programs. For example, there are few restrictions 
on what can be purchased with SNAP benefits, but WIC and the National 
School Lunch Program have stricter guidelines on what can be purchased 
and administered. This sends very different messages about nutrition 
and its role in Federal food assistance programs. Consolidating efforts 
around setting and monitoring nutrition guidelines should be explored.
    Approving and monitoring retailers in SNAP and the WIC program is 
another area where coordination could result in efficiencies. SNAP 
retailers are approved and monitored at the Federal level, whereas WIC 
retailers are authorized at the state level. The extent to which this 
duplication creates inefficiencies should be explored and areas for 
consolidation should be identified.
    Nutrition education programming is another area where consolidation 
might increase efficiencies. In New York City, the Department of Social 
Services (HRA) administers SNAP-Ed, the nutrition education program 
funded through SNAP, with oversight from New York State. These 
nutrition education efforts are provided to students in some New York 
City Schools, as well as other settings. The City's Health Department 
also provides nutrition education for New York City school children 
through programs such as the Child and Adult Care Program. The result 
is two agencies providing very similar nutrition education programs to 
very similar populations. Consolidating these efforts could result in 
administrative efficiencies.
    The second point I would like to make is related to the information 
that is lost due to a fragmented system--information about the families 
as well as the nutritional programs themselves. Government agencies 
tend to operate in a silo, and this was true in New York City. In New 
York, eligibility workers in SNAP offices have very little knowledge of 
the programs operated outside of their agency. This means that 
information about WIC, school lunch and breakfast programs, as well as 
the less visible programs, often are not shared with SNAP applicants or 
recipients. This is not efficient for families and it increases the 
chance that they will not access benefits they are eligible for.
    In addition, an uncoordinated system makes it more difficult to 
share information on participating households, which increases the 
opportunity for errors, fraud, and abuse. For example, if different 
incomes are reported by a household across programs, whether in error 
or with fraud in mind, an uncoordinated system is not set up well to 
detect these errors.
    A better system would be to consolidate programs that share the 
same goals and coordinate programs across one or two governing bodies, 
with a focus on the person or household. This will save the government 
money and reduce the burden on participating families. It may also 
improve service delivery to families by ensuring that they are made 
aware of all the benefits they are eligible for, as well as limiting 
the chance for errors, fraud, and abuse. I provided three specific 
examples where coordination could be beneficial--setting nutrition 
guidelines, authorizing retailers, and administering nutrition 
education programs--and reducing inefficiencies in eligibility 
determination should also be explored.
    The extent to which we can limit the burden on staff and on 
families by better consolidating and coordinating food assistance 
programs, the better these families will be served and the better the 
government's money will be spent.
    Thank you and I can respond to any questions that you may have.

    The Chairwoman. Thank you, Dr. Rachidi.
    Mr. Nader, you may proceed with your testimony.

        STATEMENT OF JOSEPH NADER, EXECUTIVE CHEF, LEVY
   RESTAURANTS AND DETROIT LIONS; VOLUNTEER CHEF, SHARE OUR 
            STRENGTH'S COOKING MATTERS, DETROIT, MI

    Mr. Nader. Thank you. Good afternoon, Chairwoman Walorski, 
Ranking Member McGovern, and Members of the Committee. I would 
like to thank you for the opportunity to share my experience 
and views on the importance of the Supplemental Nutrition 
Assistance Program, or what my family used to call food stamps.
    I am the Executive Chef for Levy Restaurants and the 
National Football League's Detroit Lions. I am also a Volunteer 
Chef with Cooking Matters, a program that teaches nutrition 
education and basic cooking skills to low-income families in 
the Detroit area. Cooking Matters works as a public-private 
partnership, leveraging both SNAP-Ed funds to community 
organizations and private funding from companies like Wal-Mart.
    As a child, there were many times when things got tough for 
my family, as it did for many in the Detroit area in and around 
the auto industry in the 1970s and 1980s. There is nothing more 
vital to the success of a child than proper nutrition. During 
these tough times we would rely on support from programs like 
food stamps, free school lunch, and the like. It wasn't always 
a long-term need, but there were times that support was needed 
for a brief period.
    I feel very strongly that success in my life and my career 
is directly correlated with the fact that I had nutrition 
assistance early in my life. I experienced firsthand how SNAP 
and the School Lunch Program worked together to make sure I had 
the healthy food I needed both at home and at school.
    One of the biggest misconceptions about SNAP is that 
families are on it for life. It is most often a temporary 
lifeline, as it was for my family. Families on SNAP are 
presented with very hard decisions when balancing budgets, from 
rent, to child care, and basic needs such as nutrition.
    While I received free school lunch, my school didn't offer 
school breakfast. This made SNAP even more important to my 
family. I saw many of my friends who were coming to school 
hungry get stigmatized and labeled as having behavioral 
problems which may have been alleviated by a daily nutritious 
breakfast and lunch. We now have research that supports what 
happened in my classroom. A study by Share Our Strength and 
Deloitte found that students who eat school breakfasts score up 
to 17.5 percent higher on math tests, miss fewer days of 
school, and are more likely to graduate.
    I have also personally experienced the stigma of being from 
a low-income family. Childhood hunger and food insecurity 
crosses many demographics and socioeconomic areas. It is urban, 
suburb, and rural. Hunger is the face of many Americans.
    As I look back, I realize the fact that my family had the 
cooking skills in place to stretch the few dollars that we did 
have for the food, and we were able to maximize our SNAP 
benefits. This was a driving force for me getting personally 
involved in helping others today. I discovered Share our 
Strength's Cooking Matters program operating through Gleaners 
Community Food Bank in Detroit about 3 years ago. I was 
delighted to see such a program that teaches low-income 
families nutrition education and basic cooking skills. It made 
me think of how many of my friends' families growing up could 
have benefited and subsequently maximized their very modest 
food budgets. They could have been empowered to shop smarter 
and cook healthier on tighter budgets.
    I am very fortunate to work for Levy Restaurants and the 
Detroit Lions as they are both very active in our communities 
and support the work that I do, providing nutrition education 
to make sure families are able to maximize their benefits. We 
all believe that nothing is more important to child development 
than proper access to food and nutrition. We realize that SNAP 
is an effective way to give parents the power to feed their 
families when times get tough.
    In Cooking Matters I see families who get SNAP and school 
breakfasts. Parents tell me SNAP works effectively when it 
works in tandem with other programs, like school meals. School 
breakfast ensures that kids can start their day with a healthy 
meal to fuel their brains and help them focus on their lessons 
rather than a growling stomach. This allows these parents to 
stretch their existing food budgets and SNAP dollars longer 
into the month instead of running out.
    In this nation, we have enough food, I believe. It is 
unacceptable that any child in this great nation could go 
hungry. When I was a kid this program allowed me to get the 
nutrition I needed to grow up and be a success. We need to 
continue to invest in our kids and America's future.
    This is a matter of potential. When I look at a child who 
is struggling with hunger, I see a potential future doctor, I 
see a potential computer programmer, I see a potential future 
chef of the Detroit Lions, I see a stronger workforce and a 
stronger America. But in order for that to happen, we must 
ensure our children are fed. SNAP can help these kids grow up 
to achieve these dreams.
    For all these reasons I am here to urge you to protect SNAP 
funding as it is an effective way to give parents the power to 
feed their families when times get tough. I have lived this 
personally, and I see it every day in my work in the Detroit 
community.
    Thank you all so much for your time and attention to this 
very important issue. Thank you for the opportunity to come 
here today and speak and tell my story. And I welcome any 
questions.
    [The prepared statement of Mr. Nader follows:]

 Prepared Statement of Joseph Nader, Executive Chef, Levy Restaurants 
    and Detroit Lions; Volunteer Chef, Share Our Strength's Cooking
                          Matters, Detroit, MI
    Good afternoon. Chairwoman Walorski, Ranking Member McGovern, and 
Members of the Committee. I would like to thank you for the opportunity 
to share my experience and views on the importance of the Supplemental 
Nutrition Assistance Program, or what my family used to call ``food 
stamps.'' I am the Executive Chef for Levy Restaurants and The National 
Football League's Detroit Lions. I am also a volunteer Chef with 
Cooking Matters, a program that teaches nutrition education and basic 
cooking skills to low-income families in the Detroit area. Cooking 
Matters works as a public-private partnership, leveraging both SNAP-Ed 
funds to community organizations and private funding from companies 
like Wal-Mart.
    As a child, there were times when things got very tough for my 
family, as it did for many families that worked in and around the auto 
industry in Detroit in the 1970's and 1980's. There is nothing more 
vital to the success of a child than proper nutrition. During these 
tough times, we would rely on support from programs like food stamps, 
free school lunch and the like. It wasn't always a long term need, but 
there were many times that support was needed, for a brief period. I 
feel very strongly that my success in life and my career is directly 
correlated with the fact that I had nutrition assistance early in my 
life. I experienced firsthand how SNAP and the school lunch program 
worked together to make sure I had the healthy food I needed both at 
home and at school.
    I think one of the biggest misconceptions about SNAP is that 
families are on it for life. It is most often a temporary lifeline, as 
it was for my family. Families on SNAP are presented with very hard 
decisions when balancing budgets from rent to child care and basic 
needs such as nutrition.
    While I received free school lunch, my school didn't offer school 
breakfast. This made SNAP even more important to my family. I saw many 
of my friends who were coming to school hungry get stigmatized and 
labeled as having behavioral problems, which may be been alleviated by 
daily, nutritious breakfast and lunch. We now have research that 
supports what happened in my classroom. A study by Share Our Strength 
and Deloitte found that students who eat school breakfast score up to 
17.5 percent higher on math tests, miss fewer days of school, and are 
more likely to graduate.\1\
---------------------------------------------------------------------------
    \1\ Deloitte and Share Our Strength. ``Ending Childhood Hunger: A 
Social Impact Analysis.'' 2013.
---------------------------------------------------------------------------
    I have also personally experienced the stigmatization of being from 
a low-income family. Childhood hunger, and food insecurity crosses many 
demographics and socioeconomic areas. It is urban, suburban and rural . 
. . hunger is the face of many Americans.
    As I look back, I realize the fact that my family had the cooking 
skills in place to stretch the few dollars that we had for food and 
were able to maximize our SNAP benefits. This was a driving force for 
getting personally involved in helping others today. I discovered Share 
our Strength's Cooking Matters program, operating at Gleaners Community 
Food Bank in Detroit, about 3 years ago. I was delighted to see a 
program that teaches low income families nutrition education and basic 
cooking skills. It made me think of how many of my friends' families 
growing up could have benefited, and subsequently maximized their very 
modest food budgets. They could have been empowered to shop smarter and 
cook healthier meals on tight budgets.
    Cooking Matters ensures that families have the knowledge to use 
their SNAP dollars efficiently. After taking the course, families are 
more likely to buy whole grains and more fruits and vegetables.\2\
---------------------------------------------------------------------------
    \2\ Altarum Institute. ``Cooking Matters at the Store Evaluation.'' 
2013.
---------------------------------------------------------------------------
    I am very fortunate to work for Levy Restaurants and The Detroit 
Lions. They both are very active in our communities, and support the 
work that I do as part of Cooking Matters. We all believe that nothing 
is more important to child development than proper access to food and 
nutrition. We realize that SNAP is an effective way to give parents the 
power to feed their families when times get tough.
    In Cooking Matters, I see families who get SNAP and school 
breakfast. Parents tell me SNAP works effectively when it works in 
tandem with other programs, like school meals because the SNAP benefits 
are simply not enough to feed a family for an entire month. To end 
childhood hunger in this nation, we need to ensure that children are 
successfully getting three healthy meals each day. School breakfast 
ensures that kids can start their days with a healthy meal to fuel 
their brains and help them focus on their lessons, rather than on a 
growling stomach. This allows these parents to stretch their SNAP 
dollars longer into the month instead of running out. This way, even 
when budgets are extremely tight, kids are getting the healthy food 
they need where they live and where they learn. In effect, these 
programs become different rungs on the ladder of economic mobility for 
children.
    This is a matter of potential. When I look at a child who's 
struggling with hunger, I see a potential future doctor. I see a 
potential future computer coder. I see a potential future chef of the 
Detroit Lions. But in order for that to happen, we must ensure our 
children are fed. SNAP can help these kids grow up to achieve these 
dreams.
    I have taught many Cooking Matters courses throughout the last 3 
years. I have seen the tears and the smiles on children's faces 
throughout the 6 week program. I have seen them get so excited to learn 
nutrition and cooking skills, and to share this information with their 
families. I have heard them tell me how much the program has changed 
their lives, and how they now make healthy decisions. I have also been 
delighted to have many of the kids tell me that after the Cooking 
Matters program they would like to go to culinary school and become 
chefs! Nutrition education alone can't solve the hunger crisis in 
America. We need to have strong programs like SNAP, WIC, and school 
meals to support families when they are going through hard times and 
nutrition education to make sure they are able to maximize those 
benefits.
    For all of these reasons, I'm here to urge you to protect SNAP 
funding, as it is an effective way to give parents the power to feed 
their families when times get tough. I have lived this personally, and 
see it every day in my work in the Detroit community.
    SNAP matters . . . Cooking Matters . . . Children Matter!
    Thank you all so much for your time and attention to this very 
important issue.

    The Chairwoman. Thank you, Mr. Nader.
    Ms. Tussler, please proceed with your testimony.

 STATEMENT OF SHERRIE TUSSLER, EXECUTIVE DIRECTOR, HUNGER TASK 
                      FORCE, MILWAUKEE, WI

    Ms. Tussler. Thank you for inviting me to testify today. I 
am Sherrie Tussler. For the past 17 years I have been employed 
as the Executive Director of Hunger Task Force in Milwaukee, 
Wisconsin. Our anti-hunger public policy organization operates 
a food bank, a farm, and a self-service welfare office. We 
administer the Emergency Food Assistance Program, the Commodity 
Supplemental Food Program, the Emergency Food and Shelter 
Program, and the Supplemental Nutrition Assistance Education 
and Outreach Programs. We also organize a nationally recognized 
summer meals collaboration.
    I know most of the Federal nutrition programs very well, 
and I serve as an issue expert on the Federal Commodity and 
Funding Programs, as well as SNAP and the Summer Food Service 
Program in my home state. I understand how the Federal 
nutrition programs are supposed to work and how they actually 
work. I work directly with children, adults, and seniors in 
need of the programs and who, in fact, rely upon them to meet 
their very basic needs.
    I have grown accustomed to explaining the reach and the 
limits of the Federal nutrition assistance programs. I have 
convinced donors to substantially backfill these programs what 
these programs don't provide. And although I laud the intent of 
most of the programs, I also see their limits as an 
embarrassment to the government and the people. I surely 
believe that there is enough food, healthy food, in the United 
States to feed every single one of its citizens.
    I know that you have concerns that the Federal nutrition 
programs are duplicative. You want to save tax dollars and 
create efficiencies. But what I see is a patchwork of 
underfunded programs layered around the shortfalls of SNAP and 
the National School Lunch Program. And while these programs 
serve certain populations well, they also fall short of their 
intent due to limits of funding or regulation.
    For instance, the Commodity Supplemental Food Program is 
over-regulated and so influenced by its budget that its program 
intent is regularly distorted. It mandates what seniors can 
eat, but its budget doesn't match the mandates. As a result, 
seniors get food that they can't or do not want to eat.
    The Child and Adult Care Food Care Program doesn't allow 
youth 13 and older to have supper, while the Summer Food 
Service Program will, but only if they hadn't had lunch. This 
is a cost-savings measure that leaves older siblings of younger 
children without food in after school programs.
    Although we know the value of fresh foods in our diet, 
commodity foods aren't fresh. The foods doled our to food 
banks, school meal programs, and seniors are canned, boxed, and 
bagged as a cost-savings measure. Milk is instantized, and 
chicken leg quarters come in 20 pound bags.
    SNAP is under a great deal of scrutiny for serving able-
bodied adults. Do we really need to explain why able-bodied 
adults need food? There are lawmakers in my state who would 
invest the very tax dollars they seek to save in illegal and 
costly drug testing, photo identification for SNAP, and current 
work requirements will result in a loss of food-buying power 
under SNAP for up to 3 years for 67,000 people in Wisconsin 
alone.
    Somehow we have determined that punishing people with 
hunger will motivate them towards work. Hunger doesn't 
motivate. It dulls and it makes people sick.
    As you consider these programs, remember that all children 
should be fed when they are in our care and it is mealtime. 
Teenagers are children. They equally merit a healthy diet. 
Home-delivered boxes of food for seniors should include food 
they can and should eat. If we can't fulfill this promise, we 
should provide seniors with SNAP benefits sufficient to be 
healthy. In my opinion, the balance between agricultural price 
supports and the intent of the Federal commodity programs is 
tipped in favor of food producers and must be rebalanced.
    What works? SNAP. SNAP is the one program that makes the 
most sense to me. It supplies food-buying power that stimulates 
our economy. It normalizes and humanizes how people get food 
when they need help. SNAP is not dictatorial. It lets you shop 
for food you prefer, and its limits are practical. SNAP is not 
bound by age or who it can serve. Unlike all of the other 
Federal nutrition programs, SNAP doesn't make you the victim of 
over-regulation.
    What else works? The Community Eligibility Provision. It 
creates dignified access to all children for school meals.
    Your concern for program duplication should be balanced 
with the knowledge that the Federal nutrition programs do not 
meet the need. Funding for these programs is wholly inadequate, 
and the evidence of this is the billions of dollars that 
private sector plows into buoying their shortfalls. Food banks, 
soup kitchens, homeless shelters, and food pantries feed 
millions of hungry Americans shorted by these programs.
    And no matter how reputable, food banks are a scourge on 
our nation's reputation. We should put them out of business 
because the grocery store is where food comes from and the most 
dignified way to get it is to buy it with your wages. The day 
we no longer need food banks is the day that we end hunger in 
America, and I believe that together we can.
    Thank you.
    [The prepared statement of Ms. Tussler follows:]

Prepared Statement of Sherrie Tussler, Executive Director, Hunger Task 
                          Force, Milwaukee, WI
    Thank you for inviting me to testify today.
    I am Sherrie Tussler.
    For the past 17 years, I have been employed as the Executive 
Director of Hunger Task Force in Milwaukee, Wisconsin. Our anti-hunger 
public policy organization operates a food bank, a farm and a self-
service welfare office. We administer The Emergency Food Assistance 
Program, the Commodity Supplemental Food Program, the Emergency Food 
and Shelter Program, and the Supplemental Nutrition Assistance 
Education and Outreach programs. We also organize a nationally-
recognized summer meals collaboration.
    I know most of the Federal nutrition programs well and serve as an 
issue expert on these Federal commodity and funding programs, as well 
as SNAP and the Summer Food Service Program in my home state. I 
understand how the Federal nutrition programs are supposed to work and 
how they actually work. I work directly with children, adults and 
seniors in need of the programs, who, in fact, rely upon them to meet 
their basic needs.
    I have grown accustomed to explaining the reach and limits of the 
Federal nutrition assistance programs. I have convinced donors to 
substantially backfill what these programs don't provide. And although 
I laude the intent of most of these programs, I also see their limits 
as an embarrassment to government and the People. Surely, I believe 
that there is enough healthy food in the United States to feed every 
one of its citizens.
    I know that you have concern that the Federal nutrition programs 
are duplicative. You want to save tax dollars and create efficiencies. 
What I see is a patchwork of underfunded programs layered around the 
shortfalls of SNAP and the National School Lunch Program. And while 
these programs serve certain populations well, they also fall short of 
their intent due to limits of funding or regulation.
    For instance, the Commodity Supplemental Food Program is over-
regulated and so influenced by its budget, that its program intent is 
regularly distorted. It mandates what seniors can eat, but its budget 
doesn't match the mandates. As a result, seniors get foods they can't 
eat or may not want.
    The Child and Adult Care Food Program doesn't allow youth 13 and 
older to have supper while the Summer Food Service Program will--but 
only if they haven't had lunch. This is a cost savings measure that 
leaves the older siblings of younger children without food in after 
school programs.
    Although we all know the value of fresh foods in our diet, 
commodity foods are not fresh. The foods doled out to food banks, 
school meal programs and seniors are canned, boxed and bagged as a cost 
savings measure. Milk is instantized and chicken leg quarters come in 
20 pound bags.
    SNAP is under a great deal of scrutiny for serving able-bodied 
adults. Do we really need to explain why able-bodied adults without 
children need food? There are lawmakers in my state who would invest 
the very tax dollars they seek to save in illegal and costly drug 
testing and photo identification for people using SNAP. Current work 
requirements will result in loss of food buying power under SNAP for up 
to 3 years for 67,000 people in Wisconsin alone.
    Somehow we have determined that punishing people with hunger will 
motivate them towards employment.
    Hunger doesn't motivate. It dulls and makes people sick.
    As you consider these programs remember that all children should be 
fed when they are in our care and it is meal time. Teenagers are 
children. They equally merit a healthy diet.
    Home-delivered boxes of food for seniors should include food they 
can and should eat.
    If we can't fulfill this promise, we should provide seniors with 
SNAP benefits sufficient to be healthy. In my opinion, the balance 
between agricultural price supports and the intent of Federal commodity 
programs has tipped in favor of food producers and must be rebalanced.
    What works? SNAP.
    SNAP is the one program that makes the most sense to me. It 
supplies food buying power that stimulates our economy. It normalizes 
and humanizes how people get food when they need help. SNAP is non-
dictatorial--it lets you shop for the food you prefer and its limits 
are practical. SNAP is not bound by age or whom it can serve. Unlike 
all of the other Federal programs, SNAP doesn't make you the victim of 
over-regulation.
    What else works? The Community Eligibility Provision. It creates 
dignified access to all children for school meals.
    What doesn't work? The Federal Emergency Management Agency's 
administration of the Emergency Food and Shelter Program. Does anyone 
know or care that they skipped an entire year of funding emergency 
programs? Their management of this program is tragic.
    Your concern for program duplication should be balanced with the 
knowledge that the Federal nutrition programs do not meet the need.
    Funding for these programs is wholly inadequate. The evidence of 
this is the billions of dollars that the private sector plows into 
buoying their shortfalls.
    Food banks, soup kitchens, homeless shelters and food pantries feed 
millions of hungry Americans shorted by these programs. And no matter 
how reputable, food banks are a scourge on our nation's reputation. We 
should put them out of business because the grocery store is where food 
comes from, and the most dignified way to get the food is to buy it 
with your wages.
    The day we no longer need food banks is the day we end hunger in 
America. Together we can.
    I welcome your questions and am happy to share more information as 
requested.

    The Chairwoman. Thank you, Ms. Tussler.
    Thank you for all your testimony. We appreciate it. Now we 
move to the question portion.
    A consistent theme throughout the testimony of our panel 
has been the potential for greater administrative efficiency. 
So within the United States and the example of New York City, 
we have heard there are various agencies administering 
nutrition programs to similar populations. This is not only 
confusing for the states and localities trying to administer 
these programs, but for recipients who are trying to piece 
together different forms of nutrition assistance to feed their 
families.
    The question first to Ms. Brown: Can we improve 
administrative efficiency without sacrificing program 
integrity? And the second question: Is it a direct trade-off, a 
zero-sum game?
    Ms. Brown. There was just a report that was released 
recently about the School Meals Program that shed some light on 
that where it was determined that when children in the School 
Meals Program are automatically made eligible because of their 
participation in the SNAP program, that the likelihood of error 
in their eligibility is much smaller. So, in fact, by sharing 
eligibility across those programs, they have decreased the 
likelihood of error in that program. So there are some real 
possibilities that we can do better even right now.
    I do want to say, though, that there is kind of a 
cautionary tale here, and that is that sometimes when we have 
those automatic eligibility provisions we end up with 
unintended consequences that might result in certain program 
participants receiving benefits when that may not have been the 
intent of Congress. So we have to kind of keep an eye on that 
if we are going to do those automatic eligibilities.
    The Chairwoman. Yes.
    And, Dr. Rachidi, do you have any suggestions on how to 
improve administrative efficiency while maintaining the 
integrity of the individual program?
    Dr. Rachidi. Sure. I actually think that you can achieve 
both goals, and I would recommend more data sharing. Ms. Brown 
just talked about the data sharing where you have direct 
certification using SNAP data for the School Lunch Program. 
Areas in the other programs where that type of a model can be 
used would be very beneficial.
    And also in terms of program integrity, data sharing can 
also be used to a greater extent to ensure program integrity, 
accessing databases at the Federal level, allowing local 
agencies to access databases at the Federal level to verify 
income. Things like that can all not only help with 
administrative efficiencies, but can also increase program 
integrity.
    The Chairwoman. When you were in New York City, were there 
any Federal barriers while you were operating in that state you 
could look at and say this is something that should be tweaked 
or could be tweaked or could be helpful in barriers that you 
identified?
    Dr. Rachidi. Sure. And, again, this was at the city level, 
but in terms of the data sharing again, accessing Federal 
databases, I am not sure of the particular reasons behind not 
accessing some of those data systems, like Social Security 
Income data, for example, wasn't accessible, and that would 
save a lot of administrative effort trying to track down income 
if that database was available to local agencies. So that was 
one particular example.
    The other is, there is an opportunity now that technology 
has made a lot of progress in revisiting some of the 
regulations among the USDA in relation to SNAP and how using 
technology maybe can fit better with those regulations.
    For example, one thing in New York City, we were moving to 
online applications for SNAP, which involved a telephone 
interview of recipients. And one initial problem was that 
recipients had to have a scheduled interview. It did not allow 
recipients to just call the agency at their convenience. New 
York City did apply for a waiver, and I believe now they have 
gotten that to allow recipients to do that, but that was one 
sort of road block that was at the Federal level that created 
some problems.
    The Chairwoman. I appreciate it.
    And, Ms. Brown, one other question. As we look at this 
whole concept of streamlining the administrative programs, can 
we do that, is there a way to do that without literally bumping 
into the statutes that Congress created?
    Ms. Brown. There are some things that can be done without 
bumping into the statutes, but it is very possible that there 
might need to be some consideration of some changes. For 
example, even some laws and regulations specify who must do the 
eligibility determination. For example, with SNAP it needs to 
be a state employee.
    So there are things like that that might have to be 
reconsidered if we were really going to look at this more 
holistically and think about some bigger changes.
    The Chairwoman. I appreciate it. Thank you.
    The chair recognizes Ranking Member McGovern, for 5 
minutes.
    Mr. McGovern. Thank you very much.
    Ms. Brown, do you consider categorical eligibility a step 
toward efficiency and making the process more effective?
    Ms. Brown. Yes. What we have seen in a number of different 
cases is that categorical eligibility, particularly when it is 
directly certified program to program, can be a major step 
toward efficiency and also have positive benefits toward 
program integrity.
    Mr. McGovern. I think that is an interesting point, because 
the whole concept of categorical eligibility was introduced 
basically to do what I think everybody here wants, to make 
these programs more user friendly and more effective and 
efficient. And all of a sudden now it has become unpopular 
because people who are eligible are getting enrolled in the 
program, and everybody is saying: Oh, my goodness, we didn't 
want that to happen. But the fact of the matter is that 
efficiency and effectiveness means that people who are eligible 
should be able to take advantage of the benefits of these 
programs.
    We talk about effectiveness and efficiency and duplication 
and all that kind of stuff. Does anyone here believe that the 
current SNAP benefit is adequate for a family to be able to pay 
for the groceries they need for an entire month?
    Ms. Tussler. If I could?
    Mr. McGovern. Yes.
    Ms. Tussler. In the State of Wisconsin the average SNAP 
benefit is not adequate. I know that the Supplemental Nutrition 
Assistance Program is supposed to be supplemental, but one of 
the reasons why there may be duplication in services, a senior, 
for instance, receiving $14 in SNAP and simultaneously 
receiving a Commodity Supplemental food box valued at $50 who 
has less than $100 in additional income to spend after rent and 
utilities are paid.
    So, no, SNAP is not adequate to meet people's basic needs, 
and that is why you see what you think is program duplication 
and what I think is a safety net.
    Mr. McGovern. And I am happy to yield to Dr. Rachidi.
    But what I am seeing in Massachusetts is that people are 
looking for alternative programs to basically supplement their 
Supplemental Nutrition Assistance Program because they can't 
make it through the month. And I am just curious, if we 
provided an adequate benefit, does that help alleviate some of 
the problem?
    Dr. Rachidi. If I may. I do believe that the SNAP benefit 
is adequate for a large number of households that participate. 
For a family of four it is $650 a month. That is the maximum 
benefit.
    We did a study in New York City where we looked at benefit 
redemption patterns over the month, and we found that the 
majority of families actually did not spend down their benefit 
levels early in the month and they had benefits left over at 
the end of the month.
    Mr. McGovern. You are the first person who has ever told me 
that.
    Dr. Rachidi. Not all families, but the majority.
    Mr. McGovern. Yes. You are the first person who has ever 
told me that. The people that I meet with regularly and the 
people who I see at food banks are not there because they want 
to be at food banks, it is because they have run out of money. 
I think your perspective on this is certainly different than my 
experience.
    Dr. Rachidi. I don't disagree with you. There are a number 
of families that cannot make it through the month, and they do 
have to participate and they do have to go to a food pantry. 
What I am saying is when you look on the whole, for most of the 
families it is adequate. We looked at administrative data and 
we have been able to confirm that.
    Mr. McGovern. Well, I respectfully disagree with you on 
that.
    Ms. Tussler, can you tell us about the LIHEAP provision 
that was in the farm bill last year? Have you seen an impact on 
any of the people you serve?
    Ms. Tussler. Yes. Seniors and people with disabilities were 
unduly affected. Most of them were living in subsidized housing 
or apartments that had heat included in the rent. And although 
the state said that we would lose on average $24 per senior per 
month in SNAP buying benefits, what we actually saw was $90 to 
$100. And so we are now seeing seniors giving up their 
apartments and trying to live with family members, becoming 
homeless, because they don't have enough money for food at the 
end of the month.
    Mr. McGovern. So seniors have lost $90 to $100 in their 
benefit?
    Ms. Tussler. Yes. I have an example of a lady named Molly 
who is 76, and she receives $898 a month in Social Security. 
Her rent is $500 a month in subsidized housing with heat 
included. Her medical expenses and hygiene, other products, 
leave her with $100 in excess income after the end of the 
month. After she lost her standard household utility allowance 
under the recent farm bill, her SNAP benefit was cut from $90 
to $16.
    Mr. McGovern. I hardly believe that that is an adequate 
benefit for somebody to live on.
    Ms. Tussler. Sixteen dollars a month.
    Mr. McGovern. Thank you. Thank you.
    The Chairwoman. The chair recognizes Mrs. Hartzler, for 5 
minutes.
    Mrs. Hartzler. Thank you, Madam Chairman.
    First, I just wanted to commend, well, all of you, but 
certainly Mr. Nader on your program. Your story was wonderful. 
I am a former family consumer sciences teacher. They used to 
call us home economics teacher. But what I did was a lot like 
what you are doing now, is teaching nutrition education to 
family, how to budget, how to stretch those dollars. So just 
keep up the great work there. And I will give a shameless plug 
for family consumer science education out there as well, 
because it is important in our high schools.
    I had a question for Ms. Brown. I guess I would like to 
start with you. So in the last few years we have seen a near 
complete coverage of free breakfasts and snacks in low-income 
schools in addition to lunch, and we have seen growth in 
weekend backpacks of food. And I can tell you, in my district, 
there are so many wonderful communities and people who are 
helping with that. And now we are seeing an expansion of dinner 
at school.
    So I guess just on an administrative viewpoint, how does 
this impact the family's SNAP benefit if the child is receiving 
nearly all of his or her meals at school?
    Ms. Brown. Well, two points. One, a family's SNAP benefit 
would not be adjusted depending on whether they were getting 
other school meal benefits. Those School Meal Program benefits 
are intended to complement the SNAP benefits and not cause a 
reduction.
    The other point is that, I mentioned in my statement that 
USDA has taken some action, and one of the things that they are 
planning to do is conduct a study that looks across the larger 
food assistance programs and see what participation in multiple 
programs, what effect that has on the nutritional intake of 
different families. So we will be very interested to see the 
results of that.
    Mrs. Hartzler. When do you think that will happen?
    Ms. Brown. I don't think they have started it yet, and I 
suspect it is going to be a pretty challenging project.
    Mrs. Hartzler. Sure. So that would include WIC as well. So, 
like, would a mother and child under 5 receive WIC? Is there 
any interaction with the household SNAP benefits?
    Ms. Brown. Again, our understanding is that none of the 
food assistance programs are intended to fill all of the 
nutritional needs of a family, so it would not be inconceivable 
for a family to receive SNAP and then, if they had very young 
children and school-aged children, also receive WIC and school 
meals.
    Mrs. Hartzler. Okay. Great. You mentioned in your testimony 
that the SNAP is achieving seven of the ten goals of SNAP, and 
I was just interested in what those are. Do you have what those 
ten are and could share what the ten goals of SNAP are?
    Ms. Brown. Seven of ten goals?
    Mrs. Hartzler. Yes.
    Ms. Brown. What I said was that seven of the 18 programs 
were found to be effective and SNAP was one of them.
    Mrs. Hartzler. You talked about goals of making sure that 
children were fed and things like that. So I was curious what 
are the goals of SNAP?
    Ms. Brown. Well, the goals of SNAP are related very much to 
providing families with income so that they can improve their 
nutritional intake, and that is one of the things that we know 
that the program is actually achieving.
    Mrs. Hartzler. Okay. If you could get back to me later on 
what the specific goals are, that would be helpful to me. I 
just think that would be very helpful.
    And one more question here. So as far as the funding of the 
programs, there is no spending limit, per se, in each program, 
right? If someone is entitled to it, there are no caps.
    Ms. Brown. Congresswoman, the goals for SNAP are on page 8 
of my written statement.
    Right. The top programs are all entitlements with the 
exception of WIC, which is not an entitlement but has been in 
the past several years able to meet the demand for those 
benefits.
    Mrs. Hartzler. I am sorry. I was reading here. You might 
have just said. My final question is, so if there is no limit 
on any of them, why is SNAP the only one with the economic 
times that has seen the large increase?
    Ms. Brown. Well, the graphic in my statement made it look 
like SNAP had a huge growth and the other programs didn't. The 
other programs also experienced some growth as well, but SNAP 
is intended to traditionally respond to changes in the economy. 
So when the economy goes down, SNAP participation goes up. So 
that wasn't a surprise. And in addition to that, the benefit 
level for SNAP was increased under the Recovery Act, which made 
the increase in the program spending that much bigger.
    Mrs. Hartzler. Okay. Thank you. I yield back.
    The Chairwoman. The chair recognizes Congressman Ashford, 
for 5 minutes.
    Mr. Ashford. Thank you.
    If I might ask Ms. Tussler a little bit about Wisconsin. We 
have tried to in Nebraska do some things to expedite and be 
more efficient in the application process for SNAP. And I know, 
maybe you touched on this, but in Wisconsin you have done some 
things that have been very innovative and successful on the 
delivery itself. Am I correct? Could you go over some of those 
for me?
    Ms. Tussler. Sure. Wisconsin modernized its food stamp 
application process because we weren't timely. We were 
routinely getting fined from the Federal Government. And what 
we did was we created an online application both for Food 
Share, as well as now Medicaid, and people can go online, they 
can apply.
    In response to Dr. Rachidi's comments, they can have a 
telephonic interview. The interview lasts about 6 to 7 minutes. 
They can have a telephonic signature, which is a voice 
recording of them saying that they testified to the veracity of 
their claims.
    They can submit verification of their application, proof 
that they pay rent, proof of what their income is, proof of 
everything--I always say it is proof of anything you say yes 
to--via a scan or a faxed document.
    And so you no longer have to go to the welfare office in 
order to apply for Food Share or SNAP. We call it Food Share in 
Wisconsin. And you can, as a result, have a more dignified 
access to the program. It can make better sense for you because 
it is online 24 hours. And for a lot of seniors, it has been 
welcome, because they were often frightened to go to the 
locations that the welfare office was in Milwaukee.
    Mr. Ashford. And so do you have some data then on how that 
has worked across the system? With elderly recipients it has 
been a good thing. Has it also been the same for younger 
recipients? Or how has it worked with all elements?
    Ms. Tussler. Well, it improved program enrollment, program 
integrity, program operations in general. We reached the point 
in Wisconsin where we were actually getting bonus funding on a 
regular basis, and so we turned it around, in effect.
    And I know a lot of groups struggle with modernization. I 
think it still has places that it can go, including 
verification, because oftentimes we are chasing down some piece 
of paper that proves how much money we made or that we have a 
child in the house when, indeed, the state already knows that 
about you.
    So I think that there can be connections between state 
databases and food stamp applications that would further 
improve program integrity and help customers verify, as well as 
reduce the costs of operating a food stamp program.
    Mr. Ashford. That is interesting. There was testimony 
earlier, and we have had testimony previously, about the need 
for more collaboration and data sharing. Just logically it 
would seem to me that that kind of process would lead to more 
data sharing once you get people used to the process. Is that--
--
    Ms. Tussler. Yes, and it changes how people apply and who 
they apply with. You are still applying with a government-level 
employee, but they are processing more data, as opposed to 
being a social worker. And so there is a lot less time spent 
face to face working with people and trying to consider their 
circumstances. Maybe there is a loss of other opportunities to 
talk to people about why they are in poverty or how they could 
get jobs. But the reality is that it expedites the process. It 
reduces the taxpayer burden on the administration of the 
program.
    Mr. Ashford. And then going back to evaluate how it has 
worked or is working, that process it seems to me would also be 
helpful in that regard, correct? If we are doing research on 
the effectiveness of the program and how it could be changed or 
altered, this process would be a way to do that or a way to get 
into that data?
    Ms. Tussler. Yes, I absolutely agree.
    Mr. Ashford. Thank you.
    I yield back. Thank you.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Benishek, for 5 minutes.
    Mr. Benishek. Thank you very much, Madam Chairman.
    Mr. Nader, good to see you again. Thank you for coming here 
to D.C. to talk about your personal experiences.
    One of the questions that I have, and maybe you can tell me 
a little about it, I want to ask some of the other folks too, 
it seems to me that there maybe should be a more holistic 
approach to how we help people. I am not sure, is it possible 
that you can have one contact and get all the benefits that you 
are eligible with one encounter?
    And the other thing I want to commend you for, and I think 
that many of our local nonprofits really assist people a lot in 
that area in job training and food assistance. And can you tell 
me about your experience and what you do a little bit more, and 
if you can relate to my thought here?
    Mr. Nader. Sure. I mean, with the Cooking Matters program 
in general, it is a 6 week long program where we are taking the 
folks or the kids through, it is about 2 hours, 6 weeks, so 
once a week. And it is general nutrition and basic cooking 
skills, and then it is capped off by a store tour. For us in 
Detroit, we have had a lot of need. The economy has been rough 
in particular there, as it has everywhere.
    But the store tour for me too is a really important piece 
of that. The whole educational piece in general is essential to 
the success of any of these type of programs. Unfortunately, it 
is not really my expertise to speak to why people are in that 
position, however, I am on the front lines of that in Detroit. 
I am experiencing many folks that don't have those basic 
skills.
    Mr. Benishek. Can you tell me a little bit about this? Is 
it a food wasteland or an inability to find food in your 
neighborhood?
    Mr. Nader. A food desert.
    Mr. Benishek. A food desert, yes. Tell me about that a 
little bit.
    Mr. Nader. In my community there are many areas in and 
around that we have land areas that there aren't stores 
available, or if they are, they are like bodegas or like what 
we call in Michigan party stores. And they have very limited 
food available that is in those, or folks don't have access to 
a proper grocery store or food access in general. That pretty 
much speaks to that.
    Mr. Benishek. All right. Thanks.
    Ms. Tussler, you heard my questioning here. I am trying to 
think there has to be a better way of doing this. And you said 
that as well.
    Ms. Tussler. Yes.
    Mr. Benishek. Is there a way for someone to apply for all 
these benefits at one time? That doesn't sound like it exists. 
That is why I mentioned the nonprofits because sometimes these 
local nonprofits, they can reach out to a lot of different 
local sources and help people negotiate the morass of 
bureaucracy.
    Ms. Tussler. Sure. And they often do. The Ohio Benefits 
Bank model is a model where nonprofits will sit down and talk 
to you about all the things you could be eligible for, and they 
will give you a printout. But, sadly, you still have to run to 
all those places and try to apply for those benefits. So they 
are not coordinated at the state level.
    Mr. Benishek. Yes. That is where I think that we could be 
helpful maybe here in our job.
    Ms. Tussler. You could.
    Mr. Benishek. And I think that one of the, hopefully, the 
results of these hearings, is that we can streamline the 
process and make it easier for people to find out what they are 
eligible for and make it easy.
    What about Mr. Nader's comment about the, what is it, the 
food wasteland?
    Ms. Tussler. Food desert.
    Mr. Benishek. Food desert. Do you have experience with 
that? Because I worry about people being able to access food 
and not having to go to the party store and ending up with a TV 
dinner or something.
    Ms. Tussler. Right. There are food deserts throughout the 
country. In Milwaukee we have them as well. And people have to 
travel large distances in order to be able to access healthy or 
fresh foods at sort of the big box grocery store instead of the 
smaller store. And it is about land availability and landmass 
and sort of a perception with large retail grocers that those 
people don't have any money to spend on anything.
    Mr. Benishek. It seems to me that most people that are in 
this situation, or a lot of them, don't have access to a 
vehicle where they can just drive to a grocery store.
    Ms. Tussler. And oftentimes public transportation doesn't 
go where they live.
    Mr. Benishek. All right. Well, that is an issue that we 
should kind of investigate as well, don't you think?
    Ms. Tussler. Yes. But very quickly, I used to run a 
homeless shelter in 1988 in Milwaukee, and we used to send 
people to the welfare office, and they could apply for TANF--
AFDC back then--food stamps, and Medicaid. And they would walk 
out knowing what their benefits would be. They would walk out 
with paper emergency coupons. They would walk out with health 
insurance for their children. We took that apart.
    Mr. Benishek. All right. Thank you. I am out of time.
    The Chairwoman. Thank you.
    The chair recognizes Congresswoman DelBene.
    Ms. DelBene. Thank you, Madam Chairman.
    And I would like to thank all of you for being here with us 
today. I really appreciate you taking the time.
    Ms. Tussler, you talked a little about that you also have a 
farm, and I was interested in what you grow and how you use 
that to supplement the food that you distribute to food 
pantries or to people who are coming seeking help.
    Ms. Tussler. Sure. Milwaukee is primarily an urban 
community, but there was a work farm that was operated by our 
house of corrections, and we took that farm over when it was 
closed. It is a 208 acre farm. It is a vegetable farm, and so 
it grows 27 different varieties of fruits and vegetables. Those 
are planted by volunteers and along with some of our staff 
farmers and harvested later in the fall and delivered to our 
emergency food pantry network absolutely free of charge. And we 
do that because TEFAP doesn't provide us with any fresh or 
wholesome foods.
    Ms. DelBene. And do you know others who are doing things 
like that to try to supplement and provide fresh fruits and 
vegetables?
    Ms. Tussler. It is challenging because the food bank 
network nationwide relies on unsalable or less than wholesome 
foods that are donated by large corporations or large store 
chains. And instead of doing that, what we do is grow our own 
food, which we think is a more wholesome and sort of more 
agricultural and Wisconsin-based approach to meeting the need.
    Ms. DelBene. And so are you able to get that out quickly 
and get it distributed quickly?
    Ms. Tussler. Sometimes on the same day.
    Ms. DelBene. Are there challenges that you face in trying 
to do this and make sure you have the availability of fresh 
vegetables?
    Ms. Tussler. Well, we have the fresh fruit and vegetables 
from April through November, and then in the winter months we 
don't have a lot going on and we are back to the canned and 
stable products that TEFAP offers.
    Ms. DelBene. Also, you alluded to this a little bit 
earlier. Ms. Brown had identified in her testimony that two 
programs that overlap in who may participate are SNAP and the 
Commodity Supplemental Food Program. And all low-income seniors 
are eligible for SNAP, while CSFP is only available to a 
limited number of seniors because of the cap on funding.
    And I know you work with both programs, and so I wondered 
if you can comment if you think that CSFP is duplicative or 
redundant with SNAP and why it is important that we make sure 
that seniors have access to both programs.
    Ms. Tussler. Well, clearly a senior in Milwaukee could 
receive both CSFP and SNAP. Our experience, however, is that 
the SNAP benefit is at $14 and rarely goes above $90 based on 
the person's medical experiences and asset tests. But the CSFP 
program is going to provide them with a $50 box of canned and 
stable products.
    And so SNAP comes in and allows them to purchase in a very 
modest way anything that they might want that would be fresh, 
any meat or dairy, any kind of cheeses, any vegetables or 
fruit, frankly, because there are just going to be two cans of 
fruit and four cans of vegetables in the CSFP box.
    Ms. DelBene. Or things that maybe personally were 
unappealing, as you were referring to earlier too.
    Ms. Tussler. Yes. Canned beef stew. They get one can of 
canned beef stew or one can of beef in juices. Powdered milk is 
not a favorite of most people. And sometimes they are given 
foods that they can't eat, like grapefruit juice.
    Ms. DelBene. Thank you. Thank you very much.
    Mr. Nader, what do you think is the most effective method 
of reaching SNAP households through nutrition education that 
you found in your experience so far?
    Mr. Nader. Honestly, the Cooking Matters program I can 
attest is working well. It is a very structured, formatted 
program, and we take them through each step of the way, and at 
the end of that 6 weeks I feel like they have come a long way 
from where they started to be able to make the wise choices and 
be able to empower themselves to shop accordingly.
    Ms. DelBene. And if we kind of turned that around, what do 
you think are the greatest challenges, or what things would you 
like to be able to do differently that you think would help 
make it more effective?
    Mr. Nader. I would say if we could access more folks. It is 
all volunteer based. I am out there on the front lines. Each 
class is usually someone from the nutrition field, say a 
volunteer registered dietician, and then a chef. So we are 
constantly struggling to get proper volunteers. And then once 
we have that in place, I am out there making sure we get the 
folks out there to teach the classes, but then getting people 
aware. So I guess awareness would be the answer.
    Ms. DelBene. Thank you very much. I yield back. Thank you, 
Madam Chairman.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Gibbs, for 5 minutes.
    Mr. Gibbs. Thank you, Madam Chairman.
    Thank you all of the witnesses coming in, and especially 
Mr. Nader, to hear your story and your continued work to help 
people. That is admirable, and it actually helps the program 
because you get more credibility into the whole program and the 
system.
    And I know the Ranking Member in his opening comments 
talked about protecting SNAP funding, and the best way to 
protect it is to make sure that it isn't being abused. Because, 
I forget which network did it, but sometime last year there was 
an expose about a surfer out in California living on food 
stamps and eating lobster and everything else.
    Obviously things happen. But when my constituents see that, 
then they get upset, and that doesn't help people that need the 
help. So we want to make sure that people that actually do need 
the help, make sure they get that help.
    Dr. Rachidi, I guess Ms. Brown had a little bit in her 
testimony, but your main points, you talk about the duplication 
and inefficiency that exists in these programs as they are 
currently administered. ``The decentralized nature of the 
current system means that knowledge about how to help families 
with food needs is lost, and families are ultimately hurt 
because the system is not set up to treat them holistically and 
likely requires more government dollars to administer than is 
necessary.''
    And you go in your next paragraph in your written 
testimony, you talk about how in the last 10 years nutrition 
assistant has grown 78 percent, while the Earned Income Tax 
Credit increased 46 percent and the SSI increased 23 percent. 
And then you say that you don't expect a return down to prior 
levels.
    We, obviously, from 2008, 2009, went through the Great 
Recession, I guess they call it, and a lot of people lost their 
jobs. And I want you to respond, what is happening, why did we 
see such a rise, almost twofold, versus the other assistance 
programs, and now we see unemployment coming down.
    In my area I have employers begging for workers and can't 
find them. Might be kind of the energy side has kind of been 
driving some of that. But can you maybe elaborate a little bit 
on what is happening? We should be seeing food stamp costs 
coming down if the economy is actually improving.
    Go ahead.
    Dr. Rachidi. Right. I expect it will come down, but as I 
mentioned in my testimony, probably not to prior levels. And 
there are a couple major reasons for that.
    One is just changes that happened to the program around 
2008 with the farm bill and other changes. One is the 
elimination of the asset test in most states, so there is an 
asset test where you can only have, I believe it is $2,000 in 
assets. That has been eliminated in most states. In New York we 
attribute much of the increase that we saw after 2008 to the 
economy and to the elimination of that asset test.
    The other key component is the categorical eligibility for 
TANF, which is up to 200 percent of poverty. States have used 
that to then enroll families into SNAP because they are 
categorically eligible for SNAP if they are receiving TANF.
    So I would say those are probably the two main things.
    The third is the ABAWD elimination of the work requirement 
during the downturn in the economy, but as the economy improves 
that should be reinstated in most places.
    Mr. Gibbs. Let me ask you a question on that, because Ohio 
had that program, and the Governor in certain areas where the 
unemployment dropped rescinded that program, but kept in it 
certain pockets. Is that correct, how that functions?
    Dr. Rachidi. Yes, yes.
    Mr. Gibbs. Okay. Just another question for you, because you 
mentioned that a family of four gets $650 a month for SNAP.
    Dr. Rachidi. If they have no other income, yes.
    Mr. Gibbs. If they have no other income.
    They already had the discussion a little bit, during the 
school year if their dependents are going to school and get 
breakfast and lunch, that is additional, there is no factoring 
in, like when summer hits, there is no change in that.
    There should be some more coordination between not just 
that, but just all the other benefits that are available to put 
this together in a package. And would that help with the 
duplication and efficiencies? That is a no-brainer. But would 
you have suggestions how that could happen, say, at a county 
level or a local level to help get the coordination of benefits 
so it works better?
    Dr. Rachidi. Sure. I think data sharing, I mentioned that 
before, but that is key, and just sharing data across programs. 
In New York it is difficult because WIC is operated out of the 
Department of Health and SNAP is operated out of the Department 
of Social Services, so there is not a whole lot of opportunity 
for coordination there.
    If there was an opportunity to share more data across 
programs and also potentially share workers so that workers 
were familiar with both programs and that when they saw a 
family they could talk about both programs, that doesn't happen 
currently in New York City and I don't think we are unique in 
the country. I don't think that probably happens in a lot of 
places.
    So that is just one example, that if that could be 
achieved, that would save on administrative costs definitely 
because you are reducing the amount of workers and the amount 
of time they have to spend with families, but it is also just 
helping the families because they can be treated more 
holistically.
    The Chairwoman. If the gentleman would pause. To be fair, 
the clock was not running for about a minute and so I am going 
to have to, now that you are on the clock----
    Mr. Gibbs. Oh, that is fine. I yield back.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Aguilar.
    Mr. Aguilar. Thank you. Thank you, Chairwoman Walorski and 
Ranking Member McGovern.
    And thank you to the witnesses for joining us.
    As we know, food insecurity is a critical issue throughout 
this nation, which is why SNAP plays a crucial role in 
connecting families with accessibility to healthy and 
nutritious foods.
    Before I ask a question, and I may only get to one, I 
wanted to first take a few moments and talk about recently I 
went through the SNAP challenge with my wife. Alisha and I 
completed it a few weeks ago, following in the spirit of Ms. 
DelBene and Ranking Member McGovern. My wife Alisha and I in 
the district lived on $4.73 a day, which is the average amount 
for an adult CalFresh SNAP recipient. We chose to do that to 
learn more about the 30,000 families in my district who 
experience food insecurity every day and to raise awareness for 
hunger and nutrition.
    We started by going to the store on Sunday and used the $66 
amount in food to get us through the entire week. We understand 
that SNAP is meant to be supplemental, as Ms. Tussler 
mentioned, but for many families SNAP makes up the majority of 
their food budget, so we felt it important to try to live on 
just the SNAP budget. As we shopped, we were conscious of our 
budget and the balance between what was healthy and what was 
affordable, and for us that put a premium on planning, 21 meals 
at one time.
    I did this challenge for 1 week but for tens of thousands 
of families in my district and thousands of families throughout 
this country they struggle to make that budget and to plan 
their meals and they struggle with food insecurity every day. 
Oftentimes, they are working multiple jobs and they are 
pressured to choose between what is nutritious and affordable. 
And even then they still go to bed hungry or wake up hungry 
without an end in sight.
    I shared my experience with my constituents on Facebook and 
social media, and the local newspaper ran columns each day 
about my experiences. A few of the biggest concerns I found 
throughout this challenge focused in two areas. One was the 
concentration of families who may qualify for SNAP that are 
unaware that it is available to them, as some of the panelists 
have mentioned. And the second was communication between 
government and recipients so that families understand their 
food options and have an opportunity to better plan those 
healthy meals.
    In the city of San Bernardino that I represent 37 percent 
of the population relies on SNAP to help put food on their 
table. I am sure that number is pretty close to what Mr. Nader 
sees in Detroit and other communities around this country. 
These families deserve access to healthy food planning for 
their households. For example, seeds can be purchased with SNAP 
funding, something I am sure many recipients are not aware of.
    So here is my question, and I would like to hear from Mr. 
Nader and Ms. Tussler. Given the large enrollment gap we see in 
districts like mine, what types of resources can Congress and 
anti-hunger organizations provide to help alleviate food 
insecurity in communities with people living below the poverty 
line, but who have not applied for SNAP assistance? How can we 
help those families overcome that stigma or that barrier to 
register for SNAP?
    Ms. Tussler. States are eligible to apply for SNAP outreach 
funding. And typically those resources go to outreach to 
vulnerable populations, seniors who don't know that they are 
eligible for the program, lots of people who think that maybe 
it is a program for somebody else for whatever reason, limited 
English proficient, elderly, blind, and disabled folk. And most 
of those programs are operated by nonprofits who are in touch 
with specific populations and can provide culturally competent 
services in languages other than English.
    Mr. Aguilar. Does every state apply for that outreach 
funding?
    Ms. Tussler. Not every state does.
    Mr. Aguilar. Thank you.
    Mr. Nader.
    Mr. Nader. Thank you.
    I don't rely deal with that end of the----
    Mr. Aguilar. Sure. Just the general stigma associated with 
it. I mean, you see families every day.
    Mr. Nader. Sure. I have experienced that personally as 
well. I alluded earlier to the part of the Cooking Matters 
program where we take them to the store to shop, and Ms. 
Tussler also alluded to that earlier, being able to go and do 
that on your own, with dignity, shop, choose wisely what you 
would pick, and use those resources accordingly is a very 
important process.
    Mr. Aguilar. What more can we do to help with that process? 
I mean, is it continued community outreach that Ms. Tussler 
mentioned? Where does the government role meet that nonprofit 
role and that hat that you wear, no pun intended, Chef, but 
that hat that you wear that helps connect families and helps 
that education side?
    Mr. Nader. I would say that is exactly what is needed. In 
Detroit the needs are great, and I would say that the continued 
education portion of this is just essential.
    Mr. Aguilar. Thank you very much.
    Thank you, Chairwoman.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Yoho.
    Mr. Yoho. Thank you, Madam Chairman.
    I appreciate all four of you being here with your 
testimony. And just kind of for the record, just one of you 
pick it out, maybe you, Ms. Brown, what is your definition of 
food insecurity? We are tasked on this Committee to be the ones 
reforming this program. Eighty percent of the money in the farm 
bill goes to nutritional programs. So for us to reform that so 
that we are all on the same page as we move forward, so that we 
are all in agreement what we are trying to accomplish, if you 
would give a definition. And I would like for the other ones, 
if you agree or not.
    Ms. Brown. Well, rather than my own personal definition, I 
had a feeling this was going to come up, so I brought the 
definition----
    Mr. Yoho. Thank you.
    Ms. Brown.--that is used when they do the survey every 
year, the kinds of questions that they ask.
    Food insecurity is household members that were at times 
uncertain of having or unable to acquire enough food for all 
household members because they had insufficient money or other 
resources. And then there are definitions below that for low 
and very low.
    Mr. Yoho. Okay. For the record, that is going to be entered 
in there.
    [The information referred to is located on p. 281.]
    Mr. Yoho. Are we all pretty much in agreement with that? 
Does anybody differ from that on the panel?
    Ms. Tussler. I guess I would just suggest that we believe 
that everybody has the right to adequate food obtained with 
dignity and we would add that the foods should be healthy.
    Mr. Yoho. Okay. I just want clarification, because as we 
move forward, we are going to make policy changes, or add to or 
take away, and we want to make sure that we are in agreement 
with that.
    And then, Dr. Rachidi, you brought up, what is your 
definition of treating these families holistically? What does 
that mean? And, again, this is for clarification.
    Dr. Rachidi. When I talk about treating a family 
holistically, I mean being able to communicate to them all of 
the resources that are available to them through the food 
assistance programs. So having a worker that has knowledge, if 
they can't enroll them directly into all the benefit programs, 
they should at least have the knowledge of those programs so 
that the families can be aware of those programs.
    Mr. Yoho. Okay. And I am working somewhere with this.
    Mr. Nader, you brought up about your background. I can 
appreciate that, as this panel has heard, I grew up in a 
wealthy family or high upper middle class until we went broke, 
and then my parents got divorced, our house got repossessed 
when I was 15, and I was out on my own at 18. And my wife and I 
got married at 19, and we were food stamps for a short period 
of time.
    You brought up the thing about--Ms. Tussler, is that right, 
my eyes are failing me--about the dignity. And I remember 
having the coupons, the food stamps. And there was a stigma, 
but I was so thankful they were there, but it encouraged me to 
work harder to get off of them as quick as I could. So I don't 
think that is a bad thing, per se.
    Like you, Mr. Nader, we got off of them it, but it was 
there for us and it did raise us up. We got in, we moved up, we 
moved out. And I hope that is the goal of all of this, because 
I hear stories like Mr. Thompson brought up of the surfer that 
was on one of the news channels, but, unfortunately, we see 
that in our districts and I hear stories about that every day. 
And so to reform these programs so that they do work well, we 
need that information.
    And then I want to ask you, because as you are treating 
holistically, I hope we also talk about responsibility. People 
are out there, they are struggling, they are making a living, 
they are doing the best they can. Absolutely. But also when I 
look at programs that we are feeding breakfasts at every 
school, and then it was breakfast and lunch, and now it is 
dinner, now it is take home, where does it stop? As we are 
talking to people, are we counseling them on the responsibility 
of a family, of feeding them?
    And then you were talking, Mr. Nader, about teaching people 
how to pick out foods properly, teaching people how to cook 
properly. Is that the role of the Federal Government? Where did 
we break down in society where it is not passed down from 
generation to generation?
    Mr. Nader. Well, I think that preserving the SNAP aspect of 
that helps people get the skills so when they do, as you had 
done, and get off the program, you are able then to sustain 
that. It is the sustainability aspect of that educational 
piece.
    Mr. Yoho. I have one more question, and if you guys, if you 
don't have time to answer this, if you could put it in a 
written answer. We have heard over and over again that there 
are a lot of programs doing the same thing. Is there a way to 
centralize this so that we don't have two or three different 
agencies and 18 different programs sending all this out for the 
duplication?
    And I understand the argument of the duplication, how it 
does cover some people that might have been missed. But if we 
can centralize, it will cut the cost and make it more 
effective. If you could respond to that, it would be greatly 
appreciated.
    Thank you.
    [The information referred to is located on p. 281.]
    The Chairwoman. Thank you.
    The chair recognizes Congresswoman Adams.
    Ms. Adams. Thank you, Madam Chairman.
    Thank you, ladies and gentleman, for your testimony.
    I appreciate the Government Accountability Office's 
mentioning that participation in SNAP and WIC and school meal 
programs are associated with positive health and nutrition 
outcomes. We need to do that.
    I recently hosted a roundtable in Greensboro where I live, 
in North Carolina, to discuss food hardship in my district. I 
heard firsthand testimony of Melanie Noble, a SNAP recipient, 
who struggled for 3 months to re-certify her family's benefits 
after she moved to Greensboro from Pennsylvania. While living 
in a homeless shelter with her two children she had to depend 
on donations from other SNAP recipients in order to feed her 
family.
    According to the Food Research & Action Center, the 
Greensboro-High Point area, where I live, currently ranks first 
in the nation for households struggling to pay for food through 
the end of the month. From the Triad to Charlotte, communities 
in the 12th District of North Carolina are above the national 
average when it comes to struggling to put food on the table.
    SNAP benefits are simply not enough. Other Federal food 
programs such as school meals and food commodity programs help 
families make it to the end of the month. Each agency that 
administers a food program has the capacity to maximize access 
to these programs for their specific constituents.
    So any review of food programs must thoroughly examine the 
consequences of consolidating programs. We can't allow families 
who are currently eligible and need food assistance to be 
denied support in order to reduce cost.
    Dr. Rachidi, the story that I just shared about Ms. Noble 
is an example of churn, households going off, coming back on 
SNAP within 4 months due to a life change in circumstances. 
Churn is not only inefficient, but expensive. So do you have 
any recommendations about how to lessen churn?
    Dr. Rachidi. In practice, because we often would hear about 
churning, and I am talking mostly about SNAP, when people have 
volatile income where they have changes in income frequently, 
in the program they really don't report that until every 6 
month re-certification period. So that provides them with a 
little bit of a grace period in terms of their benefits. And so 
this idea that people go on and off, it really is more related 
to the certification periods, which are 6 months to a year. So 
people don't go on and off SNAP every month.
    Ms. Adams. Okay. Ms. Tussler, it has been mentioned that 
the School Lunch Program and the School Breakfast Program are 
managed separately, which could lead to an increase in 
administrative costs. Would combining the administration of the 
lunch and breakfast programs make it more difficult for schools 
to participate in the School Lunch Program?
    Ms. Tussler. Combining the administration would definitely 
streamline things under the Community Eligibility Provision. 
What we found is that schools can provide meals to 100 percent 
of the student body, breakfast after the bell, lunch in a more 
organized fashion as a result of not having to collect 
paperwork and PINs from students who are waiting to eat.
    And so in school districts that have 60 percent or higher 
levels of poverty, which is many, many school districts, in 
Milwaukee the entire school district, the Community Eligibility 
Provision allows the school district to feed all children that 
are in our care when they are in our care. So I think that 
Community Eligibility Provision is something that the Committee 
should consider and take back to their communities because we 
know that it works.
    Ms. Adams. Thank you.
    Mr. Nader, quickly, what do you believe is the biggest 
barrier to improving the nutrition of SNAP recipients? Is it 
the cost of fresh produce, for example?
    Mr. Nader. Well, that is definitely one. I think we do 
teach, while fresh produce is ideal, unfortunately, not 
everybody has access to that. So therefore in that program we 
make sure that we talk about frozen and canned produce as well, 
because we have to be honest and realistic with it. The cost is 
definitely one of the issues for sure.
    Ms. Adams. Thank you.
    Madam Chairman, I yield back.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Moolenaar, for 5 minutes.
    Mr. Moolenaar. Thank you, Madam Chairman.
    I want to thank all of you for speaking with us today.
    And, Mr. Nader, I also want to thank you for sharing your 
story with us. And as a Michigan person, I appreciate what you 
are doing for the Lions and also for the people of Detroit. I 
appreciate your efforts.
    I wanted to talk with all of you, maybe we could start with 
Mr. Nader, about the role of the private sector and the faith-
based community. One of the things that struck me about what 
you said about the Cooking Matters program is that you have 
really been able to form partnerships. And you mentioned Wal-
Mart and some others.
    What have you found helpful, if you would start us off, 
engaging the private sector and kind of mobilizing resources 
that way?
    And if each of you could kind of respond to that as well.
    [The information referred to is located on p. 282.]
    Mr. Nader. Sure. The model we use at Cooking Matters in 
particular is there is some SNAP-Ed funding that goes with 
that, and then, just as you stated, some of our community 
partners, as well as corporate partners to help sustain a 
program like that. Because it is very formatted and structured 
and there are materials that come with it. There are costs to 
it aside from the food costs as well.
    I could get back to you as far as to the actual breakdown 
of how that works with the SNAP, what actually comes out of the 
SNAP-Ed.
    But it is a little bit out of my expertise. I am on the 
front line teaching these classes, but I know that that model 
has been working good for our program.
    Mr. Moolenaar. You mentioned yourself as a chef and a 
nutritionist that works, and one of the needs you have is for 
more volunteers to maybe help with this. What have you found is 
probably the best motivation for people to be engaged in the 
program?
    Mr. Nader. It is kind of a vocational call. When I am 
talking to fellow chefs as members of the food community, I 
feel that we are obligated in a sense to participate on that 
level. And so that is kind of how I approach it with the chefs.
    As far as the nutritional side, that is a little more 
technical, but I feel like at least some of the registered 
dieticians that we have used and people that are in the medical 
field on that end, they kind of feel the same way as well.
    Mr. Moolenaar. Thank you.
    Ms. Tussler. Hunger Task Force is our nonprofit and last 
year we raised $6,174,000 in private sector resources. The farm 
is supported by the Harley Davidson Foundation. Many of our 
food drives are supported by Johnson Controls, MillerCoors, 
Northwestern Mutual. Kohl's Department Stores pays for all the 
summer suppers to the tune of $500,000. Individuals volunteer, 
as many as 7,000 annually.
    And Hunger Task Force is able to collect more than 59 
percent of the food that we distribute from the local 
community, not relying on large corporate resources, but 
instead food drives. And so I think that we have organized sort 
of the local community in a really great way, a great tribute 
to the citizens of Milwaukee for their efforts.
    But I don't think that the efforts of those people could 
any way, shape, or form replace the effect of the SNAP program 
on a community, because the work that we do, and the Federal 
budget would reflect, about four percent of it is TEFAP and 70 
percent of it is SNAP. And so if we dismantle SNAP and we push 
people towards charity, we are going to break charity. And 
charity is 70 year old people from churches.
    So there is only so much they can do, there is only so much 
that the private sector can handle, and there is only so much 
demand that each community can meet.
    I would like to remind everybody that I grew up in 1977 
when there weren't food banks across the nation, when there 
weren't soup kitchens and homeless shelters, before we had sort 
of large and wide-scale poverty in our nation. And we should 
stop allowing it, and we should start questioning why we think 
it is okay to have food banks. I operate one. I would welcome 
people to put me out of business.
    Mr. Moolenaar. Dr. Rachidi, did you have a comment about 
this at all?
    Dr. Rachidi. I definitely think there is a role for private 
sector and charities. I think it is not realistic to think that 
a Federal program can provide for every situation of every 
family and every food need. So I do think that there is a role 
for the private sector.
    Ms. Brown. Well, I was thinking about Milwaukee and how one 
of the things that we notice when we go from place to place 
across the country looking at programs is not every local 
community has the same amount of mobilization and support. And 
so our concern would be trying to make sure there was equity 
across different areas.
    Mr. Moolenaar. Thank you.
    I yield back. Thank you, Madam Chairman.
    The Chairwoman. Thank you.
    Congresswoman Lujan Grisham.
    Ms. Lujan Grisham. Thank you, Madam Chairman.
    And I too want to thank this panel. The resounding theme, 
and I think also the purpose of this Subcommittee is that we 
would all rather not be talking about the need for additional 
programs. I, like everyone else, would like to stamp out hunger 
in this country and I am dismayed every minute of every day 
that we aren't there.
    And, in fact, I represent a district and a state with the 
hungriest children in the country and one of the highest adult 
hunger situations in the country. It is demoralizing, it is 
inappropriate, and it is something that we can work together to 
absolutely eradicate. And so each of your roles to get there is 
commendable and incredibly important.
    And I recognize the value too of figuring out the best ways 
to administer these programs and the best ways to leverage 
them. I was the cabinet secretary for the aging department in 
New Mexico for 14 years, so three different governors, two 
parties. And I will tell you that government eligibility 
standards nearly drove me to drink. So they are difficult.
    And one of the things I want to think about is, while we 
can debate categorical eligibility and the benefits of that and 
some of the weaknesses potentially in that, the fact that we 
don't do data sharing, the fact that it is very difficult to 
administer programs. I have a senior center with a childcare 
center, because grandparents are raising grandchildren. That is 
another statistic that my state is one of the highest in the 
country.
    But we can't do meals for kids at that center and we can't 
use senior center funding for meals for seniors because the 
Federal Government doesn't allow you to leverage, because we 
call that supplanting, one program for another. And if you 
touch those programs, by and large, we are a little bit better 
today, I am old, but we are a little bit better today, but not 
much. And, in fact, you are penalized, really it is 
counterproductive to leverage programs, to administer together, 
to share data.
    Similarly, we are now doing community school-based health 
centers that provide health care not just to the students, but 
the entire families, yet we can't share food in a school 
setting, and a grandparent or a parent who is hungry is no good 
at helping the other social issues that that child has. I mean, 
having these huge gaps doesn't make any sense.
    So I have a question, I promise, in here somewhere.
    The second thing is really I appreciate that even though I 
was not here for every question, I really appreciate that there 
was some discussion about what is appropriate. We don't do 
really any therapeutic diets in any of these programs because 
we can't afford to do that.
    Your point, Ms. Tussler, about grapefruit juice is well 
taken. Now let's talk about a recent study about vitamin D 
deficiencies and dementia which costs this country hundreds of 
billions of dollars but is preventable. That is before we talk 
about vitamin B deficiencies, where if you don't deal with that 
deficiency and you don't meet the right nutritional standards 
and you don't have the right nutrition, then you have permanent 
dementia. We are right back to hundreds of billions of dollars 
dealing with diabetes, health care, dementia, and long-term 
care services.
    So if we were to leverage better and we eradicate hunger 
and we do all the things that we know would make a difference, 
could we at the Federal level, to promote the sharing of the 
data of these programs and leveraging information so we do 
single delivery. We must be really clear that the centralized 
kitchens for seniors can be used in these varying ways and that 
school kitchens and your work, Mr. Nader, is there a way to 
promote the sharing among those Federal programs, which are 
today mandated not to work together? Do you think that could 
have an impact in promoting best practices in the states? 
Anyone?
    Dr. Rachidi. Well, I definitely do. I think the fact that 
it is a fragmented system starting at the Federal level is much 
of the reason why that trickles down to the state and local 
level.
    Ms. Lujan Grisham. Okay.
    Ms. Brown. And I would just like to add the idea, our 
recommendation that the USDA form a panel that brings in people 
from all different levels, Federal, state, and local, and 
people that have had experiences like you and others on the 
panel have had, that can share together and look at where the 
gaps are and where there are opportunities for more 
efficiencies. It starts at the Federal level. And I can't 
resist saying it, also the fact that this crosses over multiple 
Congressional committees creates a challenge as well that needs 
to be dealt with or overcome.
    Ms. Lujan Grisham. Absolutely.
    Well, I really appreciate that perspective because I agree, 
and I think that we could promote that as a best practice and 
maybe mandate it in some form. I think we would see some pretty 
incredible results. So I appreciate your work.
    And with that, Madam Chairman, I yield back.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Abraham, for 5 minutes.
    Mr. Abraham. Thank you all for being here.
    I have lived and practiced medicine in the Louisiana Delta 
all my life, so my district is certainly one of the most 
poorest in the nation. They have major newspapers come down and 
do full-page reports on us as to how poor we are. So it is 
critical. I mean, I have seen hunger, and I don't think there 
would be anybody in this room that would want a child or an 
adult in America to go to bed hungry.
    I am looking, Ms. Brown, I will direct I guess my comment 
and my question to you, I am looking at page 2 of the GAO 
highlights that you provided us, and thank you for that. And I 
counted down and there were 18 programs, and you can correct me 
if I am wrong, it looked like about \1/3\ of them are targeted 
for children.
    And I guess my question or my comment is, with the 
shrinking dollar, the shrinking economy that we are having to 
deal with, and up on the boldface it says the Federal 
Government spends about $100 billion on these 18 programs in 
the Fiscal Year 2014, so we are going to have to get more 
efficient with our dollar it looks like.
    Are these programs, especially the six or the \1/3\ that 
are targeted for children, are they coordinated where you are 
getting your most for your product? Are most of the children 
getting positive results? Or are these programs just kind of, 
well, this one may work, this one doesn't, let's see, let's 
throw them in the pot and see what happens?
    Ms. Brown. Well, first of all, it is not surprising that so 
many of these programs are targeted to children, because over 
time as there is a need defined, then new programs have been 
started. But we certainly see an opportunity for better 
coordination and better looking systematically across those 
programs to see whether there are efficiencies that could be 
achieved.
    Mr. Abraham. Dr. Rachidi, you said that WIC and SNAP are 
administered by two different Federal agencies. Is it even 
logical to assume that as Congress we can attain that goal? Is 
there hope out there that we can coordinate these programs and 
make them more efficient?
    Dr. Rachidi. I think it would be difficult to completely 
combine them and coordinate them. But there are opportunities 
to take a look at certain aspects of the program that could be 
coordinated. I don't know all the details of that, but there 
definitely are things around. Just even the retailer 
certification that I described earlier, it is completely 
separate in the two programs.
    There are certain areas, but, yes, I think it is probably 
unrealistic to think that they are going to be completely 
combined and operate out of one Federal agency.
    Mr. Abraham. But there certainly is room for improvement 
and for some coordination that we could legislate, hopefully, 
and make them more efficient programs for our people.
    Dr. Rachidi. Yes, definitely.
    Mr. Abraham. Ms. Brown, you have a comment?
    Ms. Brown. I was just going to say that we just released a 
report today looking at services that are needed to help older 
adults stay in their community. And when we are talking about 
children, it is also important to think about the fact that we 
have a number of programs that are serving older adults that do 
everything from delivering meals to homes, to congregate meals, 
to parts of the SNAP program. And this is an area where we 
expect the demand to increase dramatically, and it will be all 
the more important to make sure we are using these resources 
efficiently.
    Mr. Abraham. Okay. Thank you.
    I yield back, Madam Chairman.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Davis, for 5 minutes.
    Mr. Davis. Thank you Madam Chairman. Can I possibly get the 
minute 14 seconds he yielded back too?
    The Chairwoman. That would be negative. So continue.
    Mr. Davis. That is all right, that is all right
    Mr. Nader, great to see you again. It was great to speak 
with you. I thought you promised me yesterday when we met in my 
office that you were going to bring me examples of what you 
cooked for Ndamukong Suh when he was playing for the Detroit 
Lions. I see nothing.
    Mr. Nader. That is correct.
    Mr. Davis. Well, much appreciated. We will welcome you back 
another time to demonstrate some of the things that you do 
within your Cooking Matters program too.
    So thank you for what you do. I am sorry I missed your 
opening testimony. I appreciate all of you being here, and this 
is a great opportunity for us here in Congress to get an idea 
of how certain program are implemented and the concerns and the 
problems that you may have with those programs being 
implemented.
    I will get to my first question for Mr. Nader. And I hope I 
am not redundant, so forgive me if you have already answered 
this. But you benefited from both SNAP and school meals as a 
kid. And can you expand a little bit on how those actually 
worked with you and your family?
    Mr. Nader. Well, I mean, the Lunch Program speaks for 
itself. That was most often the program that we used. And then 
with the SNAP benefits, again, there were small times and 
needs. And the way the auto industry economy worked back when I 
was a kid there would be plant shutdowns or downturns when 
things wouldn't, and that is when things would get tough and we 
would have to go on a program?
    But it was never really a permanent situation, luckily. And 
that is a big misconception, that there are a lot of folks that 
are on it and then they stay on it. The fact is these are 
working families and then they utilize the supplemental aspect 
of this when needed.
    Mr. Davis. In your case, yes, that was the case. And are 
you seeing that same trend with many of the participants in 
your Cooking Matters class too where they are on and off the 
programs?
    Mr. Nader. Yes. Again, I believe in our particular case in 
the Detroit community that is the same thing. Many of the 
families and the kids of the families I am working with are 
working families and they are just simply not making enough 
money to carry through all the way, and then that is where that 
supplemental aspect comes in.
    Mr. Davis. Okay. Well, thank you again. And, again, I wish 
you success this year except against my Oakland Raiders. That 
is all I can say.
    Mr. Nader. Thank you.
    Mr. Davis. Dr. Rachidi, I used to work for another Member 
of Congress and during and after disasters on an annual basis 
DHS through FEMA would offer assistance for communities. And it 
seemed to me that it could possibly be redundant. And I know 
your experience in New York City. Can you tell me if are there 
any issues that you may have faced with redundancy between USDA 
programs, DHS programs, and anything you would offer us as a 
Committee to try and fix that?
    Dr. Rachidi. Well, the emergency food programs are a little 
bit redundant. It seems like from my perspective the CBOs that 
have to kind of cobble together the different funding sources 
to support their emergency food programs, it does seem--and 
redundant may not be the right--just not coordinated. And why 
does it have to be from two different funding sources when 
really it could be from one?
    And then in terms of really the emergency aspect of it, in 
New York City when we had Hurricane Sandy, I know that there 
was coordination across those two different programs, and so it 
happened, but really ideally, again, why should you have to 
coordinate across two different programs that are really 
providing the same thing? So it has to happen, you have to 
coordinate during emergencies, but really it shouldn't be like 
that.
    Mr. Davis. So what you are recommending is that USDA get 
control of all of these programs so this Committee has 
jurisdiction, right?
    Dr. Rachidi. You said that.
    Mr. Davis. Oh, you just did. Thank you for your 
recommendation.
    Madam Chairman, I yield back the balance of my time, but 
thank you all again.
    The Chairwoman. Thank you.
    The chair recognizes Ranking Member McGovern for 1 minute 
for a wrap.
    Mr. McGovern. That is it, 1 minute?
    The Chairwoman. Yes, a minute. We doubled from last week.
    Mr. McGovern. Oh, yes. Well, thank you.
    Let me just say that I am all for better coordination, and 
we ought to be able to do that. And there are challenges 
because, as was mentioned, a lot of these anti-hunger and 
nutrition programs fall under multiple committees in Congress, 
under multiple agencies.
    But I am also for a plan to end hunger. We don't really 
have a plan in this country to end hunger. With this 
Administration, and the previous Administration, I have been 
urging the White House to put together a White House conference 
on food, nutrition, and hunger and bring all the various 
agencies and all stakeholders in the room, and the 
beneficiaries, together and work this out.
    I don't know how practical it is to say we are going to 
legislate that all anti-hunger and all nutrition programs will 
fall under one committee, but a far less arduous task is to ask 
the White House to do meetings with various people from various 
agencies on this issue. These are solvable problems.
    Let me just say one other thing here. My colleague, Mr. 
Yoho, mentioned that we are tasked with reforming the SNAP 
program. I get really nervous when I hear that. I want us to 
first fund it adequately and I want us to make it work as best 
as possible. The reason why we have all these other programs 
that we are talking about is because there is a need, there is 
a need that wasn't being met by the existing benefit, and that 
is just a reality. And anybody who tells you, and I have to say 
this, I really feel strongly about this, that this benefit is 
enough ought to live on it. Ms. Tussler talked about the 76 
year old woman Molly who because of what this Committee did in 
the farm bill saw her benefit go from $90 to $16 a month. That 
is crazy.
    So let's organize, let's try to get the White House to take 
leadership on this, and let's figure out how best to do this.
    Let me say one last thing here because I want to make sure 
the record is corrected on this. We heard a couple of times 
mentioned the guy who is a surfer on food stamps. That is not 
the reality of the program, and it is our job to tell anybody 
who says it is that it isn't. The majority of people on this 
program are kids, are senior citizens, are those who are 
disabled. And of those who are able-bodied, the majority of 
them work.
    Given the opportunity between working at a job that pays a 
wage where I wouldn't have to rely on this benefit or a job 
that I have to work full-time and I still need to rely on SNAP, 
we know what people would decide. So let's not demonize this 
program by taking some examples that may have appeared on some 
news show. I won't mention the name of the news show.
    But the point of the matter is we ought to make sure that 
the narrative that we are echoing here reflects the reality. 
And we can do this. We also need to make sure that the funding 
for these programs, for SNAP in particular, is adequate.
    And I thank the Chairwoman for her indulgence.
    The Chairwoman. Thank you, Mr. McGovern.
    I just want to add my thanks to the panelists in this 
hearing. I think this hearing today exemplifies why we are even 
meeting on this Committee. We have heard good information. We 
have heard information that there are efficiencies. We have 
heard it from both sides that this issue with data is clearly 
something that needs to be looked at, and that the fact-finding 
that we are looking for is exactly what we found today.
    And Ms. Tussler talked about over-regulation of the 
Commodity Supplemental Food Program, which is exactly why we 
want to look at these programs to have an actual in-depth look 
at the past, the present, and the future, and what can we do 
better, because we can always do better. That is really what 
the focus of the Committee has been, and I think that is what 
we have heard today, good, solid information that helps us make 
decisions because you are the experts.
    I very much appreciate you being here today. I appreciate 
all the input.
    So under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Committee on Agriculture Nutrition 
Subcommittee is adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Supplementary Material Submitted by Kay E. Brown, Director, Education, 
 Workforce, and Income Security, U.S. Government Accountability Office
Insert
          Ms. Brown. Well, rather than my own personal definition, I 
        had a feeling this was going to come up, so I brought the 
        definition----
          Mr. Yoho. Thank you.
          Ms. Brown.--that is used when they do the survey every year, 
        the kinds of questions that they ask.
          Food insecurity is household members that were at times 
        uncertain of having or unable to acquire enough food for all 
        household members because they had insufficient money or other 
        resources. And then there are definitions below that for low 
        and very low.
          Mr. Yoho. Okay. For the record, that is going to be entered 
        in there.

    Food insecure--At times during the year, these households were 
uncertain of having, or unable to acquire, enough food to meet the 
needs of all their members because they had insufficient money or other 
resources for food. Food-insecure households include those with low 
food security and very low food security.
    Low food security--These food-insecure households obtained enough 
food to avoid substantially disrupting their eating patterns or 
reducing food intake by using a variety of coping strategies, such as 
eating less varied diets, participating in Federal food assistance 
programs, or getting emergency food from community food pantries.
    Very low food security--In these food-insecure households, normal 
eating patterns of one or more household members were disrupted and 
food intake was reduced at times during the year because they had 
insufficient money or other resources for food.
                                 ______
                                 
Supplementary Material Submitted by Angela K. Rachidi, Ph.D., Research 
        Fellow in Poverty Studies, American Enterprise Institute
Insert
          Mr. Yoho. I have one more question, and if you guys, if you 
        don't have time to answer this, if you could put it in a 
        written answer. We have heard over and over again that there 
        are a lot of programs doing the same thing. Is there a way to 
        centralize this so that we don't have two or three different 
        agencies and 18 different programs sending all this out for the 
        duplication?
          And I understand the argument of the duplication, how it does 
        cover some people that might have been missed. But if we can 
        centralize, it will cut the cost and make it more effective. If 
        you could respond to that, it would be greatly appreciated.

    I believe there are opportunities for coordination at the Federal 
level that could improve efficiencies. The ultimate goal should be one 
oversight agency that administers all the programs and a consolidation 
of programs to the extent possible that maintains the need for 
specialization. However, this would require a major restructuring that 
would likely take years. In the meantime efforts to coordinate across 
programs through the sharing of data, technology, and expertise could 
be helpful. This includes access to data across Federal agencies, 
consolidating the authorization and monitoring of retailers across 
programs, and coordinating nutrition education programs. Centralizing 
these functions and sharing data likely would increase efficiencies and 
reduce costs.
                                 ______
                                 
Supplementary Material Submitted by Joseph Nader, Executive Chef, Levy 
  Restaurants and Detroit Lions; Volunteer Chef, Share Our Strength's 
                            Cooking Matters
Insert 1
          Mr. Yoho. I have one more question, and if you guys, if you 
        don't have time to answer this, if you could put it in a 
        written answer. We have heard over and over again that there 
        are a lot of programs doing the same thing. Is there a way to 
        centralize this so that we don't have two or three different 
        agencies and 18 different programs sending all this out for the 
        duplication?
          And I understand the argument of the duplication, how it does 
        cover some people that might have been missed. But if we can 
        centralize, it will cut the cost and make it more effective. If 
        you could respond to that, it would be greatly appreciated.

    There is some overlap in the child nutrition programs, but this 
overlap is in their administration, not in the provision of food to 
hungry kids. These programs are designed to work together to meet the 
specific needs of children--providing food to kids where they are, when 
they need it, and with the proper nutrition for their age. The 
Supplemental Nutrition Assistance Program (SNAP) is in fact 
``supplemental''; it is not designed to meet the entire nutrition needs 
of a family and the SNAP-Ed program teaches families how to shop for 
and prepare healthy food on a budget.
    School age kids from SNAP families sometimes eat breakfast at home 
and bring a lunch to school. However, oftentimes those benefits may 
have run out or food isn't available at home and children need a 
healthy meal to do well in school. The meals are there for low-income 
kids when they need them. There are 25 million children who could get a 
free or reduced price lunch at school each day, but only 21.7 million 
do so--and it is not the same kids every day. When school is out, the 
Summer Food Service Program is intended to replace those meals, 
unfortunately the serving model only works for a limited number of kids 
and only 3.5 million children who are eligible are getting a meal. For 
children not of school age, there is WIC, which provides a tailored 
prescription of healthy food for early childhood development.
    On to where there may be overlap. The child nutrition programs 
operate in a public-private partnership model where private 
organizations and local schools provide valuable services and healthy 
food to kids, and the Federal Government reimburses the cost of the 
meal. For example there are great programs after school at Boys and 
Girls Clubs, YMCAs, churches and food bank. During the school year, 
these organizations provide programming and a healthy snack. Over the 
summer the same organizations may provide the same services, to the 
same kids, and the same locations and times. However, they cannot use 
the same Federal program. They have to flip to another program and fill 
out a new application and fulfill new reporting requirements and have 
slightly different meal standards and reimbursement rates and go 
through another site inspection. Organizations share that this is an 
unnecessary hassle and that they want to focus on providing great 
education, athletic, and arts opportunities to children and not spend 
their time on another bureaucracy doing the exact same thing they were 
approved to do the week before when school was still in session. A 
solution would be to streamline the CSFP and CACFP at-risk afterschool 
meals program into one program for schools and nonprofit organizations 
to operate more efficiently.
Insert 2
          Mr. Moolenaar. . . .
          What have you found helpful, if you would start us off, 
        engaging the private sector and kind of mobilizing resources 
        that way?
          And if each of you could kind of respond to that as well.

    Share Our Strength's Cooking Matters program teaches participants 
to shop smarter, use nutrition information to make healthier choices 
and cook delicious, affordable meals. Founded in 1993, Cooking Matters 
and thousands of volunteer instructors have helped more than 265,000 
low-income families in communities across the country learn how to eat 
better for less. Cooking Matters is an example of collaboration between 
nonprofit organizations, private investment, and public sector funds. 
The Walmart Foundation is the national sponsor of Cooking Matters and 
many private companies provide funding to local organizations, like 
food banks or community centers, to support their Cooking Matters 
programs.
    SNAP-Ed (Supplemental Nutrition Assistance Program--Education) is a 
Federal-state partnership that supports nutrition education for persons 
eligible for the Supplemental Nutrition Assistance Program (SNAP), 
formerly known as food stamps. The goal of SNAP-Ed is to provide 
educational programs and conduct social marketing campaigns that 
increase the likelihood that people eligible for SNAP will make healthy 
food choices within a limited budget.
    Cooking Matters partners across the country receive SNAP-Ed funding 
for their nutrition education work. In Massachusetts, the support 
provided by SNAP-Ed through the Massachusetts Department of 
Transitional Assistance has allowed the program to offer approximately 
60 6-week courses and 100 Cooking Matters at the Store tours each year, 
serving almost 1,300 SNAP beneficiaries.
    In Maine, Cooking Matters is operated through the Good Shepherd 
Food Bank. The Maine Department of Health and Human Services (DHHS) 
administers SNAP-Ed and it is implemented through a contract with the 
University of New England (UNE). The public SNAP-Ed funding is 
complemented by private funds from Hannaford and the Walmart 
Foundation, and with funds from Share Our Strength's national 
organization, including curriculum development and materials.
                                 ______
                                 
    Supplementary Material Submitted by Sherrie Tussler, Executive 
                      Director, Hunger Task Force
June 5, 2015

  Hon. Ted S. Yoho,
  House of Representatives,
  Washington, D.C.

    Dear Congressman Yoho:

    I had the opportunity to testify to you on Duplication in the 
Federal Nutrition Assistance Programs on May 20, 2015. At that time, 
you were interested to know if there was any one solution to the 
concern for duplication:

          I have one more question, and if you guys, if you don't have 
        time to answer this, if you could put it in a written answer. 
        We have heard over and over again that there are a lot of 
        programs doing the same thing. Is there a way to centralize 
        this so that we don't have two or three different agencies and 
        18 different programs sending all this out for the duplication?
          And I understand the argument of the duplication, how it does 
        cover some people that might have been missed. But if we can 
        centralize, it will cut the cost and make it more effective. If 
        you could respond to that, it would be greatly appreciated.

    The Federal nutrition programs are directed through various state 
agencies and their authority is further delegated to community 
institutions like welfare offices, clinics, schools or food banks. Each 
of these state agencies and later, its local administrative 
counterpart, is required to maintain proof of eligibility for specific 
programs. Often, this means multiple levels of qualification for 
seemingly duplicative programs which often have similar income 
benchmarks.
    I would suggest that current technology used in combination with a 
single Federal nutrition program eligibility test could reduce 
burdensome duplication and ease barriers to program access for 
vulnerable people. Significant cost savings would ultimately be 
realized by substantially reducing program administrative costs through 
modernized data sharing.
    Federal and state governments possess a great deal of data about 
individuals including date and place of birth, household size, address, 
income, conviction status and assets. Existing information could be 
accessed by a single qualifying state-run organization to determine 
eligibility for the Federal nutrition programs like the Supplemental 
Nutrition Assistance Program (SNAP), Women Infants and Children (WIC) 
and School Meals. Cards would be issued to qualified individual 
recipients, and point of service terminals would read eligibility based 
on income and age.
    SNAP and WIC rely on debit card technology to spend resources. If 
this debit card technology were also employed for school meal programs, 
people eligible to receive benefits could swipe their card before 
receipt of service. For example, I keep my health insurance card in my 
wallet and it is accepted at a doctor's office, a pharmacy and a 
hospital. A ``food insurance'' card could be issued to qualified 
individuals who would swipe it to prove eligibility at the store, a 
farmers market or school meals line.
    A unified School Meals Program could eliminate both the Child and 
Adult Care Food Program (CACFP) and the Summer Food Service Program 
(SFSP), providing year-round healthy meals to all children 18 or 
younger (21 or younger if disabled) at their school or child care 
facility. This would significantly reduce burdensome reporting at 
schools, child and adult care settings, summer programs, and after 
school sites.
    Another simplification could occur when seniors would be eligible 
for either SNAP or home delivered meals--whichever was most relevant 
based upon their housing status and ability. The Commodity Supplemental 
Food Program (CSFP) and Senior Nutrition Programs could be 
discontinued, and resources could be reinvested in providing sufficient 
SNAP benefits to be healthy, or home delivered meals for the frail who 
are no longer able to shop or cook.
    Finally, The Emergency Food Assistance Program (TEFAP) could be 
eliminated. Under this scenario, all people with household income at 
135% of the Federal Poverty Line (FPL) would receive SNAP benefits 
sufficient to purchase food for their household members at the grocery 
store. Food banks, food pantries and soup kitchens could be closed when 
people relying on them are given SNAP/WIC or School Meals assistance 
sufficient to no longer need charity. Funding currently used to 
purchase Federal commodities and provide agricultural price supports 
would go directly into funding SNAP. While eliminating the purchase of 
Federal commodities could result in initial variability of food 
pricing, ultimately food producers would rebalance and grow only the 
foods desired by people shopping for food. Significant cost savings 
could occur as the USDA stops subsidizing agribusiness.
    As you consider these ideas, I encourage you to think about how 
many of the Federal nutrition programs have direct linkages to 
agricultural price supports and food producers. These programs manage 
excesses in production by directing foods into school nutrition 
programs, senior meal programs and commodity distributions like CSFP 
and TEFAP.
    Recognizing these interrelationships have a purpose extraordinary 
to ``feeding the poor'' is critical as you consider broad changes to 
the food system.
    Programs like SNAP and WIC that offer food buying power also are 
economic drivers in local communities. They are money to buy food and, 
as such, buoy our economy and assure markets for farmers, retailers and 
the transportation industry. Decreases in SNAP hurt these businesses 
and shift the burden for supporting farmers back to government as the 
balance between supply and demand shift.
    Everyone wants less government. Everyone wants programs that are 
operated effectively. Everyone wants a healthy economy and a strong 
food system. Thank you for the opportunity to comment. If you ever 
visit Milwaukee we hope you stop in to see us!
            Sincerely,
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Sherrie Tussler,
Executive Director.
                                 ______
                                 
   Submitted Letter by Barb Packett, Chair, Education/Public Policy 
                  Committee, National CSFP Association
May 29, 2015

  Hon. Jackie Walorski,
  Chairwoman,
  Subcommittee on Nutrition,
  House Agriculture Committee,
  Washington, D.C.;

  Hon. James P. McGovern,
  Ranking Minority Member,
  Subcommittee on Nutrition,
  House Agriculture Committee,
  Washington, D.C.

    Dear Representatives Walorski and McGovern,

    Thank you for your leadership in working to strengthen America's 
Federal nutrition programs.
    The Nutrition Subcommittee of the House Agriculture Committee held 
a hearing on May 20, 2015 entitled ``The Past, Present, and Future of 
SNAP.'' During that hearing there was testimony regarding additional 
Federal nutrition programs, including the Commodity Supplemental Food 
Program (CSFP) serving seniors. Although the testimony regarding CSFP 
was overwhelmingly positive, there were two comments that questioned 
the quality of the food in CSFP. The National CSFP Association (NCSFPA) 
was concerned that those comments were inaccurate and may contribute to 
an unfair impression of the quality of food available in CSFP.
    Specifically, one speaker criticized the quality of beef stew 
available in CSFP. Please note that USDA no longer provides USDA 
labeled commodities through their nutrition programs. The goods 
available today through programs such as CSFP are commercially labeled. 
The same beef stew available through CSFP may be found on grocery store 
shelves throughout America. To their credit, USDA has been very 
intentional about purchasing foods that provide the best nutrition 
(i.e., canned vegetables with reduced sodium, fruits in extra light 
syrup, whole-wheat noodles, low fat cheese, etc.). Some of those food 
package improvements are highlighted in Attachment A. One of the great 
benefits of CSFP is that it provides a nutritionally balanced monthly 
food package to vulnerable seniors each month. Within each of the food 
categories (i.e., meats, fruits, vegetables, and grains), there are a 
variety of products from which to choose. This flexibility helps to 
address regional, cultural, dietary, and personal preferences. In the 
example of beef stew, if beef stew is unpopular in a particular region, 
the CSFP program operator need not order beef stew and may order from 
among several other meat choices.
    There was a second reference to the undesirability of grapefruit 
juice. In fact, grapefruit juice has not been available in CSFP since 
2004, over eleven years ago.
    The NCSFPA understands that one of the purposes of the 
Subcommittee's hearing was to identify where overlap, duplication, or 
inefficiency exists within our Federal nutrition programs. The NCSFPA 
believes that CSFP operates very efficiently and plays a unique role in 
supporting the health of vulnerable seniors through improved nutrition. 
In fact, an April 2014 Government Accountability Office (GAO) report 
entitled `Creating a 21st Century Government: Enhancing Productivity 
and Achieving Cost Savings by Reducing Fragmentation, Duplication, and 
Overlap' (Attachment B) reported:

          Domestic Food Assistance (area 29, 2011) In February, the 
        President signed into law the Agricultural Act of 2014, which 
        included a provision that addresses an area of duplication 
        identified by GAO, between the Special Supplemental Nutrition 
        Program for Women, Infants, and Children (WIC) and the 
        Commodity Supplemental Food Program (CSFP). Pursuant to this 
        provision, CSFP will focus on serving seniors, while pregnant 
        and postpartum women, infants, and children needing assistance 
        in the future will be served through the WIC program.

    Any perceived duplication related to CSFP was addressed when it 
transitioned to a seniors-only program.
    CSFP supports senior health through improved nutrition. Hundreds of 
grassroots charities, with the aid of thousands of volunteers, delivery 
nutritionally balanced food packages to 600,000 vulnerable seniors each 
month. The NCSFPA is also pleased to report that USDA is an excellent 
partner in this endeavor. Of particular note is the initiative USDA has 
demonstrated in continually working to advance improvements in the 
nutritional quality of the CSFP food package.
    CSFP is a shining example of what is working well in the arena of 
our Federal nutrition programs. Thank you for supporting successful 
program such as CSFP. We also want to thank the House Agriculture 
Committee and Congress for their action, establishing CSFP as an 
elderly-only program. Additionally, we want to thank the GAO for 
acknowledging the change to the CSFP program. If you have any 
questions, you may contact either Frank Kubik [redacted], Barb Packett 
[redacted], or Mark Lowry [redacted].
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Barb Packett, Chair,
Education/Public Policy Committee,
National CSFP Association.

CC:

Nicole Scott,
Lisa Shelton,
Frank Kubik,
Mark Lowry.
                              attachment a
Recent CSFP Food Package Improvements
  <bullet> In 2011, USDA began offering one percent ultra-high 
        temperature fluid milk (UHT milk) to replace evaporated whole 
        milk in CSFP. UHT milk has less calories, saturated fat, total 
        fat, and cholesterol per serving than the evaporated milk 
        traditionally offered in the program.

  <bullet> In 2011, USDA lowered the sodium level in reduced-fat cheese 
        from 340 milligrams (mg) to between 150 to 225 mg per \3/4\ 
        ounce serving. USDA began offering reduced-fat cheese in place 
        of full fat cheese in the CSFP food package in 2005. Reduced-
        fat cheese has only 3 grams of total fat, 2 grams of saturated 
        fat, and 10 grams of cholesterol per a \3/4\ ounce serving.

  <bullet> Beginning in 2011, most canned fruits will be packed in 
        extra light sucrose syrup instead of light syrup to reduce 
        added sugars, particularly high fructose corn sweetener. 
        Sucrose is ordinary table sugar.

  <bullet> Beginning in 2011, some canned vegetables, such as whole 
        kernel corn and whole and diced tomatoes are being offered with 
        no salt added. This is a further improvement upon changes made 
        in 2010, when the sodium level in all USDA canned vegetables 
        was reduced to 140 mg or less per \1/2\ cup serving, a level 
        which meets the Food and Drug Administration's definition for 
        `low sodium' foods. Sodium levels in the meatless spaghetti 
        sauce were also reduced to 140 mg per \1/2\ cup serving in 
        2010.

  <bullet> In 2009, USDA began offering whole-wheat rotini, as an 
        alternative to CSFP's other pasta and rice products. With 2 
        grams of dietary fiber per \1/2\ cup serving, whole-wheat 
        rotini further brought the CSFP food package in line with the 
        Dietary Guidelines for Americans.

  <bullet> In 2007, USDA changed the specification for canned chicken 
        to allow only chicken without skin. This lowered the fat 
        content of the product and brought it [in] line with 
        recommendations made in the 2005 Dietary Guidelines for 
        Americans.

  <bullet> USDA offers salmon as an alternative Protein category food 
        item in the CSFP food package. Salmon provides 25 percent of 
        the daily recommended amount of calcium.

  <bullet> USDA also offers other food items in the CSFP food package, 
        such as unsweetened apple sauce and whole grain cereals that 
        meet the principles of the Dietary Guidelines for Americans.

    September 2011.
                              attachment b
Creating a 21st Century Government: Enhancing Productivity and 
        Achieving Cost Savings by Reducing Fragmentation, Duplication, 
        and Overlap
Executive Summary

  <bullet> Since the beginning of the Administration, the President has 
        made it a priority to identify and eliminate inefficient, 
        unnecessary, or duplicative spending.

  <bullet> The Administration is committed to continuing to make 
        progress in this important area through the President's Second 
        Term Management Agenda, building on efforts to reduce 
        administrative overhead, cut improper payments, reduce real 
        estate costs, reform military acquisition, and consolidate data 
        centers.

  <bullet> The Administration is also continuing efforts to reorganize 
        and consolidate Federal programs to reduce duplication and 
        improve efficiency; and the President is again asking Congress 
        to revive an authority that Presidents had for almost the 
        entire period from 1932 through 1984--the ability to submit 
        proposals to reorganize the Executive Branch via a fast-track 
        procedure. In effect, the President is asking to have the same 
        authority that any business owner has to reorganize or 
        streamline operations to meet changing circumstances and 
        customer demand.

  <bullet> While we wait for Congress to take action on this proposal, 
        the Administration continues to use existing authorities to 
        reorganize government and make it more efficient. For example, 
        the Administration has already taken action to consolidate a 
        number of science, technology, engineering, and mathematics 
        (STEM) education programs designed to enable more strategic 
        investment in STEM education and more critical evaluation of 
        outcomes. The President's FY 2015 Budget included a number of 
        specific proposals to address duplication and overlap in the 
        Federal Government, such as a fresh government-wide 
        reorganization of STEM education programs, streamlining Farm 
        Service Agency operations and expanding the use of strategic 
        sourcing to leverage the buying power of the government. And 
        the Administration has targeted unnecessary or lower priority 
        programs for reduction or elimination, such as proposing to 
        cancel the Defense Department's Ground Combat Vehicle Program 
        based on the recommendation of our uniformed military 
        leadership.

  <bullet> In each of the President's first three Budgets, the 
        Administration identified, on average, more than 150 
        terminations, reductions, and savings proposals, totaling 
        nearly $25 billion each year. In the 2013 and 2014 Budgets, the 
        Administration detailed more than 200 cuts, consolidations, and 
        savings proposals, again totaling roughly $25 billion each 
        year. The President's FY 2015 Budget included 136 cuts, 
        consolidations, and savings proposals, which are projected to 
        save nearly $17 billion in 2015. The cuts, consolidations, and 
        savings proposals this year reflect the deep spending 
        reductions that occurred in 2013, some of which have continued 
        in 2014, and the fact that many of the Administration's 
        previous cuts, consolidations, and savings proposals have now 
        been implemented.

  <bullet> The President's Second Term Management Agenda represents a 
        comprehensive and forward-looking plan to deliver better, 
        faster, and smarter services to citizens and businesses; 
        increase quality and value in the government's core 
        administrative functions and continue efforts to enhance 
        productivity and achieve cost savings across the government; 
        open government-funded data and research to the public to spur 
        innovation and economic growth; and unlock the full potential 
        of today's Federal workforce and build the workforce we need 
        for tomorrow. The Agenda reflects the Administration's 
        commitment to building a government that focuses on results and 
        draws on evidence-based practices to ensure that every taxpayer 
        dollar is used wisely and to the maximum effect.

  <bullet> The Administration has established a Cross-Agency Priority 
        Goal for each of the main components of the President's 
        Management Agenda, as well as for a number of mission-focused 
        priorities. These goals help ensure coordination on priorities 
        that involve multiple departments and agencies. Each of the 
        Cross-Agency Priority Goals is posted on Performance.gov 
        (http://www.performance.gov/cap-goals-list?view=public), the 
        Administration's performance tracking website, which will be 
        updated to include regular status updates.

  <bullet> On April 8, the Government Accountability Office (GAO) 
        released its fourth annual report identifying opportunities for 
        Congress and the Executive Branch to reduce fragmentation, 
        duplication, and overlap, and achieve cost savings across the 
        Federal Government. In addition, GAO provided a progress report 
        on its previous recommendations. The Administration appreciates 
        the valuable work GAO continues to do on this important topic.

  <bullet> GAO's findings recognize the progress that has been made in 
        addressing the recommendations previously identified in its 
        reports. For example:

    <ctr-circle> GAO found that Congress and the Executive Branch have 
            made progress on addressing 130 of the 162 (80 percent) 
            broad areas needing attention.

    <ctr-circle> GAO found that the Executive Branch addressed or 
            partially addressed 267 of the 323 (83 percent) recommended 
            actions directed to the Executive Branch.

    <ctr-circle> GAO found that Congress addressed or partially 
            addressed 28 of the 66 (42 percent) recommended actions 
            directed to Congress.

  <bullet> The GAO report also included a set of 26 new 
        recommendations, which the Administration is beginning to 
        analyze. An initial review indicates that the Administration is 
        already taking action to coordinate across agencies in many of 
        the areas identified in the new recommendations. The 
        Administration will carefully review the new recommendations to 
        identify all opportunities to reduce fragmentation, overlap, 
        and duplication and to achieve other financial benefits.

  <bullet> Many of GAO's recommendations deal with some of the most 
        complex and challenging areas across the Federal Government. 
        Fully addressing them is a long-term process that in many cases 
        will take years to implement--a fact that GAO recognizes.

  <bullet> The Administration looks forward to continuing to work with 
        GAO and Congress to maximize the value of every taxpayer dollar 
        while increasing the productivity and quality of services.
Administration Efforts to Reduce Duplication and Improve Efficiencies
    Under the President's direction, the Administration is working to 
deliver a 21st Century Government that is more effective, efficient, 
and supportive of economic growth. The President is committed to 
creating a government that will make a significant, tangible, and 
positive difference in the lives of the American people and the 
economy, and to driving lasting change in how government works.
    In 2011, the President and Vice President launched the Campaign to 
Cut Waste, identifying numerous initiatives to cut inefficient and 
unnecessary spending and make government more effective, resulting in 
billions in savings and program consolidations and eliminations, some 
of which are highlighted below. In addition, the President's FY 2013 
Budget established the first-ever government-wide Cross-Agency Priority 
Goals (http://archive-goals.performance.gov/sites/default/files/images/
Report.pdf), which promote coordination across agencies and programs in 
areas which deliver positive impact for the American people. For 
example, as part of the cross agency efforts to support the President's 
National Export Initiative, the Department of Commerce, as Chair of the 
Trade Promotion Coordinating Committee (TPCC), has taken actions to 
help achieve a record level of exports of $2.3 trillion in 2013, which 
supported an additional 1.3 million U.S. jobs.
    While the Administration has made notable progress in many areas, 
Congressional action could lead to further gains. February 2012, the 
President submitted for the first time a proposal to Congress to 
reinstate Presidential authority to reorganize Federal agencies to 
reduce the number of duplicative and overlapping government programs. 
And each of the President's Budget's has included cuts, consolidations, 
and savings proposals that would improve efficiency and save tens of 
billions of taxpayer dollars. For example, the President's 2015 Budget 
included 136 cuts, consolidations, and savings proposals, which are 
projected to save nearly $17 billion in 2015.
    Ongoing Administration efforts to achieve cost savings and maximize 
the value of government investments include:

  <bullet> Reorganizing STEM Education Programs. The President's FY 
        2015 Budget proposes a fresh government-wide reorganization of 
        science, technology, engineering, and mathematics (STEM) 
        education programs designed to enable more strategic investment 
        in STEM education and more critical evaluation of outcomes. In 
        2012, there were more than 200 STEM education programs across 
        government. Already, a substantial number of program 
        consolidations and eliminations have been implemented or will 
        be completed this year largely through administrative action. 
        The Budget continues to reduce STEM fragmentation by proposing 
        33 additional program consolidations or eliminations, and 
        focuses ongoing efforts around the five key areas identified by 
        the Federal STEM Education 5-Year Strategic Plan.

  <bullet> Modifying the Medicare Provider Payment. The FY 2015 Budget 
        contains proposals that build on initiatives included in the 
        Affordable Care Act to help extend Medicare's solvency while 
        encouraging provider efficiencies and improved patient care. 
        Specifically, the FY 2015 Budget modifies and restructures 
        payments to certain providers to address payments that exceed 
        patient care costs, increase efficiency and reduce waste, and 
        recoups excess payments to manufacturers. For example, the 
        Budget proposes to align Medicare payments for drugs with 
        Medicaid rebate policies for low-income beneficiaries. It 
        continues to crack down on fraud and creates more efficient, 
        bundled payments for post-acute care providers. These, along 
        with other Medicare proposals, would save more than $400 
        billion and extend the solvency of the Hospital Insurance trust 
        fund by approximately 5 more years.

  <bullet> Cutting Improper Payments. When the President took office in 
        2009, the improper payment rate was 5.42 percent and rising. 
        Since then, the Administration, working with the Congress, 
        significantly reduced improper payments through yearly reviews 
        by agency Inspectors General and expanded requirements for high 
        priority programs. This strengthened accountability and 
        transparency in payments resulted in the improper payment rate 
        declining to 3.53 percent in 2013 when factoring in DOD 
        commercial payments. Furthermore, agencies recovered more than 
        $22 billion in overpayments through payment recapture audits 
        and other methods in 2013.

  <bullet> Saving on Real Property Costs. In 2012, the Administration 
        issued a Freeze the Footprint policy and directed agencies to 
        freeze the growth in their real estate inventory. Through this 
        effort, the Administration works, in collaboration with the 
        Federal Real Property Council, to improve the quality of real 
        property inventory data and to develop key performance metrics. 
        In 2014, the Administration will begin publicly tracking the 
        government's adherence to a fixed baseline of 730.2 million 
        square feet of office and warehouse space. Agencies will 
        continue to pursue mobile workforce strategies and tighter 
        internal controls on space acquisitions. In addition, the 
        Budget proposes the Civilian Property Realignment Act (CPRA), 
        which would create an independent board of private and public 
        sector real estate experts that would make recommendations to 
        the Congress on properties that should be sold, consolidated, 
        co-located, or reconfigured. Legislation to create CPRA would 
        help to streamline the disposal process, generate $2 billion in 
        savings through the disposal of excess properties, and provide 
        funds for real property reinvestment. Further, modernization 
        would support the consolidation of the Federal real estate 
        inventory and help reduce the government's operating costs.

  <bullet> Consolidating Data Centers. Under the President's Federal 
        Data Center Consolidation Initiative, the Administration is 
        working to optimize and consolidate Federal data centers across 
        the nation. Agencies are pursuing a dual track strategy: making 
        their core, or most important data centers, operate more 
        efficiently and closing down their non-core data centers and 
        shifting workloads to lower-cost, optimized options, like cloud 
        providers. Since agencies began executing their data center 
        consolidation plans in 2011, more than 700 data centers have 
        been closed (a complete listing of these can be found on 
        Data.gov), leading to a net reduction in data centers for the 
        first time in over a decade. At the remaining data centers, 
        agencies have been lowering the costs of operations through 
        greater energy efficiency, greater utilization of servers, and 
        other improved operating practices. These savings are being 
        reported through the PorfolioStat process.

  <bullet> Expanding Strategic Sourcing. The Administration's efforts 
        to better leverage the government's buying power through the 
        use of strategic sourcing has saved over $300 million since 
        2010 on commonly purchased goods such as office supplies and 
        services such as package delivery. For example, creation of 
        central vehicles that can be used by all Federal agencies has 
        reduced contract duplication and reduced prices for some common 
        office supplies by over 65 percent. Such efforts save taxpayer 
        dollars directly through reduced prices and duplication that 
        allows agencies to focus scarce human capital resources on more 
        complex, mission-critical efforts.

  <bullet> Expanding Shared Services. Today, many agencies are spending 
        too much time and money on administrative and operating 
        functions that are not central to their core mission and shared 
        by other agencies. These functions could be handled by Federal 
        Shared Service Providers (SSPs), reducing duplication and costs 
        while increasing quality of services through concentrated 
        expertise. In some administrative areas, the government has 
        already coalesced around a small number of SSPs. For example, 
        payroll services are provided for all Federal agencies by 
        service centers at the Departments of Agriculture, the 
        Interior, Defense (DOD), State, and the General Services 
        Administration. In the largest financial management shared 
        service arrangement established to date, the Department of 
        Housing and Urban Development has signed an interagency 
        agreement with the Department of the Treasury to transition all 
        of its core financial management functions to Treasury 
        beginning in 2015. The Administration will continue to drive 
        efficiencies and cost savings by increasing the performance and 
        capacity of the SSPs.

  <bullet> Continuing PortfolioStat. In 2012, OMB initiated the 
        PortfolioStat process, a data-driven effort with agencies to 
        examine IT portfolios and identify common areas of spending to 
        decrease duplication and drive down costs. As a result of 
        PortfolioStat, agencies reported nearly $1.6 billion in savings 
        and identified more than $2.5 billion in savings that could be 
        achieved over the 2013-2015 period. The Administration is 
        committed to continuing the PortfolioStat process to drive 
        further management improvements, save billions of dollars 
        across the Federal Government, and improve services to 
        Americans through the effective use of technology.

  <bullet> Expanding Federal Cloud Computing. The governments is 
        transforming its IT portfolio through cloud computing, giving 
        agencies the ability to purchase IT services in a utility-based 
        model, paying for only the services consumed. As a result of 
        the Administration's Cloud First policy, Federal agencies 
        adopting cloud-based IT systems are increasing operational 
        efficiencies, resource utilization, and innovation. To 
        accelerate the pace of cloud adoption, the Administration 
        established the Federal Risk Authorization Management Program 
        (FedRAMP), a government-wide program standardizing how we 
        secure cloud solutions. To further grow the use of cloud-based 
        services and improve customer service, the government is 
        working to establish a credential exchange system that allows 
        citizens and businesses to securely access online services at 
        different agencies without the need for multiple digital 
        identities and passwords.

  <bullet> Consolidating Business and Trade Promotion into a Single 
        Department. As the President indicated in 2012, if given 
        Presidential reorganization authority, the first proposal would 
        be to consolidate a number of trade and economic development 
        agencies and programs into a new Department with a focused 
        mission to foster economic growth and spur job creation. By 
        bringing together the core tools to expand trade and 
        investment, grow small businesses, and support innovation, this 
        reorganization would help American businesses compete in the 
        global economy, expand exports, and create more jobs at home.

  <bullet> Reforming Military Acquisition. The military services and 
        defense agencies have a portfolio of 81 ongoing major weapon 
        system acquisition programs, and DOD contracts account for 
        approximately 70 percent of all Federal procurement. The Budget 
        continues to invest in DOD's Better Buying Power (BBP) reform, 
        charting a path to greater productivity in the military 
        acquisition system. New BBP initiatives enforce affordability 
        caps, measure cost performance, and align contractor 
        profitability with acquisition goals. DOD-instituted best 
        practices for procurement include applying lessons learned, 
        expanding strategic sourcing, establishing acquisition 
        professional reviews, and instituting peer reviews to ensure 
        effective competition. These actions help further the 
        Administration's ongoing government-wide goal to ensure smarter 
        and more fiscally responsible buying across government.

  <bullet> Eliminating the Preventive Health and Health Services Block 
        Grant. The FY 2015 President's Budget eliminates the Preventive 
        Health and Health Services Block Grant (PHHSBG) program given 
        duplication with other public health programs. The PHHSBG 
        activities could be more effectively and efficiently 
        implemented through the State Public Health Actions to Prevent 
        and Control Diabetes, Heart Disease, Obesity and Associated 
        Risk Factors and Promote School Health program, which provides 
        resources to states to coordinate activities across categorical 
        funding streams.

  <bullet> Restructuring Army Aviation. The Budget proposes to 
        restructure the Army aviation fleet in order to eliminate 
        duplication, focus resources on the most capable aircraft, and 
        realign force structure according to operational need. This 
        proposal divests older, less capable aircraft and replaces them 
        with more capable Apaches teamed with unmanned aerial vehicles 
        for armed reconnaissance, and LUH-72 Lakota helicopters for 
        training missions. The Army also proposes transferring Apache 
        helicopters from the National Guard to the Active Army and 
        transferring Blackhawk helicopters from the Active Army to the 
        National Guard to better meet operational demands.

  <bullet> Reforming Crop Insurance Program. The Budget proposes to 
        reduce Federal subsidies for disproportionately subsidized 
        plans that benefit primarily wealthy corporate farmers and to 
        reduce overpayments to private crop insurance companies. 
        Reforming Federal crop insurance by reducing subsidies for 
        overly generous coverage is projected to save $14 billion over 
        the next 10 years.

  <bullet> Reforming the Federal Employees' Compensation Act (FECA). 
        The Budget proposes a series of FECA reforms that act on past 
        GAO recommendations to improve and update the program. These 
        reforms would generate government-wide savings of more than 
        $340 million over 10 years.

  <bullet> Reforming Government-wide Grants and Financial Assistance 
        Policies. In 2013, the Administration issued consolidated 
        guidance that streamlines eight Federal regulations into a 
        single, comprehensive policy. The new guidance is a key 
        component of the Administration's effort to more effectively 
        focus the $600 billion awarded annually for grants and other 
        types of financial assistance on improving performance and 
        outcomes while ensuring the financial integrity of taxpayer 
        dollars.

  <bullet> Eliminating the Diesel Emissions Reduction Grant Program. 
        The Budget proposes to eliminate the Diesel Emissions Reduction 
        Grant program in FY 2015, one of the programs identified in 
        GAO's 2012 report under ``Diesel Emissions''. The program has 
        helped to reduce pollution emissions through engine retrofits, 
        rebuilds, and replacements. The remaining legacy diesel fleets 
        will be reduced over time as they are replaced with engines 
        that meet modern emission standards.

  <bullet> Streamline Farm Service Agency (FSA) Operations. The FSA is 
        focused on ensuring that it has the right workforce in the 
        right places to deliver the best customer service possible. FSA 
        has conducted a review of 2,100 field offices, and in an effort 
        to modernize its field structure proposes closing or 
        consolidating 250 offices as part of streamlining efforts that 
        will save an estimated total of $39 million in 2015.

  <bullet> Improving Administrative Benchmarking. Federal agencies 
        often do not have the tools to measure their performance in key 
        administrative areas such as human resources, finance, IT, and 
        real property. Beginning in 2014 and continuing in 2015, the 
        Administration will leverage the Executive Councils, which 
        represent the chief administrative and operating officials at 
        Federal agencies, to establish cost, quality, and performance 
        benchmarks in each of these key areas.

    Many of these efforts overlap with opportunities identified by GAO 
for important government-wide and program-specific costs savings and 
efficiencies.
Progress on GAO's 2011, 2012, and 2013 Recommendations to the Executive 
        Branch
    GAO also has taken an active role in analyzing the structure of the 
Federal Government and recommending areas to reduce duplication and 
fragmentation. In 2011, GAO began annual reporting on specific 
opportunities for the Federal Government to reduce duplication, 
overlap, and fragmentation and to pursue other financial opportunities. 
The GAO also released annual reports in 2012 and 2013, and on April 8, 
2014 released its fourth annual report.
    In total, the first three GAO reports include more than 162 issue 
areas, many of which require the coordination of multiple Federal 
agencies or Congressional committees to address. In almost all areas, 
fully completing a recommended consolidation or reform takes time--a 
fact that GAO recognizes. Despite this challenge, the Administration is 
committed to getting the job done.
    An initial look at GAO's 2014 report indicates that it recognizes 
that significant progress is being made.

  <bullet> GAO found that Congress and the Executive Branch have made 
        progress on addressing 130 of the 162 (80 percent) broad areas 
        needing attention.

  <bullet> In terms of specific recommended actions within these broad 
        areas, GAO found that the Executive Branch addressed or 
        partially addressed 267 of the 323 (83 percent) recommended 
        actions directed to the Executive Branch.

  <bullet> GAO found that Congress addressed or partially addressed 28 
        of the 66 (42 percent) recommended actions directed to 
        Congress.

    Selected accomplishments in areas where GAO previously made 
recommendations include:

  <bullet> Homelessness Program (area 30, 2011). The U.S. Interagency 
        Council on Homelessness (ICH) is fully addressing the GAO 
        recommendations related to improving interagency collaboration. 
        ICH has provided strong leadership on cross-cutting homeless 
        issues, and has forged substantive links between agencies to 
        improve coordination and targeting, obtain better data and 
        improve outreach efforts. These and other ICH collaborative 
        efforts are essential to achieving the goals outlined in the 
        Federal Strategic Plan to Prevent and End Homelessness. In 
        addition, the 2015 President's Budget proposes to transfer 
        funding for the FEMA Emergency Food and Shelter (EFS) program 
        to the Department of Housing and Urban Development (HUD). By 
        allowing HUD to administer this program, the Administration is 
        aligning its dedicated homeless assistance resources, avoiding 
        duplication between programs, and ensuring that the funding 
        appropriated for EFS assists in meeting the goals of the 
        Federal Strategic Plan.

  <bullet> Housing Assistance (area 28, 2012). While the Administration 
        has not proposed consolidating housing loan programs, the 
        Administration is evaluating opportunities to improve programs 
        through increased coordination among housing credit agencies.

    <ctr-circle> From 2011-2013, the Rental Policy Working Group 
            implemented a two-round pilot in six states to test the 
            feasibility of conducting a single physical inspection in a 
            sample of jointly subsidized multifamily housing properties 
            that would satisfy all agencies' inspection requirements. 
            In 2014, the Working Group is expanding the pilot to over 
            20 states.

    <ctr-circle> In 2011, HUD implemented the Low-Income Housing Tax 
            Credit (LIHTC) Pilot to align Federal Housing 
            Administration (FHA) processing of mortgage insurance 
            applications with the tight external deadlines imposed by 
            the LIHTC program. In March 2014, FHA implemented several 
            revisions to the LIHTC Pilot to provide more flexibility 
            and make it available to a wider array of projects.

  <bullet> Economic Development Programs (area 9, 2011). The 
        Administration has launched a major initiative--BusinessUSA--
        aimed at addressing duplication issues in economic development 
        programs identified in the GAO report. BusinessUSA, which was 
        launched in 2012 and continues to grow, is a one-stop shop for 
        businesses looking for Federal business assistance. The 
        Administration also continues to request broader reorganization 
        authority from Congress to improve the effectiveness and cost-
        efficiency of Federal programs as described previously.

  <bullet> Department of Homeland Security Grants Consolidation (area 
        26, 2011; area 17, 2012). The President has proposed reforming 
        the structure of Federal Emergency Management Agency (FEMA) 
        grants by creating the National Preparedness Grant Program 
        (NPGP) which would focus resources on building and sustaining 
        core capabilities associated with the five mission areas of the 
        National Preparedness Goal. As proposed, NPGP would break down 
        existing program silos and shift the focus away from awarding 
        funds based on state formulas toward a capability-enhancing 
        regional approach. The new program would not be bound by a 
        formula-based allocation, but would use competition and risk-
        informed assessments to close the gaps identified in a 
        comprehensive Threat, Hazard, Identification and Risk Analyses 
        (THIRAs), which are the product of a nation-wide needs 
        assessment coordinated by FEMA. Investment justifications would 
        be assessed by FEMA with significant regional input, with the 
        goal of meeting specific response-level targets nationwide.

  <bullet> Support for Entrepreneurs (area 7, 2012). The Department of 
        Commerce (DOC), Small Business Administration (SBA), and 
        Department of Agriculture (USDA) continue to make progress on 
        improving program evaluation and performance metrics in 
        programs designed to spur entrepreneurship. All three agencies 
        are part of an interagency working group that is looking at the 
        information currently collected on these technical assistance 
        programs and what further information is needed to fully track 
        their impact. BusinessUSA is also encouraging interagency 
        collaboration on entrepreneurial development assistance 
        programs.

  <bullet> Defense Warfighter Urgent Needs (area 3, 2011). The 
        Department of Defense has performed internal analysis and taken 
        steps to streamline organizations and processes intended to 
        address the urgent needs of warfighters. Two studies examining 
        potential overlap or duplication in these efforts were provided 
        in a May 2013 report to Congress on the ``Review of Acquisition 
        Processes for Rapid Fielding of Capabilities in Response to 
        Urgent Operations Needs.'' The result indicated that further 
        consolidation was not currently needed, but highlighted that 
        the Mine Resistant Ambush Protected (MRAP) Task Force was no 
        longer operational and JIEDDO is being realigned as a permanent 
        organization within the Office of the Under Secretary of 
        Defense (Intelligence). These steps combined with guidance from 
        the Chairman of the Joint Chiefs in 3170.01H, ``Joint 
        Capabilities and Development System'', and the Department of 
        Defense Directive 5000.71, ``Rapid Fulfillment of Combat 
        Commander Urgent Operational Needs'', should lead to greater 
        effectiveness and less duplication in supporting the 
        warfighter.

  <bullet> Employment and Training (area 32, 2011). The Administration 
        has taken a number of steps to improve coordination and 
        alignment across Federal training and employment programs. The 
        Workforce Innovation Fund, launched last year, supports state, 
        regional, and local efforts to work across program silos to 
        produce better employment outcomes for job-seekers and workers; 
        the 2015 Budget continues this program, along with a request 
        for broader waiver authority to give grantees more room to 
        innovate. The Administration has also sought greater 
        flexibility to blend funding in exchange for greater 
        accountability for outcomes. For example, its proposed 
        Performance Partnership Pilot authority was enacted in the 2014 
        Omnibus and will permit greater cross-program work to achieve 
        better outcomes for disconnected youth. The Administration has 
        also recommended targeted consolidations that would reduce 
        overlap without adversely affecting vulnerable populations, 
        like the Veterans Workforce Investment Program, which was 
        eliminated in 2013 and its funding redirected to other 
        veterans' employment activities. The 2015 Budget includes a New 
        Career Pathways program that would provide individuals who lose 
        their jobs with a single set of core services, consolidating 
        two narrowly targeted programs. Last, the President has 
        directed the Vice President to lead an interagency Job-Driven 
        Training review to suggest changes to make training and 
        employment programs more responsive to employers and the labor 
        market, easier for job seekers to navigate, and more 
        accountable for the employment outcomes they produce. This 
        review will include recommendations to promote better alignment 
        across programs.

  <bullet> Baggage Screening Systems (area 78, 2011). The 
        Transportation Security Administration (TSA) continues to 
        invest in in-line explosives detection systems (EDS) for 
        baggage screening. In-line configurations integrate the EDS 
        equipment into the baggage handling system, allowing TSA to 
        achieve operational improvements and staffing efficiencies. GAO 
        reported in 2011 that these systems have the potential to 
        generate significant cost savings for TSA. TSA estimates that 
        in-line baggage screening systems have yielded a cumulative 
        savings of $200 million and over 3,000 full time equivalent 
        positions through FY 2014. The 2015 Budget estimates an 
        additional $22 million in savings as a result of in-line 
        baggage screening projects.

  <bullet> DOD's Coordination of Counter-Improvised Explosive Device 
        Efforts and Timeline for Counter-Improvised Explosive Device 
        Database Implementation (area 4, 2012). In response to GAO's 
        February 2012 recommendation, the Joint IED Defeat Organization 
        (JIEDDO) developed the counter-IED initiative alternatives 
        analysis process to help ensure that selected solutions are 
        fully vetted to identify and reduce unnecessary duplication, 
        overlap and fragmentation before being funded. JIEDDO has also 
        developed a department-wide counter-IED efforts database, as 
        GAO recommended in February 2012. JIEDDO now captures 
        information derived from various sources to better 
        comprehensively coordinate all DOD counter-IED efforts, thereby 
        limiting and reducing the risk of duplication in its 
        multibillion-dollar counter-improvised explosive device 
        efforts.

  <bullet> Passenger Aviation Security Fees (area 48, 2012). The 
        President's Budget proposes an increase in the TSA aviation 
        security passenger fee to cover a greater percent of the costs 
        of TSA passenger and baggage screening and other aviation 
        security services. The Budget proposal builds on the fee 
        increase enacted in December through the Bipartisan Budget Act, 
        which the Administration believes was an important step in 
        bringing fees back in line with security costs. In 2012, GAO 
        reported that increasing the TSA aviation passenger security 
        fee could help offset billions of dollars in the Federal budget 
        for aviation security programs and activities.

  <bullet> Auto Recovery Office within DOL (area 50, 2012). The 
        Department of Labor is in the final stages of terminating the 
        Office of Recovery for Auto Communities and Workers. While this 
        Office was an instrumental part of the Administration's 
        successful restructuring efforts of the American automotive 
        industry, it has completed its mission.

  <bullet> Combat Uniforms (area 2, 2013). The Department of Defense 
        (DOD) developed and issued joint criteria for new camouflage 
        uniforms, which are designed to provide equivalent levels of 
        performance and protection, minimize risk to service members, 
        and provide interoperability for future military ground combat 
        uniforms.

  <bullet> Employment for People with Disabilities (area 10, 2012). In 
        addition to the actions GAO highlighted, the Administration has 
        undertaken the following actions to better reduce duplication, 
        overlap, and fragmentation among programs that serve people 
        with disabilities. The President's 2015 Budget requests new 
        authority and $400 million in new resources for the Social 
        Security Administration (SSA), in partnership with other 
        Federal agencies, to test innovative strategies to help people 
        with disabilities remain in the workforce. Early-intervention 
        measures, such as supportive employment services for 
        individuals with mental impairments, targeted incentives for 
        employers to help workers with disabilities remain on the job, 
        and opportunities for states to better coordinate services, 
        have the potential to achieve long-term gains in the employment 
        and the quality of life of people with disabilities, and the 
        proposed demonstration authority will help build the evidence 
        base for future program improvements. The demonstration 
        proposals were developed through a comprehensive inter-agency 
        process, and additional detail can be found in SSA's 
        Congressional Justification. In addition, the Job-Driven 
        Training review being led by the Vice President will involve 
        several programs that serve individuals with disabilities, and 
        result in recommendations aimed at improving and better 
        aligning them with other programs to produce better outcomes 
        for individuals with disabilities.

  <bullet> Domestic Food Assistance (area 29, 2011). In February, the 
        President signed into law the Agricultural Act of 2014, which 
        included a provision that addresses an area of duplication 
        identified by GAO, between the Special Supplemental Nutrition 
        Program for Women, Infants, and Children (WIC) and the 
        Commodity Supplemental Food Program (CSFP). Pursuant to this 
        provision, CSFP will focus on serving seniors, while pregnant 
        and postpartum women, infants, and children seeking assistance 
        in the future will be served through the WIC program.

    Of actions GAO previously recommended for Executive Branch 
attention which have not yet been addressed, many require longer-term 
implementation strategies, which GAO recognizes in its report.

  <bullet> Personnel Background Investigations (area 11, 2012). 
        Following the September 2013 Navy Yard shooting, the President 
        directed the Office of Management and Budget (OMB) to lead a 
        review of suitability and security clearance procedures for 
        Federal employees and contractors. The Administration released 
        a report detailing the findings of this review, identifying 13 
        recommendations to improve how the government performs 
        suitability determinations and security clearances, thereby 
        ensuring the safety of Federal workers and the protection of 
        our nation's most sensitive information. The report's 
        recommendations were developed by an interagency review team, 
        comprised of representatives from OMB, Office of the Director 
        of National Intelligence (ODNI), Office of Personnel Management 
        (OPM), Department of Defense (DOD), Department of Homeland 
        Security (DHS), Department of Justice (DOJ), Federal Bureau of 
        Investigation (FBI), the Information Security Oversight Office 
        (ISOO), and the National Security Council (NSC). The review 
        complements and builds upon DOD's Navy Yard Reviews, and 
        ongoing work by OPM, ODNI, and other agencies. The Review 
        assessed government policies, programs, processes, and 
        procedures involving determinations of Federal employee 
        suitability, contractor fitness, and personnel security. The 
        interagency working group also evaluated the collection, 
        sharing, processing, and storage of information used to make 
        suitability, credentialing, and security decisions. The Review 
        found the need for better information sharing, increased 
        oversight over background investigations, and consistent 
        application of standards and policies for both Federal 
        employees and contractors.

  <bullet> DOD-VA Electronic Health Record System (area 18, 2011). 
        While continuing efforts to enhance seamless integration of 
        health records, DOD and Veterans Affairs (VA) are on 
        complementary paths for modernizing their respective electronic 
        health record (EHR) systems. The VA/DOD Interagency Program 
        Office (IPO) will lead the Departments' efforts to implement 
        national health data standards for interoperability and is 
        responsible for establishing, monitoring, and approving the 
        clinical and technical standards profiles. The Departments and 
        the IPO will provide regular updates on EHR development and 
        acquisition efforts to the GAO.

  <bullet> Public Health Information Systems (area 20, 2011). The 
        Administration published the National Strategy for 
        BioSurveillance in July 2012 and the National BioSurveillance 
        Science and Technology Roadmap in June 2013, and is in the 
        process of evaluating current capabilities and planning for 
        improvements that will streamline the receipt and analysis of 
        essential information.

  <bullet> Social Security Offsets (area 80, 2011). The President's 
        2015 Budget includes a provision to improve collection of 
        pension information from states and localities to better 
        enforce the existing Windfall Elimination Provision (WEP) and 
        Government Pension Offset (GPO) policies.
Administration Progress in Selected Areas Identified in GAO's 2014 
        Recommendations
    GAO's 2014 report includes a new set of recommendations not covered 
in previous GAO reports. The Administration is reviewing GAO's 2014 
recommendations, but a preliminary review indicates that the 
Administration is already taking action in many of the areas identified 
by GAO. Ongoing action includes:

  <bullet> Army Workforce Planning (area 1, 2014). The Army continues 
        to work towards eliminating the Army Workload and Performance 
        System (AWPS) and replacing it with the Logistics Modernization 
        Program (LMP) to address the duplication that exists between 
        these systems.

  <bullet> Contracting for Defense Health Care Professionals (area 2, 
        2014). The Department of Defense (DOD) continues to explore 
        opportunities for improved efficiency in contracting for 
        Defense Health Care professionals. In October 2013, DOD stood 
        up the Defense Health Agency (DHA), which is working on 
        consolidating ten Shared Services, including contracting, among 
        the three Services' Medical Departments, in order to improve 
        effectiveness and efficiency within the Military Health System 
        by achieving greater standardization and economies of scale 
        across the system. The DHA Division on Contracting Shared 
        Services has leveraged GAO's recommendations and is actively 
        pursuing improved contracting strategies for health care 
        professionals and other services and commodities.

  <bullet> Defense Satellite Control Operations (area 3, 2014). DOD 
        concurs with GAO that its satellite control operations should 
        become more interoperable, and is working toward fulfilling the 
        requirements in the FY 2014 National Defense Authorization Act. 
        DOD is undertaking an extensive effort to develop a new 
        satellite control operations architecture and concept of 
        operations, which will leverage existing modernization plans 
        and commercial best practices. The goal is to improve future 
        satellite control operations and cyber protection while 
        reducing life cycle cost and maintaining the uninterrupted 
        operation of more than 170 satellites.

  <bullet> Defense Studies and Analysis Research (area 4, 2014). 
        Defense Studies and Analysis Research are currently conducted 
        throughout the Department of Defense and each of the military 
        services. While specific offices are designated to formally 
        coordinate research requests within each service and the Office 
        of the Secretary of Defense, there is not always a requirement 
        to coordinate among entities. Regardless of where the research 
        and analysis is approved, once it is being conducted, ongoing 
        and completed reports and studies are shared throughout the 
        defense community through the Defense Technical Information 
        Center (DTIC), online at www.dtic.mil. In some specific areas, 
        such as the Science and Technology community, executive 
        committees and communities of interest facilitate coordination 
        in areas of overlapping interest to avoid duplication and 
        combine efforts and resources to meet a common goal.

  <bullet> POW/MIA Mission (area 5, 2014). In a July 2013 report, GAO 
        found that the missing persons accounting community is at risk 
        of performing overlapping and duplicative efforts due to a lack 
        of clarity in its members' roles and responsibilities and a 
        fragmented organizational structure. In an effort to address 
        this issue, DOD announced in March 2014 that it will combine 
        the Joint POW-MIA Accounting Command and the Defense POW-MIA 
        Office into a single organization. The new organization will 
        streamline POW-MIA personnel recovery operations. DOD will also 
        create a single centralized case management database of missing 
        service member information. This new system will aid in 
        recovery and provide family members with a single point of 
        contact for information on missing persons.

  <bullet> Minority AIDS Initiative (area 7, 2014). In implementing the 
        National HIV/AIDS Strategy, HHS established a working group in 
        2011. The working group established a set of common core HIV 
        indicators across HHS-funded programs and developed 
        corresponding implementation guidance. The group continues to 
        work on streamlining data collection and reducing HIV grantee 
        reporting burden by more than \1/3\.

  <bullet> Disability and Unemployment Benefits (area 8, 2014). The 
        President's 2015 Budget proposes to prevent individuals from 
        collecting full unemployment and disability insurance benefits 
        for the same period of time. This will provide savings of about 
        $3 billion over 10 years.

  <bullet> Federal Employees Compensation and Unemployment (area 9, 
        2014). The Administration's FECA reforms, which the 2015 Budget 
        re-proposes, would authorize DOL to cross-match FECA records 
        with Social Security wage records to reduce improper payments.

  <bullet> Combatant Command Headquarters Costs (area 12, 2014). GAO's 
        2014 Annual Report on duplication assesses that DOD does not 
        adequately evaluate staffing requirements and operating costs 
        for the six geographic combatant commands (COCOMs). Since a 
        previous GAO report in May 2013 recommended a comprehensive 
        review of the size and structure of the COCOM headquarters, DOD 
        has ordered a phased 20 percent reduction to all service and 
        COCOM headquarters, in addition to other management reductions, 
        which together will save $5.3 billion through FY 2019 as 
        described in the President's Budget for FY 2015. DOD will also 
        strive to reduce COCOM headquarters' civilian staffing by 20 
        percent over the same period. In a related action, GAO 
        recommends that DOD assess whether U.S. Africa Command should 
        move its headquarters from Germany to the United States. Such a 
        move requires more extensive analysis of the fiscal and 
        operational impacts.

  <bullet> Advanced Technology Vehicles Manufacturing Loan Program 
        (area 13, 2014). ATVM was established by Congress in 2007 to 
        support the production of fuel-efficient, advanced technology 
        vehicles and components in the United States. The program has 
        since supported more than a dozen new or retooled auto 
        manufacturing plants across the country creating or saving over 
        35,000 jobs. While the program has faced challenges in 
        attracting new applicants over the past few years, the 
        Administration is actively working to reinvigorate the program 
        through outreach and improvements to the application process.

  <bullet> Real Estate Owned Properties (area 18, 2014). To continue 
        making progress in maximizing the value of homes taken into 
        possession through loan defaults, FHA is expanding use of rapid 
        sales techniques such as pre-foreclosure sales and using 
        enhanced sources of market price information such as automated 
        valuation models. FHA increased its share of pre-foreclosure 
        sales from 6.6 percent in 2008 to 14.4 percent in 2013.

  <bullet> Social Security Disability Insurance & Earnings Data (area 
        22, 2014). SSA continues to assess the feasibility of using 
        additional data sources to identify beneficiary earnings and 
        will add sources where doing so are cost-effective and 
        permitted by law. In addition, SSA is analyzing the specific 
        cases identified by GAO as potentially having been overpaid due 
        to work above the substantial gainful activity level in the 
        waiting period, properly developing evidence of earnings, and 
        making work activity determinations according to the agency's 
        policies.

  <bullet> Veterans' and Survivors' Benefits (area 23, 2014). The 
        Department of Veterans' Affairs (VA) is currently taking action 
        to address GAO's 2014 report recommendation aimed at creating 
        greater asset look-back review for veterans' and survivors' 
        benefits. Under current regulations, veterans can transfer or 
        gift assets prior to applying for pension benefits without 
        penalty, and VA does not inquire about these transfers. VA has 
        conducted a comprehensive rewrite of its regulations to allow 
        more questions about asset transfers during the 3 years prior 
        to applying for benefits. Once these rewrites are complete, VA 
        will begin using the additional data to conduct look-back 
        reviews to reduce fraud and ensure beneficiaries receive the 
        correct benefits.

  <bullet> Better Data to Mitigate Foreclosures (area 25, 2014). While 
        FHA continues to evaluate its loss mitigation programs, it made 
        changes to help borrowers at the very early stages of 
        delinquency when interventions can prevent serious delinquency, 
        including use of borrower characteristics to choose the 
        appropriate form of assistance. FHA increased the number of 
        households assisted with early intervention by 31 percent 
        between 2010 and 2013 and reduced 6 month re-default rates from 
        17 percent in 2011 to eight percent in 2013 among those who 
        were helped by the agency's loss mitigation programs.

  <bullet> Housing Choice Vouchers Rent Reform (area 26, 2014). The 
        Administration continues to support HUD in its evaluation of 
        public housing agencies participating in the Moving To Work 
        (MTW) program that are undergoing rent reform efforts (i.e., 
        changes in the way and amount families contribute towards rent) 
        to determine which, if any, rent reform options can and should 
        be expanded. Lessons learned from these efforts, however, are 
        not only limited to the Housing Choice Voucher program but 
        would apply to all HUD rental assistance programs, including 
        Project Based Rental Assistance and Public Housing. In 
        addition, as a part of the FY 2015 Budget, the Administration 
        supports additional funding for the rent reform demonstration 
        and plans to submit legislation to expand the MTW program to 
        high performing public housing agencies to further test 
        innovative strategies such as rent reform, combined with 
        rigorous evaluation requirements.
                           Submitted Question
Response from Angela K. Rachidi, Ph.D., Research Fellow in Poverty 
        Studies, American Enterprise Institute
Question Submitted by Hon. David Rouzer, a Representative in Congress 
        from North Carolina
    Question. As I travel through my district and this issue comes up, 
I cannot tell you how many people believe that these programs are 
misusing funds. When it comes to research and oversight, what do we 
know about the effectiveness of these programs and the way they are 
administered? Does this fragmented system of 18 different programs, 
administered by three Federal departments, work in a way that is 
effective and financially responsible? If you were to analyze the 
individual programs, would taxpayers find these funds to be 
appropriately administered?
    Answer. With a few exceptions, the evidence suggests that the large 
programs (e.g., SNAP, National School Lunch, WIC) are administered 
fairly effectively with some exceptions. For example, the error rate 
for the Supplemental Nutrition Assistance Program (SNAP) is 
approximately 3.2%, which is quite good considering the complexity of 
the program. In terms of the National School Lunch Program, there is 
some evidence that categorical eligibility has some problems. A recent 
GAO report found some errors in how categorical eligibility was 
determined. In an unrepresentative sample of 25 approved applications 
for the school meals program, six indicated categorical eligibility but 
the GAO found that two were not eligible at all and one was not 
eligible for free lunch, but possibly reduced lunch.\1\ There is always 
room for improvement, but in general these programs are considered 
fairly well administered and there does not seem to be a large scale 
problem concerning misuse of funds.
---------------------------------------------------------------------------
    \1\ http://www.gao.gov/assets/680/670078.pdf.
---------------------------------------------------------------------------
    In addition, the evidence suggests that the programs that have been 
studied (again, the large programs such as SNAP, School Lunch, and WIC) 
do have positive benefits for recipients. However, the small programs 
have not been evaluated to the same extent so it is unclear whether 
they have the same positive benefits as the larger programs, although 
one can assume that they likely do. Although the evidence is positive 
in terms of recipient outcomes, it does not address the question of 
whether these programs could be administered in a better, more 
coordinated way.
    I am not aware of any evaluations assessing the effectiveness of 
how these programs are administered; meaning whether the decentralized 
manner in which they are operated is effective or not. But in my 
experience working for the City of New York, a fragmented system (at 
the local level that starts with the Federal level) does create 
inefficiencies and fails to capitalize on technology that could reduce 
errors and improve efficiency. In this sense, if I were to evaluate 
each program individually I might conclude that they are appropriately 
administered, but taken together I would find that a lack of 
coordination causes some problems. Efforts to improve coordination, 
especially through oversight and the use of technology are recommended.


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

   (THE PAST, PRESENT, AND FUTURE OF SNAP: THE MEANS TO CLIMBING THE 
                            ECONOMIC LADDER)

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Lucas, Thompson, Austin Scott of Georgia, Benishek, LaMalfa, 
Davis, Yoho, Walorski, Allen, Bost, Abraham, Moolenaar, 
Newhouse, Peterson, David Scott of Georgia, Walz, Fudge, 
McGovern, Vela, Lujan Grisham, Kuster, Nolan, Bustos, 
Kirkpatrick, Aguilar, Plaskett, Graham, and Ashford.
    Staff present: Anne DeCesaro, Carly Reedholm, Haley Graves, 
Jackie Barber, Mary Nowak, Mollie Wilken, Scott C. Graves, 
Faisal Siddiqui, John Konya, Evan Jurkovich, Lisa Shelton, Liz 
Friedlander, Mike Stranz, and Nicole Scott.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning, I now call the meeting to 
order. Please join me in a prayer. Dear Holy Father, we thank 
you, Lord, for the multitude of blessings you bestowed upon us. 
Thank you for the privilege, Lord, of leading the country on 
the House Agriculture Committee. Be with us this morning as we 
deliberate these important issues. Help us understand the 
hearts of the witnesses, and the impact they have on our 
decision-making. Bless us now at the hour of service. We ask 
this in Jesus' name, amen.
    I welcome our witnesses to today's hearing. I thank them 
for taking the time to share their perspectives as we explore 
the means of helping families climb the economic ladder. This 
hearing, like those before, builds on the Committee's top to 
bottom review of the Supplemental Nutrition Assistance Program. 
Throughout this process we have had an eye toward strengthening 
SNAP so that it doesn't become a trap, but rather a tool to 
help individuals move up the economic ladder. Today we will 
hear a variety of ways of actually doing that.
    As we have learned throughout this hearing series, SNAP 
does not operate in a vacuum. It should not be expected to 
carry the entire load and provide all solutions for the most 
vulnerable. That being said, it does serve as an important role 
in the lives of nearly 46 million Americans. In order to better 
understand and serve SNAP recipients, it is important to have a 
realistic view of what it takes for many Americans to get back 
on their feet and enter, re-enter, and remain in the workforce. 
Steady employment makes it possible to climb the economic 
ladder and rise out of poverty.
    According to the U.S. Census Bureau, only 2.7 percent of 
full time workers are poor, as defined by the Federal poverty 
level, compared with 32.3 percent of adults who do not work. 
Even part time work makes a significant difference. Only 17.5 
percent of part time workers are poor. That is why SNAP has 
long had an employment and training component. However, in an 
effort to promote administrative efficiency and decrease cost, 
often at the expense of benefit costs, the program overall has 
moved away from engaging recipients. What we will hear today is 
that the opposite should be happening. A greater level of 
engagement is needed between SNAP and recipients.
    Encouraging work is good for both recipients and taxpayers. 
Increasing work among SNAP recipients increases economic 
mobility, leads to greater financial stability, and improves 
outcomes for children. There is also great dignity that comes 
from being able to provide financially for one's own family.
    Prior testimony provided before this Committee has 
consistently shown recipients do want to work, and research by 
USDA shows that many adults do. We have heard about this during 
our last full Committee hearing from Keleigh Green-Patton, a 
former SNAP recipient. In her testimony, she shared her story 
of intermittent times in her life when she received SNAP. One 
of those times she was an adult, unemployed, with two small 
children to feed. As she made her way back into the workforce, 
she described SNAP to be like a trampoline helping her to get 
back into the workforce.
    Yet, there are still large numbers of households, many with 
children, that do not report earned income, which is income 
that a person received for doing work. According to the latest 
USDA SNAP characteristics report, only 31 percent of total SNAP 
households reported earned income. For households without 
children, the disabled or elderly, it drops to only one in five 
households having earned income. SNAP, along with other 
programs should be temporary support for individuals as they 
improve their financial situation. We want more Keleighs and 
more trampolines.
    I look forward to hearing from our witnesses today as we 
seek to better understand how to help individuals enter, re-
enter, and remain in the workforce and experience the dignity 
of work.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to share their perspectives as we explore the means 
to helping families climb the economic ladder. This hearing, like those 
before, builds upon the Committee's top-to-bottom review of the 
Supplemental Nutrition Assistance Program, or SNAP. Throughout this 
process, we have had an eye towards strengthening SNAP so that it 
doesn't become a trap but rather a tool to help individuals move up the 
economic ladder. Today we'll hear a variety of ways to actually do 
that.
    As we have learned throughout this hearing series, SNAP does not 
operate in a vacuum. It should not be expected to carry the entire load 
and provide all solutions for the most vulnerable. That being said, it 
does serve an important role in the lives of nearly 46 million 
Americans.
    In order to better understand and serve SNAP recipients, it is 
important to have a realistic view of what it takes for many Americans 
to get back on their feet and remain in the workforce. Steady 
employment makes it possible to climb the economic ladder and rise out 
of poverty. According to the U.S. Census Bureau, only 2.7 percent of 
full-time workers are poor, as defined by the Federal Poverty Level, 
compared with 32.3 percent of adults who do not work. Even part-time 
work makes a significant difference; only 17.5 percent of part-time 
workers are poor.
    That's why SNAP has long had an employment and training component. 
However, in an effort to promote administrative efficiency and decrease 
costs--often at the expense of benefit costs--the program overall has 
moved away from engaging recipients. What we'll hear today is that the 
opposite should be happening--a greater level of engagement is needed 
between SNAP and recipients.
    Encouraging work is good for both recipients and taxpayers. 
Increasing work among SNAP recipients increases economic mobility, 
leads to greater financial stability, and improves outcomes for 
children. There is also great dignity that comes from being able to 
provide financially for one's own family.
    Prior testimony provided before this Committee has consistently 
shown recipients do want to work, and research by USDA shows that many 
adults do. We heard about this during our last full Committee hearing 
from Keleigh Green-Patton, a former SNAP recipient. In her testimony 
she shared her story of intermittent times in her life when she 
received SNAP. One of those times was when she was an adult and 
unemployed, with two small mouths to feed. As she made her way back 
into the workforce, she described SNAP to be ``like a trampoline'' in 
helping her to back in the workforce.
    However, there are still large numbers of households--many with 
children--that do not report earned income, which is income that a 
person receives for doing work. According to the latest USDA SNAP 
Characteristics Report, only 31% of total SNAP households reported 
earned income. For households without children, the disabled or the 
elderly, it drops to only one out of five households having reported 
earned income.
    SNAP, along with other programs and approaches, should be temporary 
support as individuals improve their financial situation. We want more 
Keleighs and more trampolines. I look forward to hearing from our 
witnesses today as we seek to better understand how to help individuals 
enter, re-enter, and remain in the workforce, and experience the 
dignity of work.

    The Chairman. And with that I will yield to the Ranking 
Member for any comments that he might have.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, and I want to thank the witnesses 
for taking their time to be with us today, and I am going to 
yield my time to our Ranking Member of the Nutrition 
Subcommittee, Mr. McGovern.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. I thank the Ranking Member for yielding. 
There are lots of wrongs in the world for us to do endless 
hearings on, but it should be clear to everybody on this 
Committee who has sat through now--this is the fifth hearing on 
SNAP--that SNAP is something that is working. Time and time 
again we have heard from witnesses, both Democratic and 
Republican witnesses, that SNAP is a good program. It is 
efficient, and it is effective. And we were told by charities 
and nonprofits that they cannot feed the hungry on their own, 
they need a strong Federal partner. They urge us not to cut 
SNAP, not to block grant SNAP. In fact, they urged us to 
strengthen the program by making it easier for eligible people 
to enroll and re-enroll in the program.
    And let us be clear, while today's hearing is entitled, 
Past, Present, and Future of SNAP: The Means to Climbing the 
Economic Ladder, SNAP is a food program. It is not a jobs 
program, it is not a housing program, it is a food program. 
Two-thirds of SNAP recipients are kids, seniors, or the 
disabled, most of whom are not expected to work, unless someone 
here wants to repeal the child labor laws or send grandma back 
to work. Of those who can work, the majority do work. But here 
is the thing that should really trouble all of my colleagues, 
there are those who work full time in this country and earn so 
little that they still qualify for SNAP. And no matter how much 
you want to tweak, change, or supposedly want to reform SNAP, 
the only way to solve that problem is by increasing wages. And 
while you are at it, you should adequately fund job training 
programs so that there are enough slots for people who need 
them.
    I have no idea where these hearings are leading, but I have 
a sinking feeling in my stomach that they are not leading to a 
place that is good for millions of struggling Americans. We 
need better coordination amongst Federal agencies. We need to 
overcome silo mentalities, and we need a more comprehensive 
approach to ending poverty. But, quite frankly, that requires a 
discussion beyond the Agriculture Committee. In the past couple 
years this Congress has cut SNAP, has demagogued poor people, 
has tried to block grant SNAP, and has increased hunger in 
America. I think enough damage has been done. And with that, I 
yield back my time.
    The Chairman. All right. The chair requests that Members 
submit their opening statements for the record so the witnesses 
may begin their testimony and ensure that there is ample time 
for questions. I would like to welcome our witnesses to the 
table today. We will have Mr. Patrick Raglow, Executive 
Director, Catholic Charities of the Archdiocese of Oklahoma 
City, Oklahoma City, Oklahoma, Mr. Leon Samuels, Executive 
Director of STRIVE DC here in Washington, D.C., Ms. Elisabeth 
Babcock, MCRP, Ph.D. President and CEO of Crittenton Women's 
Union, Boston, MA, and Mr. Grant Collins, Senior Vice 
President, Workforce Development, Federal Recap Rehabilitation 
Services, New York City.
    Mr. Raglow, your 5 minutes will begin when you are ready. 
Thank you.

 STATEMENT OF PATRICK J. RAGLOW, EXECUTIVE DIRECTOR, CATHOLIC 
                CHARITIES OF THE ARCHDIOCESE OF
                OKLAHOMA CITY, OKLAHOMA CITY, OK

    Mr. Raglow. Thank you, Mr. Chairman. Chairman Conaway, 
Ranking Member Peterson, and distinguished Members of the House 
Committee on Agriculture, I am Patrick Raglow, Executive 
Director of Catholic Charities of the Archdiocese of Oklahoma 
City, a 501(c)(3) human services organization rooted in our 
Roman Catholic faith. Our mission is to give help and hope to 
all through the Catholic tradition of service. In 2014, my 
agency served more than 16,000 Oklahomans across 46 counties of 
central and western Oklahoma through 16 different social 
service programs. Last year 76 percent of those served earned 
less than $15,000 per year.
    You are here to review the effectiveness and impact of the 
Supplemental Nutrition Assistance Program. I applaud your 
effort to gain clarity on its purpose, impact, and 
effectiveness, and your willingness to challenge assumptions 
behind the program to improve its contribution to the health of 
our people and our communities. I am not here as an expert on 
SNAP policy or implementation. But having seen the testimony of 
the four previous hearings, I am confident and pleased you have 
heard from such experts, and I won't try to rephrase their 
points. I would just say, to start, that as we examine ways to 
improve this program, if we are to err, we should err on the 
side of the poor.
    With that in mind, I would like to begin my recommendations 
for principles to guide your work, include examples which 
indicate how these principles are already working, and close 
with some thoughts on how to strengthen the collaboration 
between government and the nonprofit sector to enable us to 
more effectively and comprehensively address the needs of those 
in poverty. I recommend less programmatic mandates from above, 
greater reliance on local innovation, and incentives to use 
whatever resources are available to foster relationships, 
relationships that connect individuals and communities, each to 
contribute to the well-being of the other.
    I believe one of the best ways SNAP can assist the path to 
self-sufficiency is by linking SNAP, when appropriate, to 
comprehensive case management. Case management as employed by 
Catholic Charities and similar agencies, seeks to engage those 
we serve in a relationship to best address the conditions which 
bring the client to us, and not merely transfer resources to 
cover immediate needs. We accompany people on their journey to 
self-sufficiency, drawing from each client's own resources, 
talents, aspirations, and objectives. When Catholic Charities 
and a client partner go through case management, we engage the 
gifts that they bring, serving in ways that elevate client 
ownership of their situation and the path forward.
    Case management can powerfully improve the lives of those 
we serve, and this should inform your examination of the 
broader social safety net programs in which SNAP plays a role. 
I have learned that in every case informational poverty 
contributes to economic poverty. Case management identifies 
barriers, provides tools and skills, and connects clients with 
available resources, of which they are too often unaware. 
Effectively and appropriately incorporating case management 
support in the safety net program such as SNAP would ensure 
clients receive not just the assistance they need for a day, 
but information and tools needed to build a pathway out of 
poverty.
    Case management is a key component of our work in Oklahoma, 
including long term recovery assistance after natural 
disasters, which we experience all too often, our Sanctuary 
Women's Development Centers and crisis pregnancy services, 
migration and refugee programs, and more. The particulars and 
depth of case management vary in each of these programs, and 
indeed by each client. But when clients accept the partnership 
of case management, lives change for the better. As one 
example, we had 4,000 households that suffered significant to 
total destruction in the storms of May 2013 in Oklahoma. Those 
affected weren't usually those asking for help, they are 
usually the ones giving it. But of the 4,000 households, more 
than 3,500 have transitioned to their post-recovery new normal 
because case management connected them with processes and 
resources that they don't ordinarily deal with in their daily 
lives.
    So clearly case management can help those in need take 
effective action toward self-sufficiency and a better life. I 
will make one distinction. I strongly believe SNAP, and other 
assistance programs, should leverage case management when 
appropriate, but I am not recommending case management as a 
requirement in all cases. We should not make a case management 
mandate into an obstacle to service, and therefore an obstacle 
to relationships of which--is at the core of case management. 
As a faith-based organization largely reliant on parish and 
local community support, we are going to be present to our 
brothers and sisters whether they are in case management or 
not, but case management is potentially life changing, and once 
a client is ready, so is Catholic Charities, and great things 
happen.
    Thank you for demonstrating through this process that we 
can be civil, productive, and faithful to our principles and 
constituents while undertaking a deep look at a multi-faceted 
program touching the lives of more than 46 million Americans.
    [The prepared statement of Mr. Raglow follows:]

 Prepared Statement of Patrick J. Raglow, Executive Director, Catholic 
    Charities of the Archdiocese of Oklahoma City, Oklahoma City, OK
    Chairman Conaway, Ranking Member Peterson and Members of the House 
Committee on Agriculture,

    I am Patrick Raglow, Executive Director of Catholic Charities of 
the Archdiocese of Oklahoma City, a 501(c)(3) human services 
organization rooted in our Roman Catholic faith. Our mission is to give 
help and hope to all through the Catholic Tradition of Service.
    In 2014, my agency served more than 16,000 Oklahomans across 46 
counties of Central and Western Oklahoma through 16 different social 
service programs. Last year, 76 percent of those served earned less 
than $15,000 per year. I'll say this again: more than 12,000 of those 
we served last year earned less than $15,000 per year. That's a 
heartbreaking number which I wish did not exist, but since it does, I 
am glad that Catholic Charities is with them in their need. On behalf 
of those we are privileged to serve and Archbishop Paul S. Coakley of 
the Roman Catholic Archdiocese of Oklahoma City, I want to thank you 
for granting me this opportunity to visit with you today.
    You are here to review the effectiveness and impact of the 
Supplemental Nutrition Assistance Program (SNAP). I applaud your effort 
to gain clarity on its purpose, impact and effectiveness, and your 
willingness to challenge assumptions behind the program to improve its 
contribution to the health of our people and our communities. Any 
program of this size ought to be reviewed, have its assumptions 
challenged, to understand whether its impact aligns with its intent, 
whether its costs are in line with its gains, and whether its 
consequences, intended and unintended, accrue to the common and 
individual good. I am not here as an expert on SNAP policy or 
implementation, but having seen the testimony of the four previous 
hearings, I am confident and pleased you have heard from such experts, 
and I won't try rephrase their points. I would just say to start that 
as we examine ways to improve this program, if we are to err, we should 
err on the side of the poor.
    With that in mind, I would like to begin with my recommendations 
for principles to guide your work, include examples which indicate how 
these principles are already working, and close with some thoughts on 
how to strengthen the partnership between government and the nonprofit 
sector to enable us to more effectively and comprehensively address the 
needs of those in poverty. I recommend less programmatic mandates from 
above, greater reliance on local innovation and incentives to use 
whatever resources are available to foster relationships, connecting 
these individuals and communities to contribute to the well-being of 
the other.
Principles of Case Management
    I believe that one of the ways the SNAP can most firmly help as an 
assist to self-sufficiency is by linking SNAP when appropriate to the 
concept of comprehensive case management. Case management as employed 
by Catholic Charities and similar agencies seeks to engage those it 
serves in a relationship to best address the conditions which brought 
the client to us, and not merely transfer resources to cover immediate 
needs. We accompany people on their journey to self-sufficiency, 
drawing from the client's own resources and talents, aspirations and 
objectives. When Catholic Charities and a client partner through case 
management, we engage also the gifts of their humanity, seeking to 
serve in ways that elevate client ownership of their situation and its 
path forward. Case management is not about adding to their circle of 
friends, nor is it about proselytizing. Catholic Charities agencies 
serve others not because they are Catholic but because we are; clients 
need not attend services to receive services. Catholic Charities 
agencies recognize the dignity of all clients.
    I have seen the powerful impact case management can have on 
improving the lives of those we serve in hopes that this may inform 
your conversations about the broader social safety net system in which 
SNAP plays a role. I have learned that in every case, informational 
poverty is a contributor to economic poverty. Case management 
identifies barriers, provides tools and skills, and connects the client 
with available resources that they often aren't aware of. By 
incorporating case management support into safety-net programs such as 
SNAP, we could ensure that clients are not just receiving the 
assistance they need for a day, but the information they need to build 
a pathway out of poverty.
    I've been in an agency with 270 employees and a $20 million budget, 
and my current role with 75 employees and a $5 million budget, and 
through these experiences, intensive case management shines through as 
a powerful method of improving outcomes for those in need in a variety 
of communities, programs, and situations. This is born out across the 
more than 160 agencies in the Catholic Charities USA network, each 
working in their own community with their own individualized approach, 
but which provide evidence that intensive case management works!
    Case management is a key component of many of our programs in 
Oklahoma City, including:

  <bullet> Long-term recovery assistance after natural disasters (which 
        are unfortunately common in Oklahoma),

  <bullet> Our Family Help, Organize, Prioritize, Empower (H.O.P.E.) 
        program,

  <bullet> Our Sanctuary Women's Development Centers and Crisis 
        Pregnancy Services,

  <bullet> Transitional Housing programs and support to sponsored 
        family housing,

  <bullet> ``Housing First'' programs aimed at addressing the 
        chronically homeless,

  <bullet> Welfare-to-Work programs,

  <bullet> Migration and Refugee Programs, and more.

The particulars and depth of case management vary in each of these 
programs, and indeed, by each client. But when clients accept the 
partnership of case management, lives change for the better.
Case Management Helps Change Lives
    As just one example, Oklahoma had more than 4,000 households that 
suffered significant to total destruction in the aftermath of the 
series of tornadoes and storms that ravaged central Oklahoma in May 
2013. Many of those affected were hardworking, competent, independent 
individuals who were dealt a severe blow. These folks aren't usually 
the ones asking for help, they're giving it. However, most people even 
in Oklahoma don't experience firsthand a disaster of this magnitude, 
and therefore have never acquired the knowledge of how to successfully 
navigate the myriad government and nonprofit resources available to 
help them rebuild. It's an intimidating, frustrating, and lengthy 
process: FEMA certifications, Small Business Administration loan 
eligibility, Red Cross Shelters, debris removal options, working with 
insurance adjustors, understanding city clean-up requirements and 
complying with newly implemented building codes. As if that wasn't 
difficult enough, regardless of their competence, each of them was 
trauma-affected--their thinking was affected to a greater or lesser 
degree just from their experience.
    Navigating the path to full recovery is hard, but case managers 
(not the same as traditional case workers) can help each of them 
successfully find their way. Of the 4,000 households mentioned above, 
more than 3,500 have transitioned to their post-recovery new normal, 
availing themselves of coordinated case management made available 
through the Oklahoma Disaster Recovery Project, a collaboration of the 
local American Red Cross, Salvation Army, United Methodist Church of 
Oklahoma, Church of the Harvest, Society of St. Vincent de Paul, and 
Catholic Charities. Case managers facilitated survivor access to 
Federal, state and local resources for which they were eligible, as 
well as non-government resources whether from corporations, foundations 
or individual. These resources could be manpower, material, or money. 
Each client was assisted based on individual circumstances, so the 
resources accessed differed accordingly. We will continue to work with 
the remaining survivors until all who seek assistance have recovered.
    Another example comes from shortly after the Great Recession, when 
I was associated with a food pantry program that served 125 clients a 
day, Monday through Friday, in a very hard-hit community. It was a 
fabulous program in many respects: clients were treated well and with 
dignity, they could select their preferred protein, vegetable, grain, 
dairy, and even donated desserts, all from a clean, store-like 
environment. They were allowed to select food their family would 
actually eat, not simply accept whatever happened to be in the bag that 
week. It was, in many respects, an excellent and well-run program that 
ensured those at risk of going hungry could reliably access food. Yet I 
noticed that 2\1/2\ later, too many of our clients were still returning 
monthly to participate in accessing our food pantry. We had done some 
things incredibly well, but we at Catholic Charities had, in 
retrospect, failed to address the conditions that had brought that 
family to us, and help them to succeed such that our food pantry 
supplies were no longer needed.
    At the other end, I witnessed the success of that particular 
agency's welfare-to-work program, which coupled the resources available 
through multiple sources with intensive case management. Staff 
empowered clients through efforts including budgeting, skill and 
resource development, child care, and housing support, all time-limited 
and structured so as to have the client increasingly responsible for 
their own needs, and ultimately transitioning to self-sufficiency. The 
program boasted an 86% success rate--incredible.
    On another front, Migration and Refugee Service programs run 
through the Department of Health and Human Services are also incredibly 
effective, through very intensive case management. Refugees come to 
American cities and towns from deplorable conditions and persecution 
abroad. Through case managed services including housing, language 
training, cultural awareness, job skill development, and more, the 
majority of these individuals are successfully transitioned to a new 
environment in a new country, not using their native tongue and are 
achieving a very high rate of success self-sufficiency within a year. 
It is amazing to witness.
    But let me also emphasize that not all assistance programs should 
have a case management component. If you want to reach all persons, you 
have to lower barriers to entry. You have to meet people where they 
are, and they may not be willing, or ready, or able to undertake such a 
journey. For instance, at our Sanctuary Women's Development Center, 
which serves women and women with children facing homelessness, we 
offer a safe space, access to showers, laundry, food, fellowship and 
more. Most of our women have a wary eye on our operation, but after 
visiting the first time, they are known by name. Each subsequent visit 
they are greeted by name and with a smile. At our Day Center, we offer 
case management. Each woman is made aware of our services, but it is 
only after having built trust and confidence that we care, that they'll 
be safe, that we can be trusted, will they enter into case management. 
In this setup, food assistance, laundry and shower facilities, and bus 
passes are the bridges to the relationship I mentioned above. Of 
approximately 600 women and women with children that visit us monthly, 
some 150-200 are in case management at any given time. From these, 
using our own resources and those of the community around us, including 
those resources made available through government programs such as VA-
supported Housing or Section 8 vouchers or job training, we assist on 
average nine women a month into permanent housing, which we don't count 
successful until they remain in that housing for 6 months or longer.
    As you can tell, I believe strongly in the power of case management 
to help those in need create a solid path to a better life. At the same 
time, while assistance programs should have a connection to case 
management, a case management requirement should not by itself be a 
barrier to services. As a faith-based organization largely reliant on 
our faith community with very limited government resources, we are 
going to be present to our brothers and sisters whether they are in 
case management or not. But the opportunity for case management is 
potentially life changing, and once a client is ready, so is Catholic 
Charities, and great things happen.
Strengthening Our Ability to Respond to Those in Need
    I hope I have shown the positive, power of intensive case 
management, and also, the critical role the Federal Government plays 
and must play in meeting needs of those on the margins of our society. 
While dollars are not the only solution, they are nonetheless necessary 
for that solution. Individuals rarely have a relationship with the 
Federal Government--but they do have relationships with their 
neighbors, with church families, school groups and organizations, and 
the like. Local agencies do create and sustain working relationships 
with those they serve; leveraging government resources to accomplish 
what resources alone cannot and could not ever build. I submit that 
pairing the resources with relationship is essential to improving 
lives, and therefore to meeting the intent of the allocation in the 
first place.
    Case management works because it is not merely a transfer of 
resources, nor the application of a formula, but a working 
relationship. Case management seeks to use all available resources as a 
means to address immediate unmet needs, while also using those 
resources as a bridge to relationship, for it is in relationship that 
we connect the individual to society and society to the individual. 
Relationship through case management helps nonprofit agencies stretch 
scarce Federal dollars and other resources by connecting explicitly 
with the client, drawing on his or her insight and talent, and 
challenging the client to employ his or her own gifts on a path to 
self-sufficiency with dignity. It connects individuals with agencies, 
programs, examples and tools to first chart and then follow a path to 
self-sufficiency.
    Case Management is also about effective decision making. Our faith 
teaches not only about the rights accorded persons due to their 
dignity, but also about their responsibility to put the talent they 
have been given to good use. Effective case managers help clients make 
better decisions based on better information. Precisely because we 
believe the clients can and should make their own decisions, we also 
respect them enough to work through the outcome of those decisions. 
This does not mean there won't be setbacks, but it does mean continued 
progress toward goals is expected. In this way, case management assures 
good stewardship for resources because of the relationship component. 
Dissociated assistance is much more likely to be abused; where there is 
no relationship to the resources, there is little harm perceived for 
their misuse. Case management increases accountability and 
responsibility by all parties.
    Properly executed, case management prevents duplication of service 
and coordinates effective service approaches from multiple agencies to 
strengthen each client's progress toward self-sufficiency. At its best, 
case management is client-centered, client-empowering, and ultimately, 
client-releasing. Catholic Charities agencies do this in full 
collaboration with other community providers such as the Salvation 
Army, Regional Food Bank, City Rescue Mission, and many others. There 
is plenty of need present in our communities; service providers need 
not compete with one another, and grants and resources should seek to 
foster collaboration rather than competition for funds.
    By incorporating case management support into SNAP and other 
safety-net programs, we can ensure that these programs are enabling a 
journey out of poverty rather than merely sustaining people living in 
material need. Of course, many users of SNAP may not necessarily need 
case management. Many of these, as has been noted by other witnesses 
before this Committee, are the working poor. They are often two-income 
households, working right and playing right, but simply earning too 
little to make ends meet. Additionally, children, seniors, and the 
disabled often rely on the assistance their families receive from SNAP 
Obviously, food insecurity is a problem that we have a moral obligation 
to address--no one wants families in need to go hungry. SNAP helps them 
access healthy and affordable food through programs, and it's 
impossible to build a pathway out of poverty if you're worried about 
where your next meal will come from. In all cases, the work of case 
management and getting people out of poverty for good should be 
supplemented and supported by traditional safety-net programs like 
SNAP; they should not be pitted against each other.
    I appreciate the work of Members on both sides of the aisle for 
working together to gain an improved common understanding of the 
program, showing respect for differing view-points and leading to 
future decisions made on merit, balancing competing interests for the 
common good. Thank you for demonstrating through this process that we 
can be civil, productive, and faithful to our principles and 
constituents while undertaking a deep look at a multi-faceted program 
that touches the lives of more than 40 million Americans.
            Respectfully,

Patrick J. Raglow,
Executive Director,
Catholic Charities of Oklahoma City.

 STATEMENT OF LEON A. SAMUELS, Jr., EXECUTIVE DIRECTOR, STRIVE 
                      DC, WASHINGTON, D.C.

    Mr. Samuels. Good morning, Mr. Chairman, Ranking Member 
Peterson, and distinguished Members of the Committee. I 
appreciate the opportunity to appear before you today to 
discuss STRIVE DC's unique Attitudinal Job Readiness Program, 
and how we help the District's poorest residents. My name is 
Leon Alan Samuels, Junior, and I am the Executive Director of 
STRIVE DC, a workforce development agency in Washington, D.C. 
established in 1999 to combat the high unemployment rate in the 
District's poorest neighborhoods. Our participants are 
chronically unemployed, the formerly incarcerated, recovering 
addicts, public assistant recipients, and the working poor. I 
am here today to describe how STRIVE DC's program goes beyond 
workforce preparation and workforce engagement, and aims to 
change people's lives for the better through workforce 
advancement.
    Last year, in 2014, at STRIVE DC, 63 percent of our clients 
were SNAP recipients when they started the program, and 
eventually, after obtaining jobs, 83 percent were able to 
transition out of a need of the SNAP program. STRIVE DC is a 
part of a national program, STRIVE International, that provides 
full range of job training, career development, supporter 
services to the hardest to employ in cities throughout the 
United States. STRIVE centers are located in 20 states, 
including Georgia, New York, Louisiana, Pennsylvania, North 
Carolina, Illinois, and California. STRIVE DC's program stands 
out because of our comprehensive case management services, 2 
years of support and follow-up. Our training is rooted in the 
belief that every individual has the power to change, but such 
an individual needs the tools and supports to do so.
    To address the needs of our clients, and provide pathways 
to self-sufficiency and living wage employment, STRIVE DC is 
broken down into three different stages. The first stage is 
workforce preparation. In workforce preparation, there are two 
components. The first component is our career gear component, 
where clients are given professional clothing in order to go on 
job interviews.
    The second component is our CORE attitudinal 3 week job 
readiness training program, in which participants--we take a no 
nonsense approach to preparing our clients for the rigors of 
the workplace, helping individuals develop the attitudes and 
workplace behaviors they need to stay employed. This program 
mimics the workplace, and forces punctuality, appropriate 
dress, acceptance of authority, teaches anger management, 
interpersonal skills, and teamwork.
    The second component is workforce engagement. Under 
workforce engagement, STRIVE DC's Careers Services Department 
offers career planning and job development services to each 
participant. The STRIVE DC philosophy is to encourage 
participants to plan for careers, because in our experience, 
participants who develop a career mindset begin to make long 
term decisions.
    The third component of that is workforce advancement. Under 
workforce advancement, we have an occupational skills training 
program, in which--after participants complete the core 
training, they begin a hard skills training program, leading to 
occupational skills certifications.
    The most important component of our program is our case 
management. One of the essential services that STRIVE DC 
provides is wrap around case management to support our clients 
during and after the program. STRIVE DC's supportive services 
team meets with clients upon intake, conducting an intensive 
survey of each client's background and life issues. Throughout 
the program case managers are focused on identifying and 
overcoming the challenges and the impact of a participant's 
ability to complete training, and ultimately succeed in work.
    In conclusion, STRIVE DC program provides practical 
guidance in applying for a job, staying employed in the 
professional world. At the same time, it is intense, 
confrontational, and sometimes emotional. But more than 
anything else, it builds the participants' confidence in their 
own natural ability and self-worth. Yet it is important to 
understand that many participants have difficult home 
situations. While training addresses their attitudes and helps 
them look within themselves to figure out what they need to 
succeed, it is not just the training that allows for the 
success of the program. It is essential case by case management 
and referrals.
    I once was unemployed. I once was a food stamp recipient. I 
once came through the STRIVE program, and after going through 
the STRIVE program, I worked a job for 6 months. I was on food 
stamps for approximately 36 days. With that, I came back to 
STRIVE and served as a job developer. I was promoted to a 
Deputy Director, and now I sit before you as the Executive 
Director of STRIVE DC. Thank you very much for your time.
    [The prepared statement of Mr. Samuels follows:]

Prepared Statement of Leon A. Samuels, Jr., Executive Director, STRIVE 
                          DC, Washington, D.C.
    Good morning, Chairman Conaway, Ranking Member Peterson, and 
distinguished Members of the Committee. I appreciate the opportunity to 
appear before you to discuss how STRIVE DC's unique attitudinal job-
readiness program helps the District's poorest residents. Many of our 
clients are SNAP recipients when they start the program and eventually 
after obtaining jobs are able to transition out of the need for the 
SNAP program.
Introduction
    My name is Leon A. Samuels, Jr. and I am the Executive Director of 
STRIVE DC, a workforce development nonprofit in Washington, D.C. I am 
here on behalf of STRIVE DC to describe how the STRIVE program goes 
beyond job preparation and job placement, and aims to change peoples' 
lives for the better. STRIVE DC is part of a national program, STRIVE 
International, that provides a full range of job training, career 
development, and supportive services to the hardest-to-employ in cities 
throughout the United States and in London and Israel. STRIVE centers 
are located in 20 states including: Georgia, New York, Louisiana, 
Pennsylvania, North Carolina, Illinois, and California.
    STRIVE DC was established in 1999 in the District of Columbia to 
combat the high unemployment rate in the District's poorest 
neighborhoods. Our participants are the chronically unemployed, the 
formally incarcerated, at-risk young adults, recovering addicts, public 
assistance recipients and the working poor. Nearly all of our 
participants have income at or below the Federal poverty line (95%).
    STRIVE DC's programs stand out because of our comprehensive case 
management services and 2 years of follow up support. Our training is 
rooted in the belief that every individual has the power to change but 
such individuals need the tools and supports to do so. We focus on 
empowerment and transformation for our clients--not just their job 
readiness. We ensure that clients are not only ready to find a job, but 
also ready to keep their job.
Description of Services
    To address our clients' needs and provide pathways to self 
sufficiency and living wage employment, STRIVE DC offers six essential 
services: the CORE Attitudinal and Job Readiness Training, Occupational 
Skills Training, Case Management, Job Placement and Career Development, 
Retention/Follow-up and our Career Gear Clothing Closet.
    1. CORE/Attitudinal Job Readiness Training: STRIVE DC's success 
with high-risk populations is based on the transformative attitudinal 
job readiness training provided by the CORE workshop. The modality is a 
work-assimilated environment where participants are provided the tools 
to begin viewing themselves as marketable adults and not as victims. 
Our 3 week program takes a no-nonsense approach to preparing our 
clients for the rigors of the workplace, helping individuals develop 
the attitudes and workplace behaviors they need to stay employed.
    The program creates an atmosphere that mimics the workplace, 
enforcing punctuality, appropriate dress, acceptance of authority, 
suitable comportment, responsibility for one's actions and work ethic. 
We require participants to dress like they [are] going to work at a 
corporation: jackets, ties and slacks for the men; neat hair, modest 
business attire such as blouses and skirts, or pants suits, and low 
heels for the women. CORE also teaches anger management, interpersonal 
skills, proper verbal expression, and teamwork.
    In class, participants learn how to write resumes and fill out 
applications, take orders, accept criticism and function as team 
members. They learn to use the computer, telephone and fax; and think 
in terms of job advancement and long-term careers. They must come to 
class 15 minutes early--as one would a job--and generally conduct 
themselves as model employees. If they are late to class, they are 
fired from our program--as employees may be fired from their jobs if 
they are late. (Fired participants are encouraged to re-enroll for our 
next scheduled training.) Participants learn by performing tasks in a 
simulated workplace environment, interacting in-group sessions, 
attending one-on-one counseling, role-playing, and mock interviewing. 
CORE is a proven method of increasing the success rates of high-risk 
individuals in subsequent skills training and employment.
    2. Occupational Skills Training: Once participants complete CORE, 
they may begin a skills training program leading to occupational skills 
certifications.
    3. Case Management: One of the essential services that STRIVE DC 
provides is wrap-around case management to support our clients during 
and after the program. STRIVE DC's Supportive Services team meets with 
clients upon intake, conducting an extensive survey of each client's 
background and life issues. Throughout the program, Case Managers focus 
on identifying and overcoming the challenges that impact participants' 
ability to complete training and ultimately succeed in the workplace. 
These challenges include, among others, issues related to childcare, 
health care, housing, the court system, education, transportation, and 
emergency funds. Case Managers remain connected to each graduate during 
the 2 year follow up period, offering referrals, help, and advice. Case 
management is an essential and critical support system for people who 
have few resources to resolve the life crises that can interfere with 
their ability to work. STRIVE DC is virtually unique in the District in 
providing 2 years of official support as well as lifetime access to job 
placement, career counseling, and case management services to every 
CORE graduate.
    4. Career Development/Job Placement: STRIVE DC's Career Services 
Department offers career planning and job development services to each 
participant. The STRIVE DC philosophy is to encourage participants to 
plan for a career because, in our experience, participants who develop 
a career mindset begin to make long-term decisions--seeking more 
responsibility at their job, pursuing opportunities for on-the-job 
training and promotions, and furthering their education in night 
school. Living wages and career growth set into motion a series of 
positives that, when coupled with proper case management, keep a person 
employed and help stabilize his/her family
    5. Retention and Follow-Up: STRIVE DC's retention specialist's 
calls working graduates every 30 days and non-working graduates every 
90 days for 2 years. These communications establish the employment 
status of each graduate and provide the opportunity to offer help and 
guidance and to monitor progress against goals. STRIVE DC's intensive 
involvement continues even after a client is employed. Employment 
Specialists function in essence as an outside Human Resources 
department for our graduates, helping to remediate employer issues, 
securing supportive services for clients who are facing difficulties, 
helping clients perceive job growth or promotion opportunities.
    6. Career Gear Clothing Closet: The Career Gear Clothing Closet, 
set up in our basement, has provided over 3,500 unemployed men and 
women in the Washington, D.C. region with the professional clothing 
needed to interview for a job. The Closet provides an important service 
to the community and operates only with clothing donations. It offers 
another important way for participants to overcome barriers to seeking 
and finding jobs.
    Additionally, STRIVE DC has also joined in collaboration with other 
nonprofits to put District residents back to work through the Workplace 
DC Collaborative at the Skyland Workforce Center. The Skyland Workforce 
Center is a project of the Workplace DC, a collaborative of local 
nonprofit organizations that provide employment-related services. The 
Center's on-site partners coordinate services to connect job seekers 
with opportunities and supports that help them obtain and retain 
employment. STRIVE DC and Jubilee Jobs work together to provide work 
readiness training and job placement; Byte Back Teaches computer 
literacy, with emphasis on skills needs to search, apply and be 
competitive for jobs; Southeast Ministry brings GED tutoring, and 
Samaritan Ministry provides one-on-one employment supports, as well as 
entrepreneurship training. The Workplace DC Collaborative is a one-stop 
shop of intensive services that can help the chronically unemployed 
learn how to navigate the barriers that keeps them from finding 
employment services.
    STRIVE DC's five full-time and two part-time staff serve well over 
1,500 annually. This includes about 1,000 people who receive some kind 
of staff assistance applying for our program and beginning case 
management files, but who drop out for various reasons; prior graduates 
who receive our signature 2 years of follow-up services; approximately 
100 who graduate, and more than 500 men and women who receive donated 
business attire. An additional 88 receive our attitudinal training at 
the Skyland Workforce Center.
Our Impact
    The STRIVE DC attitudinal job-readiness program has been able to 
consistently place at least 60% of its graduates in jobs and keep over 
60% of those working for at least 2 years. In 2014, 78% of clients were 
placed in employment making an average wage of $12.95 per hour and 82% 
of those placed are still employed.
Conclusion
    The STRIVE DC program provides practical guidance to applying for a 
job and staying employed in the professional world. At the same time it 
is intensive, confrontational, and sometimes emotional. But more than 
anything else it builds the participants' confidence in their own 
natural abilities and self-worth. Yet, it is important to understand 
that many participants have difficult home situations.
    While the training addresses their attitudes and helps them look 
within them to figure out what they need to succeed it is not just the 
training that allows for the success of the program. It is the 
essential case-by-case management and referrals provided to 
participants during each phase of the program. The Retention Specialist 
helps clients connect to social service providers to help them overcome 
any barriers that may prevent them from completing training and being 
employed. Such barriers include the lack of childcare; lack of safe 
housing or dealing with substance abuse issues either their own issues 
or those of family members. I can attest to the services of STRIVE DC. 
I was once an unemployed client on food stamps, who was placed in a job 
after completing the STRIVE DC program. After working successfully for 
6 months I was given the opportunity to give back to STRIVE DC. I 
served as a Job Developer after which I was promoted to Deputy Director 
and then with hard work I was promoted to Executive Director. I am here 
for the purpose of Helping D.C. Residents Obtain Employment and Get off 
Food Stamps. Thank you for your time today.

    The Chairman. Thank you, Mr. Samuels. Dr. Babcock?

        STATEMENT OF ELISABETH D. BABCOCK, MCRP, Ph.D.,
   PRESIDENT AND CHIEF EXECUTIVE OFFICER, CRITTENTON WOMEN'S 
                       UNION, BOSTON, MA

    Dr. Babcock. Thank you, Mr. Chairman, and Members of the 
Committee. I come to you as the head of the Crittenton Women's 
Union, which is an organization based in Boston that leads a 
network of 35 public agencies and partner organizations across 
the country in finding expedited pathways out of poverty. Our 
work combines direct services research and public education to 
improve participant outcomes, to improve program design and 
capacity building for the field, and to create systems change.
    The pathway out of poverty is a complex and difficult one, 
but what we know for a fact with our own work is that families 
can do this. They can make this pathway to self-sufficiency 
that is such a complex pathway. We, within our organization, 
work with 1,400 individuals in a year, and, as you can see from 
the statistics on the screen, these families that we work with 
are very complex, high need, and extremely low income. But what 
you will also see from the statistics on the screen is that, 
with the right supports, these families are capable of 
achieving really amazing results.
    You can see that, when working with families for a year, 
families that are currently homeless, formerly homeless, 
victims of domestic violence, families with great instability 
in their lives, that over 74 percent actually, within a year, 
become engaged in school and/or working, and that their current 
earnings after a year can be $12.60 an hour. Those that have 
been working with the kind of coaching models that we provide 
over 3 years attain family sustaining wages. I want to 
emphasize that. We have 31 percent of families that have been 
working with the programs for 3 years or so actually able to 
attain the education and the career paths necessary to support 
their families, improve their credit, and to actually build the 
kind of life that they need to be self-sustaining.
    Now, what does it take for our families to be able to do 
this? Well, first of all, it takes understanding that getting 
out of poverty requires multiple cylinders to fire at the same 
time, that there are multiple areas that can bring any family 
into the trap of poverty, or can make it difficult for them to 
get out. We specialize in working with families to improve 
these five areas of self-sufficiency development, their well-
being, their family stability, their education, their financial 
management, and ultimately their career, to allow them to 
optimize their own development and pathways to get to the point 
that they are self-sustaining. This is a brain science informed 
process that allows for the issues and stresses of poverty to 
be taken into consideration in how these families are coached.
    So what does it really take for us to be able to get 
families to the point that they do not require the kind of 
safety net subsidies that we are talking about today? Well, 
first of all, we have to understand that families must engage 
in very hard work to get the education and training that they 
need to attain the family sustaining jobs. We know that 75 
percent of the jobs of the economy as of 2020 are predicted to 
require education beyond high school, and all of the jobs that 
pay family sustaining wages require this. Safety net supports 
are imperative while families are on the self-sufficiency 
pathway because, obviously, when they don't have enough to 
support their families, they need support in getting the 
skills, and getting to the place that they can.
    They need additional training beyond high school, and they 
need the persistence and the resilience to stay on a course 
which is often, as you can imagine, one of struggling to keep 
body and family together, get the education that they need, and 
working at the same time. But we know that our families can do 
it. The programs that partner with families effectively 
understand, first of all, that everyone comes to this journey 
with different strengths and weaknesses, and that the pathway 
to self-sufficiency is an individual one that requires time and 
requires, as I said, a multi-faceted approach.
    The next thing we know is that there has to be a laser 
focus on goals and outcomes, and a partnership between 
providers and families to really work on achieving successive 
goals, so that they ultimately can get to where they want to 
be. This requires staff who are well trained, and have a short 
and long term focus on goals achievement. And last, but not 
least, we know that we need to have frameworks that have been 
alluded to earlier, case management frameworks that go beyond 
case management, but actually do skill building that helps 
participants build the decision-making skills, the behavior 
management skills, and the persistence and resilience to stay 
on a very difficult, complicated course of juggling multiple 
things at the same time.
    What I want to say to you is there is no one pathway out of 
poverty, but, in today's world of the knowledge-based economy, 
families need to have partnerships in staying the course, and 
following and finding the course that is going to bring them to 
those family sustaining jobs. But when we offer these, all our 
programs are voluntary, and families will voluntarily start 
working, will voluntarily go on to these difficult courses, and 
will stay the course until they have achieved the family 
sustaining jobs that they and their families need. Thank you 
very much.
    [The prepared statement of Dr. Babcock follows:]

Prepared Statement of Elisabeth D. Babcock, MCRP, Ph.D., President and 
     Chief Executive Officer, Crittenton Women's Union, Boston, MA
    Chairman Conaway, Ranking Member Peterson, and distinguished 
Members of the Committee, thank you for the opportunity to testify 
before you today. I have been the President and CEO of Crittenton 
Women's Union (CWU) since our founding in 2006 from the merger of two 
of Massachusetts' oldest organizations serving low-income women (The 
Crittenton, founded 1827, and The Women's Education and Industrial 
Union, founded 1867). The merger brought together the direct services 
expertise of the Crittenton and the research and advocacy work for 
which The Women's Educational and Industrial Union was best known to 
form CWU. We have since grown into one of the largest and most 
respected human service organizations in Massachusetts.
    Annually, CWU serves approximately 1,400 individuals in the Greater 
Boston area through the following:

  <bullet> Housing: CWU is one of the largest providers of emergency 
        and transitional shelter in Massachusetts. We serve about 420 
        families a year at our homeless and domestic violence shelters, 
        and through supportive housing services for formerly homeless 
        families in permanent housing. CWU's holistic approach to 
        delivering services helps families simultaneously attain stable 
        housing and reach for economic independence.

  <bullet> Mobility Mentoring<SUP>'</SUP> Services (MMS): Programs in 
        this service area provide opportunities to think and plan long-
        term so that participants can take steps toward an economically 
        secure future. Skill building workshops and one-on-one meetings 
        with staff help participants master basic job readiness and 
        life skills; learn personal financial management techniques; 
        enroll in education/training programs; and/or land entry-level 
        jobs on career tracks that will put them closer to earning a 
        family sustaining wage.

  <bullet> Career Family Opportunity (CFO): CFO is CWU's most 
        comprehensive economic independence program. Piloted in 2009, 
        this program requires a 5 year commitment, but promises that 
        women will come out on the other end with both $10,000 in 
        personal savings and a job paying a family sustaining wage.

  <bullet> Research & Advocacy: CWU conducts rigorous research into the 
        barriers disadvantaged women face in their efforts to gain 
        economic security. With this knowledge, CWU creates tools, 
        identifies best practices, develops programs, and makes policy 
        recommendations. An understanding of low-income women's 
        struggles, combined with extensive research and knowledge of 
        best practices, make CWU a powerful advocate for legislative 
        initiatives to remove obstacles to economic independence.

    CWU's participants are low-income individuals, mostly single 
mothers. They have an average monthly income of $674, and a median 
annual income of $7,968, well below the Federal poverty level of 
$19,000. In addition, 75 of families served are homeless or have a 
recent history of homelessness, and 60% of adults are unemployed. 
Approximately 45% are Black, 21% Latino(a), 10% White, 2% Asian.
    The CWU ``action-tank'' model integrates direct services, research 
and advocacy in a manner that allows us to develop and test new 
programmatic pathways out of poverty, then share these tools with the 
field, and use our learning to improve public policies. CWU is like a 
teaching hospital where, in addition to delivering direct services, we 
invent new approaches informed by research and best practices, evaluate 
their effectiveness, and create added value by taking our learning 
public.
    Moving out of poverty is no longer a process of following a simple 
roadmap to a good job. It is a complex, multi-year process that 
requires families to:

  1.  maintain stability,

  2.  optimize money management,

  3.  gain post-secondary education and/or training,

  4.  find their way into a family-sustaining career--all at the same 
            time.

    Such a task is difficult under the best circumstances, but new 
brain science shows that the inherent stress of living in poverty 
negatively impacts a low-income individual's capacity to deploy the 
problem-solving skills, multi-tasking, and behavioral persistence 
necessary to journey to economic independence and create better lives 
for themselves. Research shows that brain development is not just a 
result of genetic inheritance, but is also strongly affected by 
environmental risk factors, including exposure to toxins, poor 
nutrition, prenatal drug use, low social status, stress, and violence, 
all of which are more prevalent in low-income households. In addition, 
the constant struggle to make ends meet, deal with social bias, and 
protect against trauma also place extraordinary demands on cognitive 
bandwidth.
    At the same time, Federal and state budgets get tighter, leaving 
fewer resources for single mothers, homeless families and low-income 
women who together comprise CWU's target population. According to the 
Massachusetts Budget and Policy Center, over the past decade, funding 
has been reduced for adult education, job training, child care 
subsidies and many other programs that help those in poverty cover 
basic expenses while pursuing the education and training needed to 
become economically secure. Since these services are mostly used by 
women, women and children bear the brunt of the budget cuts.
    In 2013, CWU's proprietary research, the Massachusetts Economic 
Independence Index, revealed that a single parent with two children in 
Massachusetts needs an annual income of almost $66,000--more than 3\1/
2\ times the Federal Poverty Level--to pay for an apartment, childcare, 
health care, and other basic living expenses without government 
support. This reality disproportionately affects low-income women. In 
fact, women are the heads of household for 72% of the poor families in 
Massachusetts (2010 American Community Survey, U.S. Census). Poor 
single mothers often rely on a combination of low-wage work, public 
housing, employment training, child care subsidies and other public 
services to make ends meet. Yet, wait-lists for subsidized housing and 
childcare are often years' long. Given these complexities, the work of 
social service organizations has never been more important. CWU helps 
women chart an individualized pathway out of chronic, systemic problems 
that prevent them from leading economically secure lives without public 
or private assistance.
    CWU defines economic independence as being able to afford a fair 
standard for housing, healthcare, nutrition, and child care while 
avoiding dependence on supports such as subsidized housing or nutrition 
assistance. The shift to a knowledge-based economy has meant that 
virtually all family-sustaining wage jobs require post-secondary 
education. However, less than half of those under the poverty level 
have such education. Recognizing that this is a high standard to 
achieve for many families, it is nevertheless an important goal to aim 
towards. In order to achieve this standard of living, low-income 
families must navigate complicated challenges for years because there 
are no short-term career paths to the family-sustaining jobs of today.
    Through applied research and development, CWU has developed a new 
more effective pathway for economic mobility called Mobility 
Mentoring<SUP>TM</SUP>. Mobility Mentoring is the professional practice 
of partnering with participants using a strength-based model so that 
over time they may acquire the resources, skills, and sustained 
behavior changes necessary to attain and preserve their economic 
independence. This unique client-case worker dynamic is the core of our 
work. It is this partnership that empowers participants to acquire set 
long and short term goals and develop the resources, skills, and 
sustained behavior changes necessary over time to attain and preserve 
their economic independence.
    The central tool in for Mobility Mentoring is the Bridge to Self-
Sufficiency<SUP>TM</SUP> (the Bridge). The Bridge is a brain science-
informed scaffold that positions a person's advancement from poverty to 
self-sufficiency as a journey across a bridge supported by five 
pillars: family stability, well-being, education and training, 
financial management, and employment and career management. Not only is 
each pillar individually critical to supporting the Bridge as a whole, 
but the pillars are also mutually connected and reinforcing. When one 
falls, the others often do as well.
    Mobility Mentors work with participants to help them create 
practical, achievable plans to attain their long-term goals. They then 
meet with participants regularly track the completion of goals and 
their progress along the five pillars of the Bridge to Self-
Sufficiency, offer guidance, and direct them to valuable resources. 
They also conduct annual in-depth evaluations and bi-annual meetings to 
help participants set new short-term goals.
Crittenton Women's Union's Theory of Change Bridge to Self Sufficiency
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          May 2014.

    Mobility Mentoring<SUP>TM</SUP> has four essential elements:

  1.  The Bridge to Self-Sufficiency<SUP>TM</SUP> scaffolding: The 
            Bridge (see above) is a brain-science informed ``scaffold'' 
            that builds decision-making, allows participants to 
            organize and achieve positive steps, and aids in the 
            development of these skills--as an adaptive device that 
            supplements decision-making skill deficits and as a 
            coaching tool for improving the participant's executive 
            functioning (EF) skills. The basic EF skills are: working 
            memory, impulse control, and mental flexibility; these are 
            the primary decision-making skills necessary for the 
            problem solving, goal setting, and goals attainment 
            necessary to achieve and sustain economic independence. 
            Mobility Mentoring requires use of the Bridge as both an 
            assessment tool and a framework within which a participant 
            can chart their path to economic mobility and independence.

  2.  Clear individualized goal setting and outcomes measurement: 
            Mobility Mentoring uses the SMART (Specific, Measurable, 
            Attainable, Realistic, Time-bound) goals format to set 
            economic mobility goals and collect data to measure both 
            individual client and program progress and effectiveness.

  3.  Coaching: A mentor-led process designed to improve decision-
            making, persistence, resilience. Through practice, the 
            process becomes internalized, enabling participants to 
            mentor themselves.

  4.  Incentives: A system of positive rewards, both tangible and 
            intangible, supports goals achievement. Incentives are 
            based on the difficulty and complexity of the goals 
            achieved. Some participants are also eligible for an IDA 
            matched savings program, enabling them to build up reserve 
            funds faster. This not only motivates participants, but 
            also eliminates a significant barrier to sustaining 
            economic independence--the inability to develop assets when 
            struggling to make ends meet.

    Initial results of Mobility Mentoring have been very strong. 
Hundreds of participants from public housing and shelters have been 
graduating from college, saving money, and increasing earnings at rates 
three times higher than average.

    Overall participant achievements:

  <bullet> 74% in school and/or working.

  <bullet> Current earnings $12.60/hr.

  <bullet> 74% banked; 57% have savings.

    Those in the program 3 years:

  <bullet> 31% achieved living wage jobs of $44,138.

  <bullet> 65% attained new technical certificate or college degree.

  <bullet> Savings of $2,085/pp.

  <bullet> 60% improved credit score.
Outstanding Outcomes
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Crittenton Women's Union, May 26, 2015.

    The current system of public assistance can help poor families 
survive but is not designed to bring families to economic self-
sufficiency. Based on our work, we believe it is possible to move some 
people to become fully self-sufficient but it takes significant, time, 
well-trained staff, and a program model that recognizes the complexity 
of people's lives. While our goal is to help people become as 
independent as possible, the safety net plays a critical role in 
stabilizing families so that they can begin the process of setting 
short and long-term goals that will lead them to a place where they can 
survive independent of safety net programs and supports.
    Thank you for the opportunity to testify. Please free to contact me 
with questions or for more information at Redacted or Redacted.
Further Resources
    Babcock, Elisabeth, D. Stanford Social Innovation Review (Fall 
2014). ``Rethinking Poverty.'' http://www.liveworkthrive.org/site/
assets/docs/SSIR_Fall_2014_
Rethinking_Poverty.pdf.
    Babcock, Elisabeth, D. Using Brain Science to Design New Pathways 
Out of Poverty. (2014) Boston: Crittenton Women's Union. http://
www.liveworkthrive.org/site/assets/
Using%20Brain%20Science%20to%20Create%20Pathways%20Out%20of%20
Poverty%20FINAL%20online.pdf.
    Liberman, Ruth, J. A Plan for Building Skilled Workers And Strong 
Families Through the Massachusetts TAFDC (Transitional Assistance To 
Families With Dependent Children) Program. (2014). Boston: Crittenton 
Women's Union. http://www.liveworkthrive.org/site/assets/docs/
OnlineSkilled_Workes_Strong_Families_
Through_MATAFDC.pdf.
                        PowerPoint Presentation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Dr. Babcock. Mr. Collins?

         STATEMENT OF GRANT E. COLLINS II, SENIOR VICE
PRESIDENT, WORKFORCE DEVELOPMENT AND EXECUTIVE DIRECTOR, FEDCAP 
          REHABILITATION SERVICES, INC., NEW YORK, NY

    Mr. Collins. Good morning, Chairman Conaway, Ranking Member 
Peterson, and distinguished Members of the Committee. Thank you 
for inviting me to testify on the past, present, and future of 
SNAP: the means to climbing the economic ladder. I am currently 
the Senior Vice President of Fedcap Rehabilitation Services, 
Incorporated's Workforce Development Practice Area. Fedcap is a 
nonprofit human service company that specializes in addressing 
the economic well-being of those with barriers to work. Today I 
will be offering insights regarding a program model that I 
oversee in New York City known as the Wellness Comprehensive 
Assessment Rehabilitation and Employment Program, or WeCARE.
    The largest program of its type, WeCARE program engages 
over 50,000 public assistance recipients per year that have 
health issues through comprehensive case management, and a full 
range of customized activities that help individuals with 
health claims reach their highest levels of self-sufficiency. 
As you can see from the slide, WeCARE provides those with 
barriers an equal opportunity to transition from welfare to 
work. The model is consistent with Federal Temporary Assistance 
for Needy Families, or TANF, rules that include time limited 
assistance and required participation in federally approved 
work activities in exchange for cash assistance. However, 100 
percent of WeCARE participants do not believe that they can 
work, and since 2005, over 480,000 assessments have been 
completed.
    WeCARE presents a unique path for someone with a health 
claim at the point of application. Presenting a health claim in 
most local or state public assistance programs leads to no 
work. As you can see in the second slide, most applying for 
benefits that present the health claim are either exempted, 
with no activity, and/or given assistance to apply for Federal 
disability, rather than assistance to find a job. The WeCARE 
model does something different with the same person that makes 
a health claim. As illustrated in Slide 3, the health claim is 
evaluated, as the individual must complete an independent 
medical assessment as a condition of eligibility. The 
assessment is conducted by medical doctors to determine the 
level of work the individual is capable of doing.
    The four assessment outcomes listed on the slide are fully 
employable, which means no accommodations were needed. The 
second is employable with accommodations. Next is temporarily 
unemployable, which was also referred to as needing wellness or 
condition management. Often individuals in this outcome need a 
condition management plan that may last up to 90 days to allow 
the condition to stabilize before determining the individual's 
ongoing work capability. The majority of individuals are able 
to work once this plan is completed. There will be some 
individuals that are determined unable to work in the next 12 
months who are then provided assistance with applying for 
possible Federal disability benefits.
    After 10 years and over 485,000 assessments completed, the 
outcomes are quite revealing, as seen in this fourth slide. 
Though all did not think they could work, we consistently find 
that six percent of those completing the independent 
assessments are determined to be fully employable, 44 percent 
are determined to be able to work with an accommodation, 33 
percent need condition management, and 17 percent are possible 
candidates for Federal disability benefits. The outcomes show 
that fully \1/2\ of the entire group can work, when they did 
not think they could, or a doctor told them that they could 
not, and another 33 percent can get ready for work as their 
medical conditions are stabilized. In addition, a summary view 
of employable with accommodations, in Slide 5, shows that a 
range of work and work activities can be successfully 
completed, and that many can, and do, participate for their 
required hours, despite their barriers or accommodation needs. 
Slide 6 provides contract year 10 outcomes for assessments, 
wellness completions, placements, retention numbers, as well as 
the percentage placed, and the number receiving SSI.
    In closing, I would like the Committee to know that, based 
on my experience, I believe the WeCARE program outcomes suggest 
that more can be expected from those that have been told, or 
believe that they cannot work, or achieve self-sufficiency. I 
believe that knowing the dignity of work can become a viable 
pathway out of poverty, and far more can work than we even 
thought possible, including those with health and other 
challenges. I appreciate the Committee's interest in this 
issue. I hope the Members of this Committee can work together 
with this panel to ensure that SNAP is doing everything 
intended to move more families up the economic ladder. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Collins follows:]

   Prepared Statement of Grant E. Collins II, Senior Vice President,
  Workforce Development and Executive Director, Fedcap Rehabilitation 
                      Services, Inc., New York, NY
    Good morning, Chairman Conaway, Ranking Member Peterson, and 
distinguished Members of the Committee. Thank you for inviting me to 
testify on the Past, Present, and Future of SNAP: The Means to Climbing 
the Economic Ladder.
    I am currently the Senior Vice President of Fedcap Rehabilitation 
Services, Inc.'s workforce development practice area. Fedcap is human 
services company that specializes in addressing the economic well-being 
of those with barriers to work. Today I will be offering insights 
regarding a program model that I oversee in New York City known as the 
Wellness, Comprehensive Assessment, Rehabilitation and Employment 
(WeCARE) program.
    The largest program of its type in the United States, the WeCARE 
program engages over 50,000 public assistance recipients per year that 
have health issues through comprehensive case management and a full 
range of customized activities that help individuals with health claims 
reach their highest levels of self-sufficiency.
    As you can see from the slide WeCARE provides those with barriers 
an equal opportunity to transition from welfare to work. Just like most 
TANF programs reciprocity is required and the program is consistent 
with TANF time limits and participation requirements. However, 100 
percent of WeCARE participants do not believe they can work and since 
2005 over 485,000 have participated.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    WeCARE presents a unique path for someone with a health claim at 
the point of application. Presenting a health claim in most local or 
state public assistance programs leads to no work. As you can see in 
the second slide most applying for benefits that present a health claim 
are either exempted with no activity and/or given assistance to apply 
for Federal disability rather than assistance to find a job. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The WeCARE model does something different with the same person that 
makes a health claim. As illustrated in Slide 3, the health claim is 
evaluated as the individual must complete an independent medical 
assessment as a condition of eligibility. The assessment is conducted 
by medical doctors to determine the level of work the individual is 
capable of doing. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The four assessment outcomes are listed on the slide are (1) fully 
employable which means no accommodations were needed; (2) the second is 
employable with accommodations. Next is (3) temporarily unemployable 
which is also referred to as needing wellness or condition management. 
Often individuals in with this outcome need a condition management plan 
that may last up to 90 days to allow the condition(s) to stabilize 
before determining the individual's ongoing work capability. The 
majority of individuals are able to work once this plan is completed. 
There will be some individuals that are determined unable to work in 
the next 12 months who then are provided assistance with applying for 
(4) possible Federal disability benefits.
    After 10 years and over 485,000 independent assessments completed 
the outcomes are quite revealing as seen in Slide 4. Though all did not 
think they could work, we find that six percent of those completing the 
independent assessments are determined to be fully employable, 44 
percent are determined to be able to work with an accommodation, 33 
percent need condition management, and only 17 percent are possible 
candidates that may not be able to work. The outcomes show that fully 
half of the entire group can work even when they did not think they 
could or a doctor told them that they could not and another 33 percent 
can get ready for work as their medical conditions are stabilized. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In addition, a summary view of employable with accommodations in 
Slide 5 shows that a full range of work and work activities can be 
successfully completed and that many can and do participate for their 
required hours despite their barriers or accommodations needs. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Slide 6 provides contract year 10 outcomes for assessments, 
wellness plans, placement and retention numbers as well as percentage 
placed and the number receiving SSI. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In closing, I would like the Committee to know that based on my 
experience, I believe the WeCARE program outcomes suggest that more can 
be expected from those that have been told or believe they cannot work 
or achieve self-sufficiency. I believe that knowing the dignity of work 
can become a viable path out of poverty and far more can work than we 
may have thought possible including those with health and other 
challenges.
    I appreciate the Committee's interest in this issue, and I hope 
that the Members of this Committee can work together with this panel to 
ensure that SNAP is working as intended moving more families up the 
economic ladder. I look forward to answering any questions you might 
have.

    The Chairman. Well, I thank the panel, and I appreciate 
your comments this morning, and look forward to your answers to 
our questions. I recognize myself for 5 minutes.
    Each one of you mentioned the value of case management to 
successful outcomes. I am wondering about the training of case 
managers, and the way their attitudes toward getting their 
clients back into the workforce. Personal experiences always 
drive decisions better than anything else. I have a constituent 
back home who runs a home health care visiting nurses kind of 
deal, where folks go into homes, people, elderly--and her case 
load increased. She went to her workforce, who was working part 
time, and said, I can move you to full time. They all said yes, 
that would be great. And then, 2 or 3 days later, came back and 
said they couldn't take those extra hours because, in 
consultation with their case manager, it didn't operate in 
their best interest to take on that additional work. It would 
trim or eliminate benefits.
    Starting with Mr. Raglow, can you give us some concept of 
how we address this cliff, where you move just a little bit 
above the mark of where you qualify for benefits, you lose 
those, the income you are getting from that doesn't offset what 
you have lost in benefits. How do we deal with this transition 
period, where folks want to work, want to move there, but it is 
not in their individual self-interest to do that because the 
way we have the system structured?
    Mr. Raglow. Thank you, Mr. Chairman. That is a great 
question. The complexity of the various programs that are 
assisting an individual often lead to that result, where a 
marginal increase in their income results in a more than 
significant loss in other resources that they have available to 
address their needs. So it is possible that we could taper 
those, more of a graded degradation of available services based 
on income, instead of a straight line cutoff. Or, in the case 
of one of the programs I work with, Welfare to Work, instead of 
giving them 100 percent rent assistance at the maximum amount 
each month, we sort of de-incremented it month by month, so 
that by the time they were at the end of the program, they were 
accustomed to paying that rent, and so it wasn't 100 percent 
increase in their rent, it was a fractional increase over time. 
Thank you.
    The Chairman. So the rent program allowed you that 
flexibility to work with each client that way?
    Mr. Raglow. At the time we ran the program, we actually 
were addressed by the state, by the government oversight 
agency, saying we weren't spending money fast enough. And so we 
engaged with them, and said our outcomes are better, because by 
the time they are done with the program, they are accustomed to 
paying the rent as they have been----
    The Chairman. Right.
    Mr. Raglow.--working their way through. That was the 
Welfare to Work program in Las Vegas.
    The Chairman. Okay. Mr. Samuels, you had some pretty 
impressive statistics on success rates of folks going to work. 
First, thank you for your personal story. I appreciate you 
sharing that with us. Thinking about statistics on folks who go 
through your program, and move themselves off of the SNAP 
program, which is our focus here today, do you do long term 
assessments, or keep track of folks who fall back into the SNAP 
program? If they don't come back to your program, do you know? 
The 63 percent that move off, are those folks, like yourself, 
permanently off, or for the most part permanently off? Can you 
walk us through your follow-ups?
    Mr. Samuels. Well, at STRIVE, our case management plan is a 
2 year plan, so we follow a lot of our clients for 2 years. I 
can tell you right now for the last 2 years that 83 percent 
have gone off of food stamps. The other thing is that, just to 
piggyback on what Mr. Raglow said, with a lot of our clients, 
the issue with them is with jobs. When they get a job, and you 
cut their benefits off, what I have come in contact with a lot 
of my clients is that a lot of them say, ``Well, if I quit my 
job again, I can just go back on the food stamps, or the 
benefits, and continue to support myself.'' And, it is not 
really supporting, it is a handout, we say at STRIVE. We want 
to promote hand-ups at STRIVE.
    The Chairman. Well, thank you, I appreciate that. Mr. 
Collins, you have said that about 44 percent of the folks you 
assessed can go to work with accommodations. Can you give us a 
quick kind of list of what those accommodations might be for 
employers?
    Mr. Collins. Sure, Mr. Chairman. Some examples would 
include larger font on a computer when they are at the 
computer. A wrist brace, maybe a back brace, or a larger chair. 
Many of the accommodations are quite reasonable, and not 
largely expensive.
    The Chairman. That in and of themselves wouldn't be a 
barrier to an employer wanting to bring somebody on? It 
wouldn't be super expensive to make those accommodations?
    Mr. Collins. No, sir, it would not be.
    The Chairman. I thank the gentleman. Mr. McGovern, for 5 
minutes.
    Mr. McGovern. Thank you very much, and I want to thank all 
the witnesses for being here. And we certainly support the work 
that you are doing to try to help people who are struggling to 
get themselves into a better position. I have been advocating 
for a long time that the White House ought to do a White House 
Conference on food, nutrition and hunger to figure out how do 
we end hunger in this country? How do we help people transition 
to a more stable place? Because, quite frankly, to do that 
requires a discussion that goes far beyond the jurisdiction of 
this Committee.
    We are responsible for dealing with SNAP here. A lot of the 
training programs we are talking about are funded from the 
Department of Labor and other agencies and departments. We need 
to keep the focus on the importance of SNAP, and the importance 
of having an adequate SNAP benefit as people are working their 
way through some of your programs to hopefully end up with a 
job.
    As I pointed out in my opening statement, the vast majority 
of people on the program are kids, and senior citizens, and 
people with disabilities, many of whom can't work, and we don't 
expect to work. Of those who are able-bodied, a majority work. 
But the problem is a majority of those who are working are 
still earning so little that they are still on SNAP.
    Dr. Babcock, in your testimony, if I do the math correctly, 
I calculate that if I am a graduate of your program and making 
an average, you stated of $12.95 an hour, times 40 hours per 
week, times 4.3 weeks per month, equals about $2,242 in gross 
income per month. Based on that calculation, and without any 
deductions for child care or housing, a single mother with two 
kids still qualifies for SNAP. Maybe you can comment on how 
many of your successful clients still need to use SNAP.
    And also, I would like you to comment on the fact that one 
glove doesn't fit all. Of the people that you deal with, not 
everybody fits into a nice, neat category. There are individual 
and unique challenges to each individual that sometimes pose 
problems, and I would appreciate any kind of commentary. Dr. 
Babcock and Mr. Samuels, if you want to?
    Dr. Babcock. Well, I would respond with my view that $12.60 
is sort of an opening point.
    Mr. McGovern. Right.
    Dr. Babcock. That is employment, the beginnings of 
employment, and hopefully above minimum wage employment, and 
that it is incumbent on us to work with families to help them 
move up the ladder until they can reach those $44,000 a year 
jobs that we actually move families into. To do that requires 
time, and it requires persistence. And, as you said, it is not 
a one size fits----
    Mr. McGovern. Right.
    Dr. Babcock.--all process. It means engaging families, and 
getting the kind of training that they can excel at, and 
helping them find those pathways in juggling work, and a home 
life, and education at the same time to get to that place. And 
every family comes to that journey with different strengths and 
weaknesses, and we have to be able to accommodate those 
strengths and weaknesses, and help build out a strength, and 
minimize the challenges that families face along the way. But 
it is a process that requires time, and it requires supports to 
help keep body and soul together until the gap is filled by 
their own wages.
    Mr. McGovern. All right. Mr. Samuels?
    Mr. Samuels. The good thing about the STRIVE program is 
that--our case management. We are checking on our clients--
well, initially we are giving our clients an assessment, 
wherein, we are looking at what their needs are. So if you lack 
education, you may need to go back to school while you take 
that job making $12.95. A good thing is that for us this year, 
on average, our clients are making $12----
    Mr. McGovern. Right.
    Mr. Samuels.--and 95. But once you have your plan, you 
have to continually look back at your plan. That is the goal of 
my case management, case managers, to make sure clients are 
following their plan.
    Mr. McGovern. I think all of you have made the case about 
good case management, but the fact is that some SNAP recipients 
don't need case management, they are already working. And 
effective case management, I would assume you would all agree, 
is not cheap. I am just thinking in terms of what might be 
coming down the road here. If there were mandates requiring 
everybody to go through a case management process, I have to 
believe that you can't do that. And I am not sure that that is 
the right way to do it. But, obviously those who need case 
management should be able to get it. That is an expensive 
proposition. None of this is cheap, am I right?
    Mr. Collins. Congressman, I would suggest that case 
management is a wise investment.
    Mr. McGovern. I don't disagree that it is a wise 
investment, but I am just saying one glove doesn't fit all, and 
not everybody needs case management. If we would require case 
management for more people, then the money has to be there. 
Otherwise, it is kind of like we are requiring people that are 
on SNAP to have job training or be in a job, but in many places 
they don't have access to job training. So the mandates are 
good, and the rhetoric sounds tough, but if we are not going to 
provide this support, then it doesn't help.
    The Chairman. The gentleman's time has expired. Mr. Yoho, 
for 5 minutes. Mr. Yoho, for 5 minutes. That would be Ted Yoho.
    Mr. Yoho. That is fine. Thank you, sir. I appreciate it, 
Mr. Chairman. I appreciate you guys being here. And this is an 
important thing, as we are all aware of the farm bill, 80 
percent of that goes to nutritional programs, and it is so 
important that we make the needed reforms so that the money is 
there for the programs that are working, and get rid of the 
programs that aren't working. I have been through that process 
myself, and so I know the importance of that.
    And as I read your testimonies, and the reports that we 
had, it talked about how the faith-based--I think it was yours, 
Mr. Raglow, where you were talking about you go in and you 
counsel people. Actually, you all had a component of that, 
where you talked about going in and counseling, teaching people 
jobs, and held them accountable. The accountability factor, how 
does that play, for a large portion of people weaning 
themselves off of Federal assistance?
    Mr. Collins. It does, Congressman. This actually supports 
the previous point I was going to make. Case management comes 
in many different forms. One is to help navigate the person 
through the process of becoming engaged, and possibly becoming 
employed, but there is also retention case management and/or 
transitional benefit case management. And so it comes in 
different forms, and all of these are critical if a person is 
going to successfully make their way through to becoming more 
self-reliant.
    Mr. Yoho. And then, Mr. Samuels, did you say you followed 
people for 2 years?
    Mr. Samuels. Yes, sir.
    Mr. Yoho. And you said 83 percent, roughly, of the people 
that moved out got off of assistance?
    Mr. Samuels. Correct.
    Mr. Yoho. Have you guys experienced--we had a house where 
we had a Section 8 family living in it, and there was about 
seven children in there. And what we saw was she had her own 
business, it was a cleaning business. She worked day and night. 
And as she moved up the economic scale, her assistance came 
down almost at the same time. What is your experience in that?
    And what I was thinking is, yes, we want people off the 
programs, but we can't take them off too early, because what 
happens is they are always under the thumb of a Federal 
program, and they can't get away from it. What is your 
experience, or your recommendations, Mr. Raglow? We will just 
go down the line.
    Mr. Raglow. Thank you. I believe that case management 
actually connects the various programs. The challenge, as 
mentioned earlier by Mr. McGovern, is that this is SNAP, and 
then some other hearing about another program, and some other 
hearing about another program. But case managers are going to 
take a look at the individual circumstances of the client 
before them, connect them to all those available resources, and 
integrate them into a path that will hopefully get them out of 
the conditions that brought them to us.
    Mr. Yoho. Mr. Samuels, what is your feeling?
    Mr. Samuels. Well, I wanted to talk about just my personal 
experience with that. So when I was a job developer, I helped a 
young lady get a job. She was making almost $20 an hour. And as 
soon as she got her first check, they cut all of her benefits. 
So then what ended up happening is she ended up having to work 
less hours because she was making too much money. If we could 
find a way, you guys can find a way, to not just cut off 
benefits again, to just gradually, as individuals make more 
money, or just support them, that is the main thing. They need 
support to transition off.
    Mr. Yoho. We can do that with your help. We need that 
transition period, and I would like to have some comments on 
that. Dr. Babcock?
    Dr. Babcock. I think the transition is absolutely 
necessary, but we also have to understand that families who are 
going to be able to make those increases, they need to have 
someone standing by them to help them figure out how to do it. 
I mean, my families, if you tell them, you can get a job paying 
you $40,000, $50,000 a year, and you can train for it in a year 
and a half at a community college, and then you say, be a 
CADCAM specialist, a surgical technologist, they won't know 
what you are talking----
    Mr. Yoho. Right.
    Dr. Babcock.--about. And so you have to give them 
information and connection into those paths in order for them 
to be increasing their wages at the same time that the benefits 
are decreasing.
    Mr. Yoho. Mr. Collins, real quickly?
    Mr. Collins. In the programs that I have seen across the 
country, many of them have what are known as earned income 
disregards. So what they are able to do is, with the 
flexibility given to them, they are able to design a package 
that helps incentivize work, and continued work, and retention, 
by tapering the amount of the benefit along with the increase 
in earnings. And I would suggest that combining the benefit 
with earnings for a period of time is a wise investment of 
resources.
    Mr. Yoho. Let me just touch on something. In 1997 President 
Clinton signed into law the Personal Responsibility and Work 
Opportunity Act. We saw the largest drop in welfare recipients 
during that period of time. In 2009, with the American Recovery 
and Reinvestment Act, the work requirement was waived by this 
Administration, and again in July 12, 2012 HHS issued an 
information memoranda inviting states to apply for waivers. In 
your opinions, do you think the work requirements are 
important? And you can submit that, and I am out of time. Thank 
you.
    The Chairman. The gentleman's time has expired. Mr. 
Aguilar, 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman, I appreciate the 
opportunity. Dr. Babcock, you talked a little bit about kind of 
a wraparound coverage, in the sense that it takes all of these 
different types of conversations to make success happen. Can 
you talk a little bit about your research and your discussion? 
Your testimony mentions, with respect to the stress that some 
of these families are under, and how that affects, in a 
negative way, the decisions and the outcomes that transpire.
    Dr. Babcock. Well, this process of multitasking your way 
out of poverty, of taking care of family, of going to school 
and working at the same time, moving up a career, managing 
money, this requires incredibly sophisticated navigational 
skills and decision-making skills that are very much impacted, 
we know, by new research in brain science, very much impacted 
by the stresses of poverty themselves. So new discoveries in 
neurology and behavioral sciences show us that the people who 
are most under stress, those at the bottom of the economic 
ladder, are the ones whose decision-making skills are most 
compromised by that stress itself.
    And so part of the coaching that has to be done is not just 
connecting people to benefits, and helping them understand the 
pathways, but actually also coaching the decision-making, 
problem solving, and persistence that is necessary to be able 
to multi-task your way out of poverty.
    Mr. Aguilar. But these safety net programs provide a pillar 
of what is necessary?
    Dr. Babcock. Absolutely. The science itself shows without a 
doubt that for every $1,000 or so that the household has 
coming, whether earned, or where the source is from, it 
decreases the stresses on decision-making and thinking that is 
necessary in order for families to be able to work, and go to 
school, and take care of themselves at the same time. So we 
know safety net subsidies are a key to supporting individuals 
who are trying to make their way to this family sustaining job.
    Mr. Aguilar. All right. Thank you so much. If I could ask 
the other witnesses to comment on the conversation that we were 
just having about case management and flexibility. What 
additional flexibility do you feel is necessary to ensure, as 
Mr. McGovern was saying, that full time worker, managing child 
care, managing full time work, and still having wages that are 
so depressed that they qualify for these programs? How do you 
provide case management and those wraparound coverages that Dr. 
Babcock has mentioned? How do you provide that in that type of 
setting, where hours of the day are just diminished? Mr. 
Collins first, and then Mr. Raglow.
    Mr. Collins. Sure. I think there are a number of ways to do 
that. Retention services are a great way to help people in the 
long term continue to navigate their way up. I think you have 
to take a longer term view of what success looks like. The 
first job might not be the last job that they have while we 
continue to work with this individual, case management will 
extend itself likely over a year or more. This, I believe, is a 
wise investment, particularly as individuals are having to 
transition and navigate through all of the things that my 
colleague just mentioned.
    I think we need to be careful, however, not to have low 
expectations here. I am confident that these families are 
resilient and able to succeed if a high bar of expectation is 
placed on them.
    Mr. Aguilar. Thank you. Mr. Raglow?
    Mr. Raglow. The case management approach that Catholic 
Charities takes tries to take advantage of those gifts that 
they bring to the table. And it is different for each client 
through the 16 different programs. We have a full continuum, so 
some deal with homeless clients, couch surfing, living on the 
streets, or living in their cars. And that is a different 
approach than those who are coming in for rent and utility 
assistance, where each client, before we assist them with rent 
and utility assistance, we give them financial literacy 101 and 
a few tools. But 76 percent of those who come to us say that 
they have gotten skills and tools to address their situations 
just from their interaction with us.
    We offer Family HOPE, Help, Organize, Prioritize, Empower, 
which is up to 18 months. But because it is a relationship, 
where they take it, and how we help them, will vary client by 
client. Thank you.
    Mr. Aguilar. Thank you. Mr. Samuels?
    Mr. Samuels. I am sorry.
    Mr. Aguilar. On the flexibility within case management, and 
how you continue to offer that, in spite of full time 
employees' child care concerns?
    Mr. Samuels. So what we do once a month is we have alumni 
support groups, peer to peer support groups. So it is just 
peers, different families, talking about different issues that 
come up, and they are managed by one of our case managers, to 
help families talk about some of the issues that are coming up. 
You may have a child care issue. One of the good things about 
all of our programs is that word of mouth spreading from client 
to client. It helps them navigate a lot of the issues that they 
have.
    Mr. Aguilar. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
Abraham, 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman. Wow, some great 
success stories you guys have, and I would suggest that the 
four of you all could heal some of the ills of the world. I am 
very impressed with your statistics, and they are objective 
data that you are giving us. So I would say that if we can get 
83--60 percent success rate--and even though that--they are not 
a one glove fits all type deal, your data supports the pathway 
that you all have chosen to go with all of these clients have 
been very effective and very worthwhile, so congrats on that.
    And I guess the question I have, and we will ask all the 
panel. Mr. Samuels, I will start with you. You have your six 
essential CORE tenets, so to speak. Certainly these types of 
programs are replicable to other environments. Have you all 
each talked to other programs to see, and tried to spread the 
work, so to speak? Start with you, Mr. Samuels, you are----
    Mr. Samuels. I am sorry, I missed the last part.
    Mr. Abraham. I just want to know if--have you engaged with 
other programs to try to replicate your model and expand your 
model into----
    Mr. Samuels. Okay.
    Mr. Abraham.--areas?
    Mr. Samuels. Well, the good thing about STRIVE DC is we are 
part of a wonderful network across the--we have affiliates 
across the country.
    Mr. Abraham. You are in my State of Louisiana.
    Mr. Samuels. Yes.
    Mr. Abraham. Yes.
    Mr. Samuels. And we have----
    Mr. Abraham. And I know about you guys.
    Mr. Samuels. We have affiliates across the nation, and 
twice a year we come together and we talk about best practices, 
so what is working, what is not working, what we need to 
change. Right now we are in the process of rolling out a new 
curriculum, dealing with our training, and focusing on our case 
management services to make sure that we give the clients what 
they need, the support. I don't think I mentioned this in my 
statement, but STRIVE stands for Support, Training Results In 
Valuable Employees, because at the end of the day, that is what 
we are looking for, valuable employees to the workforce.
    Mr. Abraham. Mr. Raglow?
    Mr. Raglow. Sir, we collaborate in our local community all 
the time, and in our view, if you don't care who gets the 
credit, you can get a lot more things done. So I am not in 
competition with Salvation Army, city rescue mission, regional 
food bank. We work together for the benefit of our clients. And 
then, as a network, Catholic Charities USA, we share best 
practices all across that forum----
    Mr. Abraham. And are they receptive to your suggestions?
    Mr. Raglow. Yes, absolutely. Absolutely. And then the 
Council on Accreditation is another step even higher than that, 
where we apply best practices nationally to the program models 
that we have in place across 16 different program sectors. Yes, 
sir.
    Mr. Abraham. Dr. Babcock?
    Dr. Babcock. Yes. Our frameworks and approaches are shared 
freely with the field as a whole, and so, because of that, we 
now have a rapidly growing network of welfare offices, large 
multi-state nonprofit organizations, small nonprofit 
organizations, city development initiatives, all employing our 
tools and approaches so that we can learn together how to 
accelerate the innovation in economic mobility. So we are using 
these frameworks to teach other what works, and how we can get 
the best outcomes possible across the nation.
    Mr. Abraham. Mr. Collins, are you sharing your program with 
other avenues?
    Mr. Collins. Absolutely. The model and framework is listed 
as a best practice and is easily adaptable for most Temporary 
Assistance for Needy Families (TANF) or other public assistance 
recipient groups. We are having conversation with the Social 
Security Administration--what do we do after someone has 
applied and been denied SSI three, four, five times that would 
then be unemployed for 3 and 4 years while waiting? What is the 
next step for them? How do you get them engaged in work? And, 
additionally, you can imagine how the model will work for 
people who are coming out of the criminal justice system and 
re-engaging in work. These are a few examples, whether the 
individuals have mental or physical barriers, our model seems 
to fit very well and we are continuing the conversations are 
currently underway.
    Mr. Abraham. I am just very impressed. I live in the heart 
of the Delta, and have all my life, so I have been with 
impoverished people all my life, and I can tell you, most of 
them are motivated, smart, focused, and they want out of the 
poverty level. I yield back, Mr. Chairman. Thank you.
    The Chairman. The gentleman yields back. Mr. David Scott, 
for 5 minutes.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman. Our welfare reform law permanently disqualifies 
individuals from SNAP participation if they have been convicted 
of a state or Federal felony involving the possession, use, or 
distribution of a controlled substance, and a lifetime ban may 
be applied for any drug felony conviction, regardless of 
whether an offender served their sentence in prison or received 
a lighter sentence due to the non-violent or minor nature of 
the offense. And also a similar ban may also be imposed for 
TANF funding services for these felony convictions.
    And did you all know that now there are 2.2 million people 
sitting in the prisons of the United States, in the jails? And 
did you know that just 45 years ago we had only 400,000 people 
in the United States in our prisons? It is an extraordinary 
increase in a short amount of time. Another startling fact 
about this is that 1.1 million of that 2.2 million are African-
American men. And what is even more startling is African-
American men make up only eight percent of the population of 
this nation. Eight percent of the population of this nation, 
but they make up 50 percent of those in jail. These are young 
men, all basically fathers, with children there.
    The reason I am bringing this up is because if we don't 
look at this particular aspect of how we got here, what 
happened between 1970 and now to get to the answer to our 
problem? And as we get to the structure of how this is, we deny 
help to them for food, number one. And number two, every year 
we release 600,000 of them back into society. But yet over \1/
2\ of those are re-arrested within the first year. And within 
the next 5 years, 75 percent of them.
    And so, Mr. Samuels, you are dealing with this, and I am 
sure some of the others are dealing with it, but what concerns 
me about this is the denial, and we look at programs. We have 
two SNAP E&T state pilot project summaries, but it doesn't 
allow for any ex-offenders, or people because they have a 
record. Now we have a controlled substance, marijuana, that is 
being legalized state, after state, after state.
    My whole point about this as we look at what happened, in 
terms of this phenomenon, in 1970s, when the manufacturing 
firms left the inner city, moved overseas, those jobs were 
there, which these people, African-American men especially, 
were able to get to, and to have, and provide for their 
families. And at that same time, these networks of crack 
cocaine were put into the African-American community. And do 
you all know who was the maker of that framework? The 
government. The CIA, through the Iran-Contra program, 
established that in these inner cities. That was where this 
drug situation was established, to pay for the Iran-Contra 
rebels because the Federal Government wouldn't do it.
    So my whole point is that we need to get real, and 
understand we are not treating this situation right because we 
are looking at it through these tainted lenses. These fellows 
ain't going to get no jobs when they come out. These programs 
that we are putting in place are not structured deep enough and 
well enough for us to deal with the vast complexities of this 
problem and come to Jesus on the moment of truth. We laid this 
out. And, unfortunately, particularly African-American young 
men fell right into it, many because they had no other way of 
making a living.
    Sorry about that, but it was important to get that point on 
the record.
    The Chairman. The gentleman's time has expired. Mr. 
Newhouse, for 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman. Thank you, all of 
you, for being here this morning. A very interesting and 
important topic that we are discussing, so I appreciate that. I 
was an agency director in my state, and one of our 
responsibilities of the agency was the food programs, and so 
this is something that is very dear to my heart as well.
    Mr. Raglow, I appreciate your testimony. And you talked 
about the informational poverty, and also economic poverty, and 
made a distinction between the two. So could you just talk 
about that a little bit, the lessons you have learned as it 
relates to case management? Maybe you have some recommendations 
for other organizations in those lessons, and maybe help me 
understand the difference between those two terms?
    Mr. Raglow. Absolutely, thank you for the question. 
Informational poverty just simply means they don't know what 
they don't know, and they don't know how to access those 
resources, or what is available to help them. It doesn't matter 
how many programs the Federal Government has if nobody knows--
or the right people don't know how to access them. And if there 
are 70+ programs that assist the poor in some form or fashion, 
that is not orchestrated well, it is not coordinated well. And 
so you have to orchestrate it at the point of contact with the 
individual client, and they need to avail themselves of those 
resources.
    Dr. Babcock made an excellent point that when you are 
suffering some form of trauma, which might be food insecurity, 
you are not thinking right, and so you are not making good 
decisions because you are dealing with the immediate. You would 
say, ``Well, that is kind of a dumb decision.'' But if you are 
in poverty, you don't have the luxury of taking a longer term 
view. And so you bring a case manager in, who has a different 
vantage point, who can see their skills, who can see their 
problem from----
    Mr. Newhouse. Yes.
    Mr. Raglow.--not get in the canoe with them, but help them 
navigate a path to a different outcome using those resources.
    Mr. Newhouse. Yes. Thank you very much. Mr. Collins, in 
your testimony you discussed the WeCARE program, Wellness 
Comprehensive Assessment, Rehabilitation and Employment, which 
helps identify disabilities that individuals may have, but also 
their abilities.
    Mr. Collins. Correct.
    Mr. Newhouse. So could you talk a little bit about that, I 
want to give you an opportunity to explain that process, and 
what it actually means to those people that you are seeking to 
help?
    Mr. Collins. Sure. Thank you, Congressman. WeCARE is an 
interesting program because it is a program that 100 percent of 
the people come into do not believe that they can work. That is 
how they got there. If they could have worked, they would have 
gone to a different program. They showed up at the eligibility 
office with a doctor's note, or indicated to the eligibility 
specialist that they had some barrier to work.
    So immediately they come over to my program, and we put 
them through an independent medical assessment. So we take in 
consideration the doctor's notes and information that they 
provide us, but we come up with an independent functional 
capacity outcome, if you will. As you saw in the slides, and 
the information that is really noteworthy is that after 10 
years of doing this, and after 485,000 incidences of these 
kinds of assessments, we keep finding that over \1/2\ of the 
people who come in are able to work, but didn't know it, and 
that 33 percent can get better physically, their health can 
improve and stabilize, and those too can go to work. And that, 
quite frankly, a significant minority are then tracked to 
Federal disability.
    So in our program, all of the questions that are asked in 
the assessment are about what you can do, not what you can't 
do.
    Mr. Newhouse. Yes.
    Mr. Collins. And the spirit of the program defines work as 
getting well, following through with your assignments, getting 
a job, or preparing for a job. So many of our components look 
very much like Mr. Samuels's components. We include an 
additional element to help guide individuals toward the work 
they appear to be good at, we do that through what we call a 
diagnostic vocational evaluation, so they better understand 
their strengths and weaknesses, that it helps them pick their 
own job.
    Mr. Newhouse. Great. Excellent. I appreciate that. Well, my 
time is running thin, but thank you again for your testimony. I 
yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Ms. Lujan Grisham, 
for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I want to 
thank the panel today. I think that most of my colleagues on 
this Committee agree it is not only the SNAP benefit, but a 
variety of other public benefits that are critical in providing 
a leg up in success. I come from a state where we still have 
the hungriest children in the country, that is an untenable 
situation, and we have a responsibility in this institution, as 
well as our private-sector partners, and other public sector 
partners, to do something to make sure that we eradicate those 
issues, poverty and hunger, in this country forever. But saying 
that, I also am from a state that has not recovered from the 
Great Recession. And, as you are looking at jobs, whether we 
identify that as job growth or a recovery to back where we were 
in 2008 in this country, New Mexico is nowhere close. We have 
just a little over 3\1/2\ percent of our job growth since 2008, 
so we still have one of the hardest hit economies in the 
country.
    When we talk about these work requirements, and you talk 
about the successes in other states, I am very curious about 
what the plan is for states that have no jobs for college 
students, high school students, folks on public benefits? In 
fact, the only job growth in our state was in the oil and gas 
industry. And, recently, with the oil and gas prices decline, 
that is not true there either. Are there strategies in place to 
deal with that reality, so that we don't create a situation 
where we are penalizing unnecessarily folks who, without these 
benefits, have no other options to feed their families? Anyone 
on the panel?
    Mr. Collins. Yes, success means that a person gets a job, 
and I think that that is a reasonable goal. While it might 
seem, as the economy is not favorable in some places, all we 
are really trying to do with our participants is get them a job 
for their family.
    There are many things that can be done to prepare for work, 
including simulated work, which we do a lot of, occupational 
skills training in high demand occupations, which we do a lot 
of as well. And it is always necessary for people to brush up 
on their job readiness, and their ability to present themselves 
competently to employers. You can imagine internships. There 
are a number of viable work activities that can always be done 
to help prepare individuals and help them progress.
    Ms. Lujan Grisham. And, Mr. Collins, I really appreciate 
those points, because notwithstanding work requirements, and 
thinking that through, those are skills we have to be providing 
to larger sets of the American population, so you had me at 
hello. But reducing a benefit by virtue of that investment in 
individuals, means I have hungrier children, and I am right 
back to that untenable situation that I don't think anyone on 
this Committee would support, if that was really the impact.
    I am going to go to another aspect, with less than 2 
minutes to go, and I appreciate my colleagues, and particularly 
the remarks of our Chairman, about what I refer to as the cliff 
effect. We have a very real issue here. And I have a 
constituent, I know many of us do, a woman in my district, and 
I want to just give you the example, because I think that we 
need to be clear about this on the record.
    If a parent with one child is working 40 hours per week, 
earning the Federal minimum wage of $7.25 an hour, gets a 
raise, and, in Albuquerque, which is the heart of my district, 
would be making $8.50 an hour, she is going to receive $208 
more per month in salary. That is great. She will lose $683 in 
support. This means she doesn't have her housing assistance, 
her SNAP benefits, and completely loses child care benefits. So 
when you talk, Mr. Samuels in particular, about that folks will 
say to you that they would rather go back on benefits and not 
work. I disagree with your characterization, that is because 
they prefer, and I am overstating your response.
    If I am choosing between feeding my child and having a roof 
over my child's head, or be homeless, and then try to figure 
that out for $208 more a month, which I assure you will not pay 
the rent, or buy food, I am going to do the right thing, and I 
am going to take care of my child. And so we have to do 
something----
    The Chairman. The gentlelady's----
    Ms. Lujan Grisham.--Mr. Chairman----
    The Chairman. The gentlelady's----
    Ms. Lujan Grisham.--about the cliff effect.
    The Chairman.--time has expired. Mr. Lucas, former Chairman 
of the Committee, 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And, Mr. Chairman, you 
have put together quite an outstanding panel of very impressive 
people. I would like to turn my comments to Mr. Raglow and 
discuss for a moment some of the case work oriented issues, the 
mechanics of how we do this stuff. And, just for reference, I 
would note, Mr. Raglow, the four panelists, your colleagues 
there, represent, by Oklahoma's definition, big cities, New 
York, Washington, Boston. You represent what we might think of 
as a big place in Oklahoma, Oklahoma City, and the, as you 
said, constituency in western Oklahoma, but in comparison to a 
lot of places, relatively small, which, of course, makes the 
point that these challenges exist everywhere, not just in one 
particular part of the country, but these challenges exist 
everywhere.
    And the other point I would like to observe, and if you 
would tell us, your organization has been engaged in this work 
for how many years, how many decades? Catholic Charities in 
Oklahoma?
    Mr. Raglow. Thank you, Mr. Lucas, and thank you for your 
service to the citizens of Oklahoma. Catholic Charities of the 
Archdiocese of Oklahoma City began service 103 years ago.
    Mr. Lucas. So you have a little bit of a track record. Your 
folks understand these issues, and were there not just through 
the down times of the present in the oil patch, but the bust of 
the 1980s, and the Great Depression of the 1930s, and the whole 
gamut. And that depth of knowledge and experience, I very much 
appreciate.
    So let us talk for a moment about case management, and the 
individuals who deliver those services. As you said earlier, 
deliver services when they are appropriate, deliver services 
when they are wanted, but tell us about that. What percentage 
of your case management people are volunteers, what percentage 
are professionals? Just give some insights in how Catholic 
Charities of the Archdiocese of Oklahoma City works these 
issues with people.
    Mr. Raglow. Thank you. The vast majority of our case 
managers are paid staff----
    Mr. Lucas. Okay.
    Mr. Raglow.--and they are trained, in addition to the 
skills that they bring to the agency, we train them on policies 
and procedures that have been vetted, enriched by our 
experience with the Catholic Charities USA Network, enriched by 
our interaction with the Council on Accreditation best 
practices across the nation. And we provide that training to 
make sure that they are providing appropriate partnering with 
the client. We don't need to jump in the canoe with them, as I 
mentioned earlier, but to partner with them to take that 
journey, and so you have to have appropriate boundaries and 
distance.
    And, as you mentioned, it is a different scenario in a city 
environment, where there may be many providers and resources 
that you can partner with and collaborate, whereas, in the 
smaller towns, the Enids, the Guymons, the Lawtons, Ardmores, 
there is a ministerial alliance very often at the core of the 
services that are available, and there are certainly Federal 
programs, but maybe not as many partner agencies that you can 
work with. And so you have to be sensitive to the environment, 
to the communities in which you operate. You need to not come 
in and say, ``We have the best idea.'' We want to work with the 
community, and its sensibility and sensitivity, as much as we 
work with the individual client, and their aims, and 
objectives, and skills.
    Mr. Lucas. The folks that I refer to in my organization as 
case workers, the people who deal with individual issues on a 
day to day basis in the district office, I personally consider 
it to be an art, not a science. You are born with the skills to 
be a caseworker, to work with people, or you are not. That is 
just the nature of the thing. Tell me about how you recruit, 
encourage, how you find your caseworkers, and how you prepare 
them to deal with all these myriad issues.
    Mr. Raglow. Well, I will go to a situation for the disaster 
response, because we brought together six different agencies. 
Some people come to Catholic Charities because of our first 
name, and some people won't because of our first name. So some 
will go to Salvation Army, some will go to the Red Cross, and 
whatever. So we provided overall training across six different 
agencies to respond to those folks affected by the storm, but 
we did train them on policy and procedures. United Methodist 
Church in Oklahoma, the voluntary organizations assisting in 
disaster, they all gathered together, and they all contributed 
to the wisdom, and the knowledge, and the approach, and the 
policies that we would apply to those who were seeking 
assistance after those storms. It is a very effective model, so 
it can be trained.
    Obviously people have an affinity for that work, and some 
are called with a little bit more effective skill than others. 
But much of it can be trained, but certainly, at an agency 
level, you have policy and procedure, you have supervision, you 
have oversight, and you have organizational structure behind 
the services that we are asking them to provide.
    Mr. Lucas. But like your four colleagues, you have the 
ability to be nimble, which occasionally government cannot be, 
to make adjustments to respond to circumstances.
    Mr. Raglow. Absolutely.
    Mr. Lucas. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mrs. 
Kirkpatrick, for 5 minutes.
    Mrs. Kirkpatrick. I thank the Chairman and Ranking Member 
for having this hearing, and I thank our panelists. This is 
such an important topic. I represent the Navajo Nation in 
Arizona, where over 75 percent of the population experience 
food insecurity. Many of my constituents drive 240 miles to get 
fresh fruits and vegetables. And, in fact, this creates a 
health crisis because we have exceedingly high levels of 
obesity, diabetes, and heart disease. In fact, a young Native 
American in my district is nine times more likely to have a 
diagnosis of diabetes in his or her lifetime than a non-
Hispanic White.
    So my question is for the entire panel, I don't know who 
can answer this best, but I really would appreciate your input. 
First of all, what experience do you have specifically with 
tribal communities, and then what actions need to be taken to 
address this crisis?
    Mr. Collins. If I may----
    Mrs. Kirkpatrick. Sure.
    Mr. Collins.--I have a lot of experience simply because of 
my past work in the Department of Health and Human Services, 
the TANF program, we also did Tribal TANF. I also had the good 
fortune of going out to the Navajo Nation and teaching job 
seeking skills many, many years ago. I would suggest that a 
component of the WeCARE model I oversee would work very well, 
this component is called wellness or condition management. It 
is a case managed plan where the individual goes and gets a 
treatment plan from a doctor, brings it back to the case 
manager, and together the individual and the case manager work 
through this plan to make sure the person is following up on 
appointments, taking their medication, doing their exercise. We 
consistently find that after individuals complete those plans, 
which may last 30, 60, or 90 days, depending, about 65 percent 
of them can work with or without an accommodation.
    Mrs. Kirkpatrick. Anyone else?
    Dr. Babcock. One of our organizational partners in this 
work, this mobility mentoring work that we do, is the Penobscot 
Nation, up in the very northern reaches of Maine. And I can 
certainly identify with what you are talking about with the 
special health challenges of isolated populations, isolated 
from the kind of resources that we want to get them connected 
to.
    I can say that, from our work, that component of health 
management well-being is one of the core pillars of what we try 
to optimize with our clients, and it is an integral part of 
this work of helping clients be work ready, helping them be 
able to sustain themselves working, going to school, taking 
care of their families. And those health care issues are 
definitely exacerbated by stress and poverty----
    Mrs. Kirkpatrick. Yes.
    Dr. Babcock.--so we know there is a direct hand-in-hand 
correlation with insecurity of income and food with one's 
health challenges and outcomes. And so we have to partner to 
help people manage their pathway out of poverty, including 
their health, at the same time that we maintain the supports 
that are necessary to keep them together until they can make 
that pathway secure.
    Mr. Samuels. Unfortunately, I don't have any experience 
working with this population, but I would love, if you would 
have me, to come out to your constituents and learn more about 
what help they need.
    Mrs. Kirkpatrick. Well, we will take you up on that. Thank 
you.
    Mr. Raglow. Oklahoma is blessed with many Native American 
Tribes, and when we seek to serve that community, it is very 
important that we have a relationship with the Tribal entity as 
much as we can, as well as with the individual Tribal member. 
Oftentimes they can connect resources that we cannot, and vice 
versa. And so relationships matter every bit, and very much in 
the Tribal community.
    Mrs. Kirkpatrick. Good point. My time is about to expire, 
but I just want to thank you again, and we would love to work 
with you. It is a difficult problem to address.
    Dr. Babcock. It is.
    Mrs. Kirkpatrick. One of the things I know the Tribes are 
trying to do is bring back local growing of fruits and 
vegetables, but our seasons are limited, and it is high desert, 
and drought is a problem, you just encounter one thing after 
another to address this problem. But thank you, I would love to 
work with you more on this, and I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back. Mr. Austin Scott, 
for 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman, and 
this is one of those issues where there is more in common than 
there is in difference. It is unfortunate that sometimes in 
Washington we let emotions drive the train instead of facts, 
but thank you all for being here, and for your testimony, and 
for what you do. We have heard a lot of great statements, 
successes when a person gets a job, dignity of work. Dr. 
Babcock, I know you said that there is no one way out, but I 
think you would agree that every way out of poverty requires 
work.
    And we are going to continue, we will have our debates on 
whether or not state flexibility and private sector assistance 
is better than more Federal control. I certainly believe in the 
flexibility in the private sector case management versus 
Federal agencies in control. But the problem we have right now 
is that the system is set up in a manner that is in direct 
contrast of what our goal should be. So the goal should be the 
harder you work the more you earn, and the more you have. And 
yet our system is set up where the harder you work, the more 
you earn, you hit a threshold, and the less you have. And so 
the question is how do we fix this?
    Most disability contracts in the private sector have what 
is called a residual benefit clause. And so, if you become 
disabled in your occupation, but you are willing to go back to 
work in another occupation, your disability contract would 
continue to pay you, but for every additional dollar that you 
earn in that other occupation, you might see a reduction in 
benefits of 20 percent, or 30 percent, or 40 percent, but you 
didn't see a dollar for dollar offset, and it didn't 
immediately get cut off. And it seems to me that if we took 
that same concept, and we applied it to the current system, 
that we could fix a lot of the problems that we have. And I 
would just like, if you would, for each of you to speak about 
that briefly, and whether or not you think that type of 
residual benefit is what it takes to resolve the problem.
    Mr. Raglow. Thank you. I do think that not every situation 
is the same, as it pertains to Federal benefits, and that the 
cliff is a huge problem, but relationships matter, and you 
can't have a relationship with a Federal program. You have a 
relationship with your instructor, with your neighbor, with 
your community, with your school. And so the opportunity that 
we have through case management is to build a relationship, and 
connect the individual to the community, and the community to 
the individual.
    And it is not so much a work requirement as a work 
opportunity to engage their talents and their skills, which is 
individually empowering, and giving them an opportunity to move 
forward. But it does need to be flexible, because there are 
some people who are doing everything right, and still fall 
below the ability to make ends meet. And so it needs to have a 
little bit of both components, I think.
    Mr. Austin Scott of Georgia. And, Mr. Samuels, your 
program, STRIVE, is in Georgia, so I am somewhat familiar with 
your organization, but would love to hear you speak to that as 
well.
    Mr. Samuels. Speak to the program in Georgia?
    Mr. Austin Scott of Georgia. No, sir, how do we fix this? 
Is it a residual benefit? I mean, right now, the more you earn, 
the less you have.
    Mr. Samuels. I honestly don't know. What I would want to do 
is, if I could get back to you with that, that answer? Does 
that work for you?
    Mr. Austin Scott of Georgia. Sure, absolutely.
    Dr. Babcock. If you are asking me, I believe that work 
should pay, and that as people work hard to get ahead, they 
should not find themselves suffering economically for doing so, 
and that we need to put in place structures that allow for our 
safety net's subsidies to be provided in a way that incents 
people to work, and supports them when they do.
    I think what we also have to understand, however, is that 
not all case management is effective case management, and not 
all----
    Mr. Austin Scott of Georgia. I agree with that.
    Dr. Babcock.--the organizations that provide those services 
do it well, and we have a paucity of organizations that show 
that they can help move families to a place where they can 
sustain themselves. And we need to be focused on----
    Mr. Austin Scott of Georgia. Dr. Babcock, I am down to 30 
seconds.
    Dr. Babcock.--programs that do that.
    Mr. Austin Scott of Georgia. I apologize, but I would like 
to hear Mr. Collins speak as well in the last 30 seconds.
    Mr. Collins. Thank you, Congressman. All welfare is local, 
therefore I believe it is a wise principle to allow flexibility 
as most of the solutions will also reside at the local level.
    Each state, each jurisdiction, should have the flexibility 
to devise what they believe is the right mix of program rules 
and incentives to help individuals and families transition 
smoothly, as well as incentivizing work and retention.
    Mr. Austin Scott of Georgia. Yes. Dr. Babcock, I apologize 
for cutting you off, but I am down to zero seconds right now.
    The Chairman. The gentleman's time has expired. Mr. Davis 
from Illinois, 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to the 
panelists. It is actually great to follow my colleague, Mr. 
Scott, and Ms. Lujan Grisham, who brought up a great example of 
why we are here. Because when we have a system set up in place 
that, by describing her constituent, doesn't incentivize 
somebody to get off of government programs, then we need to 
know, from those who work within those programs on a daily 
basis, how do we fix them? I come from Illinois. Illinois was 
chosen as one of the ten states to receive a grant to start a 
pilot program under SNAP for job training and economic 
development. Similar to the work that many of you are doing. I 
would hope that some of your expertise can come to Illinois to 
talk about those successes too.
    I have a list of questions, but I am probably going to make 
my staff crazy and go away from them right now, because you are 
here telling us what is so successful about each of your 
organizations, how you are working with individuals who are 
utilizing government programs, and how you are moving them off, 
in spite of the limitations that Ms. Lujan Grisham talked about 
for her constituent. So what are you doing right, and what can 
we do to fix the problems that we have with our institutional 
programs, and how do we make them work better? If you could do 
what we do, and fix this, tell me, each of you, what you would 
do simply to make that first step? We will start, actually, let 
us start down on this end, since Mr. Scott was the other way. 
Mr. Collins?
    Mr. Collins. Sure. I would start by designing a set of 
program rules that allowed for the maximum flexibility at the 
local level. As the government, I would establish a very clear 
expectation of accountability with very high standards for 
outcomes and quality. The programs at the local level should be 
flexible. They should be able to make decisions around how they 
put these interventions together. There are many, many great 
providers. There are many opportunities to do that. I would 
also suggest that performance-based payments in that arena 
might also help to spur some additional outcomes.
    Mr. Davis. Okay. Thank you. Dr. Babcock?
    Dr. Babcock. I would be looking to try to set up subsidy 
programs in a way that supports work, and supports income gains 
in work. And I would also be looking to try to create 
programmatic frameworks in which we are working with families 
to plot paths to family sustaining jobs, where they can 
envision that future where they will be earning enough to 
support their family.
    Because what we know is, when we look at a problem just 
within the scope of today, and what the tradeoffs are that are 
happening today, in terms of income gain and subsidy loss, that 
people will make decisions based on today. But if it is done 
within a context of increasing earnings to a point that you are 
self-sustaining, the decisions might be made differently, and 
so we have to have case management, or processes that allow for 
that kind of future gain that can be seen.
    Mr. Davis. Thank you, Dr. Babcock. Mr. Samuels?
    Mr. Samuels. Okay. How I would fix the problem is just look 
at what is working. For us, what is working is our really good 
case management program, our job placement program, and our 
supporter services. And then figure out what else individuals 
need in order to be self-sufficient.
    Mr. Davis. Okay. Mr. Raglow?
    Mr. Raglow. Thank you. I would focus on principles more 
than policies. And we can't just talk about the need on one 
side, and the challenges on the other. It is the rights of the 
individual, and the rights, and our solidarity of being with 
those who are in need, but also the responsibilities that they 
have, and that we have to each other. So it is rights and 
responsibilities. It is work for the common good, we have an 
obligation to take care of the poor in our midst today, but we 
have an obligation to do it with today's resources, and not 
those of my son, who is sitting here beside me. We have to make 
sure we are doing it with today's resources, and not his 
resources.
    And so there is a balance between the amount of resources 
that are brought to bear, and the engagement that we have with 
the individual. And there has to be a balance, as was mentioned 
earlier, at the local level is best.
    Mr. Davis. Well, thank you. What is your son's name?
    Mr. Raglow. Thomas.
    Mr. Davis. Thomas? How old are you, Thomas? Thanks for 
coming to Washington, D.C. I am just using the last of my time, 
down to 3 seconds. I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Those are Mr. 
Lucas's constituents, not yours, Davis.
    Mr. Davis. We will apologize now.
    The Chairman. Mr. Allen, for 5 minutes.
    Mr. Allen. Mr. Chairman, I want to thank you. This has been 
very enlightening. And, of course, we all want solutions, and, 
Mr. Samuels, I congratulate you. You are one of my new heroes. 
I have had several that have been in hearings here, but I 
realize the courage it takes to say, hey, I have to change 
things. And I appreciate where you have come from, and where 
you are, and I congratulate you on that. And I will feel like 
my role as a Member of the United States Congress will be 
complete when every American has that same story.
    I have said this for years, that the intact American family 
is the greatest economic engine ever created. We haven't talked 
about the family unit a whole lot here, and I realize that the 
statistics are out there about the poverty rate is much higher 
because of the breakup of the family. I would like your input 
on that, and, obviously, what we can do here to promote the 
family. And I will just start, Mr. Raglow, at this end, and if 
you could--or your son may want to address that question.
    Mr. Raglow. Every program at Catholic Charities is centered 
on a family strengthening. Whether that is immigration legal 
services, migration and refugee services, disaster assistance, 
they are all focused on the family, because that is the sub-
unit from which society springs, and so we need to strengthen 
that. Resources are a part of that problem.
    The challenges that were mentioned by other speakers here 
today in many cases stem from the dissolution of the family, 
and the weakening of the family. And so, in all that Catholic 
Charities does, we strive to strengthen the family unit, 
because that is the basic element. And resources are a part, 
but they are not sufficient.
    Mr. Allen. Mr. Samuels?
    Mr. Samuels. Well, at STRIVE DC, less than 20 percent of 
our clients have intact families. One of the things we have 
been trying to do over the years is connect the families. 
Because once the families are connected, mom and dad are 
married, kids end up being successful, the dog ends up being 
successful. But----
    Mr. Allen. Everybody is happy, right?
    Mr. Samuels. Everybody is happy. And at the end of the day, 
that is what we are striving for, to make everyone happy.
    Dr. Babcock. And one of the things that we know, from the 
data around marriage, is that not only is the intact family a 
good economic engine for growth for our society, but also that 
the rates of solid family formation are increased with the 
increase of earnings that we have. It is a directly correlated 
thing.
    And the interesting thing, Congressman, is that we have 
found that, with our 98 percent low income, single parent 
families, that as their incomes gain, as they create this 
economic process for themselves, that their relationships gain 
as well. We actually have reuniting of family members in the 
process, and increased rates of two-parent household formation, 
stable household formation, and marriage as well. It has been 
an interesting byproduct, and not one that we expected.
    Mr. Allen. That is wonderful. Mr. Collins?
    Mr. Collins. Yes. Real quickly, I am familiar with a 
program that actually does case management with the family. 
That is not something that we do in my particular program, but 
Housing and Urban Development--HUD, through various public 
housing authorities, has a component, where they case manage 
the family. The child has to go to school, they can't be 
truant, they can't get kicked out, otherwise the family is 
removed from the program. What I like about the program, 
though, is it incentivizes work.
    Mr. Allen. Yes.
    Mr. Collins. Everyone has to participate in the plan. For 
every dollar gained through employment from any of the work-
eligible family members, the amount gained is placed in an 
interest-bearing savings account that continues to grow for up 
to 5 years. The idea is to move this family through so they 
might use the money as a down payment on a home of their own, 
or start a new business or what have you. But the idea of case 
managing the family is a unique one. It is not necessarily the 
way we do business.
    Mr. Allen. Right. Well, I think that what we want to strive 
for is for these programs to give an incentive to promote the 
family, rather than drive the family apart. Thank you very much 
for your time here this morning.
    The Chairman. The gentleman yields back. Mr. Neugebauer, 5 
minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman. Thank you for 
holding this hearing. One of the common things that we have 
heard from both the panelists and the Members is this word 
incentive. And I was just looking here, in 1969 there was 2.8 
million people on food stamps. In 1980, 21 million people on 
food stamps. 1990, only 20 million people. In 2014, there are 
46 million people on food stamps. The question is, obviously 
the way we are doing things now doesn't seem to be moving, or 
moving in the right direction, or working. Mr. Raglow, just for 
my own edification, how are you compensated for the work that 
you do with potential food stamp recipients?
    Mr. Raglow. Catholic Charities relies largely on our local 
community and parish support for the work that we do. We do get 
Federal revenue for our migration and refugee services 
programs, and that constitutes about 12 percent of our roughly 
$5 million budget. But the rest of that budget is from local 
support.
    Mr. Neugebauer. Mr. Samuels, your program, how are you 
compensated?
    Mr. Samuels. Okay. So, for the last 2 years STRIVE DC has 
received government funding, working with juvenile offenders 
and food stamp recipients. A lot of our funding in the past has 
come from foundations and individual donors.
    Mr. Neugebauer. Yes, because the thing that, for me, and if 
we are going to talk about incentive, everybody in the food 
chain, and no pun intended here, but everybody in the food 
chain has to have some incentive for us to do better. Because 
we owe it to your son, we owe it to my grandchildren, to do 
this cost-effectively, but also do it appropriately. And I 
don't think anybody in Congress wants people that are 
desperately in need, and cannot help themselves. We don't want 
to leave them, and let them fall through the cracks.
    But the fact that we have seen such a rapid growth in this 
program, I guess the question I have is are there better 
models, where, one, we can incentivize both the people that are 
on food stamps to do better, but also build incentives into the 
system, so that, when we start talking about resources, if you 
have a program, and you are succeeding, and you are 
transferring more people, integrating them, and moving them out 
of the system, that you are able to resource your organization 
appropriately. And, at the same time, we leave a little 
dividend for the taxpayers.
    And so I guess my final question is where in the system do 
you see areas where there are inefficiencies that we could look 
at that we could make the system better, and incentivize that 
behavior? And, remember, incentives are two things. Sometimes 
you can motivate somebody to do something by offering them 
something, and sometimes you can motivate somebody by taking 
something away from them.
    Mr. Collins. Congressman, my program is unique in that the 
portfolio that I oversee, some of my contracts are 100 percent 
performance-based. The WeCARE program itself covers the cost 
for case management, but, quite frankly, if I don't deliver on 
placements and retentions, I can't make up the rest of the 
money. So we have a built-in incentive in the way the contract 
is modeled. Which, again, is just an outgrowth of local 
flexibility.
    Mr. Neugebauer. Okay.
    Dr. Babcock. The families that we work with have a 44 
percent earned income gain within the first year, and their tax 
payments go up by 35 percent. We know, from a return on 
investment analysis, that the investments we are making in 
these families are cost-effective for the public dollar, and 
decrease subsidies, and increase tax payments. You are right in 
saying that we have to expect these interventions to prove 
their worth, and we have to work with families in a way that is 
going to be able to create that public value for the 
interventions that we have. I believe ours are doing so.
    Mr. Neugebauer. Mr. Raglow?
    Mr. Raglow. We work with our clients, not all of which will 
be independent and self-sufficient, so there are more than one 
category of client. But where we can, we work with the clients 
on a path they determine, based on their desire, their 
objectives, their talents, and their skills, and their 
training. We connect them with those resources so that they can 
take steps on the path. We may not get them to the final 
destination, but we will get them further along it.
    The Chairman. The gentleman's time has expired. Mrs. 
Walorski, 5 minutes.
    Mrs. Walorski. Thank you, Mr. Chairman. And to all of you, 
I am so grateful that you are here, and I can tell you that, 
since the beginning of this Congressional period, I am Chairing 
the Subcommittee on Nutrition, which looks at this whole SNAP 
program. And, since January, we have been looking at this 
holistic view of case management. It is so refreshing for me to 
sit here, because I do believe that partnering with other 
organizations that are on the front line, bringing in 501s, and 
bringing in programs that really are addressing more than just 
the need of just simply food, or nutritious food, but actually 
talking about the things that you are all sitting here talking 
about. You are the experts. One the things that historically 
has gone on inside this Congress is, you are the experts, we 
are the funders, and the two have never really met, connected, 
to find out what is working, and let us implement that, so 
everybody wins in this country, the taxpayer and those that are 
in a vulnerable position.
    And I think that we have seen, and now it is such a breath 
of fresh air to hear from you, the importance of case 
management. Because one of the things we talked about a couple 
of months ago in this Committee was the issue of what is 
success? How does the government rate success in a program that 
is just all government driven? And it is just literally you 
plug into a formula, and if you qualify for the formula--and 
what else can the government do well, should the government do, 
but more importantly, what happens to the vulnerable American 
people that are literally just putting in a card and receiving 
X for Y, and there is no other place anyplace else to get help 
with job skills, with, in some cases, social work management. 
In some cases domestic abuse, with single moms with kids, and 
the things that go on.
    So one of the things I am pleased to hear from you, from 
all of you, is the issue of why case management is important, 
and the issue of engaging with people. I don't think we will 
ever be successful without engaging locally, and, to your 
point, Mr. Collins, maximum flexibility at a local level. 
Definitely looking for the places that produce the best 
success, and success rated not just in how many people come off 
the program, but the people that are really taken care of, and 
moved on to success, and all boats rise when the tide rises.
    So, Mr. Raglow, just quickly to you, what is the key--and I 
know you are all different organizations, but what do you find 
is the key in getting people to actually engage with your 
organization?
    Mr. Raglow. Thank you. It is different across 16 programs, 
but, as one example, our Sanctuary Women's Development Center, 
which serves homeless women and women with children, again, 
couch surfing, car homeless, street homeless, the initial 
engagement is at a place where they can get a shower, get 
laundry done, engage on the Internet to do job resumes and stay 
connected with family and friends. We don't require them to be 
in case management. We offer case management.
    And out of 600 women and children that come to us each 
month, we have about 150 that are in case management, and about 
ten a month that are getting into permanent housing, and we 
count it successful only after they have been in housing 6 
months or longer. But it is that initial phase of relationship, 
which is why, and only why, I push back on the requirement for 
a work requirement. I don't want that to be an obstacle to them 
coming to us. But over time, in our rent and utility 
assistance, if they get rent and utility assistance, and they 
don't engage in our family HOPE program, then we don't continue 
to just cut checks for rent and utility assistance. So there is 
a little bit of a back and forth, and a relationship that is 
built from that initial engagement.
    Mrs. Walorski. And, Mr. Collins, just quickly, do you----
    Mr. Collins. Yes.
    Mrs. Walorski.--have a comment on that?
    Mr. Collins. Four things I just noted. We do outreach, so 
we do pre-calls to make sure the people come in. We follow up 
to make sure that they get what they need. If we have to do 
some sort of troubleshooting over the phone to get them 
present, we will do that. We provide reasonable accommodations 
for people. We do wellness follow-up by phone so our 
participants can decide to change the appointment type from 
face to face to a phone appointment. As mentioned on occasion 
even if we do pre-calls, to let people know that they have an 
appointment coming up, it might just be in some cases we will 
actually do a home visit. All of these have been great tools 
for us.
    Mrs. Walorski. Just let me interrupt you really quickly, I 
only have 30 seconds left, but do you see, by and large, when 
folks come in and engage in this program, and I guess to you, 
Mr. Raglow, as well, you said some people don't want case 
management. Some people just literally are going to come in, 
and they are going to go by the program. But a large 
percentage, 150 out of 600 is a large percentage, of people 
that actually want to move through a program and get back on 
their feet.
    Do you think right up front a work requirement, and even if 
it is a basic, minimal work requirement, do you think that 
turns people off into getting involved in something like case 
management, or do you think that it is a barrier for people to 
actually want to be involved in case management because they 
are afraid somebody is going to have to say, you are going to 
have to go to work, or do you think that, by and large, the 
larger percentage of people come in with the attitude that 
says, maybe they can help me get out of this mess?
    Mr. Collins. The work requirement is the decision point----
    Mrs. Walorski. Yes.
    Mr. Collins.--for everybody. So, without it, it is hard to 
make the decision. The job doesn't have to be perfect, nor does 
the requirement, but the fact that the requirement exists 
allows us to engage with someone and determine how best to help 
them. So you have to have that framework, in my opinion.
    Mrs. Walorski. I appreciate it. Thanks----
    The Chairman. The gentlelady's time has expired. Ms. 
Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman. Good morning to 
everyone. Mr. Collins, you were talking about the work 
requirement, or any of the witnesses, what happens when you are 
in a locale or a location where the unemployment rate is so 
high that there may not be work available?
    Mr. Collins. That brings to mind a perfect example of a 
state that had that challenge prior to TANF. It was the State 
of Wyoming that I believe had about 10,000 participants on 
public assistance that today probably has less than 150. And 
the interesting thing about that I am sure that people would 
say that one of the barriers was that they couldn't go to work 
because they didn't have any transportation. Well, the truth is 
that is a problem for everybody in the State of Wyoming. Again, 
with the flexibility to address the problem with a local 
solution, Wyoming was able to figure hour the pathway forward 
to employment for many of the people they serve on their public 
assistance caseloads.
    Ms. Plaskett. So you talked about transportation, and I am 
talking about jobs. This was brought up from the gentlewoman 
from New Mexico earlier, but I live in a location where we have 
had a 13 to 15 percent unemployment rate. That is not a matter 
of people not being able to find transportation. That is a 
matter of, when they get to the location--and Virgin Islanders 
will walk anywhere--we are not that big--so they will walk into 
your office, and the determination is made that they need to 
have a job, to be part of the program. What happens to those 
people who are actively looking for work and cannot find that? 
Dr. Babcock, what happens in those instances?
    Dr. Babcock. Well, I guess what I would say is that the 
ability to case manage, the ability to engage with people to 
help themselves move out of poverty is not filling someone's 
stomach, and it is not putting a roof over somebody's head, and 
it is not helping them deal with the immediate needs that they 
have for survival, and we have to differentiate between the 
two.
    Ms. Plaskett. Yes.
    Dr. Babcock. The need for basic requirements of living have 
to be supported in some way in order for people to actually get 
to the place that they can listen to and----
    Ms. Plaskett. And what do you think----
    Dr. Babcock.--work with a case----
    Ms. Plaskett.--those----
    Dr. Babcock.--manager.
    Ms. Plaskett. And what do you think those basic 
requirements are? What, in your estimation----
    Dr. Babcock. Our----
    Ms. Plaskett.--in your work has found?
    Dr. Babcock. Our experience has been, with the families 
that we work with, as I said, 1,400 individuals a year, and we 
have no requirements for work, and yet we get 78 percent work 
rates out of the families that we work with, which is entirely 
voluntary. We have no experience that work requirements are 
necessary in order to engage families. What we have is an 
experience of a basic platform of safety being necessary, 
safety and basic living being necessary, and then a partnership 
with someone who can help a family get the toehold they need to 
move ahead.
    Ms. Plaskett. Well, my belief is that part of that safety 
net is knowing that your children are going to eat----
    Dr. Babcock. Exactly.
    Ms. Plaskett.--and even if you don't have children, if you 
have food in your stomach, then you can be more effective in 
looking for a job for yourself.
    Dr. Babcock. That is exactly right.
    Ms. Plaskett. And I think that that is a basic requirement 
that we need to think about. And while it is very great for us 
to think that we need to wean those individuals off of the 
program so that they can be self-sufficient, I don't believe 
that there are that many people out there who want to remain on 
the back of the government, that individuals want to be able to 
do that.
    And my concern is that we tie these programs to jobs, and 
in those areas of America where there are no jobs, there are 
still going to be people, then, who are hungry because they are 
not able to fulfill that requirement that we are putting on 
them.
    Dr. Babcock. Or what we find in our partner states is that 
where job requirements are in place, there is also in place 
documentation requirements for proof that that job is being 
sought. And the time required, and the documentation required 
to prove that one is in compliance takes away from the time 
that one would be spending actually seeking those jobs, or 
seeking the skills that would get them into the job that can 
sustain the family as a whole.
    Ms. Plaskett. Thank you. Mr. Raglow, we have, in the Virgin 
Islands, very strong work with Catholic Charities. They do a 
lot of work down there. And aside from feeding, and being a 
part of food programs and nutrition programs, it is providing 
work incentives to try and re-skill people so that they are 
able to find new jobs. Can you talk about how those programs 
work together?
    Mr. Raglow. Absolutely. The thing that you mentioned 
earlier, about the work requirement, the reason that I am 
opposed to a work requirement is that I don't want to miss the 
opportunity to engage in a relationship. But once I have that 
relationship, I want to work with these clients. I worked in 
southern Nevada, in Las Vegas, at the height of the Great 
Recession----
    Ms. Plaskett. Yes.
    Mr. Raglow.--and we restructured a program, criteria-based, 
four phase, time bound, that got 16 percent each quarter of the 
men that came to us from the streets employment, because the 
first job isn't the last job. So it can be done by working with 
the client.
    Ms. Plaskett. Thank you. Thank you----
    The Chairman. The gentlelady's time has----
    Ms. Plaskett.--Mr. Chairman.
    The Chairman.--expired. Mr. Thompson, for 5 minutes.
    Mr. Thompson. Mr. Chairman, I apologize for my tardiness to 
this hearing, but I really wanted to be here to be able to ask 
some questions of the panel. Thank you for your written 
testimony, and thank you for what each of you do, and those you 
are representing do in this issue. I mean, we are talking about 
what I prefer to be called programs of opportunity. And 
recognizing, with the last questioning that went on, there are 
some folks that, no matter what we do, unfortunately, by 
whatever circumstances, they are kind of going to be in that 
mode.
    I spent my entire career working with people who had severe 
disabilities, and these folks, I mean, you couldn't even 
imagine the level of disability some of these individuals had, 
but they all wanted that opportunity. They wanted to be able to 
be a part of the fabric of the community. They wanted to be 
productive. They wanted to learn. They wanted to be employed. 
And so we need the safety net element, certainly, but more than 
anything else we need to make sure that, as we do these 
programs, we make them programs of opportunity, to help people 
grow out of needing that safety net.
    Mr. Raglow, with Catholic Charities, what is the value of 
community organizations? In our last full Committee hearing on 
SNAP we heard from various organizations that work within their 
communities to engage with individuals who have fallen on hard 
times to help them get back on their feet. I worked with a 
number--I was a member of the Private Industry Council, Center 
County, that helped people with workforce development. My area 
Lions Club, we worked with making sure that people had food, 
and actually, a lot of our members actually go out and deliver 
the food to those who have limited transportation. It is a very 
rural area. Can you elaborate on the value of these types of 
community organizations, what that adds to helping individuals 
reach self-sufficiency, and what makes your organization 
unique?
    Mr. Raglow. Thank you for the question. And we believe, and 
I appreciated your earlier comments about the value of work. I 
mean, the dignity of work is a gift itself, and allowing people 
to engage in that affirms them as an individual.
    As community organizations, I don't want to compete with 
organizations that do work better than I do. I want to partner 
with them. I want to collaborate with them. There are Southern 
Baptist Disaster Relief. There are none better at removing 
debris. Why would I compete with that? But I do long term 
recovery case management, and they don't. And working together, 
we better serve the community. And, as I mentioned to a 
previous questioner, there are some people that don't want to 
see Catholic Charities because of our first name, and others 
that don't want to go to the Salvation Army for that name. So 
we, together, will hit more people, and work together, and 
serve the community more effectively.
    Catholic Charities serves because we are Catholic, not 
because our clients are Catholic, and they don't need to become 
Catholic in order to get services. We serve based on need, not 
on creed. We are proud of who we are, and how we operate, and 
how we serve, but we very much work with the government. Now, 
again, I don't have a lot of contracts with the Federal 
Government, but all of my clients benefit from government 
programs of one sort or another. So we work with the 
government, we work with our partner agencies in the town, and 
we work in small communities, as well as in the major city of 
Oklahoma City.
    Mr. Thompson. And why the heavy reliance on private 
funding, and are there advantages, disadvantages to that?
    Mr. Raglow. I think the reliance on private funding is a 
gift to us at Catholic Charities. Organizations tend to be like 
sunflowers, we look at the source of our light. And I think 
that having the ability to operate as a Catholic agency, as 
opposed to a government extension, is very valuable to those we 
serve, and to those that support us.
    Mr. Thompson. Mr. Samuels, your organization, obviously 
STRIVE DC, relies, I believe, on a lot of private funding. Can 
you speak to advantages, disadvantages of that?
    Mr. Samuels. Well, over the last 2 years we have had a lot 
of government funding. Almost 80 percent of our funding was 
government. Previously we have received private funding. The 
benefits of private funding is easy. We are able to do what it 
is we want to do with that money. With a lot of government 
money, there are a lot of parameters that you have to follow in 
order to get those----
    Mr. Thompson. Can you speak to some of those----
    Mr. Samuels. So, for instance----
    Mr. Thompson.--attached?
    Mr. Samuels. This is probably the wrong space to talk about 
it, but I have been working right now with the District 
Government with the food stamp for employment program. We have 
had an invoice--we have been working, actually, with them since 
December. We have invoiced for three payments, and I haven't 
received a payment yet. That is one of the problems with small 
nonprofits working with the government agencies, they hold 
money. And as a small nonprofit, if I can't pay my staff, what 
happens to my clients? And my clients are the most important 
things to me.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman's time has expired. 
I want to thank our panelists for being here today. First off, 
participating in saving the world in 5 minute slots. It is 
frustrating, but it is our system.
    Mr. Collins, I was particularly impressed with your 
comments about low expectations versus high expectations, that 
you if set the bar higher for folks, they strive to meet those. 
And, Mr. Samuels, you had a similar comment, referenced strict 
standards that you make your clients adhere to. Mr. Raglow and 
Dr. Babcock, you both talked very eloquently about the case 
management, the values there, as did the others as well.
    The solution for the cliff is a struggle for all of us. It 
is not rocket science. We have just discovered that benefit 
cliff this morning. The case managers are the thin neck of the 
funnel. We in the Federal Government, state governments, and a 
lot of folks are at the top of that funnel, and we pour stuff 
in. In this environment, we develop these programs across a 
variety of committees, which makes the solutions even more 
difficult, because we all jealously guard our piece of that 
slice.
    We assume housing is the only problem, so put the housing 
in the funnel. We assume child care is the issue, and throw a 
bunch of child care. If SNAP is the issue, we through SNAP into 
the funnel, and it all comes down to your case managers. And we 
have to do a better job. We spend a lot of money across this 
government on all these programs. We need to demand more of 
ourselves to get this right. It is a daunting task.
    I had a meeting with folks yesterday supportive of the SNAP 
program that are terrified that this whole endeavor, the past, 
present, future of SNAP is some subversive attempt to cut the 
program, or gut the program. Nothing could be further from the 
truth. We wouldn't have asked you here today to ask for your 
solutions and your insights if that were the case. Young Thomas 
back there has an awful lot of debt stacked up on him. We ought 
to be trying to limit that as well.
    So there are a lot of competing tensions in this issue. All 
of us have a heart--most of us have a heart--for the poor. 
Christ said the poor you will have with you always. And that is 
not to tell us that we shouldn't be doing our jobs, but in much 
of this instance we have asked the Federal Government, the 
Federal taxpayer, to do things that families and local 
communities are far better suited, far more nimble at taking 
care of business in that regard. This government is ill suited 
to do what you do, to try to even remotely do it. We put one 
size fits all programs in place. It doesn't work in Detroit, 
doesn't necessarily work in Oklahoma City, doesn't necessarily 
work anywhere. But you are so much more nimble. The innovation 
that you bring to the table is very appreciated.
    My colleagues and I have a lot of work to do across a lot 
of committees, not just the ones here on the Agriculture 
Committee. Finding the solution for that benefit cliff is going 
to be key, because all families are going to operate in their 
own best self-interest. And if the cliff requires them to turn 
down hours of work, or not do jobs that make a little bit more 
money because, in their own self-interest, it hurts them there, 
we can't criticize those folks because of that. We just have to 
figure out a way so that they are not challenged with that 
moral dilemma of losing the dignity of work, of losing the 
dignity of taking care of themselves because of the way we have 
stuff structured. We need to fix that, as opposed to blaming 
them for operating in their own self-interest.
    So we are all in this together, and any other insights or 
thoughts you have in this regard would be very appreciated by 
the Committee. And, with that, under the rules of the 
Committee, the record of today's hearing will remain open for 
10 calendar days to receive additional material and 
supplemental written responses from the witnesses to any 
question posed by a Member. This hearing of the Committee of 
Agriculture is adjourned.
    [Whereupon, at 12:00 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Letter by Hon. Alma S. Adams, a Representative in Congress 
 from North Carolina; on Behalf of Clyde W. Fitzgerald, Jr., Executive
           Director, Second Harvest Food Bank of Northwest NC
June 10, 2015

  Hon. Alma S. Adams,
  Member of Congress,
  Washington, D.C.

    Dear Congresswoman Adams,

    Thanks very much for your invitation to provide input on the 
economic challenges faced by people served by the Second Harvest Food 
Bank of Northwest NC for your use in the House Agriculture Committee 
hearing this week.
    In spite of an improving national economy, there is a sustained, 
significant and still growing need for food assistance across our food 
bank's 18 county service area. Over the past 12 months, 62% of our 
partner programs report meaningful increases in the number of requests 
for food assistance.
    Our network currently provides over 300,000 individuals with the 
food and hope they so desperately need. This is up from 135,000 in 
2009. Unemployment and significant underemployment are the driving 
forces in this tremendous increase. The demise of our region's 
manufacturing sector has displaced tens of thousands of our neighbors 
through no fault of their own. These people generally have no chance to 
participate in the growth of the high-tech sector, as 32% of adult 
recipients of food assistance in our region have less than a high 
school degree versus only 14% of adults nationally.
    We truly serve the working poor . . . as the majority of those we 
serve have at least one job in their household . . . and many hold 
several jobs trying to make ends meet. Unfortunately, about 60% of 
those jobs are part-time, meaning fewer hours, lower rates of pay and 
no health care coverage.
    We also serve the most vulnerable of our region's citizens, as 
fully \1/3\ of those we serve are children and 10% are seniors.
    The economic challenges faced by those we serve are staggering! 
Consider that 78% of our hungry neighbors are from households living at 
or below the poverty level, with 57% of these households having monthly 
incomes of $1,000 or less.
    The people we serve have to make difficult choices and trade-offs 
to keep food on the table. 84% of households report purchasing the 
cheapest food available to provide a quantity of food, even though they 
know this isn't a healthy option. 73% choose between food and paying 
for utilities, with 30% making the choice every month. 72% choose 
between food and paying for medicine/medical care, with 31% making the 
choice every month. 72% choose between food and paying for 
transportation, with 31% making the choice every month. 64% choose 
between food and paying for housing, with 31% making the choice every 
month. It truly breaks my heart when a parent tells me that their tough 
decision that day is which of their children will eat because they 
don't have enough food to feed the entire family every day. I'm deeply 
saddened when a child tells me that they're not having a good day 
because it's not their day to eat. No child--certainly not one anywhere 
in America--should ever have to say it's not their day to eat! Our 
children deserve better and America can do better!
    As you know, the Food Research and Action Center's (FRAC) April 
2015 report on food hardship among the general population named North 
Carolina as the 8th worst of the 50 states. The Greensboro-High Point 
MSA (part of your 12th district) was ranked No. 1 worst in the nation 
regarding the percentage of the total population that suffers food 
hardship. This area was the No. 2 worst in the previous report. FRAC 
also reports that the Winston-Salem MSA (also part of the 12th 
district) is the worst metropolitan area in the country regarding the 
percentage of households with children that suffer food hardship 
(34.8%). The problem of hunger is quite severe and it continues in 
spite of significant actions to address the issue. Additionally, 
Feeding America's 2015 Map the Meal Gap Study reflects that NC's 12th 
District is the worst in our state for food insecurity among both the 
general population and children and is among the worst ten 
Congressional districts in the country.
    Dr. Adams, the statistics about hunger in our region are simply 
unacceptable. Our neighbors are suffering and they need our continued 
assistance in their struggle for the bare basics in life. The mission 
of Second Harvest Food Bank of Northwest NC is to provide food and hope 
to the many who, unfortunately, have far too little of both.
    Thank you for your passionate and long-term engagement in working 
toward solutions to the problem of hunger. Your recently announced 
Adams Hunger Initiative has been widely publicized in our region. We 
deeply appreciate your much-needed leadership in our region and on a 
national basis.
            Sincerely,
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Clyde W. Fitzgerald, Jr.,
Executive Director.
                          Submitted Questions
Response from Patrick J. Raglow, Executive Director, Catholic Charities 
        of the Archdiocese of Oklahoma City
Question Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question. Ms. Mr. Raglow, many under-served areas or communities 
with high poverty rates do not have access to good-paying jobs that 
would allow an individual to eventually earn enough income to no longer 
need to participate in the SNAP program. How would you recommend 
incentivizing SNAP participants to find work when many of the available 
jobs in are part-time or do not improve their economic mobility?
    Answer. Representative Adams, thank you for the excellent question 
and this opportunity to respond. My primary response is to repeat my 
earlier statement that we should seek work not so much as a requirement 
but rather as an opportunity, one which engages individual talents in 
ways that both acknowledge and confer self-worth. Franklin D. Roosevelt 
is quoted on the monument to his memory that ``more important than the 
material gains will be the moral and spiritual value of such work.'' 
With that as premise, I submit that whether or not the work in which 
they might engage earns sufficient income to make recipients no longer 
eligible for SNAP is not the only objective. Participating in work is a 
means to participate in society, and the value of work has an intrinsic 
value beyond earned pay. Further, participation in the workforce allows 
opportunity for growth in the workforce--quite often the first job in 
which one is hired is not their last job, for job performance and 
history often open doors previously unavailable. As for incentivizing 
SNAP recipients to engage in work, my recommendation is not to create a 
new SNAP-based work program. Rather, I would recommend that SNAP 
benefits be linked at the local level, through case management, to 
already existing public or private sector work programs or ideally to 
work itself.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
